<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-355]
[From the U.S. Government Printing Office]




                                                S. Hrg. 107-355, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1416

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2002 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 7

                               STRATEGIC

                               ----------                              

                  APRIL 25; JUNE 26; JULY 11, 25, 2001


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                        2002--Part 7  STRATEGIC



                                                 S. Hrg. 107-355, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1416

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2002 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 7

                               STRATEGIC

                               __________

                  APRIL 25; JUNE 26; JULY 11, 25, 2001


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
75-352 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia,
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                 ______

                       Subcommittee on Strategic

                    WAYNE ALLARD, Colorado, Chairman

STROM THURMOND, South Carolina       JACK REED, Rhode Island
BOB SMITH, New Hampshire,            ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
                                     E. BENJAMIN NELSON, Nebraska

                   JACK REED, Rhode Island, Chairman

ROBERT C. BYRD, West Virginia        WAYNE ALLARD, Colorado
DANIEL K. AKAKA, Hawaii              STROM THURMOND, South Carolina
BILL NELSON, Florida                 BOB SMITH, New Hampshire,
E. BENJAMIN NELSON, Nebraska         JAMES M. INHOFE, Oklahoma
JEFF BINGAMAN, New Mexico            JEFF SESSIONS, Alabama

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
 The Fiscal Year 2002 Budget Request of the National Nuclear Security 
                             Administration
                             april 25, 2001

                                                                   Page

Gordon, Gen. John A., USAF (Ret.), Administrator, National 
  Nuclear Security Administration................................     4
Robinson, Dr. C. Paul, President of Sandia Laboratories..........    46
Tarter, Dr. C. Bruce, Director, Lawrence Livermore National 
  Laboratory.....................................................    60
Browne, Dr. John C., Director of Los Alamos National Laboratory..    80
Buggy, Joseph J., President of Westinghouse Savannah River 
  Company........................................................    93
Mitchell, John, President of BWXT Y-12...........................    96
Douglass, David, President of Honeywell Federal Manufacturing and 
  Technologies...................................................   101
Ruddy, Dennis R., President and General Manager of BWXT Pantex 
  LLC............................................................   104

 Department of Energy's Budget Request for the Office of Environmental 
                               Management
                             june 26, 2001

Huntoon, Dr. Carolyn L., Acting Assistant Secretary of Energy for 
  Environmental Management, Department of Energy, Washington, DC.   156

 National Security Space Programs, Policies, Operations, and Strategic 
                                Systems
                             july 11, 2001

Eberhart, Gen. Ralph E., USAF, Commander in Chief, United States 
  Space Command..................................................   212
Mies, Adm. Richard W., USN, Commander in Chief, U.S. Strategic 
  Command; Accompanied by Maj. Gen. Franklin J. Blaisdell, USAF, 
  Director, Nuclear and Counterproliferation, Office of the 
  Deputy Chief of Staff for Air and Space Operations; and Rear 
  Adm. Dennis M. Dwyer, USN, Director, Strategic Systems Program 
  Office.........................................................   238

                        Global Power Projection
                             july 25, 2001

Roche, James G., Secretary of the Air Force; Accompanied by Gen. 
  John P. Jumper, USAF, Commander, Air Combat Command; Lt. Gen. 
  Joseph H. Wehrle, Jr., USAF, Deputy Chief of Staff for Plans 
  and Programs; Maj. Gen. John R. Baker, USAF, Assistant Deputy 
  Chief of Staff, Air and Space Operations, Air Force Staff; Maj. 
  Gen. Paul A. Weaver, Jr., ANG, Director, Air National Guard; 
  and Brig. Gen. John D.W. Corley, USAF, Mission Area Director of 
  Global Power Programs, Office of the Assistant Secretary of the 
  Air Force for Acquisition......................................   268

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                       WEDNESDAY, APRIL 25, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

 THE FISCAL YEAR 2002 BUDGET REUQEST OF THE NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Thurmond, Reed, 
Akaka, and E. Benjamin Nelson.
    Committee staff members present: Scott W. Stucky, general 
counsel; L. David Cherington, counsel; and Ann M. Mittermeyer, 
assistant counsel.
    Professional staff members present: Mary Alice A. Hayward 
and George W. Lauffer.
    Minority staff member present: Madelyn R. Creedon.
    Staff assistants present: Beth Ann Barozie and Thomas C. 
Moore.
    Committee members' assistants present: Margaret Hemenway, 
assistant to Senator Smith; Douglas Flanders, assistant to 
Senator Allard; Terrence E. Sauvain, assistant to Senator Byrd; 
Elizabeth King, assistant to Senator Reed; and Davelyn Noelani 
Kalipi, assistant to Senator Akaka.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I want to welcome all of you this afternoon 
to this hearing of the Strategic Subcommittee, and we look 
forward to hearing all of your comments. We are going to have 
two panels: The first panel will be General Gordon, 
Administrator of the National Nuclear Security Administration 
(NNSA). The second panel consists of seven of you and when we 
get to the second panel, we are going to have 5-minute limit on 
your testimony. The staff will help me a little bit. If we do 
not, we will run out of time. I want to give everybody an 
opportunity to say their piece as far as communicating with the 
subcommittee. So, we will handle those two panels just a little 
bit differently.
    Today, the Strategic Subcommittee will learn about the 
progress that the National Nuclear Security Administration is 
making to provide for safe, secure, and reliable nuclear 
weapons programs.
    As we consider NNSA's fiscal year 2002 budget request, our 
second such request since the agency's formation, we want to 
make sure that NNSA is putting together the best possible 
program to continue to ensure a strong national deterrent.
    I know General Gordon has been working tirelessly to bring 
together his team at the NNSA and to reorganize the Department 
of Energy's (DOE) Defense Programs to provide a cohesive 
management structure that avoids the pitfalls that have plagued 
these programs in the past.
    Over the past 2 years, there have been several reports 
examining programs now in the NNSA. These reports were critical 
of DOE's management, security failures, infrastructure, of 
personnel retention and replacement policies, as well as 
specific campaigns or projects.
    The underlying theme through virtually all of the reports 
was the enormity of the challenges facing NNSA. Although there 
was agreement that we have the best and brightest people 
working on the world's most impressive science program, there 
were also deep reservations about the general health of the 
program.
    With the formation of the NNSA, we sought, and continue to 
seek, a new chance to provide a world-class, science-based 
nuclear weapons program and matching world-class operations, 
infrastructure, and workforce to carry us well into the 21st 
century.
    As we hear from our witnesses today, I hope we can learn 
how to move beyond the system that in some places seems to be 
repaired with a short-term fix instead of a comprehensive 
program which at the end of 10 years will still provide a 
durable infrastructure and a lasting legacy.
    I hope we can learn how to make sure we have a highly 
skilled workforce equal to our existing scientists, engineers, 
and technicians. Our Cold War warriors need to see an increase 
in apprentices whose training has occurred since the end of the 
Cold War. Perhaps more importantly, our next generation of 
workers needs some onsite training alongside experienced 
weapons designers.
    Our seasoned workforce offers unique expertise that is of 
great value, and such a resource should not be wasted. 
Challenges to our Nation's weapons programs, infrastructure, 
and workforce expose us to a variety of vulnerabilities now and 
in the future. Although some of the fixes will require 
additional funding, many of the existing problems may be 
fixable with innovation, better management practices, and 
disciplined funding plans, not more money.
    The subcommittee also would like to hear about specific 
issues pertaining to how the NNSA is meeting its national 
security requirement. Accordingly, the subcommittee is 
interested in hearing about the progress with our capability to 
produce replacement tritium.
    Additionally, we are interested in hearing about our 
progress with plutonium and pit production, including both 
short- and long-term solutions. We are interested in knowing 
about our major campaigns, including the National Ignition 
Facility (NIF) and the Advanced Simulation and Computing 
Initiative (ASCI).
    General Gordon, you should feel free to comment on any of 
the issues I have raised. Then, the second panel of 
distinguished witnesses can reply specifically to those issues 
or programs that impact them.
    Several of these issues will also be raised in the 
question-and-answer portion of the hearing. Again, I want to 
thank our witnesses for being here today and I look forward to 
hearing your comments on these vital programs.
    Senator Reed, I yield time to you for an opening statement.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and good 
afternoon. I would like to join Senator Allard in welcoming 
you, General Gordon, and our many witnesses this afternoon.
    It's a pleasure to see you here today. This is your first 
opportunity to testify before the Strategic Subcommittee and 
your first budget for the National Nuclear Security 
Administration. We look forward to discussing with you this 
afternoon many important programs with respect to NNSA, and 
also your progress over the last year in getting this 
organization up and running.
    We have a large number of witnesses today and a lot of 
ground to cover. If you will let me just highlight those points 
that I think I would like to see responded to and stressed.
    First, I would note the sad state of many of the NNSA 
facilities and the infrastructure overall, the ability of NNSA 
to meet its commitments to the Department of Defense (DOD), and 
maintain a robust Stockpile Stewardship Program (SSP) within 
the requested budget, the impact of the significant reductions 
in the nonproliferation programs, including the Russian 
program, as well as the research and development accounts, the 
status of the pit manufacturing and certification program, the 
ongoing DOD strategic review, and DOE's role in that review, 
particularly as it relates to the overall future size of the 
nuclear weapons stockpile, the ability of the DOE and its 
contractors to attract and retain the necessary employees and 
the progress of your organizational efforts.
    I look forward to the continued success of the NNSA, 
General Gordon, and for your continued leadership. I'm 
interested in hearing your plans for the future. Thank you very 
much, Mr. Chairman.
    Senator Allard. Thank you. Any other comments from 
committee members? Senator Thurmond?

              STATEMENT OF SENATOR STROM THURMOND

    Senator Thurmond. In order to save time, I ask that my 
statement be included in the record.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman,
    General Gordon, I join Chairman Allard in welcoming you to your 
first hearing before the subcommittee in your role as the administrator 
of the National Nuclear Security Administration. Your tenure as the 
administrator has reinforced my confidence in your ability to 
reinvigorate our Nation's nuclear security program and provide the 
inspiration to the dedicated and highly professional workforce that 
toils in our nuclear weapons complex.
    Mr. Chairman, I also want to take this opportunity to welcome the 
distinguished members of our second panel. They do a superb job under 
challenging circumstances in providing our Nation the research and 
testing necessary to ensure the viability and safety of our strategic 
nuclear weapons.
    Mr. Chairman, last month the subcommittee received testimony from 
the Panel to Assess the Reliability, Safety, and Security of the United 
States Nuclear Stockpile. The panel painted a no-nonsense picture of 
the state of our strategic arsenal and facilities that are responsible 
for maintaining the stockpile. Their report highlighted just how much 
work needs to be done to guarantee our Nation's nuclear deterrent and, 
more importantly, the deteriorating state of our nuclear facilities. In 
this regard Dr. Schlesinger, a member of the panel, stated: ``It 
troubles this panel to report that portions of the weapons complex 
infrastructure are defective and that the production capabilities that 
remain are fragile. We see an increasingly urgent need for a coherent 
vision, a comprehensive plan, and a programmatic commitment to reverse 
these adverse trends. Where is this vision? If action is not taken 
soon, I believe a crisis in the weapons program is inevitable.''
    Mr. Chairman, despite these dire warnings, the Fiscal Year 2002 
National Nuclear Security Administration budget request has serious 
shortfalls. I hope that under your leadership we will be able to amend 
the budget to ensure that the administration will have the critical 
funding required to provide the reliability of the stockpile and, more 
importantly, provide for the repair and upgrade of the infrastructure 
that supports the stockpile. I look forward to working with you in the 
coming weeks as you formulate a realistic funding level not only for 
the coming year, but also as we look toward the future.
    Thank you, Mr. Chairman.

    Senator Allard. Without any objection, we will do that. 
General Gordon, proceed if you would, please.

 STATEMENT OF GEN. JOHN A. GORDON, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Gordon. Mr. Chairman, thank you very much for the 
opportunity to come up and meet with you all today and discuss 
the fiscal year 2002 budget and how we're doing in NNSA itself.
    As you mentioned, we have the leadership of the 
organization, including the field organizations that actually 
do the work, with us today. If there's any reason we can't 
answer your questions, it's probably going to be because of 
lack of time rather than the folks we have here.
    But, one point I would make is that because there are so 
many issues that are of interest, if we touch on them too 
lightly, we would, of course, be delighted to come back and 
offer specific briefings on any one of those subjects on which 
you might like to go into in more detail.
    Senator Allard. We appreciate that offer.
    General Gordon. I do want to thank the members of the 
subcommittee for their continuing support for the mission of 
the NNSA and for the people who really make it happen. In 
Washington, in the field, among the Federal workforce, among 
the contract workforce, there are some 37,000 people in all 
that take on these tasks.
    If I could speak for a few minutes about NNSA broadly 
before we turn to the budget issues, I would tell you that 
we're making, in my judgment, steady, albeit slow, progress 
towards the goals that I think we share of having an efficient 
and effective organization to lead and manage the national 
security and nuclear security enterprise that has been 
entrusted to us.
    I'm not satisfied with where we are. What we've been able 
to do is establish NNSA, if you will, as an organization with 
the unique identity and clear lines of authority that we all 
seek. We're moving forward, and I believe we're actually making 
remarkable progress when measured against the barriers and the 
bureaucracy that we sometimes confront.
    Even though it's been difficult to move dramatically on 
organizational issues, we have gotten well beyond some of the 
issues of dual-hatting. We've begun to set up a new framework 
for the management of the NNSA. We've brought on board critical 
staff for vital issues such as counterintelligence, security, 
and contracting. We've made real progress in each of those 
areas.
    We have on board two senior advisors of immense capability 
for science and for policy, a director of congressional affairs 
with a proven track record, an environmental safety and health 
(ES&H) advisor with great professional experience who comes to 
us from Naval Reactors, a senior military assistant, and a 
strong chief of staff who knows the system in great detail. We 
established an Office of Policy Planning Assessment and 
Analyses that should really help us work better in the intra-
agency process, and work better to make sure that our views are 
considered as we move into the policy arenas.
    Mr. Chairman, I elected to spend a huge proportion of my 
time in the early months on the very critical issues, the very 
critical mission-related issues, that were squarely on my desk 
when I arrived last summer, and therefore a little less time on 
the organization itself.
    But, from my perspective, there's been real progress in 
this area. In particular, with morale at the labs and at the 
plants. When we began this organization last summer, this was 
really the biggest problem facing us. Some situations were 
almost desperate.
    I wouldn't want to go so far as to say we've turned that 
around, but we certainly stopped the fall of morale. If you go 
out to the labs and into the facilities, it is a very different 
feel from what was going on out there in the recent past. 
People are now turning to real work and we have some of the 
security issues behind us. There's a very different feel in how 
each of the organizations work. I would encourage you to prod 
the other witnesses toward that point and get their firsthand 
views.
    We've made significant steps in security. Again, if nothing 
else, we're off the front pages of the newspapers on those 
issues. We've asked John Hamre, the former Deputy Secretary of 
Defense, to form a commission to help me think through the 
issues of how we make sure that we can do both security and 
science. We've got into some habitual talk, I think, about the 
balance between security and science and I don't want to 
approach it that way.
    Balance implies that if you do more security you do less 
science, or if you do more science you do less security. We 
really need to be able to do both. I've said on several 
occasions, if it really is a cultural problem with the 
scientists who actually make and design these weapons not 
understanding and not being willing to step up to the security 
that we ask of them, then we are on a fool's errand that will 
never come together.
    I just don't accept that there's a cultural indifference 
that keeps us from being able to do security. We've made good 
progress in that area. We've put a moratorium on new policies. 
We've begun a full review of the policies that have been in 
place and we are involving the people who have to live with the 
policies.
    We've begun a program called Integrated Safeguards and 
Security Management where we try to reach out and bring in the 
individuals involved to help us make the decisions rather than 
tell them exactly, from Washington, how to run their security 
on a day-to-day basis.
    We've had good success in counterintelligence. We're better 
balanced on foreign visitors. The National Academy of Science 
is running a polygraph study for us with respect to how we deal 
with polygraphs. So, we're sharpening up our policies on that 
and I expect to come back to Congress and ask for some 
perfections in the legislation that exists while maintaining 
the very highest standards of security.
    I can report to you that we have a renewed and very 
positive relationship with the Department of Defense, our 
principal partner in our endeavor. The Nuclear Weapons Council 
(NWC) has been revitalized. It meets regularly. It makes 
decisions and it's working well.
    We've begun to work carefully on requirements together, and 
we've agreed upon, for the first time I think, a Stockpile Life 
Extension Program (SLEP) with the military, the user, which 
consists of what systems need to be fixed, in what order, and 
in what time frame. That's quite a remarkable undertaking.
    We have developed a 5-year program on how we would fund 
this project. It's a very important management tool. It's 
hardly perfect by any means on its first go round of this 
issue. There's more work to do. But it gives us a solid look 
ahead, and it's a real tool for making sure we know how we're 
going to fund the programs we start and how we'll follow up on 
them.
    We've rebaselined the National Ignition Facility (NIF) 
program with a clear way ahead. I can report on my visits out 
there and report that we've turned a corner on how we manage 
the program. My first visits out there were hand waving, in 
some ways, talking about the very good science that's going to 
come out of it.
    When we go out there now, there's a discussion of ``Here's 
what I've done last week, here's what we're going to do next 
week, here's the program, here's the money I've spent, here's 
what my problems are, here's what my relationships are.'' It's 
really being run as a project now.
    As has been mentioned in the opening statements, we've 
begun the development of a major infrastructure initiative to 
begin to correct what I think is really a crisis now in the 
facilities.
    Finally, in this area, we hope to get in place a series of 
new contracts for the people who are working with us and for 
us. There're two new contracts at the University of California 
to manage Los Alamos and Livermore National Laboratories with 
significant, different, and stronger provisions in them. We 
have new contracts and new contractors at the Y-12, and Pantex 
Plants, and extended, revised contracts at Kansas City and 
Savannah River.
    Representatives from all of those locations are here with 
me today. I will report that all of those are going very well. 
We're making real and measurable improvements at every 
location, and you can hear from them directly on the second 
panel.
    If I could switch to the broad area of nonproliferation, I 
would argue that we have been equally successful in those areas 
with respect to detection research and development, the 
detection of nuclear, chemical, and biological systems with 
everything from the development of a full-up thermal imaging 
satellite to hand-held detectors for first responders, with 
programs in Russia with the Russian Navy, and the Materials 
Protection, Control, and Accounting (MPC&A) program. We've 
strengthened security on several thousand Russian warheads and 
220 metric tons of highly enriched uranium (HEU) and plutonium.
    The second line of defenses is where we're deploying 
detectors at sensitive Russian border crossings. The Nuclear 
Cities Initiative (NCI) and the Initiatives for Proliferation 
Prevention (IPP) are providing opportunities for Russian 
scientists to turn to commercial activities, and providing 
opportunities for us to help reduce the footprint of the 
Russian nuclear complex.
    With the Russian HEU purchase, we've now monitored the 
conversion of some 110 metric tons of that material to reactor-
grade fuel or low-enriched uranium (LEU).
    We've strengthened the safety of Soviet-era reactors. We 
are beginning to convert unneeded material here and in Russia. 
We've completed canning and helped with the safeguarding of 
some 8,000 nuclear fuel rods, plutonium bearing fuel rods, from 
the reactors in Nyongbyon, North Korea.
    The third area that falls under NNSA is naval reactors, and 
I won't say much about that program today, Mr. Chairman, other 
than to report that my friend, Admiral Skip Bowman, is doing an 
absolutely fantastic job by every measure. His organization 
operates 102 active naval nuclear reactor plants, within one or 
two of the number of commercial reactors that are operating in 
this country today, and they do so safely, effectively, and 
efficiently, providing propulsion to something like 40 percent 
of the warships of this country. Again safely and reliably.
    They also are developing the next-generation reactor for 
the Virginia-class submarines, and the next reactor for the new 
CVNX Aircraft Carrier. These all are included in the budget 
that's been submitted for fiscal year 2002.
    Equally important, I would add that naval reactors 
continues to make real progress in improving business practices 
and operating at the highest environmental standards. In this 
regard, Mr. Chairman, I have asked my staff to learn from them 
in this area for our work.
    Mr. Chairman, the total budget request for NNSA from the 
administration is $6.8 billion: $5.3 billion is for stockpile 
stewardship and Defense Programs; $774 million is for defense 
nonproliferation; $688 million is for naval reactors; and $15 
million is for NNSA operations.
    Mr. Chairman, it's very likely that the numbers for NN and 
DP, (Nuclear Nonproliferation and Defense Programs) are not 
final. President Bush has asked the Secretary of Defense, in 
coordination with the Secretary of Energy, to conduct several 
reviews to create a new vision for the role of the Nation's 
military in the 21st century. One of those will review the role 
of nuclear deterrence in the post-Cold War security 
environment, including determining the size of the future 
nuclear weapons stockpile and, potentially, new and different 
requirements.
    NNSA is an active part of that review, and its outcome will 
have a major impact on the workload of the national defense 
laboratories and the production plants for many years to come.
    Another review is examining the U.S. nonproliferation 
programs with Russia. At the end of this review, I hope we will 
have a strong and new strategy for our threat-reduction 
activities in Russia. Again, NNSA is a major participant in 
that review as well.
    The administration will finalize fiscal year 2002 and 
outyear funding requests for both defense and national 
security-related activities when these reviews are complete. 
Following those reviews, we will work with you, and with your 
staff, to provide timely information on the results and any 
changes to the budget, both now and in the outyears.
    Knowing that our schedule and your schedule for this year's 
budget is already compressed, I wish I could provide you a firm 
timetable on that, but I think I would only be speculating if I 
did so.
    Notwithstanding the uncertainty about the details of the 
strategic reviews, I look ahead to the challenges and the 
opportunities in front of us and the steps we need to take to 
effectively accomplish and focus on these missions.
    Mr. Chairman, our formal submission defines the details. I 
would now like to make some broad points. The requested budget 
goes a long way to support Defense Programs and the Stockpile 
Stewardship Program (SSP), and actually includes an increase of 
4.6 percent from last year. $5.3 billion is a significant 
amount of money and is, I believe, the only real increase in 
the DOE budget for fiscal year 2002. It will support most of 
our major campaigns and the technology building blocks for 
stockpile stewardship.
    Two national assets, our secure transportation and nuclear 
weapon incident response resources, remain high priorities in 
the funding request. Weapon safeguards and security, a separate 
budget category, also meets all of its known requirements.
    At the requested level, we will support the ongoing 
refurbishment of the W87 warhead and begin the much needed work 
on the B61 bomb, which should deliver the first production unit 
in 2004.
    At the requested level, we will be able to handle the 
ongoing work of the W87, and we will begin the much needed 
refurbishment, consonant with the plan approved by the Nuclear 
Weapon Council, on the B61. We will not, under those current 
plans, be able to support the full life extension plans for the 
W80 or W76, but we want to begin with the preliminary 
engineering development. At the requested level of funding, we 
will proceed with our testing program in 2004. I don't think we 
would be able to certify the W88 pit in the time period we just 
discussed, at least without significantly rebalancing the 
program.
    At the requested level, we would not aggressively attack 
the infrastructure problems that I alluded to before.
    Mr. Chairman, the underlying approach in our budget is to 
keep all our campaigns in balance while correcting the major 
problems of the past such as pit certification and 
manufacturing, and second, to begin the funding of needed 
refurbishments of those four weapons systems not included in 
the earlier concept of stockpile stewardship.
    Mr. Chairman, the administration is conducting a review of 
each program, and we await the completion of those reviews. 
From my perspective, we manage a series of programs, and I've 
already highlighted most of them for you. It's appropriate that 
the administration review our programs and come to their own 
conclusions about their merits. We're mindful of how difficult 
it is to operate in this environment. The ongoing reviews and 
policy development activities must specifically deal with 
Russian attitudes, the relationship with proliferants, issues 
of access, and issues of sustainability.
    Mr. Chairman, some days I think I have the best job in 
America, in public service. Some days I'm not quite so 
convinced. We are making progress. We're making progress on our 
mission. We're making progress on the organization. We need to 
correct the shortfalls of the past and focus on the future. 
This in turn requires that we attract and retain the very best 
people. That concludes my oral statement. Mr. Chairman, I offer 
a rather lengthy written statement and ask you to put that in 
the record.
    Senator Allard. I will make that a part of the record.
    [The prepared statement of General Gordon follows:]

Prepared Statement by Gen. John A. Gordon, USAF (Ret.), Administrator, 
                National Nuclear Security Administration

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify on the Department of Energy (DOE) National 
Nuclear Security Administration (NNSA) fiscal year 2002 budget request. 
The overall request--including Defense Programs, Defense Nuclear 
Nonproliferation, Naval Reactors, and the Administrator's Office--
totals $6.8 billion.
    The Defense Programs (DP) fiscal year 2002 budget request is $5.3 
billion, an increase of 4.6 percent over the comparable appropriated 
fiscal year 2001 level. This budget will support (1) all scheduled 
maintenance, evaluation, and certification activities for the current 
stockpile, while deferring some decisions on the future refurbishment 
workload; (2) manufacture of a certifiable W88 with a newly 
manufactured pit in fiscal year 2003, with no commitment to a 
certification schedule or to production quantities; (3) maintenance of 
all current facilities and sites at approximately the current level of 
funding; (4) maintenance of current management and operating (M&O) 
contractor employment levels for ongoing programs; (5) maintenance of 
secure transportation and nuclear weapon incident response assets at 
approximately their current levels; (6) current requirements for 
weapons safeguards and security, while undertaking a limited cyber 
security initiative; and (7) maintenance of Federal staffing levels at 
the current, on-board level, including re-consolidation of NNSA Federal 
landlord, safeguards, and security staffs. Specific line items include: 
Directed Stockpile Work ($1,043,791,000), Campaigns ($1,996,413,000), 
Readiness in Technical Base and Facilities ($1,446,988,000), Secure 
Transportation Asset ($121,800,000), Safeguards and Security 
($448,881,000), and Program Direction ($271,137,000).
    The Defense Nuclear Nonproliferation (NN) fiscal year 2002 request 
is $773.7 million. This is a decrease from the fiscal year 2001 budget, 
but this does not represent a lessening of our commitment to meeting 
the ever-growing challenges faced in the international nonproliferation 
or threat reduction arena. The request does cover the funding needed to 
support a broad range of nonproliferation goals. These include: (1) 
international nuclear safety; (2) detecting the proliferation of 
weapons of mass destruction; (3) preventing the spread of nuclear 
materials, technology, and expertise; and (4) eliminating inventories 
of surplus fissile materials usable for nuclear weapons. Specific line 
items include Nonproliferation and Verification Research and 
Development ($206,102,000); International Nuclear Safety ($13,800,000); 
Highly Enriched Uranium (HEU) Transparency Implementation 
($13,950,000); Arms Control and Nonproliferation ($101,500,000); 
International Materials Protection, Control and Accounting 
($138,800,000); Fissile Materials Disposition ($248,089,000); and 
Program Direction ($51,459,000).
    The Naval Reactors (NR) fiscal year 2002 budget request is 
$688,045,000, an increase of 0.1 percent over the comparable 
appropriated fiscal year 2001 budget. This budget will support planned 
activities for Naval Reactors Development, including Plant Technology, 
Reactor Technology and Analysis, Materials Development and 
Verification, Evaluation and Servicing, and Facility Operation and 
Construction. The small amount of the overall increase from fiscal year 
2001 to fiscal year 2002 reflects progress toward completing major 
Kesselring Site inactivation work in both the S3G and D1G plants, along 
with the final phase of Windsor Site inactivation work. Specific line 
items include Naval Reactors Development ($665,400,000) and Program 
Direction ($4,100,000).
    The fiscal year 2002 budget request for the Office of the 
Administrator of the NNSA is $15 million. The Department of Energy is 
required by various laws to enhance U.S. national security through the 
military application of nuclear technology, and to reduce the global 
danger from proliferation of weapons of mass destruction. The NNSA, a 
semi-autonomous administration within the Department, carries out these 
responsibilities. Established in March 2000, pursuant to Title 32 of 
the National Defense Authorization Act for Fiscal Year 2000 (Public Law 
106-65), the NNSA is structured to provide clear and direct lines of 
accountability and responsibility for the management and operation of 
the Nation's nuclear weapons, naval reactors, and nuclear 
nonproliferation activities.
    In January 2001, President Bush asked the Secretary of Defense, in 
coordination with the Secretary of Energy, to conduct a Strategic 
Defense Review to create a new vision for the role of the Nation's 
military in the 21st century. Completion of this review will certainly 
impact the fiscal year 2002 and outyear budgets for defense and 
national-security-related activities. The administration plans to 
determine the final fiscal year 2002 and outyear funding requests when 
the Strategic Defense Review is complete. As Secretary Abraham 
indicated in his statement on April 9, 2001, concerning the DOE fiscal 
year 2002 budget request to Congress, ``While awaiting the policy 
shaped by the Strategic Defense Review, we will refocus funding to meet 
vital national security needs, including investments to maintain our 
nuclear weapons arsenal, shore up an aging weapons infrastructure, and 
improve safeguards and security at all DOE facilities.'' I am here 
today to describe those efforts and the progress we have made since the 
NNSA was created.

                          STANDING UP THE NNSA

    The NNSA has formed in just over 1 year. As the NNSA Administrator, 
this is my first opportunity to appear before the subcommittee to 
discuss the NNSA budget request. Before providing a detailed 
presentation of our budget, based on our key goals and strategies for 
attaining those goals, let me share with you my observations about the 
Nation's nuclear security enterprise and some of the accomplishments 
the NNSA has achieved during its short existence.
    I begin by emphasizing that our focus is on our mission, as 
Congress defined it in the NNSA enabling legislation--Title 32 of the 
the National Defense Authorization Act for Fiscal Year 2000. Title 32 
contains six mission objectives:

    1. To enhance United States national security through the military 
applications of nuclear energy.
    2. To maintain and enhance the safety, reliability, and performance 
of the United States nuclear weapons stockpile, including the ability 
to design, produce, and test, in order to meet national security 
requirements.
    3. To provide the United States Navy with safe, militarily 
effective nuclear propulsion plants and to ensure the safe and reliable 
operations of those plants.
    4. To promote international nuclear safety and non-proliferation.
    5. To reduce the nuclear danger from weapons of mass destruction.
    6. To support United States leadership in science and technology.

    The NNSA's mission is to strengthen national security and reduce 
the global threat from weapons of mass destruction, through the 
application of science and technology. While standing up the NNSA has 
proceeded more slowly than I would have liked, we are fulfilling our 
mission every day in our laboratories, production facilities, test 
sites, and, yes, even in remote parts of the world where we pursue our 
nonproliferation goals. My friend Admiral Bowman oversees 102 naval 
nuclear reactors, helping underwrite American military presence and 
deterrence around the globe.

                              OBSERVATIONS

    Over the last 6 months, I have traveled to all of the national 
defense laboratories, the production plants, and the Federal field 
offices. I have met many of the men and women who make up the NNSA. 
Based on my observations and interactions, I am very impressed with the 
dedication our team brings to their work and our mission; the 
intelligence and creativity they apply to the highly complex scientific 
and engineering problems that confront them; and the technical skills 
they use to maintain the safety, security, and reliability of this 
nation's aging nuclear weapons stockpile, while addressing the risks of 
proliferation and use of weapons of mass destruction, and developing 
the most efficient, safest nuclear reactors ever conceived.
    As long as nuclear deterrence remains the cornerstone of our 
national security strategy and we continue to face the risk of weapons 
of mass destruction, we must ask nothing less than the continued 
excellence these people have delivered for more than 50 years. In fact, 
we must continue to demand more--more security, improved health and 
safety for our workers, more environmentally benign processes, and 
higher efficiency. They, in turn, deserve our support and our advocacy.
    As we discuss budgets, programs, and projects, it is imperative 
that we not lose sight of the fact that the success of the NNSA depends 
on these talented and patriotic Americans--the technicians, 
administrative staff, scientists, guards, engineers, maintenance crews, 
managers, and all the others who contribute to the Nation's nuclear 
defense. One of my jobs is to make certain that none of us lose sight 
of this simple fact we must not jeopardize the success of these 
programs by making decisions that unnecessarily hinder our people from 
performing their best work or stifle their creativity or limit their 
initiative.
    I assumed this job at a moment in which the enterprise, as a whole, 
was struggling with security concerns and questions about its future, 
and the morale of our people was at an all-time low. While hard to 
quantify, I sense, and I believe my colleagues and the leadership at 
the laboratories and production plants would agree, that morale has 
begun to improve. People are starting to feel better about themselves, 
their work, their institutions, and the direction in which they see the 
NNSA moving, especially at the laboratories.

                        MISSION ACCOMPLISHMENTS

    Last year, our overall budget saw its first real growth in many 
years, and, for that, I thank Congress. This tangible commitment to our 
mission by Congress has sent a strong signal that the mission is 
importatnt and enduring, and has allowed all of us in the enterprise to 
begin to really look to the future. With these additional funds, we 
have begun to make marginal improvements. These additional funds will 
make it easier to attract and retain the next generation of scientists 
and engineers, to continue to build the needed experimental and 
computational facilities, and to begin to correct our aging 
infrastructure at the production sites and laboratories. Congress 
authorized an increase in Laboratory Directed Research and Development 
(LDRD). In fiscal year 2001, we have established a new research and 
development program, dedicated to improving the efficiency and 
effectiveness of our production plants.
    That said, the NNSA enterprise is still very fragile, and there is 
much more to do. We are making aggressive, pro-active management 
decisions to improve our stewardship of the resources provided by 
Congress.
    The NNSA completed the fifth annual certification of the nuclear 
weapons stockpile, with the Secretaries of Defense and Energy, who 
signed their certification letter on January 11, 2001, for transmission 
to the President.
    Activities are on track to restore the capability of producing 
tritium, which is required for proper operation of all nuclear-weapon 
types in the stockpile. On January 1, 2000, a 30-year interagency 
agreement with the Tennessee Valley Authority (TVA), making three of 
its reactors available to begin irradiation of tritium production 
absorber rods, as early as October 2003 was completed. On July 27, 
2000, ground was broken for the Tritium Extraction Facility (TEF) at 
the Savannah River Site. Delivery of new tritium gas is expected to 
commence in February 2006.
    In concert with the Department of Defense, and through the Nuclear 
Weapons Council, we now have an agreed upon program to refurbish the 
B61 bomb and the W76 and W80 warheads, which constitute a significant 
portion of the stockpile. This work, in addition to the ongoing 
refurbishment of the W87 intercontinental ballistic missile warhead, is 
a clear demonstration that stockpile stewardship is working, and a 
clear measure of a renewed, much improved relationship with the 
Department of Defense. At the same time, this planned workload demands 
resources that are not included in the original Stockpile Stewardship 
Program (SSP) and demand long-delayed improvements in plant 
infrastructure as well.
    There are new contracts in place that give NNSA better oversight at 
our plants and laboratories at Y-12, Pantex, Kansas City, and Los 
Alamos and Lawrence Livermore National Laboratories.
    The approach to solving infrastructure issues is also moving in the 
right direction. We have begun a recapitalization initiative to develop 
an integrated, prioritized list of maintenance and infrastructure 
activities that, when completed, will significantly increase the 
operational efficiency and effectiveness at all of our sites. It is a 
long-term plan that will allow us to create a weapons complex that is 
properly sized, using modern technologies to protect the health and 
safety of our workers and communities, without creating a legacy of 
hazardous waste and distrust that we do not want, nor can we afford. 
This plan will increase the operational readiness of facilities, reduce 
non-productive facility downtime and high costs associated with 
unplanned corrective maintenance, arrest the continuing deterioration 
of facilities, and extend the useful lifetimes of current facilities.
    NNSA has rebaselined the work at the National Ignition Facility 
(NIF). There has been a major turnaround in the management of this 
once-troubled program, and I have recently certified to Congress that 
the program is on-schedule and within budget. We are making progress in 
plutonium pit manufacturing and certification, although there are 
serious issues ahead of us. Directed Stockpile Work (DSW) has made 
enormous leaps, and is providing the thousands of parts needed to keep 
the nuclear stockpile safe, secure, and reliable. The Advanced 
Simulation and Computing program (formerly the Accelerated Strategic 
Computing Initiative [ASCI]) is continuing, on track, to provide the 
world-class computing and simulation tools required to maintain the 
stockpile, now and into the future. The Nevada Test Site continues to 
conduct experiments, subcritical and others, that are providing 
valuable data on the health of the nuclear weapons stockpile, and are 
exercising skills necessary to maintain test readiness.
    We have begun implementing ``Integrated Safeguards and Security 
Management'' in the NNSA. ISSM, as it is known, will build safeguards 
and security considerations into management and work practices, at all 
levels, so missions are accomplished securely. It is designed to 
involve the individuals performing work in the process of establishing 
appropriate safeguards and security practices. Subject-matter experts 
are available to provide guidance and information, but we must place 
the responsibility for securely working squarely on the shoulders of 
every individual in our complex--the scientists, technicians, 
production workers, and professionals performing and managing our 
missions.
    NNSA has been hard at work to secure and dispose of nuclear warhead 
materials, at home and abroad. We are establishing methods to help 
prevent the unthinkable from happening--the use of weapons of mass 
destruction in an attack on this country or our citizens. NNSA's world-
class expertise at its national laboratories is vital to the success of 
this effort.
    Since 1993, the Materials Protection, Control and Accounting 
(MPC&A) program has formed a first line of defense by working with 
Russia to improve the security of weapons-usable material at 95 sites. 
By the end of the current fiscal year, the program will have completed 
rapid security upgrades for nearly 4,000 Russian Navy nuclear warheads 
and an additional 220 metric tons of HEU and plutonium located in 
Russia and the Newly Independent States--enough material to make 
roughly 20,000 nuclear devices. In addition, our Second Line of Defense 
(SLD) Program is improving Russia's ability to detect and interdict 
nuclear smuggling, by installing radiation detection equipment at key 
Russian border crossings, including three seaports and two airports.
    NNSA is helping to prevent the proliferation of weapons-usable 
material, while significantly reducing long-term storage costs for 
these materials in the United States. Under the materials disposition 
program, the U.S. and Russia are implementing an agreement, signed in 
September 2000, to permanently dispose of 68 metric tons of weapons-
grade plutonium (34 metric tons on each side).
    We continue to transfer quantities of surplus U.S. highly enriched 
uranium--more than 34 metric tons to date--to the U.S. Enrichment 
Corporation (USEC), for downblending to low-enriched uranium nuclear-
reactor fuel. We recently signed an agreement with the TVA to dispose 
of another 33 metric tons of highly enriched uranium. This agreement 
with the TVA will save U.S. taxpayers nearly $600 million over the cost 
of disposing of it as waste.
    Under the HEU Purchase Agreement with Russia, we have overseen the 
conversion of 110 metric tons of Russian weapons-grade HEU to low 
enriched uranium, for commercial sale to the United States for our 
nuclear power plants. This amount is equivalent to roughly 4,400 
nuclear weapons.
    NNSA employees are also training civilian nuclear reactor workers 
in Russia and the Newly Independent States to increase safety standards 
and prevent another accident, such as the one that occurred at 
Chernobyl. On December 15, 2000, the government of Ukraine permanently 
shut-down the last remaining operational reactor at the Chernobyl 
Nuclear Power Plant, on schedule. NNSA experts were instrumental in 
making certain this historic achievement was possible.
    The Multi-spectral Thermal Imager satellite was launched on March 
12th, 2000. This small research satellite was designed and built by a 
team of NNSA laboratories and industry partners, to develop and test 
remote sensing concepts that will add to our country's ability to 
monitor nuclear proliferation. Additionally, this unique satellite is 
being used by a wide number of civil, environmental, and defense 
scientists to conduct a broad array of government research.
    The Nuclear Cities Initiative (NCI) aims to prevent and reverse the 
threat of proliferation of nuclear weapons expertise, by redirecting 
weapons scientists in Russia's nuclear cities to sustainable, non-
weapons activities. The NCI also enhances U.S. national security by 
assisting Russia in reducing the overall size of its nuclear weapons 
production complex. Last year, this program achieved a historic 
accomplishment when the Russians moved a concrete fence at the Avangard 
weapons facility, creating an open ``Technopark'' for commercial 
businesses. This is the first time that a Russian weapons facility has 
reduced its footprint, as part of the nuclear weapons complex 
downsizing they have committed to undertake.
    All of this said, we face a period of uncertainty in our 
cooperative programs with Russia to reduce the threats of weapons of 
mass destruction. Recently, Russian President Putin dismissed the head 
of the Ministry of Atomic Energy, Minister Adamov, and replaced him 
with Alexandr Rumyantsev, from the Kurchatov Institute. We are 
uncertain what this change will mean for our programs. We remain 
concerned about access required to ensure that our cooperative threat 
reduction (CTR) programs are implemented properly and that our 
financial contributions are well spent. We are also mindful of Russia's 
cooperation with Iran.
    Naval Reactors has compiled an unparalleled record of success, 
including:

        <bullet> Nuclear-powered warships have safely steamed more than 
        122 million miles, equivalent to nearly 5,000 trips around the 
        Earth.
        <bullet> Naval reactor plants have accumulated 5,200 reactor-
        years of operation, compared to approximately 2,540 for the 
        U.S. commercial industry. In addition, our operating experience 
        is approximately half that of the entire commercial power 
        industry, worldwide (our 5,200 reactor-years, compared to 
        approximately 9,660 worldwide, including the U.S.).
        <bullet> Naval Reactors' outstanding, and fully public, 
        environmental record enables our ships to visit more than 150 
        ports around the world, which is critical to our nation's 
        forward-presence strategy and ability to project power.

Policy Reviews
    As mentioned above, the new administration has chartered several 
reviews to create a new vision for the role of the Nation's military in 
the 21st century. These reviews will examine the appropriate national 
security strategy for this country. One of the reviews will encompass 
the role of nuclear deterrence and a position on the size of the future 
U.S. nuclear stockpile. A second review will evaluate all U.S. 
nonproliferation programs with Russia. At the end of this review, we 
may have a new strategy for our threat reduction activities with 
Russia. The Department and the NNSA are active participants in these 
reviews. The administration will finalize fiscal year 2002 and outyear 
funding requests for defense when these reviews are complete.

                     IMPROVEMENTS ARE STILL NEEDED

    No matter the outcome of these strategic reviews, we recognize the 
need for change in the business practices of the Nation's nuclear 
security enterprise.
    While we are making steady progress, the NNSA still has work to do 
to get security right. Our people must see that there is value added in 
new or additional security requirements. We want to make sure that what 
we do actually improves security, and that security measures do not 
unnecessarily impede accomplishing our mission. We have stressed the 
concept of science AND security, rather than science OR security. We 
must make sure that the scientific culture and the security culture 
mesh. Our scientists must understand the need for classification and 
security, as they advance science. Similarly, our security officers 
must be sensitive to the environment in which we operate, and help 
further our mission. Our scientists, engineers, technicians, and our 
security and counterintelligence personnel must see themselves on the 
same team.
    We must focus on revitalizing our infrastructure, which has long 
been neglected. This is key for the organization to improve morale, 
increase recruitment, and retain people. No one wants to work in a 
facility where weeds grow through the cracks in the buildings, or where 
you have to wear a hard hat, not for normal safety requirements, but 
because the concrete in the roof may fall down at any time. 
Revitalizing our infrastructure will take additional funding, but it 
will be incumbent upon us to set priorities so this job is done in the 
most cost-effective way in future years.
    NNSA, as an organization, must continue to sharpen its project 
management skills. Just 2 weeks ago, I was at Lawrence Livermore 
National Laboratory's National Ignition Facility. The people there are 
making great strides in focusing on the project, completing 
conventional-facility construction, and maintaining a schedule that 
will see this project to fruition.
    At Los Alamos National Laboratory, Defense Programs must ensure 
that the capability to manufacture plutonium pits is reestablished, and 
we must come to grips with the long-term requirements for pit 
manufacture. We have recently established a full-time office in DP that 
focuses solely on pit production and certification. This pit project 
office sets schedules and milestones to ensure that we can produce 
pits, and that they can be certified by the laboratory for use in the 
stockpile.
    A key to many of the management challenges facing the NNSA is 
implementing a planning, programming, budgeting, and evaluation 
process. This new management system will: (1) improve discipline in 
program and project management; (2) ensure that each program and 
project receives appropriate consideration, as tradeoffs are made in 
establishing the integrated budget; and (3) create meaningful 
performance measurement and feedback systems. We will measure the value 
of this system through improvement in our mission performance.
    As a first step in the implementation of this process, we have 
begun a strategic planning process to identify key goals of the NNSA, 
strategies for attaining those goals, and measures for tracking 
progress on our goals. In addition to ensuring that NNSA is in 
compliance with the Government Performance and Results Act (GPRA), this 
effort has helped foster a recognition of the benefits of managing 
nuclear security programs on an enterprise-wide basis. We have 
organized our budget testimony this year to track the key goals and 
strategies identified by our senior managers. Our six primary goals 
are:

    1. Maintain and enhance the safety, security, and reliability of 
the Nation's nuclear weapons stockpile, meeting military requirements 
designed to counter threats of the 21st century.
    2. Assure the safe and secure management of nuclear facilities, 
materials, and expertise worldwide.
    3. Detect, deter, and impede the proliferation and the use of 
weapons of mass destruction.
    4. Provide the Navy with safe, militarily effective nuclear 
propulsion plants, and ensure their continued safe and reliable 
operation.
    5. Ensure the vitality and readiness of the NNSA's scientific and 
technical enterprise, for the next decade and beyond.
    6. Create a well-managed, responsive and accountable organization 
by employing effective business practices.

                     GOAL 1: STOCKPILE STEWARDSHIP

    We turn first to a discussion of the Stockpile Stewardship Program 
(SSP) that is designed to maintain and enhance the safety, security, 
and reliability of the Nation's nuclear weapons stockpile, and meeting 
military requirements designed to counter threats of the 21st century. 
To ensure that the U.S. stockpile of nuclear weapons remains safe, 
secure, and reliable, the NNSA will continue to advance the Stockpile 
Stewardship Program. This program was established by the Fiscal Year 
1994 National Defense Authorization Act, which directed the Secretary 
of Energy ``to establish a stewardship program to ensure the 
preservation of the core intellectual and technical competencies of the 
United States in nuclear weapons.'' The Stockpile Stewardship Program 
must: (1) predict, detect, and evaluate potential problems, due to the 
aging of the stockpile; (2) refurbish and re-manufacture warheads and 
components, as required; (3) support focused, multi-faceted efforts to 
increase the understanding of the stockpile; and (4) maintain the 
science and engineering institutions needed to support the Nations's 
nuclear deterrent, now and in the future.
    Surveillance and assessment activities, including many aboveground 
experiments, the manufacture of limited-life components and replacement 
parts, the reestablishment of a capability to fabricate plutonium pits, 
weapon refurbishments to extend the lifetimes of the weapons in our 
aging stockpile, securing a source of tritium, and providing secure 
transportation of nuclear materials are all necessary, whether we're 
conducting nuclear tests, or not. In addition, we must maintain our 
nuclear weapons complex, which has been downsized significantly during 
the last decade and is in dire need of repair; ensure that we have a 
workforce with the necessary skills; and see to the safety and security 
of both our facilities and workforce, the communities in which we work, 
and the environment in which we live.
    We are annually conducting hundreds of experiments at our national 
laboratories and the Nevada Test Site (NTS) to increase our 
understanding of what happens when a nuclear weapon detonates. The 
software being validated by these experiments is already making 
significant contributions to the maintenance of the nuclear stockpile. 
Early versions of the three-dimensional weapon performance codes are 
resolving previously unexplained phenomena from past underground test 
data and are contributing to the resolution of issues that have been 
raised by our surveillance program. Simulations have also enabled us to 
qualify, for the first time without nuclear tests, a radiation-hardened 
component and a replacement neutron generator for the W76.
    Experiments in facilities now under development, such as the 
National Ignition Facility (NIF), and those that are on-line, such as 
the Z Accelerator and the Dual-Axis Radiographic Hydrodynamic Test 
Facility (DARHT), will greatly expand our knowledge of what happens in 
a nuclear detonation. The closer our scientists and engineers get to 
duplicating in the laboratory the phenomena that occur in nuclear 
detonation, the greater our chances are of being able to continue to 
certify that our stockpile is safe, secure, and reliable, without the 
need to return to nuclear testing. But, even if there were no 
moratorium on nuclear testing, most activities encompassed by the 
Stockpile Stewardship Program would still be necessary to assess, 
certify, and maintain the safety, security, and reliability of the 
stockpile.
Stockpile Certification
    A cornerstone of the Stockpile Stewardship Program is the 
certification to the President, by the Secretaries of Defense and 
Energy, whether any safety or reliability concerns exist that would 
require a return to nuclear testing. At his confirmation hearing, 
Secretary Abraham stated that, in his judgment, ``one of the most 
sobering and important responsibilities vested in the Secretary of 
Energy is the duty to certify to the President each year that the U.S. 
nuclear stockpile is safe, secure, and reliable. . . .'' In a like 
manner, I believe my most important responsibility, as the 
Administrator of the NNSA, is to facilitate that process.
    Certification is based on a yearly, rigorous technical review of 
the condition of the stockpile by the directors of the three nuclear 
weapons laboratories, the Commander in Chief of the U.S. Strategic 
Command, and the Nuclear Weapons Council. The most recent assessment 
concludes that the stockpile is safe and reliable, and that no nuclear 
testing is needed at this time.
    This certification is made possible by activities within the 
Stockpile Stewardship Program, through an extensive set of activities 
and tests assessing and qualifying the myriad of components and 
subsystems of each of our weapon system types. Data and test results 
must be analyzed, assessed, and evaluated before conclusions can be 
drawn regarding the safety and reliability of stockpiled warheads. A 
significant imperative of assessment and certification is to develop 
the necessary tools to accurately baseline warheads in the existing 
stockpile, while designers with nuclear-test and warhead-design 
experience remain to mentor the next generation of stockpile stewards.
    The key to accurate assessments is the expert judgment of our 
weapons scientists and engineers. Confidence in the accuracy of their 
judgment and confidence in the safety, security, and reliability of the 
warheads in our stockpile are more closely linked than ever before. In 
the past, a weapon steward's judgment was developed and validated 
through new warhead design and nuclear testing. Today, our Stockpile 
Stewardship Program is honing and demonstrating expert judgment of the 
next generation of stockpile stewards through integrated use of 
surveillance, computational simulations, applied scientific 
experimentation, material and aging studies, and nonnuclear 
experiments.
    In the absence of nuclear testing, a variety of experiments and 
tools provide data relevant to nuclear warhead performance. Some of the 
older tools, designed to complement nuclear testing, are not, in and of 
themselves, sufficient to provide the needed information. A suite of 
enhanced capabilities and facilities, to fill in the knowledge gaps and 
provide enhanced data relevant to various stockpile concerns, has been 
identified and is being developed through our campaigns, described 
later in my testimony.
    We are implementing stockpile stewardship through two strategies: a 
program of Directed Stockpile Work, and development of a suite of 
science, engineering, and readiness campaigns.
Directed Stockpile Work
    The first strategy for maintaining the safety, security, and 
reliability of the Nation's nuclear stockpile is our program of 
Directed Stockpile Work, developed in concert with the DOD. This 
program applies the improved tools and technologies developed by all 
elements of the Stockpile Stewardship Program, and consists of three 
important elements: maintenance and evaluation, refurbishments, and 
dismantlements.
Stockpile Maintenance and Evaluation
    The budget submission for fiscal year 2002 will support all 
scheduled maintenance and evaluation activities for the current 
stockpile. Each year, 11 weapons of each type in the stockpile are 
returned from the active force and are disassembled, examined, tested, 
and analyzed for defects. One is destructively tested. If defects are 
found, their effect on reliability and safety is assessed. We conduct 
flight and laboratory tests on systems and components, including the 
destructive testing of pits. In fiscal year 2002, we expect to conduct 
30 flight tests, 72 laboratory tests, thousands of component tests, and 
we will destructively analyze nine pits. The current budget request 
will allow us to continue to reduce the backlog of laboratory tests 
resulting from other priorities during past years. The additional $23 
million over our request in fiscal year 2001 that Congress provided for 
reducing the testing backlog was instrumental in reducing the backlog 
this year. The additional $17 million that Congress provided for the 
Enhanced Surveillance Campaign in fiscal year 2001 enabled us to 
initiate and accelerate the deployment of advanced diagnostic tools, 
for early identification of warhead aging problems that otherwise may 
not be detectable until too late.
    Scheduled maintenance also includes the replacement of limited-life 
components, such as neutron generators and tritium reservoirs. In 
fiscal year 2002, we expect to produce and fill 1,695 tritium 
reservoirs, produce 1,445 new tritium reservoirs, re-certify 854 
neutron generators, and produce 296 new neutron generators. In fiscal 
year 2001, the complex accomplished the exchange of nearly 4,500 
limited-life components. We also expect to achieve first production of 
replacement tritium reservoirs for the W62 and W87, and continue 
production of the replacement neutron generator for the W76.
    As our nuclear weapons continue to age, we expect more parts to 
require replacement. Manufacturing replacement parts sounds 
straightforward, but in the time that has elapsed since the current 
weapons in the stockpile were originally manufactured, some of our 
production plants have closed, manufacturing processes, techniques, and 
standards have changed, and there are more stringent health, safety, 
and environmental standards. Under these conditions, manufacturing 
exact replacement parts is difficult, if not impossible and, because 
nuclear testing can no longer be used to qualify the replacements, 
extensive testing and analyses must be conducted to ensure that the 
replicated components are acceptable.
    At present, we have nine weapons alterations underway to meet 
higher safety standards or to replace faulty components in various 
systems. We are currently on schedule with all nine alterations, and 
the fiscal year 2002 budget supports those schedules. In addition, we 
have reached agreement, with the Department of Defense, on a 
comprehensive plan for refurbishing the nuclear stockpile over the 
coming decade. Implementation of that plan awaits decisions from the 
Strategic Defense Review, and the current fiscal year 2002 budget 
submission supports only limited execution of that plan.
Refurbishments
    Following cessation of production at the Rocky Flats Plant in 1989, 
the U.S. has not produced a new nuclear warhead since 1991, nor have we 
had any requirement to build a new warhead. Prior to 1991, major 
refurbishment of a warhead to extend its life was not an issue, because 
new weapon types were continually being introduced into the stockpile. 
Currently, the average age of warheads in the stockpile is 18 years, 
and signs of aging have been identified through stockpile evaluation 
and enhanced surveillance. As the stockpile ages, we are working 
closely with the DOD to finalize detailed plans to extend the lifetime 
of each warhead type. These life extensions, or refurbishments, include 
the detection and correction of problems, and provide and maintain 
safety improvements and use control.
    The budget submission continues the major refurbishment of the W87 
warhead, deployed on land-based intercontinental ballistic missiles. 
This is the first major retrofit of any warhead in nearly a decade. 
Delivery of the first production unit to the Air Force, in May 1999, as 
scheduled, 6 years after conception of the project, was a major 
success. The safety concerns and production-line problems that occurred 
at our Pantex Plant are lessons learned that will be applied in future 
refurbishments.
    Last year, the Nuclear Weapons Council reached final agreement on 
the technical scope of the refurbishments needed for the B61 bomb and 
for the W76 and W80 warheads. Together, these systems comprise a 
substantial portion of the current U.S. stockpile, and the additional 
funding received for research and development in fiscal year 2001 was 
used for W76 refurbishment design and W88 dynamic experimentation. The 
fiscal year 2002 request will support laboratory activities to complete 
the ongoing studies to refurbish the B61 (some components of which are 
more than 30 years old), to initiate development engineering to support 
a first production unit in fiscal year 2004, and to begin the 
development of a plan for certification of the B61, with a refurbished 
canned subassembly. We plan to work with the Department of Defense to 
determine a schedule and, possibly, revised scopes for the W76 and W80 
refurbishments, pending completion of the Strategic Defense Review. The 
current budget request does not support the original schedule developed 
with DOD.
Warhead Dismantlement
    Since the end of the Cold War, the United States has reduced its 
nuclear weapons inventory by approximately 60 percent. NNSA is 
currently disassembling two types of warheads, and is committed to the 
safe disassembly of any warheads retired, as a result of the ongoing 
national security strategy review or future decisions. Disassembly of 
the W79 Artillery-Fired Atomic Projectile will be complete in fiscal 
year 2003, and disassembly of the W56 Minuteman II intercontinental 
ballistic missile warhead will be complete in fiscal year 2005.
Campaigns
    The second stockpile stewardship strategy is to maintain and 
develop the scientific, engineering and manufacturing capabilities 
needed for the continued certification of the stockpile, including the 
ability to design new weapons and conduct underground nuclear tests. 
This strategy is being implemented through a series of campaigns, which 
are focused, scientific and technical efforts to develop and maintain 
critical capabilities needed to enable continued certification of the 
stockpile for the long-term. They are technically challenging, 
multifunctional in nature, and have definitive milestones, specific 
work plans, and specific deliverables. The campaign approach was 
initiated in fiscal year 2001 as part of a new program planning and 
budgeting framework, to facilitate integration within the Stockpile 
Stewardship Program. There are currently 17 campaigns:

        <bullet> Primary Certification;
        <bullet> Dynamic Materials Properties;
        <bullet> Advanced Radiography;
        <bullet> Secondary Certification and Nuclear Systems Margins;
        <bullet> Enhanced Surety;
        <bullet> Weapons System Engineering Certification;
        <bullet> Nuclear Survivability (formerly Hostile Environments 
        Certification);
        <bullet> Enhanced Surveillance;
        <bullet> Advanced Design and Production Technologies;
        <bullet> Inertial Confinement Fusion and High Yield (includes 
        NIF);
        <bullet> Advanced Simulation and Computing (formerly the 
        Accelerated Strategic Computing Initiative);
        <bullet> Pit Manufacturing and Certification (formerly Pit 
        Manufacturing Readiness);
        <bullet> Secondary Readiness;
        <bullet> High Explosives Manufacturing and Weapons Assembly/
        Disassembly;
        <bullet> Nonnuclear Readiness;
        <bullet> Materials Readiness; and
        <bullet> Tritium Readiness.

    Today, I would like to discuss, in detail, a few of these 
campaigns.
Pit Manufacturing and Certification
    We have not manufactured plutonium pits for use in the stockpile 
since 1989, when the Rocky Flats Plant stopped production of W88 pits, 
due to facility safety and environmental concerns. As a result, there 
are not enough W88 pits to meet future surveillance destructive-testing 
requirements. The budget request for fiscal year 2002 continues to 
reestablish a capability to fabricate a limited number of plutonium 
pits at Los Alamos National Laboratory. The plan is to complete the 
fabrication of a certifiable W88 pit in fiscal year 2003, within this 
budget request, with no commitment to a certification schedule or to 
production quantities. As we proceed, we will continue to work closely 
with the Navy to ensure that military needs for the W88 are met.
    The additional $25 million, provided by Congress in fiscal year 
2001, was instrumental in developing momentum in pit manufacturing. The 
NNSA completed a report for Congress earlier this month, as requested 
by the conference report accompanying the Energy and Water Development 
Appropriations Act for fiscal year 2001. The recently submitted report 
contains project schedules and cost estimates for production and 
certification of W88 pits.
    The magnitude of the challenge to reestablish a pit production 
capability at Los Alamos National Laboratory can, perhaps, best be 
illustrated by the fact that approximately 18,000 activities and 350 
individual work packages have been identified, to complete production 
and certification of the W88 with a newly manufactured pit. To date, we 
have produced eight W88 development pits, and are on schedule to 
reestablish the technology and manufacture a certifiable W88 pit in 
fiscal year 2003. A detailed and rigorous set of engineering and 
physics certification tests has been defined, to achieve certification 
without nuclear testing.
    A pit project office was established this past year within Defense 
Programs, to provide oversight of all pit production and certification 
related activities. In addition to near-term activities, such as the 
W88, this new office is responsible for long-term pit production 
readiness planning. For future readiness, we are using the $2 million 
provided by Congress this fiscal year to conduct pre-conceptual design 
studies, sufficient to enable a decision for conceptual design planning 
of a modern pit facility in fiscal year 2002. In fiscal year 2004, new 
information from pit-aging studies is expected to provide further 
insight into pit lifetimes. This information, coupled with the 
requirements for the numbers and types of weapons in the stockpile 
resulting from the President's Strategic Defense Review, will drive 
sizing decisions for a modern pit facility. The Nuclear Weapons Council 
will continue to monitor our work in this area.
Tritium Readiness
    Every U.S. nuclear warhead requires tritium to function as 
designed. Because tritium, a radioactive isotope of hydrogen, decays at 
the rate of 5.5 percent per year, it must be periodically replenished 
within each nuclear warhead. We have not produced tritium since 1988, 
and our inventory, depending on the results of the Strategic Defense 
Review, is sufficient only until approximately 2005, after which time 
the 5-year tritium reserve we maintain may begin to be drawn down. In 
May 1999, the Department announced that TVA commercial light water 
reactors would be used to produce tritium, and that accelerator 
production of tritium (APT) technology would be developed as backup, by 
completing preliminary design and engineering development and 
demonstration activities.
    A 30-year interagency agreement with TVA went into effect on 
January 1, 2000, making three of its reactors, Watts Bar and Sequoyah 1 
and 2, available to begin irradiation of tritium production absorber 
rods, as early as October 2003. This month, TVA submitted a request to 
the Nuclear Regulatory Commission (NRC) to amend its operating license 
for the Watts Bar and Sequoyah reactors, to permit irradiation of 
tritium producing absorber rods. The NRC committed to expediting the 
approval of these requests.
    On July 27, 2000, ground was broken for the new Tritium Extraction 
Facility (TEF) at the Savannah River Site and, during fiscal year 2001, 
site preparation and detailed design for the facility is expected to be 
completed. Originally, construction of TEF was to have begun in early 
fiscal year 1999, but language in the National Defense Authorization 
Act for fiscal year 1999 prohibited any tritium construction activities 
during fiscal year 1999. Because of this delay in schedule, we project 
that the TEF will not begin delivering tritium gas from irradiated 
absorber rods until February 2006. Depending on the results of the 
Strategic Defense Review, about 1 year of the 5-year tritium reserve 
may be consumed. The capacity of TEF to extract tritium from the 
absorber rods will be sufficient to restore the reserve, within 2 to 3 
years.
    Congress appropriated additional funding for APT in fiscal year 
2001, and the preliminary design of APT is expected to be completed 
this year. However, the current fiscal year 2002 budget request does 
not include sufficient resources to complete the engineering 
development and demonstration activities in fiscal year 2002, as 
previously planned. In addition, an Advanced Accelerator Applications 
Program that is being planned by Defense Programs and the Office of 
Nuclear Energy, Science and Technology, may be put on hold. This multi-
mission accelerator program is to include waste transmutation, isotope 
production, and tritium production. An Accelerator Demonstration Test 
Facility is being planned that would have the capability to be upgraded 
to produce tritium, if required.
Advanced Simulation and Computing
    Senator Bingaman indicated, in the preface to a question following 
Secretary Abraham's confirmation hearing, that he was disturbed that, 
following the hearing held last Fall on the Stockpile Stewardship 
Program, as part of the hearings on the Comprehensive Test Ban Treaty, 
many of his ``colleagues seemed to get the impression . . . that the 
Stockpile Stewardship Program is a sort of computer simulation 
exercise. . .'' I want to dispel that impression.
    Computer modeling and simulation are important elements of the 
Stockpile Stewardship Program, but the ultimate goal of our Advanced 
Simulation and Computing Campaign (ASC), formerly referred to as the 
Accelerated Strategic Computing Initiative (ASCI), is to have the 
ability to perform three-dimensional, high-fidelity simulations of the 
performance of all aspects of the operation of a nuclear warhead. By 
integrating the findings of our experimental and engineering R&D 
programs, as well as data from past nuclear tests, such simulations are 
providing our scientists with sufficient confidence to make it 
unnecessary to use underground nuclear testing at this time.
    To fully achieve our goal, it is estimated that we must have a 
computer system operating at a minimum of 100 trillion operations per 
second (teraOPS), and computer software, validated by experimental data 
that provides a much greater understanding of the physics of nuclear 
explosions than we possess today. We are making remarkable progress 
toward achieving our goals in this area.
    In December 1999, a three-dimensional simulation of the primary 
explosion of a nuclear warhead was successfully completed, for the 
first time, at Lawrence Livermore National Laboratory. This proof-of-
principle simulation was performed on an ASC Campaign system operating 
at 3.89 teraOPS and took 20 days. On a Cray-class supercomputer, if 
sufficient memory were available, this simulation would have taken 80 
years.
    Soon thereafter, Sandia successfully completed the first-ever, 
three-dimensional computer simulations of a weapon warhead exposed to 
hostile radiation and blast environments. As part of this milestone, 
Sandia also completed a series of three-dimensional simulations of the 
performance of a neutron generator in a radiation field. These weapon 
simulations collectively required about 500,000 megabytes of memory and 
used 2,000 computing processors for 45 days.
    In April 2000, 8 months ahead of schedule, a proof-of-principle, 
three-dimensional simulation of the secondary explosion of a nuclear 
warhead was completed at Los Alamos National Laboratory. This 
simulation was performed on two ASC Campaign systems, operating at 
approximately 3 teraOPS each, at Los Alamos and Sandia, and took 42 
days. None of these simulations were possible, prior to the development 
of ASCI-scale computational platforms and software. We expect to meet 
the next milepost, a proof-of-principle three-dimensional simulation of 
a full weapon, including both primary and secondary operation, by the 
December 2001 scheduled date.
    The ASC Campaign contributes to all elements of the nuclear weapons 
life cycle. It is providing the tools that are needed by weapons 
designers to maintain a nuclear weapon design capability. ASC Campaign 
computers are being used to help address issues associated with the 
manufacture of replacement parts for nuclear warheads, transportation 
and storage of weapons and components, certification of weapons, 
dismantlements, and the safety of weapons in various accident 
scenarios. The ASC Campaign is an integral and vital element of the 
Stockpile Stewardship Program. It provides the integrating simulation 
and modeling capabilities and technologies needed to combine new and 
old experimental data, past nuclear test data, and past design and 
engineering experience into a powerful tool for future design, 
assessment and certification of nuclear weapons and their components.
    The success of the computer modeling and simulation program has 
been, in no small measure, due to the budgetary support it has 
received, since its inception. The computing speed, power, and level of 
physics detail existing today was simply undreamed of a few years ago. 
The current budget request, however, will slow the scheduled progress 
of the campaign, and delay our previously announced commitment to reach 
a computing capability of 100 teraOPS from fiscal year 2004 to fiscal 
year 2005. This will delay, by at least a year, our major deliverable 
to Directed Stockpile Work--the ability to perform a high-fidelity 
simulation, in three-dimensions, of the performance of a full nuclear 
warhead.
    Completion of three ASC Campaign construction projects will also be 
delayed for at least 1 year with this budget. These projects are the 
Distributed Information Systems Laboratory at Sandia National 
Laboratories in Livermore, the Joint Computational Engineering 
Laboratory at Sandia in Albuquerque, and the Terascale Simulation 
Facility at Lawrence Livermore National Laboratory. Two other ASC 
Campaign program elements will also be scaled back in fiscal year 2002. 
These are the Path Forward program, which funds computer hardware and 
software companies to develop products needed to meet the aggressive 
ASC Campaign schedule, and the DisCom2 program, which provides remote 
access to the large computing platforms, enabling sharing of these 
resources among our production plants and laboratories.
    These deferrals in meeting ASC Campaign milestones are consistent 
with the possible refurbishment schedules that are achievable with the 
fiscal year 2002 budget request.
    Our commitments to selected groups in the university community 
through our Academic Strategic Alliances Program will not be affected, 
nor will the operation of the 12-teraOPS machine at Lawrence Livermore 
National Laboratory, which was recently made available for software 
development and warhead simulations. It is already fully utilized.
Inertial Confinement Fusion and the National Ignition Facility
    The National Ignition Facility, under construction at the Lawrence 
Livermore National Laboratory, is a vital element of the Stockpile 
Stewardship Program. It will allow us to study issues that affect aging 
and refurbishment of the stockpile, validate advanced simulation 
software being developed by the ASC Campaign, and help in attracting 
and retaining the exceptional scientific and engineering talent needed 
by the Stockpile Stewardship Program, over the long term.
    The National Defense Authorization Act for Fiscal Year 2001 
required the submission of a revised project baseline for NIF, in 
response to substantial cost increases and schedule slippage, caused by 
problems in assembling and installing the laser and target system 
infrastructure. The revised baseline, submitted in final form to 
Congress last September, retains the full NIF design capability of 192 
beams, with completion of the project scheduled in fiscal year 2008, 
and experiments with the first eight laser beams beginning in fiscal 
year 2004. It is important to understand that we will be conducting 
many experiments at NIF, well before all 192 beams are available in 
fiscal year 2008. Between fiscal year 2004 and fiscal year 2008, 
approximately 1,500 experiments will be conducted at NIF. The project 
goals are to achieve early light in 2003, with four laser beams, and to 
meet our ``First Light'' milestone, with eight laser beams, in 2004.
    I believe the progress at NIF reflects several management decisions 
that have been made during the past year and half. These include: (1) 
the hiring of an industrial contractor with a proven record of 
constructing similarly complex facilities, to manage and install the 
laser and target system; (2) the creation of a NIF Project Office that 
reports directly to the Deputy Administrator for Defense Programs; (3) 
the appointment by the laboratory director of an associate director 
with line responsibility for the NIF Project; and (4) the selection of 
a new project manager, with extensive project management experience, to 
oversee daily NIF Project activities.
    As required by the Fiscal Year 2001 Energy and Water Development 
Appropriations Act, I recently certified to Congress that the NIF 
Project milestones, for the revised schedule, are being met within the 
revised budget. The project is making significant progress. We expect 
to complete construction of conventional facilities this fiscal year. 
Laser bays are now under clean room protocols, and installation of 
laser systems has begun. Our glass manufacturers have delivered more 
than 1,700 of the required 3,500 laser glass slabs that meet our 
specifications.
    The Conference Report accompanying the Energy and Water Development 
Appropriations Act for Fiscal Year 2001 also directed the NNSA to 
assess the role of NIF, to consider the requirement for the full 192-
beam configuration, and determine if alternatives to the full NIF could 
meet the safety and reliability needs of the nuclear weapon stockpile. 
To meet this requirement, the NNSA initiated a broader study to examine 
its entire High-Energy-Density Physics Program. NNSA brought together 
laboratory leadership and technical staff, DP management, and a number 
of nuclear-weapon-knowledgeable advisors from a variety of Federal 
organizations. Alternatives that were considered included pauses in NIF 
construction at 48, 96, and 120 beams, a refurbishment of the Z 
accelerator at Sandia, and the addition of an engineering demonstration 
milestone to the NIF Project at first light. The principal 
recommendation of this study, which was submitted to Congress on April 
6, was that the NNSA should continue with the current High-Energy-
Density Physics Program, including the Omega, the Z Accelerator, and 
the 192-beam NIF, with the goal of achieving ignition.
    Experiments on the Atlas pulsed-power machine at Los Alamos 
National Laboratory will begin later this year and will continue in 
fiscal year 2002. Relocation of the facility to the Nevada Test Site 
will be deferred, due to higher priorities of the stockpile and 
limitations imposed by the current fiscal year 2002 budget. In fiscal 
year 2001, we also expect the completion of the Z-backlighter project 
at Sandia, in which the Beamlet, a technology demonstration for NIF, is 
being adapted as a diagnostic tool for use on the Z accelerator. A 
variety of experiments with this technology, planned to begin in fiscal 
year 2002 to study hydrodynamics, materials properties, and inertial 
confinement physics, may also be deferred.
Other Campaign-Specific Experimental Activities
    Other experimental activities are underway, across the complex, in 
support of the Nation's nuclear deterrent. At Los Alamos National 
Laboratory, physics experiments using the first-axis of the Dual Axis 
Radiographic Hydrodynamic Test Facility (DARHT) have been conducted, 
providing valuable weapons data. DARHT provides us the capability to 
take freeze-frame photos of materials imploding at speeds greater than 
10,000 miles an hour, allowing scientists to study solids and metals as 
they flow like liquids, when driven by the detonation of high 
explosives. We expect the second arm of DARHT to be completed in fiscal 
year 2002, allowing simultaneous views from two directions, as well as 
several separate views over the time of the implosion.
    Subcritical experiments at the Nevada Test Site continue to be 
successful. To date, thirteen have been conducted. These experiments 
are helping us to assess the stockpile by providing understanding of 
aspects of weapons physics and the aging properties of plutonium. They 
also help us to certify pits manufactured at Los Alamos National 
Laboratory, for use in the nuclear weapons stockpile. In addition, 
subcritical activities are a major contributor to underground nuclear 
test readiness at the Nevada Test Site. To support related materials 
research, we have also begun acceptance tests on the JASPER (Joint 
Actinide Shock Physics Experimental Research) gas gun at the Nevada 
Test Site. We expect to begin obtaining data on plutonium late this 
year.
    During this next year, we will look hard again at improving test 
readiness, and will review whether an apporpriate level of resources is 
being applied to this vital element of stockpile stewardship.

   GOAL 2: SECURING NUCLEAR FACILITIES, MATERIALS, INFORMATION, AND 
                          EXPERTISE WORLDWIDE

    Our second goal is to ensure the safe and secure management of 
nuclear facilities, materials, and expertise, worldwide. While 
maintaining and enhancing the safety, security, and reliability of the 
Nation's nuclear weapons stockpile, the NNSA has a custodial 
responsibility to ensure that all U.S. nuclear-deterrent assets--
information, facilities, and people--are safeguarded and secured to 
prohibit unwanted damage or unauthorized release of these key U.S. 
national security assets. The NNSA also works in parallel to address 
international threats to U.S. national security interests from the 
potential proliferation of weapons of mass destruction. These new 
international threats derive largely from the Soviet Union's production 
of enormous quantities of nuclear materials and weapons, and from 
potential actions by rogue nations or terrorist organizations with 
interests contrary to those of our nation. The NNSA is pursuing a 
balanced and comprehensive approach to nonproliferation that seeks to 
reduce or eliminate these threats to U.S. national security interests, 
particularly threats in Russia and countries of the Former Soviet Union 
(FSU).
Integrated Security Action Plan
    A key strategy for preventing proliferation is effectively managing 
and protecting the NNSA nuclear weapons, materials, and information. 
The NNSA is pursuing an Integrated Security Action Plan to protect U.S. 
nuclear assets. While we are making steady progress, NNSA still has 
work to do to get security right. We have commissioned a group of 
eminent Americans, known as the Hamre Commission, to review the entire 
issue of science and security to help us make sure we get the right 
picture and perspective. I have warned them to be careful with their 
recommendations, because many of them are likely to be implemented.
    I have called for a 6-month moratorium on implementing any new 
safeguards and security policies. We are using this time to review past 
policies, identify policy improvements, and determine how policy can 
most effectively be implemented within NNSA. We are emphasizing the 
importance of personal commitment and individual responsibility in the 
protection of our Nation's vital assets, and we are seeking to involve 
employees at all levels of our enterprise in improving safeguards and 
security.
    The NNSA is ensuring that people working on our nuclear deterrent 
are aware and accountable for their national security responsibilities. 
In that regard, on March 26, 2001, I announced plans for implementing 
``Integrated Safeguards and Security Management'' in the NNSA. ISSM, as 
it is known, will build safeguards and security considerations into 
management and work practices, at all levels, so that missions are 
accomplished securely. Individuals performing the work will be involved 
in the process of establishing appropriate safeguards and security 
practices. Subject-matter experts are available to provide guidance and 
information, but we must place the responsibility for working securely 
squarely on the shoulders of every individual in our complex--the 
scientists, technicians, production workers, and professionals 
performing and managing our missions.
    The counterintelligence polygraph program has raised concerns among 
scientists and others within the NNSA community. We are sponsoring a 
scientific study by the National Academy of Sciences (NAS) on the 
validity and reliability of polygraphy. The NAS study will include what 
is known about the effects of medications, sleep deprivation, and 
illness on the physiological responses measured through polygraph 
examinations. The 15-month study began on January 1, 2001. The study's 
final report is to be released next year and should help us improve 
upon the Department of Energy's polygraph program.
Safeguards and Security
    The NNSA is protecting U.S. nuclear facilities. The NNSA conducts a 
rigorous Safeguards and Security program to protect the physical assets 
of the NNSA enterprise. These efforts are an integral part of the 
administration's mission of being a responsible steward of the Nation's 
nuclear weapons. In fiscal year 2001, safeguards and security 
activities were appropriated as direct costs, rather than as allocated 
costs within indirect and overhead funding, as in the past. We are 
managing the safeguards and security as a line responsibility in the 
NNSA. My Chief of Defense Nuclear Security is responsible for 
establishing safeguards and security policy throughout the NNSA. We 
will administer the weapons safeguards and security budget for 
facilities where NNSA is the landlord, through our new Facilities and 
Operations organization, which I will discuss later in this testimony.
    In 1999, a multitude of corrective actions and enhancements to 
upgrade the safeguards and security posture at all Defense Programs 
sites resulted from a program named ``Safeguards and Security Goal 
Posts.'' By the beginning of fiscal year 2001, all final corrective 
actions and enhancements resulting from this program had been completed 
for all sites, except the Y-12 Plant, which was the only site not rated 
``satisfactory.'' The ability of the Y-12 Plant to attain an overall 
satisfactory rating hinges on the availability of funds to correct 
deficiencies in material control and accountability for the highly 
enriched uranium operations. The fiscal year 2002 budget request will 
maintain physical security functions at our production plants, the 
Nevada Test Site (NTS), and the national security laboratories, at 
their current security ratings.
    The NNSA is protecting vital nuclear deterrent information. The 
Integrated Safeguards and Security Management program is designed to 
systematically integrate safeguards and security into management and 
work practices, at all levels, so that missions are accomplished 
securely. Implementation of the ``Higher Fences'' initiative, to 
enhance protection of certain restricted weapons data within DOE and 
DOD, by establishing an additional sigma category, requires few 
resources and is moving forward.
    The nuclear weapons complex has always used secure computing 
systems and networks. However, the need for significant improvement in 
the protection of nuclear weapon data across the entire complex has 
been well documented in the past 2 years. An increased number of 
countries and organizations are attempting to obtain nuclear weapon 
data and are using increasingly sophisticated techniques.
    In response, Congress provided supplemental funding in fiscal year 
2000, to begin developing the Integrated Cyber Security Initiative 
(ICSI) Plan. Implementing this plan will sustain the operations and 
maintenance of cyber security activities throughout the complex, 
providing solutions for the most critical vulnerabilities revealed 
through risk assessments of the current network. Also, as called for in 
the ICSI plan, we will implement and demonstrate a testing network for 
evaluating and testing products and proposed solutions, complete the 
design of a new complex-wide network, and identify and catalog all 
electronic information that is exchanged in the complex.
    The fiscal year 2002 budget request will move us forward on the 
Integrated Safeguards and Security Management program and the ``Higher 
Fences'' initiative, and will allow us to sustain the maintenance and 
operation of cyber security activities across the complex, and to 
provide upgrades where the highest vulnerabilities are assessed, but 
will not allow us to address the long-term solutions set forth in the 
Integrated Cyber Security Initiative (ICSI) Plan that was submitted to 
Congress in March of this year.
Transportation Safeguards System
    The NNSA is protecting the U.S. movement of nuclear materials, 
components and nuclear weapons. The NNSA operates a Transportation 
Safeguards System to move nuclear weapons, components, and special 
nuclear materials, throughout the country, in a safe and secure manner, 
precluding theft or diversion. This unique transportation system has 
operated with an impeccable record of safety and security for more than 
25 years. Although its primary mission has been in support of the 
nuclear weapons program, the system provides transportation services 
for all DOE programs that require nuclear materials to be protected 
while in transit. This summer, the Office of Environmental Management 
will begin to remove nuclear materials from Rocky Flats. Other programs 
have also projected increases in their requirements for secure shipment 
of nuclear materials. The Transportation Safeguards System resources 
will have to be increased during the next 5 years to meet the projected 
demand for secure shipment of nuclear materials. Headquarters and the 
Albuquerque Operations Office, in collaboration with other program 
offices, have initiated a coordinated planning and scheduling process 
to improve the optimum usage of our assets, to establish NNSA authority 
to certify Type B shipping packages, and to expand our capabilities by 
hiring and training special Federal agents and enlarging the fleet of 
trailers, tractors, and escort vehicles.
Defense Nuclear Nonproliferation Activities
    With respect to NNSA's international nuclear security 
responsibilities, the NNSA develops and implements critical U.S. 
nonproliferation programs. Its role is due, in large measure, to the 
unique expertise in nuclear weapons and nuclear material handling that 
it draws from the National laboratories. The NNSA's goal is to ensure 
the close integration of technical talent and policy expertise with the 
efforts of other U.S. agencies working in the nonproliferation arena. 
Our goal is to address this complex, multifaceted issue in a 
comprehensive way, with specific, realistic goals for each part of the 
program. The Office of Defense Nuclear Nonproliferation's programs 
address different types of problems, and they are designed to do 
different things, while working to achieve the overall goal of reducing 
the threat of proliferation of weapons of mass destruction. All of 
these programs, together, offer a synergy of effect that is greater 
than the sum of the parts.
    The NNSA is pursuing strategies to protect or eliminate vulnerable 
weapons-usable nuclear material or infrastructure, and redirect excess 
weapons expertise to civilian enterprises in Russia and other nations 
that possess vulnerable materials. The Office of Defense Nuclear 
Nonproliferation is responsible for these nuclear security programs, 
along with other programs that seek to prevent, detect, and deter 
proliferation of weapons of mass destruction and the materials needed 
to produce them. Key programs within NN that deal with vulnerable 
weapons materials and the nuclear complex infrastructure in Russia 
include: (1) Materials Protection, Control, and Accounting; (2) Fissile 
Materials Disposition; (3) HEU Transparency Implementation; (4) the 
Nuclear Cities Initiative; and (5) Initiatives for Proliferation 
Prevention. NN's other nonproliferation and arms control programs will 
be discussed in the next section. The three-fold threat of unsecured 
materials, widely available technology, and underemployed expertise 
following the breakup of the Soviet Union makes these issues of 
paramount importance and urgency.
Materials Protection, Control, and Accounting
    The NNSA conducts effective programs in Russia to protect 
vulnerable weapons and weapons-usable nuclear materials. The NNSA's 
Materials Protection, Control, and Accounting program (MPC&A) is 
working rapidly to complete its mission, and estimates in its Strategic 
Plan that comprehensive security upgrades will be complete at all of 
the warhead storage locations that the Russian Navy has requested, as 
early as 2007, and for 603 metric tons of weapons-usable nuclear 
material by 2011. Since 1993, the program has completed rapid upgrades 
for nearly 4,000 warheads and 220 metric tons of fissile material. The 
unprecedented degree of cooperation and access shown by the Russian 
Navy to NNSA employees has facilitated the advancement of our work at a 
number of very sensitive Russian sites, allowing us to focus our 
personnel and funds on promptly securing the items in Russia that are 
most attractive to diversion. One programmatic goal for fiscal year 
2002 is to complete security upgrades at 13 nuclear sites, bringing the 
total number of completed sites to 50.
    Another goal is to promote sustainable security improvements. 
``Sustainability'' is critical to the long-term mission of the program, 
because we must ensure that installed MPC&A systems are maintained and 
operated over the long term. Sustainability also entails fostering the 
ability of our Russian counterparts to operate and maintain the MPC&A 
systems unilaterally. To ensure sustainability, we are establishing 
training centers, identifying credible Russian suppliers of MPC&A 
equipment, helping draft national regulations and security force 
procedures, and establishing a Federal information accounting system to 
track amounts and locations for all of Russia's nuclear material. 
Specifically, in fiscal year 2002, we will conduct 50 training courses 
in MPC&A design, operation, and maintenance for more than 2,400 
students, bringing the total number of Russian personnel trained in 
MPC&A concepts to greater than 6,000. Furthermore, we have developed 
and implemented a program to consolidate material into fewer buildings 
and fewer sites, and to convert excess highly attractive material to a 
form that is less attractive to potential proliferant nations. In 
fiscal year 2002, this program will convert an additional 1.8 metric 
tons of highly enriched uranium to low-enriched uranium (LEU), raising 
the total converted to four metric tons. This program reduces costs to 
the U.S. by limiting the number of buildings requiring security 
upgrades. It also reduces the Russia-borne costs of maintaining 
installed security upgrades once NNSA's funds are no longer provided.
    The NNSA conducts two separate, yet complementary, programs to 
eliminate vulnerable weapons and weapons-usable nuclear materials in 
Russia, so that it will never again be used for weapons purposes. We 
estimate that there are roughly 150 metric tons of plutonium and more 
than 1,000 metric tons of highly enriched uranium in Russia. These 
programs are the first step in what is sure to be a lengthy process.
Fissile Materials Disposition
    The Fissile Materials Disposition program is responsible for 
disposing of inventories of surplus U.S. weapon-grade plutonium and 
highly enriched uranium, for reducing the significant costs associated 
with long-term storage of these materials in the U.S., as well as for 
providing the technical support for, and ultimate implementation of, 
efforts to obtain reciprocal disposition of surplus Russian weapon-
grade plutonium. This disposition program is among the nonproliferation 
programs that is currently undergoing a National Security Council 
review of U.S.-Government nonproliferation assistance programs to 
Russia.
    The fiscal year 2002 budget request will fund the completion of the 
mixed oxide (MOX) Fuel Fabrication Facility design and proceed with 
related MOX fuel qualification activities. We will continue the design 
of the Pit Disassembly and Conversion Facility at a reduced rate, and 
we will suspend the design of the Plutonium Immobilization Plant. These 
changes are necessary, to reduce the anticipated future-year peak 
funding requirements associated with plans for simultaneously building 
three plutonium disposition facilities at the Savannah River Site. 
Despite these schedule changes, the NNSA continues to pursue the 
irradiation of MOX fuel in existing reactors and immobilization for the 
disposition of surplus U.S. weapon-grade plutonium. This will enable us 
to meet the commitments called for in the recently signed U.S.-Russia 
Plutonium Management and Disposition Agreement and to support the 
continued consolidation, cleanup, and shut down of DOE sites where 
surplus plutonium is stored.
    Other activities planned for fiscal year 2002 involve providing 
limited support for the development of facilities in Russia for 
disposition of surplus plutonium, and continuing surplus U.S. HEU 
disposition, including capital improvements at the Savannah River Site 
to support the off-specification blend-down project with the TVA. This 
project will eliminate tons of surplus weapons material, by converting 
it to reactor fuel for use in TVA's reactors, which provide electric 
power throughout the Southeast. Equally important, this work will also 
save the taxpayers $600 million by avoiding the cost to dispose of this 
surplus material as waste.
HEU Transparency Implementation
    The NNSA is working to convert Russian surplus HEU from the Russian 
military stockpile into a non-weapon-usable form. The 1993 U.S.-Russia 
HEU Purchase Agreement remains one of the more impressive 
nonproliferation achievements of the last decade. The NNSA's HEU 
Transparency Implementation program is designed to provide assurance 
that surplus HEU from dismantled Russian nuclear weapons is downblended 
in Russia to LEU and fabricated into fuel for sale and use in U.S. 
commercial power reactors.
    The program monitors the conversion and processing of this material 
at Russian facilities, subject to the terms of the agreement. Over the 
course of the program thus far, 73 teams--the equivalent of more than 
4,000 monitoring hours--have visited these facilities to monitor 
conversion operations. During the past year, the NNSA installed a 
Blend-Down Monitoring System (BDMS) at one Russian facility, to provide 
continuous monitoring data in support of our transparency objectives. 
The fiscal year 2002 budget request will allow the NNSA to continue its 
blend-down monitoring activities, but at a slightly reduced level. 
Through the end of 2000, more than 111 metric tons of weapons grade 
uranium--enough for roughly 4,400 weapons--had been removed from the 
Russian military program, under this agreement, and converted to LEU 
for commercial sale. Our goal for 2001 is to convert another 30 metric 
tons. This program is a major source of income for the Russian 
government. Approximately $2.2 billion has been paid to the Russian 
Federation under this agreement, and some of this money is to be used 
for the conversion of defense enterprises and for enhancing the safety 
of Russian nuclear facilities.
Redirecting Excess Weapons Expertise and Eliminating Weapons 
        Infrastructure
    The NNSA conducts two programs focused on redirecting excess 
weapons expertise in Russia to civilian enterprises and eliminating 
their weapons infrastructure. The Nuclear Cities Initiative and the 
Initiatives for Proliferation Prevention Program are programs that work 
together with the International Science and Technology Centers and the 
Civilian Research and Development Foundation to address all aspects of 
this issue.
Nuclear Cities Initiative
    NNSA's unique ``brain drain'' program, the Nuclear Cities 
Initiative (NCI), was created in 1998, to assist the Russian Federation 
in: (1) diversification of the economy within the closed nuclear cities 
to attract commercial investors; (2) enhancement of U.S. national 
security by assisting Russia in reducing the overall size of its 
nuclear weapons production complex; and (3) prevention and reversal of 
the threat of proliferation of nuclear weapons expertise, by 
redirecting weapons scientists in Russia's nuclear cities to 
sustainable non-weapons activities. We are striving to accomplish this 
task, working closely with the Russians, to: (1) facilitate transition 
from weapons research to civilian business and commercial projects; (2) 
develop joint plans for accelerated downsizing of the Russian nuclear 
complex; (3) develop local infrastructure to support economic 
diversification and job creation; (4) conduct targeted training and 
other activities to improve marketing and management capabilities; and 
(5) leverage funding and encourage non-U.S. Government investment.
    The fiscal year 2002 budget request will allow the NNSA to focus 
its commitments in only Sarov, Russia. In an effort to make the closed 
nuclear cities in Russia more amenable to international businesses, the 
NNSA has facilitated the creation of two International Business 
Development Centers, two Open Computing Centers, and two 
Nonproliferation Centers for research and training new nonproliferation 
experts. Additionally, we have expanded and upgraded telecommunications 
capabilities, to enable remote work to be done from those 
geographically isolated cities. Thus far, with a limited budget, NNSA 
has facilitated initiation of more than 25 commercial and 
infrastructure projects in the cities, with more than $8 million spent 
in Russia. With our help, loan officers of the European Bank for 
Reconstruction and Development loan officers are now established in 
each city, making more than $1 million in small-business loans to local 
non-weapons businesses in the closed cities. We are pleased that there 
are now 24 business training courses in those three cities, with 
hundreds of participants. Looking to the future, we are hopeful that 
negotiations involving more than ten potential commercial investors 
will soon bear fruit.
Initiatives for Proliferation Prevention
    The Initiatives for Proliferation Prevention (IPP) program was 
established in 1993, to prevent the proliferation of weapons 
technologies and expertise, by engaging former Soviet weapon scientists 
in cooperative research projects with DOE national laboratories and 
U.S. industry partners, especially in areas that have a strong 
potential for non-military commercialization. This program enhances 
U.S. national security by engaging former Soviet weapons scientists in 
civilian work, to prevent the spread of technologies related to weapons 
of mass destruction and also to increase access to, and transparency 
at, former Soviet weapons facilities. We have developed a rigorous 
process of screening all projects for potential dual-use activities or 
efforts, relying on other parts of the U.S. Government to bring their 
expertise to bear on this issue. At the same time, NNSA's activities in 
this arena also provide U.S. industry with technology and research 
talent from the former Soviet military establishment. Since its 
inception, the IPP program has engaged more than 8,000 scientists, 
engineers, and technicians in the Newly Independent States, and is 
supporting 64 cooperative research projects at 65 institutes. These 
efforts realized seven commercial projects and generated $9.4 million 
of commercialized products.
International Nuclear Safety and Cooperation
    Another strategy for enhancing nuclear security is to improve 
operational safety and safety systems at nuclear facilities of concern. 
The NNSA is working to reduce safety risks at the sixty-six operating, 
Soviet-designed nuclear-power reactors in nine countries, through the 
International Nuclear Safety and Cooperation program. We plan to 
complete safety upgrades for these reactors by 2006. There are three 
reactors in Russia that are to be shut down, as part of DOD's program 
to eliminate the production of weapons-grade plutonium. These three 
high-risk reactors, at secured sites, are the oldest operating reactors 
in Russia, and have not received any safety upgrades under foreign 
cooperation. Safety upgrades at these production reactors, prior to 
their planned shutdown in 2006, are among our highest priorities. 
However, the scope of activities for improved safe operation will be 
limited.
    We are encouraged not just by our progress to address nuclear 
safety at operating reactors, but by the early closure of older 
reactors as well. The Ukrainian government shutdown Chornobyl's sole 
operational reactor--Unit 3--in December 2000, as planned. Our efforts 
to support the construction of a replacement heat plant at Chornobyl, 
for decontamination and decommissioning purposes, are also proceeding 
well. We were pleased when Kazakhstan also made the tough decision to 
shut down its BN-350 reactor. Our attention is now focused on plans for 
decommissioning and decontaminating the reactor's sodium coolant, which 
will ensure that this reactor can never be restarted. The fiscal year 
2002 budget request will allow us to complete one full-scope, nuclear 
plant training simulator, each, in Russia, Ukraine, and Slovakia. We 
will also strive for the completion of operational safety improvements 
at all plants in Russia and Ukraine. Safety procedure and reactor in-
depth safety assessments will proceed, albeit at a delayed pace.

        GOAL 3: DETECTING, DETERRING, AND IMPEDING PROLIFERATION

    Our third goal is to detect, deter, and impede proliferation and 
the use of weapons of mass destruction. As mentioned in the previous 
section dealing with nuclear material security, the NNSA develops and 
implements critical U.S. nonproliferation programs. In addition to the 
programs already described, NN has extensive efforts in research and 
development (R&D) and arms control arenas. Our active role in the U.S. 
nonproliferation interagency community derives, in large measure, from 
the nuclear expertise found in the national laboratories. NN supports 
U.S. national, bilateral, and multilateral efforts to reduce the threat 
posed by the proliferation of weapons of mass destruction.
Research and Development Programs
    A key part of our nonproliferation strategy is to enhance the 
capability to detect weapons of mass destruction. The NNSA goal of 
integrating technical talent and policy expertise is evident in the 
Nonproliferation and Verification R&D Program, which enhances U.S. 
national security through needs-driven R&D, with an emphasis on 
developing technologies to detect nuclear, chemical, and biological 
proliferation, and to monitor nuclear explosions.
    The following accomplishment is just one indication of the type of 
activities NNSA is involved with in the R&D area. NNSA was proud that, 
last year, we achieved a significant milestone in one of our R&D 
programs: The Multispectral Thermal Imager satellite was launched in 
March 2000. This small research satellite, designed and built by a team 
of NNSA laboratories and industry partners, will develop and test 
remote-sensing concepts that will add to our country's ability to 
monitor nuclear proliferation. Originally designed for a 14-month 
research mission (with an expectation of 3 years of useful operation), 
the satellite has already achieved most of its design objectives. The 
MTI program has developed the sensor technology and data processing 
methodology to make extremely precise multispectral remote sensing 
measurements from space, and to use these measurements to extract 
important proliferation monitoring information about observed sites. 
The engineering required to achieve these precise measurements and 
complex algorithms, to extract the useful information, is being 
validated through experiments with the satellite. Additionally, the 
satellite has been used to support numerous civil, environmental, 
defense, and space science researchers throughout the government. The 
satellite has collected more than a thousand images and approximately 
one third of these were at the request of non-DOE experimenters.
    The Proliferation Detection program will develop the requisite 
technologies to detect nuclear proliferation. Our unchallenged lead 
responsibility for nuclear nonproliferation technology derives from the 
expertise and knowledge base resident in our nuclear weapons complex, 
and it provides a technology template for the detection of activities 
related to all weapons of mass destruction. The objectives of the 
detection program are:

        <bullet> to produce technologies that lead to prototype 
        demonstrations and resultant remote proliferation detection 
        systems;
        <bullet> to strengthen our detection capabilities to respond to 
        current and projected threats to national security and world 
        peace posed by the proliferation of nuclear, chemical, and 
        biological weapons; and
        <bullet> to develop technologies that are subsequently made 
        available to a wide range of government users, including DOD 
        and the intelligence community.

    The separate, yet closely related, Proliferation Deterrence program 
seeks to develop technical options to prevent and deter proliferation 
of nuclear weapon technology and fissile materials. Research is focused 
on developing integrated sensor systems that will improve the accuracy 
and timeliness of information. Our NNSA experts are working hard to 
build robust technical deterrence capabilities that include the 
development of unattended and handheld technologies designed to shape 
U.S. diplomatic efforts that rely upon verification or confidence 
building measures, in addition to the development of technical means to 
defend the homeland against lost or stolen, foreign weapons or fissile 
materials. We are also improving our forensic capability to identify 
the origin of fissile material that might be associated with a nuclear 
threat.
    With the fiscal year 2002 budget, we will continue to develop and 
demonstrate innovative remote sensing, sampling, and analysis 
technologies needed to improve early detection of a proliferant 
nation's nuclear weapons program or non-compliance with international 
treaties and agreements, as well as tracking foreign special nuclear 
materials.
    The Nuclear Explosion Monitoring Program is designed to provide the 
U.S. with the technical capability to detect nuclear explosions. 
Specifically, NNSA technical experts are working to develop and deploy 
sensors and algorithms that enable the U.S. to meet its national 
requirements for detecting, locating, identifying, and characterizing 
nuclear explosions in the atmosphere, in space, underground, or 
underwater. Additionally, we are transitioning technologies to, and 
providing operational support for, U.S. national nuclear explosion 
monitoring agencies, including the Air Force Technical Applications 
Center, in partnership with other Air Force elements, the United States 
Geological Survey, and other government agencies. The program seeks to:

        <bullet> enable detection of very low-yield events, especially 
        those that might arise from proliferant nation efforts;
        <bullet> deliver ground-based systems comprising state-of-the-
        art hardware and software products for seismic, hydro-acoustic, 
        infrasound, and radionuclide technologies; and
        <bullet> develop, engineer, and deliver satellite-based systems 
        to the Air Force.

    During the next 5 years, we will develop, demonstrate, and begin 
deliveries of a new generation of optical, electromagnetic pulse, and 
direct-radiation sensors for Global Positioning System Block II-F 
satellites.
    In fiscal year 2002, the Nuclear Explosion Monitoring program will 
continue to develop enabling technology, operational hardware and 
software, and expertise to detect, locate, identify, characterize, and 
attribute nuclear detonations through both ground-based and satellite-
based systems.
    To meet threats posed by chemical and biological agents, the NNSA 
draws upon the diverse and extensive expertise of its national 
laboratories. The goal of the Chemical and Biological National Security 
Program is to develop, demonstrate, and deliver technologies and 
systems that will lead to major improvements in U.S. capability to 
prepare for, and respond to, chemical or biological attacks against 
civilian populations. This program will continue to focus emerging 
science and technology on the threat of chemical and biological attack 
against U.S. civilian populations. The NNSA is the primary agency 
developing non-medical technical solutions for this challenge. Our 
experts are involved in a broad interagency program to develop sensors 
that could detect the terrorist use of a biological agent at a large 
outdoor event, such as the Super Bowl or the Olympics. While we do not 
have the lead on this activity, NNSA brings to the table superb 
technical experience in this field. The NNSA is providing the 
underpinning biological information necessary for biological detection 
that would support analyses for attribution and event reconstruction 
purposes, and would aid other agencies in the development of medical 
and public health countermeasures. The goals of this program are to 
develop and demonstrate:

        <bullet> chemical and biological detection, identification, and 
        warning systems for domestic, high-risk areas or conditions;
        <bullet> hand-portable chemical and biological detectors, to 
        provide real-time detection to increase situational awareness 
        during crises; and
        <bullet> modeling and simulation capabilities, to enable 
        accurate prediction of the effects from chemical and biological 
        attacks in urban areas, to guide preparation and response 
        efforts, chemical and biological decontamination, and 
        restoration techniques for use in civilian settings.

    The construction of the Nonproliferation and International Security 
Center at Los Alamos will continue with funding of $36 million in 
fiscal year 2002, allowing for its completion in this same fiscal year.
Arms Control and Nonproliferation
    Another key strategy is promoting arms control and nonproliferation 
treaties, promoting agreements, and regimes, and developing the 
associated technologies to support them. The mission of the Office of 
Arms Control and Nonproliferation is to detect, prevent, and reverse 
the proliferation of weapons of mass destruction (WMD) materials, 
technology, and expertise. It is the focal point within the NNSA for 
activities that support the President's nonproliferation and 
international security policies, goals, and objectives, as well as 
those activities mandated by statute. The program provides policy and 
technical expertise and leadership for NNSA and the Department in 
interagency, bilateral, and multilateral fora involved in 
nonproliferation and international security matters. Several projects 
that had been initiated last year are not proceeding currently. The 
NNSA will not be proceeding with the Separated Civil Plutonium 
activities, due to Russian nuclear cooperation with Iran. Funding for 
Spent Fuel Storage and Geological Repository in Russia are on hold, to 
allow time for the new administration's interagency policy review. At 
the current budget level for fiscal year 2002, further assistance to 
Kazakhstan, in implementing the secure long-term storage of the BN-350 
plutonium-rich fuel, will be curtailed.
Russia-Focused Programs
    The Second Line of Defense program was created in 1998. It is 
designed to help the Russians detect and prevent nuclear proliferation 
or terrorism through the installation of radiation detection equipment 
at strategic transit and border sites in Russia. It also helps to 
strengthen Russia's ability to detect and deter illegal nuclear 
transfers, thus adhering to its international nonproliferation 
commitments. In fiscal year 2002, this program will be expanded 
slightly, to increase our cooperation with the Russian Customs 
Committee. This program's objectives include:

        <bullet> equipping vulnerable border and transit sites with 
        radiation detection equipment;
        <bullet> utilizing a ``systems'' approach to equipment 
        installation, including rigorous vulnerability assessments, 
        site survey, and design of candidate sites, and acceptance 
        testing and data evaluation of installed equipment; and
        <bullet> ensuring sustainability through training for equipment 
        use and procedures for response, using Russian-manufactured and 
        U.S.-tested detection equipment, and providing mobile training 
        stations for use in remote regions.

    To date, this program has been quite successful on a limited budget 
of several million dollars per year. Equipment has been installed at 
the airports in Moscow and St. Petersburg, and at a port on the Caspian 
Sea. Eight sites are fully-equipped and installation at three 
additional sites is underway. This relatively young program already has 
reached significant achievements, including 90 customs officers 
trained, training manuals distributed to 30,000 front-line officers, 
passive searches of roughly 120,000 vehicles, 11,000 railroad cars, and 
greater than 750,000 pedestrians, using radiation detectors installed 
under our joint program.
Policy and Analysis
    The Policy and Analysis office provides analytical support and 
technical expertise for arms control and nonproliferation treaties, and 
for agreement policy formulation, negotiation, and implementation at 
DOE and NNSA facilities and for regional security initiatives. In the 
next fiscal year, the NNSA will continue to promote arms control and 
nonproliferation activities, both under formal treaty-related 
mechanisms and under less formal mechanisms, including the Warhead 
Safety and Security Exchange (WSSX) Agreement, negotiations on Russian 
plutonium oxide measurements, under the Plutonium Production Reactor 
Agreement, and testing, evaluating, and demonstrating technologies, in 
accordance with the Joint DOE-DOD Integrated Technology Plan. These 
technologies would support transparency negotiations for several 
initiatives, including the monitoring regime, to be implemented at the 
Fissile Material Storage Facility being built by the DOD at the Mayak 
Production Association in Ozersk, Russia, the 1996 Plutonium Production 
Reactor Agreement implementation, and U.S.-Russian Federation-IAEA 
(International Atomic Energy Agency) Trilateral Initiative 
negotiations.
    The U.S. and Russian Federation have declared their commitment to 
pursuing transparent and irreversible reductions in nuclear arms. The 
mission of the NNSA Warhead and Fissile Material Transparency Program 
is twofold. First, we are comprehensively evaluating the impact of a 
warhead monitoring regime on the NNSA nuclear weapons complex, to 
ensure that there is no adverse impact on the U.S. requirement to 
maintain a safe, secure, and reliable nuclear weapons stockpile, and to 
ensure that no classified information is revealed. Second, NNSA experts 
are developing and implementing technical measures that can be applied 
at Russian nuclear weapons facilities, to provide confidence that 
Russian nuclear weapons are being dismantled, and that excess fissile 
materials removed from dismantled Russian nuclear weapons cannot be 
used again for weapons purposes. This program reduces the potential for 
theft and diversion of Russian warheads and fissile material, by 
increasing the safety and security of Russian warheads. It also obtains 
access to Russian scientific and technical information, and gains 
access and provides transparency in the Russian nuclear weapons 
complex.
    The Warhead Safety and Security Agreement/Laboratory-to-Laboratory 
Transparency Program is intended to provide a greater understanding of 
the Russian nuclear warhead dismantlement process, while encouraging 
advocates for transparency in Russia. The Laboratory-to-Laboratory 
program is implemented through contracts signed between U.S. and 
Russian national laboratories. Upon receipt of deliverables from 
Russian institutes, U.S. laboratories provide funds to Russian 
scientists, who worked on the deliverables. This program is conducted 
under the auspices of the extended Nuclear Warhead Safety and Security 
Agreement. Strict guidelines and oversight are used by the U.S. and 
Russian Federation to ensure that only unclassified information is 
exchanged. Areas of work include radiation measurement technology, tags 
and seals, remote monitoring, and other topics related to nuclear 
weapons transparency.
    The ``Agreement between the United States of America and the 
Government of the Russian Federation, on the Exchange of Technical 
Information in the Field of Nuclear Warhead Safety and Security,'' more 
commonly referred to as the Warhead Safety and Security Exchange 
Agreement (WSSX), was signed on December 16, 1994, entered into force 
in June 1995, and was extended for an additional 5-year term last year. 
Participants in the Agreement are DOE and DOD for the U.S. and MinAtom 
and the Ministry of Defense for Russia. The June 2000 extension 
incorporated any ongoing or future DOE/MinAtom Laboratory-to-Laboratory 
activities concerning the transparency associated with dismantlement of 
nuclear weapons under the WSSX Agreement. As established under the 
original WSSX Agreement, a Joint Steering Committee and Joint 
Coordinating Group approve new Laboratory-to-Laboratory topics/projects 
for program technical exchange consideration and provide oversight to 
Agreement implementation.
    The Monitoring Warhead Inventories and Dismantlement Program 
focuses on identifying technical measures and technologies to monitor 
warhead inventories and dismantlement under future monitoring regimes. 
Future initiatives involving the monitoring of nuclear warheads, 
nuclear warhead dismantlement, or fissile material, resulting from 
dismantled nuclear warheads, will have a significant impact on the NNSA 
nuclear weapons complex. The NNSA Warhead and Fissile Material 
Transparency Program comprehensively evaluates the issues associated 
with potential monitoring regimes, to ensure that there is no adverse 
impact on the U.S. requirement to maintain a safe, secure, and reliable 
nuclear weapons stockpile, and that no classified information is 
revealed. In fiscal year 1999, DOE and DOD agreed to combine resources 
in support of a joint DOE-DOD Integrated Technology Plan to 
comprehensively develop, test, and ``red-team'' technologies that could 
be used to support Mayak transparency, the U.S.-Russia-IAEA Trilateral 
Initiative, Plutonium Production Reactor Agreement, and potential 
future initiatives.
    The Plutonium Production Reactor Agreement (PPRA), signed in 1996, 
commits the Russian government to cease production of weapon-grade 
plutonium at three reactors that also provide heat and electricity to 
two cities and their surrounding regions in Siberia. As part of the 
PPRA, both sides agreed to allow teams from the other side to monitor 
the shut-down reactors, as well as the plutonium storage facilities. 
NNSA and Russian technical experts are developing jointly technologies 
and mechanisms that will enable our monitors to perform their 
transparency activities, without revealing any sensitive information.
    The Trilateral Initiative began in 1996. Its goal is to provide 
international confidence that excess U.S. and Russian weapons plutonium 
is not returned to weapon use. Technical experts from Russia, the U.S., 
and the International Atomic Energy Agency (IAEA) have been working 
diligently during the past 4 years to devise technologies and methods 
to allow IAEA verification of the material, without revealing sensitive 
information. IAEA inspections at the Mayak Fissile Material Storage 
Facility will verify that Russian excess plutonium remains removed from 
weapons programs. The U.S. will place its excess plutonium under IAEA 
verification at the K-Area Material Storage Facility at the Savannah 
River Site.
Non-Russia-Focused Programs
    While the bulk of our nonproliferation activities take place in 
Russia, the NNSA is also involved in nonproliferation and arms-control-
regime projects in many other parts of the world. For instance, since 
1995, the U.S. and Kazakhstan have been working to reduce proliferation 
risks associated with three tons of weapons-grade plutonium. This 
material, which is located at the BN-350 fast-breeder reactor in Aktau, 
Kazakhstan, contains enough plutonium to manufacture hundreds of 
nuclear weapons. Furthermore, unlike most spent fuel, the majority the 
BN-350 spent fuel material poses no significant radiation hazard to a 
would-be thief. The project has:

        <bullet> reduced the threat to U.S. national security posed by 
        the vulnerability of the weapons-grade material;
        <bullet> significantly enhanced physical protection and 
        material control measures at the plant;
        <bullet> utilized a former weapons-related complex in 
        Kazakhstan, which was converted to peaceful uses under the 
        Cooperative Threat Reduction program, to manufacture most of 
        the storage canisters;
        <bullet> instilled a safety and security culture, by conducting 
        all U.S.-sponsored activities in a cost-effective manner, 
        consistent with international safeguards, security, and safety 
        standards; and
        <bullet> packaged the nearly 3,000 fuel assemblies in welded 
        and evacuated 1\1/2\-ton steel canisters in such a way that 
        ``hot'' assemblies are combined with ``cool'' assemblies, to 
        provide a radiation barrier to theft, while also stabilizing 
        the spent fuel for long-term storage. This phase will be 
        complete this summer, securing three metric tons of very high-
        grade plutonium.

    The Aktau project will, as funding allows, continue to support the 
IAEA in the implementation of internationally accepted safeguards 
measures over the material, continue to provide non-weapons-related 
employment for nuclear scientists in Kazakhstan, and provide security 
and international safeguards measures for the transportation and long-
term dry storage facility for the BN-350 material.
    NNSA experts are also actively working in North Korea to reverse 
and prevent proliferation of nuclear weapons, by securing approximately 
30 kilograms of weapon-grade plutonium contained in Nyong Byon 5 
megawatt reactor spent fuel. Similar to the objectives of the Aktau 
project, NNSA technicians have:

        <bullet> packaged the 8,000 assemblies in canisters and placed 
        those canisters under IAEA monitoring; and
        <bullet> performed field operations to maintain packaged spent 
        fuel in a safe condition, appropriate for future shipment.

    We are also supporting the IAEA in the implementation of 
verification and international safeguards of the material, while 
helping to prepare plans to support future shipment and disposition of 
spent fuel.
    In an effort to impede the use of weapons of mass destruction, the 
NNSA supports several projects targeted at reducing the amount of 
fissile material that could be available to potential proliferators to 
fashion into a nuclear device. In the Reduced Enrichment for Research 
and Test Reactors (RERTR) Program, NNSA continues to work to reduce 
international commerce in civil HEU, by developing technologies to 
convert foreign and domestic research and test reactors from HEU to 
LEU. To accomplish this, the program continues to:

        <bullet> develop denser LEU fuels that can be used to convert 
        most, if not all, research reactors to LEU fuel;
        <bullet> develop LEU targets and chemical processing methods 
        that can be used for production of medical radioisotopes;
        <bullet> perform design and safety analyses, and transfer 
        technology to assist conversion of research reactors to use of 
        to LEU fuel and targets; and
        <bullet> provide support to the Russian RERTR program, to 
        develop high-density fuels and to complete the design and 
        safety analyses needed for LEU conversion of Russian-designed 
        research reactors.

    Along those same lines, and based on its own experience with the 
RERTR program, NNSA experts have begun cooperation with Russia to 
establish a Research Reactor Fuel Take-Back Program, to prevent 
proliferation of nuclear weapons, by repatriating to Russia civil HEU 
fuel, from Soviet/Russian-supplied research reactors in 16 countries, 
many of which are located in regions of proliferation concern. This 
program is in its early stages, and is working closely with the IAEA.
    NNSA is also active in strengthening regional security and 
nonproliferation, not only on the Korean peninsula, but also throughout 
East Asia, South Asia, and the Middle East. We are doing this by 
participating in U.S. policymaking, promoting regional security 
dialogues, and sharing with key states in these regions the expertise 
of the national laboratories on technical measures to implement 
nonproliferation agreements. Under a program to strengthen the 
Biological and Toxin Weapons Convention (BWC) regime, NNSA supports the 
U.S. in its efforts to negotiate a legally binding protocol to the 1972 
BWC. This protocol is part of a larger effort to deter noncompliance 
with the BWC and to reinforce the global norm against the proliferation 
of biological weapons. Our technical experts facilitate U.S. commerce 
through implementation of bilateral peaceful nuclear cooperation 
agreements with our nuclear trading partners.

                GOAL 4: PROVIDING NAVAL NUCLEAR REACTORS

    Our fourth goal is to provide the Navy with safe, militarily 
effective nuclear propulsion plants, and ensure their continued safe 
and reliable operation. Naval Reactors (NR) is a highly successful 
semi-autonomous organization inside of the NNSA. Admiral Bowman, the 
Program's director, is responsible for providing the U.S. Navy with 
safe, militarily effective nuclear propulsion plants, and ensuring 
their continued safe and reliable operation.
    The responsibilities and authority of the director of this unique 
dual agency organization were set forth in Executive Order and in 
Public Laws. This cradle-to-grave responsibility begins with technology 
development and continues through reactor operation and, ultimately, 
reactor plant disposal.
    With 102 operating Naval reactor plants in warships comprising 40 
percent of the Navy's major combatants, primary emphasis and most 
effort is placed on ensuring the safety and reliability of these 
plants. Naval Reactors is developing the next-generation reactor for 
the Navy's new Virginia-class attack submarines and a reactor for the 
Navy's new CVNX class of aircraft carriers.
    I will continue to support and promote this unique Program that 
produces the ``culture of excellence'' that NR is known for.

         GOAL 5: VITALITY AND READINESS OF THE NNSA ENTERPRISE

    Our fifth goal is to ensure the vitality and readiness of the 
NNSA's scientific and technical enterprise, for the next decade and 
beyond. We are particularly concerned about attracting and retaining a 
preeminent workforce and revitalizing our aging infrastructure.
Nuclear Expertise
    A key strategy for ensuring the readiness of the enterprise is to 
attract and retain the best workforce possible, in today's highly 
competitive market for technical talent, by providing a challenging and 
rewarding work environment. Within a decade, most of our weapons 
designers with nuclear testing experience will be eligible for 
retirement and may have left our workforce. This means that when our 
newest system, the W88, reaches the end of its original, expected 
design life in 2014, we may no longer have anyone with test-based job 
experience to help evaluate modifications that may be required, due to 
aging. As part of the Stockpile Stewardship Program, we are using the 
remaining critical staff to train and mentor the next generation of 
stockpile stewards, who will use the new stockpile stewardship tools, 
along with existing nuclear test data and the weaponization database.
    As I indicated in the beginning of this testimony, our people are 
our most important asset. But our experienced cadre of scientists, 
engineers, and manufacturing personnel is dwindling, as workers retire. 
Attracting and retaining the critically skilled people we need is one 
of the major problems faced by the nuclear weapons complex today.
    We provided a report to Congress last year, in response to section 
3163 of the National Defense Authorization Act for Fiscal Year 2000, 
that describes the situation at each of our contractor sites, with 
regard to their current and projected critical skills status and their 
plans for maintaining essential nuclear weapons expertise. At present, 
we believe the situation is manageable, but we will carefully monitor 
the implementation of each site plan. We are also currently reviewing 
our policy with our management and operating contractors to ensure that 
it promotes effective recruitment and retention. The three new 
contracts with our production plants, awarded in fiscal year 2000, 
contain a new clause that states it is our policy not to inhibit 
recruitment and retention. The new contracts with the University of 
California for the Los Alamos and Lawrence Livermore National 
Laboratories include maintenance of critical skills as one of the key 
improvement areas that will receive focused evaluation by the NNSA.
    One might think that recruiting and retaining the critically 
skilled people we need could be solved by simply paying higher 
salaries. Certainly that is true in some instances, but not all. One of 
the problems in cyber security is that once we have trained individuals 
in the latest techniques, we often lose them to private industries that 
are paying higher salaries. Of course, a number of the critically 
skilled people that are needed in the complex have less direct 
application in private industry, for example, plutonium metallurgists. 
This raises the problem of encouraging individuals to enter these 
fields in the first place, and it is here that our new experimental 
facilities and capabilities come into play.
    A significant element in attracting and retaining personnel at the 
national defense laboratories has always been the Laboratory-Directed 
Research and Development (LDRD) Program. I would like to thank Congress 
for removing the restrictions against allowing our contractors to set 
aside up to 6 percent of their weapons activities appropriations for 
Laboratory-Directed Research and Development. The central objective of 
the LDRD program is to enhance the scientific and technical 
capabilities of the national laboratories, by investing in fundamental 
science and technology to meet long-term national needs. Sustained 
support for this program is essential, as it impacts recruitment. 
Overall, the personnel pool is still low which reflects the time it 
takes to recruit individuals. A similar program, authorized by Congress 
for the production plants, began in fiscal year 2001.
    Although Laboratory and Plant Manager Directed Research and 
Development Programs are essential elements in attracting people to the 
nuclear weapons program, the enduring attraction and retention of these 
people is fundamentally related to three issues: national importance of 
the mission, technical challenge of the program and advanced 
experimental, computational, and manufacturing capabilities.
Maintenance of the Complex
    Another key strategy for assuring the vitality of our enterprise is 
to provide state-of-the-art scientific and technical tools and 
facilities, in a safe and secure environment. The current budget 
request for fiscal year 2002 will provide approximately the same level 
of funding available to our facilities and sites, as it has during the 
past several years. As I indicated in my testimony before the Senate 
Energy and Water Development Appropriations Subcommittee on March 13th, 
that level of funding has focused maintenance activities each year on 
those facilities necessary to carry out the immediate workload. We have 
not been able to make a significant investment for sustained, 
preventive maintenance or investments to reduce the risk of equipment 
failures, to increase operational efficiency and effectiveness, or to 
extend facility lifetimes. As a result, our aging nuclear weapons 
complex more than half of our structures are greater than 50 years old 
is deteriorating at an accelerating rate. The assessment Defense 
Programs conducted last year indicated that, in just the last 5 years, 
the percent of the complex found to be in either excellent or good 
condition had fallen from roughly 56 percent to only 26 percent.
    The condition of our facilities and infrastructure is certainly not 
a new story, having been documented in a number of studies over the 
past decade, and addressed by various construction-oriented 
initiatives, including Utilities and Equipment Restoration, the 
Facilities Capability Assurance Program, R&D Revitalization, Non-
Nuclear Reconfiguration, and the Stockpile Management Restructuring 
Initiative, during the past 3 decades. The condition of our facilities 
and infrastructure has also been recognized by Congress, which, since 
fiscal year 1998, has earmarked $86 million above requested levels, 
specifically for infrastructure improvements at Y-12, Pantex, Kansas 
City, and Savannah River. Certainly, increased funding is vital, but it 
is only one part of the solution. Excellent facility management is a 
standard business practice of most major organizations and I have 
already taken steps to establish an office within NNSA to manage the 
facilities and infrastructure of the nuclear weapons complex. This 
office will focus on long-term planning, establishing the processes 
absent too long that will institutionalize the procedures, standards, 
and expectations for the complex.
    A Recapitalization Initiative has been developed to redress 
infrastructure problems throughout the complex in response to a recent 
comprehensive study of facilities and infrastructure. This multi-year 
initiative to correct maintenance deficiencies, with the goals of 
stabilizing the infrastructure, increasing availability of our current 
facilities, and extending their useful lives will be reviewed as part 
of the strategic review of national security programs.

              GOAL 6: CREATING A WELL-MANAGED ORGANIZATION

    Our sixth goal is to create a well-managed, responsive and 
accountable organization, by employing effective business practices. On 
March 14, 2001, I announced my plans for realigning the NNSA's 
organizational structure to improve performance of our core mission of 
strengthening national security and reducing the global threat from 
weapons of mass destruction, through applications of science and 
technology.
    This past January, after listening to the findings of my two 
organizational options teams, I concluded that NNSA should be realigned 
into ``product'' and ``support'' divisions, as is the practice in many 
major private sector enterprises.
    Our ``product'' divisions, Defense Programs and Defense Nuclear 
Nonproliferation, will focus on defining and advocating for the most 
effective means of accomplishing our mission. On the other hand, key 
support functions have received less-than-adequate attention in the 
past. Security and safety management, infrastructure and project 
management, the personnel system, and the planning and budgeting 
process all need focus and dedicated management attention. In creating 
two new Associate Administrators, one focused on facilities and 
operations and the other on management and administration, we will 
establish the advocates for many of the functions that Congress 
recognized as needing attention in the crafting of Title 32. By taking 
these functions off the plates of my Deputy Administrators, I am 
freeing these managers to focus more intensively on program concerns 
and mission accomplishment.
    We have no intention of realigning Naval Reactors within this 
reorganization they will remain separately managed as specified in 
Title 32. We have made use of this program's record of success and 
their many lessons-learned in the shaping of the NNSA.
    The two new Associate Administrators will support the mission 
organizations. The Associate Administrator for Management and 
Administration will be tasked to ensure efficient management of budget, 
finance, procurement, information, and people, to make them serve the 
needs of the product divisions. The Associate Administrator for 
Facilities and Operations will ensure responsible stewardship of our 
facilities and will be successful only if these facilities are 
available to the program organizations for performing our missions. 
These changes are designed to consolidate responsibility for security, 
safety, and environmental issues at NNSA sites; to establish clear and 
direct lines of communication for laboratory directors and plant 
managers; establish greater personal accountability; and to improve 
productivity and morale.
    The Deputy Administrator for Defense Programs will focus on 
maintaining the safety, security, and reliability of the nuclear 
stockpile. Significant strides have been made in that area with the 
Department of Defense, in that we are implementing plans for detailed, 
requirements-driven stockpile life extension and refurbishment. Defense 
Programs will direct planning and set goals for production at the 
plants and for the science-based stockpile stewardship activities at 
the national laboratories. Defense Programs will retain responsibility 
for major program-oriented construction and facility initiatives.
    The Defense Nuclear Nonproliferation organization will continue to 
reduce the threats posed by weapons of mass destruction, strengthen 
nonproliferation institutions and norms, develop technologies to 
prevent nuclear smuggling, detect proliferation, respond to possible 
chemical or biological weapons use, and reduce the danger posed by 
unsafe operation of Soviet designed reactors worldwide.
    I recognize that establishing these ``product'' and ``support'' 
divisions creates a degree of tension within the organization, but I 
expect that this tension will evolve into cooperation and support as 
each element begins to work with the others to accomplish our mission. 
This organizational structure works, if we are able to adopt a 
corporate approach to accomplishing the mission. Each Deputy and 
Associate Administrator must recognize that their personal and 
organizational success is tied to the success of the overall 
organization. We are creating a Management Council consisting of the 
Deputies and Associates that will be tasked with resolving cross-
cutting issues and disputes. These issues will be referred to the 
Administrator, only if the Council cannot resolve them. Also, I will 
seek establishment of a Principal Deputy Administrator to help me 
resolve operational issues among NNSA elements and to assist in the 
day-to-day management of the enterprise. In sum, we are trying to 
develop a corporate approach to decision making.
    Mindful of the legislative mandate to provide the Armed Service 
Committees with a plan by May 1, 2001, ``for assigning roles and 
responsibilities to and among the headquarters and field organizational 
units of the NNSA,'' we divided the effort into two phases. The first 
phase addressed headquarters elements. In January, we assembled 10 
teams to tackle these issues for the headquarters elements. The reports 
of these teams formed the basis for the recently-announced 
reorganization. The May 1, 2001 interim plan is the first step in a 
multiphased effort, and will include mission and function statements 
for each major element of our realigned headquarters organization; it 
will describe relationships between each NNSA element; and it will 
discuss relationships between NNSA elements and those organizations 
external to the NNSA. The report will also contain an implementation 
plan for making this organizational transition by October 1, 2001, 
describing anticipated changes to organizational units and presenting a 
strategy for making the staffing transition. A final report will be 
transmitted to Congress in October. I have made a commitment that, in 
this initial reorganization phase, everyone currently employed will 
either be retained in a job similar to their current position or be 
placed in a new job within NNSA. We need to retain our Federal talent 
for this to be a success!
    Realigning the field structure is the second phase of our efforts 
to establish an effective and efficient NNSA enterprise. Our May 1 plan 
will include a design outline for allocating roles and responsibilities 
between headquarters and the field. As the next step, I intend to 
charter a neutral group of experts to advise me on options for 
addressing key structural issues uncovered in by previous studies of 
this issue. This group will be asked to gather information and develop 
options over the next 6 months, with a view to resolving field-
structure issues by the end of the year.
    My focus in these organizational adjustments is on making measured, 
thoughtful changes that improve NNSA's effectiveness in accomplishing 
our mission and then seeking to improve our efficiency through a 
structured process that does not disrupt current mission performance.
Detailed Budget Proposals and Multi-Year Plans
    One of the key strategies for creating a well-managed organization 
is to adopt an integrated business management system that links 
strategic planning, programming, budgeting, execution, and evaluation. 
On the budgeting front, the good news is that NNSA submitted a Future-
Years Nuclear Security Budget to the Office of Management and Budget 
(OMB) on March 2, 2001. OMB intends to carefully evaluate our future-
year budget, over the next few months, in conjunction with the 
administration's strategic review.
    Internally, our focus within NNSA is on improving our planning, 
programming, budgeting, and execution (PPBE) process. Our first future-
year budget request was constructed while we began to implement a 
systematic process for connecting and integrating our plans, programs, 
funding requests, and performance evaluation processes. At the moment, 
these processes are not as well synchronized as we want. We expect that 
the fiscal year 2003 budget process will be a transition year in our 
implementation of a PPBE system. The system should be fully implemented 
during the fiscal year 2004 process. The graphic attached to my 
testimony presents a picture of how we expect the process to operate 
when the system is fully implemented.
    The NNSA PPBE system will: (1) establish standardized business 
management processes where feasible and will provide flexibility for 
programs as appropriate; (2) improve discipline in program and project 
management; (3) assure that each program and project receives 
appropriate consideration as tradeoffs are made in establishing the 
integrated budget; and (4) create meaningful performance measurement 
and feedback systems. We hope to demonstrate the value of this system 
through measurable improvement in our mission performance.
    The system is divided into four phases:
    1. Long-Range Planning for the fiscal year 2004 cycle, this will be 
performed between June and October of fiscal year 2001.
    2. Programming guidance for fiscal year 2004 will be issued early 
in 2002, and program decisions will be reached by June 2002.
    3. Budgeting NNSA senior managers will review the budget in June or 
July of 2002 and will then participate in the Department's process, 
tied to the preparation of the President's budget, which is released in 
January or February of 2003.
    4. Execution and Evaluation execution year funding will cascade 
down through program and implementation plans. Program managers will 
perform periodic reviews and report the results to appropriate 
officials.
    With the help of the Institute for Defense Analysis, NNSA has 
developed a detailed plan for implementing this system. NNSA's near-
term priorities include:

        <bullet> communicating our plans throughout our enterprise;
        <bullet> establishing and implementing an Integrated Priority 
        List and resource prioritization process;
        <bullet> improving the quality, timeliness, and integration of 
        future-year program and implementation plans;
        <bullet> establishing and implementing a formal change control 
        process;
        <bullet> conducting periodic, formal evaluations; and
        <bullet> reviewing and establishing NNSA information technology 
        requirements for the process.

    Development of a future-years defense budget process that brings us 
more in line with the needs of our missions, plants, and national 
laboratories is an important step. We have established momentum toward 
reaching that goal and we are making slow but steady progress. Your 
continued support for our efforts will be needed to reach this 
objective.
Improving Personnel Management
    Another key strategy for improving business processes is to stress 
accountability at all levels of the organization. We must hold managers 
and contractors accountable for program and service results, hold 
individuals accountable for meeting performance goals, and reward 
individuals, units, and contractors accordingly. Finally, we must 
foster an orientation toward self-development.
    Title 32 contains limited, but important authority for the NNSA 
Administrator to begin revitalizing the Federal staffing of our 
Nation's nuclear security enterprise. Review of our interim policy for 
implementing excepted service appointments and compensation authority 
for no more than 300 scientific, engineering, and technical positions 
within the NNSA is nearly completed. We expect to begin exercising this 
authority by the beginning of July 2001.
    The policy was developed by NNSA staff, in consultation with other 
agencies, that use similar authorities. Indeed, our team leader was the 
architect and implementer of the excepted service authority granted to 
the Defense Nuclear Facilities Safety Board by Congress. His expert 
advice was invaluable in establishing this interim policy.
    Our interim policy is designed to provide NNSA managers with 
sufficient flexibility to attract and retain key personnel needed to 
meet our demanding mission, while ensuring that NNSA uses this special 
authority with due regard for the Merit Systems principles of Federal 
personnel management. An integral element of the policy is the Pay-For-
Performance feature, allowing for performance increases and performance 
bonus pools. Implementation of this Pay-For-Performance feature will be 
deferred until a uniform performance appraisal system can be 
established for our excepted service employees, and until our managers 
can be trained to develop fair and accurate measures of staff 
performance.
    We see this interim policy as just the first step in revitalizing 
our Federal staffing process. We urgently need to begin hiring staff at 
entry and mid-career tiers to avoid future gaps in staffing and 
leadership. As you may be aware, almost 50 percent of our staff is 
within a decade of retirement. We intend to outline a more complete 
plan for improving personnel management and continuity in the May 1 
report to the Armed Services Committees.

                               CONCLUSION

    I believe that NNSA is on the right course. The NNSA enjoys the 
support and endorsement of Secretary of Energy Spencer Abraham. It is 
the right idea to bring together the national security missions of DOE, 
and to focus our work with clear goals and plans, clean lines of 
authority, and a strong view to the future. We are on a good path to 
improve on our management and performance, to manage our programs 
efficiently and effectively, and to plan our future.
    The culmination of all the stockpile stewardship activity of all 
our surveillance, maintenance, refurbishment, research and development, 
and construction is annual certification of the stockpile. The 
Stockpile Stewardship Program has, for the past 5 years, given the 
Secretaries of Energy and Defense the necessary confidence to inform 
the President that a return to nuclear testing is not required to 
maintain the safety, security, and reliability of the nuclear weapons 
stockpile. With appropriate resources, we will be able to continue to 
provide that confidence for the foreseeable future, maintaining a 
credible nuclear deterrent for as long as we should need it.
    This confidence--and I cannot emphasize this enough--is largely the 
product of expert judgment, the expert judgment of some of America's 
best and brightest men and women, in both Federal service and 
throughout the Nation in our laboratories and plants. Their judgment is 
only meaningful because of their experience in pursuing the highest 
standards of excellence in science, engineering, manufacturing, and 
management. If we offer these people anything less--if we continue 
asking some to work in substandard facilities with aging equipment, if 
we burden them with unnecessary bureaucratic requirements and politics, 
if we fail to give them challenging work--then they will go elsewhere, 
our confidence in our weapons will suffer, and, under such 
circumstances, our nuclear deterrence will fail.
    The scientists and engineers that are stewards of our nuclear 
arsenal have also been making important technical contributions to 
controlling, detecting, and deterring the use of weapons of mass 
destruction. NNSA's unique contribution is evident in the caliber of 
personnel working on these complex, interrelated threat reduction 
programs. Their expertise resident in our national laboratories has 
been honed by years of working in support of the U.S. nuclear complex. 
Our technical experts are ready and willing to share their 
nonproliferation and counterproliferation experience with their 
counterparts in Russia. Mr. Chairman and members of this subcommittee, 
I think we can all agree that as a nation, we may face no greater 
challenge than preventing weapons or weapons usable materials from 
falling into the hands of those who would use them against the U.S. or 
our allies. It has been more than a decade since the Berlin Wall fell, 
opening a new era in history. In many ways, we live in a more dangerous 
world now, since the demise of the Soviet Union. The threat to our 
safety and international security is more diffuse, which makes it 
harder to defend against. Rather than one monolithic threat, we must be 
prepared against rogue nations or terrorist organizations with 
interests inimical to ours. I am very proud of the nonproliferation 
programs that are rightfully part of the defense nuclear security 
enterprise. The review being conducted at the present time by the White 
House is timely and I am confident it will reveal that the NNSA's 
programs are making solid contributions to the national security of the 
United States.
    Again, I thank the members of this Panel for their commitment and 
support of our mission, and for your support of the people of NNSA who 
actually do the work and accomplish the mission: scientists, engineers, 
technicians, policy planners, administrators at headquarters, in the 
field, at our laboratories, plants and the test site.
    Simply stated, NNSA has great people and a great mission. Thank you 
again for the opportunity to appear here today.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. General, I have a question on the Stockpile 
Stewardship Program. Your budget request of $5.3 billion 
hopefully included enough funding to the Stockpile Stewardship 
Program, which is currently addressing a variety of concerns, 
including infrastructure, workforce retention and replacement, 
production capability, and test readiness. Does your budget 
request fully support all of these?
    General Gordon. As I indicated in my statement, Mr. 
Chairman, at the requested level, we will have considerable 
difficulty completing the pit certification on time. We will 
not begin an aggressive attack on the infrastructure problems 
which face us. So, again, we're very hopeful that when the 
defense reviews are completed that they will result in 
additional funding.
    Senator Allard. What about the safety, reliability, and 
security of the Stockpile Stewardship Program? Are we going to 
be able to maintain that with the funding provided in this 
year's budget?
    General Gordon. I think we're going to do a pretty good job 
on the safety and security of the systems, yes, sir. Where we 
will come up short in the long term, at this funding level, 
will be the ability to do the refurbishment of a portion of the 
stockpile to keep up its reliability.
    Senator Allard. Let me move over to the tritium production 
issue. Do you see any showstoppers that would prevent tritium 
from being delivered in fiscal year 2006?
    General Gordon. No, Mr. Chairman. I don't see any 
showstoppers. We're working hard on that. That stays very much 
in front of all of us in the program. The work on licensing and 
the work with Nuclear Regulatory Commission (NRC) is a month or 
2 later than we would have hoped it to be. But, in all other 
areas, we're moving ahead very well. The chairman of the NRC is 
committed to an expeditious review of this area.
    With respect to work on the Tritium Extraction Facility 
(TEF) that is under construction at Savannah River, South 
Carolina, that work is well underway. Schedules will be tight, 
but we expect to be both on-schedule and on-cost.
    The work at the Sequoia and Watts Bar reactors seems to be 
on-track. I would point out, and I think it's known to all, 
this is the single approach that we're on, we're running down 
this one approach. But, everything is stacking up pretty 
favorably right now.
    Senator Allard. That is good news. Now, if there are 
delays, and your plan is to deliver tritium in 2006, does that 
prevent NNSA from fulfilling our tritium requirements?
    General Gordon. Somewhere in the 2006 time frame, depending 
upon what changes might come out of the reviews that are being 
conducted by the Department of Defense, the requirement for 
more tritium might go up or might, perhaps, go down a little 
bit. We would be eating into the 5-year reserve, but it would 
not, in that period of time, affect the quality of the 
deterrent.
    Senator Allard. Now, on pit production, are we currently 
meeting our pit-production requirements with the 20-pit-per-
year production facility at Los Alamos National Laboratory?
    General Gordon. Pit production is a complicated story and I 
would actually like to talk about it in two phases. One is 
manufacturing and one is certification. We're doing a very good 
job in the manufacturing portion of what's going on at Los 
Alamos. I was just up there last week with Secretary Abraham, 
looking into that part of the program. We've made great 
progress in the manufacturing of the pits. I think we're on 
either number 7 or number 8 that have been manufactured there. 
Everything looks positive in that direction. I think there are 
20 or so developmental pits that will actually be made. The 
manufacturing part is going very well.
    Where I have some continuing concerns, with respect to 
schedule and funding, is the very complicated question of 
whether those pits that we are manufacturing are as good and 
will operate exactly the same way as the pits for the W88 that 
were made at Rocky Flats. That work has lagged a bit. It's very 
complicated. We're putting the entire pit production and 
certification program on a project basis.
    I've alluded to what we're doing with NIF. Similarly, we've 
attacked the problems with pits by finding someone to be in 
charge here and someone to be in charge at Los Alamos who 
manages the program with clear delivery and accountability 
dates. So, we have projectized, to make a word up, the pit part 
of that effort. I'm very comfortable with where we're going in 
manufacturing.
    Everything we're doing in pit certification looks positive. 
There are no signs whatsoever, and I'll see if John Browne 
nods, there are no signs whatsoever that they won't be able to 
certify the pit. Everything is going in the right direction, 
but there are a lot of steps before we get to the very end.
    Senator Allard. What is the status of our long-term plan 
for pit production capabilities?
    General Gordon. Congress, the Foster Panel, and others have 
suggested, to put it mildly, that we get on with that a lot 
more quickly than we have. I think we've gone a bit more slowly 
within the organization for a couple reasons.
    One is there's so much on our plate. But, frankly, we 
wanted to get the Los Alamos experience a bit behind us before 
we jumped in with both feet. We've been looking carefully at 
this now, especially the reviews with Los Alamos where the 
manufacturing side of that work is going so well. We're ready 
now to become very serious about how to lay out the plans for 
long-term production.
    I think if we had started a year or 2 ago in that area, we 
would have been less comfortable in exactly how to design the 
facility and what the equipment requirements would be. But, the 
work is going on in Los Alamos and we're moving in the right 
direction now. Again, as I mentioned in my statement, we will 
be making that a much higher priority beginning with this year. 
Thank you.
    Senator Allard. Thank you. Senator Reed, my time has 
expired.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you 
for your testimony, General Gordon. As I recall, the 
legislation that created the NNSA required the submission of a 
5-year plan for nuclear security programs along with a budget. 
I am not aware that that plan has been submitted. Has that plan 
been prepared?
    General Gordon. Senator, we did develop a 5-year plan. It 
is a comprehensive look at our programs. It's not perfect yet. 
If you look at how the Defense Department does its Future Years 
Defense Program (FYDP), there's a huge number of people 
managing this process, which has been in place for years. But, 
we've made a good start in that area and I think it's a good 
solid document. We have submitted it to the Office of 
Management and Budget (OMB), along with our request for this 
year's funding.
    Senator Reed. All right. Do you anticipate that this plan 
will become available in the near future?
    General Gordon. I anticipate that the OMB and the 
administration will review it in the context of the defense 
reviews that are underway and I would hope that it would be 
available after that.
    Senator Reed. It is my understanding, and I could be wrong, 
that this is a fairly explicit legislative directive to provide 
the plan, not one that was subject to approval by OMB or the 
White House. Am I mistaken?
    General Gordon. I feel that it is my obligation to submit 
my plan to the White House and I have left it in their hands.
    Senator Reed. In the context of that plan, I am sure you 
have an idea of additional funding that is necessary for 
infrastructure going forward over 5 years. Do you have an 
estimate of that spending?
    General Gordon. Yes, sir. I'd say it is encompassed in that 
plan and I have given separate testimony in the Senate in that 
area. The infrastructure is a very important issue to me 
personally. It's very important just to be able to do our work.
    In fact, I would particularly urge Members who have an 
interest in this to let us give you a very detailed briefing on 
it. If you would like, I would even offer some photographs and 
some stories today and, if you would like to see those now to, 
flip through it.
    We believe that we could easily justify, and that we will 
spend as much as $300 million this first year to begin to 
attack this area. We could safely and confidently spend about 
half a billion dollars for as many as 10 years to get back on 
the right track with respect to the needed changes in the 
infrastructure. We need to build the overall capacity and 
capability that we need to support the future stockpile and the 
work we know will come out of this. It's a program of 
significant magnitude.
    If you will bear with me for just a second, there are a 
couple of stories I cannot resist telling at every opportunity 
I have. The worst facility overall, and you might wish to 
discuss it in more detail with John Mitchell later on, is the 
Y-12 Plant at Oak Ridge, Tennessee. It's the poster child for 
our needed facility upgrades.
    Y-12 is a place where they make lithium deuteride and 
lithium hydride materials, where we, in fact, require the 
workers in that area to wear hard hats, not because anything in 
the process requires them to wear hard hats, but because the 
ceiling was constructed in the 1940s. The vintage building and 
ceiling are falling down in chunks.
    I demanded that the contract manager, retired Admiral 
Mitchell, operate his factory safely. We hold his fee at risk 
and tell him that you be safe by making sure those personnel 
wear their hard hats when they go into that unsafe facility. 
Now, that's one extreme end of how we're operating.
    We have found, however, for the first time, in our 
discussions at Los Alamos National Laboratory, that our labs 
are in better shape than the plants. But, there are individuals 
at the working level, and focus groups, that are starting to 
say that the quality of their work environment is affected. 
Their quality of life is affected, their ability to work is 
affected by the environment in which they live.
    Not all facilities are that way. We have built a few new 
facilities and we're trying not to build gold-plated 
facilities. We're trying to build them as places where no one 
would decide not to go to work because of the facility.
    At Los Alamos again, just to pick one location, the 
chemical metallurgy research building is 500,000 square feet. 
We use about 100,000 of it. It has contamination issues. It 
looks like a Russian laboratory with its concrete block walls, 
and old equipment. Graduate students come in and say, ``I don't 
think I want to work here, I have better equipment at my 
university.'' People came to work in the labs 20 years ago 
because they had better equipment than anyplace else. Now, 
we're struggling to get back on that track. So, it's very 
important to me personally and it's very important to people 
who work in the program.
    I think 10 years ago, or even 8 years ago, or whenever, the 
decisions were made to take a limited budget and put it into 
the science side of the Stockpile Stewardship Program and 
really give that a boost. I might have made the same decisions 
in that time frame. We didn't know exactly where we were going 
to go on the science side and resources were particularly 
limited. I might well have made the same decision. But, that 
decision now has come home to roost. If we don't correct these 
issues, I'm going to start closing buildings and we will not be 
able to meet the agreed stockpile life extension program work 
that the military asks for.
    Senator Reed. It seems to me that these are all obvious 
needs. They are not avoidable. That is different from the 
strategic review where you can look at changing threats and 
different ways to deal with threats.
    My conclusion, based on what you have said, is that these 
are costs that must be addressed, ultimately, and that is why I 
am a bit confused that there is no recognition of those costs 
right now in the context of your release of the 5-year plan or 
specific budget allocations that we should be speaking about 
and debating about at this moment.
    General Gordon. I understand, sir.
    Senator Reed. Let the record show a nod. My time has 
expired. Thank you.
    Senator Allard. Senator Thurmond, you are up.
    Senator Thurmond. Thank you very much. General Gordon, the 
Savannah River Site (SRS) is the crown jewel of the weapons 
facilities and industrial complex. Beyond that, when one 
considers the tremendous pool of talented and skilled 
professionals that work at that facility, it is an asset that 
is not duplicated anywhere else in the world.
    Do you share my concern that if we do not nurture and 
manage the SRS that we risk decaying an asset that we cannot 
afford to lose?
    General Gordon. Senator, I have the highest regard for the 
Savannah River Site, for the people that work there, and the 
vital contribution that they make to the defense of our country 
every day and that they will make for decades to come.
    Senator Thurmond. General Gordon, your fiscal year 2002 
budget discusses producing a certifiable pit by 2003. This is 
the first time we have heard of this term. What is the 
difference between the requirement for a certified pit and a 
certifiable pit?
    General Gordon. Senator, a certifiable pit is one that will 
have gone through the manufacturing process to our 
satisfaction. It will be the best we could do in that process, 
but we will have not completed all the scientific research to 
be assured that it operates exactly as one that was produced 
years ago with different processes in a different factory.
    Senator Thurmond. General Gordon, I recently spoke with 
Secretary Abraham and gained his assurance that mixed-oxide 
plutonium (MOX) is his number one nonproliferation priority. Do 
you also view MOX as your top nonproliferation priority?
    General Gordon. Senator, the Plutonium Disposition Program 
as a whole is, of course, one of the programs that are being 
reviewed in the nonproliferation review. The MOX portion of 
that program is a very high priority for the NNSA. In fact, we 
protected its funding even at the reduced level of funding that 
went into NN both because of its relationship to the Russian 
programs and because of its importance to the ultimate 
disposition of plutonium in this country. The immobilization 
program was in fact put on hold so that we could fund and 
support the MOX program fully. Yes, sir. MOX is a very high 
priority for the NNSA.
    Senator Thurmond. General Gordon, in preparing to assess 
the reliability, safety, and security of the United States 
nuclear stockpile, the Department of Energy estimates a backlog 
of $700 to $800 million in critical maintenance at weapons 
facilities.
    In addition, another $300 to $500 million per year will be 
needed for the next 10 years to readjust shortfalls in 
production capabilities of both plants and laboratories. Do you 
agree with this assessment? If so, what is your long-term plan 
to resolve this matter?
    General Gordon. Yes, sir. I agree with those numbers. We 
have a backlog of deferred maintenance across the complex 
approaching $800 million and we could easily spend $500 million 
a year to get the place back up on its feet as it needs to be.
    We have developed a major infrastructure initiative that 
lays out specific programs. We have formed an office to manage 
the programs. You can be assured not only that, if you 
appropriate and authorize the money, that we will actually 
spend it wisely and carefully using the highest principles of 
project management.
    Senator Thurmond. General Gordon, in your prepared 
statement, you refer to changes in Russia's administration of 
atomic energy. When coupled with other changes in Russia's 
government and society, this change would suggest a more closed 
society reminiscent of the Soviet Union. Based on this 
assumption, what is the future of our threat reduction program?
    General Gordon. That's a great question, Senator, and I 
think it's one we just have to watch and nurture and take head 
on and see where it goes. I would hate to try to predict 
exactly how that would come out.
    I agree with your assessment that in some ways it looks 
like it's going to be more closed. In some ways, it's going to 
be more difficult to deal with them. I would not think, though, 
that that diminishes the threat. It may only make our problem a 
little harder to deal with.
    Senator Thurmond. Thank you, Mr. Chairman.
    Senator Allard. Thank you, Mr. Chairman. The Senator from 
Nebraska, Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. General, the 
effort to find recruits with degrees in physics is encountering 
a lot of difficulty, apparently there are not many graduating 
in that arena. What has caused this drop in the number of 
people and their interest in physics?
    As a science-club president when I was in high school, I do 
not think of myself as a physicist or a scientist. But there 
seemed to be more interest a few years ago than today. Do you 
have any thoughts about why that is the case?
    General Gordon. Only from an amateur perspective, sir. I 
would suggest that this looks in some ways like the century of 
the biologist or something coming up where there is so much 
more attention given to those areas. You might want to check 
with John Browne and Bruce Tarter when they come up later on 
for the next panel.
    Actually, in the last 6 to 9 months, I have begun to see 
some changes in our ability to recruit. Now, that's not to say 
that we're not losing people at the back end at perhaps too 
high a rate. But, we're actually beginning to attract more and 
more people at the younger end. Maybe changes in the 
environment or changes in the economy affect this.
    We don't need a lot of people in our business. We need a 
few of the right people that will stay with us long enough to 
make a difference. We still have the ability to offer them some 
of the most exciting challenges that they can find anyplace. 
When you go out to the labs, particularly the labs, but even in 
the plants, they're having some success in hiring the right 
kind of engineers right now.
    If you go out to the labs and sit down with the mid-career 
scientists, the 30-year-olds, you will find, they're excited 
about what they're doing because they're doing cutting edge 
work. They're able to do it in a cooperative environment that 
reaches more broadly than in many of the university settings, 
and they can do it on incredibly hard, difficult problems.
    Just before you came in, I think I talked about how bad 
some of the facilities were. At the labs, they get to work on 
the biggest, fastest computers in the world doing physics on 
nuclear ignition that looks like the sun. It's never been done 
before.
    I don't need a lot. I need a few. I think John and Bruce 
can give you a better answer. But, they're actually seeing a 
slight change in our ability to recruit. I'm still worried 
about the ability to keep the older individuals.
    Senator Ben Nelson. In that regard, quite often in business 
when you encounter inadequate labor force, you begin to figure 
out ways to go train the labor force you have. I wondered if 
that had been considered. In other words, grow your own, 
cultivate your own, help provide the kind of education 
necessary. It would help you on the retention, but it certainly 
might help on the recruitment.
    General Gordon. It does, Senator. It helps a lot. We do 
that at the laboratories and the plants through work-study 
programs that bring people in, sometimes at the high-school 
level. So many people that now are the design physicists, and 
the senior engineers in these laboratories, came to work as 
summer interns and post-docs. One of the most successful 
programs for John Browne and Bruce Tarter has been the post-
doctoral program. Actually, several hundred post-docs are in 
that environment. It gives the lab a chance to look at them. It 
gives them a chance to look at the lab. The concept is to 
expose these individuals to work in a variety of exciting 
research fields and to have the opportunity to interact with 
other talented staff and be able to successfully move from one 
area to another. So, we actually do grow our own in that sense 
and we use other ways to entice them as well.
    The ASCI program, the Accelerated Strategic Computing 
Initiative, has been particularly successful in that area too 
in terms of fostering relationships between the labs and 
universities, pushing the edge in scientific computing.
    Senator Ben Nelson. Thank you. There has been a lot of 
talk, at least I have heard some, about designing a low-yield 
nuclear weapon that would be designed to fight hardened and 
deeply buried targets. How much work has been accomplished on 
that subject and do we know if we are successful in developing 
and deploying that kind of a weapon and what effect on the 
environment it might have?
    General Gordon. We have been fairly moribund over the last 
couple of years in new development. For awhile there was a 
prohibition against doing any work in that area. There was some 
relief with respect to how we could think about it and what 
research we might want to do. What I fall back on now is to 
find out what requirements are going to come out from the 
defense reviews.
    But Senator, I would say that one of the areas in which we 
have not been doing enough work over the last few years is the 
broad question of advanced concepts and thought. We have put 
that on a back burner as we've attacked some of these other 
problems. I have begun discussions with the lab directors very 
recently on the suggestion that they begin to think about 
forming a small concepts group that can tackle very preliminary 
work and do that. With that said, Senator, I want to be the one 
who meets requirements, not the one who defines requirements.
    Senator Nelson. Thank you. With respect to the 
infrastructure deterioration, a person might not be too cynical 
to think that if you're building new weapons, if you are on the 
cutting edge with research and development, if you are out of 
the box into new areas, is it safe to say that it is easier to 
get funding for infrastructure and keeping things better 
maintained?
    Or do you find that it may be more difficult to get that 
kind of funding when it is just in a holding pattern on what 
your, if you will, the maintenance of existing warheads and not 
new development therefore less interest in making the 
commitment that is necessary to infrastructure?
    General Gordon. I'm not sure we face the question quite 
like that. As I understand what happened in the past number of 
years in a resource-constrained environment, decisions were 
made, and I suggest that I probably would have made the same 
decision, to take the available resources and really emphasize 
the stockpile science because we didn't know where we were 
going in that environment. We didn't know what we were going to 
be able to do without testing. To really make a hard run at it 
and with limited resources we put our resources in that one 
area.
    We didn't push the infrastructure very hard. I don't want 
to say we walked away from it, but rather deferred it. That's 
literally come home to roost now.
    I cannot, I will not be able to do the weapons life 
extension programs that we've agreed with the military to do in 
5, 6, and 7 years if we don't start now on infrastructure.
    Senator Nelson. I see my time is up. It always worries me 
when they tell me my time is expired. I worry about the word 
expiring. But, thank you very much, General.
    General Gordon. Thank you, Senator.
    Senator Allard. Senator Akaka, the Senator from Hawaii.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my welcome to General Gordon.
    I wanted you to know that I strongly support the Stockpile 
Stewardship Program and believe its success is necessary for 
the United States to continue its role as a leader in global 
nonproliferation efforts.
    We must be able to ensure the safety and reliability of our 
nuclear deterrent. Sufficient funding, and a strong commitment 
from Congress and the administration are necessary for the 
Stockpile Stewardship Program to succeed. I hope that SSP will 
continue to have success.
    General, according to the Russia task force report 
published in January 2001, funding for the Nuclear Cities 
Initiative was decreased in fiscal year 2001 by 50 percent. The 
Department of Energy was requested to demonstrate the results 
before being provided with additional funding.
    This year's budget request decreases funding for the 
program by $20 million, and refers only to one of the 10 host 
nuclear cities in Russia. If we are concerned about nuclear 
proliferation, General, should not our focus continue to be on 
discouraging Russian nuclear scientists from selling their 
expertise to rogue nations? Let me add another question: What 
is the reason for limiting the program to one city in Russia?
    General Gordon. The overall budget for the Nuclear 
Nonproliferation Program was reduced by $100 million this year. 
We had to make the cuts somewhere, that is the short answer to 
your question.
    When it gets down to the kind of numbers you're talking 
about, where there's a few million dollars, we decided that if 
it's going to be at that level, we would emphasize one location 
where we could attempt to make a difference rather than spread 
a small amount of money across a wide range of activities.
    Senator Akaka. Was there a city selected?
    General Gordon. It's Sarov, I believe.
    Senator Akaka. The risk of chemical and biological weapon 
terrorism has been highlighted in a number of reports and 
studies. The fiscal year 2002 budget request decreases funding 
for chemical and biological national security by $12 million. 
Can you tell me what the basis is for this decrease in funding?
    General Gordon. Again Senator, I would tell you that the 
overall budget for the Nuclear Nonproliferation Program was 
reduced $100 million. We tried, as best we could, to spread 
that reduction while keeping the important programs going as 
best we could.
    Again, I would suggest, sir, that we do have a full set of 
program reviews underway. I remain hopeful on two accounts, one 
that when these programs are looked at on individual merit, 
which has not yet been done by the administration, and that 
they will look at and evaluate them in the particular context 
and may suggest changes to that area.
    The other part is that these reviews result in an 
integrated and more comprehensive approach to nonproliferation 
and reducing the threat in Russia than we perhaps have had 
heretofore.
    Senator Akaka. Thank you, Mr. Chairman.
    Senator Allard. If we do not have any questions from the 
rest of the committee members, maybe we should just move right 
on to the next panel? Yes, Senator Reed.
    Senator Reed. Mr. Chairman, if I may? Just one final 
question, General Gordon. You have now been a year or so in 
standing up your organization. I presume that within that year 
you have found some constructive criticism of existing 
legislation which might require new legislative initiatives.
    Do you plan to submit to us any suggested changes in 
legislation that we should consider this Congress?
    General Gordon. Yes, sir. I hope to be able to bring up a 
few that to me are relatively minor changes in the not too 
distant future. I, for example, would like to have a confirmed 
deputy. I feel like I'm home alone a lot and there's a lot to 
do in that regard.
    There are some minor adjustments that seem to be 
appropriate with respect to how I'd like to have the 
organization set up. There's a detail within Title 32 that has 
a lab director report to DP. I'd like to suggest that we just 
simply strike that language. It needs to be figured out where 
they should report on a daily basis. There are one or two other 
items of that nature. From my perspective, they're relatively 
minor, but would be perfecting and would be helpful.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Allard. OK. Very good.
    General Gordon. Mr. Chairman, thank you very much.
    Senator Allard. Thank you, General, for being here. I know 
it is not always easy to break free from your duties to come 
and testify before us.
    General Gordon. This is an important one.
    Senator Allard. We appreciate it. OK. Thank you very much. 
We will move to the next panel. [Pause.]
    I would like to welcome our second panel to the witness 
table. We are pleased to have the weapons laboratory directors 
and plant managers here to testify on the fiscal year 2002 
budget and how it would impact their specific facilities.
    These gentlemen represent national security through world-
class science and technology. But they also represent a weapons 
programs that in many places is showing signs of wearing, some 
to the point of disrepair.
    We welcome you to each provide a brief opening statement, 
if you wish, and I ask you to limit your opening statements to 
no more than 5 minutes because of the size of this panel. Your 
written statements will be included in the record in their 
entirety, if you so wish.
    Then, we look forward to the question-and-answer period to 
discuss the strength of our Stockpile Stewardship Program, but 
also its challenges. I will call on each laboratory here 
individually and have you give us a brief 5-minute 
presentation, then we will move onto the questions and answers.
    I will start with Ambassador Paul Robinson, President of 
Sandia National Laboratories.

    STATEMENT OF DR. C. PAUL ROBINSON, PRESIDENT OF SANDIA 
                          LABORATORIES

    Dr. Robinson. Mr. Chairman, and members of the Strategic 
Subcommittee, it is a pleasure to be here with you today. The 
strong support from this committee, and indeed the whole 
Congress, has been a key factor in my mind. I believe we come 
before you today in a much improved position than where we were 
a year ago.
    Science-based stockpile stewardship is still an 
unprecedented challenge, but I think we are making significant 
progress. In my prepared statement, I listed a great many of 
the problems which we have tackled and some of the advancements 
made.
    In summarizing for you now on behalf of all the people at 
Sandia, I must tell you I'm proud of what they have been able 
to deliver over the large breadth of the responsibilities of 
our laboratory for the Nation's nuclear weapons.
    With respect to all of the major issues that have arisen in 
the stockpile, those seen in surveillance, in the significant 
findings process of the military, or through flight testing, we 
are indeed on top of them and solutions to all of these 
problems are either completed during the year or we are well 
along in the work to do so.
    I also think there is a new attitude in the weapons 
program, particularly with the decision by the Navy to request 
a new arming-fusing-firing set to be designed and engineered to 
replace that in the Trident I submarine-launched ballistic 
missile (SLBM) warheads.
    This has been the first major system that we've undertaken 
in 9 years. I must tell you, when you have the responsibility 
as a system integrator for something with many thousands of 
parts, and you haven't actually integrated a new design in 9 
years, it leads to the question are you capable of doing this 
still?
    I think there is now a new attitude among the people. We're 
very happy to be in the business of improving the safety, 
security, and the reliability of the U.S. nuclear stockpile. 
There is real-life blood being pumped in by these refurbishment 
programs.
    We're also deep into the transition in science-based 
stockpile stewardship to replace nuclear testing. One of the 
keys over the past year has been applying some of the 
investments you made earlier. With the Accelerated 
Supercomputing Initiative, we have now the world's largest 
computers by far in our laboratories, and we are using them to 
solve critical problems.
    For us, there is no better example than the design and 
certification of the new neutron generator for the Trident 
system. A completely new software was put on the trillion 
operation (tera op) per second computer. It demonstrates the 
performance of the generator in a hostile radiation environment 
and the performance is better than we did in any other previous 
device, even though this device has more stressing performance 
specs.
    I've outlined in my statement several areas of what are 
indeed still another challenging budget year. Three major 
dilemmas that we face are the pacing of the Microsystems 
Engineering Systems Application (MESA) facility, which is a 
cornerstone facility for our microelectronics and microsystems 
to keep the U.S. stockpile components at the state of the art 
in radiation-hardened circuitry.
    Also, the Distributed Information Systems Laboratory at our 
California site, and its companion the Joint Engineering 
Computational Lab at the New Mexico site, provides connectivity 
to our classified computing environment with the cyber security 
built in. These are key facilities that and we worry whether 
they will have to be postponed within the budget level we have.
    The last is a proposal we've made to refurbish the Z 
Machine. This is the world's largest flash x-ray facility, a 
unique tool for all three weapon labs to carry out high energy 
density physics. We need to raise the operating level and get 
two-shift operations to meet the experimental needs. It 
performs the closest conditions to that that go on within a 
nuclear weapon that exist on the Earth today. It's a critical 
facility.
    With that, I would like to thank you for the support you 
have given us. We ask for your support again this year. I think 
there is no more important job in the Nation than working to 
try and maintain our most important defense capability, the 
nuclear deterrent. I look forward to your questions.
    [The prepared statement of Dr. Robinson follows:]

           Prepared Statement by Ambassador C. Paul Robinson

                              INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to testify today. I am Paul Robinson, Director 
of Sandia National Laboratories. Sandia is managed and operated for the 
U.S. Department of Energy (DOE) by Sandia Corporation, a subsidiary of 
the Lockheed Martin Corporation.
    Sandia National Laboratories is a multiprogram laboratory of DOE 
and is one of the three National Nuclear Security Administration (NNSA) 
laboratories with research and development responsibility for nuclear 
weapons. Sandia's job is the design, development, qualification, and 
certification of nearly all of the non-nuclear subsystems of nuclear 
weapons. Our responsibilities include arming, fuzing, and firing 
systems; safety, security, and use-control systems; engineering support 
for production and dismantlement of nuclear weapons; and surveillance 
and support of weapons in stockpile. We perform substantial work in 
programs closely related to nuclear weapons, including intelligence, 
nonproliferation, and treaty verification technologies. As a 
multiprogram national laboratory, Sandia also performs research and 
development for DOE's energy and science offices, as well as work for 
other national security agencies when our special capabilities can make 
significant contributions.
    I will begin my statement with a discussion of my general concerns 
regarding the budget submission for fiscal year 2002. I will then 
present an overview of three major planned investments that are 
necessary for advancing Sandia's capability to support programmatic 
deliverables in the future. Following that, I will discuss in detail 
Sandia's responsibilities in NNSA's Stockpile Stewardship and 
Nonproliferation missions. As requested, I will also comment on the 
proposed NNSA realignment.

               CONCERNS OVER THE FISCAL YEAR 2002 BUDGET

    During the last several months, the Defense Programs laboratories 
have worked closely with the NNSA to construct a future-years 
requirements profile for the nuclear security program. The funding 
levels of the multi-year estimates in that plan reflected our consensus 
estimate of stockpile stewardship requirements under the guidance then 
available as defined by Presidential directives and Department of 
Defense (DOD) requirements. The President's budget for NNSA Defense 
Programs released on April 9 was $863 million less than what we had 
estimated would be required in fiscal year 2002 to meet the 
requirements of that program plan ($6.163 billion).
    I understand, of course, that the National Defense Review, the 
Quadrennial Defense Review, and the Nuclear Posture Review are still in 
progress. The results of those studies may cause changes in defense 
policy that could affect the Nation's nuclear security program one way 
or another. Pending new guidance that may result from those reviews, we 
will have to consider how to adjust current program requirements to the 
budget resources provided.
    Against that backdrop, it is also clear--as the Foster Panel 
testified to this committee--that the infrastructure of our Nation's 
nuclear weapons complex has eroded significantly over the last two 
decades. In addition, significant changes will be required to weapons 
systems that may remain in the stockpile for several decades. Consider 
just two examples of emerging design and production needs: Life 
extension activities for the W76 and the W80 will require significant 
resources--people, facilities, and materials. In addition, the annual 
production target for neutron generators has more than doubled, from 
600 to 1,550 units, and will require additional capacity and staff. 
These and other evolving stockpile requirements will demand their share 
of resources from a program that is already ``wound too tight.''
    The current proposed budget for the NNSA would almost certainly 
result in a significant deferral or curtailment of several 
infrastructure activities required for the NNSA complex of the future. 
It is also almost certain that deliverables in directed stockpile work 
(DSW) would have to be rescheduled. Possible tradeoffs would include 
delays in the life extension programs for the W76 and W80 and delays in 
major new construction projects, such as the National Ignition Facility 
(NIF) at Lawrence Livermore National Laboratory, the Microelectronics 
and Engineering Sciences Application (MESA) complex at Sandia, and 
several other line-item projects. Upgrades to laboratory programs in 
physical and cyber security; and refurbishments to existing facilities 
could also be affected. Significant changes to these activities and 
projects may be required to accomplish the mission objectives of the 
NNSA. It will be critical for the NNSA to strike a proper balance among 
its program elements to establish the right priorities and schedule 
resources in a way that meets stockpile deliverables while allowing for 
prudent investments in future capabilities.

                      MAJOR CAPABILITY INITIATIVES

    Sandia continues to plan for and invest in capabilities to meet the 
anticipated mission requirements of the NNSA. Three key initiatives are 
especially important for supporting the programmatic needs of the 
Stockpile Stewardship Program and are at the forefront of our 
investment planning.
Microsystems and Engineering Sciences Application (MESA) Complex
    Sandia's Microsystems and Engineering Sciences Application (MESA) 
complex is the cornerstone of our initiative to address the need for 
microelectronics and integrated microsystems to support a certifiable 
stockpile for the future. Advances in computation and microtechnologies 
during the past several years will be applied to stockpile 
modernization in MESA. MESA will provide essential facilities and 
equipment to enable teams of weapon component designers, subsystem 
designers, computational analysts, and microsystems specialists to 
design, integrate, and qualify components and subsystems for nuclear 
weapon system assemblies.
    Microelectronic components are critical to the NNSA Defense 
Programs mission. Such components largely determine the reliability of 
weapon systems, the precision of weapon function at the target, and the 
operability of weapons in the severe environments encountered during 
delivery. Several key components in deployed nuclear weapons will need 
to be replaced within the decade. In most cases, components cannot be 
replaced with replicas of the originals because they are 
technologically obsolete and the supplier base, materials, and design 
tools to support them no longer exist. Moreover, competent designers 
would not elect to use decades-old electronic technology, even if it 
were available. Because of space and weight constraints in all 
stockpiled weapon systems, Sandia has little choice but to meet 
component replacement needs using new microsystem technologies.
    In addition, Sandia has an obligation to preserve critical 
capabilities in radiation-hardened microelectronics for defense and 
space hardware, including those satellite systems that monitor 
international arms control treaties. In 1998 Congress authorized the 
National Defense Electronics Partnership, which mandates that Sandia 
retain the institutional memory for radiation-hardening technology and 
sustain the supporting infrastructure for developing radiation-hardened 
microelectronics. MESA will provide the required infrastructure to meet 
that mandate for future decades. MESA is a major system project with a 
total estimated construction cost of $374 million. The construction 
start for MESA was deferred in fiscal year 2001, and it appears that 
construction may again be deferred in fiscal year 2002.
Facilities Supporting NNSA's Accelerated Strategic Computing Initiative
    Sandia plays a major role in NNSA's Accelerated Strategic Computing 
Initiative (ASCI), also known as the Defense Applications and Modeling 
Campaign. ASCI is developing the advances in computational science that 
will enable the shift from test-based methods to computational methods 
for stockpile assessment and qualification.
    Sandia will support ASCI with construction of two key facilities at 
its major laboratory sites: The Distributed Information Systems 
Laboratory (DISL) at Sandia's site in California will develop 
distributed information systems required to enable collaborative design 
and manufacturing across the nuclear weapons complex utilizing ASCI-
scale tools. The Joint Computational Engineering Laboratory (JCEL) at 
Sandia's site in New Mexico will be a state-of-the-art facility for 
research, development, and application of multi-physics code 
development on massively parallel computer platforms.
    Under a tri-laboratory agreement, allocations for JCEL and DISL 
have been deferred in past fiscal years. Unless additional funds are 
provided, it appears that construction starts for JCEL and DISL may 
again have to be deferred in fiscal year 2002.
Z Accelerator Refurbishment
    NNSA's Z Accelerator at Sandia National Laboratories provides 
critical experimental data for the Stockpile Stewardship Program. Z 
produces over 50 times the x-ray energy and a factor of five more x-ray 
power than any existing, non-explosively driven, laboratory facility, 
making it the closest approximation to the conditions created in 
nuclear explosions. It is a major resource for ensuring the safety, 
security, and reliability of the Nation's stockpile. Yet, Sandia faces 
an unfunded need to refurbish Z to extend its lifetime and improve its 
performance, reliability, and shot rate.
    In May 2000 an independent review committee chaired by Dr. Richard 
Garwin (Fellow Emeritus of IBM's Thomas J. Watson Research Center and a 
recipient of DOE's Fermi Award) and composed of experts from the 
nuclear weapons laboratories, DOD, academia, and industry 
overwhelmingly endorsed both the programs and the refurbishment of Z: 
``The Committee was unanimous in its belief that an incremental, cost-
effective upgrade of Z . . . is worth pursuing.''
    The refurbishment will produce higher quality experimental data 
from increased precision and reproducibility at even higher energies 
than the world-record levels that have already been attained by Z 
alone. It will also support significantly more experiments per year.
    Refurbishment of this national asset could be completed in 3 years 
at the comparatively modest cost of $60 million for design, 
procurement, and fabrication of hardware and equipment. An increase of 
$10 million per year in operating funds would also permit us to conduct 
double-shift operations to meet the demand for experiments. NNSA, DOD, 
and Sandia's partners at Lawrence Livermore and Los Alamos national 
laboratories will benefit from this investment.
    Specifically, the refurbished Z Accelerator will provide the 
following benefits to the NNSA Stockpile Stewardship Program:

        <bullet> Accurate material property data at higher pressures 
        for weapon-relevant materials for four of the Stockpile 
        Stewardship Program campaigns: Dynamic Materials Properties, 
        Advanced Simulation and Computing, Secondary Certification, and 
        Inertial Confinement Fusion.
        <bullet> An enhanced environment to evaluate radiation flow for 
        the Secondary Certification Campaign.
        <bullet> More energetic radiation sources to test non-nuclear 
        components for the Nuclear Survivability Campaign.
        <bullet> Insight and confidence in sealing parameters to a 
        next-generation facility for the Inertial Confinement Fusion 
        Campaign.

    We believe that coupling an ultra-high-power laser to the 
refurbished Z would add significant capability for the Stockpile 
Stewardship Program at modest additional cost. A collaborative effort 
between Sandia and several other laboratories funded with an additional 
$5 million in fiscal year 2002 would be useful for examining the 
scientific utility and technical feasibility of this combination.
    The requirement to maintain a pulsed power capability over the 
interim during which the National Ignition Facility is constructed is 
paramount to our ability to fully support a Stockpile Stewardship 
Program. It is important not to lose sight of the extraordinary 
capability of the Z Accelerator and its significance to the Stockpile 
Stewardship Program.

                    STOCKPILE STEWARDSHIP ACTIVITIES

    Stockpile stewardship activities include directed stockpile work, 
campaigns to advance the scientific and engineering capabilities 
required for weapons stockpile qualification and certification, and 
readiness programs for the NNSA's technology base and facilities. A 
major effort of the Stockpile Stewardship Program is directed to the 
annual certification process for assessing nuclear weapons in the 
stockpile. As a result of work during the past year by Sandia's 
technical experts and their colleagues at the other NNSA laboratories, 
I am able to report that the U.S. nuclear weapons stockpile today is 
safe and reliable. I recently affirmed this technical judgment--with 
respect to the nuclear weapon components and subsystems that are 
Sandia's responsibility--in my annual certification letter to the 
secretaries of Energy and Defense, who in turn certify the stockpile to 
the President. As part of the assessment process, the laboratories 
conduct reliability and safety investigations and prepare a report for 
each weapon type in the stockpile. We at Sandia National Laboratories 
see no need to conduct an underground nuclear test at this time to 
validate our assessment.
Directed Stockpile Work
    Directed Stockpile Work encompasses all activities that directly 
support specific weapons in the nuclear stockpile. These activities 
include current maintenance and day-to-day care as well as planned 
refurbishments. Additionally, this work includes research, development, 
engineering, and qualification activities in direct support of each 
weapon type both in the present and future. Directed stockpile work 
maintains a balanced effort of near-term weapon activities and long-
term research and development supported in campaigns.
    Stockpile Research and Development
    Stockpile Research and Development includes the exploratory and 
engineering research and development necessary to support near and 
long-term requirements of the nuclear weapons stockpile. This activity 
includes development of new weapon designs when needed and authorized; 
preproduction design and engineering activities; design and development 
of weapon modifications; and safety studies and assessments. Sandia's 
efforts focus on the continuing application of tools and hardware to be 
used to further our mission responsibilities in stockpile assessment 
and certification, maintenance, surveillance, and refurbishment in 
accordance with the schedule, as well as general supporting research 
and development.
    Specific focal areas anticipated for the next 2 fiscal years 
include support for refurbishment of several existing stockpile 
systems; system studies and surety assessments; development and 
qualification of specific components and subsystems; development of 
improved and modernized engineering business practices and information 
systems; development of improved flight test assemblies and 
instrumentation; and exploration of potential future system concepts.
    Engineering Development. The bulk of the engineering development 
planned in stockpile research and development will support the life 
extension refurbishments of the B61, W80, and W76. The objective of the 
stockpile life extension effort is to improve and extend the safety and 
reliability of U.S. nuclear weapons 20 to 30 years by upgrading or 
replacing components and subsystems rather than entire warheads. That 
challenge requires detailed, integrated planning for design, 
development, and production throughout the nuclear weapons complex. 
Sandia has been identified by NNSA to be the systems integrator for 
refurbishments.
    To upgrade or replace degraded components and subsystems within 
budget, on schedule, and with zero defects, Sandia is making the most 
of existing facilities by improving its own business, engineering, and 
manufacturing processes. With NNSA and its production agencies, we are 
identifying future life extension options and scheduling them to plan 
level workloads and avoid fluctuations in labor costs. We have adopted 
the DOD's approach of ``Cost As an Independent Variable'' and are 
defining DOD and DOE requirements up-front rather than negotiating 
trade-offs between design options and cost later. We have baselined 
design and production of the W88 arming, fuzing, and firing (AF&F) 
system and used that data to commit to cost targets for replacing the 
W76 AF&F system. Where possible, we buy commercial off-the-shelf parts. 
When no commercial equivalents exist, we design and build custom parts. 
Computational simulations, balanced with developmental nonnuclear 
tests, are minimizing design iterations, thereby reducing the time and 
cost to qualify new components. Consistent with efficient, effective 
commercial manufacturing, we are moving toward process-based quality 
techniques and are improving our quality monitoring and acceptance 
processes.
    Sandia is acutely aware of cost as a principal concern, and we are 
working diligently to keep costs to a reasonable minimum. But as a 
laboratory director who signs the final weapon development report for 
systems when they are first delivered to DOD and annually reports on 
the safety and reliability of the stockpile to the secretaries of 
Energy and Defense, I cannot allow cost to over-constrain design and 
development activities and potentially compromise mission success. 
Ultimately, our goal is the cost-effective safety, security, and 
reliability of the Nation's nuclear defense.
    We are helping NNSA and DOD implement the new ``Phase 6.x process'' 
for producing and maintaining weapons in the stockpile. This is the 
formal process by which we plan and authorize the effort needed to 
extend the life of an existing warhead. (It should not be confused with 
DOD's phase 6 numbering system for its cycle of research and 
development.)
    Sandia is involved with two Phase 6.3 refurbishment designs, and we 
are in Phase 6.2 with a third system. The W76/Mk 4 (Trident I) entered 
Phase 6.3 formal refurbishment design engineering last year with a 
first production date of fiscal year 2007. The W80 warhead for Air 
Force and Navy cruise missiles also entered Phase 6.3 for refurbishment 
with scheduled first production in 2006. We are also engaged in a Phase 
6.2/2A study for the refurbishment of the B61 strategic bomb, with 
first production scheduled for fiscal year 2004. These refurbishments 
will replace critical components to ensure decades of life extension. 
At the same time, they will upgrade the component technologies to 
ensure maintainability and cost efficiency while enhancing safety and 
reliability.
    As part of the W87 life extension program, Sandia enhanced the 
structure of non-nuclear components in the warhead and requalified 
existing components, extending the warhead's service life for at least 
another 20 years. This work required us to reproduce a number of 
components that were used during flight testing in order to ensure 
adequate hardware for the extended years.
    Beginning in 1996, Sandia worked with DOD to convert a set of B61-7 
gravity bombs into B61-11 earth penetrators. Early tests revealed a 
design issue. We used computer simulations developed under the Defense 
Applications and Modeling Campaign to understand the issue and perform 
a redesign, which was performed with fewer, more useful experiments at 
less cost than in the past. In August, 2000, we presented the design 
and qualification results to the DOD Design Review and Acceptance 
Group. We expect final Nuclear Weapon Council Standing and Safety 
Committee acceptance soon.
    We are developing the new B61-3/4/10 Realistic Weapon Trainer for 
use in Europe, with first delivery expected in October. These new 
trainers look identical to the war Reserve bombs, and they incorporate 
features that simulate all the safety and use-control attributes of 
actual bombs. The new trainers will replace older units and allow 
personnel to improve their proficiency in moving, handling, loading, 
and electrically interfacing with weapons. By reducing the need to 
access actual war Reserve bombs for training, the Realistic Weapon 
Trainer will also improve the safety and security of European-based 
U.S. nuclear weapons.
    Sandia is developing a code management system that will employ 
modern, National Security Agency-approved, encrypted code control 
features, which will also be delivered to the European Command and U.S. 
Air Force in Europe beginning in October. This new system will replace 
older equipment that can no longer be maintained with modern, man-
portable equipment that will make the transfer of codes to the field 
more secure and error-free. The equipment will become standard for the 
U.S. Strategic Command, U.S. Air Force depots, the NNSA Pantex plant, 
and other entities.
    As these examples show, Sandia is alert to short-term and long-term 
needs of the stockpile, makes good use of NNSA's investments in 
stockpile stewardship technologies, and is a vigilant steward of the 
Nation's nuclear weapons stockpile.
    Exploratory Research and Development. One particular concern I want 
to bring to your attention today is the current state of health of 
exploratory research and development within the nuclear weapons program 
at all three laboratories. I recently had the opportunity to review the 
state of health of these efforts, and I was deeply disturbed at what I 
found. There is little fundamental thinking and exploration of new 
concepts that could fundamentally change and improve the Nation's 
defense posture, nor are there efforts focused on avoiding 
technological surprise by adversaries of the United States. Such 
efforts appear to have been the victims of the extensive budget cutting 
over the past decade.
    You in Congress are certainly aware of the crucial and historical 
role that advanced science and technology have played in keeping the 
United States preeminent in defense and national security. I believe 
that our scientific leadership has itself been a major part of our 
deterrent against conflicts, large and small; therefore I am greatly 
troubled by the present sorry state of this work. In the past, the 
existence of efforts to explore newly-created technology to seek future 
advantage for the United States has been a critical factor in 
attracting and keeping the best scientists and engineers in defense 
work. Each generation is driven to make its own contributions to 
America's strength and, by doing so, to help ensure a more peaceful 
world. Restoring the exploratory research and development effort is 
vital to everyone's interests, and I urge your support to correct the 
present situation.
    Stockpile Maintenance
    Sandia's efforts in stockpile maintenance include production design 
and actual production of some of the components needed in system life 
extension operations and repairs associated with life extension 
programs, limited-life component exchange, and development and 
engineering activities that directly support the maintenance of the 
stockpile. For each weapon in the existing inventory, attention must be 
paid to understanding and resolving defects (called ``significant 
findings''), maintaining use-control equipment, and replacing hardware 
needed for the surveillance function. Because the service lives of many 
nuclear weapons have been extended well beyond their original intent, 
we are exhausting the supply of surveillance units. More surveillance 
units must be produced, but the instrumentation to measure performance 
in joint flight tests with DOD must be redesigned using the electronics 
technology available today.
    Sandia has the production mission for neutron generators, an 
essential component. Sandia manages two pieces within its production 
mission: (1) Neutron generator production, including both the 
recertification of neutron generators from the field that have 
remaining service life and the new neutron generator build; and (2) the 
Manufacturing Development Engineering (MDE) production assignment. As 
neutron generator production ramps up and the MDE program grows to 
support the W76 and W80 life extension programs, production operating 
funds will require an increase over fiscal year 2001 of approximately 
$50 million by fiscal year 2005. (Estimates are still being generated 
since the refurbishment programs are currently defining the MDE 
components they will need.) Unfortunately, no clear methodology exists 
within the nuclear weapons complex today for assessing new production 
requirements and their priorities relative to existing requirements.
    Neutron Generator Production. In 1994, DOE forecasted that 600 
neutron generators per year would be sufficient to support the active 
stockpile. When the Defense Programs' neutron generator production 
facility in Pinellas, Florida, closed in 1994, Sandia built its 
production facility to meet that requirement. Sandia-manufactured 
neutron generators first entered the inventory in August 1999. In 1997, 
DOE revised the requirement to 1,550 neutron generators per year by 
fiscal year 2004 to support both the active and inactive stockpiles. 
That new requirement exceeded Sandia's capacity. To meet the increased 
demand, Sandia is reconfiguring its facility through the Rapid 
Reactivation Project during fiscal years 1999 through 2002. To meet 
this schedule, Sandia is buying materials and hiring and training 
additional production operators. For fiscal year 2002, Sandia requires 
an increase over the planned target of $9.7 million for materials, 
tooling, and additional operators. Changes to the DOE Directive 
Schedule now require a level loaded production capacity of 1,350 
neutron generators per year with the final ramp up to full production 
by fiscal year 2008.
    Manufacturing Development Engineering (MDE) Production. Sandia's 
MDE production assignment includes critical components in 
microelectronics, power sources, and magnetics, with high complexity in 
design and manufacture that are not available commercially as off-the-
shelf items. Approximately 50 MDE-procured components per year are 
required to support the stockpile. These components are to support 
limited life component exchange, the surveillance program, and 
refurbishments.
    As system life extension programs shift into production, the MDE 
program will support delivery of components for each weapon as it 
undergoes refurbishment. It is projected that by fiscal year 2005, in 
preparation for the W80 and W76 life extension programs, MDE workload 
costs will increase almost threefold. For fiscal year 2002, Sandia 
requires an increase over the planned appropriation of $4.9 million.
    Stockpile Evaluation
    Stockpile evaluation includes laboratory tests, flight tests, 
quality evaluations, special testing, and surveillance of weapon 
systems to assess the safety and reliability of the nuclear weapon 
stockpile as a basis for the annual certification to the President.
    Surveillance testing frequently results in recommendations for 
repairs and upgrades to the stockpile. Last year, following Sandia 
procedures, DOD replaced limited-life components in several weapon 
systems to add what we believe will be significant periods of 
maintenance-free service while the weapons are in DOD custody.
    Congress approved a construction line item that will replace a 40-
year-old facility, the Weapons Evaluation Testing Laboratory, at NNSA's 
Pantex Plant. This new construction will provide a state-of-the-art 
facility for testing weapon components and implementing advanced 
diagnostic techniques developed by the Enhanced Surveillance Campaign. 
We are separately working to design and build new system test equipment 
that will both update our aging equipment and incorporate further 
enhancements from the Enhanced Surveillance Program. Both of these 
projects are important for maintaining confidence in the safety, 
reliability, and performance of the stockpile without nuclear testing.
    Last year Sandia introduced new, non-destructive, acoustic 
laboratory testing of stronglinks, a major safety component in our 
warheads, into the core surveillance program. This year we have added a 
second development from our Enhanced Surveillance Program into this 
core surveillance test gear that will allow us to evaluate the 
electrical current carrying potential of these safety devices. Both of 
these new tests have allowed us to better predict the useful lifetime 
of this critical component and enhance our replacement planning 
strategy.
    To evaluate weapons in the active stockpile, Sandia annually 
conducts between seven and nine laboratory tests on each type of weapon 
and between two and four flight tests of each type of weapon. On 
average, 11 weapons per system are sampled. Tests that identify 
deviations from requirements lead to thorough investigations that may, 
in turn, result in repairs and retrofits or in recommendations for 
stockpile improvement programs. From June to December of last year, 
Sandia participated in the DOE-wide strategic review of the 
surveillance program that puts DOE and Sandia on a course to improve 
our surveillance capabilities in the 21st century. The surveillance 
program remains a key tool in our planning process for system 
improvements in the Stockpile Life Extension Programs.
    DOD and DOE annually conduct joint flight tests on weapons of each 
weapon type. Historically, flight tests have uncovered about 22 percent 
of the defects recorded in surveillance data-bases. We continue to be 
concerned about budgetary constraints and other issues that inhibit DOE 
laboratory and military service support of the joint DOE/DOD Stockpile 
Surveillance Program. For example, the possibility of shortfalls to Air 
Force ICBM strategic missile testing could impact reliability 
assessments of the Minuteman III W62 and W78 warheads and the 
Peacekeeper W87 warheads. In addition, implementation of the terms of 
the START-II treaty will change reentry configurations from multiple to 
single vehicles while holding the number of missile test flights each 
year constant, thus reducing both the number of warheads that can be 
flown on each test and the opportunities to gather data on reliability 
and possible problems. We are working with the military services to 
address these important long-term issues related to flight testing.
    To help compensate for shortfalls in flight tests and a dramatic 
reduction in the number and variety of reentry vehicles that can be 
flown if the W87 is deployed on Minuteman III, on-board instruments 
must be improved to provide additional performance information in fewer 
tests. This past year, we successfully flight tested an enhanced-
fidelity instrumentation package in the W87 reentry vehicle.
    The surveillance program is the foundation for maintaining the 
aging stockpile. We believe the surveillance program should maintain an 
adequate number of flight tests each year using military personnel, 
procedures, and hardware. Therefore, I urge you to assure an 
appropriate level of support for the joint surveillance flight test 
program, for both DOE and the DOD, to sustain confidence in the 
reliability of our strategic nuclear deterrent.
    Dismantlement and Disposal
    Sandia performs technical analysis and technology development to 
support dismantlement and safe storage of weapons being removed from 
the stockpile. Dismantlement and disposal includes activities 
associated with weapon retirement, disassembly, component 
characterization, and disposal or reclamation of materials and 
components; the engineering, development, testing, qualification, 
certification, procurement, and refurbishment of containers required 
for interim storage; and the staging and storage of weapons, 
components, and materials awaiting dismantlement. Sandia's efforts 
focus on tools and processes for safe disassembly, staging and storage, 
and component processing and characterization.
    Field Engineering, Training, and Manuals
    As the U.S. nuclear ordnance engineering center, Sandia has unique 
responsibilities for training DOD personnel who handle nuclear weapons, 
including explosive ordnance disposal teams. Training covers the proper 
handling, storage, maintenance, and potential use of the nuclear 
deterrent. Our efforts in these areas focus on military liaison and 
support to the field, training, and maintenance of weapon manuals and 
reference materials.
Stockpile Stewardship Science and Technology Campaigns
    Campaigns are multifunctional efforts across the NNSA Defense 
Programs laboratories, the production plants, and the Nevada Test Site 
that, in aggregate, constitute an integrated weapons science and 
technology program for developing critical capabilities for weapons 
qualification and certification. The goal of the Defense Programs 
campaigns is to address current or future issues by employing the best 
scientists and engineers and using the most advanced sciences and 
technologies. Many of the campaigns are interrelated and establish a 
foundation for future deliverables in directed stockpile work. Without 
a robust campaign program, our ability to support stockpile stewardship 
would be seriously harmed.
    Sandia makes significant contributions in twelve of the seventeen 
Defense Programs campaigns. I will discuss Sandia's contributions to 
several of them.
    Dynamic Materials Properties
    This campaign includes efforts to develop experimentally validated 
data and models of all stockpile materials under a broad range of 
dynamic conditions found in nuclear explosions. In the past, dynamic 
material properties were often inferred from test data on a descriptive 
and empirical basis. Without the availability of nuclear tests, the 
materials models developed by this campaign are essential for 
establishing predictive relationships between material properties and 
stockpile performance, safety, and reliability.
    Secondary Certification and Nuclear Systems Margins
    Sandia's efforts in this campaign will improve the theoretic and 
computational capabilities and support the development of computational 
models required to predict the performance of nominal, aged, and 
rebuilt secondaries and thus help certify the stockpile in the absence 
of nuclear testing. A specific Sandia activity in this campaign is the 
development and characterization of radiation environments that are 
required for the campaign's major technical efforts.
    Inertial Confinement Fusion Ignition and High Yield
    This campaign pursues high-yield target designs on pulsed power 
systems. Sandia's efforts in this area will validate the baseline for a 
high-yield capsule design and will use the Z Accelerator to support 
other campaigns and nuclear weapon program priorities.
    Certification in Hostile Environments
    This campaign develops certification tools and microelectronic 
technologies required in the absence of nuclear testing to ensure that 
refurbished weapons meet the stockpile-to-target sequence requirements 
for hostile environments. Sandia's involvement in this campaign 
consists both of work on radiation-hardened electronics and other 
nonnuclear components and on experimentally validated computational 
tools needed to design and certify them. This campaign is vital to the 
life extension programs for the W76 and W80 and other systems to be 
refurbished in the future.
    Defense Applications and Modeling
    To achieve simulations with the required complexity and fidelity to 
support stockpile stewardship, NNSA must increase computational 
capability tremendously. The Accelerated Strategic Computing Initiative 
(ASCI), mentioned earlier, will hasten advances in computational 
science to enable the shift from test-based methods to computation-
based methods.
    ASCI campaign activities at Sandia consist of work in applications, 
problem solving environments, maintenance of sufficient on-site 
computational networking and communication capabilities, and alliances 
with academic research germane to ASCI goals. We are working on new 
mathematical methods, algorithms, and software for the solution of 
large-scale problems on massively parallel, often distributed systems. 
Areas of importance include shock physics, chemically reacting flows, 
electromagnetics, and the computational analysis and design of 
materials, all with application to accident scenarios, weapons 
performance and safety, materials aging, manufacturing, or 
infrastructure surety. As these techniques are developed, they are 
incorporated directly into codes and applications relevant to nuclear 
weapon system design and certification, weapons system response 
prediction, weapons life spans, and virtual prototyping for the 
requalification and replacement of components and subsystems.
    Weapon System Engineering Certification
    Supporting both certification and directed stockpile work, the 
Weapon System Engineering Certification Campaign develops science-based 
engineering methods to increase certification confidence through 
validated simulation models and high-fidelity experimental test data. 
We develop validated engineering computational models and tools that 
directly support certification of the B61, W76, and W80 stockpile life 
extension programs.
    Enhanced Surety
    Over the past 50 years, Sandia has played a key role in designing 
and improving the safety, security, and reliability--the surety--of our 
nuclear weapons stockpile. As stewards of the stock-pile, we identify 
deficiencies, assess security and use-control using probabilistic risk 
techniques, and take into account increased international and domestic 
terrorist threats. As a result of these efforts, we believe 
improvements can and should be made to the security of the warheads. 
Knowing the surety of the stockpile in detail, including its day-to-day 
status, gives us higher confidence and indicates where significant 
long-term improvements are warranted.
    In past years, DOE and DOD have continuously improved stockpile 
surety. Early improvements like permissive action links (weapon 
security locks), encryption, active protection, insensitive high 
explosives, and enhanced nuclear detonation safety architectures 
entered the stockpile as improvements to warheads. Operations also 
improved, for example, as DOD introduced weapon storage vaults, coded 
control, safe transport, and enhanced procedures-all of which Sandia 
developed.
    Over the last decade, stockpile surety has improved, but primarily 
as a consequence of the retirement of older warheads such as the B53 
and W69 that did not incorporate modern surety features and through 
selected surety upgrades. Improvements to stockpile surety had leveled 
off during the 1990s. However, NNSA's plans for life extension programs 
will offer rare opportunities to improve surety significantly.
    Enhanced Surveillance
    The Enhanced Surveillance Campaign develops tools, techniques, and 
models to measure, qualify, calculate, and predict the effects of aging 
on weapon materials and components and to understand how these effects 
impact weapon safety and reliability. Weapon surveillance will be 
augmented with new diagnostics for early detection of potential 
defects. The campaign will provide valuable information for long-term 
capability development, such as when new manufacturing facilities 
(e.g., pit production) will be needed. Enhanced surveillance techniques 
will protect the credibility of the deterrent by warning of 
manufacturing and aging defects in time to schedule weapon 
refurbishment before performance is impaired.
    Advanced Design and Production Technologies
    The Advanced Design and Production Technologies (ADAPT) campaign 
provides technology maturation and integration of modern product 
realization tools and methods across NNSA's product realization 
enterprise, including both laboratories and plants. The program is 
presently focused on deploying integrated planning tools across the 
complex that will support load-leveling and program optimization given 
budget and capacity constraints. Additionally, ADAPT supports the 
complex-wide integration of model-based engineering and manufacturing 
tools and concurrent engineering methods that represent commercial best 
practices.
    Budget challenges within the weapons programs have historically 
been amplified for such engineering infrastructural elements. Given the 
anticipated stockpile refurbishment workloads for the next 20 years, 
the W71 and W80 programs must provide the requirements focus to drive 
modernization of our full product realization processes.
Readiness in Technical Base and Facilities
    Readiness in Technical Base and Facilities provides infrastructure 
and operational readiness at NNSA facilities.
    Facilities and Infrastructure Revitalization Initiative
    Like other sites across the NNSA complex, Sandia has a number of 
aging facilities in need of refurbishment, repair, or replacement that 
fall below the level of line-item construction and are insufficiently 
supported by general plant projects (GPP) or other infrastructure 
funding programs. Infrastructure problems at this level are chronically 
understated and deferred, and they accumulate with the passage of 
years. Ultimately, this can lead to capability limitations that impair 
the mission.
    NNSA recognized that this problem must be addressed, rather than be 
allowed to worsen. NNSA's Facilities and Infrastructure Revitalization 
Initiative is an effort to inventory and prioritize unaddressed 
infrastructure repair and improvement projects across the complex. The 
initiative was intended to support an appropriation request of $300 
million in fiscal year 2002 to help bridge the gap for essential 
infrastructure repairs that are unfunded. The multi-year effort would 
require a continuous infusion of funds on the order of $400-$600 
million annually for the following 5 years.
    We identified approximately $300 million in items at Sandia 
National Laboratories that would be carried out under the Facilities 
and Infrastructure Revitalization Initiative during the course of the 
next few years. We submitted a list of 30 candidate projects for a 
recent inventory conducted by NNSA that can be effectively addressed in 
fiscal year 2002. The aggregate estimated cost of those items is $114 
million. These projects would normally be funded through standard 
infrastructure programs such as GPP, maintenance, capital equipment, 
decontamination and demolition, and infrastructure planning-areas that 
were perennially deferred for lack of sufficient funding. Some of these 
items were aggregated with line-item projects in the past, but because 
construction line items are subject to long lead times, such projects 
have often been delayed.
    Top priority items on our inventory for NNSA's Facilities and 
Infrastructure Revitalization Initiative are sufficiently urgent that 
failure to fund them soon will impact weapon program deliverables. For 
example, qualification of weapon components for the W76, B61, and W88 
could be affected by failure to address these top revitalization 
priorities in a timely manner.
    Another priority item for the Facilities and Infrastructure 
Revitalization Initiative is Sandia's Electromagnetic Test Facility. 
The existing facility is deteriorating; its 20-year-old diagnostic 
equipment has limited capability to support data acquisition for the 
development and validation of simulation codes. This modernization 
project will improve our capability to perform electromagnetic tests to 
qualify the W76 and W80 in accordance with their life extension plans.
    NNSA's Facilities and Infrastructure Revitalization Initiative will 
perform a very important service to the Defense Programs mission if it 
succeeds in restoring the appropriate balance in funding for 
infrastructure improvements that are critical to sustaining mission 
capabilities. A carefully constructed revitalization initiative will 
help Sandia and the rest of the Defense Programs complex deal with 
longstanding infrastructure challenges. We must also have a more viable 
decontamination and demolition program to dispose of obsolete 
facilities; we must make a stronger commitment to major renovations and 
deferred maintenance; we must actively use General Plant Projects to 
maintain and revitalize our sites. Typically, a great deal of this work 
is deferred to the outyears, usually with no guarantee that adequate 
funding will be available then. It is essential that additional 
infrastructure revitalization funding be made available if we are to 
maintain the nuclear weapons laboratories at the level of capability 
necessary to support the Stockpile Stewardship Program.

                      NONPROLIFERATION ACTIVITIES

    Sandia's support for the NNSA Office of Defense Nuclear 
Nonproliferation includes research and development for a variety of 
systems for detecting proliferation of weapons of mass destruction, 
verifying international agreements, enhancing the protection of nuclear 
material and nuclear weapons in Russia, eliminating inventories of 
surplus fissile materials useable for nuclear weapons in Russia, and 
providing mechanisms to enhance regional stability.
    I am quite concerned that the fiscal year 2002 budget proposes 
substantial cuts in NNSA's programs for nonproliferation and 
verification research and development and arms control. I know there is 
some concern about whether these programs are truly effective in 
promoting U.S. non-proliferation objectives. However, I believe an 
analysis of the laboratories' contributions to nonproliferation 
technology will argue strongly for maintaining strong support for them.
Nonproliferation and Verification Research and Development
    Sandia is developing a new generation of satellite-based sensors to 
detect low-yield nuclear explosions in the atmosphere. We also are 
developing seismic data processing technology to enhance detection of 
underground nuclear explosions. Our activities are part of a 
multilaboratory effort focused on developing affordable, deployable, 
and flexible sensors for seismic, hydro-acoustic, radionuclide, and 
infrasound data acquisition and processing. These activities are being 
coordinated and, in many cases, co-funded by DOD, which has the 
operational nuclear test monitoring responsibility within the U.S. 
government.
    We are also developing airborne and satellite-based systems for 
detecting and characterizing proliferation-related activities involving 
chemical weapons, biological weapons, and missiles. Sandia coordinated 
the integration of NNSA's Multispectral Thermal Imager Satellite 
research project, which has recently completed its first year of 
successful operation and research. With other national laboratories, we 
are developing laser-based techniques for remote detection and 
identification of chemical species in effluent plumes. We have made 
impressive progress in developing specialized chemical microsensors, 
bioinformation systems, and decontamination technologies for nuclear, 
biological, and chemical weapons and for detecting nuclear material 
smuggling.
    Sandia has significantly advanced the state of the art in synthetic 
aperture radar systems for national security applications that require 
all-weather, day-and-night capabilities in real time. We have recently 
transferred that technology to industry for incorporation into DOD's 
unmanned aerial reconnaissance vehicles.
Arms Control
    Based on our experience in engineering nuclear weapons, Sandia 
assists with the evaluation of export licenses for technology with 
possible application for weaponization activities. We also help develop 
technology for International Atomic Energy Agency remote monitoring and 
inspections.
    NNSA's Cooperative Monitoring Center at Sandia National 
Laboratories assists a number of countries and agencies in evaluating 
the applicability of arms control technologies and procedures for 
regional security issues. Prototype monitoring equipment allows 
representatives of regional parties (from areas such as south Asia, the 
Middle East, the Balkans, and the Korean peninsula) to perform hands-on 
evaluation of various products and technologies and use models to 
simulate the application of technical solutions to specific regional 
problems. The Cooperative Monitoring Center supports technical analysis 
of policy options for DOE and provides national security insight to 
other organizations. We also provide technical advice to U.S. 
negotiating delegations.
    Sandia has been an active participant in the International 
Proliferation Prevention Program, which engages weapons scientists, 
engineers, and technicians from the former Soviet Union in nonmilitary 
projects. The Proliferation Prevention Program provides seed money for 
research activities and provides links with U.S. industry to 
commercialize the new activities.
    In a particularly effective case, an engineer from Sandia worked 
with counterparts at the Russian nuclear weapons laboratory 
Chelyabinsk-70 to create a capability for designing foot and knee 
prostheses for landmine victims. The program attracted the assistance 
of a U.S. prosthetics manufacturer which defined the requirements for 
parts and performed final laboratory and clinical testing. The Russian 
engineers designed a titanium housing, and Sandia robotics engineers 
designed the knee's internal workings and electronics. The program 
provided employment opportunities in an area of civilian need for 
Russian technical personnel.
International Materials Protection, Control, and Accounting
    Since 1993, Sandia has participated in the multilaboratory 
Materials Protection, Control, and Accounting Program to reduce the 
threat of nuclear weapons proliferation in the former Soviet Union. 
This program, which originally included projects in Russia and a number 
of the newly independent states, now focuses on Russia in the areas of 
nuclear material and nuclear facilities operated by the Ministry of 
Atomic Energy, the Russian Ministry of Defense, and smaller independent 
ministries. Activities include training, hardware installations, and 
maintenance.
Highly Enriched Uranium Transparency Program
    In February 1993, the United States and Russia signed an agreement 
to convert highly enriched uranium from dismantled Russian nuclear 
weapons into low-enriched uranium for fuel to be used in commercial 
nuclear reactors. The United States agreed to purchase 500 tons of 
highly enriched uranium for use in the Nation's reactors after 
conversion to low-enriched uranium fuel. The agreement also established 
measures to fulfill nonproliferation, physical security, material 
accounting and control, and environmental requirements for highly 
enriched uranium and low-enriched uranium. The Highly Enriched Uranium 
Transparency Program is intended to develop confidence that certain 
U.S./Russian nonproliferation objectives are being met--i.e., that 
highly enriched uranium from Russian nuclear weapons is blended into 
low-enriched uranium, shipped to the United States, and fabricated into 
commercial reactor fuel.
    Sandia provides technical, administrative, and management support 
for the program in several areas, including on-site monitoring, data 
authentication and tamper indication for special monitoring equipment, 
vulnerability assessments, and advanced technology development to 
support the transparency regime.

                      COMMENTS ON NNSA REALIGNMENT

    Under the leadership of General John A. Gordon, the NNSA made 
significant progress during the past year toward establishing its own 
identity as a semi-autonomous agency. I am very pleased that General 
Gordon solicited inputs from the laboratory directors as he considered 
structural alternatives for the NNSA. The lab directors spent a fair 
amount of time discussing with him how their organizations work and 
exploring other successful models of enterprise management and 
organization.
    On March 14, General Gordon announced his decision for realigning 
the NNSA structure. The organizational arrangement selected by General 
Gordon is both a common corporate model and one that is successfully 
employed at the laboratories. I am hopeful that the new structure, when 
fully staffed with qualified managers, will help NNSA elements work 
more effectively as a team supporting the agency's mission.
NNSA Headquarters Realignment
    The most significant change at the headquarters level is the 
creation of two associate administrator positions, one for facilities 
and operations and the other for management and administration. These 
posts will provide the infrastructural and administrative support for 
NNSA missions.
    The practice of high-level support organizations furnishing 
services to lines of business is common in industry. A requirement for 
the success of this arrangement is a strong sense of commitment and 
teamwork. In the NNSA, the associate administrators will understand 
that it is their job to support and facilitate the missions of the 
enterprise. The new NNSA headquarters organization is essentially a 
teamwork structure that involves all the associates and deputies in the 
job of accomplishing the mission. I believe General Gordon's 
organizational changes can permit a strong executive team to take root 
at NNSA headquarters and provide clear and unambiguous leadership 
without the bureaucratic infighting and empire-building that all too 
often characterizes government agencies.
    Key to the success of the new NNSA headquarters organizational 
structure is the realization that all members of the executive team 
have a responsibility and accountability to support the line managers 
who are responsible for overall program performance. All positions in 
the top organizational structure must regard the program managers not 
only as subordinates whom they direct, but also as customers whom they 
serve.
    An analogy can perhaps be drawn with how the U.S. military conducts 
operations: Command elements don't just issue commands: they also 
actively support the soldiers and commanders in the field. All command 
organizations--whether they be operations, logistics, maintenance, or 
supply--are focused on supporting the combat organizations. Infighting 
at the command level would be counterproductive to that effort. It is 
essential that all elements of an executive or command structure 
function as a team supporting first-line operations.
    Unfortunately, these positive attributes of effective command or 
executive management were not always present in the former DOE 
organization because of confusion of authority and responsibility among 
various offices and levels across the extensive DOE structure. I am 
very hopeful that the congressionally mandated autonomy of the NNSA and 
the new headquarters organizational structure established by General 
Gordon will replace the former confusion and counterproductivity with 
clear lines of authority and a strong sense of teamwork.
NNSA Field Organizations Realignment
    The second phase of General Gordon's realignment plan will consider 
the realignment of field office roles and responsibilities. General 
Gordon has tasked a team to make recommendations for this second phase, 
and he indicated that he will make decisions on their recommendations 
in July.
    There are those who argue that the NNSA field offices are no longer 
needed and that their functions should be moved to headquarters. I 
believe that point of view is uninformed about the complexity and 
magnitude of the tasks performed by the field offices. Mission 
management and constructive oversight require close ties with those 
doing the work. This fact argues for placement of the mission offices 
in the field in order to have decisions made as close as possible to 
the areas where those decisions have effect. The direct administration 
of the nuclear weapons program (including functions such as contract 
administration; site management; environment, safety, and health; 
quality assurance; and product acceptance) should be left to the NNSA's 
field elements.
    Decentralized management of research and development (R&D) is 
widely practiced in industry. These days, a corporate office would be 
very unlikely to pull R&D management up to the corporate level and away 
from the business units. On the other hand, business units are 
accountable to the corporate office for the results of their R&D 
activities. The analogy for NNSA is to think of the NNSA Albuquerque 
Operations Office as the business unit responsible for the stockpile, 
and NNSA headquarters as the corporate office. Further, responsibility 
for day-to-day operation of the weapons production complex should be 
performed from a single field office, rather than from Washington.
    The decentralized structure of the DOE operations offices is a 
proven concept, but there is room for improvement. Rather than moving 
day-to-day management of the weapons program to NNSA headquarters, we 
should devote attention to streamlining the field management system. 
NNSA nuclear weapons work should report to a single field operations 
office. Oversight activities should be coordinated between the field 
and headquarters to avoid burdensome duplication. In general, the 
Albuquerque Operations Office oversees stockpile production, 
maintenance, and dismantlement while headquarters deals directly with 
the laboratories for research initiatives. The field office adjusts the 
production and maintenance-related pieces of this complex, and the 
laboratories themselves adjust the research and development support for 
stockpile stewardship. This flexibility has been especially important 
when it was necessary for the laboratories to respond to urgent 
stockpile problems or plan for future stockpile requirements.
    I hope and expect that the upcoming realignment of the NNSA field 
organization roles and responsibilities will clarify the appropriate 
roles of both headquarters and the field offices with respect to their 
functions and relationships with the laboratories. If the realignment 
eliminatesredundant and confusing lines of authority in oversight and 
program management, both among various field offices and between the 
field and headquarters, then it will accomplish a very useful purpose.
    Subsequent attention then needs to be paid to achieving the best 
governance structure possible between the Federal responsibilities and 
those assigned to the contractor organizations. There has been 
considerable confusion growing over the past two decades as to how the 
roles and responsibilities should be assigned within the unique 
government-owned, contractor-operated partnership that comprises the 
nuclear weapons complex. Rather than the characteristic jockeying for 
power that has too often characterized the DOE system, it is important 
to regain a ``systems view,'' with every organization understanding its 
role and where it fits into the whole. I am confident that John Gordon 
will seek changes that are both effective and workable.

                               CONCLUSION

    I am very concerned that the proposed fiscal year 2002 budget for 
the NNSA may result in deferral or curtailment of several important 
infrastructure projects and program deliverables. Depending on what new 
policy guidance may result from the defense reviews currently underway, 
NNSA and the laboratories may have to consider how to adjust current 
program requirements to the budget resources provided.
    I believe the NNSA has made significant progress during the past 
year. The agency is beginning to function with more coordination and 
teamwork, attributes that will surely be strengthened even more as the 
Administrator's realignment proposal is implemented. Success of the 
NNSA is not assured, however. The agency needs strong support from 
Congress and adequate resources to meet the formidable requirements of 
stockpile stewardship in the decades ahead.

    Senator Allard. Thank you, Ambassador Robinson. We will now 
proceed to Dr. Bruce Tarter, Director of the University of 
California Lawrence Livermore National Laboratory. Welcome, 
Doctor.

STATEMENT OF DR. C. BRUCE TARTER, DIRECTOR, LAWRENCE LIVERMORE 
                      NATIONAL LABORATORY

    Dr. Tarter. Thank you very much, Mr. Chairman. I have a 
detailed written statement which I would like to submit for the 
record.
    Senator Allard. We will make all of your detailed written 
statement a part of the record.
    Dr. Tarter. I would like to speak to three specific topics 
and then make a comment or two about the new NNSA effort's 
first year in operation.
    First, I think we had an event at Livermore a few weeks ago 
which was a very important one for the entire post-Cold War 
nuclear weapons program, which is the Stockpile Stewardship 
Program. We had General Gordon. We had Admiral Mies, the 
Commander of the Strategic Command, out to Livermore to 
commemorate the introduction into the stockpile of one of 
Livermore's originally designed warheads, which went through a 
stockpile life extension program, the W87.
    I formally signed the certification for that warhead 
several weeks ago. We had a ceremony to commemorate the work of 
the people who had actually done this job.
    I think you have heard with great candor and great accuracy 
the difficulties in much of the infrastructure. I think what 
you also can get is a sense, and I would make a particular 
comment, I think General Gordon noted that Y-12 was his poster 
child. John Mitchell will talk about that later.
    But, I think our biggest partner, we had partners almost 
throughout the complex, the other laboratories, and plants' 
work, but our crucial partner in bringing W87 in its stockpile 
extension program phase back into the stockpile was the work of 
Y-12, despite all of the obstacles at that facility.
    I think it is a tribute to the entire complex and the 
system that we were able to do this. I think there is a great 
deal of pride among all the people. So, I think that's a thing 
that we feel very proud about this year.
    Each of our laboratories has some common responsibilities 
and we have some individual responsibilities in the stewardship 
program itself. One, we share with the two other laboratories, 
and Dr. Robinson has mentioned this, what I would call extreme 
computing. We really are the best in that area of the world.
    We, by conscious choice, said we had to jump far ahead and 
we have done it. We at Livermore brought in just last summer 
what is at the moment the most extreme form of computing, a 
machine we called ASCI White, which will run at about 12 
trillion calculations per second. I think the notable thing is 
not how many calculations it runs per second, but the fact, as 
I think Dr. Robinson said, we have used each other's computers, 
we are doing calculations that we could never even conceive of 
a decade ago.
    We are doing something close to full simulation of the 
major parts of a weapon, soup to nuts. Again, there are areas 
where almost every area needs continued experimental validation 
of that computing result. But, nonetheless, we are doing these 
500-hour enormous calculations to try to understand the aging 
of weapons in the stockpile. I think those are real successes 
in bringing on this computing power.
    Livermore has the special responsibility, as you've 
mentioned Mr. Chairman, for the National Ignition Facility 
(NIF). We had budget and schedule difficulties, which we 
reported back to the Department about 2 years ago. We went 
through a great deal of internal soul searching.
    We changed out the management team at our laboratory. We 
have made a much greater reliance on private industry to 
construct much of this facility. I am pleased to report to you 
that for the past year we have had outstanding technical 
progress. We have all our industrial contracts in place and we 
have passed, I think with very good marks, all of the very 
extensive and appropriate reviews that are being done to that 
project.
    So, I feel very good about its future. But, I also think 
that this is one where each day is one you have to ask that 
question again. We are doing that in a continuous fashion.
    Finally, let me mention an issue which I think came up in a 
number of the Senators' questions about the nonproliferation 
program. I think at all three of our laboratories, we feel that 
is a equally important area of the world in which we 
participate and do work. I think as you've heard, our 
activities are distributed over a wide array of things, from 
Russian programs to technology.
    As General Gordon indicated, the initial budget request 
from the administration is down a little over 10 percent. 
Appropriately, many of those programs will need to be reviewed 
by the new administration to put them in the context they 
desire. But I think our biggest concern at my laboratory, and I 
think it's a concern shared with the other laboratories, is 
that some of those cuts have been taken, are initially proposed 
to be taken, in the research and development line.
    That's a very hard thing for us because we have spent 
several years in specific projects developing the expertise and 
proof testing it. If those programs go away, you will lose an 
investment of several years. I would hope the committee would 
help your staff, and our staffs, examine those programs very 
carefully, particularly in the light of the strategic reviews, 
because those are serious issues.
    Finally, I think as General Gordon said, I think all of the 
lab directors have had enormous access to General Gordon. He 
gets a lot of advice. He gets more advice than I think anyone 
could possibly use, but I think we have been all made to feel 
very much part of his team.
    I think any organization starting up has both good days and 
bad days, as he indicated. But, I think we all feel very 
positive and confident that the NNSA will help make the 
bureaucratic part of our jobs as effective as possible. I think 
with the support the committee has had in the past and the 
future, I think we can provide you with what the country needs 
in these areas. Thank you very much.
    [The prepared statement of Dr. C. Bruce Tarter follows:]

               Prepared Statement by Dr. C. Bruce Tarter

                            OPENING REMARKS

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you. I am the Director of the Lawrence 
Livermore National Laboratory (LLNL). Livermore is committed to 
maintaining confidence in the U.S. nuclear weapons stockpile as a 
principal participant in the Nation's Stockpile Stewardship Program. 
The Laboratory also contributes to vital national programs to reduce 
the growing threat posed by the proliferation of weapons of mass 
destruction.
    My testimony discusses Livermore's accomplishments in the National 
Nuclear Administration (NNSA) programs as well as the technical and 
programmatic challenges we face. But first, I want to thank Congress 
for your strong support of the Stockpile Stewardship Program and our 
threat reduction activities. I believe we are making exceptional 
technical progress so far. Looking ahead, a strongly supported and 
sustained Stockpile Stewardship Program is clearly needed to ensure 
that this nation can maintain the safety, security, and reliability of 
the stockpile over the long term. Likewise strong and sustained support 
is needed for our activities in threat reduction--that is, 
nonproliferation, counterproliferation, and counterterrorism 
activities. Threat reduction is the ``other side of the national 
security coin'' to deterrence and stockpile stewardship. Scientific and 
technological superiority is the bedrock of both sides of the coin. The 
contribution of science and technology to stockpile stewardship is well 
understood. However, the role of science and technology in 
nonproliferation and threat reduction is not as well articulated and I 
hope that my remarks today provide a better understanding of this 
critical element of our national security work.

                              INTRODUCTION

    On April 10, 2001, General John Gordon, head of the National 
Nuclear Security Administration (NNSA), and Admiral Richard Mies, 
commander in-chief of U.S. Strategic Command, were at Livermore to 
celebrate the certification of the refurbished W87 ICBM warhead. 
Speaking as the ``customer,'' Admiral Mies called the occasion an 
``historic event'' and ``the first real test of stockpile 
stewardship.'' The W87 Life-Extension Program was a challenge to all 
elements of the Stockpile Stewardship Program. Devising the engineering 
improvements to the warhead, going into production in a less than fully 
functional weapons complex, and certifying the performance of the 
refurbished warheads without nuclear tests were all major 
accomplishments. It is an important early success story, but in the 
words of General Gordon, ``we still have a long ways to go.'' More 
challenging technical issues are on the horizon as the needs to 
refurbish other weapon systems emerge.
    Weapon refurbishment decisions and actions bring into play the 
spectrum of capabilities that we are striving to attain through the 
Stockpile Stewardship Program. First, to recognize and evaluate aging 
problems (and other defects) in weapons and devise remedies, we must 
understand in detail the science and technology that governs all 
aspects of nuclear weapons. We are making progress, but we need even 
better investigative tools. Second, the nuclear weapons production 
complex must be able to remanufacture parts and refurbish weapons as 
needed. Currently the complex is far from fully functional. Third, we 
must be able to certify with confidence the performance of the 
refurbished warheads as well as the other weapons in the stockpile. 
That requires expert judgment and application of the experimental and 
computational tools that we also use to improve our fundamental 
understanding of nuclear weapons. Finally, acquisition of this spectrum 
of capabilities is time urgent to meet existing requirements for weapon 
refurbishment and to deal with other weapon performance issues that 
might arise.
    As a consequence, a principal goal of the Stockpile Stewardship 
Program has been to expeditiously put in place a set of vastly improved 
scientific tools and modern manufacturing capabilities: 100-teraops 
supercomputers; advanced radiography capabilities to take three-
dimensional images of imploding mock primaries; a high-energy-density 
research facility, the National Ignition Facility, to study the 
thermonuclear physics of primaries and secondaries; and efficient, 
flexible manufacturing facilities. These investments are very demanding 
of resources. Other demands on the program have added stress. To date 
direct support of the stockpile has required more attention and 
resources than we initially anticipated to meet Department of Defense 
requirements. In addition, investments are needed to meet new security 
requirements and to recapitalize the nuclear weapons complex. Finally, 
yet other demands may arise out of the Presidentially mandated reviews 
of the U.S. military in the 21st century and in particular, the role of 
nuclear weapons and force requirements. When the ongoing national 
security reviews are completed and the full scope of our requirements 
is clear, we may need to readdress whether the proposed budget will be 
sufficient to carry out all necessary programmatic activities.
    Livermore has major responsibilities within the Stockpile 
Stewardship Program, and the Laboratory's successes in 2000--as well as 
the challenges that lie ahead--provide a snapshot of the overall 
program. I have mentioned the certification of the W87 warhead, 
refurbished through a life-extension program, as one outstanding 
accomplishment. Lawrence Livermore and Sandia/California are starting a 
life-extension program for the W80 cruise missile warhead, designed by 
Los Alamos. The effort builds upon a modern baseline understanding of 
the W80 and its performance, which was developed cooperatively by the 
New Mexico and California laboratories to support a formal DOD/DOE 
study in 2000 to define refurbishment options. Meeting the directed 
date for the first production unit (fiscal year 2006), will greatly 
stress the resources requested in fiscal year 2002 for this life-
extension effort
    Lawrence Livermore is also responsible for a number of state-of-
the-art experimental and computer facilities--in operation and in 
development--that are essential for stockpile stewardship. Construction 
of the National Ignition Facility (NIF) at Livermore is now more than 
50 percent complete. I am pleased to report that progress has been 
excellent on all technical fronts. The new baseline for the NIF project 
was developed by a restructured project management team that includes 
many of the Laboratory's most outstanding people including especially 
those with large-project experience. They worked with experts from U.S. 
industry to develop the plans, and private industry has a very 
prominent role in completion of the project. General Gordon provided 
certification of the NIF project to Congress on April 6, 2001. 
Construction is proceeding well with ``First Laser Light'' scheduled 
for fiscal year 2004 and project completion with all lasers in fiscal 
year 2008. Work is currently proceeding on a schedule that is 
constrained by the annual budget, not by what is now technically 
possible.
    The Accelerated Strategic Computing Initiative (ASCI) is central to 
many of the success stories of the Stockpile Stewardship Program. Last 
summer, we took delivery from IBM of ASCI White, the world's most 
powerful computer, capable of 12.3 teraops (trillion operations per 
second). This machine and ASCI Blue Pacific (4 traops) are being used 
to support stockpile stewardship through a variety of applications. For 
example, at the end of 1999, we conducted the first-ever three-
dimensional simulation of a nuclear primary explosion, which is an 
important program milestone, and we are close to completing a 
simulation of a nuclear weapons secondary. We are earmarked to take 
delivery of our next ASCI computer in fiscal year 2004, a machine that 
will be capable of 60 to 100 teraops. The Terascale Simulation Facility 
(TSF) is needed to house it. Funding in fiscal year 2002 is required to 
make the building available and fully equipped to accept an ASCI-scale 
system in 2004.
    During their visit to the Laboratory, General Gordon and Admiral 
Mies also recognized the success of our Counterproliferation Analysis 
and Planning System (CAPS). They both cited CAPS as a ``great 
partnership'' among the DOD, the NNSA and the Laboratory that ``shows 
we can successfully operate in the interagency environment.'' A dynamic 
partnership between Livermore and the military commands, CAPS is now 
part of the counterproliferation planning process for the U.S. 
Strategic Command, Special Operations Command, and other regional 
military commands. CAPS exemplifies how the idea of a researcher can be 
developed by a multidisciplinary team into prototype, which is then 
picked up by a major sponsor to become a product that has significant 
impact on national security.
    Despite these notable accomplishments in CAPS and many of our other 
threat reduction programs, a number of these programs are facing major 
funding cuts. The future of some of these activities will depend on 
high-level reassessments currently underway by the administration. 
Others will depend on establishment of a better understanding of their 
importance in the overall threat reduction strategy and our confidence 
in overcoming the sheer difficulty of the technical challenges they 
entail.
    Of greatest concern are the nonproliferation and verification 
research and development (R&D) programs. These programs provide the 
science and technology base for the U.S. agencies with operational 
responsibility for characterizing foreign weapons programs and 
detecting proliferation-related activities, for detecting and 
mitigating the use of weapons of mass destruction (WMD) against U.S. 
civilians, and for negotiating and monitoring compliance with arms-
reduction and other agreements. Because the threat is continually 
evolving, as adversaries employ more sophisticated denial and deception 
and as more detailed treaties are negotiated, we must continually push 
the technical state of the art to develop new capabilities. The 
importance of these programs has been recognized by Congress in the 
last 2 years, when it markedly increased funding for these activities 
above the President's request. For fiscal year 2002, however, this 
budget line is slated for a 25 percent cut in operating funds, which 
will have a significant impact on delivery of the capabilities that are 
being developed by these programs.
    The cooperative U.S.-Russian programs have been extensively 
reviewed by various panels and committees. Almost without exception, 
the reviews concur as to the valuable work being done by these 
programs--securing at-risk Soviet-legacy nuclear material, disposing of 
excess highly enriched uranium and plutonium, and assisting in the 
downsizing of the Russian weapons complex through civilian job creation 
for displaced weapons workers. The reviews also concur as to the 
enormity of the undertaking, the difficulty of working with the Russian 
bureaucracy, and the need for continued involvement. We have made 
important progress in these program areas; however, it has been nearly 
10 years since the first Russian programs were initiated, and it is 
certainly appropriate to reassess the programs against current needs 
and U.S. national security objectives. In the meantime it is important 
to avoid disrupting high priority programs. One such Livermore program 
currently at risk is our work with the Russian Navy to enhance the 
protection and control of fresh nuclear fuel for their nuclear powered 
vessels. This work involves direct interactions with Minatom and the 
Russian Ministry of Defense, an activity that would have been 
inconceivable during the Cold War.
    I am concerned that funding cuts proposed for fiscal year 2002 will 
result in not only the termination of critical threat reduction 
projects but also the loss of essential personnel. Livermore faces this 
possibility most particularly in proliferation detection, WMD response, 
and plutonium disposition. We need to retain this cadre of people who 
have both the necessary technical expertise and the on-the-ground 
experience with these specialized programs, people whose experience 
base is irreplaceable.

                   THE STOCKPILE STEWARDSHIP PROGRAM

    The Stockpile Stewardship Program is designed to ensure the safety 
and reliability of the U.S. nuclear weapons stockpile required to meet 
national security needs of the 21st century. Confidence in the safety 
and reliability of the weapons is to be maintained through an ongoing 
and integrated process of stockpile surveillance, assessment and 
certification, and refurbishment. Stockpile stewardship is a principal 
mission of the National Nuclear Security Administration (NNSA). NNSA 
began operation in March 2000.
    General John Gordon, Administrator of NNSA, recently announced 
organizational changes to enhance NNSA's performance in core mission 
areas. The changes realign and separate programmatic and operational 
functions within the agency. The organizational and other positive 
changes adopted by General Gordon will clarify lines of communication 
and authority, which should improve overall efficiency and performance. 
Execution of the Stockpile Stewardship Program remains the primary 
responsibility of the NNSA Deputy Administrator for Defense Programs 
(NNSA/DP).
    The changes being made at NNSA will facilitate long-range planning 
and the preparation of a comprehensive 5-year budget, which are 
critically important. The Stockpile Stewardship Program faces many 
competing demands for available resources. Difficult trade-off 
decisions will have to be made. NNSA must balance evolving requirements 
for directed stockpile work, the need for vigorous campaigns to prepare 
stockpile stewards for the more challenging issues that will arise as 
weapons continue to age, and required investments in research and 
production facilities and people.
    We will greatly benefit from enhanced 5-year planning because it 
will establish future expectations at each of the laboratories and 
production facilities, which greatly helps in resource, workforce, and 
facility planning. Also important to our activities will be the results 
of the high-level review under way of the role of nuclear weapons and 
nuclear force requirements, part of the administration's broader review 
of the U.S. military in the 21st century. Lawrence Livermore's 
expertise in many nuclear-weapons issues is a national resource to 
contribute to these deliberations. As discussed below, enhanced 5-year 
budget planning and the outcome of high-level reviews are also 
important for the future of our Laboratory's nonproliferation and arms 
control programs.
Integrated Program Management and Execution
    Integrated program management and execution is critical to the 
success of the Stockpile Stewardship Program. The three major program 
elements--surveillance, assessment and certification, and 
refurbishment--are tightly interconnected. So are the activities of the 
three laboratories, the production plants, and the Nevada Test Site. 
Livermore has many close partnerships and working relationships with 
other sites in the weapons complex. As one of the two nuclear design 
laboratories, we have particularly important formal certification 
responsibilities. The Laboratory also operates a number of unique, 
state-of-the-art experimental and computer facilities that are 
essential for both assessment of stockpile performance and 
certification of refurbishment actions.
    The Stockpile Stewardship Program is formally managed by NNSA/DP 
through three overarching sets of activities: Directed Stockpile Work, 
Campaigns, and Readiness in Technical Base and Facilities. NNSA/DP uses 
this breakout to make evident program integration, establish more 
clearly program goals and budget priorities, and help to identify 
program risks if there are budget shortfalls. The integrated program 
activities include:

        <bullet> Directed Stockpile Work. Directed Stockpile Work 
        supports the readiness of weapons and includes activities to 
        meet current stockpile requirements. The effort includes weapon 
        maintenance, comprehensive surveillance, weapon baselining, 
        assessment and certification, supporting research and 
        development, and scheduled weapon refurbishments. It also 
        includes other stockpile commitments, such as dismantlement and 
        information archiving.
        <bullet> Campaigns. Campaigns are directed at making the 
        scientific and technological advances necessary to assess and 
        certify weapon performance now and over the long-term. They 
        develop and maintain specific critical capabilities that are 
        needed to sustain a viable nuclear deterrent. Each campaign has 
        milestones and specific end-dates designed to focus advanced 
        basic and applied science, computing, and engineering efforts 
        on well-defined deliverables related to the stockpile. The 
        current set of 18 campaigns provide a planning framework for 
        the program's research and development activities.
        <bullet> Readiness in Technical Base and Facilities. 
        ``Readiness in Technical Base and Facilities'' ensures that 
        necessary investments are made in people and their supporting 
        infrastructure. Readiness includes the fixed costs and the 
        investments of the Stockpile Stewardship Program, and it aims 
        to ensure the presence of: (1) high-quality, motivated people 
        in the program with the needed skills and training; (2) a well-
        maintained, modern infrastructure--to support the activities of 
        these people--that is operated in a safe, secure, and 
        environmentally responsible manner; and (3) special 
        experimental and computational facilities that must be 
        developed and brought on line for stewardship to be successful 
        in the long term.

    A rigorous planning process has been established to clearly define 
programmatic milestones to be achieved within each of these program 
areas. The Stockpile Stewardship Program is now defined by a series of 
5-year plans, one for each program element, describing goals and 
objectives. The 5-year plans, which were developed with participation 
by the laboratories, plants, and the test site, are accompanied by 
annual implementation plans with detailed milestones.

       ACCOMPLISHMENTS AND CHALLENGES IN DIRECTED STOCKPILE WORK

    Livermore is the design laboratory for four weapon systems in the 
stockpile: the W87 and W62 ICBM warheads, the B83 bomb, and the W84 
cruise missile warhead. They are expected to remain in the stockpile 
well past their originally anticipated lifetimes; the W62 already has. 
Significant effort is being expended on weapons surveillance and 
baselining, on assessing the weapons' performance, and on maintenance 
and selective refurbishment. We are just completing a major effort to 
extend the stockpile life of the W87 warhead, and Livermore and Sandia/
California have been assigned the responsibility for the engineering 
development work to refurbish the W80, a Los Alamos-designed weapon.
Stockpile Surveillance and Baselining
    Our stockpile surveillance efforts focus on Livermore designs in 
the stockpile and on understanding the effect of aging on weapons in 
the stockpile. Aging is important because it affects the physical 
characteristics of materials, and we must determine how these changes 
impact weapon safety and performance. With a better understanding of 
aging, our stockpile surveillance can be more predictive, making 
possible systematic refurbishment and preventative maintenance 
activities to correct developing problems.
    As we gather more data and gain experience, we review and upgrade 
our surveillance programs--refining sampling plans, measuring 
additional attributes, introducing new diagnostic tools, and improving 
analysis methods. We are also taking on responsibility for surveillance 
of pits from Livermore-designed weapons in the stockpile to better 
balance the workload. These activities had been conducted at Los 
Alamos.
    In addition, we are improving the sensors and techniques used to 
inspect all stockpiled weapons. These efforts, developed in the 
Enhanced Surveillance Campaign, contribute to surveillance activities 
that are part of Directed Stockpile Work. For example, Livermore has 
completed development of a solid phase micro-extraction diagnostic to 
detect and characterize the presence of minute quantities of chemicals 
in warheads. The system is now deployed at Pantex. We are also 
completing development of high-resolution x-ray tomography for imaging 
weapon pits, and deployment at Pantex is in progress. Furthermore, 
development continues of high-energy neutron radiography for 
nondestructively detecting small voids and structural defects in weapon 
systems. Working with Y-12, AlliedSignal, and Savannah River, we are 
also pursuing micro-sensors for evaluation of materials degradation and 
corrosion in weapon systems.
Stockpile Performance Assessments
    Annual certification of the stockpile is fully reliant on the 
laboratories' assessment capabilities. Demonstration-based assessments 
also underpin Livermore's W87 stockpile life extension work (discussed 
below) and our contributions to W76 Dual Revalidation and the Submarine 
Launched Ballistic Missile (SLBM) Warhead Protection Program. 
Assessments of the performance of stockpiled weapons and modification 
actions must be demonstration based--that is, grounded on existing 
nuclear test data, component-level experiments and demonstration, and 
simulations using detailed, validated computer models. To the extent 
possible, non-nuclear experiments are used to assess weapon component 
performance. Together with past nuclear test results, they also are 
used to validate computer simulations. Once validated to the extent 
possible, weapon physics simulations guide expert judgment about 
integral stockpile issues at this time.
    Annual Stockpile Certification. Formal review processes for 
certification of weapon safety and reliability in the absence of 
nuclear testing have been established as part of the Stockpile 
Stewardship Program. It is essential that judgments and decisions made 
by the stockpile stewards are credible among themselves, to DOD and 
others in the nuclear weapons community, and to the administration and 
Congress. In April 2000, the Secretaries of Energy and Defense 
certified to the President that the U.S. nuclear stockpile is safe and 
reliable and that no nuclear tests are needed at this time.
    Annual certification is based on the technical evaluations made by 
the NNSA laboratories and on advice from the laboratory Directors, the 
commander-in-chief of U.S. Strategic Command, and the Nuclear Weapons 
Council. To prepare for annual certification, our Laboratory collects 
and analyzes all available information about each stockpile weapon 
system, including physics, engineering, and chemistry and materials 
science data. This work is subjected to rigorous, in-depth review by 
managers and scientists throughout the program.
    W76 Dual Revalidation. The W76 Dual Revalidation Program was a 4-
year-long intensive effort to reaffirm the soundness of the W76 SLBM 
using two independent teams-the Original Design Team (Los Alamos and 
Sandia/New Mexico) and the Independent Review Team (Livermore and 
Sandia/California). The W76 Project Officers Group (POG) managed and 
coordinated the process. The California W76 team submitted its final 
report in March 2000. Among its accomplishments, Livermore conducted 
the first-ever hydrodynamic test of the late-time implosion history of 
the W76 primary, and we performed an extensive series of engineering 
tests to examine mechanical response and possible component aging 
phenomena. Nuclear design calculations with the newest codes have 
provided a re-evaluation of the system performance margins. The results 
of the dual revalidation provide the basis for planning the W76 life-
extension program.
Stockpile Maintenance and Refurbishment
    Each year, the Nuclear Weapons Stockpile Plan sets the requirement 
to maintain a safe and reliable nuclear weapons stockpile, and it 
specifies the number of weapons of each type to be in the stockpile. 
Among other responsibilities, the DOD establishes military 
requirements, which are incorporated into the plan. These requirements 
drive the Directed Stockpile Work workload for DOE, particularly in the 
resource-intensive area of refurbishment activities and life-extension 
programs. The W87 life-extension program is in its production phase and 
activities are planned for the W76 and the W80 systems.
    The W87 Life Extension Program. Earlier this month, Admiral Richard 
Mies (commander-in-chief of U.S. Strategic Command) and General Gordon 
visited Livermore to celebrate certification of the life-extension 
refurbishment of the W87 ICBM warhead. They signed the Final Weapon 
Development Report. This first completed certification of the 
engineering design and production processes for a life-extension 
program (LEP) is a groundbreaking milestone for the Stockpile 
Stewardship Program. It demonstrates the laboratories and the 
production facilities working together to overcome physics, 
engineering, and manufacturing challenges to meet DOD requirements 
without conducting a nuclear test. Assessment of nuclear performance is 
based on computer simulation, past nuclear tests, and new above-ground 
experiments that addressed specific physics questions raised by the 
engineering alterations and computer simulations.
    The objective of the W87 LEP was to enhance the structural 
integrity of the warhead so that it may remain part of the enduring 
stockpile beyond the year 2025 and will meet anticipated future 
requirements for the system. The W87 warhead/Mk21 re-entry vehicle (RV) 
is a candidate for a single RV option for the Minuteman III ICBM. The 
development activities have included extensive flight testing, ground 
testing, and physics and engineering analysis. High-fidelity flight 
tests, incorporating the latest technological advances in onboard 
diagnostic instrumentation and telemetry, provide added confidence in 
the reliability of the design modifications. The first production unit 
was completed at the Pantex Plant in February 1999, and the final 
production unit is scheduled for 2003.
    Life Extension of the W80. Under the direction of the Nuclear 
Weapons Council, the W80 POG is pursuing a LEP for the W80 cruise 
missile warhead, which was developed by Los Alamos and Sandia/New 
Mexico. A formal study that defined refurbishment options and their 
feasibility (known as a 6.2 study) was completed in 2000. Livermore and 
Sandia/California participated as an Interlaboratory Peer Review team. 
In this role, the California team evaluated proposed modifications to 
the warhead for feasibility, aging effects on the modifications, impact 
to the DOE complex, and production issues. Working closely together, 
the New Mexico and California teams established a modern baseline 
understanding of the W80 and its performance.
    The W80 POG has selected a final refurbishment option for the LEP, 
and NNSA has assigned the associated engineering development task to 
Livermore and Sandia/California. This assignment better balances the 
workload among the laboratories and provides a vehicle for the 
Laboratory to develop the skills of the next generation of stockpile 
stewards. The California laboratories will also be the design agencies 
for certifying the safety and reliability of the refurbished warheads, 
the W80 Mods 2 and 3. Los Alamos and Sandia/New Mexico will continue to 
be responsible for certification of the W80 Mods 0 and 1. Meeting the 
currently directed date for the first production unit (fiscal year 
2006), would require $30 million for Lawrence Livermore in fiscal year 
2002 that is not in the President's budget.

   ACCOMPLISHMENTS AND CHALLENGES IN STOCKPILE STEWARDSHIP CAMPAIGNS

    As I have earlier described, stockpile stewardship campaigns are 
focused, technically challenging, multifunctional efforts that address 
critical capabilities that will be needed to achieve certification of 
stockpiled weapons as more challenging issues arise. Eight campaigns 
are aimed at providing the scientific understanding needed to certify 
the nuclear weapons stockpile and to support required weapon 
modernization in life extension programs. Three additional campaigns 
focus on weapon engineering. They provide specific tools, capabilities, 
and components in support of weapon maintenance, modernization, and 
refurbishment, as well as certification of weapon systems. The final 
seven campaigns support readiness by focusing on sustaining the 
manufacturing base within the weapons complex. The campaigns are 
multilaboratory, and examples of Livermore's major contributions are 
highlighted below.
Experiments, Theory, and Modeling to Better Understand Plutonium
    One of the major success stories of the Stockpile Stewardship 
Program is the significant improvement we are making in understanding 
the properties of plutonium. This is a very important issue--we need to 
understand aging in plutonium and the effect of aging-related changes 
on the performance of an imploding pit of a stockpiled weapon. The 
required capacity of the production complex depends on the anticipated 
lifetime of plutonium pits in the stockpile. An accurate assessment is 
necessary. If we underestimate the lifetime of pits, we may overinvest 
in facilities to remanufacture plutonium parts. If we overestimate the 
lifetime of pits, the Nation could find itself critically short of 
capacity for plutonium operations when it is vitally needed.
    Laboratory Experiments and Modeling. Available information 
indicates that plutonium used in pit applications is stable; however, 
we must assess the effects of long-term aging. Plutonium's properties 
are among the most complex of all the elements. To study the subtleties 
of plutonium, we have combined advances in theoretical modeling with 
the use of sophisticated experiments. For example, we are using old 
pits and accelerated-aging alloys to determine the lifetime of pits. 
Accelerated-aging samples are plutonium alloys with a mixture of 
isotopes to increase the rate of self-irradiation damage so that the 
material ``ages'' faster.
    Data from our materials, engineering, and dynamic experiments show, 
so far, that pits are stable. Livermore has conducted important 
experiments on old pits using advanced materials characterization tools 
such as our Transmission Electron Microscope, the most powerful such 
instrument in the NNSA complex. Using the Transmission Electron 
Microscope, we have discovered nanoscale (10<SUP>-9</SUP> inch) bubbles 
that are likely filled with helium in the microstructure of aged 
plutonium. The plutonium appears to be accommodating the helium, which 
is created through self-irradiation, in a stable form. The presence of 
these bubbles was predicted theoretically using computer simulations of 
the radiation damage process.
    Experiments at the Nevada Test Site. Livermore is conducting sub-
critical experiments at the Nevada Test Site to investigate the 
properties of plutonium shocked and accelerated by high explosives. 
Matter can be ejected from the free surface of materials that undergo 
shock. The experiments characterize ejecta, which is thought to affect 
the performance of primaries in weapons. Performance is being studied 
as a function of plutonium age as well as surface finish and 
manufacturing technique. Results will affect estimates of pit lifetime 
and decisions about future production of replacement pits, and improve 
our fundamental understanding of performance.
    Unlike our first three subcritical experiments, tests in the 
current Oboe series are performed inside individual confinement 
vessels. Six of the eight planned Oboe experiments have been completed, 
four of them in 2000. By using small expendable vessels, up to 12 
separate experiments can now be conducted in the same underground test 
chamber--the zero room--over several years. Following the test, after 
the chamber is determined to be contamination-free personnel are 
allowed to enter the zero room to retrieve films and data. The use of 
the vessels for subcritical experiments is resulting in significant 
cost reduction and improved data return. In the past, each subcritical 
experiment followed a complex schedule and time-consuming preparations, 
and after each test, the zero room, with all its diagnostic equipment, 
was permanently contaminated and could not be reused.
    In addition, we are bringing into operation the Joint Actinide 
Shock Physics Experimental Research (JASPER) Facility at the Nevada 
Test Site, a two-stage gas gun for performing shock tests on special 
nuclear materials. JASPER experiments, which are planned to start in 
fiscal year 2001, will complement other experimental and modeling 
activities by providing scientists more precise equation-of-state data 
at extreme conditions than can be obtained from other types of 
experiments.
Modeling and Experiments to Probe Primary Performance
    The Contained Firing Facility/Flash X-Ray Facility. Hydrodynamics 
testing is the most valuable experimental tool we have for diagnosing 
device performance issues for primaries in stockpiled weapons. Through 
hydrodynamics experiments conducted at Livermore's Site 300 and the 
Dual-Axis Radiographic Hydrodynamic Test Facility (DARHT) at Los 
Alamos, weapon scientists are able to characterize the energy delivered 
from the high explosives to a mock pit, the response of the pit to 
hydrodynamic shocks, and the resulting distribution of pit materials 
when they are highly compressed. These three pieces of information are 
critical for baselining weapons, certifying stockpile performance, and 
validating hydrodynamics simulation codes.
    Over the past decade, we have made tremendous advances in the 
development of diagnostics capabilities and experimental techniques 
used in hydrodynamic testing. We are now able to gather far more 
revealing data from hydrodynamic tests than was possible when we 
developed the weapons that are now in the stockpile. In 1998, we 
carried out the first ``core punch'' experiments, in which scientists 
use high-energy radiography to record a digital image of the detailed 
shape of the gas cavity inside a pit when it is highly compressed. We 
examined two important stockpile primary devices: the W76 SLBM warhead 
and the B83 strategic bomb.
    The Flash X-Ray Facility was shut down in 1999 and work began on an 
upgrade that will contain the debris created by explosive testing. 
Construction of the Contained Firing Facility is now finished, and the 
facility is undergoing qualification testing to assure its ability to 
contain debris from experiments that use up to 60 kilograms of high 
explosives. When hydrodynamic testing resumes in late 2001, Livemore 
will be able to conduct these critically important experiments in an 
even more environmentally-benign manner.
    Three-Dimensional Simulation of a Nuclear Primary Explosion. Our 
hydrodynamic testing of mock primaries is complemented with a vigorous 
simulation program that achieved a remarkable milestone in December 
1999. The first-ever three-dimensional simulation of a nuclear weapon 
primary explosion was completed using the ASCI Blue Pacific computer at 
Livermore. Demonstrating the ability to simulate the explosion of a 
primary in three dimensions is a major milestone in the Stockpile 
Stewardship Program and an important step forward in the full-system 
modeling of weapon performance. Three-dimensional simulation is 
critically important because phenomena during a nuclear explosion are 
in many cases not symmetric due to aging and manufacturing variations.
    The complex computer model that was used, called a ``burn code,'' 
employs tens of millions of zones--hundreds of times more than a 
comparable two-dimensional simulation. The work was completed through 
an intense, sustained effort that involved weapons code developers and 
computer support personnel. It required innovative three-dimensional 
algorithms able to represent the relevant physical processes and run 
efficiently on the machine's parallel architecture. The simulation ran 
a total of 492 hours of computer time on 1024 processors and used 
640,000 megabytes of memory on the Blue Pacific computer. During the 
calculation, six million megabytes of data were written in a total of 
50,000 graphics files. Analyzing and preparing the data for 
visualization again requires the parallel processing capability of Blue 
Pacific. This post-processing is enabling weapon scientists to get a 
more accurate and detailed picture of the primary explosion process as 
it occurs.
    Modeling and Experiments of High-Explosive Detonation. By linking 
two previously separate physics models, Livermore scientists now have a 
much better capability to simulate the detonation of high explosives 
(HE). One of the codes, CHEETAH (which is linked the ARES hydrodynamics 
code), models the chemical kinetics and thermodynamics involved in a 
detonation. In the resultant simulation, as ARES determines the motion 
of the materials, CHEETAH provides at each time step the state of 
chemical reactions and equation-of-state data for the relevant 
intermediate and final reaction products, which affects subsequent 
hydrodynamic performance.
    We are also obtaining improved equation-of-state data for the 
materials produced by HE detonation, such as carbon dioxide. Better 
data increases the accuracy of simulation models. Researchers used 
Livermore's diamond anvil cell to study carbon dioxide at extreme 
conditions (millions of Earth atmospheres). They created two forms of 
solid carbon dioxide that were never before seen in the laboratory 
(CO<INF>2</INF>-IV and CO<INF>2</INF>-V). What is especially 
interesting about CO<INF>2</INF>-V is that it shows nonlinear optical 
behavior, which may eventually lead to a new class of generating 
materials for high-power lasers.
High-Energy-Density Weapon Physics (HEDP) Calculations and Experiments
    To determine the performance of thermonuclear weapons, we need to 
accurately model how various types of radiation interact with their 
surroundings. The fundamental physical processes are particularly 
complex in the dynamic high-energy-density conditions present during 
the functioning of a weapon. Materials behave very differently at star-
like pressures and temperatures. Modeling performance is made even more 
difficult by the fact that many of the issues we need to consider are 
inherently three dimensional. Weapons have been designed as one- or 
two-dimensional objects but they age three dimensionally. Furthermore, 
problems that could arise in weapons (e.g., cracks or other 
irregularities) are also typically three dimensional. High-fidelity 
three-dimensional modeling demands the computing power that ASCI 
promises to deliver. It also demands experimental capabilities that can 
be used to generate data to validate the models.
    High-Energy-Density Physics Experiments. When the Nova laser ceased 
operations at Livermore in 1999, we began using the Omega laser at the 
University of Rochester and the Z machine at Sandia to conduct high 
energy-density experiments. These facilities are able to approach the 
high energy densities produced in nuclear detonations, albeit only 
momentarily and in only very small volumes. Hence, they are useful for 
generating data and validating simulation codes near--but not at--
weapon-physics conditions. The National Ignition Facility (NIF) will 
provide much greater capability to perform these types of experiments--
it is capable of delivering nearly 60 times the energy of the Omega 
laser. Livermore researchers have been carefully examining the many 
possible types of experiments that can be conducted on NIF in support 
of stockpile stewardship. They presented an extensive set of materials 
at a High-Energy-Density Physics (HEDP) Workshop held at Sandia/
California on January 30-February 2, 2001. The presentations showed 
that extraordinary progress has been made toward developing 
quantitative metrics for stockpile assessment and certification and in 
defining a detailed experimental weapons-physics program to be 
conducted at HEDP facilities. Although the certification approaches of 
the National laboratories differ, they all require an enhanced 
understanding of HEDP weapon behavior as an essential component of the 
Stockpile Stewardship Program.
    High-Energy-Density Physics Modeling. As mentioned, Livermore 
researchers achieved a major milestone in late 1999 with the first-ever 
three-dimensional simulation of a nuclear-weapon primary explosion. The 
next step in the full-system modeling of weapon performance is a three-
dimensional simulation of the thermonuclear burn of a weapon secondary. 
Work is currently in progress at the Laboratory using the ASCI White 
supercomputer. In addition to the codes developed to simulate nuclear 
weapon performance, the Laboratory has developed the code HYDRA, which 
was used in 2000 to simulate in three dimensions the performance of 
targets that might be used in the National Ignition Facility to achieve 
ignition and thermonuclear burn. The simulations were run on 1,680 
processors of the ASCI Blue Pacific computer using a mesh of more than 
16 million zones. HYDRA has also modeled the results of hydrodynamic 
instability experiments performed on our Nova laser and the University 
of Rochester's Omega laser.
    accomplishments and challenges in technical base and facilities
    Assessments of weapon performance and certification of weapon 
refurbishments must be based on scientific and engineering 
demonstration to be credible. In the absence of nuclear testing, we 
rely on data from past nuclear tests as a benchmark, component-level 
experiments and demonstration, and advanced simulations for an 
integrated assessment of weapon performance and safety. This approach 
has enabled us to successfully certify the W87 life-extension 
refurbishment and address stockpile issues that have emerged to date. 
However, as the stockpile ages, we anticipate that more difficult 
issues will arise.
    These needs--to be able to assess and certify both weapon 
performance and refurbishment actions--drive the Stockpile Stewardship 
Program's investments in much more capable experimental facilities, 
such as the National Ignition Facility (NIF), the Dual Axis 
Radiographic Hydrodynamic Test Facility and even more advanced hydro-
test capabilities, and greatly enhanced numerical simulation tools 
developed through the Accelerated Strategic Computing Initiative 
(ASCI). We are not progressing as quickly as we could to acquire these 
greater capabilities because of competing needs for Stockpile 
Stewardship Program resources that must be balanced. The program must 
meet requirements for Directed Stockpile Work (e.g., life-extension 
programs) and pursue vigorous Campaigns. In addition, the nuclear 
weapons complex is in need of infrastructure recapitalization to 
support all of these activities. Program success requires both 
efficient, flexible, and modern manufacturing facilities and a work 
environment at the laboratories and production facilities that makes it 
possible to attract and retain an exceptional staff. Here, the 
discussion focuses on two areas where much more capable research 
facilities are required--NIF and ASCI--and on the need for 
infrastructure reinvestment. Workforce issues will be discussed later.
The National Ignition Facility
    Construction is under way at Livermore of the National Ignition 
Facility (NIF), a major research facility housing a 192-beam laser and 
associated experimental capabilities. NIF will be the world's largest 
laser, delivering 60 times more energy than the Omega laser at the 
University of Rochester (and the previous NOVA Laser at Lawrence 
Livermore), currently the largest laser in the Inertial Confinement 
Fusion (ICF) program. NIF will provide 1.8 Megajoules of ultraviolet 
laser energy that can be used to compress and heat a small capsule 
filled with deuterium and tritium to conditions at which thermonuclear 
fusion occurs. NIF is a cornerstone and essential element of the 
Stockpile Stewardship Program. It will also provide scientific and 
technical information that may eventually lead to practical fusion 
energy production.
    The baseline plan and schedule for NIF is included in General 
Gordon's certification of the NIF project, provided to Congress on 
April 6, 2001. He concluded that ``The NIF Project should continue 
along the approved 192-beam baseline at a Total Project and Related 
Cost of $3,448 million and project completion at the end of fiscal year 
2008. The goal for the NIF is to achieve ignition in the laboratory.'' 
With this certification, the full $199 million appropriated by Congress 
for fiscal year 2001 has been made available for execution of the NIF 
project. The fiscal year 2002 budget provides $245 million for 
continued NIF construction. The pace of construction is now constrained 
by available annual funding in the overall NNSA/DP budget, and the 
project could be completed significantly earlier at a lower total cost 
if more funding were available in the near term.
    The Importance of NIF to Stockpile Stewardship. NIF is vital to the 
success of stockpile stewardship. It will be the only facility capable 
of well-diagnosed experiments to examine thermonuclear ignition and 
burn and to study the high-energy-density properties of primaries and 
secondaries in nuclear weapons. We need the facility for experimental 
study of key issues related to the effect of aging on weapons and for 
certification of the performance of refurbished weapons. In addition, 
NIF experiments provide the only available means for advancing critical 
elements of the underlying science of nuclear weapons. NIF experiments 
will provide necessary data for sophisticated computer simulation 
models being developed for stockpile stewardship, and the models 
themselves need to be tested in the physical conditions that only the 
NIF can provide. Finally, NIF will help to attract and train the 
exceptional scientific and technical talent that is required to sustain 
the Stockpile Stewardship Program over the long term.
    The findings of NNSA/DP's High-Energy-Density Physics (HEDP) 
Workshop, held January 30-February 2, 2001, reconfirmed NIF's essential 
role in the Stockpile Stewardship Program and recommended that NIF be 
completed to its full 192-beam configuration on its baseline schedule. 
The Workshop Panel included representatives from DOE, NNSA, DOD, the 
three NNSA laboratories, and Argonne National Laboratory. They reviewed 
presentations by experts in weapons design, HEDP, and Inertial 
Confinement Fusion (ICF) from the three laboratories that discussed 
options for NIF deployment, other HEDP facilities that can complement 
NIF, and Stockpile Stewardship Program needs for HEDP and weapons 
experiments/calculations for future stockpile certification.
    NIF Project Technical Progress and Accomplishments. The NIF project 
is more than 50 percent complete. Major progress continues to be made 
and at a rapid pace. The NIF conventional facilities are 97 percent 
done, with completion expected in September 2001.

        <bullet> Over 1,000 tons of special equipment has been 
        installed in the two laser bays, which are now operating under 
        cleanroom protocols. Jacobs Facilities, Inc. (JFI) is 
        responsible for the integration, installation, and 
        commissioning of all beampath infrastructure systems, which 
        form the exoskeleton of the NIF laser. Awarded the NIF 
        project's Integration Management and Installation contract in 
        August 2000, JFI brings significant expertise in clean 
        construction practices to the project. By January 2001, JFI had 
        mobilized their personnel for an early start to installation of 
        laser bay beampath enclosures.
        <bullet> The Optics Assembly Building (OAB), which contains an 
        8000 sq. ft. Class 100 cleanroom facility, is in operation 
        cleaning parts to be used in the assembly of NIF. In February 
        2001 the Project completed acceptance testing of the first OAB 
        workstation for assembly of the line-replaceable units (LRUs)-
        modular components that comprise the special laser, target, and 
        optical equipment. Over the next year, the other LRU 
        workstations will be installed, tested, and commissioned. This 
        is a key activity in our preparation for building the NIF.

    In addition, progress is outstanding on all technological fronts. A 
few examples are cited:

        <bullet> With the development of technology to quickly grow 
        optical-quality crystals for NIF, now we can grow in less than 
        2 months a 300-kilogram crystal that is used to convert laser 
        light from infrared to the ultraviolet color optimized for the 
        target physics experiments. The Laboratory together with an 
        industrial supplier, Cleveland Crystals, have produced 56 
        percent of the crystals required for NIF.
        <bullet> With development of technologies to continuously pour 
        laser glass, Hoya Corporation and Schott Glass Technologies, 
        suppliers of high-quality laser amplifier glass, are meeting 
        all of NIF's technical specifications and have now produced 
        roughly 75 percent of the 150 tons of laser glass (about 2,400 
        out of 3,000 slabs) required for NIF.
        <bullet> We applied adaptive optics technology to develop 
        deformable mirrors that allows NIF to maintain a very high 
        quality laser beam even after passing through two meters of 
        glass.
        <bullet> Finally, we have developed an annealing process to 
        increase the damage threshold for the ultraviolet optical 
        elements in NIF and to meet the operational cost requirements 
        of the NIF. We are now working to implement this process in a 
        production setting.

    NIF Project Rebaseline and Certification. In his certification of 
the NIF project, General Gordon concluded that ``the NIF project team 
is capable of managing the project so as to assure a high probability 
of successful execution.'' His certification is dependent on final 
resolution of a 5-year budget plan for NNSA, but as stated in his 
report, ``Funding for the National Ignition Facility will be included 
in this plan.'' The certification follows a series of events and 
actions taken by the Laboratory, DOE and NNSA, and Congress since the 
summer of 1999 when we began to restructure the NIF project and develop 
a new baseline.
    General Gordon's certification report reflects the very hard work 
of and outstanding progress made by the revamped NIF project management 
team. The team includes many of the Laboratory's most outstanding 
people and staff with large-project experience, who were brought into 
the project from other Livermore programs and from outside the 
Laboratory. To develop the rebaseline plans, the NIF project team 
combined their collective experience with experts from U.S. industry in 
extremely large projects that require cleanroom conditions--Jacobs 
Facilities, Inc., Lockheed Missiles and Space, Intel Corporation, 
Hewlett-Packard, and others such as United States Navy Strategic 
Systems. In addition, U.S. industry has a significantly larger role in 
completion of the project than previously planned with over 99 percent 
of the cost of procurement now contracted to private industry.
    A series of actions by DOE and Congress preceded General Gordon's 
certification of NIF. On June 1, 2000, Secretary of Energy Richardson 
provided to Congress his interim report laying out the Department's 
path forward for NIF. He stated, ``The path forward I have selected is 
based on the following conclusions/results from a very detailed review 
process. . . . The project is technically sound and based upon good 
engineering design. There are no known technical showstoppers remaining 
for project completion.'' The review process included the work of a 
specially appointed Laser System Task Force of the Secretary of Energy 
Advisory Board (SEAB), chaired by Dr. John McTague, which issued an 
interim report on NIF in May and a final report in November 2000.
    In September 2000, Secretary Richardson submitted to Congress a 
DOE-approved rebaselined cost and schedule for the NIF along with his 
certification of the project. Prior to the Secretary's submittal, 
reviews were held following the recommendation of the SEAB Laser System 
Task Force. One was a thorough, intrusive examination of the NIF 
project patterned after the highly respected ``Lehman'' reviews carried 
out on large high energy-physics and nuclear physics construction 
projects within the DOE Office of Science. Concurrently, Burns and Roe 
Enterprises, Inc. conducted a separate Independent Cost Review of the 
project.
    In accordance with the Conference Bill (H.R. 5408, Section 3140 of 
the Fiscal Year 2001 Defense Authorization Bill), Congress provided 
$130 million immediately for the project, with $69 million of NIF 
construction funds held by the NNSA until certification of the project 
by the NNSA Administrator. To support this certification, NNSA/DP held 
two additional reviews of the NIF Project. The first, the High-Energy-
Density Physics Workshop, is discussed above. The second was the DP 
Status Review of the NIF Project, held February 27-March 2, 2001. Then 
on April 6, 2001, General Gordon certified the NIF project, citing the 
High-Energy-Density Physics Study Report, the Defense Programs NIF 
status reviews and the Defense Programs Future Years Budget Plan for 
the Stockpile Stewardship Program.

             THE ACCELERATED STRATEGIC COMPUTING INITIATIVE

    The Accelerated Strategic Computing Initiative (ASCI) is greatly 
advancing our ability to computationally simulate the performance of an 
aging stockpile and to certify the details of refurbishment projects. 
To make the needed major advances in weapons science and engineering 
simulation codes, Livermore, Los Alamos, and Sandia national 
laboratories are obtaining from U.S. industry dramatic increases in 
computer performance and information management. The ASCI program is 
integrating the development of computer platforms, simulation 
applications, and data management technologies. It will take a string 
of successive investments to achieve ASCI's long-term goals.
    Livermore's partnership with IBM has been highly successful. We 
took delivery of ASCI Blue Pacific in fiscal year 1998 and then ASCI 
White in fiscal year 2000. Both machines exceeded their performance 
requirements and are being used to support stockpile stewardship 
through a variety of applications, some of which I have discussed. The 
important next step in ASCI at Livermore is a supercomputer capable of 
60 to 100 teraops (trillion operations per second). It is planned for 
fiscal year 2004, and to keep plans on schedule, funding is needed in 
fiscal year 2002 for construction of the Terascale Simulation Facility.
    ASCI White Provides 12.3-teraops. The Laboratory is home to the 
world's most powerful supercomputer, the IBM ASCI White machine, which 
is capable of 12.3 teraops. It is the latest step in ASCI's ambitious 
efforts to rapidly advance the state-of-the-art in computers, 
computational models, and data management tools needed to simulate the 
performance of nuclear weapons. In Summer 2000, ASCI White was 
delivered to Livermore on schedule from IBM's research center in 
Poughkeepsie, New York, in 28 large moving vans. We worked very closely 
with IBM to successfully install the machine and bring it up and 
running with our very complex simulation codes.
    ASCI White is based on the next-generation IBM processor, node, and 
switch technology. It consists of 512 nodes, each with 16 processors. 
Exceeding its contractual performance requirement of 10 teraops, the 
machine is about a factor of three faster than Livermore's Blue Pacific 
computer, which was used to perform the first ever 3D simulation of the 
full functioning of a nuclear weapon primary. It is roughly 100,000 
times more powerful than a typical desktop computer and requires about 
the equivalent of two basketball courts of floorspace. The machine also 
provides over 8 trillion bytes (terabytes) of main memory and about 110 
terabytes of global disk space. Calculations are under way to use ASCI 
White to simulate the performance of the secondary of a nuclear weapon.
    Simulation Modeling and the Problem-Solving Environment. ASCI is 
more than powerful computers; it is the development of advanced 
simulation techniques as well as data management and visualization 
tools. Three Gordon Bell Awards, two in 1999 and one in 2000, exemplify 
the outstanding simulation development capabilities at Livermore and a 
growing base of expertise in using the machines. Most notable was the 
1999 Gordon Bell Award for best performance in supercomputing. A team 
led by Livermore researchers, with collaborators at the University of 
Minnesota and IBM, solved a supercomputer problem directly relevant to 
weapons physics issues and with broad applications including supernova 
evolution, combustion physics, and supersonic vehicle propulsion and 
dynamics. In addition, we are making significant progress in the 
development of very-high-performance data visualization capabilities. 
Two Assessment Theaters that provide wall-size, extremely high 
resolution images are now available at Livermore. They are helping 
weapon scientists to comprehend the vast amount of data the ASCI 
computers generate, and they enable visualization researchers to 
experiment with capabilities that are among the best in the world.
    Beyond ASCI White and the Terascale Simulation Facility. The next 
supercomputer at Livermore after ASCI White will move us much closer to 
ASCI's goal of full-scale simulation of weapons performance based on 
first-principles physics models without resorting to simplified models. 
The threshold for that capability is 100 teraops, and reaching the goal 
quickly is vital to success in stockpile stewardship. Plans call for 
ASCI ``Q'' (30 teraops) to be operational at Los Alamos in 2002, a 20-
teraops machine at Sandia in 2003, and a 60- to 100-teraops machine for 
Livermore in 2004. At the onset of the Stockpile Stewardship Program, 
ASCI set as a goal to achieve 100 teraops by 2004. The machine at 
Livermore will be as close to 100 teraops as can be afforded within 
budget limitations.
    The 60- to 100-teraops machine will be very large, and we need the 
Terascale Simulation Facility (TSF) to house it. Plans for this $89 
million facility have been developed and a Conceptual Design Report has 
been approved. Title I design is scheduled to be complete in May 2001. 
The TSF will consist of a two-story computing facility with power and 
space to accommodate a 100-teraops-class system; assessment areas and 
networking control areas necessary for direction and assimilation of 
data; and a four-story office structure for staff to manage and utilize 
the simulation environment. Essentially all of the planned funding for 
the TSF has been reallocated in prior years by NNSA/DP to meet other 
pressing programmatic needs; hence, $32 million is needed in fiscal 
year 2002. With timely funding, about 24,000 square feet of the machine 
room (of the 48,000 square feet planned) would be available and fully 
equipped to accept an ASCI-scale system in 2004. It is important that 
plans for the 60- to 100-teraops machine not slip.
    The two machine rooms in TSF will guarantee our capability to site 
any system required by the program. The TSF will function more like an 
experimental facility than a computer center by supporting very close 
cooperation between staff and analysts. Round the clock support for 
major runs, restart capability for huge simulations, and on-the-fly 
trouble shooting will support a mode of operations where ``runs'' will 
be viewed as ``shots,'' requiring intense support to succeed. In 
addition, the TSF will feature the Advanced Simulation Laboratory for 
the development of visualization capabilities, and it will house the 
consolidated Networking Operations Center for Livermore's supercomputer 
systems.

Infrastructure Recapitalization
    Stockpile stewardship requires major investments in new facilities 
and capabilities to make it possible for scientists and engineers to 
much more thoroughly understand the performance of nuclear weapons. As 
discussed above, at Livermore these investments include construction of 
NIF and acquisition of ASCI supercomputers and the TSF. The Stockpile 
Stewardship Program will not succeed without the new-facility 
investments that are being made at the NNSA laboratories. Scheduled 
programmatic work at the laboratories and the plants has also placed 
exceedingly high demands on provided funding. The cumulative effect of 
necessary continuing attention to the highest and most immediate 
priorities over the course of the Stockpile Stewardship Program has 
been shortage of funds to recapitalize NNSA's underlying 
infrastructure. As a result, we are providing input and support to 
NNSA's Facilities and Infrastructure Recapitalization Plan.
    Over the years, Livermore has depended on having special facilities 
and equipment in an accommodating work environment to attract and 
retain an exceptional staff. Sustaining the quality of our workforce is 
a particularly challenging task in view of the high demand in the 
private sector for skilled people. The task is made more difficult by 
the continued aging of our facilities without major reinvestment. At 
Livermore, only 60 percent of our employees currently reside in 
permanent space, and 70 percent of the temporary office space (trailers 
and modular buildings) is nearing or beyond end of service life. 
Overall, 14 percent of Livermore's office and laboratory space is in 
need of major rehabilitation and nearly 30 percent of the space is in 
need of minor rehabilitation. Such working conditions are not conducive 
to retaining and attracting the exceptional workforce that we need to 
accomplish our mission.
    Older facilities typically are more expensive to maintain and 
usually have higher costs associated with safe and healthy operations. 
Our overall maintenance backlog is about $330 million if funded with 
programmatic dollars. Other than funding for line-item construction of 
major new facilities, since the mid-1990s our infrastructure 
reinvestments have been in the range of $25 to 50 million per year in 
programmatic dollars for a site with a plant replacement value of $3.1 
billion. We need additional funding to reduce the backlog and/or 
construct replacement facilities.
    Reduction of the maintenance backlog is not the only issue we face. 
Obsolescent equipment needs to be replaced. For example, the Laboratory 
struggles to keep pace with rapid advances in telecommunications 
capabilities, which are critically needed to efficiently and securely 
use our supercomputers and to upgrade our business operations. In 
addition, we have legacy facilities from long-discontinued programs as 
well as unusable or unsafe laboratory space that must be 
decommissioned, decontaminated (where necessary), and demolished. Our 
legacy facilities and other excess marginal space require considerable 
up-front investments to rectify. We also have to invest so that 
buildings at Livermore meet present-day seismic safety codes and the 
latest, more demanding safety criteria.

  REDUCING THE THREATS POSED BY THE PROLIFERATION OF WEAPONS OF MASS 
                              DESTRUCTION

    The proliferation and potential use of nuclear, chemical, and 
biological weapons (collectively referred to as weapons of mass 
destruction, or WMD) threatens the security of this nation. Continuing 
economic and political instability in Russia jeopardizes that country's 
ability to secure its legacy nuclear materials. At least 20 countries, 
some of them hostile to the U.S., are suspected of or known to be 
developing WMD. The incipient nuclear arms race between India and 
Pakistan has grave implications for security in that volatile region. 
There is no indication that years of intrusive inspections and global 
censure have halted Iraq's WMD ambitions, and Iran is actively building 
up its nuclear program. The potential availability of WMD materials and 
know-how makes terrorist acquisition of such weapons frighteningly 
possible.
Livermore's Threat Reduction Program
    Livermore is applying its nuclear expertise, developed through past 
work in nuclear weapon development and testing and its continuing 
stockpile stewardship responsibilities, to the challenge of nuclear 
threat reduction--that is, nonproliferation, counterproliferation, and 
counterterrorism. Because the threat of proliferation is not restricted 
to nuclear weapons, we are also drawing on the Laboratory's broad 
capabilities in the biological and chemical sciences to develop the 
technologies, analysis, and expertise needed to deal with the 
proliferation of chemical and biological weapons.
    Scientific and technological superiority is the foundation of 
national security. Advanced science and technology enable the Nation's 
military capabilities and lie at the heart of the Stockpile Stewardship 
Program. In the threat reduction arena, proliferation detection and 
intelligence collection depend on successive generations of advanced 
technology to overcome denial and deception and to interpret 
fragmentary clues amid enormous and expanding volumes of technical data 
and other information. The strength of international treaties and 
agreements is based, in large part, on technical capabilities for 
monitoring compliance.
    The central role of science and technology in the Stockpile 
Stewardship Program is well understood. However, the equally critical 
role of R&D in nonproliferation and threat reduction has not been 
articulated with sufficient clarity, as evidenced by the significant 
cuts in fiscal year 2002 funding proposed for this work. Below I 
describe the critical problems of threat reduction that require 
advanced science and technology solutions, highlight Livermore's 
activities and achievements in these areas, and note the effect of the 
proposed budget cuts.
R&D for Threat Reduction
    Scientific and technical capabilities are essential for four 
``grand challenges'' of threat reduction: proliferation detection, 
response to WMD terrorism, worldwide monitoring for nuclear explosions, 
and protection and control of nuclear weapons and nuclear material. The 
main sponsor of our work in these areas is NNSA's Office of Defense 
Nuclear Nonproliferation and its Nonproliferation and Verification 
Research and Development (R&D) Program. This program provides the 
technological base for the U.S. agencies with operational 
responsibility for characterizing foreign weapons programs and 
detecting proliferation-related activities, for detecting and 
mitigating the use of weapons of mass destruction against U.S. 
civilians, and for negotiating and monitoring compliance with arms 
reduction and other agreements. Because the threat is continually 
evolving, we must continually push the technical state of the art. I am 
concerned that the $57 million cut in operating funds proposed for this 
fiscal year 2002 budget line (a drop of roughly 25 percent), will have 
a major impact on the program's ability to deliver badly needed new 
capabilities for proliferation detection and domestic response to WMD 
terrorism.
    Proliferation Detection. The discovery of Iraq's extensive 
clandestine WMD programs following the 1991 Gulf War demonstrated with 
chilling clarity the difficulty of detecting proliferation-related 
activities. This experience also illustrated the need to back up 
agreements with effective monitoring technology, for despite the fact 
that Iraq had signed the Nuclear Non-Proliferation Treaty and was 
subject to IAEA inspections, it managed to completely hide its WMD 
activities. After the dissolution of the Soviet Union (later in 1991), 
DOE's Nonproliferation and Verification R&D Program was tasked and 
funded to develop improved proliferation detection capabilities to meet 
this critical national security need in the more complicated multipolar 
world.
    The goal of this work is to develop technical means by which 
signatures associated with the development, production, and testing of 
weapons of mass destruction can be detected and quantified. 
Characterization of these signatures will provide clues that, together 
with other sources of information, can be used to infer the nature of 
suspicious activities. Because of the technical difficulty of achieving 
the required proliferation detection capabilities, the optimal approach 
is not readily apparent. Therefore, a number of different avenues must 
be investigated and the state of the art advanced in many technical 
disciplines in order to turn proliferation detection concepts into 
functioning, field-worthy systems.
    In this area more than any other, success requires a long-term 
focus and sustained effort. Indeed the proliferation detection 
challenge is increasing. Adversaries continue to acquire more advanced 
technology for their WMD programs, and they improve their denial and 
deception techniques as they learn about our detection capabilities.
    At Livermore, we take an end-to-end approach to proliferation 
detection. Our technology developers work hand in hand with signatures 
experts, all-source intelligence analysts, and the people who develop 
advanced data-exploitation techniques. This systems-level approach 
allows us to develop technologies that meet real-world needs, 
functioning in demanding deployment environments and delivering 
information that can be readily exploited and used with confidence as 
the basis for nonproliferation policy and counterproliferation 
response.
    We have developed both passive and active technologies. These 
technologies have been transitioned from laboratory concepts into 
prototype fieldable systems and their operational feasibility in 
complex industrial environments has been demonstrated. The next step 
would be to work with operational agencies to integrate these detection 
technologies into their future technical capabilities. However, the 
funding cuts proposed for fiscal year 2002 will force the termination 
of Livermore's entire remote sensing effort.
    Domestic Response to WMD Terrorism. Events such as the World Trade 
Center and African embassy bombings, the Tokyo subway nerve-gas attack, 
and a growing number of bioterrorism scares have galvanized U.S. 
efforts to combat terrorist use of chemical and biological weapons, 
particularly attacks against civilian targets. The Chemical and 
Biological National Security Program (CBNP) was initiated by DOE in 
fiscal year 1997 to develop new technologies for improved response in 
the event of a chemical or biological terrorist attack.
    At Livermore, our CBNP has grown significantly in the past 4 years. 
It was initiated as a Laboratory Directed R&D Strategic Initiative in 
1996 and has evolved from those roots. Today we have thriving efforts 
in all four of the national program areas-biological foundations, 
biodetection, modeling and prediction, and decontamination--with 
leadership responsibilities in biodetection and modeling and 
prediction. We have developed the first truly portable, battery-
powered, handheld polymerace chain reaction instrument, the Handheld 
Advanced Nucleic Acid Analyzer (HANAA). The instrument is capable of 
testing four different samples for two different DNA sequences and 
reporting the results in less than 10 minutes. This year, HANAA entered 
real-world beta testing, where it is being used by FDA inspectors to 
detect pathogenic bacteria in imported seafood, health workers to 
analyze blood samples for drug-resistant strains of malaria in rural 
Africa, and emergency response personnel as a detection and diagnostic 
tool in the event of a domestic bioterrorism incident. HANAA technology 
has also been licensed to a commercial partner.
    To provide biodefense for special events (e.g., governmental 
assemblies, dignitary visits, major sporting events), Livermore and Los 
Alamos are jointly developing the Biological Aerosol Sentry and 
Information System (BASIS). This system is designed specifically for 
the ``detect to treat'' mission-detecting a bioterrorism incident 
within a few hours of attack, early enough for public health agencies 
to mount an effective medical response. BASIS uses a network of 
distributed sampling units located in and around potential target 
sites. Each sampling unit continuously collects, stores, and time-
registers aerosol samples. The samples are retrieved and brought to a 
field laboratory for analysis. If bioagent is detected, authorities are 
notified and provided with information as to agent type, time and 
location of ``hot'' samples, estimated aerosol concentrations, hazard 
zones, and medical case load estimates. To ensure that BASIS supports 
real-world operational needs, it is being developed in close 
cooperation with the public health agencies (Federal, state, and local) 
responsible for emergency response and medical operations in the event 
of a bioattack. It was successfully field tested at Salt Lake City in 
March 2001 and is planned to be ready for deployment in 2002
    Nuclear Explosion Monitoring. Livermore has provided seismic 
research expertise in support of nuclear explosion monitoring for more 
than 40 years. The U.S. needs to be able to detect, locate, and 
identify nuclear explosions of any yield, anywhere in the world, under 
a wide range of possible evasion scenarios. Worldwide monitoring at the 
required level of sensitivity requires, in turn, a detailed 
understanding of the propagation of signals (radionuclide, optical, 
electromagnetic, seismic, acoustic) that differentiate a nuclear 
explosion from the enormous number of background nonnuclear events like 
mining explosions, earthquakes, and lightning strikes.
    Livermore's contribution to the current program is the development 
of ground-based nuclear explosion monitoring capabilities in regions of 
concern (e.g., Middle East, North Africa, Russia, Korea penisula). We 
develop databases, methodologies, algorithms, software, and hardware 
systems for the Air Force Technical Applications Center (AFTAC) for 
their use in collecting and interpreting seismic, acoustic, and 
radionuclide data. A critical deliverable is the knowledge base which 
provides regional propagation path corrections to the event processing 
algorithms in AFTAC's analysis pipeline. This knowledge base is 
expanded and enhanced as new monitoring stations come on line and are 
calibrated and as new data and interpretations become available. This 
past year, we delivered to AFTAC parameter sets covering the Middle 
East and Southwest Asia. The focus of our current work is on the 
European Arctic, including the test site at Novaya Zemlya.
    Verification and Transparency. The nuclear science and radiation 
detection technology base resident at Livermore and the NNSA nuclear 
complex is key to agreements with Russia to reduce the danger from 
nuclear weapons. During the past decade, the U.S. and Russia have 
engaged in negotiations on such issues as shutting down plutonium-
producing reactors, monitoring nuclear stockpiles, and mutual 
inspections of material declared excess to defense needs. The sticking 
point in all of these negotiations is the need to measure attributes of 
classified objects while preventing the disclosure of sensitive weapons 
design information.
    At Livermore, we conduct R&D to develop novel radiation detection 
instrumentation, data interpretation algorithms, information barriers, 
and monitoring procedures for use by U.S., Russian, and IAEA inspection 
personnel. A prototype detection system, employing our information 
barrier and autonomous shutter, was successfully demonstrated to 
Russian technical and security personnel at the Fissile Material 
Transparency Technology Demonstration, held in August 2000 at Los 
Alamos. Such demonstrations play an essential role in negotiations, 
building confidence among the various parties and educating negotiators 
as to what monitoring technology can and cannot do.
Cooperative U.S.--Russian Programs
    Cooperative U.S.-Russian programs overseen by NNSA consist of an 
integrated set of activities to secure at-risk nuclear material in 
Russia, dispose of excess highly enriched uranium and plutonium, and 
assist in downsizing the Russian nuclear weapons complex. These 
programs draw on the technical capabilities of the Laboratories in 
areas such as verification and transparency. The programs have been 
extensively reviewed by various panels and committees and continue to 
receive significant attention. Here I would like to highlight some of 
the accomplishments and issues of these cooperative programs.
    Material Protection, Control, and Accounting. For the MPC&A 
Program, Livermore specializes in vulnerability assessment, gamma 
spectroscopy, access control and security system integration, and 
information systems. We lead the MPC&A project teams for the Federal 
Information System, various Russian Navy projects, Chelyabinsk-70, 
Sverdlovsk-44, Bochvar Institute, and Krasnoyarsk-45 and provide 
project support for an additional seven site teams. Of the various DOE 
laboratories involved in the MPC&A program, Livermore is unique in its 
role with the Russian nuclear navy and nuclear-powered icebreaker 
fleet. Since the work began in 1997, MPC&A upgrades for the four 
nuclear refueling ships have been completed and commissioned, two in 
1997 and two more in 2000.
    The work at the Russian Navy facilities has been some of the most 
successful of the MPC&A program. Success is attributable to the 
combination of a highly focused user (the Russian Navy), an excellent 
subcontractor and system integrator (the Kurchatov Institute), and a 
highly trained team of NNSA and national laboratory personnel that has 
built an excellent working relationship with the Russian personnel, 
facilitating efficient problem solving and rapid system implementation. 
The success of this approach has resulted in an agreement between NNSA 
and the Russian Navy to expand MPC&A cooperation to include nuclear 
weapon storage sites. Work at a number of these sites is underway and 
meeting with the same success as previous activities with the Russian 
Navy, however, the funding for this work is being cut by nearly $40 
million in fiscal year 2002 (a reduction of 50 percent), slowing these 
very important risk-reduction efforts.
    Plutonium Disposition. Program direction for the disposition of 
U.S. and Russian surplus plutonium is undergoing review by the National 
Security Council. Both the U.S. and Russia have agreed to dispose of 34 
metric tons of plutonium, but the path forward is complex technically, 
politically and economically. The U.S. has adopted a dual track 
approach in its plutonium disposition program that includes fabrication 
of mixed uranium/plutonium oxide (MOX) fuel to burn plutonium in 
nuclear reactors and immobilization of impure plutonium in a ceramic 
matrix for long-term geological disposition. Livermore has led the 
national plutonium immobilization program, which is responsible for 
disposing of 13 metric tons of impure plutonium that otherwise might 
end up as orphan material. This past year, we completed testing of the 
can-in-canister and finished the conceptual design report for the 
plutonium immobilization facility in preparation for the full facility 
design. We also completed testing of two highly-automated plutonium 
lines with plutonium surrogates and were scheduled to start testing the 
lines with plutonium this summer. The first line uses hydrogen in a 
hydride/oxidation process (HYDOX) to transform plutonium from a metal 
to an oxide powder. The ceramification line then combines the plutonium 
oxide with ceramic precursors to form, after cold pressing and high 
temperature sintering, a ceramic suitable for long-term geological 
disposition in the can-in canister.
    This month we were directed to suspend our immobilization 
activities, while maintaining the ability to restart at a later date, 
in response to fiscal year 2002 budget guidance and pending the results 
of the review mentioned earlier. I fully support a review of both the 
objectives of the program and its implementation costs. However, the 
difficulty of stopping and restarting such a complex developmental 
activity should not be underestimated.
Downsizing the Russian Nuclear Weapon Complex
    Downsizing the Russian nuclear complex is a high-priority U.S. 
national security goal. However, such downsizing will eliminate the 
jobs of thousands of Russian weapons workers. To accelerate the 
downsizing process, the U.S. and Russia have launched a cooperative 
program to create self-sustaining civilian jobs for displaced workers 
in the closed nuclear cities of Sarov, Snezhinsk, and Zheleznogorsk.
    Livermore leads the NNSA team working with Snezhinsk and its 
various civilian entities to develop commercial enterprises. In 
November 2000, the Strella Open Computer Center for commercial software 
development and scientific computations was commissioned. Former 
Ambassador Ronald Lehman, Director of the Center for Global Security 
Research at Lawrence Livermore National Laboratory, led the U.S. 
delegation for the official dedication.
    We are also leading a medical technology development project with 
the Avangard Electromechanical Plant (the equivalent of Pantex) at 
Sarov. In March 2000, contracts were signed by Livermore, the Avangard 
Foundation (the commercial element of the Avangard Electromechanical 
Plant at Sarov), and Fresenius Medical Care (the world's largest 
provider of products to individuals with chronic kidney failure with 
six production facilities in the U.S.) for the development of a 
manufacturing center at Sarov for dialysis machines and related 
products. In June, fences were moved to place the buildings needed for 
this facility outside of Avangard's high-security area. Eventually, 
this project will employ hundreds of former weapons workers in the 
production of dialysis equipment and treatment kits. This project 
represents a major milestone in U.S. government efforts to engage a 
Russian serial production facility.
New Secure Compartmented Information Facility
    I am very pleased that the second year of funding for Livermore's 
new secure compartmented information facility (SCIF) is included in the 
fiscal year 2002 budget proposal. We have provided technical and 
analytical support to the U.S. Intelligence Community since the late 
1950s. The Laboratory currently supports and collaborates with an 
extensive set of Intelligence Community agencies, including DOE's 
Office of Intelligence, the Defense Intelligence agency, The National 
Security agency, and the Central Intelligence Agency. Technology, 
together with the increasingly complex national security landscape, is 
changing the nature of intelligence work. Hardcopy report and film 
imagery are rapidly giving way to massive digital files, which require 
high-bandwidth connectivity and modern communications and computing 
systems to exploit, interpret, and disseminate.
    The new SCIF will enable us to take advantage of this digital 
revolution in the intelligence business, enhancing our contribution to 
the Intelligence Community. The new SCIF will also allow us to 
accommodate our expanding programmatic needs for SCIF space. Let me 
note that the $13 million provided in fiscal year 2002 is the minimum 
required to maintain the project's schedule and cost. Assuming that 
funding is provided as requested, Livermore's new SCIF will be 
completed by early 2004 at a total cost of $24.6 million.

                          INSTITUTIONAL ISSUES

    Laboratory Operations. Safety and security are prime considerations 
at the Laboratory, and both have received considerable management 
attention. In 2000, we implemented DOE's operational concept, 
Integrated Safety Management (ISM) and strengthened our commitment to 
safety in the workplace. Security at the NNSA laboratories was in the 
headlines in 1999 and 2000, 2 very stressful years. We have taken 
strong positive action on security and counterintelligence issues, 
whether they were anticipated or identified by us or were brought to 
our attention by others. Substantial progress has been made in many 
areas. We worked expeditiously to address all issues that arose in 
self-evaluations or resulted from inspections by the DOE Office of 
Security Evaluations (OSE). As an outgrowth of these efforts, we are 
now rated Satisfactory (Green) by DOE/OSE.
    Cyber security receives continuing attention because the rapid 
advance of technology constantly opens up new possible types of 
threats. We have addressed identified potential weaknesses in the 
security of some of our unclassified computer systems and we are 
proceeding to implement our cyber security strategy. Security 
improvements to keep pace with evolving perceived threats come at a 
cost, and in the absence of new funds, implementation of mandated 
upgrades have often been at the expense of other high priority 
programmatic work.
    Laboratory Personnel. Our national security programs are no more 
and no less than the people that comprise them. Over the years, 
exceptional scientists and engineers have been attracted to the 
Laboratory by the opportunity to have access to the world-class 
facilities, to pursue technically challenging careers, and to work on 
projects of national importance. Unfortunately, events over the last 2 
years have had a negative effect on the workplace environment. As noted 
in the ``30-Day Review'' of the Stockpile Stewardship Program of 
December 1999, morale and employee recruitment and retention are being 
impacted by new security requirements (e.g., restrictions on 
interactions with foreign nationals), by budget and program 
uncertainties, and by the reduction of resources that support 
innovative scientific inquiry. I have made workforce management and 
improvements in the workplace one of the highest priority issues for 
the senior management team at Livermore this year.
    In some respects the situation seems to be improving--or at least, 
not getting worse. Two positive developments are the extension of the 
Management and Operations contract with the University of California 
(UC) and the restoration by Congress of Laboratory-Directed Research 
and Development (LDRD) funding to the 6 percent level. The connection 
to UC is personally very important to many Laboratory employees and it 
greatly helps us in recruiting. LDRD funding, which provides scientists 
the opportunity to conduct innovative research aligned with our core 
missions is important to the vitality of Livermore and to the talented 
researchers that we need to attract and retain. We are also very 
hopeful that the national security reviews being conducted by the 
administration will lead to a strong reaffirmation of the importance of 
the Laboratory's work in maintaining the U.S. nuclear deterrent through 
stockpile stewardship and in developing technologies to reduce the 
threats posed by the proliferation of weapons of mass destruction.
    Predictability and stability in the budget would be very 
beneficial, and NNSA's 5-year budget planning will help in the long 
run. However, commitment is needed this year to stabilize the budget 
for critically important nonproliferation research and development 
activities and cooperative U.S.-Russian programs. Other changes being 
made at NNSA will clarify lines of communication and authority, which 
should help improve both overall efficiency and the work environment.

                            SUMMARY REMARKS

    The introduction of my testimony starts with an event-formal 
certification of the refurbished W87 ICBM, ``the first real test of 
stockpile stewardship.'' It is fair to say that ``we passed,'' but the 
test was not easy. As weapons continue to age, the tests will get 
harder and our capabilities to answer questions need to improve-better 
investigative tools to evaluate problems and certify performance, as 
well as efficient manufacturing capabilities. Acquisition of these 
capabilities is time urgent to meet existing requirements for weapon 
refurbishment and to deal with other weapon performance issues that 
might arise.
    As a consequence, there are many demands for resources for 
stockpile stewardship, which are putting the program under stress. The 
full scope of requirements on the Stockpile Stewardship Program will be 
better defined at the conclusion of ongoing national security reviews 
of the role of nuclear weapons and force requirements. Then the budget 
needed to carry out the necessary programmatic activities can be more 
clearly established.
    In the face of the challenges, we have many accomplishments to show 
for our efforts in addition to certification of the W87 warhead. 
Construction of the National Ignition Facility (NIF) at Livermore is 
now more than 50 percent complete, progress is outstanding on all 
technical fronts, and General Gordon provided certification of the NIF 
project and its baseline plans to Congress on April 6, 2001. The 
Accelerated Strategic Computing Initiative (ASCI) is central to many 
success stories. Last summer, we took delivery of ASCI White, the 
world's most powerful computer. This machine and ASCI Blue Pacific are 
supporting stockpile stewardship through a variety of applications, and 
we are earmarked to take delivery of our next ASCI computer in fiscal 
year 2004, a machine that will be capable of 60 to 100 teraops. These 
successes and others I could cite are evidence that the Stockpile 
Stewardship Program has greatly benefited from strong Congressional 
support and the dedicated efforts of the many people in the program. 
Additional support in fiscal year 2002 would help relieve a number of 
stresses that are arising as the program continues mature and face 
greater tests.
    I also urge your vigorous support for the program proposed by the 
Office of Defense Nuclear Nonproliferation and for the programs and 
initiatives of other agencies in the areas of WMD nonproliferation, 
counterproliferation, and counterterrorism. The enormity of the 
challenge cannot be overstated. Thousands of tons of nuclear materials 
are stored under questionable levels of protection at hundreds of sites 
across the former Soviet Union. The smuggling of nuclear materials is a 
continuing issue. Countries of concern show increasing evidence of 
their intention to acquire WMD and the means to deliver those weapons, 
and the threat of WMD terrorism continues to rear its ugly head.
    As with stockpile stewardship, the success of U.S. threat reduction 
efforts depends on R&D. With greater technical capabilities, the U.S. 
can better monitor compliance with arms-reduction and other agreements. 
Intelligence collection and proliferation detection have depended on 
successive generations of advanced technology to identify and interpret 
fragmentary clues buried amid enormous amounts of data and to overcome 
adversaries' increasingly sophisticated denial and deception about 
their WMD activities.
    Finally, I hope the summary presented earlier clarifies both the 
challenges and the critical contributions Livermore is making to 
reducing the threat posed by the proliferation of weapons of mass 
destruction. Sustained support for cutting-edge research and 
development at current funding levels at least is essential to counter 
the wide range of WMD threats.

    Senator Allard. Thank you for your statement. Now, Dr. 
Browne, the Director of the Los Alamos Lab.

    STATEMENT OF DR. JOHN C. BROWNE, DIRECTOR OF LOS ALAMOS 
                      NATIONAL LABORATORY

    Dr. Browne. Mr. Chairman, and members of the subcommittee, 
thank you very much for the opportunity to testify on our 
programs for the NNSA. I wanted to start by saying that Los 
Alamos National Lab has rebounded from the security incidents 
and the Cerro Grande fire last year with a lot of 
professionalism and, frankly, increased in strength as an 
institution.
    I'm very proud of our people. Throughout those episodes, 
they have continued to do their jobs and continued to be good 
public servants throughout that period.
    I would just like to make a few points. First of all, 
stockpile stewardship is a sound program. It's based on our 
scientific and engineering understanding of over 58 years of 
nuclear weapons development. It's been successful to date, 
something that sometimes people forget to consider, but it has 
been successful. It cannot be guaranteed that it will succeed 
indefinitely, but we feel very confident about how we're doing.
    However, my confidence in our ability to maintain the 
reliability of the weapons in our stockpile without nuclear 
testing is being impacted by several trends that we see. First, 
in terms of the aging of the weapons themselves in our 
surveillance program, which is a very important part of 
stockpile stewardship, we're learning more every year about how 
weapons age. Frankly, in some cases, they're not aging 
gracefully and that concerns us.
    We know that we must do these Stockpile Life Extension 
Programs (SLEPs) to address a lot of the aging problems. To do 
the SLEPs, we must have the manufacturing capability, which 
means we really need the plants to be in good shape, Y-12, and 
etcetera. But, we also have to recognize that Los Alamos and 
Sandia are heavily involved in manufacturing, something that is 
not always considered.
    It's plutonium pits at Los Alamos, but it's also tritium 
loading and the neutron generators that Dr. Robinson referred 
to earlier. We do beryllium manufacturing at Los Alamos and we 
do manufacturing of high explosive detonators for the 
stockpile.
    The second area of concern that I have has been mentioned 
several times throughout, so I'll be very brief. It's the 
deterioration of the infrastructure both at the plants, Y-12, 
etcetera, and the labs. We certainly support very strongly 
General Gordon's Infrastructure Revitalization Initiative. 
Without it, I'm afraid that we won't be able to do our job for 
the long term. We won't be able to do the manufacturing and the 
certification for the long term.
    Critical skills were mentioned earlier. It remains a 
challenge for all of us. We do see some positive signs, as 
General Gordon said--the new facilities and improvements in the 
infrastructure. Some new scientific equipment will help us, but 
it's going to be an area that we're going to have to continue 
to focus on to make sure that we have the skills to replace 
those of the people that leave our laboratories.
    The fiscal year 2002 budget does have some serious 
shortfalls across the board. We feel that the 5-year plan to 
which General Gordon referred is an excellent step to unwind 
this program. If you remember last year, or the year before, we 
talked about a program that was wound too tight. We think it is 
the direction in which to begin to unwind this program. We hope 
that Congress will be able to support that direction.
    Our highest priority at Los Alamos is pit manufacturing and 
pit certification. I want to explain, it came up earlier, pit 
manufacturing and pit certification are two separate 
activities, although they are coupled together by the nature of 
the fact that they involve the plutonium pit of the weapon.
    We are in the process of remanufacturing the capability to 
build more reserve pits for the Nation that were traditionally 
built at Rocky Flats and it has not been done since 1989. We 
are on schedule to deliver a certifiable pit in 2003.
    Senator Thurmond asked the question about what a 
certifiable pit is. It does mean, as General Gordon said, that 
we have developed all the processes involved in manufacturing 
the pit, of which there are over 100 processes. We have to make 
sure that we understand each of those processes so when I begin 
to build them one after another, they look the same, they 
perform the same, and they have the same characteristics. 
That's a certifiable pit.
    Ten years ago, at this point when you had a certifiable 
pit, we would have gone out to the Nevada Test Site and we 
would have blown it up and then it would have been certified. 
We can't do that anymore. So, now we have to take a scientific 
basis on which we can look at all of the various technical, 
scientific and engineering characteristics of that to make sure 
it's as equivalent as we can make it to a Rocky Flats-pit level 
of perfection.
    Certification is the most difficult challenge for stockpile 
stewardship in my opinion. It's never been done before. It 
requires computer simulations like ASCI that Dr. Tarter talked 
about. We are using the Livermore computers, as well as Los 
Alamos and Sandia computers. It requires a series of small 
tests, major laboratory tests with facilities like DARHT, and 
it requires Nevada Test Site's subcritical experiments.
    I want to mention one other concern that we have about the 
program budget as it's formulated right now. We're concerned 
about the rigidity of the program. We think it's developing a 
stranglehold on the NNSA and the lab's ability to manage the 
programs. The number of categories for managing this program 
was raised from 5 to 30 by Congress.
    Between the time when you formulate a budget 2 years ago 
and the time we execute it, the program changes and it requires 
reporting reprogramming at levels that are preventing us from 
actually getting our job done. We would like to recommend that 
the reprogramming authority increase for the NNSA from its 
current $5 million threshold to perhaps $15 million.
    Let me just conclude by saying we believe that the NNSA was 
and is the right step to ensure the success of the national 
security programs of this country. At Los Alamos, we are 
committed to supporting General Gordon in his attempt to really 
formulate the future for stockpile stewardship in a way that 
ensures the safety and reliability of the stockpile.
    Thank you very much. I appreciate the opportunity to make 
my remarks.
    [The prepared statement of Dr. Browne follows:]

                Prepared Statement by Dr. John C. Browne

                              INTRODUCTION

    Thank you for the opportunity to provide this statement on the 
status of Los Alamos National Laboratory, our national security 
programs, and budget needs. The Laboratory is one of three multi-
program scientific institutions supported by the National Nuclear 
Security Administration (NNSA) in the Department of Energy. The 
University of California manages Los Alamos, and our mission is to:

        <bullet> Ensure the safety and reliability of the U.S. nuclear 
        weapons stockpile
        <bullet> Reduce threats to U.S. security with a focus on 
        weapons of mass destruction
        <bullet> Provide technical solutions to national security 
        problems in energy, environment, infrastructure, and health.

                              KEY MESSAGES

    Los Alamos has rebounded with strength and professionalism from the 
unprecedented disrupting and damaging events of the last 2 years. I am 
extremely proud of the professional response of our people to these 
crises and of their commitment to serve the Nation through the mission 
of the Laboratory.
    The stockpile stewardship mission is one of the most difficult 
technical challenges this nation has ever attempted. Success cannot be 
guaranteed. My confidence in our ability to continue to maintain the 
reliability of the nuclear weapons stockpile is being seriously 
impacted by several trends:

        <bullet> Our nuclear weapons are past their design age and are 
        not aging gracefully. A long-term plan explicitly stating which 
        weapons are needed in the U.S. nuclear deterrent force must 
        guide the timing and priorities of the Stockpile Life Extension 
        Program as well as rebuilding the manufacturing capability to 
        produce weapons.
        <bullet> We are experiencing an unmitigated deterioration of 
        the infrastructure of the labs and plants in the nuclear 
        weapons complex. We strongly support General Gordon's 10-year 
        Facilities and Infrastructure Revitalization Initiative. 
        Without it, we will not be able to carry out either the 
        manufacturing or certification efforts for the stockpile.
        <bullet> We are concerned about recruiting and retention of the 
        staff with the critical skills needed for our mission. 
        Outstanding people can be attracted to the public service 
        nature of our mission and the technical challenges of the work. 
        However, improvements in scientific facilities and equipment 
        are needed to help us compete with private-sector recruitment.
        <bullet> The President's budget for fiscal year 2002 has 
        serious shortfalls to achieve all the requirements of the 
        Stockpile Stewardship Program. The overall direction of the 
        Stockpile Stewardship Program is sound. NNSA has made great 
        strides in its first year to develop needed policy, program and 
        organizational refinements. The Future Years Defense Program 
        (commonly referred to as FYDP) plan proposed by General Gordon 
        is a big step forward. This plan, if supported by the 
        administration and Congress, should help the program maintain 
        the safety and reliability of the stockpile through this 
        decade.
        <bullet> I wish to note that significant accomplishments were 
        achieved in the nonproliferation area, including development of 
        new systems for detecting proliferation of weapons of mass 
        destruction. The budget cuts outlined for the Nuclear 
        Nonproliferation and nondefense programs will have major long-
        term programmatic impacts and will cause serious disruptions in 
        our staffing.

    Our highest priority at Los Alamos is re-establishing the Nation's 
capability to manufacture plutonium pits, the heart of nuclear weapons. 
Los Alamos has built seven development pits and is on schedule to 
deliver a certifiable W88 warhead pit in 2003. We have developed an 
initial project baseline for certifying these pits for War Reserve use 
without nuclear testing.
    We continue to improve the Laboratory's operational performance. We 
are now applying integrated management methodology to safety, security, 
and project management. Despite the severe disruption resulting from 
security events and the fire, the Laboratory continued to improve in 
safety and to deliver on its manufacturing commitments.
    The Laboratory has rebounded from damaging events over the last 2 
years. Congressional support has been critical to helping us meet our 
mission, rebuild the Laboratory, and restoring our town after the Cerro 
Grande fire. Thank you!

                           LABORATORY STATUS

    Our excellent technical staff at Los Alamos National Laboratory 
continue their outstanding support of the Nation's security, although 
everyone at the Laboratory was and to some extent still is profoundly 
affected by the traumatic events of the last year. We are hard at work 
sustaining the nuclear weapons stockpile and helping with many of the 
Nation's most difficult technical national security problems. We have 
also refined our management processes to address lessons-learned from 
these events: the discovery of the unauthorized copying of classified 
information, the Cerro Grande fire in May last year, and misplacing 
hard drives containing classified data.
    In addition to the physical damage to the Laboratory, the fire 
disrupted Lab operations for months. Although most of the Lab was able 
to reoccupy work space and resume operations in June, some work areas 
were not immediately habitable or were declared permanently closed 
because of the threat of flooding from burned area rain runoff. The 
DOE, the Army Corps of Engineers, and other agencies with the strong 
support of Congress have expedited repair and remediation of fire 
damage. We are extremely grateful for prompt action.
    Rebuilding of the Los Alamos townsite, which suffered more damage 
than the Laboratory, has also been strongly supported. Project 
Recovery, which had strong participation from many quarters including 
the University of California, has helped to get our community back on 
track so that our people can again be fully productive.
    Your continued support of our mission will help me to keep 
rebuilding the confidence and strength of our workforce.

                            DEFENSE PROGRAMS

Stockpile Certification
    The stockpile stewardship mission, particularly maintaining the 
certification of nuclear weapons without nuclear explosive testing, is 
one of the most difficult technical challenges this nation has ever 
attempted. Success cannot be guaranteed. While I am confident of the 
current safety and reliability of the nuclear weapons stockpile, this 
confidence is being seriously impacted by several trends. The nuclear 
weapons in the stockpile are aging past their design lives. Indeed, our 
stockpile is aging in different ways than we anticipated at the start 
of the stewardship program. The nuclear weapons infrastructure needed 
to refurbish the stockpile, including facilities at Los Alamos, are 
deteriorating with age and have not been sufficiently maintained or 
revitalized to meet even our immediate needs. We are having difficulty 
retaining and recruiting qualified personnel. There is great demand for 
talent in science and technology, especially U.S. citizens. Funding 
continues to fall short of that needed for the stockpile stewardship 
mission. However, the Future Years Defense Program (FYDP) plan proposed 
by Gen. Gordon is a major step toward developing the much-needed plans 
and policies that support the stockpile.
    Our fifth annual stockpile assessment letter, signed in November 
2000, is supported by year-round activities for surveillance of 
stockpiled weapons--including destructive disassembly of a weapon for 
inspection and testing of components, and other less-intrusive 
inspection techniques. Experienced Laboratory personnel assess the 
safety and reliability of the weapons based on these surveillance 
findings and through a wide range of experimental and computational 
capabilities. I develop my assessment from their expert judgment and 
the documented condition of the weapons. This annual letter to the 
Secretary of Energy and the Secretary of Defense contains my 
assessment. The refurbishment of the stockpile is NNSA's response to 
these surveillance findings and assessments.
    To develop the certification capability needed as we get farther 
from the time when weapons were tested, we have continued to enhance 
our technical capabilities, including new experiments and simulation of 
weapon performance.
Infrastructure
    On March 13, I provided a statement on facilities and 
infrastructure needs to the Energy and Water Development Subcommittee 
of the Senate Appropriations Committee. From that statement I will take 
these summary points:
    The general run-down condition of facilities in the nuclear weapons 
complex has been noted recently in several reviews chartered by 
Congress and the administration. For example, the Chiles Commission 
identified the need to ``eliminate problems of maintenance of equipment 
and facilities, and modernization of equipment,'' in the context of 
enhancing recruitment and retention of a quality workforce. The Hart-
Rudman U.S. Commission on National Security wrote in January 2001 ``the 
physical circumstances in which lab professionals work have also 
deteriorated, in many instances, to unacceptable levels.''
    The Laboratory believes that there are three distinct areas that 
must be addressed to ensure infrastructure sustainability to meet our 
mission set. Those three areas include:

        <bullet> Implementing formal facilities consolidation and cost 
        reduction initiatives to reduce facility footprints, which in 
        turn reduces operating costs, and improves safety, security, 
        and scientific interactions;
        <bullet> Addressing unfunded high-priority facility maintenance 
        backlogs before they become expensive emergency repairs; and
        <bullet> Investing in new construction projects, where 
        appropriate and economically feasible, to ensure that the 
        Laboratory can meet programmatic mission needs over the next 20 
        to 40 years.

    These all require commitments to achieve positive results, but will 
realize return on investment through reduced operating costs 
(maintenance and energy) and increased technical productivity. In 
addition, each area addresses safety and security needs and allows 
Laboratory facilities to be sustainable over the next 20 to 40 years.
    The best way to ensure that the necessary reinvestment occurs in 
the facilities, infrastructure, and construction base is to provide the 
resources through a dedicated budget category. We strongly endorse the 
NNSA Facilities and Infrastructure funding initiative. We believe the 
top-priority construction projects must be completed to ensure that the 
NNSA complex has a safe, secure and reliable infrastructure to ensure 
that programmatic missions can be accomplished.
Accelerated Strategic Computing Initiative
    The NNSA Accelerated Strategic Computing Initiative (ASCI) has been 
a tremendous success in providing us with the needed computational 
tools to effect stewardship. We are making rapid advances in the 
ability to simulate nuclear explosions faster and with greatly 
increased detail. Computational models and codes under development 
allow us to investigate complex issues arising in the stockpile. These 
codes can accomplish phenomenal tasks, modeling asymmetric features 
such as cracks, gaps, bolts and fixtures that were previously 
intractable. It is absolutely necessary to be able to model these 
geometrically complicated details in weapons, and compare the 
simulations to relevant experimental data.
    Last year, Los Alamos completed the first-ever three-dimensional 
simulation of the explosion of a nuclear weapon secondary, 8 months 
ahead of schedule, using both the Los Alamos and Sandia ASCI computers. 
This accomplishment included the transfer of mammoth data files from 
Los Alamos to Sandia using the distance-computing component of ASCI. At 
Los Alamos, calculations are now run routinely on thousands of 
processors. Today, Los Alamos is running the first-ever three-
dimensional full-system simulation (primary and secondary) on the 12 
teraOPS (trillion operations per second) ASCI platform at Lawrence 
Livermore National Laboratory.
    Los Alamos also signed a contract with Compaq for the next 
generation ASCI-class computer at Los Alamos, called the ``Q Machine,'' 
designed to run at 30 teraOPS--which will be the largest and fastest in 
the world. Q Machine delivery starts this fiscal year. The construction 
of the Strategic Computing Complex (SCC)--the most modern in the 
world--to house the Q Machine and approximately 200 weapons scientists 
is a great project management success story for NNSA and Los Alamos. 
The SCC is progressing within schedule and budget. This modern facility 
features an uninterrupted computer floor the size of a football field 
surrounded by offices with high-speed secure communications links.
    As part of our leadership in high-performance technical 
supercomputing, computer science, and computational science, Los Alamos 
and Rice University have proposed a national center for computer and 
computational science research in the form of an Information Technology 
Laboratory in Santa Fe, New Mexico, that would be operated by Rice 
University.
Dual Axis Radiographic Hydrodynamic Test Facility
    An outstanding achievement in the last year was the application of 
the first axis (Phase I) of the Dual Axis Radiographic Hydrodynamic 
Test facility (DARHT) to stockpile-related hydrodynamic testing. This 
phase of DARHT was completed on time and within budget, has been 
commissioned, and is now giving us excellent, high-resolution data in 
support of stewardship. DARHT, and its still-capable predecessor 
PHERMEX, will be the key hydrodynamic test facilities in the next few 
years for maintaining stockpile certification as well as supporting 
stockpile refurbishment activities. DARHT is a great advance in 
capability, and will only get better as the second axis is completed 
and commissioned, and as we begin to image dynamic implosions with 
multiple temporal frames using both axes of the facility.
    Nevertheless, we do know that the capabilities of DARHT, advanced 
as they are, will still be insufficient to meet all of the anticipated 
challenges of stockpile stewardship. We know that two axes are 
insufficient to observe key three-dimensional features of weapons 
implosions. We know that we must observe the time evolution of the 
implosion--create a motion picture--to develop the all-important 
validated 3D ASCI codes to certify the stockpile in the future. The 
path to that capability has been demonstrated by proton radiography.
Proton Radiography and an Advanced Hydrotest Facility
    In the future, proton radiography (P-Rad) holds great promise for 
refined hydrodynamic testing of weapons, beyond the capabilities of 
DARHT, that will be sufficient to meet our most difficult stockpile 
certification requirements. The requirements for an Advanced Hydrotest 
Facility (AHF) could be met using proton radiography to make a very 
high-resolution motion picture of an imploding warhead made of 
surrogate nuclear materials with unprecedented detail. This will allow 
very high-fidelity comparisons with our computational models. We are 
presently developing proton radiography through dynamic (explosive) 
tests on small objects at the Los Alamos Neutron Science Center 
(LANSCE) and static tests on full-thickness assemblies at Brookhaven 
National Laboratory, confirming the extraordinary fine temporal and 
spatial resolution. The results of these small-scale dynamic tests are 
stunning in their resolution and detail and have already helped resolve 
real stockpile issues.
    AHF can provide a very powerful tool for maintaining stockpile 
certification without nuclear testing. Indeed, obtaining high-fidelity 
radiographic motion pictures of imploding surrogate warheads will be 
the next best means of probing weapons implosions, short of testing 
actual nuclear devices.
Subcritical Experiments
    Analysis of data from last year's subcritical experiments at the 
Nevada Test Site (NTS) has contributed substantially to my current 
stockpile assessment. Subcritical experiments are an important 
component of the Stockpile Stewardship Program since they test 
significant amounts of special nuclear materials (SNM) under implosion-
like conditions to measure materials properties. These nuclear-material 
assemblies remain below nuclear criticality. Subcritical experiments 
are essential to understanding implosion phenomena. We are doing 
development experiments and our next ``subcrit'' is scheduled for 
fiscal year 2002, with a full schedule of future experiments supporting 
certification.
Laboratory-Scale Experiments
    We know we do not know enough about the aging behavior of materials 
to confidently certify the stockpile for its projected extended 
lifetime. We use a wide range of laboratory-scale experiments on 
special nuclear materials and other weapons materials in our current 
stockpile assessment activities. These small-scale experiments also 
support fundamental design assessment and certification issues.
    An example is the study of chemical high explosives used to implode 
the weapon pit. Laboratory personnel must be able to predict how 
explosives will respond as they age, in extreme environments or under 
accidental impacts. Experimental work on high explosives done with 
proton radiography, neutron scattering, laser spectroscopy, and other 
means is leading to increased understanding of high-explosive 
performance that we will use to substantiate weapon safety and 
reliability. Los Alamos remains one of the few places in the world with 
full-spectrum capability for both high-explosive synthesis and 
experimental research.
    Our unique facilities, including LANSCE and special nuclear 
materials laboratories, have enabled more precise characterization of 
the fundamental properties of plutonium and other nuclear materials by 
static and dynamic neutron scattering, high explosive-driven dynamic 
experiments, use of diamond-anvil high-pressure cells, gas-gun and 
subcritical experiments, and other technologies. Last year, new nuclear 
data obtained from LANSCE were incorporated into weapons models, 
improving our understanding of the difference between computationally 
modeled performance and measured weapons yield from past NTS tests. 
This will ultimately lead to more accurate models that provide higher 
confidence in our prediction of weapon performance. These experiments 
yield information that will be used to strengthen and validate 
theories, models, and computer codes that will, in turn, be used to 
assess the condition of the stockpile.
Stockpile Life Extension Programs
    As stockpiled weapons age beyond their design lifetimes, which was 
nominally 20 years, the surveillance-assessment-response cycle that we 
use to sustain the nuclear weapons stockpile must grow to include 
weapon refurbishment. In fact, since the Nation currently has no plans 
to introduce new weapons into the stockpile, deployment of most 
existing weapons systems is expected to continue through 2040, 
resulting in 60-year service lives. The national program to refurbish 
aging nuclear weapons over several decades is known as the Stockpile 
Life Extension Program (SLEP). Findings from stockpile assessment 
activities are key to determining the SLEP refurbishment details and 
schedule required. Three Los Alamos-designed weapons, the W76, the B61, 
and the W80, have authorized refurbishment activities.
    Los Alamos contributes strongly to the SLEP through our 
manufacturing base. The Laboratory is the second largest production 
plant in the complex. The new Beryllium Technology Facility at Los 
Alamos will become qualified to make beryllium parts for weapons 
refurbishment late this year--the only such capability in the Nation. 
The Laboratory has delivered on its commitments to provide tritium-
loaded neutron sources to Sandia National Laboratories and detonators 
to the Kansas City assembly plant. Our professional and dedicated staff 
made the special efforts necessary to meet the detonator delivery date, 
which was close on the heels of the Cerro Grande fire, thus avoiding a 
delay in the national weapon refurbishment program. Los Alamos is 
meeting all of our manufacturing commitments.
    SLEP activities will span several decades of intense plant 
activities and will depend on experienced personnel and qualified 
facilities. However, the number of experienced personnel across the 
nuclear weapons complex is decreasing every year. National facilities 
and infrastructure are limited in capacity and are deteriorating as 
they age. Indeed, important elements of our capability have been 
degraded, diverted, or lost and must now be reestablished. We 
critically need a revitalized nuclear weapons infrastructure-personnel 
as well as facilities-at both plants and labs.
    Delay is not an option. The age of the stockpile and the 
deterioration of the infrastructure have already caught up with us. The 
decades-long job of refurbishing the stockpile is too much for the 
existing infrastructure capacity and capability. Further neglect will 
make the situation much worse. The SLEP workload must be leveled across 
the facilities to optimize plant capacity and availability and to 
minimize required investment. SLEP schedules must be coordinated across 
the weapons types in the stockpile to meet military requirements and to 
keep the weapons safe and reliable throughout their planned deployment. 
Moreover, additional money is required in order that Los Alamos 
continue to support W76 SLEP workloads while also having funding to 
properly share system information regarding the transfer of the W80 
SLEP to Livermore.
    It is important that the laboratories remain fully engaged in the 
care of the stockpile. Our people must learn from real systems to 
improve their capability to meet the challenge of maintaining and 
certifying the safety and reliability of these refurbished weapons 
without nuclear testing.
Pit Fabrication
    Our highest priority at Los Alamos is replacing the Nation's 
capability to manufacture plutonium pits, which are the heart of 
nuclear weapons. This capability was lost 12 years ago when the Rocky 
Flats plant was closed.
    One warhead type, the W88, has been selected as the crucial 
prototype for restoring the Nation's nuclear manufacturing capability. 
Steps taken include moving personnel previously employed at the Rocky 
Flats pit manufacturing plant and some of their manufacturing equipment 
to Los Alamos. In fact, we now have about 20 key people from Rocky 
Flats working at Los Alamos as part of our 220-person pit manufacturing 
team. With their expertise, we are recovering Rocky Flats fabrication 
processes and documenting them in detail.
    Seven W88 developmental pits have been fabricated in the Los 
Alamos's Plutonium Fabrication Facility (at Technical Area 55) for 
process development and qualification. These manufacturing processes 
will be formally qualified to the rigorous requirements necessary for a 
certifiable War Reserve W88 product. Pits made with the new processes 
will be more uniform and better documented than the pits now in the 
stockpile. We are on schedule to deliver a certifiable pit in 2003.
Pit Certification
    Pit certification may be the most difficult challenge of stockpile 
stewardship. Our pit certification program is designed to demonstrate 
that the implosion properties of the Los Alamos pits and the Rocky 
Flats pits are equivalent. We will execute the complex and broad 
spectrum of physics and engineering testing necessary to certify the 
Los Alamos W88 pit. The date at which a qualified W88 Los Alamos War 
Reserve pit will be ready to enter the stockpile has been delayed to 
2009. Let me explain this.
    The requirements of stockpile stewardship continue to mature, as is 
characteristic of highly technical, R&D-based, scientific programs. 
Last year the NNSA asked us to develop a revised project plan for pit 
certification. We have carefully examined all the requirements for pit 
certification and have refined our original plan and completed a new 
baseline. These were provided to the NNSA in the fall of 2000. This 
baseline includes our current best understanding of pit certification 
needs. The present estimated cost and schedule to certify the W88 pit 
has increased beyond our original 1999 projection which did not include 
contingency. I believe we now have a comprehensive and achievable plan 
that includes adequate contingency.
    The nation must have the ability to produce replacement pits. We 
are confident that we can produce qualified replacement pits under our 
project plan. Although pit fabrication is on track, the challenge we 
now face is to develop an official NNSA baseline for certification that 
can deliver a War Reserve pit and to obtain the funding needed to 
execute it. The resources needed to carry out the proposed baseline for 
pit certification are contained in the NNSA FYDP. I hope that once the 
defense policy reviews currently under way in the administration are 
completed, additional resources necessary to ensure the success of the 
pit certification program for the NNSA will be provided.
    Over the last year and a half, Los Alamos has implemented rigorous 
project management practices to the pit manufacturing and certification 
programs. Laboratory management, and myself personally, will 
intensively monitor execution of these projects assisted by internal 
and external reviews. We know well the importance of this program to 
the Nation.
Resources
    I am sometimes asked about whether the Stockpile Stewardship 
Program without nuclear testing will work in the long run, or even 
whether we are making the right kind of investments. My answer is that 
the program is solidly based on fundamental scientific principles and 
continues to evolve with our best understanding of what is and will be 
required to maintain the safety and reliability of the stockpile. While 
I cannot guarantee success of the program indefinitely nor avoid every 
exigency that might arise, the investments now being made are key to 
ensuring the safety and reliability of the stockpile.
    The success of the Stockpile Stewardship Program is more likely if 
the challenges have commensurate resources provided as laid out in the 
NNSA Future Years Defense Program (FYDP) plan. We need a long-range 
commitment to facilities and infrastructure re-capitalization, and 
funding for the advanced technologies and activities needed for pit and 
stockpile certification, and for reaching the computing performance 
goals laid out for ASCI. The FYDP accommodates most of the high-
priority needs of the program, including the National Ignition Facility 
and the beginnings of an Advanced Hydrotest Facility.
    Although we support accountability for resources and deliverables 
in the stockpile stewardship plan, we have concerns about the current 
budget and appropriations structure. Prior to fiscal year 2001, Defense 
Programs funds were appropriated in five budget categories. As a result 
of budget restructuring by the DOE and in appropriations, the 5 
categories have become 30. These narrowly defined accounts limit our 
ability to address changing programmatic priorities across the 2 fiscal 
years between budget formulation and program execution, ultimately 
making it more difficult for us to operate efficiently. Emerging issues 
such as those resulting from weapon surveillance findings as well as 
evolving institutional needs within a fiscal year, such as safety and 
security improvements, cannot be addressed in a timely manner under 
these constraints. Currently the reprogramming process with its $5M 
internal reprogramming limit severely constrains the ability of NNSA 
and the Laboratory to respond to compelling programmatic priority 
changes. We recommend returning to broader budget categories for 
appropriations, or raising DOE's reprogramming authority, or both. 
Resource and deliverable accountability to Congress can be accomplished 
through improved planning, project controls, and reporting 
requirements. I believe the NNSA FYDP will greatly help this situation.
    I look forward to your support toward these ends.

                 NONPROLIFERATION AND THREAT REDUCTION

Defense Nuclear Nonproliferation R&D
    Recent technical achievements in the Laboratory's nonproliferation 
and threat reduction programs continue to enhance the Nation's 
capability to deter, detect, and respond to evidence of proliferation 
or deployment of weapons of mass destruction (WMD). Despite the vital 
national security capabilities supported through NNSA nonproliferation 
and verification R&D, this program is facing significant cuts in the 
administration's fiscal year 2002 budget. These cuts will prevent the 
development and implementation of new technologies that will allow the 
Nation to stay ahead of evolving threats.
    Detecting nuclear explosions, a key component of the program to 
support treaty monitoring, has seen major deployment successes of Los 
Alamos systems this past year, including a network of ten infrasound 
units fielded to a remote site and the launch of a combined x-ray 
dosimeter (CXD) sensor onto the GPS constellation. This sensor can 
detect x-ray emissions from nuclear explosions and x-ray bursts from 
solar phenomena that can disrupt communications. Los Alamos also 
recently upgraded the seismic knowledge base for AFTAC to improve 
monitoring of nuclear explosions in Asia.
    Activities in proliferation detection in the past year include the 
successful launch of the Multispectral Thermal Imager (MTI), a joint 
effort with Sandia National Laboratories and Savannah River Technology 
Center. Los Alamos operates the Data Processing and Analysis Center for 
this instrument to provide images to government and civilian agencies 
for nonproliferation and environmental applications. Los Alamos has 
also successfully field-tested the remote ultra low-light imager 
(RULLI). Los Alamos has developed and transferred to agency users a new 
data analysis method called GENetic Imagery Exploitation (GENIE) for 
scanning image data sets for indication of WMD production.
    The Chemical and Biological National Security Program element is 
developing technologies that address the bioterrorism threat through 
early detection. The Biological Aerosol Sentry and Information System 
(BASIS) Domestic Demonstration and Application Program (DDAP) provides 
early warning of airborne biological incidents for special events such 
as large assemblies and high-visibility meetings. Planned for use in 
civilian settings, it will detect a biological incident within a few 
hours of an attack, early enough to mount an effective medical 
response. Los Alamos is also developing an optical biosensor for the 
rapid detection of toxins and pathogens that might be used by 
terrorists. This sensor provides ultra-sensitive pre-symptomatic 
detection of pathogens or infectious agents in the environment, is 
adaptable to detect multiple agents, is convenient enough for use by 
emergency first responders, and has exchangeable sensor elements for 
reuse.
Russian Programs
    In the early 1990s several programs were initiated to deal with the 
threat of dispersal of Former Soviet Union (FSU) nuclear weapons, 
weapons materials, and technology. Today the US, with support from the 
National laboratories, is engaged with Russian and other FSU institutes 
to protect and to reduce the amounts of nuclear materials and the size 
of Russia's nuclear complex.
    The DOE's Materials Protection, Control and Accountability program 
(MPC&A) is securing nuclear weapons materials at defense facilities 
throughout Russia, to date resulting in significant security 
enhancements for 70 percent of the nuclear materials at Russia's 
Ministry of Atomic Energy (MINATOM) locations. Los Alamos' expertise in 
nuclear measurements and computerized accounting systems has been 
transferred successfully to several Russian nuclear sites.
    The fissile materials disposition program is designed to eliminate 
excess nuclear materials from the U.S. and Russian weapons programs. 
Los Alamos has developed an environmentally friendly process called the 
Advanced Recovery and Integrated Extraction System (ARIES) which 
converts weapon pits into a form suitable for burning in conventional 
nuclear power reactors. ARIES has been selected as the basis for an 
industrial-scale conversion plant to be built at Savannah River, which 
will convert tons of excess U.S. weapon plutonium into non-weapon form. 
We are working with Russian experts to develop a comparable method for 
their use.
    Under the DOD's Cooperative Threat Reduction (CTR) program, a 
secure storage facility is under construction at Mayak in Russia to 
store fissile material no longer needed by Russia's nuclear weapon 
program. Technical measures are being developed to ensure that nuclear 
materials arriving at the site, in fact, come from the Russian nuclear 
weapon program.
    Los Alamos has also been instrumental in implementing programs to 
convert the vast Russian nuclear infrastructure to civilian pursuits. 
Hard evidence of the success of these programs include (1) The Open 
Computing Center at Sarov provides a pathway for commercialization of 
Russian nuclear scientist talent in computer science and applications 
and now employs 100 former defense workers with plans to increase that 
number to 500 by 2005; and (2) Moving the security fence at the 
Avangard nuclear production facility to provide more access to existing 
buildings, converting 500,000 square feet into non-defense work.
Critical Infrastructure/Homeland Defense
    Los Alamos programs in threat reduction also include efforts to 
counter domestic terrorism and provide for defense of the homeland. One 
of the most significant efforts is aimed at understanding the 
interdependencies of the Nation's critical infrastructure, an outgrowth 
of the Lab's expertise developed in metropolitan travel forecasting 
with the Transportation Analysis and Simulation System (TRANSIMS). Los 
Alamos is a charter member of a broad initiative, the National 
Infrastructure Simulation and Analysis Consortium (NISAC), that will 
provide a decision-support environment for government and industry 
decision-makers in the areas of infrastructure policy, education, 
planning and assessment, and crisis response. NISAC is well positioned 
to provide the technical support function for the principal 
coordinating agency for national security involving critical 
infrastructure protection.
    The NNSA labs are also expanding our partnership with the DOD for 
ballistic missile defense. The laboratories are providing innovation 
and technical assistance in the areas of boost-phase intercept, mid-
course discrimination of countermeasures, modeling and simulation to 
support acquisition and planning methodologies, advanced kinetic kill 
vehicles, and testing and evaluating component designs. We expect this 
cooperative partnership to grow significantly in fiscal year 2002 and 
beyond.

                   STRATEGIC AND SUPPORTING RESEARCH

    Effective execution of the Laboratory's national security tasks is 
enabled and supported by including a broad range of activities in basic 
science and technology. This was wisely recognized by Congress when 
Mission 6, ``To support United States leadership in science and 
technology,'' was included in the NNSA charter (PL 106-65). I will 
illustrate the value of these activities with a few examples of recent 
achievements.
    The first I will cite--only briefly because it is already described 
above-is proton radiography. The personnel and enabling technology came 
from our work supported by the DOE Office of Science and had an 
incubation period helped by Laboratory Directed Research and 
Development (LDRD). This very brief mention should not leave unstated 
the importance of proton radiography to the future of Stockpile 
Stewardship Program and the high level of synergy between basic and 
defense sciences that brought it into practice.
    The second example I will cite is quantum information technology. 
Los Alamos is helping lead development of the use of information bits 
at the quantum (atomic) level for computing and information security. 
These technologies are truly revolutionary and appear to be on track to 
enabling new frontiers in computing power and communications security. 
Again, the people and the technologies came largely from Office of 
Science-supported programs.
    My final example is from the Human Genome Project. Hardly any 
Laboratory program has had a longer history of contributing to both 
civilian and defense needs. Many of the advancements in genomics that 
fill the newspapers had origins in, and continue to receive benefit 
from, DOE-supported biological research. Application of bioscience in 
the nonproliferation and threat reduction programs is already 
widespread, helping protect the Nation from bioterrorism and the threat 
of biological weapons of mass destruction.

                                STAFFING

    A major issue facing the NNSA Laboratories and addressed by the 
Chiles Commission is attracting and retaining the personnel needed to 
meet our future missions. Two facts that give us concern are the age 
distribution of our technical staff, averaging 47 years, and the ages 
of the weapons designers, averaging 54. Recruiting and retaining 
outstanding personnel must now be considered one of our most serious 
and persistent management challenges.
    Los Alamos has several programs to strengthen our human resources. 
With Lawrence Livermore National laboratory, and as part of the 
University of California contract with NNSA, we are in the process of 
developing collaborative 5-year staffing plans to address recruiting, 
retention and training issues supporting the nuclear weapons program. 
Los Alamos has developed several recruiting incentive programs 
including hire-on bonuses, employee referral bonuses, pay incentives 
for ``hot skills'' like computer science, and an enhanced relocation 
package. Los Alamos has established recruitment ``pipelines'' by hiring 
students to introduce them to the work of the Laboratory.
    Our postdoctoral program attracts outstanding scientists and 
engineers with recent Ph.D. degrees to participate in cutting-edge work 
with Laboratory researchers. Many of these ``post docs'' prove 
themselves to be valuable researchers and we invite them to make their 
career at the Laboratory. Over our history the Los Alamos mission has 
been greatly enriched by these wonderfully talented young researchers.
    However, the number of LDRD-supported postdoctoral employees at 
LANL was down 38 percent in fiscal year 2000, because of the LDRD cut 
as well as the reduction in qualified applicants, discouraged we assume 
by the flood of negative publicity. The total number of post docs at 
LANL is still down by 25 percent in fiscal year 2001 but appears to be 
returning to previous levels. Continued involvement in basic science 
programs, especially with the flexibility afforded through LDRD, is 
essential to Los Alamos in recruiting postdocs. Authorization of 
another, more direct mechanism to support strategic hiring, such as a 
salary pool funded through an additional 1 percent in Lab overhead, 
might be considered by NNSA and Congress.
    Our proposed Information Technology Laboratory (ITL) in Santa Fe 
will be an effective recruitment and retention tool. Managed in 
collaboration with Rice University, the ITL will be a national focus 
for computer and computational science. Coupled with our world-class 
ASCI computing facilities and our engagement in the most challenging 
technical problems in the world, this will attract outstanding faculty 
and students from the university community who will have a rich 
opportunity for collaboration with Laboratory staff.
    We remain troubled over possible impressions that the NNSA 
Laboratories have an unfavorable employment atmosphere, particularly as 
seen by some in the Asian-Pacific Islander community. Although the DOE-
IG did not find evidence supporting this concern, we are working to 
correct this impression and to ensure fair treatment for everyone.
    Tight funding overall exacerbates the problem of staff 
revitalization. The funding levels in the President's fiscal year 2002 
budget request will not allow Los Alamos to bring in new scientists and 
engineers who are needed to take over the responsibilities from senior 
people as they move on and retire. We look forward to the Hamre 
Commission findings and advice on maintaining leadership in science and 
security.

                         OPERATIONAL EXCELLENCE

    The nation expects its national laboratories to execute their 
missions with a high level of operational excellence. Los Alamos 
strongly supports that expectation. Our work should be conducted with 
the utmost care for the safety and fair treatment of our workers and 
the public, respect for the environment, protection of national 
security information, and effective use of taxpayer-supported 
resources.
    The January 2001 decision by the DOE to extend the Management and 
Oversight (M&O) contract for the Laboratory with the University of 
California (UC) included new provisions designed to enhance operational 
excellence. Achievements in this area, such as illustrated below, were 
important in that decision. Continuation of the contract was very 
welcome news to the Laboratory staff, who worked hard to realize these 
improvements. Safety
    Los Alamos has reduced its Occupational Health and Safety 
Administration (OSHA) Lost Workday Case Rate (LWC) by a factor of four, 
from an LWC of 4 per 200,000 work-hours in 1996 to an LWC of 1 today. 
Even the Cerro Grande fire, which subjected the Laboratory to emergency 
conditions for over 2 weeks, did not cause our LWC or injury rates to 
jump. LWC is a standard OSHA metric of days per year lost to on-the-job 
illness or injury. We are now equal to best-in-class rates among 
comparable U.S. industries.
    We did this by adopting a new approach in 1996, Integrated Safety 
Management (ISM), a system that fully engages the workforce from top to 
bottom in taking individual responsibility and initiative for safety.
    Although the trend is favorable, we recognize that safety incidents 
at Los Alamos, especially in our nuclear facilities, can be very 
visible. Since setting clear and challenging goals is well received at 
this Laboratory, I have set a goal to cut LWC by half, to 0.5, in 2 
more years. Achieving this goal will make us best in class for R&D 
organizations worldwide. We will add other metrics to help improve our 
safety performance.
Nuclear Facility Operation
    The UC M&O contract extension requires us to engage outside 
expertise in nuclear facility operation. Therefore, Los Alamos has 
already awarded agreements to BWX Technologies and Westinghouse 
Government Services Company. Both companies have experience operating 
nuclear facilities for DOE. The companies will help the Laboratory 
improve its operation of nuclear facilities, including the Plutonium 
Facility, Chemistry and Metallurgy Research facility, and critical 
experiment facilities.
Security
    As with safety, everyone must pull together for the institution to 
be successful in security performance. In fiscal year 2000 we launched 
the Integrated Safeguards and Security Management (ISSM) program, which 
actively engages the entire workforce to integrate security into all 
work practices. Security awareness is up and security incidents are 
down compared with last year.
    A key element of the safety and security programs is to ensure that 
every worker is trained in these responsibilities. To ensure that 
security training is kept current, the security area badge system will 
now automatically reject entry for anyone whose required training has 
lapsed.
    Secure work habits are fostered in a secure environment with the 
right tools for the job. We have strengthened the security environment 
in X Division by upgrading weapons designer workspace to a security 
exclusion area, involving additional access controls. Security vault 
access procedures have also been strengthened. Classified media 
accountability has been implemented, with over 65,000 items bar-coded. 
We are piloting an automated accountability system to track and 
inventory classified media.
    Making satisfactory progress in security was an important element 
in DOE's decision to extend the M&O contract with UC. To provide 
additional expertise and meet requirements in the contract extension, 
UC has already engaged the Aegis Research Corporation to help with 
safeguards and security.
    We remain concerned over the balance of effort and resources 
directed toward physical security versus cyber security. We think that 
a risk-based approach would direct more resources, around one-quarter 
of the total security budget, to cyber security. The cyber security 
funding proposed in the NNSA FYDP would provide the resources necessary 
for future program success.
Project Management
    Laboratory organizational changes have strengthened project 
management, with visible results. About 40 projects ranging from a few 
million up to $165 million as the largest, such as the Strategic 
Computing Complex (SCC) construction, are in a formal project 
management system that provides detailed management and reporting tools 
and the training to implement them.
    For reporting to upper management, the system provides project 
performance scores in four general categories. We then direct special 
attention to projects as necessary based on these scores, including 
regular reviews by my senior management team and myself. Important 
projects that this system has helped make successful include DARHT 
Phase I, the Strategic Computing Complex, Accelerator Production of 
Tritium, the Atlas pulsed-power machine, the Los Alamos Spallation 
Neutron Source subproject, and the Beryllium Technology Facility.
    Our project management system was put in place following 
recommendations from an external panel of experts appointed to review 
Laboratory project management. For continued outside advice and to meet 
requirements in the UC M&O contract extension, UC has already awarded 
an agreement to Parsons Infrastructure and Technology Group for project 
management expertise.
Cerro Grande Fire Funds
    Over $1 billion worth of fire and flood vulnerabilities were 
identified in the community and the Laboratory after the Cerro Grande 
Fire occurred in Los Alamos County and surrounding area in May 2000. 
With the help of Congress, the Cerro Grande Rehabilitation Project was 
developed and funded at $342 million in fiscal year 2000 and 2001 to 
address the Laboratory's most urgent needs.
    The Cerro Grande Rehabilitation efforts are being managed as a 
formal project, with baselines, reporting, and change control. Work 
scope includes: procuring Laboratory equipment that was lost during the 
fire; replacing Fire Department equipment and vehicles; repairing 
buildings; implementing erosion controls and flood controls; and 
addressing other vulnerabilities that resulted from the fire. The 
project is also executing several line item construction projects 
including: a new Emergency Operations Center (EOC), two small office 
buildings, replacement of critical portions of the Laboratory Site-Wide 
Fire Alarm System, installation of a Multi-Channel Communications 
System, addressing damages that occurred to the DARHT project, and 
addressing vulnerabilities at LANL's solid and liquid waste operations 
facilities.
    The initial Cerro Grande funding was received at LANL in August 
2000. The line item construction projects, which total approximately 
$100 million, are being baselined. The costs and commitments as of 
March 31, 2001 are $84.3 million.
    The Laboratory is extremely grateful for this support from the 
administration and Congress.
Land Transfer
    Transfer of surplus Los Alamos site DOE lands to local governments, 
directed by Congress in 1998, will cost approximately $3 million per 
year over 5 years for environmental and archeological work. Direct 
funding at that level, rather than $1.9 million as proposed in the 
President's Budget, will facilitate timely completion without adding to 
the burden carried by other programs.

       OVERALL BUDGET OUTLOOK AT LOS ALAMOS FOR FISCAL YEAR 2002

    One of the topics we have been asked to address for this hearing is 
the budget situation at our specific institution. Let me preface my 
comments by noting that I limited hiring at the Laboratory during 
fiscal year 2000 in anticipation of possible changes that might occur 
as the result of a transition to a new administration. This strategic 
hiring program allowed us to hire essential people needed for our key 
mission activities but restrained hiring in other areas. This will 
soften any employment disruptions that could occur as a result of 
budget decisions made for fiscal year 2002.
    I should also caveat my comments by noting that there are many 
steps ahead where Congress and the administration can revise the fiscal 
year 2002 numbers, particularly resulting from policy reviews of the 
Nation's defense policy and its nuclear weapons posture.
    Let me now state the current budget picture as we see it for Los 
Alamos National Laboratory for fiscal year 2002. In the Stockpile 
Stewardship Program, the President's Budget should cover the inflation 
costs of the program at the Laboratory. Within that program, we hope to 
be able to avoid a reduction in force, but programmatic delays and 
personnel transfers among programs are likely.
    In the Defense Nuclear Nonproliferation programs, the picture is 
more troubling. The Los Alamos share of the cuts proposed in the 
nonproliferation R&D and Russian programs could place the jobs of up to 
approximately 100 employees in jeopardy due to lack of funding. It is 
our hope that once the policy reviews of the new administration are 
completed, both the administration and Congress will agree to budget 
adjustments that would support this program adequately.
    The reductions in the Environmental Management Program for fiscal 
year 2002 could lead to a reduction of approximately $25 million in the 
Los Alamos program. This could impact Los Alamos employment, contractor 
activities, and slow the pace in cleaning up old waste sites. This is 
of considerable concern to the Laboratory, our neighbors in Northern 
New Mexico and to the State of New Mexico Environment Department. We 
have worked with all parties to reach an agreeable cleanup schedule. 
That is now jeopardized by the proposed cuts.
    These cuts are also likely to delay the shipments of waste from Los 
Alamos to the WIPP site in Carlsbad, New Mexico. Our goal was to 
accelerate from 6 shipments per week to between 12 and 14, but this 
probably will not be possible under the proposed budget. We would much 
prefer to move to the accelerated schedule. The wastes are much better 
cared for by being thousands of feet below ground than on the surface 
at Los Alamos.
    In the science and energy programs the size and impact of 
reductions to Los Alamos programs are less clear at this time and may 
change as the fiscal year 2002 budget evolves. The Office of Science 
receives essentially flat funding (with no inflation adjustment), but 
some programs within that office receive cuts that we hope will be 
reconsidered. For example, the Biological and Environnmental Research 
(BER) programs receive a reduction of $50 million, or 10 percent at the 
same time that the National Institutes of Health receive very 
substantial increases. There are national security programs that rely 
on the capabilities of the BER program. These would be harmed if the 
reductions are not reversed.

        NATIONAL NUCLEAR SECURITY ADMINISTRATION REORGANIZATION

    The witnesses today have been asked to comment on the National 
Nuclear Security Administration's reorganization put forward in March. 
The Laboratory Directors had the opportunity to discuss organizational 
issues with Gen. Gordon in sessions prior to the announcement of his 
plan. I will provide any assistance Gen. Gordon requests as he 
continues to develop the organizational structure of NNSA. I am very 
hopeful that the changes announced in March will address some of the 
fundamental organizational issues of the new administration.
    The NNSA leadership has established streamlining of functions as 
one of its goals. I am confident that the two new associate 
administrators--one for facilities and operations and another for 
management and administration--will facilitate communication, 
assignments of responsibilities, and decision making.
    Gen. Gordon's plan also provides additional and strengthened venues 
for external liaison and communication, including an external review 
group, weekly telephone conferences, a management council, and a 
revitalized Nuclear Weapons Council. The Management Council will be 
able to emphasize the integration and synergy that is needed throughout 
the NNSA. His belief that the Nuclear Weapons Council must be 
revitalized as a mechanism to get improved agreement between the 
Department of Defense and the Department of Energy has our strong 
support.

                           CONCLUDING REMARKS

    In conclusion, I will repeat that the Stockpile Stewardship and 
Nonproliferation programs continue to work, but the loss of human 
resources and failure of infrastructure threaten our continued ability 
to perform critical tasks. With support from Congress, the NNSA can 
turn this situation around:

        <bullet> General Gordon has developed a Future Years Defense 
        Plan (FYDP) to bring national security requirements and 
        resources into alignment. This requires strong congressional 
        support.
        <bullet> The plan includes re-capitalization of the 
        infrastructure needed to execute the assigned mission. Without 
        this, the programs cannot succeed.
        <bullet> Attention must also be given to attracting and 
        retaining outstanding people through broad engagement in the 
        world of science and technology, as recognized in NNSA's 
        Mission 6. This means that the laboratories must be able to 
        participate in the science programs outside of the NNSA, 
        particularly those sponsored by DOE's Office of Science.
        <bullet> Attention should be directed to security and cyber 
        security to ensure that the requirements are appropriate and 
        the resources are commensurate.

    Finally, I will say that, past and present difficulties 
notwithstanding, we are hard at work in the NNSA and are meeting our 
assigned tasks to the best of our abilities. I believe strongly that 
there is no more competent and dedicated group of people for these 
tasks than can be found in the NNSA laboratories and production plants.

    Senator Allard. Thank you, Dr. Browne. Now, we have Mr. Joe 
Buggy, President of Westinghouse Savannah River Company, at the 
Savannah River Site. Welcome.

    STATEMENT OF JOSEPH J. BUGGY, PRESIDENT OF WESTINGHOUSE 
                     SAVANNAH RIVER COMPANY

    Mr. Buggy. Thank you, Mr. Chairman. It's a pleasure to be 
here. At Savannah River Site (SRS), our primary defense-related 
NNSA missions are tritium production, when the projects that 
General Gordon mentioned are completed, providing tritium-
loaded reservoirs for the stockpile, and participating in 
surveillance testing for stockpile components, primarily 
tritium reservoirs.
    We also supply technical support and design support for the 
future pit manufacturing capability. At Savannah River, we 
currently have two major projects, line items underway 
supporting these programs. That's the Tritium Modernization and 
Consolidation Project (TMCP) as well as the Tritium Extraction 
Facility (TEF).
    I'd just like to say all of those programs are progressing 
very well today on-budget, on-schedule and things are going 
well for those missions at Savannah River.
    We also support the nonproliferation program in that 
Savannah River is the site selected for the three plutonium 
disposition facilities, pit disassembly and conversion, MOX, 
and possibly plutonium immobilization. We're working with the 
Department of Energy on those facilities as well.
    Savannah River is somewhat unique. All of the missions I 
just described are NNSA missions, and yet the services to 
support them are provided by the Department of Energy's 
Environmental Management Program (EM). The Environmental 
Management Program is the landlord at Savannah River Site. As 
such, the operation's manager at Savannah River reports 
directly to the Assistant Secretary for Environmental 
Management.
    We have senior NNSA officials, one designated each at the 
present time from defense programs and one from the nuclear 
nonproliferation. These individuals report directly into 
Department of Energy headquarters.
    There's a strong need for integration among these programs 
and consistency in terms of the way our site does business. 
From my perspective, I know that these program officers 
recognize that and are working very well together to accomplish 
that.
    The proposed organizational structure that General Gordon 
mentioned earlier will ultimately provide a single point of 
contact for NNSA at Savannah River Site and that will work even 
better as we'll have a single focal point for programmatic, 
technical and budget direction.
    The proposed budget, the Defense Program's budget for 
Savannah River Site, is $234 million. This funding is 
sufficient to execute the core stockpile stewardship mission 
and to maintain progress on those two important line items that 
I just mentioned.
    The budget is, however, approximately $19 million short of 
the Defense Program requirements. That's attributable primarily 
to three things. One was an unclaimed pension contribution 
requirement. One was a loss of approximately $9 million in 
infrastructure support. One will be a cost increase to the 
Defense Program of approximately $7 million due to shifts in 
overheads from the Environmental Management Program to the 
Defense Program's program.
    In fact, the interconnection between DP and EM at SRS is a 
very important consideration. While NNSA has supplied its 
required level of support, and NNSA is only a small part of the 
landscape at Savannah River, there will be a negative impact on 
the site's overall capability in light of the severe budget 
problems that we face in the Environmental Management budget.
    I won't go into the details with this committee on the 
Environmental Management budget, but we need to recognize that 
the NNSA support that we're going to be able to provide is 
inextricably linked to the Environmental Management support for 
site infrastructure and site overheads.
    I believe that the missions we are performing for NNSA are 
all going very well. I think that the primary needs for the 
stockpile stewardship will be met even at the reduced levels of 
funding that I just mentioned for Savannah River. Like the 
speakers before me, the major impact to those programs will be 
in refurbishment of the infrastructure that supports those 
defense program missions at the site.
    With that, I'll close.
    [The prepared statement of Mr. Buggy follows:]

                 Prepared Statement by Joseph J. Buggy

    Good afternoon.
    On behalf of the Westinghouse Savannah River Company, I am pleased 
to submit the following testimony regarding the Savannah River Site 
NNSA programs. The Westinghouse Savannah River Company leads an 
integrated team that operates the Savannah River Site. We have operated 
SRS since 1989.
    Presently, our primary NNSA missions are: (1) tritium production, 
which will resume upon the completion of future projects; (2) providing 
tritium-loaded reservoir components to support the Nuclear Weapons 
Stockpile Maintenance program; and (3) surveillance testing of 
stockpile evaluation reservoirs and components. We are also providing 
technical and design support for the Weapons Complex future Pit 
Manufacturing capability.
    Currently, we have two major line-item projects underway to support 
the tritium mission: Tritium Modernization and Consolidation, and the 
Tritium Extraction Facility. Both of these projects are key elements of 
the Stockpile Stewardship program.
    At SRS, we also support the Nuclear Nonproliferation program. SRS 
has been selected as the location for construction and operation of 
three new facilities to dispose of about 50 metric tons of surplus U.S. 
plutonium. WSRC is currently designated as the operator of the pit 
disassembly and conversion facility and the plutonium immobilization 
facility.
    SRS is somewhat unique. All of the missions I just described are 
NNSA missions, yet the services to support them are provided by DOE's 
Environmental Management program, which serves as the landlord for SRS. 
DOE's Operations Office manager at SRS reports to the Assistant 
Secretary for Environmental Management; senior NNSA officials are 
designated for both Defense Programs (DP) and Nuclear Nonproliferation 
(NN), and report to those offices at DOE headquarters.
    Certainly, there is a strong need for integration among the three 
program offices, and for consistency in the way the site does business. 
From my perspective, I know that the program offices recognize that, 
and are working well together to achieve that consistency. The proposed 
organizational structure has a single point of contact for all NNSA 
activities at the site. That will work well, since it will provide a 
focal point for both programmatic, technical and budget direction.
    The proposed Fiscal Year 2002 Savannah River Defense Programs 
budget is $233.6 million. This funding is sufficient to execute the 
core Stockpile Stewardship mission, and to maintain progress on the two 
line-item projects I mentioned previously.
    The fiscal year 2002 budget, however, is $18.7 million short of 
Defense Programs requirements. An unplanned pension contribution in 
fiscal year 2002 ($2.4 million) and necessary infrastructure 
restoration and facilities modification funding ($9.4 million) are the 
major components of this shortfall.
    Infrastructure restoration projects include the replacement of aged 
electrical switchgear and building ventilation upgrades. Facility 
modifications funding will support conceptual design for expanding 
loading capacity, engineering design and facility modifications to 
increase Reservoir Surveillance testing capacity. These modifications 
will prevent creation of a Surveillance testing backlog, and will 
result in outyear savings by allowing closure of a 50 year old 
facility.
    In addition, a preliminary estimate of $6.9 million in overheads 
shift could impact the DP budget due to severe budget restrictions in 
Environmental Management programs. In fact, the interconnection between 
DP and EM at SRS is an important consideration. While the NNSA program 
is providing its level of support, NNSA is only a small part of the 
overall SRS landscape. There will be a negative impact to the site's 
overall capability in light of the severe budget problems within the 
Environmental Management program.
    EM has the landlord responsibility for the site's general 
infrastructure, which is now approaching 50 years of age. Many of our 
systems--process and domestic water systems, sanitary sewer systems, 
roads, laboratories and others--require major upgrades which are beyond 
the financial capabilities of the site's annual funding allocations, 
primarily from the EM program.
    The Fiscal Year 2002 Savannah River EM budget is currently targeted 
for a $160 million reduction from fiscal year 2001 levels; that will be 
$214 million less than what is required. That funding shortfall will 
have two effects on our NNSA programs. One, it will reduce funding to 
address the urgent site infrastructure needs, some of which I have just 
described to you. Two, as I mentioned above, this reduction will shift 
overheads to the SR-NNSA budget, resulting in erosion of planned 
infrastructure upgrades.
    At the beginning of this testimony, I noted that the baseline 
Nuclear Nonproliferation program at SRS supports DOE's plutonium 
disposition efforts. As of this hearing, the fiscal year 2002 funding 
for SRS has not yet been determined. I will be happy to provide you 
additional information on that program for the record at a later time.
    We are proud to continue our support for the national security 
missions that have been located at SRS. SRS and its local stakeholders 
have a long tradition of support in this area, and we appreciate the 
confidence that has been shown in us. I thank you for inviting me to 
meet with you today, and I am pleased to answer any questions you may 
have.

    Senator Allard. Thank you very much. Now, we have Mr. John 
Mitchell, President of BWXT Y-12 at Oak Ridge, Tennessee. 
Welcome.

       STATEMENT OF JOHN MITCHELL, PRESIDENT OF BWXT Y-12

    Mr. Mitchell. Yes, sir. Mr. Chairman, and members of the 
subcommittee, we appreciate very much the opportunity to be 
here today. I have to admit, I've managed a lot of facilities 
in my life in various places and careers, I have never, ever 
managed one where the only way to achieve less notoriety is to 
get rid of the word poster child. I assure you that is in fact 
my intent through the next few years not be able to claim that 
mantle much longer.
    Y-12 is a very interesting and complicated plant to 
operate. The new management team has been there about 6 months. 
I'd like to take just a few short moments to describe some of 
the things that have gone over in those 6 months.
    One I would highlight is in our operational areas. The 
facilities at Oak Ridge are designed to handle enriched 
uranium, of course, and we manufacture many products that way. 
Our system is designed to operate in a closed loop, that is 
where you recycle and recover all of the uranium that we 
produce, whether it be waste chips for manufacturing, waste mop 
water, or whatever.
    That particular part of the Y-12 complex has not operated 
in excess of 6 to 7 years at this point. What that means is 
that everything we do for manufacturing creates waste that we 
simply store. What that has done is create a backlog of storage 
that now actually occupies our buildings in many ways there.
    I'm very pleased to say that last week for the first time, 
we received permission from NNSA to operate that particular 
part of the complex, and we in fact will be processing that 
waste and producing enriched uranium for the first time in 6 
years in the next 10 days. So, we're very proud of that 
accomplishment.
    We place a great deal of emphasis on the safety and 
security of the operations we do. The types of materials we 
manage require that. They leave us no choice. Many of the 
comments have been about infrastructure. People I think should 
be put in that context, we ask our people to operate under 
ever-increasing safety standards and at ever-increasing 
security standards in a complex that was not designed to meet 
those standards and that we're going to have great difficulty 
in sustaining over the long term.
    The people at Y-12 have done a great service to the Nation 
over many, many years. One of the things we hope to do is to 
provide them a complex, the tooling, equipment, the facilities 
and technology, to honor that commitment they had over time.
    A lot of our emphasis, of course, is on modernization of Y-
12. We believe there are three component parts that have to be 
in balance and operate in parallel to modernize Y-12. One of 
the keys is reducing the infrastructure we have. We have in 
excess of 500 identifiable facilities at the Y-12 plant, some 
of which are fully in use, some of which are partially in use, 
some of which are marginally in use, and some of which are not 
used at all.
    But, we have to support all those buildings. Because of the 
type of work that has been done at those facilities in the 
past, we can't walk away from them. They require extensive 
surveillance and monitoring even in their inactive state. It is 
extremely important to us to reduce that footprint, get rid of 
that burden in our cost and reduce our infrastructure down to 
just what we need for the long-term future to support here.
    We have to consolidate. We have buildings where because of 
the original design, or occupied different parts of the 
buildings, we now only operate parts of those processes. So, we 
operate in small parts of buildings. Without the ability to 
consolidate, we will be forced to maintain and use our planning 
to fully support the buildings even though they only marginally 
contribute all the time.
    The other part is selective recapitalization. In some 
parts, we simply must invest new dollars. Right now, the 
materials we handle are scattered over a very large number of 
special storage facilities to meet the security requirements. 
We must consolidate those. We must put in modern, flexible 
security requirements.
    The one thing you know about security is whatever standard 
you're meeting right now is not the standard that's sustainable 
for the future. Security standards only increase over time. 
Right now, we need a significant capital investment to be able 
to keep the materials we have safe and secure for the long 
term, not just for the short term.
    We also have to maintain specialized processes where we're 
the only place in the country that does certain types of 
manufacturing takes place. In many of those cases, we have not 
manufactured some of those specific products and materials for 
12 to 15 years, when some of the weapons in the stockpile were 
produced new.
    We have not achieved volume production of those items in 
many years. As we approach the upcoming time, when we go back 
to support the modernization of the life extension programs, we 
essentially have to redevelop those processes. The people that 
did them in the past are not necessarily there. The tools, 
equipment, and process are not all sustainable right now, 
sometimes from a safety sense, sometimes simply because you 
can't maintain the equipment anymore. We actually have vacuum-
tube equipment at some of these processes, vacuum-tube 
controllers.
    So, we have to go invest in modern facilities, tooling and 
processes and sometimes selective recapitalization is the right 
way to achieve that and to revive them in a constrained manner.
    The fiscal year 2002 budget as presented allows us to 
maintain the status quo at Y-12. It does not allow us to make 
the substantial investments we need along those three lines. To 
significantly reduce the infrastructure that we have to 
support, allow us to constrain and consolidate our 
infrastructure down to the footprint we need, and also to 
selectively modernize and then put new technologies, new 
equipment, and new tools in. We are very much constrained in 
our ability to do that.
    The life extension programs coming up provide us a long-
term predictable workload increase from where we are right now. 
We have to be able to step up our ability to focus our funds 
and capabilities directly on what's needed for that and it's a 
step up from what we do right now. We really need support to 
allow that to happen.
    Y-12 is a great place. It has served the country well since 
the Manhattan Project. It is a vital and unique national asset. 
It's not clear we've treated it that way. With your support, we 
look forward to doing just that. That concludes my remarks, 
sir. Thank you.
    [The prepared statement of Mr. Mitchell follows:]

                  Prepared Statement by John Mitchell

    Mr. Chairman and Committee Members: Thank you for the opportunity 
to update you on the Defense Program activities at the Y-12 National 
Security Complex in Oak Ridge over the last 6 months and to provide you 
my views on our ability to meet the requirements of the Stockpile 
Management Program, both in the near and long term. We have unique 
capabilities and challenges at Y-12 and have initiated efforts in many 
areas to address these and successfully meet the expectations and 
requirements of the National Nuclear Security Administration (NNSA).

                     BWXT Y-12--THE FIRST 6 MONTHS

    BWXT Y-12 completed a highly successful contract transition and set 
in place organizational structures and operational philosophies that 
would set the stage for constructive change. Continuing a long-standing 
Y-12 tradition, all weapons deliveries were met. In addition, safety 
was engineered into the disassembly process for future weapons 
components. An emphasis on safety is a top priority, as demonstrated by 
the Bechtel Safety Leadership training being provided to 856 Y-12 
managers and supervisors and by improved Defense Nuclear Facilities 
Safety Board (DNFSB) relationships. The Executive Steering Group, 
consisting of senior management and others, focuses on continuous 
management review and direction. A safety culture based on people, not 
just paper, is being established.
    A new plan for Enriched Uranium Operations (EUO) Restart was set in 
place by our project team and our corporate-sponsored challenge teams. 
The Operational Readiness Review for reduction operations was completed 
on schedule, and NNSA has approved the return to full operational 
status.
    A strong emphasis has been placed on the successful modernization 
of Y-12. All major capital modernization projects have been reviewed 
with the intent of increasing our confidence in being able to execute 
these major projects on time and within budget. In conjunction with the 
modernization program, we have reflected in our 10-year plan and in our 
budget request recognition that our infrastructure requires major 
recapitalization and footprint reduction. Maintenance management 
requires major investment and improvement. The organizational structure 
reflects our commitment to manage modernization and infrastructure 
improvements at Y-12 as major projects as well as management 
commitments.
    Other successes include the renegotiation of the Atomic Trades and 
Labor Council (ATLC) contract, which was extended for 3 years by mutual 
agreement. Benefits for both active and retired employees have been 
reviewed and adjusted in a fair and equitable manner.
    Overhead budgets have been reduced, resulting in the absorption of 
approximately $20 million of new requirements without impacting planned 
work scope. An executive-level Resource Management Review Board (RMRB) 
was established to drive a reduction in indirect costs. These 
initiatives have resulted in a net saving to direct-funded programs.

                                PROGRAMS

    The Directed Stockpile Work (DSW) in fiscal year 2001 and requested 
fiscal year 2002 funding meets the directive schedule requirements, 
incorporating efficiencies where possible. The DSW requirements are 
integrated with and dependent upon Campaigns and Readiness in Technical 
Base and Facilities (RTBF) provided capabilities. This approach 
provides confidence in our ability to meet emerging requirements for 
future Systems Life Extension Programs (SLEPs).
    The funding provided for Campaigns, in fiscal year 2001 and 
requested in fiscal year 2002, provides for several modernization 
planning and early design and planning activities for major projects 
such as the Special Materials Complex (SMC) and the Highly Enriched 
Uranium Materials Facility (HEUMF). Some upgrades to existing systems, 
processes, and equipment needed to perform DSW are supported. We will 
implement new technologies and reengineer core manufacturing processes 
to meet more stringent health, safety, security, and environmental 
requirements. Our challenge is to simultaneously maintain aging 
technology, plan for near-term life extension programs, and invest in 
new technologies and skills required to support future requirements.
    Readiness in Technical Base and Facilities (RTBF) maintains and 
repairs production and process facilities and equipment. The projected 
funding supports current production requirements and restart of 
processes, and maintains and operates restarted operations, moving 
towards recycle versus storage of material.
    The funding levels requested in fiscal year 2002 for Campaigns and 
RTBF maintain the status quo. However, they do not allow us to make 
much-needed investments in upgrading the infrastructure, decreasing our 
exposure to equipment and facility failure, or developing and 
installing modern processes and equipment that will increase 
reliability, reduce risk, enhance engineered safety, and update our 
technology. Without additional support in these areas, our long-term 
ability to meet the Directed Stockpile Weapons program objectives is 
increasingly at risk.
    The completion of the Restart of selected processes is key to our 
long-term success, as recycle of material versus storage of material is 
the cost-efficient solution.

             MODERNIZATION OF FACILITIES AND INFRASTRUCTURE

    The proposed DOE/NNSA's new Facilities and Infrastructure 
Initiative has given the nuclear weapons complex a head start on needed 
infrastructure improvements by raising the awareness of the problem and 
garnering support for infrastructure projects. It has opened the door 
for the creation of successful strategies for modernization--strategies 
that will balance a program of capital investment with infrastructure 
reduction and technology development. But without significant 
investment in the immediate future, this opportunity will be wasted.
    BWXT Y-12's strategy for infrastructure improvement is based upon a 
similar approach. This strategy begins with intense planning focused on 
determining the scientific and manufacturing capability needs for the 
future. Then the basic equipment, facilities, and skills required to 
support these needs are defined, as well as the equipment, facilities, 
and skills that will no longer be necessary. In the first years, while 
maintaining production, the complex will concentrate on deactivating 
and eliminating unnecessary infrastructure, finding efficiencies within 
the current ongoing processes, and aligning technology development 
efforts with the need for re-established capabilities.
    In succeeding years, by eliminating non-essential equipment, 
processes and systems, the complex will make room physically and 
economically for beneficial upgrades. Priority will be placed on 
removal of non-essential buildings and equipment that restrict 
consolidation activities or occupy prime real estate needed for 
potential reuse. Savings in surveillance, analysis, maintenance, and 
security can be reinvested in replacement of vital manufacturing and 
material science processes. Old, single-use, or near-failing equipment 
can be replaced with more efficient multipurpose machinery. Thoughtful 
incorporation of new technologies and process methods can improve 
efficiency and make inherently hazardous work safer.
    The result of Y-12's infrastructure improvement approach will be a 
consolidated manufacturing footprint, with a central hub of secure 
operations surrounded by the necessary developmental, technical, and 
other support functions. Nuclear material storage, as well as the 
utilities infrastructure, will be consolidated for the entire site. 
Over time, vacated facilities and utilities systems can be closed down, 
deactivated, and eliminated; and perimeter areas can be redeveloped for 
employee use and recreation. The goal is to develop a more flexible 
core capability base-one adaptable to changes in work scope and 
technology, cost-efficient, and able to attract and retain new talent.
    Achieving and sustaining infrastructure improvement within the 
current DOE/NNSA funding forecasts will be a significant challenge. The 
funding structure is organized to support DOE/NNSA programs through a 
process aimed at both operations and discrete capital projects. 
However, as operating equipment ages, there becomes an increased demand 
in both of these areas simultaneously. Maintenance needs go up, which 
is an increased burden on operating budgets. Additionally, needs for 
capital replacement also go up, further exacerbating the burden on 
operating budgets.
    Every year, it becomes more difficult to keep ahead of the curve-to 
provide maintenance and replace operating equipment before failures 
occur. The only way to offset increased needs for spending is through 
efficiencies gained with the same capital improvements and 
technological advancements that must compete with the operating 
dollars. This situation forces constant trade-offs between operations, 
maintenance and capital investment.
    But we have come to a point, especially at Y-12, where the trade-
offs have favored operations to the detriment of both the maintenance 
that sustains those operations and the necessary capital improvements. 
Obviously, it has been extremely difficult to sustain investments in 
capital in this environment. Likewise, given the years of deterioration 
at Y-12, it will be extremely difficult, if not impossible, to re-
establish operational capability to service all of DOE/NNSA's needs 
without a sustainable, long-term program of investment.
    For Y-12, such an 8- to 10-year program would be aimed at 
eliminating the maintenance backlog as well as eliminating non-
essential process equipment and facilities from the maintenance 
schedules. This program would also focus on investing in technology 
efficiencies and building new facilities, such as the Highly Enriched 
Uranium (HEU) Materials Storage Facility, Special Materials facilities, 
and a new manufacturing building with technical development capability.
    Y-12 will require an investment to eliminate long-range costs of 
upkeep for equipment and buildings no longer used or needed, an 
investment for technology and security improvements, and an investment 
in construction of new buildings.
    Without this type of re-capitalization and infrastructure reduction 
strategy, DOE/NNSA will be able to make only limited progress toward 
its infrastructure improvement goals. BWXT Y-12 is committed, however, 
to investing in infrastructure improvement. It is prominent in the 
newly developed Y-12 strategic plan. It is the basis for sustaining Y-
12 as a valued asset and the basis for advancing Y-12's operational 
excellence into the future. Y-12's approach to improvement and 
modernization will result in a smaller, cleaner, more cost-effective 
complex that will be able to serve the national security needs of this 
nation well into the 21st century.

                               WORKFORCE

    Y-12 has a very high-technology, highly skilled workforce. Our 
focus is on maintaining and developing the skills for current as well 
as future technologies that will be introduced as part of 
modernization. We will continue to develop skills that complement our 
unique capabilities and utilize new technology methods.
    We are concerned, however, about the growing liability in workers' 
compensation cost. We, like other contractors, continue to pay these 
current-year costs from existing, current-year funds. If these costs 
continue to escalate, as the trends suggest, the impacts will be to our 
modernization plans and technology improvements. We recommend a 
consideration of a separate, direct funding action to reflect this 
growing liability.

                             TEN-YEAR PLAN

    The vision of the future state of Y-12, as we have stated, is a 
consolidated manufacturing footprint, with a central hub of secure 
operations surrounded by necessary development, technical, and support 
functions. Nuclear material storage will be consolidated, as well as 
the utility infrastructure for the site. Over time, vacated facilities 
and utility systems will be closeddown, deactivated, and eliminated; 
and perimeter areas can be redeveloped for employee use and recreation. 
The goal is to develop a more flexible core capability base--one 
adaptable to changes in work scope and technology, cost-efficient, and 
able to attract and retain new talent.
    There are a number of decisions yet to be made on alternatives for 
modernizing Y-12. Given years of deterioration, it is relatively easy 
to identify the physical infrastructure problems that require 
solutions. Evaluating the production readiness of the processes and 
technologies, however, is a more difficult task and is not yet 
completed. With the number of readiness cases to be studied and other 
uncertainties associated with forecasting future stockpile work, this 
evaluation will be an intensive effort for BWXT Y-12. Working through 
alternatives, achieving agreement with NNSA, the design labs and other 
production sites, making decisions, estimating the resources, and 
developing justifiable and sustainable schedules that NNSA can rely 
upon requires time.

                         MAJOR CAPITAL PROJECTS

    We have identified the operational and capital funds required to 
support the early design and planning activities for major projects 
such as the Special Materials Complex (SMC) and the Highly Enriched 
Uranium Materials Facility (HEUMF). For fiscal year 2002, this provides 
for the design, planning and initial acquisition efforts for these two 
critical projects.
    We have intensely reviewed the plans and estimates for the 
construction phases of these projects and will continue to look for 
improved project-structuring opportunities. We have introduced new 
management and new controls to the execution of all capital projects. 
We believe we have the management and system expertise to regain 
credibility in the execution of capital projects.

                                SUMMARY

    Y-12 is at a key decision point in its future. We know what needs 
to be done. I respectfully request your consideration of, and support 
for, increased investment in reducing risk in our ability to meet 
future stockpile and national needs. Reducing unneeded infrastructure, 
upgrading our facilities and processes, and selected investment in 
major recapitalization are urgently needed to assure that Y-12, an 
irreplaceable national security asset, can continue its commitment to 
and record of successful support of national needs.
    Thank you very much for the opportunity to submit this testimony.

    Senator Allard. Thank you, John. Mr. Douglass, you are 
President of Government Services at Honeywell Federal 
Manufacturing and Technologies in Kansas City. Welcome.

  STATEMENT OF DAVID DOUGLASS, PRESIDENT OF HONEYWELL FEDERAL 
                 MANUFACTURING AND TECHNOLOGIES

    Mr. Douglass. Thank you, Mr. Chairman. Honeywell operates 
the Kansas City plant for the NNSA. The plant is the only 
nonnuclear production facility the NNSA has, and I'd like to 
share with you the issues facing the Kansas City plant from the 
view of a businessman.
    Today, the Kansas City plant is thriving. We are busy 
producing components for every active weapon system in the 
stockpile. Last year, we procured, built, and shipped over 
167,000 parts on time to our customer virtually 100 percent of 
the time.
    For the past couple of years, one of our most pressing 
issues has been critical skills and managing the anticipated 
retirement of a large part of our workforce. I am pleased to 
say we are making progress. This year, we are hiring 150 new 
engineers and technologists in addition to replacing attrition.
    With the support of NNSA, we have adopted a very 
contemporary competitive benefits package which allows us to 
enhance our ability to recruit and retain some of the best and 
brightest. Today, when you walk through our facility, it's 
exciting to feel the sense of the energy and enthusiasm that 
these new associates bring to our plant.
    The plant itself, though 60 years old, is in reasonably 
good condition. It remains a very secure and safe facility to 
work in. We've accomplished this over the years by balancing 
production requirements with technology needs, with head-count 
and infrastructure requirements, as well as bringing commercial 
best practices, such as Sixth-Sigma, into the business to 
improve our processes, save money, and then redeploy those 
savings back into high priority needs or fixing things that are 
broken.
    However, all of our efficiency improvements will not make 
up for the problems created over the past decade by funding 
shortfalls. In my prior job as a plant manager, I routinely 
reinvested about 5 percent of the value of my plant equipment 
back into the business on an annual basis to assure that I 
maintained a viable competitive enterprise over the long term.
    For high-tech businesses, that level of reinvestment is 
actually much higher. At the Kansas City plant for the last 6 
years, the level of reinvestment in plant and equipment has 
been 2.4 percent. You need to keep in mind that the Kansas City 
plant supports a broad variety of processes from basic 
manufacturing to various advanced technologies, which should 
place us at the upper end of that 4 to 5 percent reinvestment 
curve.
    This is the one area that concerns me the most as I look 
into the future for the needs for the business. This lack of 
investment has created a backlog in infrastructure ranging from 
the need to replace 40-year-old air handling units to 
implementing advanced microelectronic technologies we need to 
keep pace with developments at the National Laboratories.
    What I don't want to have happen is for me to appear in 
front of you a year from now, or 2 years from now, or even 10 
years from now, and tell you that we are unable to sustain the 
production operations at the Kansas City plant because we 
failed to make the long-term investments today. That long-term 
investment, and the need to fix the deferred infrastructure, 
remains the greatest risk to the sustainability of operations 
at the Kansas City plant and our ability to support the 
stockpile life extension requirements in the future.
    We will continue to ring costs out of the business at 
Kansas City. That's what Honeywell does. In the past, I have 
had the ability to take those cost savings and turn those back 
into the business to meet high priority needs. As we look out 
into the future, reprogramming rules constrain my ability now 
to take the cost savings that we will continue to make and put 
those into high priority needs.
    I need the flexibility in the future to take the cost 
savings that we realize as part of our ongoing business, and 
the flexibility to put those into high-priority infrastructure 
needs so that we can manage an efficient and effective facility 
in the future.
    I look forward to working with this subcommittee, and the 
NNSA to ensure that the Kansas City plant and the nuclear 
weapons complex remain viable components for our national 
security mission. Thank you.
    [The prepared statement of Mr. Douglass follows:]

                Prepared Statement by David S. Douglass

    Mr. Chairman, my name is Dave Douglass. I am president of Honeywell 
Federal Manufacturing & Technologies, which manages the National 
Nuclear Security Administration's manufacturing plant in Kansas City, 
Missouri, and facilities supporting transportation safeguard activities 
in Albuquerque, New Mexico. The Kansas City Plant today is an active, 
safe, secure, and reliable facility. One of the most complex 
manufacturing sites in the country, we have complete electronic, 
mechanical and rubber and plastics factories under one roof, and we 
bring to the nuclear weapons complex expertise in science-based 
manufacturing, procurement and e-business systems. The nonnuclear 
components we produce comprise 85 percent of the parts manufactured 
within the nuclear weapons complex, as well as 85 percent of the 
components that constitute a nuclear weapon.
    With the help and support of this subcommittee and Congress over 
the past 3 years, we've dealt with a number of key issues facing the 
Kansas City Plant. Your support allowed us to satisfy some persistent 
infrastructure needs and proactively address issues relating to 
critical skills hiring and the anticipated retirement of a large 
percentage of our workforce within the next few years. However, because 
of the seriousness of past budget shortfalls, these improvements have 
focused on short-term fixes rather than long-term solutions. Today, I 
would like to discuss some of the long-term issues facing the Kansas 
City Plant.
    Mr. Chairman, the proposed fiscal year 2002 budget for the Kansas 
City Plant will allow us, on the surface, to meet our directed 
stockpile work obligations. There will be minimal impact on activities 
pertaining to stockpile maintenance and evaluation and product support, 
and our Enhanced Surveillance and Advanced Design and Production 
Technologies campaign work will remain fully funded. With this funding 
level, we can also maintain basic facility operations and program 
readiness, and continue our efforts to address critical skills and 
overall workforce needs.
    However, we have deferred investment in capital equipment and 
infrastructure, which has significantly increased the risk of 
sustaining uninterrupted operations and, ultimately, will impact our 
ability to perform the Kansas City Plant's mission. The proposed fiscal 
year 2002 levels decrease our funding by one-fourth for the Nonnuclear 
Readiness Campaign, which focuses on upgrades to technologies and 
preparations for the Stockpile Life Extension Program. Construction 
funding under the Readiness in Technical Base and Facilities program is 
reduced by $5 million. This includes plant footprint reductions and 
production process consolidations which, if implemented, would allow us 
to reduce overhead costs. All facilities and infrastructure 
recapitalization programs will again be deferred, creating an even 
larger backlog of needed facility improvements and equipment 
recapitalization. Safeguards and security funding will be decreased 
slightly, and cybersecurity funding will be reduced by 94 percent, 
allowing for only very basic support activities.
    Cybersecurity and infrastructure recapitalization are two of our 
major concerns. Without the additional funding, we will not be able to 
implement any of the new cybersecurity initiatives. We also cannot 
address our growing backlog of infrastructure needs.
    My experience in industry suggests that companies need to invest in 
themselves in an ongoing manner. Generally, industrial companies set 
aside approximately 5 percent of plant replacement value in their 
annual budgets for recapitalization required to sustain on-going 
competitive operations; high-tech companies may need to invest a larger 
percentage because of today's rapidly changing technologies. The 
National Nuclear Security Administration's Albuquerque Operations 
Office, in its May 1998 Phase II Facilities and Maintenance Study, 
recognized that the design life of most government facilities is 25 
years. This equates to an annual reinvestment of 4 percent of the plant 
replacement value.
    Considering our diverse set of technologies and manufacturing 
capabilities, the Kansas City Plant's recapitalization efforts for the 
past 6 years have averaged approximately 2.4 percent annually. This 
consistent under-funding has created a backlog of infrastructure needs 
for the Kansas City Plant. The under-funding has occurred even though 
we have reduced headcount by 50 percent, from 6,000 to 3,000 associates 
since 1990, as part of our efforts to balance production, staffing and 
infrastructure requirements with available funding.
    In 3 of the past 6 years, our funding to recapitalize and modernize 
infrastructure (facilities, utilities and equipment), as well as to 
maintain pace with technology, has totaled less than 2 percent of the 
plant's replacement value (based on a total estimated replacement value 
of $1.2 billion). This level of reinvestment in the plant's 
infrastructure is insufficient when it comes to offsetting depreciation 
and replacing obsolete or worn equipment.
    Because Honeywell has managed the Kansas City Plant since 1949, our 
associates consider it as much their plant as that of the National 
Nuclear Security Administration. They take ownership and pride in its 
wellbeing. Throughout our stewardship of the facility, we have earned a 
reputation for our ability to introduce industry best practices, such 
as Six Sigma, which we use to reduce costs and maximize our efficient 
use of the budget. Since January 2000, these efficiency savings have 
totaled in more than $8.7 million.
    We have focused on the short-term--repairing, maintaining, or 
replacing the equipment most likely to cause major production failures, 
often at the expense of needed long-term infrastructure improvements 
and modernization. In general, our capital equipment management 
strategy has been successful. We ship 99.9 percent of our products on 
schedule from a plant infrastructure that is generally safe and sound. 
We have avoided major production shutdowns, and even been able to 
allocate a portion of equipment funding for advanced technology. We 
prioritize and manage capital needs as new requirements arise. However, 
we also face an increased risk of impacting production schedules 
because of equipment failure, excessive maintenance costs due to the 
age of existing equipment, and the inability to maintain and advance 
technology. This, in turn, affects our ability to integrate with 
suppliers and the national labs. To sustain our production mission 
efficiently, we project the Kansas City Plant's capital equipment 
recapitalization funding to be $12 million a year.
    There were no new construction line item starts in fiscal year 2000 
and 2001, and the proposed budget eliminates any for 2002. This affects 
our ability to support new technology needs in our reservoir and 
microelectronics areas. There will also be an impact on continued 
facility operations, particularly needed replacements of air-handling 
units and chillers.
    The accelerated rate of technology change has required us to 
balance our limited funding between investing in manufacturing 
capability and facility infrastructure needs. We are a leader in 
science-based manufacturing, which minimizes the expense of prototype 
production. However, it also involves exchanging designs electronically 
with the national labs and working closely with them to concurrently 
engineer product designs and simulate product performance. This 
partnership requires us to continually upgrade our computer systems and 
networks.
    Mr. Chairman, the Kansas City Plant is a cornerstone of the nuclear 
weapons complex. We support 42 product families and 120 advanced 
technologies, shipping more than 60,000 product packages annually. We 
are busily producing components for every weapons system in the active 
stockpile. The proposed fiscal year 2002 funding levels brings 
increased performance risks related to new workload requirements on the 
Stockpile Life Extension Program, because we cannot prepare in advance 
for the work. We are concerned about the increased risk of equipment 
failures and facility infrastructure breakdowns. We are concerned about 
the safety and health of our workforce as a result of these breakdowns. 
We are concerned about our ongoing ability to recruit critical skills 
and maintain a qualified workforce. Increased funding for 
recapitalization is required to continue our strong performance at 
levels expected by the National Nuclear Security Administration.
    Mr. Chairman, thank you for the opportunity to present these views 
to you today. Honeywell is committed to our national defense mission 
and to the future success of the Kansas City Plant and nuclear weapons 
complex. I look forward to continuing to work with you and the members 
of this committee to address these challenges.

    Senator Allard. Thank you, Mr. Douglass. Mr. Ruddy, you are 
the President and General Manager of BWXT Pantex in Amarillo, 
Texas. Welcome.

STATEMENT OF DENNIS R. RUDDY, PRESIDENT AND GENERAL MANAGER OF 
                        BWXT PANTEX LLC

    Mr. Ruddy. Thank you. I have been the plant manager at the 
Pantex Plant since February the 1st, I'm a bit of a newcomer 
and I thank you for letting me have this opportunity to speak 
to you today.
    The Pantex facility is unique in its ability to support the 
Nation's nuclear weapons stockpile. Our production bays 
themselves are the only capability that the Nation has for 
nuclear explosive operations.
    Like my colleagues, I see the formation of NNSA, and the 
direction that it is taking, as a very positive step toward 
better management of the Nation's nuclear stockpile. Although 
the formation of the NNSA is positive, I see some problems with 
next year's budget in that the new organizational structure 
cannot address without your assistance.
    Since arriving at Pantex, we have aggressively addressed 
the immediate needs of the facility, our people, and the NNSA. 
We have attained a repackaging rate of nuclear pits at the 
expected and desired level of 200 pits a month, 4 months ahead 
of schedule using 40 percent less people than had been 
previously planned.
    In the program to protect workers from exposure to 
beryllium, BWXT Pantex completed a 10-month plan for testing 
site employees in a mere 6 weeks and an 18-month facility 
characterization program also in 6 weeks. Cleanup activities 
that were planned for completion in September of 2004 will be 
completed in August of this year.
    These actions, which may seem a little bit incredible, are 
already generating cost savings that are being applied to 
Pantex's most pressing infrastructure problem. The improved 
processes for pit repackaging have produced $700,000 that can 
be redirected to other programs.
    Next year, because we have accelerated the beryllium 
program, we'll have $600,000 available for other applications. 
In addition, by better utilizing the capability of the people 
that are already at the plant, we've reduced our hiring plans 
from 432 people to support next year's needs to about 260 
people, thereby freeing up an additional $13 million that can 
be used in future budgets for infrastructure needs.
    While these funds can be used to address infrastructure, 
they will not reduce the existing $218 million backlog that we 
have for deferred maintenance. In previous congressional 
testimony, I provided examples of the maintenance concerns such 
as leaks so numerous that we have to cover weapons with plastic 
bags when it rains outside. Fortunately, in Amarillo, it 
doesn't rain that often, but it does provide a visual for the 
deterioration of our infrastructure.
    But the magnitude of the problems that we have there cannot 
be covered just by the kinds of cost improvements that we've 
been able to make. Our readiness in technical base and 
facilities (RTBF) funding for next year is about $85.5 million. 
It doesn't even maintain the status quo.
    If we don't get additional funding, we will continue to 
increase the $218 million backlog, and we believe that if we 
want to start moving ahead to the future and be able to support 
not only this year's, but future year's, needs for the 
Stockpile Stewardship Program and maintain the facilities, we 
will need an additional $82 million in fiscal year 2002.
    I believe that the added investment at Pantex is warranted 
not only because of the national security needs, but also 
because sound business judgments dictate this need. In a short 
period of time, we have been able to demonstrate our ability in 
a commitment to use the DOE's funding productively. I commit to 
you that additional funds, if given to us, will be used to 
ensure that Pantex is capable of supporting future needs.
    Mr. Chairman, members of the subcommittee, the NNSA is 
facing difficult issues in maintaining a viable production 
complex and a productive workforce. We must take immediate 
steps to solve these key problems caused by habitual 
underfunding.
    We cannot rely on the expectation that we will be 
successful every year in treating only the symptoms and not the 
root causes of deteriorating infrastructure and uncertain 
staffing. I am asking that you arm the operators of your 
defense plants with the funding required to leverage corporate 
expertise and the best industry practices, as mentioned by Mr. 
Douglass, in the management of DOE facilities.
    Thank you very much for listening to me today.
    [The prepared statement of Mr. Ruddy follows:]

                 Prepared Statement by Dennis R. Ruddy

    Mr. Chairman and Members of the Committee: My name is Dennis Ruddy. 
I am President and General Manager of BWXT Pantex, which manages the 
Department of Energy's Pantex Plant near Amarillo, Texas.
    I became the General Manager of the Pantex Plant on February 1, 
2001 as a result of BWXT Pantex being competitively selected to be the 
managing and operating contractor. While our company is new to NNSA, I 
can assure you we are totally committed to achieving excellence in all 
areas at Pantex and supporting the NNSA mission. At Pantex our mission 
is to:

        <bullet> Evaluate, retrofit, and repair weapons in support of 
        both life extension programs and certification of weapon safety 
        and reliability;
        <bullet> Dismantle weapons that are surplus to the strategic 
        stockpile;
        <bullet> Demilitarize and sanitize components from dismantled 
        weapons;
        <bullet> Develop, test, and fabricate chemical and explosive 
        components; and
        <bullet> Provide interim storage and surveillance of plutonium 
        components.

    BWXT Pantex is excited about the NNSA organization and the 
opportunity to work with General Gordon and his team to improve the 
operation of the production complex. We see the formation of the NNSA 
as an important step in focusing proper attention on production 
problems and ensuring activities involving our National Strategic 
Stockpile are understood and fully supported by Congress. The NNSA will 
also allow the Secretary of Energy to focus his attention on our 
Nation's energy supplies with full assurance that strategic defense 
issues will not go unresolved.
    Pantex reports to the Deputy Administrator for Defense Programs 
through the Albuquerque Operations Office. This structure is very 
similar to the previous reporting structure and maintains the existing 
successful lines of communication. At Pantex we view ourselves as the 
focal point of production activity and the new NNSA structure allows 
DOE to continue to focus attention on our efforts to assemble and 
disassemble nuclear weapons.
    Although BWXT Pantex views the formation of NNSA as a very positive 
event, the fiscal year 2002 budget presents problems that the new 
organizational structure cannot resolve without your assistance. 
Therefore, I would like to devote the remainder of my testimony to the 
funding issues we currently face at Pantex.
    Since our assumption of the management of Pantex, we have 
aggressively addressed the immediate needs of the facility, our people 
and the NNSA. We have attained a repackaging rate of 200 pits per 
months 4 months ahead of schedule with 40 percent less people than 
planned. In the program to protect workers from exposure to beryllium, 
BWXT Pantex completed a 10-month plan for testing site employees in 6 
weeks; an 18 month facility characterization program also in 6 weeks; 
and cleanup activities planned for completion in September 2004 will be 
completed in August of this year.
    These actions are already generating costs savings that are being 
applied to Pantex's most pressing problems, which is the disrepair, 
obsolescence, and deterioration of the infrastructure. Improved 
processes for pit repackaging will free up $700,000 this fiscal year, 
which we have already used to fund other DOE directed priorities. Our 
accelerated beryllium activities will make $600,000 available next year 
to address unfunded needs, such as roof repairs, computing 
infrastructure modernization, and capital equipment replacement. In 
addition, by better utilizing the capabilities of existing employees we 
have reduced outside hiring from 432 people to approximately 260, 
thereby freeing $13 million in future budgets to be used for 
infrastructure improvements. But even when added to existing 
projections for RTBF spending, these cost savings do not reduce the 
existing $218 million backlog in maintenance activities nor support the 
future infrastructure requirements of the Stockpile Stewardship 
Program.
    The maintenance backlog numbers I quote are based on the current 
state of repair for the facility. Obviously, when existing maintenance 
requirements go un-funded, the potential for significant system 
failures and maintenance costs increase. As an example, the replacement 
of tires on a car might be estimated at $400 million for the entire 
vehicle; but deferring maintenance could result in a flat tire and 
damage to a wheel, thereby, causing damage beyond the $400 million in 
deferred maintenance. We are in a position at Pantex where the size of 
our estimated maintenance backlog is increasing with time, because of 
induced system failure.
    A negative trend in plant funding since the mid-1990s has created 
the infrastructure problems we are now experiencing. In previous 
Congressional testimony I have given examples of our maintenance 
issues, such as leaks so numerous that nuclear weapons must be covered 
with bags when it rains. We are fixing these leaks with money made 
available through improvement initiatives. However, the magnitude of 
the RTBF problem far exceeds our ability to address funding shortfalls 
through business improvements alone. Although all work is currently 
being performed in a safe manner, we need to act immediately to ensure 
safe operations are possible in the future.
    Our RTBF funding target of $85 million in fiscal year 2002 does not 
even maintain the status quo. Preventive maintenance, utility upgrades, 
waste operations, and the computing infrastructure remain under-funded. 
I am, therefore, asking that $81.7 million be added to the Pantex 
budget in fiscal year 2002 with corresponding additions for later 
years. The additional funding in fiscal year 2002 will be used to 
correct the mentioned under-funded activities and, in addition, re-
capitalization needs of the facility, containers for the repackaging of 
pits, and storage issues associated with high explosives. The increase 
in later years will be used to complete the activities identified in 
our Ten Year Comprehensive Site Plan and thereby ensure that the 
Stockpile Stewardship Program is fully supported.
    As you are aware, the Pantex facility is unique in it's ability to 
support the Nation's nuclear weapon stockpile. Our production bays and 
cells, along with specialized technical, safety, and security 
resources, provide the only capability for nuclear explosive operations 
in the DOE. Although the amount of additional funding I am requesting 
for fiscal year 2002 and subsequent years is substantial, it pales in 
comparison to the conservatively estimated $6 billion needed to replace 
the Pantex facility.
    I believe the added investment at Pantex that I propose is 
warranted not only by National Security needs but also by sound 
business judgment. BWXT Pantex has demonstrated in a short period of 
time the ability and commitment to use the DOE's funding productively 
and I commit to you that any additional funding will be used to ensure 
Pantex is capable of supporting our Nation's needs for the foreseeable 
future in the most cost effective manner possible.
    Mr. Chairman, NNSA is facing difficult issues in maintaining a 
viable production complex and workforce and must take immediate steps 
to solve key problems caused by habitual under-funding. We cannot rely 
on the expectation that we will be successful every year in treating 
only the symptoms and not the root causes of deteriorating 
infrastructure and uncertain staffing. I am asking that you arm the 
operators of your defense plants with the funding required to leverage 
corporate expertise and best industry practices in the management of 
DOE facilities.
    Mr. Chairman, thank you very much for the opportunity to present 
these views. I look forward to continuing to work with you and the 
members of this committee to ensure the safety and reliability of the 
stockpile in the future. I will gladly answer any questions the 
committee may have.

    Senator Allard. Thank you. I want to thank all of you for 
your testimony. I have a question here for all of you and I 
want to refer to the Scott report. The Scott report concluded 
that all the facilities have been neglected due to a scarcity 
of facilities and infrastructure funds because of the high 
priority given to science over bricks and mortar.
    Later on, the subcommittee will ask you for your specific 
infrastructure concerns. At this time, I would be interested in 
hearing from the panel what type of maintenance plan the NNSA 
needs to ensure that we do not end up with a maintenance 
backlog in the future. Dr. Robinson?
    Dr. Robinson. Sir, Sandia is in relatively better shape 
than most of the others. We carry out the nonnuclear 
responsibilities. Thus, over the years, our facilities have had 
a somewhat lower cost for the brick and mortar than for other 
facilities.
    The nuclear labs with revised standards have had a great 
difficulty constantly spending to keep up with changing 
standards rather than to maintain the condition of the 
facilities.
    The MESA Facility, which I highlighted, is probably the 
best example of the problems we face. The electronics 
components within nuclear weapons become obsolete before they 
become old. You cannot buy them anymore. You cannot replace 
them in any way.
    We are constantly trying to stay at the state of the art of 
the industry, but yet add the other requirement that's 
unavailable from commercial sources, and that's radiation-
hardened circuits, so it will withstand the hostile 
environments and the environment within the weapon itself. For 
this reason, we have to go on major equipment upgrades.
    The MESA facility is as much an exercise in bringing the 
equipment up to modern standards as it is the facility for us, 
but a very, very key part of our need.
    We have also done comparisons with how the spending over 
the years compares to say Intel. Intel is a corporation we've 
collaborated with. They have licensed us some of their 
technology. We have licensed them some of ours. We spend about 
half of the level annually on new equipment that Intel does.
    But yet, this is an area we are constantly striving to have 
our weapons be second to none in the world. It's not a formula 
that exactly balances out over the long term.
    Senator Allard. Dr. Tarter.
    Dr. Tarter. Mr. Chairman, we have, as with all the 
facilities, a maintenance backlog. As with Sandia, I think our 
problems are not as severe in many cases as those in some of 
the plants. I think we have done several things and I'd like to 
make a comment in addition along the same lines as Paul did.
    I think we very consciously have gone through, and this 
happened about 3 years ago, a site-wide prioritization of every 
facility in terms of its operational status. Is it falling 
down? Is it in perfect shape? Then, how valuable is it?
    Using that as a matrix, if it's extremely valuable and in 
bad shape, obviously we put the highest priority on it. We've 
gone through a very conscious prioritization on everything in 
the site. We were able to take care of those in sort of the A 
and B categories of greatest need. We cannot approach the next 
level down of facilities, which are needed for the long term 
health of the site. But I think at least we have a methodology 
that has helped us approach that reasonably well over the 
years.
    I think Paul made one very excellent comment. One of the 
areas, particularly in the current world, which is a piece of 
the infrastructure that isn't just bricks and mortar, is 
telecommunication, how you communicate. Somehow, it isn't just 
the bricks and the mortar. It is making the site, and I think 
John Mitchell mentioned how it's selective recapitalization of 
the whole site, not just replacing stuff that is there.
    I think that's this conscious process that we all need to 
go through. So, we have needs. Again, I think we have tried to 
get a methodology and I think some start on that additional 
piece would be very welcome.
    Senator Allard. Dr. Browne.
    Dr. Browne. Yes, Mr. Chairman, we have some very serious 
needs for maintenance, a lot of deferred maintenance has 
occurred over the years. We have a 50-year-old infrastructure 
frankly dating back to the Cold War days.
    About 40 percent of our facilities have been identified as 
in the poor or fail mode. I think you would find similar things 
at some of the production plants. They are the same vintage.
    I think it was Mr. Douglass from Kansas City who mentioned 
the 2.4 percent reinvestment rate. Ours has been less than 1 
percent at Los Alamos. So, we have some very, very serious 
problems that we would like to see corrected.
    Senator Allard. Mr. Buggy.
    Mr. Buggy. Let me just separate for a moment maintenance 
from infrastructure upgrades, if I might. From a maintenance 
planning point of view, and a maintenance management point of 
view, our tritium facilities at Savannah River Site are in very 
good shape. We have an excellent maintenance program. Our 
backlog is, and has been, for 2 or 3 years a manageable backlog 
from a maintenance point of view.
    Our issue remains what's been reinforced here a number of 
times, and that's reinvestment in aging infrastructure. We are 
able to keep up with maintenance of old facilities, but it's 
very expensive to do that. From a lifecycle cost point of view, 
you're far better off reaching the reinvestment numbers that 
have been mentioned here more than once to eliminate the severe 
expense associated with maintaining these aging facilities.
    Senator Allard. Mr. Mitchell.
    Mr. Mitchell. Mr. Chairman, probably 75 to 80 percent of 
the funding that I spend on maintenance is spent on what I 
would call breakdown maintenance. That is reacting when 
something is already broken. Somebody already found out it 
didn't work and told me and I had to go fix it.
    The remainder is spent on preventative maintenance. What 
that means is that our ability to plan and sustain any kind of 
maintenance plan is driven by the fact that we are reacting to 
production needs. Anytime you're in a breakdown maintenance 
mode as we're operating a production facility, when things 
break you fix the things that have to be fixed then to get the 
production line back up.
    So our ability to sustain any kind of planned investment 
for maintenance is very much restricted by how much we have to 
do just to keep the production line running.
    As we increase our ability to sustain and support the life 
extension programs, this will be made worse. We are going to be 
reactivating lines we have not used for some period of time. 
Pieces of equipment that we have not actively used for 
production are going to be coming back on line, all of which 
represent old technologies in many cases and very high 
maintenance risks.
    It is going to be extremely difficult for us to break out 
of this reactive maintenance mode for a while without a very, 
very significant direct and sustained investment and being able 
to get the equipment back up to the former standard. It doesn't 
drive us, we drive the plant.
    Senator Allard. Mr. Douglass.
    Mr. Douglass. Thank you. We have all been very effective 
over the years in doing reactive maintenance and it's what's 
enabled us at Kansas City to continue to support the variety of 
production applications we have to date.
    Unfortunately, things such as replacing air handling units 
aren't glamorous. However, when an air handling unit breaks 
down, it shuts down my clean room. When I shut down my clean 
room, I'm unable to do microcircuit production. That is what 
will begin to effect us over the long term. We'll continue to 
use efficiency improvements to address near term needs and 
those have been effective to date.
    However, we need the infusion to address the long term 
sustainability of business so that we can continue to be ready 
to support the Stockpile Life Extension Program.
    Senator Allard. Mr. Ruddy.
    Mr. Ruddy. You started off the question by talking about 
science over maintenance or science over infrastructure. I 
think that's the position that we're in as long as we have to 
maintain deterrence without nuclear testing. So, that emphasis 
is not incorrect.
    The position that we have been put in is to not act like 
businessmen in reinvesting in our business. Let me use a couple 
of other benchmarks. The facility infrastructure at Pantex has 
been estimated conservatively at about $6 billion. If you use a 
40-year depreciation, we should be reinvesting in that facility 
at a rate of about $150 million a year. Our funding average 
over the past 10 years has been less than $20 million.
    Another benchmark would be a percentage of revenue 
reinvestment at the 5-percent level that Mr. Douglass talked 
about before. For a business like Pantex, which as a commercial 
business would be about a $2 billion business. Again, that 
would be about $100 million a year in reinvestment.
    The point I'm trying to make here is that, as Mr. Douglass 
just said, you pay twice for deferred maintenance. You have to 
pay for it sooner or later, but you also pay for it in your 
productive capacity being off line. That's a very expensive 
thing to do in facilities with the high technology that we have 
across our complex. Thank you.
    Senator Allard. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Mr. 
Chairman, because of the number of panelists, and also the late 
hour, could I request permission to submit written questions to 
both General Gordon and the panelists?
    Senator Allard. Yes. I think that's appropriate. Everyone 
will have 3 days for questions to be submitted to the 
subcommittee. Then, if the panelists would respond promptly 
back, we'd appreciate that very much.
    Senator Reed. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony and let me ask that each of you 
to respond to the following questions.
    Funding for Laboratory Directed Research and Development 
Program (LDRD) was restored in fiscal year 2001. The DOE 
Science Advisory Board recommended that it should be increased 
to as much as 10 percent of lab budgets. Could you indicate 
from your perspective in each individual lab why LDRD is so 
important and what is the appropriate funding level and have we 
reached that level yet? Dr. Robinson.
    Dr. Robinson. Sir, I've been in this community for more 
than 30 years. I began at Los Alamos. When I went to Los 
Alamos, the size of LDRD funding was 20 percent. I've watched 
it, over that period of time, continue to decrease. It went 
below the current 6 percent to 4 and is back up to 6 percent 
now.
    The industrial standard, if you look at the research and 
development components to government contracts, they're 
typically in the range of 8 to 12 percent. Higher-tech 
industries spend 20 percent. The DuPont Corporation has 
traditionally spent 20 percent on research and development. The 
software companies of the high-tech generation are in the 25- 
to 30-percent categories.
    So, there is not a single number. Ours is among the lowest. 
The principle purpose is for new ideas. When new ideas take 
place between one set of ears, someone has an idea quite often 
at home at night or waking up in the morning with the idea in 
their head. They come in and they say, ``Gee, I just thought if 
we put the following elements together, we might be able to 
achieve the following.''
    That's the beginning of LDRD. It's exploratory ideas to try 
something out that's never been done before. I refer to it as 
the lifeblood of a laboratory. It is what keeps your people at 
the top of their game. It's what keeps their psychic energy 
engaged in what they do.
    When you constantly have people come in with new ideas of 
how to make things better, how to bring new strengths to the 
company and you say gee, I'm sorry, there is no money, it's not 
a very good feeling to be a manager in such a situation. But, 
that's what I've watched things change over the years.
    I believe somewhere in the 8 to 10 percent range would be 
far superior to where we are today.
    Senator Reed. Thank you, Doctor. Dr. Tarter.
    Dr. Tarter. Let me pick up. I think you can talk about LDRD 
in a lot of different contexts, but let me use it in the one 
which I think General Gordon referred to use it and I think 
some of the questions to him spoke to it and Paul mentioned it 
briefly. That is basically recruiting and retaining people.
    I think General Gordon indicated you might get some insight 
as to why people come or join a place and how we bring them 
into the site. When you hire new, primarily Ph.D. graduates 
from a university, whether it's physics or chemistry or 
whatever it is, they probably have not spent their last 5 years 
doing weapons design and they probably won't spend their next 2 
years doing weapons design.
    What they do is they come and join an institution where 
they can do cutting edge research in areas that are relevant to 
weapons design. They come in, as Paul said, and when that 
happens they have ideas. Those ideas infuse themselves into the 
weapons understanding, but they get to do unclassified 
projects, in many cases, on the days they enter an institution.
    Then, as General Gordon said, it's not quite a bait and 
switch, but they get interested by the more applied problems.
    Something like well over half of those people got part of 
their support, not all of their support, but part of their 
support on LDRD projects that came in with them and their 
ideas. So, if you could defend or promote, or whatever you wish 
on LDRD in many respects, but in my mind it is the people 
bringing them in and allowing their ideas to infuse the 
institutions that is the overwhelming necessity for having it.
    I think, to pick up on a comment that Dr. Browne made, that 
at the current level of very structured microstructure funding 
of the program, then I think LDRD needs to be in Paul's 
suggested range of the five to 10 percent where we can debate 
those details because our flexibility in other areas is very 
much focused on a detailed program thing. So, I think that's 
the proper range.
    Senator Reed. Thank you, Doctor. Dr. Browne.
    Dr. Browne. Yes, I would echo everything Bruce and Paul 
said. I would just add one more point and that is that 
sometimes people think that the research that's done in LDRD 
doesn't result in anything relevant to the program.
    In fact, NNSA has put together a lot of reports on the 
impact that this research has had on the program. One of the 
most recent examples that we have from Los Alamos is a new type 
of radiography, which is called proton radiography, which 
allows you to see inside of an exploding object with higher 
resolution that we've ever been able to do it before. But, in 
addition, it allows you to create a motion picture of the 
dynamics of an imploding object.
    That's really powerful. That came out of people funded from 
LDRD, people who worked in our science programs who were not 
directly related with the weapons program.
    I think Paul's right that the number between 8 and 10 
percent would allow us to have the ability to begin to address 
this critical skills problem. I think Bruce said it well. It's 
the critical skills part of this that we have to get the people 
with the highest quality into these labs.
    I know, and I think Bruce is in this same category, and 
perhaps Paul is too, we all came to these labs about 30 years 
ago and we were recruited through essentially LDRD, all three 
of us.
    Dr. Robinson. If I could add one more thing?
    Senator Reed. Doctor, please.
    Dr. Robinson. When I arrived at Los Alamos, one of the 
first things I learned as a young experimental physicist was a 
statement Enrico Fermi had made at the laboratory during the 
war. He said it's not worthy of being called an experiment 
unless it has at least a 50 percent chance of failing.
    Because that's how science moves and advances forward. You 
take a risk. You try something. You see how it works out and 
make the next step.
    In our structured programs, no one will allow you to fund 
something that might have a 50 percent chance of failing. It's 
only in the LDRD area that you get to try a new idea with that 
large a chance of failing. We've gotten away from the 
scientific method with overstructuring of the programs.
    Senator Reed. Thank you very much. Let me shift to the 
other side and ask the plant managers a question, which I would 
like everyone to respond to, and that is cooperation between 
the labs and the plants.
    I think that we would all suggest that it has had its ups 
and downs over the years. But, if you could just give us a 
notion of where you think we are and those things we can do to 
improve that relationship. Mr. Ruddy, could you start and we'll 
go down the table?
    Mr. Ruddy. In the short time that I have experienced the 
interaction between the laboratories and the plants, I have 
been very gratified. Most people don't know it, but I spent 25 
years at the Bettis Atomic Power Laboratory. So, I sat on the 
laboratory side as well as the plant side. I've been quite 
pleased with the amount of cooperation between the laboratories 
and the plants.
    However, one of the things that we have to concentrate on 
is bringing better program management skills to that interface. 
In a lot of cases in the past, and in a lot of the complaints 
that have come to me, it's because we haven't communicated very 
clearly our needs in very succinct terms.
    What do you want and when do you need it? That kind of 
communication will continue I think to keep the level of 
cooperation between the plants and the laboratories at the 
highest and most effective level.
    Senator Reed. Thank you. Mr. Douglass.
    Mr. Douglass. We work continually with the laboratories. We 
have partnerships with all three design laboratories. We take 
products that they design and move them into production. Those 
relationships are working very well today.
    We also work a lot between the plants to try to realize 
greater efficiencies in the complex and the sites in the 
complex. It's also important that each of the sites work very 
efficiently to improve our own operations, such as how we might 
deploy new e-business technologies to drive greater 
efficiencies both internally and throughout the complex using 
information technologies.
    I would characterize the relationships as strong and with 
the leadership that's now in place in the complex, getting 
stronger.
    Senator Reed. Thank you. Mr. Mitchell, please.
    Mr. Mitchell. I have about a 30-year career of witnessing 
relationships with the laboratories, in different places and 
different guises. I would characterize it right now as 
excellent by the way, but I think there are reasons for that. 
If you go back to the 60s, 70s, and 80s, when we were in the 
heydays of doing things, people had common goals and common 
objectives, shared ways of making trade-offs and values and 
investments. Everybody was producing the same product so you 
knew how to trade.
    I think what happened in the last 8 or 10 years when that 
was gone, was you saw people not knowing how to make their own 
value judgments about how to do things. They tended to become 
institutionalized, particularly competitive in some areas. I 
think the key to our new modern way of doing things and a 
successful habit in the future is the reintroduction of the 
drive the extension programs give us. We again have a common 
focus. We can identify what the product is, we know we have to 
work together. Neither one of us can succeed without the other. 
I think there's been a very noticeable change in the 
relationship with the laboratories driven principally by the 
W87, candidly, that we carry into other places.
    A shared objective, ways to make shared values. That allows 
us to work together and use all our skills cooperatively. I 
think there's a great future that way.
    Senator Reed. Mr. Buggy, please.
    Mr. Buggy. Just briefly, I'd like to just reinforce what's 
been said. My experience is that there's very good cooperation 
among the plants. They work together to try and drive cost 
savings into their operations. A large number of plant managers 
meeting go on to share ideas. The relationship between the 
design agency which is generally the labs and the plant I think 
is excellent, and at the risk of sounding like I'm looking for 
a job, I'd like to compliment General Gioconda for his strong 
support in driving those kind of partnerships between the plant 
and the labs, as he's done over the last couple of years. I 
think it's worked very well.
    Senator Reed. Dr. Browne, from the labs' perspective now.
    Dr. Browne. Yes. We can't do our job without the plants and 
I think John Mitchell said it the best, at the end of the Cold 
War when we really saw the program budgets really falling 
through from the ceiling down to the floor, it started not to 
tear us apart but we didn't have a common focus anymore. I 
think the restructuring of the program has brought us back 
together again and I think we're working well together.
    Senator Reed. Dr. Tarter.
    Dr. Tarter. Yes, I--as John Mitchell said, I think the W87 
really brought out the--we had a common purpose. I think it 
worked very well and I think that--as we get onto the SLEP 
schedule, meeting the Department of Defense requirements, I 
think you'll find that we continue to build the lattice.
    One other comment I'd make is I think an interesting--
before Mr. Douglass became head of Kansas City, we had an 
interesting thing which I think we can make more of in the 
future, and that is we had a program which is no longer at our 
laboratory, isotope separation. We needed a project-focused 
manager, and manager in a managerial, technical and engineering 
personnel with Q clearances, ability to work nuclear weapons 
environments. We basically took people from Kansas City on a 
short-term period, a year or two, to do that work.
    I think both in terms of technologies, as well as people, 
that's something which if we gain in the sense of the NNSA 
we'll be able to share around the complex.
    Senator Reed. Dr. Robinson.
    Dr. Robinson. The enterprise that's put together with all 
of us working collectively has extraordinary goals compared to 
any other industry. The only thing even approximating the level 
of reliability we require is a heart pacemaker. So the product 
depends on all of us functioning. We do share a common faith 
but it's the mission that all of us embrace that's much larger 
than just us being successful with our product. It is the 
country that's on the line and I think that mission spirit has 
forced the cooperation levels. It's been a good one throughout 
my 30 years.
    Senator Reed. Thank you very much. Mr. Chairman, I think 
perhaps if we had written questions, we could get some more 
knowledge and at this point, I will give back my time.
    Senator Allard. I have one question. I want to emphasize 
security for just a little bit. Perhaps you might tell us what 
you see as the biggest security risk. I think the last 2 years 
I am not just pointing at the labs and the plants here, but in 
all agencies of the Federal Government I think security somehow 
has gotten moved too far down on the priority list.
    I would like to just ask you what you see as your biggest 
security risk in both the laboratories and the weapons. Also, 
what you may see in the future. I mean, what are you doing for 
cyber security for example. Then, also, do you feel that you 
have a good point of contact with the NNSA? Do you fall into a 
plan there or an organizational chart or do you feel like you 
have to report and I would like to have you comment to that, if 
you would, please.
    Dr. Robinson. The biggest security risk for at least a 
decade has been in the cyber area. Computers allow so much 
classified information to be concentrated that the potential 
for theft is enormous. I told my people in the same way as we 
talk about a revolution in the information age, there's a 
revolution in espionage because of the access to computers.
    The Wen Ho Lee case I think was a wake up call for 
everybody. The material that was put onto tapes, which were 
carried outside the laboratory, represented 80 reams of paper. 
Now, if someone had tried to carry that out as paper, I dare 
say it would have attracted a lot of attention.
    We have been on an intensive campaign both within the 
laboratory to change the way our business is done in all three 
of the laboratories. Sandia had the responsibility to build the 
classified communications system for all the complex, the 
plants and the labs. It's an enormous challenge and one that I 
think is not going to get any easier as we move to the future.
    Senator Allard. Do you feel like you have somebody in the 
NNSA to whom you can report?
    Dr. Robinson. We formed a task force with the best experts 
from each of our facilities and they have teamed up with the 
NNSA to have a brief that I believe is as powerful as exists in 
our government today. We have taken on the role of providing 
red team analysis for the cyber systems of most of the major 
agencies of our government outside of NNSA as well.
    Senator Allard. Now, do you have anything you would like to 
elaborate more on what he said? Dr. Browne?
    Dr. Browne. I agree with everything Paul said, that cyber 
is the biggest threat that we face. We spend on physical 
security, the guards and gates, etcetera, probably close to 
$100 million at Los Alamos.
    Two years ago, when we funded cyber security out of our 
laboratory indirect, we put about $10 million of our laboratory 
indirect into cyber security. This year, it's funded through a 
direct funding line so we're not allowed to use overhead for 
cyber security. We will only direct fund it at the level of 
about $4 million this year.
    I think that's way too low. Our minimum requirement is 
somewhere around $15 million and probably twice that is what 
really would allow us to address the threats that are coming 
up. We think we're secure today.
    But as Dr. Robinson mentioned, the threats are getting more 
sophisticated and I think these labs have to stay ahead of the 
game and we're going to require more resources to do that. The 
dollars have to make it out into the field. The fiscal year 
2002 budget has increased funding for cyber security in the 
President's budget. I just hope a lot of that money makes it 
out to the labs where a lot of the issues are.
    Senator Allard. Yes, Mr. Mitchell.
    Mr. Mitchell. Just to comment, I recognize the intent when 
the security funding was put in its own separate line, it's own 
category, and treated separately to allow it to be highlighted. 
I believe in some areas it may have acted to the detriment of 
what's intended. It has severely reduced our flexibility and 
ability to react to quickly sometimes. Because now we're 
reduced to operating through a budget cycle, specifically in 
security matters, as opposed sometimes to reacting quickly 
within other funds where we have flexibility.
    Security issues, when they come up, happen quickly. You 
must respond very quickly. The timing of our budget cycle 
doesn't always support that. To your other question, however, I 
believe it's quite clear we know we do have representatives in 
NNSA who are responsible and accountable in a security matter.
    Senator Allard. Dr. Tarter.
    Dr. Tarter. Yes, I certainly agree with John and Paul that 
cyber security has been what's different and I think that's 
overtaken in thinking through these issues.
    I think one of the important things for the committee to be 
aware of, if you're not, is that near the end of the last 
administration, a commission was chartered under the direction, 
under the leadership of former Deputy Secretary of Defense, 
John Hamre, to basically explore the science/security 
interface, if you wish.
    As General Gordon commented earlier, that's a very, very 
strongly led and strongly peopled commission, with people from 
industry, the military, the intelligence community. They are on 
about an 18 month track. I don't know the exact date. John or 
Paul may remember but it's about another 6 months and I think 
we have looked to them as has General Gordon, and I believe 
Secretary Abraham has probably almost formally rechartered them 
if not yet. But we are looking forward to them to speak on many 
of the issues, particularly those involving cyber security and 
the whole science/security interface. I think the committee 
would be well-advised perhaps to have Secretary Hamre talk on 
some of those subjects when their commission is done.
    Senator Allard. Mr. Douglass.
    Mr. Douglass. Just briefly. Information is becoming 
increasingly important to us as we manage our businesses. The 
timeliness and the accuracy of that information is increasingly 
important. Thus, the information technology to support it and 
the security elements that extend with that become more and 
more of a challenge. That's not to say that we are not 
sufficiently protected in the cyber realm today. For example, 
in Kansas City, Cisco came in and intentionally we let them try 
to hack into our systems. They were unable to, and they said 
the systems were some of the safest that they've seen. But 
cyber security is part of some of this deferred infrastructure. 
With the rapid advancements in information technology, we have 
to continue to keep pace with the technology that extends into 
the whole IT realm.
    Senator Allard. Very good.
    Mr. Ruddy. I would just add to what Mr. Douglass said. The 
bandaids that we're adding to our IT system make them more 
vulnerable. If we keep pace with the technology then we can be 
assured that we will have the best available cyber security but 
if we continue to put bandaids on our systems, we're going to 
create a vulnerability that didn't exist at the time that we 
put them on.
    Senator Allard. Thank you. I want to thank the panel. We 
will keep the record open for 3 days for questions and for 
statements and for information, I will be submitting some 
inquiries regarding reorganization, NIF, and ASCI.
    So, again, I know sometimes it is difficult to come and let 
us know what you are doing and it is hard to get away from the 
job. But, we appreciate you taking the time to be here to let 
us know what is happening. Thank you very much. The hearing is 
adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Wayne Allard

                      RESTORING TRITIUM PRODUCTION

    1. Senator Allard. General Gordon, according to your budget 
submission under ``Project Milestones,'' the next major milestones for 
the Tritium Extraction Facility (TEF) in fiscal year 2001 are 
completion of the final design, completion of site preparation, and 
initiation of facility construction. After that, the next major 
milestone is not until fiscal year 2004, which is completion of 
facility construction. What measures do we have to indicate we are 
making steady progress between fiscal year 2001 and fiscal year 2004?
    General Gordon. The TEF project is being tracked against a detailed 
baseline schedule that contains thousands of activities. The TEF 
Project Office at the Savannah River Site tracks currently active 
project items, sometimes on a daily basis. Monthly, the TEF Project 
Office submits data reports to the NNSA Headquarters Tritium Project 
Office. These data reports give the status of all currently active 
project items, their completion percentage, the rate of spending for 
each activity, any issues pertaining to the activities, and earned-
value analyses of cost and schedule performance. The TEF Project Office 
also makes weekly verbal and written summary reports to headquarters. 
The Commercial Light Water Reactor (CLWR) Project, of which the TEF 
Project is a subset, holds quarterly review meetings where project 
progress and issues are discussed in detail.
    In addition to these formal reports, the TEF Project Office has 
been subjected to a series of independent external reviews of the 
facility's design and the project's management and performance. Various 
aspects of the TEF Project are subject to financial incentives to help 
ensure successful schedule, cost, and technical performance of the TEF 
Project Office and its subcontractors.
    The Stockpile Stewardship Plan milestones listed for TEF for fiscal 
year 2001 have all been accomplished. The following is a list of 
additional significant project milestones for the TEF from fiscal year 
2002 until fiscal year 2006:
    a. Award fixed-price contract for TEF remainder of plant and begin 
construction (2Q/fiscal year 2002);
    b. Complete civil/structural construction of the Remote Handling 
Building and the Tritium Processing Building (4Q/fiscal year 2002);
    c. Begin training of TEF operating personnel and preparation of 
operating procedures (4Q/fiscal year 2003);
    d. Submit FSAR addendum for approval (2Q/fiscal year 2004);
    e. Begin integrated testing of TEF systems (1Q/fiscal year 2005); 
and,
    f. Critical Decision-4, begin operation of the TEF (2Q/fiscal year 
2006).

                             PIT PRODUCTION

    2. Senator Allard. General Gordon, does the future pit facility 
include a flexible enough plan and program that whatever pit production 
requirements may occur in the future, the new facility will be 
qualified to take on those new requirements?
    General Gordon. Yes. A modern pit facility must have the capability 
to address all future pit fabrication requirements. The size and 
composition of the future nuclear weapons stockpile must be specified 
and expected lifetimes of pits must be predicted with more precision so 
that planning for this facility is sufficient to ensure appropriate 
capacity and to ensure that the facility will be available when 
required. We are studying just these factors in our preconceptual 
design studies initiated with the $2 million provided for that purpose 
in our fiscal year 2001 appropriation.

                  WORKFORCE RETENTION AND REPLACEMENT

    3. Senator Allard. General Gordon, the Chiles Commission Report, in 
particular, and other reports, discuss a variety of challenges to 
attracting the best and brightest into the ranks of the nuclear weapons 
complex. What are the biggest obstacles preventing the best and 
brightest scientists and engineers from joining the nuclear weapons 
program?
    General Gordon. Last year we submitted to Congress a joint report 
with DOD titled ``Nuclear Skills Retention Measures within the 
Department of Defense and the Department of Energy'' pursuant to 
section 3163 of the National Defense Authorization Act for Fiscal Year 
2000. In that report we stated: ``From its inception, a key 
consideration of the SSP has been to provide cutting edge facilities 
and a challenging programmatic environment to promote the recruitment 
and retention of world-class scientists and engineers, by providing the 
instruments for intellectual challenge, as well as the new tools and 
capabilities needed to assess and certify the stockpile.'' The most 
significant obstacle to attracting the best and brightest scientists 
and engineers to the nuclear weapons program will be if we fail to 
continue to provide the Stockpile Stewardship Program with a 
challenging work environment and state of the art facilities.

    4. Senator Allard. General Gordon, is there a coordinated plan or 
management perspective addressing the issue of workforce retention and 
recruitment in response to the Chiles Commission Report?
    General Gordon. Our joint report with DOD to Congress presented our 
management perspective on the problems and challenges to recruitment 
and retention of critical skills to maintain the nuclear deterrent 
indefinitely. The report also summarized the situation at each of our 
weapons production plants, laboratories, and the Nevada Test Site and 
the actions being taken or planned by our contractors. Each contractor 
is maintaining a workforce plan focused on critical skills. We review 
those plans and are using performance metrics reports to keep tabs on 
progress in this crucial area. While there is no single coordinated 
plan for the entire complex, we promote joint efforts and the sharing 
of best practices among the contractors.

    5. Senator Allard. General Gordon, what efforts are being made to 
ensure that the unique expertise and experience held by our current 
scientists and engineers are being recorded and cataloged for future 
workers?
    General Gordon. The Office of the Deputy Administrator for Defense 
Programs of the National Nuclear Security Administration (NNSA) is 
developing a Nuclear Weapons Information Management (NWIM) program, 
which encompasses the planning, identification, acquisition, 
protection, dissemination, storage, and retrieval of nuclear weapons 
information, data, and knowledge. Knowledge capture activities are 
being conducted at some sites, which consists of conducting interviews 
or video taping of presentations with retiring or retired nuclear 
weapons experts to provide Stockpile Stewardship Program information 
that may not be formally documented. In addition, some programmatic 
activities are designed to document and transfer information to the 
next generation of scientist and engineers. For example, the Baselining 
Program is designed to establish and document our current understanding 
of weapons for refurbishment activities and for future weapon 
designers. Another example is the ``Titans'' program at Los Alamos 
National Laboratory, which consists of a formalized program of 
transferring weapon expertise from current senior experts to junior 
designers. Much of the ``Titans'' program senior designer expertise is 
contained in documented lecture notes. Similarly, the Sandia Weapon 
Intern Program includes one-on-one encounters with senior weaponeers 
and nuclear weapons pioneers. Also individual sites have training 
programs in which lecture materials include case histories on weapons. 
Defense Programs' weapon surveillance program is designed to identify 
and document unusual findings, their analyses, and corrective actions 
for later reference by future experts.

    6. Senator Allard. General Gordon, would adding design work on a 
new weapon help ensure that current designers pass critical skills and 
experience on to successive generations of weapons scientists?
    General Gordon. Without question, the development of a new nuclear 
weapon design would provide an important challenge to our people and 
the nuclear weapons complex that goes beyond our current activities. 
These are capabilities that can degrade if they are not exercised from 
time-to-time. A new design would allow our older, more experienced 
designers to mentor the upcoming generation of designers in new and 
challenging work to test both their abilities and the Nation's 
confidence in them. The Chiles Commission noted in its final report in 
1999 that ``5 or more years of experience working with experienced 
senior designers is required to develop a fully capable, independent 
designer.'' We have in place several mentor programs to train our 
critical next generation, but more can be done. The NNSA is looking to 
develop an advanced concepts office within the Office of Defense 
Programs to stimulate, identify, and execute high-impact seed projects 
to encourage new thinking, innovative strategies, cross-cutting 
integrated approaches, address technology gaps, and provide a 
challenging environment to our current and future weapons designers. 
The NNSA feels that the current set of activities in stockpile 
refurbishment along with the advanced experimental tools being 
developed and the increasing simulation capabilities provides 
challenges and increased understanding to the next generation of 
weapons designers. These challenges could be supplemented by new design 
work, if that work can be made realistic enough to be viewed as 
``career challenging and enhancing'' by young scientists and engineers.

          INFRASTRUCTURE: READINESS IN TECHNICAL BASE FUNDING

    7. Senator Allard. General Gordon, there are several facilities--
either whole or in part--within Defense Programs which are not now 
being used, nor does NNSA anticipate using in the future. The excess 
facilities space creates opportunities to reduce the landlord costs of 
the program; however, they are often in such poor condition, that they 
are not acceptable for transfer to the Environmental Management (EM) 
program. This seems like a good opportunity to reduce non-mission 
direct expenses. What can be done to expedite the transfer of these 
unused facilities and help eliminate some of these apparent 
inefficiencies within NNSA?
    General Gordon. We do have excess facilities at all of our sites. 
We are reviewing how to proceed with either the transfer of those 
excess facilities to the Office of Environmental Management or 
decontamination and decommissioning of the facilities ourselves. Our 
long-term goal will allow us to create a weapons complex that is 
properly sized (reducing our foot print), with increased operational 
readiness of facilities, reduced non-productive facility downtime, 
reduced unplanned corrective maintenance, arrested deterioration of 
facilities, and extended useful lifetimes of current facilities.

                 ABILITY TO RESUME UNDERGROUND TESTING

    8. Senator Allard. General Gordon, the second Foster Panel Report 
stated that ``DOE report[ed] that it is prepared to conduct underground 
nuclear testing within 24 to 36 months, if so directed by the 
President.'' The Foster Panel offered its opinion that ``such lead 
times are unacceptable and that the NNSA should investigate a range of 
possible options to reduce lead times to, say, 3 to 4 months from the 
President's making a decision to proceed.'' Would it still take NNSA 2 
to 3 years to resume underground testing if directed to do so by the 
President?
    General Gordon. Consistent with existing Presidential direction 
(PDD-15), NNSA is maintaining the ability to conduct an underground 
nuclear test within 3 years at the Nevada Test Site. A 1999 DOE and the 
Secretary of Defense's Office of Program Analysis and Evaluation (PA&E) 
joint review for the Nuclear Weapons Council identified a number of 
issues that could be addressed to improve test readiness. As part of 
the National Defense Review, NNSA staff in consultation with the 
National laboratories have reviewed and largely revalidated the 
findings of the PA&E study. The identified items to improve test 
readiness, such as procedures, diagnostics, and field test neutron 
generators, have been included in proposals for additional test 
readiness funding. However, improving readiness lead times to 
substantially shorter periods is a different matter. Even at the peak 
of the underground test program it typically took 18 to 24 months from 
a decision to develop a test to the conduct of that test. Much of this 
is the time required to prepare a device for testing including 
assembling diagnostics. Stockpile devices require extensive 
modifications to test underground and it is difficult to shorten this 
time. In order to shorten the test time down to 1 year, specific test 
devices would have to be selected and prepared, and diagnostics and 
test racks would need to be developed. If a test were to be done for 
demonstration only, with minimal diagnostics, it is believed that the 
test could presently be prepared in about 1 year. To shorten the time 
to 3 months, NNSA would have to almost fully prepare a test and be 
standing by, ready to emplace a device in the Nevada Test Site 
location. A decision to begin to prepare specific devices for testing 
would require a Nuclear Weapons Council decision.

    9. Senator Allard. General Gordon, is the NNSA concerned with this 
long lead time and are you doing anything to reduce this long lead 
time?
    General Gordon. The NNSA believes that a 2-year test readiness 
posture may be too long to meet U.S. national security requirements. As 
part of the Strategic Review, and upcoming Nuclear Posture Review, the 
NNSA is working with DOD to assess the implications of reducing the 
test readiness posture to 18 months or less.

                          NNSA REORGANIZATION

    10. Senator Allard. General Gordon, I am concerned that right now 
responsibility is diffused and that no one person, whether they are a 
Federal employee or a contractor, is held accountable. What actions are 
you taking to ensure there are both clear lines of authority and 
accountability?
    General Gordon. One of my key objectives in standing up the NNSA is 
to define clear lines of authority and accountability. One step we have 
taken toward that goal was to prepare a Report to Congress on the Plan 
for Organizing the National Nuclear Security Administration, submitted 
on May 3, 2001. This organizational plan establishes a clear 
distinction between staff and operational organizations. Staff elements 
are to provide input and support, but operational managers will be 
responsible for running their respective organizational units.
    In an effort to assure that direction and control of our 
contractors is only exercised by those authorized to do so, the report 
defines the missions and functions of each headquarters organization 
and discusses external and internal relationships among organizations. 
Writing down these specifics about each organization helps establish 
operational discipline. We recognize that much remains to be done to 
achieve this objective and thus we intend to report again on our 
progress by October 1, 2001.

    11. Senator Allard. General Gordon, the organizational chart which 
you have provided the subcommittee appears to offer a much smoother 
flow in the chain of command than what we have seen in the past. I 
would appreciate an explanation of how you anticipate the chain of 
command to operate in this new organizational structure, and how you 
envision the lab directors and plant managers fitting into the overall 
organizational scheme.
    General Gordon. The NNSA organizational plan, cited above, 
envisions dividing headquarters functions into program and support 
activities: Defense Programs and Defense Nuclear Nonproliferation will 
focus on achieving mission objectives, such as maintaining the 
stockpile and deterring proliferation. Two new organizations, 
Management and Administration, and Facilities and Operations, will 
focus on the enabling functions, such as budget, facilities readiness, 
and security, required to do our job. As Administrator, I will be 
responsible for the overall performance of the organization. The 
Administration has asked Congress to statutorily create a Principal 
Deputy to provide me assistance in my role of integrating these 
functions.
    By defining clear missions and functions for each headquarters 
organization, we are seeking to prevent multiple interventions from 
headquarters in the work of our field organizations and contractors. 
The responsibilities of the Lab Directors and Plant Managers are 
defined in contracts and they receive formal direction through 
contracting officers at our field offices. However, I intend to develop 
a close working relationship with the laboratory directors a 
partnership that will provide them with the broad outlines of our 
expectations. The leaders of our program organizations will have 
similar if somewhat deeper relationships with the relevant associate 
lab directors and plant managers that are responsible for accomplishing 
the mission work of the NNSA. In a similar way, the heads of our 
support organizations will work closely with the relevant officials in 
the contractor organizations to assure that enabling functions such as 
facilities maintenance and security are being performed appropriately. 
While specific decisions and directions will be formally communicated 
through the contractual chain, these lines of communication will 
establish clear expectations between our contractors and the leadership 
here at headquarters.

    12. Senator Allard. General Gordon, how do you envision the NNSA 
organization interacting with the Secretary of Energy and other DOE 
officials?
    General Gordon. I am pleased to say that the relationship between 
NNSA and the Secretary is working quite well. We consult regularly on 
issues of mutual interest, and are working to assure that the NNSA Act 
is implemented consistent with the intent of Congress. We are seeking 
ways of ensuring that the Secretary receives necessary information 
about the operations of the NNSA, without DOE staff organizations 
directing the activities of NNSA programs or contractors. For example, 
we are seeking to better coordinate or consolidate the Department's 
oversight activities to avoid duplication and reduce unnecessary 
visits.
    While NNSA has established authority over, and responsibility for, 
the 18 functions listed in the NNSA Act, organizationally we must still 
depend on DOE for some services, such as processing personnel and 
procurement actions. In these cases, NNSA has signed memorandums of 
understanding (MOUs) with DOE organizations that we will continue to 
rely upon. These MOUs make it clear that DOE personnel are providing a 
service to NNSA and are not directing or controlling NNSA activities.

                        SECURITY WITHIN THE NNSA

    13. Senator Allard. General Gordon, how are resources for security 
allocated between headquarters, the field offices, and the facilities 
themselves? In your response, please provide a chart or outline of how 
these funds are applied by category and funding level.
    General Gordon. The funding levels for NNSA security headquarters, 
field offices, and facilities are allocated in accordance with 
validated Safeguards and Security requests. The categories of Physical 
Security, Personnel Security, and Cyber Security are used as decisions 
within the NNSA scope. Allocation of available security resources flow 
from headquarters to field offices and then to facilities for NNSA O&M 
and construction work. Attached is a chart showing how security funding 
is applied by category to facilities, field offices, and headquarters 
within NNSA. The funding shown for the Personnel Security category 
includes necessary processing, control, and educational activities but 
does not include the cost of conducting individual security 
investigations. Additional funding to reimburse the OPM and FBI for 
performing individual security investigations is provided from DOE's 
Office of Security and Emergency Operations (SO-21). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
                      RESTORING TRITIUM PRODUCTION

    14. Senator Allard. Mr. Buggy, do you have any concerns with a 
delay in the schedule or the missing of milestones with the 
construction of the TEF?
    Mr. Buggy. The Project has just completed the major task of 
detailed design ahead of schedule. That design and virtually every 
other aspect of the Project have been the subject of many independent 
reviews. The reviews have verified the strength of the Project team and 
its plan. Where improvements were recommended, the plan was further 
strengthened. We feel that the Project is in excellent shape regarding 
the quality, accuracy, and completeness of design. Physical 
construction is underway. Notwithstanding our progress to date, as part 
of effective project management, we have identified several potential 
risks. Our planning calls for two major lump sum construction 
subcontracts, the first for the civil/structural portion of the Remote 
Handling Building (RHB), and the second for the electrical, piping, and 
mechanical systems installation. The RHB subcontractor is several weeks 
behind schedule and is currently working extended shifts to recover 
schedule. His current forecast shows schedule recovery by December of 
this year. We are working with the subcontractor to support his success 
and we consider his recovery achievable, but it will be a challenge. 
The second subcontract is technically more challenging and a more 
difficult coordination task than the RHB. We expect to award this 
subcontract in January 2002. We are concerned with market conditions 
and availability of qualified contractors willing to perform lump sum 
construction work on a government contract. If there is a lack of 
qualified contractor interest or the bids come in significantly higher 
than our budget, the project cost and schedule could be impacted.

    15. Senator Allard. Mr. Buggy, are there any other issues at the 
Savannah River Site (SRS) which would create a problem for the TEF to 
be constructed by 2006?
    Mr. Buggy. Interruptions in adequate and timely funding are always 
a concern. We are currently forecasting the need to pull approximately 
$15 million of outyear funding forward to fiscal year 2003. This is not 
an increase in the TEF's cost, but an adjustment to the required 
funding profile based on a more mature schedule logic. DOE HQ is aware 
of the need and supports the change. If this funding profile change is 
not supported, it will impact the cost and schedule of the project. 
Additionally, any cuts in overall site funding for EM would have an 
adverse impact on TEF because the proportionate share of site overhead 
costs for DP projects such as TEF would be increased.

                           WEAPONS EXPERTISE

    16. Senator Allard. Dr. Robinson, Dr. Tarter, Dr. Browne, Mr. 
Buggy, Mr. Mitchell, Mr. Douglass, and Mr. Ruddy, what efforts are 
being made at your laboratories or weapons plants to ensure the unique 
expertise and experience held by our current scientists and engineers 
is being recorded and cataloged for future workers?
    Dr. Robinson. We have a number of purposeful, integrated activities 
focused on people, work activities, and processes to ensure that the 
unique expertise and experience of current and past employees are 
available for future generations.
    We begin by actively recruiting the best qualified technical 
graduates from the finest institutions in the Nation to assure that a 
continued talent base is available to meet future weapon program needs. 
We engage our existing staff and new hires in mentoring relationships 
with experienced staff to build their knowledge and understanding of 
the intricate details associated with weapon systems. We specifically 
task our most experienced members of technical staff with a special 
responsibility to mentor and train less experienced personnel.
    Sandia conducts a Weapons Internship Program, which involves 
course-work, field trips, and mentoring by our retirees, to expose 
selected young staff to the history and background of the weapon 
program, stockpile systems, and major technical underpinnings. This 
program helps assure that our young engineers receive the required 
training to take on the challenges they will face. In addition, we 
retain key members of our retired workforce on consulting agreements to 
advise on current and future weapon-related activities.
    In addition to our focus on people, we want to expose our staff to 
the proper mix of work activities. We actively seek out a balance of 
experienced and new personnel in staffing our development teams that 
support stockpile activities. Through dual revalidation programs and 
baselining, we actively engage design teams in assessing the 
qualification of components and systems, identifying aging concerns, 
and formulating key input information. These programs will guide future 
refurbishment of the stockpile or the development of new weapons, 
should that be required at some point in the future. Future baselining 
activities will engage our staff in assessing our knowledge base of all 
stockpiled systems, identifying gaps, and developing plans and 
priorities to address needs. Our ability to provide continuous, 
meaningful, and challenging stockpile engineering work to exercise and 
develop the capabilities required for the future will be crucial to our 
success.
    Our emphasis on processes contributes to preserving our knowledge 
of how to support the future demands of the nuclear weapon program. 
Through our Knowledge Management Program, information recorded by 
weapon design teams and individual engineers on key capabilities and 
issues is preserved in accessible, searchable formats. Seminars 
emphasizing lessons learned and relevant experiences provide a means to 
share information across the program. Our peer review process, 
involving knowledgeable experts and engaging our retiree population, 
provides a mechanism for reviewing and assessing design activities. The 
documentation resulting from these activities is retained permanently, 
in a form readily accessible to authorized employees, in laboratory 
archives. Our processes would be incomplete without the documentation 
represented by our technical business practices, policies, and 
implementation in our processes. These tools embody the requirements 
associated with how we conduct our work, and serve to guide our 
employees in the use of the demonstrated, proven processes required for 
nuclear weapons program support.
    Dr. Tarter. At Lawrence Livermore, we have developed the Nuclear 
Weapons Information Base, a sophisticated information retrieval library 
that can be accessed on a need-to-know basis by our weapon scientists 
and engineers. Livermore has been a leader in the DOE/NNSA community in 
developing and implementing strict need-to-know protocols to guarantee 
proper security of this system. The system uses web-based hierarchical 
search routines to provide rapid access to available information. On-
line information ranges from detailed weapon blueprints to classic 
papers written during the 1950s. This database is supplemented by 
videotaped interviews with veteran weapon designers and engineers, and 
new documents reviewing major areas of past weapons work.
    Dr. Browne. The Laboratory is actively working to ensure that 
unique expertise is both captured and retained for future nuclear 
stewards. Our activities designed to accomplish this include the TITANS 
graduate program in nuclear weapons design, and the JNETF (Joint 
Nuclear Explosives Training Facility), which is a cooperative program 
between the Labs, DOD, and other appropriate personnel to provide 
hands-on engineering training from current and past weapon engineers. 
We also are pursuing an overt mentoring program to facilitate the 
training of new scientific and engineering personnel by experienced 
nuclear weapons experts. Some of the experimental activities that we 
are conducting include small scale experiments and work on world class 
facilities at the Los Alamos Neutron Science Center (LANSCE), the dual 
axis radiographic/radiography hydrotest facility (DARHT), and others 
around the DOE complex. This serves to train the next generation of 
scientists. Lastly, we have developed an archiving program to retain 
our nuclear test data with the expertise for preparing, acquiring, and 
interpreting this information.
    Mr. Buggy. It is of paramount importance to appropriately document 
results of projects, R&D, engineering development, troubleshooting, and 
even day-to-day technological support activities. This alone, however, 
does not guarantee technology transfer to new generations of scientists 
and engineers. The most effective documents for technology transfer 
have the rigor of peer reviewed publications, but our funding 
mechanisms, travel restrictions, conference, and training restrictions 
all have a discouraging effect on peer reviewed publications. In any 
event, technology transfer to the next generations of scientists, 
engineers, designers, etc., must occur because of sharing the culture 
of the persons whose expertise we are trying to capture. Reading 
reports won't suffice, so we must get new people on board now so they 
can share the tribal knowledge and experience the culture of the 
current cadre of experts. We have almost lost the opportunity for this 
culturally enhanced technology, or knowledge, transfer to occur. The 
Savannah River Site is currently working in collaboration with the 
National labs and plant sites within the Nuclear Weapons Complex to 
develop knowledge preservation tools. Efforts are also underway to 
consolidate technical data and process history so that it can be 
recorded in knowledge preservation systems, thereby making it readily 
retrievable and easy to understand. The information being collected 
includes technical bases documents, test results, and procedures as 
well as photographs and video tape interviews and discussions with 
field experts.
    Mr. Mitchell. A number of archival or data storage programs have 
been put in place to document process or design critical information 
that is essentially stored in people. The primary thrust, however, is 
to actively reiterate or identify new personnel to become the 
repository of this vital information, and to support active and 
effective mentoring programs (including hands-on experience) to 
transfer both the tangible and intangible information to these new 
people.
    Mr. Douglass. Honeywell has taken several proactive measures at the 
NNSA's Kansas City Plant to ensure the unique expertise held by 
engineers, technicians, and other workers is recorded and cataloged for 
the future. These efforts are focused on recruiting, retention, 
knowledge preservation, and training.
    Given that nearly 90 percent of the workforce is eligible to retire 
in the next 10 years, for the first time in a decade, Honeywell is 
proactively recruiting new workers who meet critical skills needs as 
identified through the Chiles Commission study, who replenish our 
pipeline, and who can fill positions opened because of current worker 
retirements. As a result of improved recruiting strategies, nearly 90 
percent of applicants are accepting offered positions, which is a high 
statistic for this industry. Aids to recruitment have included a 
detailed critical skills assessment and skills gap action plan, as well 
as sign-on bonuses, excellent benefit packages, and a concentration on 
internet recruiting.
    Honeywell has implemented several commercial best practices to 
ensure new workers learn the business quickly, so they become active 
contributors. Among these practices are a mentoring program that 
partners new workers with experienced workers, especially in the 
engineering ranks, and a leadership development series that provides 
recruitment and retention training for managers. Because the long 
waiting period for clearances often discourages new employees who are 
eager to work, Honeywell has developed and launched a ``Career Trek'' 
program that provides new employees with up to 100 hours of strategic 
training about the business, its mission, functional areas, and 
programs. Six Sigma training ensures that all new exempt employees 
learn how to streamline processes and reduce costs by becoming Six 
Sigma Green Belts.
    Retaining qualified workers is another way Honeywell ensures 
expertise is recorded and cataloged. In addition to serving as mentors 
to new employees, experienced workers have been active participants in 
capturing both past manufacturing practices and current work 
instructions for future workers. Honeywell ensures retention by using 
lump-sum compensation and reward programs strategically to retain 
employees with critical skills it believes are at risk of leaving the 
company. Cutting-edge technologies and facilities that allow state-of-
the-art manufacturing and close partnership with the laboratories also 
have a significant impact on both retention and recruitment efforts. 
Over the years, Honeywell has carefully balanced the Kansas City 
Plant's budget to ensure that basic infrastructure needs were met while 
investing in new technologies that are aligned with national laboratory 
design needs.
    Honeywell also ensures the continuity of expertise and experience 
through its Knowledge Preservation initiative. To date, this program 
has captured information for approximately 15 percent of critical 
Kansas City Plant manufacturing processes. As part of this initiative, 
current and retired workers are interviewed about past and current 
manufacturing processes, and the discussions are videotaped, recorded, 
and cataloged for future use within the nuclear weapons complex. One of 
the advantages of this approach is the ability to capture subtle 
nuances that can't be conveyed in written descriptions. The information 
is subsequently made available to employees through a user-friendly 
software technology that presents process, test, and definition 
information in an integrated manner. Honeywell has also been 
instrumental in sharing this technology within the nuclear weapons 
complex, including Pantex and Los Alamos National Laboratory.
    In addition, Honeywell's on-line Command Media program is 
recognized as an industry best practice for capturing work 
instructions, updating them, and ensuring that they are available to 
all employees. This system ties closely to another best practice, the 
Kansas City Plant's Manufacturing Execution System. In addition to 
written work instructions for key processes as provided through Command 
Media, the Manufacturing Execution System includes videotaped segments 
that demonstrate how processes should be performed. These work 
instructions and video demonstrations become a major component of 
training and day-to-day operations.
    Mr. Ruddy. The production plants are planning collaborative efforts 
in the areas of university recruiting and educational outreach to 
leverage the number and variety of opportunities across the complex. At 
Pantex, knowledge retention initiatives such as archiving weapons data 
through video tape, interactive electronic procedures, photographs, I 
structured interviews and research of past operations are being 
incorporated into a knowledge library. This library will be used to 
train new weapons engineers, scientists and technicians. Weapons 
operations videos and pictures are cataloged electronically for easy 
retrieval. The Weapons Operations Start-Up program captures the history 
of a weapons program prior to start-up through interviews and research 
of past operations. In collaboration with Sandia National Laboratory's 
Knowledge Preservation Program, key personnel and retirees are 
interviewed and video-taped to capture program knowledge. The same 
process is used to collect history about high explosives development 
and fabrication.

                            CRITICAL SKILLS

    17. Senator Allard. Dr. Robinson, Dr. Tarter, Dr. Browne, Mr. 
Buggy, Mr. Mitchell, Mr. Douglass, and Mr. Ruddy, would adding design 
work on a new weapon help ensure that current designers pass critical 
skills and experience on to successive generations of weapons 
scientists?
    Dr. Robinson. As I discussed in my response to the previous 
question, we have a number of projects underway aimed at ensuring the 
transfer of skills and experience to a new generation of weapons 
scientists and engineers. We also seek every possible opportunity to 
facilitate this transfer by involving our young staff in the very real 
and important work that we are doing to steward our Nation's stockpile. 
However, these programs and this approach have shortcomings.
    New design work for Sandia can come in two ways: new weapon 
designs, or extensive refurbishing of current stockpile designs. In the 
absence of new design work, our weapons engineers and scientists are 
largely engaged in the task of monitoring, assessing, modestly 
refurbishing, and maintaining the existing stockpile. While this work 
is of great importance, it is inherently limited in scope limited in 
that it does not engage the full breadth and depth of capabilities and 
interfaces at our laboratory and within the NNSA's nuclear weapons 
complex. These activities cannot exercise the full range of skills 
necessary for nuclear weapon design or engage the complete, creative, 
engineering process that is called into play by a new set of 
requirements or a ``blank-sheet-of-paper'' approach. Nor does this 
stewardship role afford our next generation of engineers and scientists 
an unrestricted opportunity to exercise the new skills that they bring. 
Additionally, weapon designers have fewer opportunities to incorporate 
new technologies that exist in the laboratory's scientific and 
technical base and that will be required to fulfill our mission in the 
future. Without a continuous flow of such opportunities, attracting, 
engaging, and retaining the very best engineering and scientific talent 
to perform nuclear weapons work will be difficult.
    Execution of a new weapon design effort would address these 
shortcomings, exercise the full range of capabilities and processes of 
the NNSA complex, and engage the full engineering creativity of our 
next generation of weapon designers. A continuous flow of new weapon 
system design work, coupled with the processes and programs we already 
have in place, would ensure that critical skills and knowledge are 
passed on to successive generations of weapon engineers and scientists. 
The current experience base would be merged with new skills and 
technologies that the new generation brings to the task.
    Dr. Tarter. The improved computational and non-nuclear experimental 
capabilities being developed for stockpile stewardship are principally 
being applied to evaluations of current weapons and possible 
modifications of these weapons. These applications have a high overlap 
with the skills needed for designing new weapons, but are not a 
complete substitute for the full experience of new weapon design. New 
design requires decisions on materials, optimization of many 
parameters, and careful integration with the delivery system designer, 
usually a military service and its supporting contractors. During the 
past 5 years, Livermore has had one project to develop a partially-new 
design, the SLBM Warhead Protection Program Pit Reuse project. That 
project has been very useful for training, and has produced a prototype 
design that may have future utility in the stockpile; however, it is 
now wrapping up. Design work on a new weapon at this time would indeed 
be very beneficial for helping to maintain activities that we think are 
necessary to ensure that critical skills are passed along.
    Dr. Browne. Authorized new weapon design work, that is programmed 
and funded beyond our existing stockpile obligations, would be an 
important step toward passing critical skills and experience on to 
successive generations. It should be understood that new weapon design 
work has never been and cannot be a stand-alone computer activity but 
must include experimentation, testing, and prototype fabrication. The 
training it will generate involves not only our future designers, but 
also our engineers, experimentalists, materials scientists, and 
technicians. The integrated and unique tools developed under stockpile 
stewardship that can be fully exercised in this process include 
Accelerated Strategic Computing Initiative (ASCI) codes, experimental 
tools, prototype production facilities, and engineering testing.
    Mr. Buggy. Yes, if we have new designers working with experienced 
designers.
    Mr. Mitchell. A new weapons design program would provide the best 
(and only believable) methodology to transfer appropriate knowledge and 
experience for a broad range of nuclear weapons activities. This is not 
limited to the actual design process, but could include production and 
operational support planning as well.
    Mr. Douglass. The Kansas City Plant maintains a strong link to the 
weapon designers at the national laboratories through its expertise in 
manufacturability. As the laboratories develop designs, Honeywell works 
with each new generation of scientists to help them understand how to 
build manufacturing efficiencies, quality, and lower costs into their 
designs. However, keeping pace with each generation of scientists and 
contemporary weapon designs means the Kansas City Plant must keep pace 
with the most current manufacturing practices and capabilities. To do 
this, the Kansas City Plant must continually upgrade facilities and 
equipment. However, over the past 6 years, recapitalization has 
averaged 2.4 percent, compared to an industry norm of 4 percent.
    In keeping with its approach to operate the Kansas City Plant like 
a commercial business, Honeywell has implemented plans that identify 
skills, training, and infrastructure needed for the future. For 
example, an in-depth, long-range Technology Plan is in place that 
scopes out skill, equipment, facility, and technology needs for a 10-
year period. Honeywell's deployment of Six Sigma processes that 
emphasize defect-free production, process streamlining, and cost 
reductions is also shared throughout the complex. These are two methods 
Honeywell uses to ensure that information, particularly affecting 
manufacturability, is passed on to weapons scientists.
    Mr. Ruddy. Yes. A new weapon program would foster the passing of 
skills from experienced designers to those with less knowledge. 
Bringing a new weapon program online involves all aspects of the design 
process and would require all existing skills and expertise available 
at Pantex. A new program would be an excellent way for less experienced 
personnel to become involved in a program from start to finish. It 
would also be a benefit to the most experienced personnel because it 
has been years since a new program began.

                        INFRASTRUCTURE SOUNDNESS

    18. Senator Allard. Mr. Ruddy, during the hearing you mentioned 
that when using normal business practices, a corporation would provide 
a minimum of annual maintenance expenditures in proportion to the cost 
and age of the facility. Please provide a detailed response describing 
the principles behind this practice and also compare and contrast DOE's 
and NNSA's maintenance records.
    Mr. Ruddy. I have broken the response into two parts--(1) 
reinvestment in capital assets and (2) maintenance expense.
    An analysis of three U.S. companies that are household names--Ford, 
General Electric, and Boeing--shows their capital additions over the 
last three years have ranged from a high of about 5 percent of revenue 
at Ford to a low of 2 percent of revenue at Boeing (see attached 
summary). This can only be compared to the Pantex Plant in a 
hypothetical way, because comparable revenues at our facility would 
include classified components from other sites. But even using a very 
conservative example, if the value added of Pantex's $350 million 
budget was 25 percent of the output of the plant, this would result in 
comparable revenues of about $1.4 billion. Using the 2 percent to 5 
percent standard of the three commercial companies would equate to a 
reinvestment of $28 million to $70 million per year in capital 
additions at Pantex.
    Another way to look at spending on new capital would be to compare 
capital additions to depreciation expense. The range in these three 
companies is a ratio of one to two times depreciation. The Pantex Plant 
has a replacement value estimated at $5 billion (more discussion 
later). A conservative estimate of 40 years life would equate to about 
$125 million per year in depreciation. Using the example of these three 
commercial companies of one to two times depreciation, this would be 
$125 million to $250 million in capital additions. I recognize that the 
three commercial companies would be using historical cost for their 
depreciation calculations, but the facilities in these companies would 
be much more up to date (and closer to replacement value) than the 
Pantex Plant. Even if the value of assets at Pantex were assumed to be 
half (or less) than the replacement value, reinvestment at commercial 
rates would be substantial.
    In contrast to the examples above, in the last five years at Pantex 
capital additions have ranged from $5 million to $18 million per year. 
This is woefully short of commercial standards or any other standards.
    Maintenance costs are a separate requirement over and above new 
capital additions. While there is no single prescription for how much 
maintenance is adequate, maintenance cost per estimated replacement 
property value (RPV) is a useful and commonly used indicator of 
maintenance cost-effectiveness. High percentages may indicate potential 
for cost reductions; low percentages may indicate exploitation of 
assets without consideration of future impacts.
    This indicator is also easy to review over time. During the 1998 
Phase II study (U.S. Department of Energy Albuquerque Operations 
Office, Defense Program Phase II Facilities & Maintenance Study, May 
1998) of maintenance at DOE Defense Programs sites, this indicator was 
used to compare site maintenance expenditures to industry best 
practices.
    Results are summarized in Figure 1. A range of between 2 and 4 
percent of annual maintenance per RPV is recommended by the commercial 
sector, the GAO, and the Building Research Board of the National 
Research Council. In addition, the board of directors of the North 
American Maintenance Excellence Award (Plant Engineering Magazine, 
Benchmarking Maintenance, March 2001) has established a range of 2.2 
percent to 2.5 percent as representative of superior maintenance 
operations.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As indicated in Figure 1, the average maintenance cost per RPV for 
DOE Defense Programs sites was 1.5 percent, lower than the minimum 
recommended level of 2 percent. It should be noted that the Phase II 
study recognized the current estimated RPV was understated and there 
was a need to develop a credible RPV for evaluating maintenance 
performance at Defense Program sites. Taking Pantex as an example using 
the previously mentioned RPV of $5 billion vs. the study's value of 
$1.6 billion, the maintenance funding is only 0.4 percent.
    Follow-on analyses by the DOE, including an assessment by the 
Office of Inspector General (IG) (U.S. Department of Energy Office of 
Inspector General, Management of the Nuclear Weapons Production 
Infrastructure, August 2000 (Draft)) in fiscal year 2000, substantiated 
the 1998 results and indicated deterioration of the infrastructure has 
impacted weapons modification, remanufacture, dismantlement, and 
surveillance testing of nuclear weapons components. It is important to 
note that at least 66 percent of the facilities at Pantex are 25 years 
old or older.
    Furthermore, failure to provide minimum annual funding has resulted 
in a `bow wave' of deferred improvements needed to address aged and 
deteriorating facility conditions. Figure 2 compares maintenance 
funding and deferred maintenance at the Pantex Plant from 1998 through 
2000 and reflects the `bow wave' described in the draft IG report and 
follow-on Facility and Infrastructure Study conducted by the DOE.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Figure 1 does not include additional Plus-Up funding received for 
maintenance related items (e.g., roof repair, cathodic protection, 
utilities system upgrade, etc.) in fiscal years 1996, 1998, 2000, and 
2001 to address urgent infrastructure needs.
    Since 1998, assessment data indicate the condition of plant 
facilities has continued to deteriorate. For example, Pantex Plant 
facilities in the `good' category dropped from 51 percent in 1998 to 29 
percent in 2000, while facilities in the `poor' category increased from 
4 percent in 1998 to 20 percent in 2000.
    The current estimated RPV for Pantex Plant is $5.1 billion, a 
significant increase from the understated estimate of $1.6 billion in 
1998. This figure reflects the total cost associated with the 
replacement of all structures, utilities, services, and equipment 
required for the mission of the Pantex Plant escalated to current year 
dollars. The minimum suggested annual maintenance cost based on 2 
percent of RPV is $102 million, which includes replacement of capital 
equipment.
    Another measure of maintenance financial performance is the ratio 
of maintenance cost to plant operating dollars. Conversations with 
maintenance personnel at a nuclear power plant, the only industry that 
approximates to Pantex Plant, indicated their maintenance budget is 
approximately 15 percent of their operating budget. This equates to a 
suggested $45 million annual maintenance budget for Pantex Plant 
compared to actual budgets of $24,122,000 in fiscal year 2000 and 
$24,560,000 in fiscal year 2001. The age of the facility, its current 
condition, and the ability to schedule restoration activities influence 
the appropriate allocation in any given year.
    It is clear that recent funding has not scratched the surface in 
addressing deferred maintenance, which includes both corrective 
maintenance and life cycle replacement and upgrade projects that were 
requested but not funded. To meet the objectives of the Stockpile 
Stewardship Program and maintain capability consistent with the Plant 
mission while controlling costs, appropriate funding for infrastructure 
maintenance is required.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                       NATIONAL IGNITION FACILITY

    19. Senator Allard. Dr. Tarter, is the National Ignition Facility 
(NIF) still on schedule and within the revised cost estimate?
    Dr. Tarter. Yes, the NIF is on schedule and on cost according to 
its baseline approved by DOE in September 2000, as modified to be 
consistent with the fiscal year 2001 congressional appropriation. The 
recent DP Status Review of the NIF Project reviewed all aspects of the 
NIF Project, including project performance and progress in implementing 
its new earned value measurement system. The results of this review 
were reported to NNSA Administrator General John Gordon as part of his 
certification of the NIF Project to Congress according to the 
requirements of the fiscal year 2001 Energy and Water Appropriations 
Act.

    20. Senator Allard. Dr. Tarter, last year, the NIF went through a 
re-baselining, adjusting the cost and schedule of the project. Is the 
current baseline on schedule and budget?
    Dr. Tarter. Yes, the NIF Project is currently remaining on schedule 
and on budget according to the new baseline approved by DOE in 
September 2000, as modified to be consistent with the fiscal year 2001 
congressional appropriation.

    21. Senator Allard. Dr. Tarter, are you meeting your milestones to 
assure us you are, in fact, on schedule?
    Dr. Tarter. Yes, I can assure that the NIF Project is currently on 
schedule. As Laboratory Director, I have been monitoring the NIF 
Project very closely and I receive weekly Project updates from the NIF 
Project Manager and the NIF Programs Associate Director. The NIF 
Project has implemented an industry-standard cost and schedule 
performance measurement system based on earned value of the work 
performed. Using this standard measurement system the project has the 
ability to monitor its cost and schedule performance to a very high 
degree of accuracy.

    22. Senator Allard. Dr. Tarter, in the NNSA's NIF report, ``High-
Energy-Density Physics Study Report'' (April 6, 2001), you discuss the 
appropriate number of beams for the final NIF configuration. Varying 
numbers including 48, 96, 120, and 192 are discussed. The conclusion of 
the report indicates that we should remain committed to the 192-beam 
configuration. Why is this configuration so strongly preferred and 
could we not do nearly as well with some of the other, less expensive 
configurations?
    Dr. Tarter. The High-Energy-Density Physics (HEDP) Study Report 
concluded that NIF should remain committed to the 192-beam 
configuration because it is the only configuration that meets the HEDP 
requirements of the Stockpile Stewardship Program. For example, only 
the full 192-beam configuration of NIF is capable of providing the 
necessary symmetric arrangement of laser beams and the necessary energy 
to create ignition and fusion burn along with the complete ability to 
fully diagnose and measure the conditions inside a burning fusion 
capsule. Fusion ignition and burn performs a vital function in our 
Nation's modern nuclear weapons stockpile.
    Equally as important, the full 192 beam NIF is required for 
fielding highly complex weapons physics experiments that do not require 
ignition. These experiments will measure detailed weapons-related 
physical data on nuclear weapons materials under conditions of extreme 
temperature and pressure and study weapons phenomena associated with 
aging and refurbishment in a laboratory setting. In these experiments 
some of the NIF's 192 beams are used to create the extreme conditions 
of temperature and pressure that approach those occurring in exploding 
nuclear weapons. Simultaneously, other laser beams (called back 
lighters) are used to take pictures of the experiments, which permit us 
to develop a detailed understanding of the underlying physics.
    A recent assessment by our nuclear weapons experts regarding the 
value of NIF for different configurations of laser beams concludes that 
nearly two-thirds of the value of NIF is derived from the experiments 
that are only available with the full 192-beam laser system. In terms 
of cost efficiency, nearly two-thirds of the cost of the project is 
required for the basic R&D, design, and infrastructure. The precisely 
aligned and clean environment that is required for NIF must be in place 
before the installation of the laser components. Relatively little 
money is saved by reducing the number of lasers installed. This is 
particularly true when the cost reductions associated with buying many 
components is taken into account.
    In summary, our nuclear weapons experts have determined that 
requirements of the Nation's Stockpile Stewardship Program can only be 
met by the full 192-beam configuration of NIF. From a project execution 
point of view, the relative cost savings of reducing the number of NIF 
beams is small compared to the total cost of the facility.

    23. Senator Allard. Dr. Tarter, in several hearings you have stated 
that the Stockpile Stewardship Program (SSP) will be sufficient to 
ensure the safety and reliability of the stockpile in the absence of 
testing. Obviously, there are several important components of stockpile 
stewardship, and I'm not trying to get you to say that one part of SSP 
is more important than another, but do you believe the SSP is 
sufficient as an alternative to testing even if the 192-beam NIF is not 
constructed?
    Dr. Tarter. I have consistently stated in my testimonies before 
this committee that a strongly supported, sustained Stockpile 
Stewardship Program has an excellent chance of ensuring that this 
nation can maintain the safety, security, and reliability of the 
stockpile without nuclear testing. However, it is an extremely 
demanding program from both technical and managerial perspectives with 
ambitious goals and not without risks. We remain positive about the 
program's prospects for success.
    The Stockpile Stewardship Program is a highly integrated program 
and all of the key elements NIF, subcritical experiments, advanced 
hydrodynamic testing, plutonium experiments, and advanced computers are 
required. Take any one out and there is no Stockpile Stewardship 
Program. While some other combination of new tools and limited nuclear 
testing may be able to maintain the stockpile, it would take time and 
considerable expense to devise the right program time we do not have 
with our aging stockpile. Without NIF, I doubt that any program could 
be devised that would maintain the stockpile with adequate confidence 
without some level of nuclear testing.

                 ADVANCED SIMULATION COMPUTING PROGRAM

    24. Senator Allard. Dr. Robinson, Dr. Tarter, and Dr. Browne, has 
the Advanced Simulation and Computing Program (ASCP), which was 
initially billed as a critical scientific element to help shift from 
test-based confidence to simulation-based confidence, has met its 
expectations?
    Dr. Robinson. The Accelerated Strategic Computing Initiative (ASCI) 
continues to make excellent progress in developing modeling and 
simulation capabilities and the required computational infrastructure 
to support the engineering and scientific needs of our weapons program. 
Such capabilities are required to meet our expectations for the 
program. To date, all major milestones of the program have been 
completed as planned. In less than 5 years, this program has produced 
results that make it the most successful high-performance computing 
program ever. The four fastest computer systems in the world are now at 
the NNSA laboratories. With these systems, the laboratories have been 
able to calculate, for the first-time ever, three-dimensional 
simulations of nuclear weapon explosions and performance of warhead 
components in hostile environments. These accomplishments were made 
possible by successes in research areas such as scalable algorithms, 
programming techniques for thousands of processors, and advanced 
visualization capabilities. We are using the three-dimensional, full-
physics predictive codes developed in the ASCI program to support 
weapon performance assessments, refurbishment analyses, accident 
analyses, and qualification studies. We expect continued deployment of 
these capabilities to meet the needs of the stockpile refurbishment 
schedule.
    Dr. Tarter. Expert judgment about nuclear weapons performance 
depends on both experiments and computer simulations. Those experiments 
do not presently include nuclear testing we are relying on the testing 
of weapon components and experiments that provide us a greater 
understanding of the underlying physics issues, as well as computer 
simulations. The much higher fidelity simulations made possible by the 
ASCI are an absolutely critical element of the Stockpile Stewardship 
Program. However, the simulations depend on experimentally-gathered 
data, and they are validated and benchmarked through comparison with 
experiments that we are able to conduct and data from previous nuclear 
tests. Although we place heavy reliance on simulations to assess the 
integrated performance of a nuclear weapon, decisions and actions about 
the stockpile must be grounded in experimental reality. This necessity 
drives the Stockpile Stewardship Program's investments in much more 
capable experimental facilities, such as NIF and the Dual Axis 
Radiographic Hydrodynamic Test Facility, together with the greatly 
enhanced numerical simulation tools developed through ASCI.
    ASCI continues to be a major success story in the Stockpile 
Stewardship Program. As I mentioned in my testimony, Livermore's 
partnership with IBM has been highly successful. We took delivery of 
ASCI Blue Pacific (3.9 teraops) in fiscal year 1998 and then ASCI White 
in fiscal year 2000 (12.3 teraops). Both machines exceeded their 
performance requirements and they are being used to meet important 
Stockpile Stewardship Program milestones, such is our first ever 3-D 
simulation of a nuclear weapon primary, completed in December 1999.
    However, it will take a string of successive investments to achieve 
ASCI's goal of full-scale simulation of weapons performance based on 
first-principles physics models without resorting to simplified models. 
The threshold for that capability is 100-teraops, and reaching the goal 
quickly is vital to success of stockpile stewardship. The next step at 
Livermore requires the construction of the Terascale Simulation 
Facility (TSF), and funding for TSF is needed in fiscal year 2002 to 
keep ASCI plans on schedule.
    Dr. Browne. The ASCI program was designed to provide predictive 
nuclear weapons simulation capability beginning with validated tools to 
be produced in 2004, so it is still too early to evaluate ASCI's final 
success at meeting expectations. However, the program has achieved an 
extraordinary level of success to date. For example, early delivery of 
a prototype three dimensional secondary explosion simulation in 
calendar year 2000 is a measure of program progress. The program has 
successfully met its planned capability demonstrations on or ahead of 
schedule.

    25. Senator Allard. Dr. Robinson, Dr. Tarter, and Dr. Browne, do 
you feel that the Advanced Simulation and Computing program can provide 
data through modeling which will be reliable enough to continue to 
forgo testing?
    Dr. Robinson. The scientific and engineering capabilities in 
development by the ASCI are essential for advancing and integrating our 
scientific knowledge on nuclear weapons. We will rely on modeling and 
simulation, data from legacy tests, and new data from NNSA experimental 
facilities to form the basis of our technical assessments. We remain 
confident that the combination of experimental data and advanced 
modeling and simulation will provide us with a solid foundation on 
which to base our assessments of nuclear weapons. There is no question, 
however, from an engineering point of view, that actual testing of 
systems to confirm their performance is the desired regimen for any 
high-technology device, from cars and airplanes to medical equipment 
and computers. For a nuclear weapon design, testing of the complete 
system, both when it is first developed and periodically throughout its 
lifetime to ensure that aging effects do not invalidate its 
performance, is the preferred methodology. I and others who are, or 
have been, responsible for the safety and reliability of the U.S. 
stockpile of nuclear weapons have testified to this obvious conclusion 
many times in the past. To forego systems validation through testing 
is, in short, to live with uncertainty.
    Dr. Tarter. This was covered in my previous response.
    Dr. Browne. Please see my answer to the previous question.
                                 ______
                                 
                Questions Submitted by Senator Thurmond

                   IMPORTANCE OF MIXED OXIDE FACILITY

    26. Senator Thurmond. General Gordon, I am aware that the NSC is 
presently reviewing the mixed oxide (MOX) program. I recently wrote the 
National Security Advisor, Dr. Rice, expressing my support for this 
significant initiative and highlighting its many important benefits. 
Are Dr. Rice and the NSC aware that this program has not only 
considerable international non-proliferation benefits, but also 
provides many valuable domestic benefits as well?
    General Gordon. Yes. The NNSA's Office of Fissile Materials 
Disposition has briefed representatives of the NSC as well as other 
government agencies on three separate occasions regarding the plutonium 
disposition program. These briefings have covered the domestic and 
international non-proliferation benefits of the program. The NSC 
recently completed its review of non-proliferation assistance programs 
to Russia, but the final decision on DOE's Russian plutonium 
disposition efforts has not been made. The Department is conducting an 
independent assessment of the Russian program to explore any technology 
or program options that might increase the effectiveness of our efforts 
to reduce costs. This independent assessment will likely be concluded 
by the end of the year.

                  SURPLUS MATERIAL AND THE MOX PROGRAM

    27. Senator Thurmond. General Gordon, South Carolina has accepted, 
and showed a willingness to accept in the future, surplus weapons 
materials with the understanding that these materials would be 
processed in South Carolina. In other words, there was the assurance 
that there would be a ``path out'' for these metals and oxides. I am 
concerned that if the MOX program does not move forward, these surplus 
weapons materials will not be processed. If South Carolina believes 
that there is no ``path out'' in the form of MOX, I am further 
concerned that the ``path in'' will be closed. Is that a message which 
is being received by the administration, especially those who are 
reviewing the future of the MOX program?
    General Gordon. Yes. Numerous letters, phone calls on the subject, 
as well as meetings with the South Carolina congressional delegation 
have made the administration very much aware of the need to provide a 
``path out'' of the Savannah River Site for surplus plutonium brought 
there from other locations.

               ACCELERATOR FOR THE PRODUCTION OF TRITIUM

    28. Senator Thurmond. General Gordon, do you share my view that 
Accelerator for the Production of Tritium is, as specified by law, a 
defense program?
    General Gordon. Achieving confidence in the ability to supply 
tritium by using an accelerator, as a backup technology to the use of 
the Tennessee Valley Authority's Watts Bar and Sequoyah reactors, is a 
defense program. The Office of Defense Programs is pursuing the goal of 
achieving that confidence by partnering with the Office of Nuclear 
Energy in a new Advanced Accelerator Applications program. This new 
program has begun the process of leveraging the substantial investment 
made in the Accelerator Production of Tritium (APT) program over the 
past several years to investigate waste transmutation, perform research 
on advanced fuels, and at the same time preserve the capability to 
produce tritium in an accelerator, if that ever becomes necessary.

                          FUTURE CAPABILITIES

    29. Senator Thurmond. General Gordon, the nuclear deterrent is a 
key component of the defense posture of the United States. Despite 
that, we no longer manufacture tritium or pits, both necessary elements 
in nuclear weapons. The failure to produce these materials seriously 
undermines the credibility of our nuclear deterrent. I understand that 
the Department of Energy is asking for funds for pre-conceptual design. 
I have no idea what that means, although it sounds like a bureaucratic 
term for not moving forward as aggressively as needed on this project. 
The Foster Panel stated in its report that ``. . . we believe a faster 
rate of progress should be sought, because 10 more years without the 
capability to produce adequate numbers of nuclear components is pushing 
the limits of acceptable risk.'' Why have we not already begun 
conceptual design of a pit manufacturing facility as the Foster Panel 
urged last year?
    General Gordon. The conceptual design of a major systems 
acquisition in the Department of Energy may not occur until after the 
approval of mission need. The approval of mission need (Critical 
Decision 0) for a modern pit facility is scheduled for fiscal year 
2002. During fiscal year 2001, the National Nuclear Security 
Administration is working on the mission need statement, system 
description, preconceptual studies, National Environmental Policy Act 
of 1969 and acquisition strategies, and planning schedules required for 
Critical Decision 0 for a modern pit facility, using the $2 million 
earmarked in our fiscal year 2001 appropriations for this purpose.

    30. Senator Thurmond. General Gordon, when are we going to move 
forward with the conceptual design of a pit production facility?
    General Gordon. See my answer to question 29.

    31. Senator Thurmond. General Gordon, what do you require to begin 
the conceptual design process of a pit production facility?
    General Gordon. See my answer to question 29.

                   SAVANNAH RIVER SITE INFRASTRUCTURE

    32. Senator Thurmond. Mr. Buggy, earlier this year, we had the 
opportunity to hear from former Secretary of Energy James Schlesinger 
of the Panel to Assess the Reliability, Safety, and Security of the 
United States Nuclear Stockpile. Secretary Schlesinger's testimony 
highlighted the deteriorating infrastructure at several of the weapons 
complex sites. What is the state of the infrastructure at the Savannah 
River Site?
    Mr. Buggy. Through extraordinary efforts in planning and cost 
effective work execution, SRS general Site infrastructure continues to 
maintain support to all enduring Site missions. A significant portion 
of the Site infrastructure and mission infrastructure is 40 to 50 years 
old. The frequency of failures and maintenance requirements for 
infrastructure systems are increasing. Declining vendor support and 
decreased spare parts availability increase the cost of maintaining a 
functioning infrastructure. In addition, the Site supports a suite of 
obsolete and fragile core business systems software with increasing 
costs to maintain acceptable service levels. During the past 5 years, 
infrastructure operating and capital expenditures have been restricted 
due to increased budget pressures and monies being directed to higher 
priority mission functions. Since 1993, the small projects capital 
budget for general Site infrastructure has declined 80 percent, from an 
average of $60 to $12 million, while the infrastructure deferred 
maintenance backlog has risen to $47 million. The NNSA Defense Programs 
Facilities at Savannah River Site are in good condition and are 
maintained in a manner that enables consistent support of the Stockpile 
Stewardship mission. The success of the Defense Programs facilities and 
infrastructure program at SRS is based on management attention and 
support, routine prioritization of identified needs and emerging 
issues, a long-range plan for upgrading technology and facilities, 
adequate funding allocations, and re-investment of savings/efficiencies 
into the program. Due to constant attention to this program, SRS 
maintenance expenses have been limited to less than 5 percent of the 
replacement property value for the facility. While the facilities and 
infrastructure are in good condition, the cost of maintaining this 
status with both aging facilities and newer, highly specialized 
technology is increasing. Defense Programs has increased its facilities 
and infrastructure funding requests to accommodate the rising costs.
    While the NNSA program is providing the essential level of support 
for technical infrastructure needs, NNSA is only a part of the overall 
SRS landscape and is dependent upon the site's overall infrastructure. 
SRS is a multi-program site, with the Environmental Management Program 
having landlord responsibility for site general infrastructure (water, 
sewage, electrical, steam, roads, laboratories, telecommunications, 
etc.) that is now approaching 50 years of age. Many of these systems 
and related facilities have degraded to conditions that require major 
upgrades which are beyond the financial capabilities of the site's 
annual funding allocations primarily from the Environmental Management 
budget. Safe and efficient operation of these aging infrastructure 
systems is essential for SRS to continue to perform both its NNSA and 
EM missions.

    33. Senator Thurmond. Mr. Buggy, what impact would the fiscal year 
2002 DOE budget proposal have on the situation at SRS?
    Mr. Buggy. The DOE budget proposal would acutely impact our ability 
to fund and execute critical health, safety and environmentally related 
infrastructure capital projects that support all missions at SRS. In 
fiscal year 2002, using the current EM Integrated Priority List (IPL) 
as a basis for Site priorities, the only component of funding available 
is less than $10 million in the small projects capital budget, closeout 
funding for existing infrastructure Line Items, and funding to support 
core business applications replacement. This capital reinvestment in 
the general Site infrastructure is less than 1 percent (actual 0.375 
percent) of the infrastructure capital value of approximately $3.2 
billion and continues to be well below the recommended 2 percent to 4 
percent normal reinvestment needed to maintain a viable infrastructure. 
The proposed fiscal year 2002 Savannah River Defense Programs budget is 
$233.6 million. This funding is sufficient to execute the core 
Stockpile Stewardship mission, and to maintain progress on two major 
line-item projects, the Tritium Facility Modernization and 
Consolidation project and the Tritium Extraction Facility. However, the 
budget is $19.5 million short of Defense Programs requirements and $9.2 
million of that total is directly associated with facilities and 
infrastructure restoration and modification. Infrastructure restoration 
projects that are affected by this shortfall include the replacement of 
aged electrical switch gear and building ventilation upgrades. Facility 
modification projects affected are those that support weapons 
refurbishments.
    Since 1993, the EM small projects capital budget for general Site 
infrastructure has declined 80 percent, from an average of $60 million 
to $12 million, while the infrastructure deferred maintenance backlog 
has risen to $47 million. In fiscal year 2002, using the current EM 
Integrated Priority List (IPL) as a basis for Site priorities, the only 
component of funding available is less than $10 million in the small 
projects capital budget, closeout funding for existing infrastructure 
line items, and funding to support core business applications 
replacement. This capital reinvestment in the general Site 
infrastructure is less than 1 percent (actual 0.375 percent) of the 
infrastructure capital value of approximately $3.2 billion and 
continues to be well below the recommended 2 percent to 4 percent 
normal reinvestment needed to maintain a viable infrastructure. Failure 
to adequately fund the EM infrastructure needs could lead to failures 
that could compromise the ability of NNSA to execute its missions at 
Savannah River Site.

    34. Senator Thurmond. Mr. Buggy, in your opinion, what is the 
required level of funding to maintain the site infrastructure for 
fiscal year 2002?
    Mr. Buggy. Infrastructure recapitalization activities at SRS 
require an immediate funding increase of approximately $30 million over 
the proposed SRS infrastructure budget for fiscal year 2002. This will 
allow commencement of design and procurement activities for the Site's 
Infrastructure Recapitalization program. This program is intended to 
reinvest approximately $75 million per year for a sustained period with 
an ultimate goal of achieving a Site Facility Condition Index (FCI) of 
5 percent (investment backlog divided by total asset value). The Site's 
current FCI is approximately 9.3 percent indicating an immediate need 
for capital infusion. The current value is based on the Site 
infrastructure capital value of approximately $3.2 billion, and a 
backlog of the most critical line items projects ($200 million) and 
deferred small operating projects ($100 million). Recent independent 
assessments of the Site's infrastructure recommend an FCI target of 5 
percent. This targeted goal should maintain the Site at an appropriate 
condition given our complexity and mission.
    The NNSA facilities and infrastructure recapitalization initiative 
needs to be fully funded and then allocated across the nuclear weapons 
complex. The Defense Programs need at Savannah River currently stands 
at $9.2 million to address all facilities and infrastructure 
shortfalls. This will ensure timely repairs, modifications, and 
upgrades are executed to support the National defense missions and 
preclude creating a large investment backlog.

                     PLUTONIUM IMMOBILIZATION PLANT

    35. Senator Thurmond. Mr. Buggy, the DOE fiscal year 2002 budget 
suspends funding for the Plutonium Immobilization plant. How will this 
action effect the Nuclear Materials Stabilization program at the SRS?
    Mr. Buggy. From an SRTC technology development point of view, the 
suspension means that, if and when we restart the program, we will have 
a steep learning curve because the investment in our core development 
team will have been dispersed among other programs. It is unlikely that 
we will be able to reassemble the team, which has so successfully 
nurtured this program thus far.
    The planned end state for the Nuclear Materials Stabilization 
program at SRS is to have the entire SRS inventory of plutonium 
converted to stable plutonium metal or plutonium oxide and packaged to 
the full requirements of the DOE Plutonium Storage Standard (DOE-STD-
3013). Once stabilized and packaged per the Standard, the SRS inventory 
of plutonium will be safely stored pending transfer to the Plutonium 
Disposition program (as input to either the PIP or the Mixed Oxide Fuel 
Fabrication Facility). With the suspension of the PIP, most of the 
materials destined for SRS will most likely remain at their respective 
locations until future planning assumptions are developed. Part of the 
PIP scope required characterization of the plutonium bearing materials 
around the complex to ensure that they met a common standard for 
shipment, receipt, and processing in the PIP. If these materials are 
not transferred to the SRS for storage or other stabilization efforts, 
then there will be no impact at the Savannah River Site to the Nuclear 
Materials Stabilization program. However, if these materials are 
included as part of the Nuclear Materials Stabilization program or are 
processed in the F or H Canyons to produce initial feed material for 
the Mixed Oxide Fuel Fabrication Facility, then a significant impact 
(cost and schedule) will occur. In addition, SRS will have to continue 
to characterize any incoming materials to the site and add storage 
capacity for incoming material and product material awaiting final 
disposition. Projected annual cost for future safe storage and 
surveillance of the stabilized SRS plutonium inventory is approximately 
$25 million (fiscal year 2001 dollars).

    36. Senator Thurmond. Mr. Buggy, regarding the Nuclear Materials 
Stabilization budget proposal for fiscal year 2002, I have been 
informed that the DOE fiscal year 2002 budget request includes $391 
million for this program. Last year, the program was funded at $430 
million. How can you manage this program with such a significant 
decrease?
    Mr. Buggy. The Nuclear Materials Stabilization Budget proposal for 
fiscal year 2002 based on the President's Budget will focus on F-Area 
Stabilization activities first by continuing with the DNFSB 94-1/2000-1 
implementation plan which would include full operations of F-Canyon and 
FB-Line stabilization activities. The vault operations in 235-F would 
continue, but reduced scope for the Packaging & Stabilization project 
would be accomplished by installing a furnace and welder in the 
existing FB-Line facilities. The Am/Cm project would be suspended with 
partial funding for the ``direct to waste'' disposal option. Limited 
DNFSB 94-1/2000-1 initiatives would be continued in H-Area 
stabilization with the focus on completing existing Plutonium solutions 
to oxide in HB-Line Phase II. H-Canyon and HB-Line Phase I 
stabilization activities would be suspended. Efforts in fiscal year 
2002 will be focused on F-Area stabilization activities first to reduce 
the mortgage by delaying stabilization activities in H-Area. If 
adequate funding is provided in fiscal year 2003, the focus will then 
resume in H-Area.

    37. Senator Thurmond. Mr. Buggy, what funding do you believe is 
necessary to accomplish this mission in fiscal year 2002?
    Mr. Buggy. Full finding would be approximately $420 million and 
include: Stabilization activities in both F&H Area to support DNFSB 94-
1/2000-1 and Am/Cm Direct Disposal to Waste, and Furnace and Welder in 
the FB-Line option.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

            SECURITY AND SCANDAL AT THE DEPARTMENT OF ENERGY

    38. Senator Smith. General Gordon, the Wen Ho Lee scandal died down 
some time ago, as did a subsequent scandal at Los Alamos when critical 
missing disks were later retrieved behind a copy machine. After each 
scandal, the press moves on to other sensational stories, and we in 
Congress are inclined to believe action will be taken to fix the 
problem and to avert future scandals. But with regard to DOE, that does 
not appear to be happening. Let me make it clear that I am not blaming 
this on the new Administration, which has yet to get its appointees 
through confirmation and which got a late start on its transition, but 
on the former Administration and its allies in the DOE bureaucracy, who 
appear resistant to change. I have been told that the theft of nuclear 
secrets remains as possible now as during the Wen Ho Lee flap 2 years 
ago. What is your response to this accusation?
    General Gordon. No matter how many security and counterintelligence 
measures are put in place, there can be no guarantee that espionage or 
loss of classified information will not occur. What we can do is make 
employees more aware of the possible impact of security lapses and the 
threat of foreign intelligence services that seek DOE classified 
information. I believe that we have done a good job in both of these 
areas, as well as enhancing security measures, and therefore do not 
agree with the assertion that the DOE is as vulnerable to loss of 
classified information as it was 2 years ago.
    The DOE has instituted a number of security changes to reduce the 
potential for the loss of highly classified information. These changes 
include additional controls on the handling of sensitive information, 
enhancements to physical security at key facilities, and additional 
controls on computers. These measures have addressed identified 
weaknesses. In addition, there are now counterintelligence programs in 
place at the DOE and NNSA facilities that enhance protection of our 
personnel, programs, and information. Thus, the potential for the theft 
of nuclear weapons secrets has been reduced.
    Clearly, good security relies on the employee. For this reason, DOE 
has enhanced its annual security awareness training, which includes a 
counterintelligence component. There are also a number of specialized 
security and counterintelligence training activities now taking place 
that address specific security and counterintelligence concerns. 
Specifically, employees are being made increasingly aware of 
vulnerabilities of computers to outsiders and the protection 
capabilities that are in place to address these threats. We also have a 
program in place to alert employees whose travel or contacts put them 
at greater risk of being approached.

    39. Senator Smith. General Gordon, after years of scandals and 
promises by Secretary Richardson to fix the security problem, it 
appears to persist. Do you agree with this assessment?
    General Gordon. No. Over the past 2 years, we have made significant 
progress in upgrading our security posture. We have implemented a 
number of changes to improve security. These have included immediate 
actions as well as long term efforts. Security is not a one-time 
effort. It requires a continuing commitment to ensure protection of 
information. The DOE has made that commitment and will work to reduce 
security problems.

    40. Senator Smith. General Gordon, what would it take to inculcate 
a necessary ``culture of security'' at DOE labs? Can you comment on a 
letter to Secretary Abraham from RETA Security Inc. addressing the risk 
to Special Nuclear Materials in the DOE's Sites & Transportations (this 
letter subsequently was posted on a whistle-blower web site).
    General Gordon. There is a history of protection of information 
within the nuclear weapons complex, based on a shared understanding 
among employees, of why information needed to be protected. There was 
also an understanding that people can make honest mistakes and that 
only if people work together can information receive true protection. 
DOE today is seeking to revive and restore this culture. One of our 
major goals is improving communications within the Department so that 
people know their concerns about security are heard.
    The DOE has begun a number of efforts aimed at this goal. The 
importance of protection of information is being stressed from the top 
down. Employees are being included in the information flow to ensure 
that good ideas as well as concerns are allowed to pass up to senior 
management. Changing a culture is difficult but not impossible and the 
DOE is working hard on this issue.
    With respect to the second part of your question I refer you to the 
letter of March 5, 2001, which responds to RETA's concerns (attached).

    41. Senator Smith. General Gordon, has there been a written 
response to the letter from RETA Security Inc., and if so, please 
provide me with a copy?
    General Gordon. Yes, the Department responded to the RETA on March 
5, 2001. A copy of our response is attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                        FOREIGN VISITOR PROGRAM

    42. Senator Smith. General Gordon, you mentioned that you have made 
some changes to the foreign visitor program. Can you explain further 
those changes?
    General Gordon. See my answer to the following question.

    43. Senator Smith. General Gordon, is it true that under the 
previous administration, DOE labs wrested control of the foreign 
visitors program from the labs and that as a result, there is no record 
of what foreign visitors were in and out of the labs?
    General Gordon. I would not conclude that the DOE laboratories have 
wrested control of the foreign visitors program, nor that the 
Department lacks records of foreign visitors to the laboratories. DOE's 
current policy on access by foreign visitors to DOE facilities was 
established by Secretary Richardson on July 14, 1999, with the issuance 
of two directives: DOE Policy and Notice 142.1, Unclassified Foreign 
Visits and Assignments. These directives established a framework of 
management accountability which delegates approval authority to the 
local site manager, requires coordination with counterintelligence, 
foreign intelligence, export control, and security organizations, and 
establishes a DOE-wide requirement for a central tracking system for 
visits and assignments to DOE facilities. This policy places authority 
and accountability at the local site manager level, the level most 
knowledgeable about the specific foreign visit. Visitors from countries 
identified as state sponsors of terrorism must, however, be approved by 
the Secretary of Energy. To assist in implementing this policy, the 
Department initiated its current tracking and approval system on July 
1, 2000, replacing an earlier system used to record foreign visitors 
approved for access to the national laboratories and other DOE 
facilities. The current system, the Foreign Access Centralized Tracking 
System (FACTS), is a very secure, web-based platform, available to all 
facilities. It is designed to serve as the Department's central 
repository for information related to visits and assignments by foreign 
nationals.

                            POLYGRAPH POLICY

    44. Senator Smith. General Gordon, what is the proposed DOE policy 
on polygraphs and are there any legislative clarifications you might be 
seeking from Congress.
    General Gordon. The use of polygraph in the NNSA is a difficult 
issue. On the one hand, polygraph has both a deterrent and detection 
potential. On the other hand, the polygraph is perceived by some as 
intrusive and of questionable validity. The DOE has engaged the 
National Academy of Sciences to address the issue of validity, but in 
the meantime has proceeded to implement a program to comply with the 
current requirements under the law. However, I am concerned that the 
legislative requirement that everyone in certain high-risk programs, 
and anyone new coming into the programs, undergo a polygraph 
examination, may be too broadly drawn. Positions within these high-risk 
programs vary in degree of sensitivity and I feel that polygraph should 
be used for only the most sensitive positions.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                  PIT MANUFACTURING AND CERTIFICATION

    45. Senator Reed. General Gordon, DOE and Los Alamos have been 
trying to regain the ability to manufacture a weapon pit for several 
years. This effort has been plagued by many problems, including 
substantial schedule delays and significant cost growth. The budget 
request appears to support the goal of having a certifiable W88 pit by 
2003. The budget does not appear to support the goal of having a 
certified pit by 2008 or 2009. Am I correct in this assumption?
    General Gordon. Yes, you are correct in that assumption as so 
stated in our budget documentation. The current budget request for 
fiscal year 2002 supports the fabrication of a certifiable pit in 
fiscal year 2003 but not the certification of a pit by a date certain.

    46. Senator Reed. General Gordon, does NNSA have a plan that fully 
identifies the scope, schedule and cost of achieving a certified pit, 
and if so, what is the cost, what is the schedule, and when will this 
plan be submitted to Congress?
    General Gordon. Yes, the recently completed W88 Pit Manufacturing 
and Certification Integrated Project Plan, based on some 18,000 
activities and 350 individual work packages, identifies the cost, 
scope, and schedule to manufacture and certify a pit. This plan 
schedules the fabrication of a certifiable pit in fiscal year 2003 and 
completion of the certification process in fiscal year 2009 and is 
estimated to cost $1.7 billion. Congressional staffs have been briefed 
on the cost, scope, and schedule associated with the W88 Pit Project 
Plan. The final report on the Plan is undergoing a final review by DOE/
NNSA. An interim report was submitted to Congress in December 2000.

                         AMENDED BUDGET REQUEST

    47. Senator Reed. General Gordon, do you anticipate submitting an 
amended budget request for fiscal year 2002 and if you do, what do you 
think will be in that request?
    General Gordon. The administration submitted its fiscal year 2002 
amended budget in June. No additional funds were identified for NNSA.

                             TEST READINESS

    48. Senator Reed. General Gordon, the Foster Panel has urged 
increasing the level of readiness to resume nuclear weapons testing 
reducing the time it takes the United States to conduct a test from its 
current 18 to 24 months down to 6 months. Have you had an opportunity 
to review this recommendation and understand its costs?
    General Gordon. Consistent with existing Presidential direction 
(PDD-15) NNSA is maintaining the ability to conduct an underground test 
within 2 to 3 years at the Nevada Test Site (not 18 to 24 months as 
stated in the question.). However, since it has been 9 years since the 
last U.S. nuclear test was conducted, a 6-month nuclear test readiness 
capability is not technically feasible, considering the safety, 
environmental, and Threshold Test Ban Treaty reporting requirements 
associated with nuclear test resumption. When the nuclear test program 
was active, a nuclear test typically required between 18 and 24 months 
to design, field, and execute. Many complex tests took longer. The time 
was needed not simply because of resource limitations but also to 
assure adherence to good scientific and engineering practices and 
compliance with applicable safety and environmental regulations. In the 
few instances that required a nuclear test to be fielded in a shorter 
time frame, it was only possible to do so by modifying an already 
prepared nuclear test. If a test was done for demonstration purposes 
only, with minimal diagnostics, such a test could be prepared in about 
one year. All that said, a 2- to 3-year test readiness posture may 
simply be too long to meet U.S. national security requirements. As part 
of the Strategic Review and upcoming Nuclear Posture Review, NNSA is 
working with DOD to assess the implications of reducing the test 
readiness posture to 18 months or less.

                                 PANTEX

    49. Senator Reed. General Gordon, the DOE Pantex facility is almost 
at full capacity now with new life extension programs planned for the 
future. What improvements are necessary to allow Pantex to meet the DOD 
life extension requirements for the W76, the W81, and the W80?
    General Gordon. Projects and efforts needed at Pantex to support 
the NNSA W76, B61-7/11, and W80 life extension programs and provide the 
increased production throughput needed for these programs are:

        <bullet> Special Nuclear Material Component Requalification 
        Facility. Some Life Extension Programs require inspection of 
        the pits. This project provides the capability to recertify 
        and/or requalify pits for use in war Reserve weapons.
        <bullet> Building 12 to 44 Production Cells Upgrades. By 2008, 
        insufficient cells will be available to meet Life Extension 
        Program work requirements. These upgrades will make additional 
        cells available for the full range of operations needing the 
        unique safety features of a cell by adding exhausts, upgrading 
        the heating and air conditioning and fire protection systems, 
        and modifying the waste isolation valves.
        <bullet> Component Evaluation Facility. Currently, weapon 
        component evaluation activities, such as computed tomography, 
        separation testing, and mass property measurements, are located 
        in bays that otherwise would be used for weapon assembly/
        disassembly. This project will provide a new facility to 
        consolidate component evaluation and increase capability and 
        capacity for existing nondestructive evaluation testing. It 
        will also provide space for the deployment of new technologies 
        required to perform new and additional surveillance and 
        requalification of weapon components and weapons. Consolidation 
        of activities will provide increased efficiencies in the 
        evaluation process by co-locating evaluation bays and will also 
        increase production capacity by allowing bays currently used 
        for evaluation to be returned to weapon assembly/disassembly.
        <bullet> Building 12 to 64 Production Bays Upgrade. Building 12 
        to 64 bays are currently used for purposes other than their 
        original weapon assembly/disassembly mission. This project will 
        improve the building's 17 bays for nuclear explosive 
        operations.
        <bullet> Fire Alarm System Replacement. This effort will 
        replace unreliable alarm panels currently installed in 
        facilities throughout the site. The manufacturer of current 
        panels can no longer provide these panels or acceptable 
        replacements, spare parts are no longer available, and the 
        aging panels have an unacceptable failure rate. Failure of a 
        panel in a nuclear explosive facility could preclude nuclear 
        explosive operations for several months.

    50. Senator Reed. General Gordon, the Foster Panel recommended that 
the enhanced surveillance program be continued and further recommended 
that this program be even more rigorous. Are there plans to resume this 
program and what would it cost?
    General Gordon. The Enhanced Surveillance Campaign (ESC) is a key 
element of the Stockpile Stewardship Program, and it is an active, 
ongoing program. The ESC focuses on providing component aging and 
lifetimes analyses to support the annual assessment of the stockpile 
and to support the stockpile refurbishment decisions and schedules. The 
ESC goal is to develop and implement predictive techniques that will 
identify aging defects with sufficient lead time for the complex to 
take action prior to any impacts on weapon safety or reliability. By 
making a technical determination of component lifetimes, the ESC also 
enables the avoidance of unnecessary or premature expenditures on 
hardware and the associated facilities prior to the true need. The 
program budget for fiscal year 2001 is $102 million and $83 million in 
fiscal year 2002.

    51. Senator Reed. General Gordon, is the workload at Pantex such 
that you would consider using another facility for the surveillance 
program, such as the Device Assembly Facility (DAF) at Nevada?
    General Gordon. Various elements of the surveillance program occur 
at many of the NNSA plants and facilities. Pantex conducts the 
disassembly and inspection of the stockpile samples selected for 
quality and reliability testing, builds joint test assemblies for 
flight tests, and builds test beds for laboratory testing at the Pantex 
Weapons Evaluation Test Laboratory. Many components are already sent to 
other NNSA sites for detailed surveillance evaluation. For example, Los 
Alamos does surveillance on pits and detonators, Savannah River Site 
evaluates gas transfer systems, and Y-12 evaluates canned 
subassemblies.
    There is no plan to totally relocate any of the activities 
currently conducted at the Pantex facility because of limited 
capabilities or capacities. There is an ongoing study of expanding the 
use of the DAF at the Nevada Test Site to include some nuclear warhead 
special operations currently conducted at Pantex, followed by warhead 
disassembly and inspection activities. This study will include an 
assessment of the added costs for having some duplicate operations, 
including the need for additional trained technicians. Prior to 
beginning any new nuclear warhead operations at DAF, the necessary 
nuclear explosive safety studies and other authorization basis would 
need to be completed.

                       NONPROLIFERATION PROGRAMS

    52. Senator Reed. General Gordon, many of us on the committee are 
very concerned about the significant reductions in the nonproliferation 
programs. The reductions in the research and development programs and 
the Materials Protection Control and Accounting (MPC&A) program are 
particularly troubling as are the reductions in other programs designed 
to assist Russia with closing some of their nuclear cities. These 
programs are currently under review by the administration. Do you see 
an opportunity to restore some of these cuts in the future?
    General Gordon. Although the fiscal year 2002 request is $100.2 
million (11.5 percent) below the fiscal year 2001 appropriated level, 
it actually represents a 8.6 percent increase over the fiscal year 2000 
level. The fiscal year 2002 request normalizes program growth over 2 
years at 4 percent per year. These programs were subject to the 
administration review of cooperative nonproliferation programs in 
Russia. That review recently concluded that these programs were 
effective and should continue with little change.

                                 MORALE

    53. Senator Reed. General Gordon, over the past several years the 
morale of the employees at the DOE laboratories has been very low. Do 
you believe there has been improvement recently and what more can be 
done to improve morale and thus the ability to recruit and retain these 
valuable employees?
    General Gordon. Morale problems remain but have shown modest 
improvement over the last several months. Scientists and engineers are 
motivated principally by the intellectual challenges involved in the 
application of their technical skills to solving problems of national 
importance. The improvement in morale can be attributed to the fact 
that the labs and plants are back at work and some of the security 
problems that confronted us are now behind us. There are several 
actions that we can take to improve morale. First, I have asked the 
National Academy of Sciences to perform a review of the polygraph 
program and I expect to came back to Congress and request some 
clarification to the existing polygraph legislation. Second, we must 
provide stable long-term funding for the Stewardship Program. In the 
long run, we continue to believe the main attractions to the National 
laboratories will be the advanced facilities (like high performance 
computing, NIF, LANSCE, MESA, etc.) and their associated influx of new 
ideas and creative research programs. Both current and new scientists 
will be drawn to the laboratories to utilize the facilities if the work 
is challenging and recognized.

    54. Senator Reed. General Gordon, what role do the various 
requirements to polygraph lab employees have on morale?
    General Gordon. The polygraph program is clearly objectionable to 
some of our employees, and a few have been quite vocal in their 
opposition to it. While I do not think you will find anyone who enjoys 
being polygraphed, I think it is fair to say that opinions of our 
employees run the gamut, from some who strongly support the program to 
some, as noted, who strongly object to it. While our primary focus is 
on security and complying with the legislation, we are doing all that 
we can to address employee concerns with respect to the polygraph 
program, and seek to minimize any negative impact it may have on 
recruitment and retention. Unlike the National Security Agency and the 
Central Intelligence Agency, where polygraph testing has long been used 
as a condition of employment and is seen by employees as something of a 
``rite of passage'', our scientists in many instances are just now 
being confronted with this prospect after many years of service. We 
must deal with this cultural shift in a straightforward manner; 
addressing their concerns while protecting our most sensitive equities.
    While polygraphs may now be a factor, the issues of recruitment and 
retention are complex and pre-date DOE's proposed use of 
counterintelligence-scope polygraph examinations. This is well 
documented in the March 1999 Report of the Commission on Maintaining 
United States Nuclear Weapons Expertise (Chiles Report). The Chiles 
Report characterized DOE as being in a war for talent with the private 
sector. The scientific and technical talent that DOE must attract and 
retain has many options in today's competitive technology marketplace. 
The Department is committed to achieving the goal of having both good 
science and good security, and will continue to work hard to address 
employee concerns that impact on that goal.

    55. Senator Reed. General Gordon, have you had an opportunity to 
review these requirements and do you have any recommendations on how 
these requirements should be modified?
    General Gordon. We are working with the DOE Office of 
Counterintelligence (OCI) to review, and possibly refine, the current 
polygraph requirements. We have found within the high-risk programs 
(identified in the legislation) sensitivities of positions can range 
broadly. For instance, in the Personnel Assurance Program and the 
Personnel Security Assurance Program there may be significant numbers 
of persons whose duties and responsibilities do not constitute high-
risk from a national security or counterintelligence standpoint. We 
believe that there may be others whose positions were not captured 
within the mandated categories who have access to information of such 
sensitivity that they, too, should be subject to polygraph screening. 
The OCI is working to develop a consistent rationale and process to 
identify all such positions of interest and provide recommendations to 
me and to the Secretary with respect to any perceived need for 
legislative action in support of the program.

                    NATIONAL IGNITION FACILITY (NIF)

    56. Senator Reed. General Gordon, the National Ignition Facility 
(NIF) ran into a series of construction problems that caused increases 
in the overall cost of the NIF. These problems were addressed. The 
program was stretched out so that it would fit within future years 
budget projections and appears now to be largely back on track. Can you 
give us a status of the NIF?
    General Gordon. The revised NIF schedule and cost baseline was 
approved by the Secretary of Energy and submitted to the Congress on 
September 14, 2000. On April 6, 2001, I delivered to Congress the NIF 
Certification Package required by the Energy and Water Development 
Appropriations Act for Fiscal Year 2001. I certified that the full 192-
beam NIF is required to support the Stockpile Stewardship Program and 
that the Project is meeting its technical milestones, as defined in the 
revised baseline, on schedule and within budget. The certification 
confirmed that first and second quarter project reviews determined the 
project to be on schedule and cost; delivered a study of requirements 
for and alternatives to a 192-beam ignition facility for maintaining 
the safety and reliability of the current nuclear weapons stockpile; 
verified that an integrated cost-schedule Earned-Value project control 
system has been implemented; and, included a 5-year Budget Plan for the 
Stockpile Stewardship Program. On my last visit to the Lawrence 
Livermore National Laboratory, I saw evidence that NIF is being 
carefully managed under departmental project manager directives and is 
receiving appropriate high level manager attention and oversight.

    57. Senator Reed. General Gordon, last year NNSA received $10 
million less than requested for the NIF. Has this reduction had any 
impact on the NIF and will it need to be restored in the future?
    General Gordon. For fiscal year 2001, Congress appropriated $10 
million less than requested against the approved cost and schedule 
baseline funding profile. To adjust for this shortfall, some current 
year activities have been delayed. Future year acquisition plans have 
been affected and future scheduled activities and funding for some key 
industrial partners have been deferred. The funding profile in the NIF 
Certification I submitted to Congress on April 6, 2001, includes the 
restoration of this shortfall over the remaining years of construction.
                                 ______
                                 
              Questions Submitted by Senator Daniel Akaka

               FISCAL YEAR 2002 FUNDING AND MODERNIZATION

    58. Senator Akaka. Dr. Robinson, Dr. Tarter, Dr. Browne, Mr. Buggy, 
Mr. Mitchell, Mr. Douglass, and Mr. Ruddy, in your testimony you 
emphasized the need to modernize not only the facilities but the 
equipment used with respect to ensuring the safety and reliability of 
our nuclear deterrent. What impact does the funding request submitted 
for fiscal year 2002 have on these issues?
    Dr. Robinson. There is one critical project I noted in my testimony 
where the issue identified in this question is immediate: the Weapons 
Evaluation Test Laboratory. The Weapons Evaluation Test Laboratory will 
replace a 40-year-old facility at NNSA's Pantex Plant, where assembly 
and disassembly of nuclear warheads and bombs are conducted. This new 
construction will provide a state-of-the-art facility for testing 
weapon component devices and implementing advanced diagnostic 
techniques developed by the Enhanced Surveillance Campaign. It is our 
intention to provide resources from operating funds to design and 
replace the aging test equipment with modern computerized test 
equipment. This project is important for maintaining confidence in the 
safety, reliability, and performance of the stockpile without nuclear 
testing. The fiscal year 2002 budget request of $5.3 billion for NNSA 
Defense Programs reduced the line item to replace the Weapons 
Evaluation Test Laboratory and eliminated funding to begin replacement 
of aging test equipment. Both elements need to be maintained.
    In addition, other critical facilities are under development that 
will contribute significantly to the Stockpile Stewardship Program. 
They are: the Microsystems and Engineering Sciences Application Project 
(MESA), the Joint Computational Engineering Laboratory (JCEL), the 
Distributed Information Systems Laboratory (DISL), and the Z 
Accelerator Refurbishment (ZR). The Microsystems and Engineering 
Sciences Application (MESA) complex is needed to upgrade the equipment 
used to develop future microsystems that will enhance the surety and 
affordability of stockpile refurbishments. It will support research and 
development of technologies that will attract the best and the 
brightest scientists and engineers to Sandia for us to address the 
challenges of future weapons science and engineering. The MESA 
initiative will allow Sandia to renew the semiconductor processing 
equipment so that we can continue to research the science and 
technology of radiation-hardened microelectronics. This equipment will 
also support Sandia's ability to serve as the supplier of last resort 
for very-low-volume production of specialized stockpile 
microelectronics, should anything happen to the private-sector supply 
base. The Joint Computational Engineering Laboratory (JCEL) and the 
Distributed Information Systems Laboratory (DISL) are essential for 
deploying ASCI technology. JCEL will be a state-of-the-art facility at 
Sandia's site in New Mexico, and will provide laboratory space for 
developing, prototyping, and using leading-edge computing, 
communications, and virtual environments. DISL, at Sandia's laboratory 
site in California, will provide technologies for seamless, secure, and 
reliable access to scientific and engineering information from the 
geographically dispersed elements of the nuclear weapons complex, 
including laboratories, production facilities, and NNSA offices. DISL 
will focus on research and development to enhance the integration of 
design and manufacturing tasks.
    The Z Accelerator provides unique high-energy-density physics 
environments today, and consequently it is in very high demand for 
weapon studies. However, Z is over fifteen years old, and many of its 
components are approaching the end of their useful lives. The Z 
Refurbishment (ZR) project will replace aging subsystems with state-of-
the-art components, increase capacity to more nearly meet the weapon 
program's demand for experiments, and increase the output and 
effectiveness of this unique accelerator for Stockpile Stewardship. The 
scope of work for NNSA Defense Programs at Sandia National Laboratories 
is intended to ensure the safety, reliability, and survivability of our 
nuclear deterrent, which is the core mission of the laboratory. As 
such, the investment in new facilities and their accompanying capital 
equipment, the replacement of research and development capital 
equipment, and the capital refurbishment of facilities and capabilities 
are all focused on meeting that mission goal. The fiscal year 2002 
budget request at $5.3 billion will not satisfy all the construction, 
operations, and recapitalization objectives of the SSP across the NNSA 
complex as currently planned.
    Dr. Tarter. Stockpile Stewardship will not succeed without the new-
facility investments that are being made at the NNSA laboratories. 
Scheduled programmatic work at the laboratories and the plants has also 
placed exceedingly high demands on provided funding. The cumulative 
effect of necessary continuing attention to the highest and most 
immediate priorities over the course of the Stockpile Stewardship 
Program has been shortage of funds to recapitalize NNSA's underlying 
infrastructure. As a result, NNSA has developed a Facilities and 
Infrastructure Recapitalization Plan, which we are supporting.
    Over the years, Livermore has depended on having special facilities 
and equipment in an accommodating work environment to attract and 
retain an exceptional staff. Sustaining the quality of our workforce is 
made more difficult by the continued aging of our facilities without 
major reinvestment. At Livermore, only 60 percent of our employees 
currently reside in permanent space, and 70 percent of the temporary 
office space (trailers and modular buildings) is nearing or beyond end 
of service life. Overall, 14 percent of Livermore's office and 
laboratory space is in need of major rehabilitation and nearly 30 
percent of the space is in need of minor rehabilitation. Such working 
conditions are not conducive to retaining and attracting the 
exceptional workforce that we need to accomplish our mission.
    Older facilities typically are more expensive to maintain and 
usually have higher costs associated with safe and healthy operations. 
Our overall maintenance backlog is about $330 million if funded with 
programmatic dollars. In addition, obsolescent equipment needs to be 
replaced. Accordingly, our input into NNSA/DP's Infrastructure 
Recapitalization Initiative totals $65.8 million for fiscal year 2002, 
with $38.2 million for high priority items. Some of the 12 high-
priority maintenance, general plant projects, and capital equipment 
items include replacement of electrical power systems in aging 
facilities, a number of building renovation projects, and investments 
in High-Efficiency Particulate Air (HEPA) filters to more effectively 
ensure that our high environmental standards continue to be met. Two 
other high priority projects include a decontamination and demolition 
project and a scoping and design study for rehabilitation of a major 
building complex at our site.
    Dr. Browne. To accomplish the work and meet the needs mentioned in 
the testimony will require a significant addition to the resources for 
fiscal year 2002 and future years. Without additional resources 
programmatic accomplishments will face significant delays.
    Mr. Buggy. See responses to earlier questions.
    Mr. Mitchell. Please see my earlier answers.
    Mr. Douglass. The proposed fiscal year 2002 budget target for the 
Kansas City Plant (at the $5.3 billion DOE/NNSA budget level) will 
support basic facility operations and will maintain the same minimum 
level of investment in capital equipment projects as in prior years. 
Significant facility improvements and equipment projects will continue 
to be deferred, increasing the risk of unplanned interruptions in 
operations, creating an even larger backlog. This also precludes 
investment in new equipment and technologies needed to support emerging 
Stockpile Life Extension Program needs and the ability to keep pace 
with development at the National laboratories.
    Additionally, at this budget level, Stockpile Management 
Restructuring Initiative (SMRI) line-item construction funding is 
reduced by $5 million from the requested level. The SMRI project 
reduces the Kansas City Plant footprint by consolidating production 
processes which, when implemented, will allow Honeywell to reduce 
overhead costs and operate the plant in a more efficient manner. 
Reduction in SMRI line-item funding delays completion of the line item 
and, therefore, delays realization of the cost reductions. Funding of 
facilities and infrastructure recapitalization efforts at less than the 
commercial industry benchmark of 4 to 5 percent of the value of the 
assigned capital equipment base continues to be a major concern.
    Mr. Ruddy. If Pantex receives the funding requested during 
testimony, and the funding is sustained, it will ease the underfunded 
condition Pantex has worked under the past 6 years. This underfunded 
condition has led to premature degradation of Pantex's physical plant. 
With this funding, aged and technically obsolete equipment can be 
replaced, and life cycle replacements can be planned and executed on 
schedule. Also, maintenance backlog items can be corrected and 
prevented through the institution of predictive and preventive 
maintenance programs.

                     DOE LEADERSHIP AND MANAGEMENT

    59. Senator Akaka. Dr. Robinson, Dr. Tarter, and Dr. Browne, there 
have been a number of reports which have emphasized the need for 
improved leadership and management throughout the Department of Energy, 
to include NNSA and its field facilities. Do you feel you have the 
authority and resources to address these leadership and management 
concerns?
    Dr. Robinson. I believe we have established an appropriate 
foundation within NNSA thus far. As indicated in my testimony, NNSA is 
making significant progress under the leadership of General John A. 
Gordon toward establishing its identity as a semi-autonomous agency. 
General Gordon solicited input from the laboratory directors as he 
considered the NNSA management structure that he announced on March 14. 
The NNSA structure provides the framework for Federal authority. As the 
NNSA executive management team is put in place, we will work closely 
with it to establish the roles and responsibilities for field offices 
and the laboratories with clear lines of authority and accountability 
to NNSA headquarters. Historically, the GOCO (government-owned, 
contractor-operated) contracting model has worked extremely well for 
the laboratories and the Federal Government. Unfortunately, in the last 
decade that concept has been seriously weakened, as indicated, for 
example, by the 1995 study of DOE oversight and management by the 
Secretary of Energy's Task Force on Alternative Futures for the DOE 
National Laboratories (Galvin Report). It is my hope that the executive 
team that will implement the new NNSA management structure will permit 
reforms that will allow us to return to the earlier very effective GOCO 
model. Under this concept, the NNSA Federal structure provides the 
National mission assignment (what is to be done) while the laboratories 
determine how to get that job done. In general, the conduct of 
operations of the programs and the infrastructure and landlord 
responsibilities should be the purview of laboratory management, within 
the constraints established by law and the financial resources provided 
by Congress. An example of clear delegation and accountability is my 
responsibility as a laboratory director to provide an annual letter on 
the status of the nuclear weapons stockpile to the secretaries of 
Energy and Defense so that they can jointly certify the stockpile to 
the President. I feel that I have full authority to fulfill that 
assignment with integrity.
    Finally, I should mention that the low-level budget obligation 
controls that were put in place for the nuclear weapons program in 
fiscal year 2001 have created difficulties for both NNSA and the 
laboratories. Thirty-two different funding categories (rigid control 
levels) were created. Consequently, NNSA budget deployment has been 
substantially more complex and burdensome. Historically, budgetary 
control levels were high enough to allow some flexibility to address 
emerging needs and other evolving program requirements without the need 
for a significant number of reprogramming requests. I strongly 
encourage that we return to the fewer number of budget control levels. 
I am confident that NNSA and the laboratories will still be able to 
fully meet the intent of Congress and be significantly more efficient 
in doing so.
    Dr. Tarter. From my perspective, the working relationship between 
the NNSA administrator, General John Gordon, and the laboratory 
directors is excellent. But improvements throughout NNSA will take time 
to implement. Earlier this year, General Gordon made significant 
organizational changes to NNSA and has filled many of the newly created 
positions with high-quality people. The new team faces a number of 
significant challenges to clarify lines of authority, facilitate long-
range planning, and improve overall efficiency. We agree with the 
direction General Gordon is taking NNSA and are working to help him 
succeed in his goals for the agency.
    Dr. Browne. As Director of Los Alamos National Laboratory, I have 
authority and resources to address internal Los Alamos leadership and 
management issues, within the constraints of regulation, law, and of 
the UC contract. These constraints include, however, numerous oversight 
requirements imposed on Los Alamos that severely constrain my ability 
to manage the Laboratory effectively. Additionally, because of the 
numerous (31), narrowly-defined, congressional budget appropriation 
categories, coupled with the DOE discretionary reprogramming cap of $5 
million, I am severely limited in my ability to shift resources from 
the spending plan established when the budget was built and submitted 2 
years earlier. This structure constrains my ability to address 
unforeseen issues that have arisen in the interim, such as surveillance 
findings concerning our stockpiled weapons, safety and security issues, 
and refinements in the program plan. While we support accountability 
for resources and deliverables in the SSP, we recommend returning to 
broader budget categories for appropriations, or raising DOE's 
reprogramming authority, or both. Resource and deliverable 
accountability to Congress can be accomplished through improved 
planning, project controls, and reporting requirements. I believe the 
NNSA FYDP will greatly help this situation.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                   NONPROLIFERATION PROGRAMS FUNDING

    60. Senator Bill Nelson. General Gordon, I'm deeply disturbed about 
reports that the Administration plans to cut funding for 
nonproliferation programs by $100 million. I am convinced that these 
very critical programs are important to our national security. How, in 
your judgement, would these cuts affect our efforts to prevent 
proliferation?
    General Gordon. Although the fiscal year 2002 request is $100.2 
million (11.5 percent below the fiscal year 2001 appropriated level), 
it actually represents a 8.6 percent increase over the fiscal year 2001 
level. The fiscal year 2002 request normalizes program growth over 2 
years at 4 percent per year. These programs were subject to the 
Administration review of cooperative nonproliferation programs in 
Russia. That review recently concluded that these programs were 
effective and should continue with little change.

         NNSA INFRASTRUCTURE MODERNIZATION AND RECAPITALIZATION

    61. Senator Bill Nelson. General Gordon, I appreciate the report 
highlighting infrastructure needs and priorities for all facilities and 
the development of a long-term plan for facility modernization and 
recapitalization. Please explain how the President's budget for fiscal 
year 2002 addresses much-needed improvements to our many World War II-
era facilities.
    General Gordon. I would simply quote Secretary Abraham, who 
indicated on April 9, 2001, in his statement concerning the DOE fiscal 
year 2002 Budget Request to Congress that, ``While awaiting the policy 
shaped by the Strategic Defense Review, we will refocus funding to meet 
vital national security needs, including investments to maintain our 
nuclear weapons arsenal, shore up an aging weapons infrastructure, and 
improve safeguards and security at all DOE facilities.''
    The President's budget provides the same level of resources for our 
facilities and infrastructure as has been provided in the last several 
years. The base maintenance and infrastructure efforts at our sites are 
primarily funded within the budget for Readiness in Technical Base and 
Facilities and through site overhead allocations. Our focus is to 
ensure that facilities necessary for immediate programmatic activities 
are maintained sufficiently to support the workload.
    The outcome of the administration's strategic defense review could 
result in a fiscal year 2002 budget amendment to address, among other 
things, funding for the maintenance backlog in the nuclear weapons 
complex.

         MATERIALS PROTECTION, CONTROL, AND ACCOUNTING PROGRAM

    62. Senator Bill Nelson. General Gordon, the Materials Protection, 
Control, and Accounting (MPC&A) program, which improves physical 
security at Russian nuclear weapons facilities, is cut in the 
President's budget by $31 million, almost 18 percent, to around $139 
million. What has changed to make the funding requirement drop?
    General Gordon. The primary change that has occurred with respect 
to the MPC&A program is reflected in the significant progress made in 
improving the security of Russian facilities containing nuclear weapons 
and weapons-usable material. According to a recent General Accounting 
Office study, the program has provided significant threat reduction for 
192 metric tons, some 32 percent of the material at risk. The report 
also acknowledges MPC&A upgrades underway on an additional 130 metric 
tons of nuclear material. Improved security for over 320 metric tons of 
nuclear material represents more than half the material we have 
identified as requiring such protection, but there remains almost that 
much material still requiring security upgrades. The budget request for 
fiscal year 2002 reflects a continued commitment to complete the 
necessary upgrades at the remaining facilities in Russia considered at-
risk.

    63. Senator Bill Nelson. General Gordon, has the requirement 
changed?
    General Gordon. No. As noted in our response to the previous 
question, the program has made significant progress in improving the 
security of Russian nuclear materials and warheads but much work 
remains for the program to complete its mission. In addition, within 
Russia we continue to see conditions that underscore the critical 
importance of the MPC&A mission, including poorly trained and equipped 
guards at nuclear sites and Russian physical protection standards often 
insufficient to protect proliferation attractive material. Given these 
conditions, the program believes there also remains considerable work 
to be done in such areas as regulatory development and operator 
training to ensure that the Russian government is prepared to assume 
full responsibility for protecting its materials.

    64. Senator Bill Nelson. General Gordon, how would you describe the 
risks associated with this reduction in funding?
    General Gordon. While some programmatic activities are scheduled to 
be either slowed down or adjusted, the requested funding levels of the 
NNSA's nonproliferation programs are considered sufficient to carry out 
its mission of reducing the threat posed by the spread of weapons of 
mass destruction. Additionally, while the fiscal year 2002 budget 
request is $100.2 million (11.5 percent) below the fiscal year 2001 
appropriated level, it actually represents a 8.6 percent increase over 
the fiscal year 2000 level. The fiscal year 2002 request normalizes 
program growth over 2 years at 4 percent per year.

                       NUCLEAR CITIES INITIATIVE

    65. Senator Bill Nelson. General Gordon, the Nuclear Cities 
Initiative (NCI), which prevents a Russian brain drain by helping find 
or provide civilian jobs to their unemployed weapons scientists, was 
cut in the President's budget from $27 million in fiscal year 2001 to 
$6.5 million in fiscal year 2002, a cut of about 76 percent. This will 
force you to work in one city, rather than three. How would you 
describe the risks associated with this cut?
    General Gordon. The NCI is focused on nuclear weapons complex 
reduction in Russia, which it achieves by reducing the physical 
footprint, removing functions and equipment, and creating sustainable, 
alternative non-weapons work within a functioning city economy. NCI is 
currently working in three closed cities. At $6.5 million, NCI will 
focus most of its efforts in Sarov and will provide limited support to 
projects in Snezhinsk and Zheleznogorsk. This prioritization helps 
ensure that the requested NCI funds are utilized in a manner that has 
the highest impact possible in facilitating the reduction of Russia's 
nuclear weapons complex.

    66. Senator Bill Nelson. General Gordon, how will this affect the 
likelihood of more of these scientists working for Iraq, Libya, or 
Osama bin Laden?
    General Gordon. While it would be difficult, if not impossible, to 
predict exactly the impact a changing budget within the NCI program 
would have on the likelihood of scientists going to work for Iraq, 
Libya, or Osama bin Laden, I can assure you that we at the NNSA are 
working very hard to ensure that the NCI funds are spent in a 
prioritized manner that provides the highest impact possible. At our 
fiscal year 2002 funding request, the NCI will focus its work primarily 
on the closed city of Sarov, with minimal work involving projects at 
the closed cities of Snezhinsk and Zheleznogorsk. This prioritization 
is based in part on where we believe the greatest impact can be gained 
with the current funding level, and where we believe the greatest risk 
is.

       STOCKPILE SAFETY AND THE ENVIRONMENTAL MANAGEMENT PROGRAM

    67. Senator Bill Nelson. General Gordon, in your opinion, does the 
President's budget fully protect the safety and stability of our 
stockpile, particularly in light of cuts to Environmental Management 
programs?
    General Gordon. The fiscal year 2002 President's budget provides 
for the continued safety and stability of the nuclear weapons stockpile 
for the near term. The fiscal year 2002 request provides a 4.6 percent 
increase for the Weapons Activities appropriation that maintains 
ongoing stockpile stewardship activities at roughly the fiscal year 
2001 level. Funding to meet DOE annual weapons alterations, 
modifications, and surveillance requirements is included in Directed 
Stockpile Work, Stockpile Maintenance, and Stockpile Evaluation, and 
the request is sufficient to support the fiscal year 2002 workload 
requirements in the current Production and Planning Directive. The 
budget request fully funds stockpile life extension and refurbishment 
of the W87 and B61 in fiscal year 2002, and supports initial limited 
engineering development for the W76 and W80. We expect to receive 
further guidance on pace and scope for these systems from the 
Administration's strategic reviews. The reductions to the Environmental 
Management programs do not impact the safety and stability of our 
stockpile.

    68. Senator Bill Nelson. General Gordon, what impact might these 
cuts have on the morale of DOE employees?
    General Gordon. Final fiscal year 2002 appropriations for the 
Environmental Management programs will determine whether or not there 
are employee impacts in those programs. Although the decisions on 
indirect allocations will not be made until the fiscal year 2002 
budgets are appropriated and executed beginning in October 2001, we 
believe there will be no impact to employees associated with the 
Weapons Activities programs.

    69. Senator Bill Nelson. General Gordon, does the amount provided 
in the President's budget assume a unilateral reduction in our 
stockpile?
    General Gordon. No. No change in the size of the stockpile is 
assumed in the fiscal year 2002 budget request.

                  MAINTENANCE AND THE WEAPONS COMPLEX

    70. Senator Bill Nelson. Dr. Robinson, Dr. Tarter, or Dr. Browne, 
recently, former Secretary of Energy James Schlesinger and Mr. Steven 
Guidice testified before this subcommittee on the results of their 
study assessing the safety and reliability of the stockpile. In their 
report, they found that $300 to $500 million per year is needed for, 
``a 10-year program to eliminate critical maintenance backlogs and gaps 
in stockpile repair and replacement capabilities.'' Would you agree 
with such an assessment, and on that amount of money?
    Dr. Robinson. The assessment by Secretary Schlesinger and Steven 
Guidice affirms the conclusions of a number of reviews conducted in the 
last 15 years, the most recent resulting in the Facilities and 
Infrastructure Revitalization Initiative at NNSA. In my opinion, the 
general assessment and the funding range indicated by Secretary 
Schlesinger and Mr. Guidice are reasonable. As I mentioned in my 
testimony, a review at Sandia National Laboratories identified 
approximately $300 million in projects that can benefit from the 
Facilities and Infrastructure Revitalization Initiative funding during 
the course of the next few years.
    Dr. Tarter. A major increase in investments is needed to deal with 
aging NNSA facilities throughout the nuclear weapons complex affecting 
workplace quality and, in cases, severely limiting productivity. The 
$300 to $500 million per year for 10 years is a figure that has been 
arrived at by a number of people that examined problems complex-wide.
    Data about Livermore helps to substantiate that overall estimate. 
As I stated in my written testimony, 14 percent of Livermore's office 
and laboratory space is in need of major rehabilitation and nearly 30 
percent of the space is in need of minor rehabilitation. Our overall 
maintenance backlog is about $330 million if funded with programmatic 
dollars, and reduction of the maintenance backlog is not the only issue 
we face. Obsolescent equipment needs to be replaced. Legacy facilities 
from long-discontinued programs, as well as outdated and unusable or 
unsafe laboratory space, must be decommissioned, decontaminated (where 
necessary), and demolished. In addition, some buildings require 
upgrades to meet present-day seismic-safety codes. An additional $25 to 
$50 million per year for a decade would greatly help us to recapitalize 
our infrastructure. Livermore needs help of that magnitude, and there 
are NNSA sites with greater problems than we have.

    71. Senator Bill Nelson. Dr. Robinson, Dr. Tarter, or Dr. Browne, 
please explain how the President's budget addresses much-needed 
improvements to our many World War II-era facilities and what your most 
pressing facility needs are.
    Dr. Robinson. Sandia National Laboratories has only one area of 
World War II-era facilities remaining, and it is scheduled for 
decontamination and demolition. In my testimony concerning 
infrastructure to the Senate Committee on Appropriations, Subcommittee 
on Energy and Water Development, on March 13, 2001, I stated that 
approximately 45 percent of our buildings are at least 30 years old. I 
also pointed out that many of the utilities serving them are beyond 
their useful life. The planned construction at Sandia National 
Laboratories is intended not just to provide advanced capabilities, but 
also to provide essential and effective working space for staff. Our 
most pressing facility needs are addressed by the Microsystems and 
Engineering Sciences Application Complex (MESA), the Distributed 
Information Systems Laboratory (DISL), the Joint Computational 
Engineering Laboratory (JCEL), the Test Capabilities Revitalization 
(TCR), the Weapons Evaluation Test Laboratory (WETL), and the Z 
Accelerator Refurbishment (ZR) projects. Timely completion of these 
projects is essential to meeting our requirements. The fiscal year 2002 
budget request at $5.3 billion will not satisfy all the construction, 
operations, and recapitalization objectives of the Stockpile 
Stewardship Program across the NNSA complex as currently planned.
    Dr. Tarter. Other than funding for line-item construction of major 
new facilities, since the mid 1990s our infrastructure reinvestments 
have been in the range of $25 to $50 million per year in programmatic 
dollars. Over the same time period, we developed and put in place a 
very effective methodology for prioritizing recapitalization 
investments, and we have demonstrated cost-effective approaches for 
dealing with aging facilities. The Laboratory has been able to make 
infrastructure reinvestments wisely and efficiently. However, with the 
level of funding the Laboratory has received, we have been barely 
treading water taking care of high-priority deficiencies at nearly the 
same rate that new ones arise as facilities and equipment continue to 
age. To make significant headway on reducing our maintenance backlog 
and dealing with other infrastructure issues, we need more funding than 
the President's budget provides.
    Our input to NNSA/DP's infrastructure recapitalization initiative 
totals $65.8 million for fiscal year 2002, with $38.2 million for high-
priority items. Some of the 12 high-priority items are: maintenance 
projects; general plant projects; capital equipment items including 
replacement of electrical power systems in aging facilities; a number 
of building renovation projects; and investments in High-Efficiency 
Particulate Air (HEPA) filters to more effectively ensure that our high 
environmental standards continue to be met. Two other high priority 
projects include a decontamination and demolition project and a scoping 
and design study for rehabilitation of a major building complex at our 
site.

    [Whereupon, at 4:42 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                         TUESDAY, JUNE 26, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

 DEPARTMENT OF ENERGY'S BUDGET REQUEST FOR THE OFFICE OF ENVIRONMENTAL 
                               MANAGEMENT

    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Bill Nelson, and 
Allard.
    Majority staff members present: Madelyn R. Creedon, 
counsel.
    Minority staff members present: George W. Lauffer, 
professional staff member; Ann M. Mittermeyer, minority 
counsel; and Scott W. Stucky, minority counsel.
    Staff assistants present: Kristi M. Freddo and Thomas C. 
Moore.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Peter A. Contostavlos, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; John A. Bonsell, assistant to Senator Inhofe; and 
Douglas Flanders, assistant to Senator Allard.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. We are joined by the ranking member, Senator 
Allard. The Strategic Subcommittee meets this morning to 
discuss the Department of Energy (DOE) Environmental Management 
(EM) program. Our witness today is Dr. Carolyn Huntoon, who was 
formerly the Assistant Secretary of Energy/Environmental 
Management and who is currently serving in that role in an 
acting capacity. Welcome, doctor. Thank you so much for joining 
us this morning.
    In the past, the Strategic Subcommittee has had the 
opportunity to hear from the major prime contractors 
responsible for implementing the DOE cleanup programs. While we 
were not able to do that this year, I did want to extend to 
these contractors the opportunity to provide testimony to be 
included in the subcommittee's record of this hearing. At the 
moment, I know of one contractor, Fluor Federal Services, that 
has stated they may submit testimony for the record. Any 
testimony from any major prime contractors will be included in 
the record provided such testimony is submitted prior to 6 p.m. 
tomorrow.
    I would like to add that submitting testimony is completely 
voluntary and optional. We are not making a request of any 
contractor to submit testimony. Senator Allard and I would have 
preferred the opportunity to hear from the contractors 
directly, but the committee's schedule this year does not 
permit such a hearing.
    At $5.9 billion, the Environmental Management program is 
the single biggest program at the Department of Energy. Of that 
amount, $5.7 billion falls within the jurisdiction of the Armed 
Services Committee. This program is governed by a series of 
enforceable agreements that are important to the health and 
well-being of the communities around the many DOE sites and of 
the employees who work there.
    These agreements have been a driving force to remedy the 
well-documented history of environmental contamination by the 
DOE and its predecessor agencies. Today, many are concerned 
that the President's budget request for fiscal year 2002 will 
not allow the DOE to meet the requirements contained in these 
agreements. Dr. Huntoon, the DOE's continuing ability to comply 
with the enforceable agreements is one of the subjects I would 
like to you address this morning.
    Over the past few years, the DOE has made substantial 
progress in cleaning up these sites, but much remains to be 
done. At many of these sites, new or improved technologies will 
be needed to sustain the program's recent progress. Dr. 
Huntoon, I note in your prepared testimony that the DOE last 
year used more than 200 new technologies across the complex to 
improve the rate and reduce the cost of cleanup and waste 
treatment activities.
    While it is appropriate that the bulk of the science and 
technology funding should be focused on near-term problems, I 
am concerned that the budget request may not support new basic 
or longer-term research efforts. Many of the DOE sites are 
faced with cleanup challenges that will continue far into the 
future and for which there are either no or minimal methods of 
cleanup or treatment. I hope the DOE will continue with its 
program to develop and field the technologies necessary to 
reduce the cost and time of cleanup.
    The Environmental Management program is a complex and 
challenging program that will remain a challenge for many years 
to come. I'd like to thank you, doctor, for your service to 
this program and your distinguished service to the United 
States Government. We look forward to hearing from you this 
morning. Now at this time I would like to turn to the ranking 
member, Senator Allard, for his opening statement.
    Senator.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman. Good morning.
    Senator Reed. Good morning.
    Senator Allard. I want to thank the witnesses for appearing 
before the subcommittee today. Dr. Huntoon, as you near the end 
of your term as the Assistant Secretary for Environmental 
Management, I want to say that you have performed well while 
serving in this capacity and I thank you for your service. I 
have enjoyed working with you during the past couple of years, 
including our joint appearances at several EM meetings.
    You can also offer some useful guidelines, I think, for 
future holders of this important office, and I will miss 
working with you, but I do think that your successor, Jessie 
Hill Roberson, has a proven track record and I look forward to 
working with her as she moves into her new responsibilities 
after confirmation here in the Senate. You have enormous 
challenges, you notice how positive I am about that.
    Senator Reed. Just a question of timing, Senator.
    Senator Allard. Enormous challenges are present across the 
Environmental Management program, both in terms of scale and 
complexity. The legacy of a five-decade nuclear weapons program 
has been essential in providing strong national security. It 
has also forced us to take on another very important mission, 
and that is cleanup of our former defense nuclear facilities.
    One of the innovative approaches to completing cleanup of 
these defense nuclear facilities is the defense facilities 
closure projects program. Although this program was started 
before you took over as the Assistant Secretary of 
Environmental Management, it certainly has been advanced during 
your tenure. The goal of successfully cleaning up and closing 
several of the EM sites is important for a variety of reasons.
    First and foremost, it provides safety to the communities 
in and near DOE facilities. Whether it is the Fernald or Mound 
sites in Ohio, or the Rocky Flats site in Colorado, the 
communities surrounding these facilities want to see the sites 
cleaned up. In fact, in last Thursday's Dayton Daily News, 
dated June 21, 2001, it was reported that the Miamisburg Mound 
Community Improvement Corporation, which has concerns whether 
the community's site will be completed by 2006, has rolled out 
a plan to make sure the 2006 closure date remains on track. 
Now, whether this plan or other innovations help the DOE 
achieve the goal of a 2006 closure, cleaning up and closing 
these sites would be the fastest way to ensure safety for the 
workers and surrounding communities.
    While closure requires strong integration and cooperation 
across the entire EM complex, it will also provide a financial 
windfall to the remaining EM sites by freeing up $1 billion per 
year upon closure of Fernald, Mound, and Rocky Flats. That is a 
significant number there, Mr. Chairman.
    Dragging out the cleanup schedule at any site continues the 
dedication of a large percentage of the EM funding toward 
landlord and mortgage costs. Rocky Flats spends almost $1 
million per day to maintain the systems that safeguard the 
material and keep the buildings safe for the workers to work in 
them. With a variety of problems that have plagued the 
Department of Energy during the past decade, the DOE needs to 
prove they can successfully clean up and close a major former 
defense facility. If we delay closure of these facilities 
beyond 2006, such a move may create enough political pressure 
to delay closure indefinitely.
    Long delays only increase the costs, avoid the safety of 
closure, avoid the cleanup of our environment, and deny the 
other major EM sites additional funding which will be borne out 
of closure, and prove to the naysayers that the DOE is back to 
business as usual. They can't get the job done on time or 
within their budget.
    I think we can do better than that. Frankly, I don't think 
we can afford to go down that path, nor do I believe we need 
to. It is a big challenge to close Fernald, Mound, and Rocky 
Flats by 2006, but the alternatives are certainly unacceptable. 
We owe it to the local community, to the other sites that will 
benefit from newly available resources, and to the American 
people who want to see their environment cleaned up and their 
sources handled responsibly.
    The Department of Energy should seize this moment. 
Therefore, I look forward to hearing from you today about the 
EM program and to discuss how we can make sure we are 
successful in getting the cleanup done. With that, Mr. 
Chairman, I look forward to working with you on this very 
important issue, and I yield back.
    Senator Reed. Thank you very much, Senator Allard. Let me 
also join you in commending Dr. Huntoon for her extraordinary 
service to the Nation and the Department of Energy and she has 
confirmed her innate wisdom by planning to retire in Rhode 
Island. I can't think of anything that is more wise in such an 
approach.
    Senator Allard. Mr. Chairman, you have a beautiful State. I 
can only think of one State that might be more beautiful.
    Senator Reed. That's right. That is, I think I know what it 
is, Senator. We are pleased, doctor, that you are here today. 
Your opening statement is already in the record, so you may 
proceed with your testimony.

STATEMENT OF DR. CAROLYN L. HUNTOON, ACTING ASSISTANT SECRETARY 
 OF ENERGY FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY, 
                         WASHINGTON, DC

    Dr. Huntoon. Thank you, Mr. Chairman, and thank you, 
Senator Allard. It is a pleasure to be here today to talk about 
the DOE Environmental Management fiscal year 2002 budget and 
ask for your support. As you both have just been listing for 
us, we know that 50 years of nuclear weapon production enabled 
us to win the Cold War, but left behind this profound legacy of 
waste and environmental contamination.
    I'm talking about, to remind you, trillions of gallons of 
contaminated groundwater, millions of cubic meters of 
contaminated soil, millions of gallons of highly radioactive 
liquid waste, and thousands of contaminated buildings across 
our country. Although the progress in addressing these problems 
was initially slow, I believe we have turned the corner, and we 
are beginning to see some real tangible evidence of success.
    For example, we have completed cleanup of 71 of the 113 
geographic sites, or 66 percent of the geographic sites have 
been cleaned up, and three more will be done by the end of this 
fiscal year. We have completed cleanup at over 4,900 of the 
nearly 10,000 release sites. That is 49 percent of the release 
sites. We stabilized 57 percent of our nuclear material residue 
and 12 percent of the plutonium metals and oxides.
    At the Hanford site in Washington State, we are moving 
spent nuclear fuel away from the Columbia River into a safer 
dry storage area. This project took time. It is very technical. 
A very difficult project, but we are making progress.
    At the Savannah River site in South Carolina, we have 
produced over 1,100 canisters of vitrified high-level waste. At 
Oak Ridge in Tennessee, we completed the cleanup of the gunite 
tanks 10 years ahead of schedule by using a suite of innovative 
technologies. At Paducah in Kentucky, we have completed removal 
of the infamous Drum Mountain. We have received over 270 
shipments of transuranic waste and disposed of over 1,800 cubic 
meters of transuranic waste at the Waste Isolation Pilot Plant 
(WIPP) in Carlsbad, New Mexico, and this is helping us meet our 
commitments at the sites around the country to remove waste.
    We are also doing so well at Rocky Flats that closure by 
2006 is moving from a vision into a realistic goal. In short, 
we have accomplished a lot. We have accomplished it safely. But 
we still have much more to do.
    In fiscal year 2002, we are asking $5.91 billion for the 
program. This may not sound like a lot or enough to some 
people. It is not as much as some people would like, but the 
good news is $5.91 billion is still a lot of money. I believe 
we can continue to make progress with this funding. The budget 
continues to place the highest priority on protecting the 
health and safety of the workers and the public at all of the 
DOE sites and continuing work to mitigate our highest risk.
    We will ensure that the nuclear materials are properly 
managed and safeguarded. Maintaining compliance is a priority 
but given the demands on this budget, it will be a challenge at 
some of our sites. We have given priority to several key 
projects that will help reduce high risk, provide significant 
mortgage reduction, and are key to completing activities at 
other sites. These projects include keeping Rocky Flats and 
Fernald on track to meet their accelerated closure dates.
    We will continue progress in designing and constructing a 
vitrification plant to immobilize the high risk, highly 
radioactive waste at the Hanford site, and in vitrifying the 
highly radioactive waste at the Savannah River site and 
selecting a technology for the pretreatment of a portion of 
that waste. We are almost doubling the shipments of transuranic 
waste to WIPP to support the closure or compliance requirements 
in other states. This includes shipments from the Idaho 
National Engineering and Environmental Laboratory, Rocky Flats, 
Savannah River, and Argonne National Laboratory-East in 
Chicago.
    Stabilizing spent nuclear fuel or moving it from wet 
storage to a dry, safer place is a high priority, as is 
continuing progress on disposing of waste and cleaning up the 
sites, completing active cleanup of Weldon Springs in Missouri 
and developing a long-term stewardship program to monitor and 
maintain remedies after cleanup is completed.
    The budget continues to fund development and deployment of 
new technologies that can reduce cleanup costs and schedules. 
The fiscal year 2002 request also funds high-priority new 
responsibilities that were added to our program this year. This 
includes the turnover of the uranium enrichment plants in 
Portsmouth, Ohio, and activities required to keep it safe and 
operable; design and construction of the depleted uranium 
hexafluoride conversion plant at Portsmouth and Paducah, 
Kentucky; and acceptance of some excess facilities from the 
National Nuclear Security Administration and the Office of 
Science for eventual decontamination and decommissioning.
    The Secretary has challenged every program in the 
Department of Energy to become 5 to 10 percent more efficient. 
In addition, he has challenged us to reduce the schedules and 
cost of completing cleanup. This EM budget reflects this 
challenge. The Secretary has asked me to initiate a top-to-
bottom assessment of the program, which will be completed by my 
successor.
    The goals of this top-to-bottom assessment are to 
strengthen our project management, to reduce our contractor 
overheads, to employ effective contracting strategies to ensure 
we are performing work as efficiently as possible and in the 
proper sequence, and to ensure that our decisions are based on 
sound science.
    In implementing this approach, we will continue open 
dialogue with Federal and state regulators. The Secretary has 
invited the governors of the states which host our major states 
and EPA Administrator Whitman to work with him to find more 
efficient ways to do business and improve the compliance 
framework that governs much of the Department's work at these 
sites. To date, we have received affirmative responses from 
seven governors and Administrator Whitman.
    While working together with our Federal partners and with 
our contractors and with your support for this budget, we can 
develop solutions to achieve our shared environmental goals 
more efficiently. Thank you for your continued support of this 
program. I'll be happy to answer any questions.
    [The prepared statement of Dr. Huntoon follows:]

              Prepared Statement by Dr. Carolyn L. Huntoon

    Mr. Chairman, and Members of the Subcommittee, I appreciate this 
opportunity to appear before you to discuss the Department of Energy's 
Environmental Management (EM) program and its fiscal year 2002 budget 
request.
    The Department of Energy's fiscal year 2002 request of $19.2 
billion fulfills President Bush's commitment to responsible 
discretionary spending while meeting critical requirements and 
priorities in the National security, energy, science, and environmental 
quality programs the Department administers. We faced some tough 
choices for all of the Department's programs, but the end result is a 
balance among the critical national priorities in the programs 
administered by DOE.
    The Environmental Management program constitutes nearly a third of 
the Department's budget, second only to our national security 
activities, illustrating the scope and complexity, as well as the 
challenge, of the cleanup we face. Our budget request of $5.913 billion 
for fiscal year 2002 for the EM program will enable the DOE to continue 
the cleanup of the contamination and wastes that resulted primarily 
from nuclear weapons research and production over the past 50 years. We 
are requesting $4,128.7 million in Defense Environmental Restoration 
and Waste Management (excluding $420 million for the Federal 
contribution to the Uranium Enrichment Decontamination and 
Decommissioning Fund); $1,050.5 million in the Defense Facilities 
Closure Projects; and $141.5 million in Defense Environmental 
Management Privatization. This totals $5,179.2 million in traditional 
budget authority and $141.5 million for privatization funding in the 
Defense accounts. Detailed information on site activities covered under 
this account are attached to this testimony.
    The level of funding in our request reflects the Department's 
priorities for the EM program. These priorities are, first and 
foremost, to ensure the safety of the workers and the public at all our 
sites. The request supports critical safety programs for the protection 
of workers who carry out cleanup activities across the DOE complex. Our 
request supports activities needed to address high risk wastes and 
nuclear materials to ensure they are safe and secure and that progress 
continues to reduce risks. It keeps us on track to meet accelerated 
closure schedules at Rocky Flats in Colorado and the Fernald site in 
Ohio. It supports many key projects, including the development of a 
waste treatment plant at Hanford to immobilize high-level waste, 
increased waste shipments to the Waste Isolation Pilot Plant, and 
stabilization of spent nuclear fuel and plutonium materials at the 
Savannah River Site in South Carolina. Our budget request continues 
efforts to develop and deploy innovative technologies that can reduce 
the cost and schedule of cleanup. While the budget addresses the major 
cleanup problems covered by compliance agreements and other essential 
requirements across the complex, Energy Secretary Abraham also has 
directed a top-to-bottom management review of the EM program with the 
goal of identifying efficiencies and speeding up our cleanup efforts.
    The Secretary has challenged every program in the Department to 
become 5 to 10 percent more efficient, and the EM review will focus on 
meeting this challenge. Under this management review, the program will 
work to identify steps to strengthen project management, implement 
contracting strategies that help reduce costs and schedules, make 
greater use of new technologies, and sequence work more effectively. We 
must be sure that we are spending our cleanup dollars on the right 
problems and that we are addressing cleanup problems as effectively as 
possible.
    Critical to the success of these efforts is the involvement and 
support of our state and Federal partners. The Department is firmly 
committed to conducting the cleanup safely and in compliance with 
applicable laws and regulations. It is critical, however, that we are 
conducting the cleanup in the best and most practical way possible. 
Accordingly, the Secretary has invited the governors of the States that 
host our sites and EPA Administrator Christine Todd Whitman to work 
with us to improve the compliance framework that governs much of the 
cleanup work at our sites. We need to review our cleanup work to ensure 
it promotes on-the-ground results, makes use of technologies that are 
efficient, and reflects the lessons and technical understanding 
developed over the past decade. I am confident that, working 
cooperatively, we can find ways to achieve our shared environmental 
goals more efficiently.

                              INTRODUCTION

    Before discussing the specifics of our fiscal year 2002 budget 
request, I would like to provide an overview of our program, as well as 
highlight some of our accomplishments in the past year and our planned 
achievements for the current fiscal year.
A. Meeting the Challenge of the Environmental Legacy
    The Environmental Management program is responsible for managing 
and cleaning up the environmental legacy of the Nation's nuclear 
weapons program and government-sponsored nuclear energy research. A 
common theme among the very diverse facilities across the country where 
the EM program is conducting cleanup is the challenge presented by the 
magnitude and complexity of the task we face in managing large volumes 
of nuclear wastes, safeguarding materials that could be used in nuclear 
weapons, and remediating extensive surface and groundwater 
contamination.
    In total, we are responsible for addressing an estimated 1.7 
trillion gallons of contaminated groundwater and 40 million cubic 
meters of contaminated soil and debris. EM is responsible for safely 
storing and guarding more than 18 metric tons of weapons-usable 
plutonium, enough for hundreds of nuclear weapons. Our inventory 
includes over 2,000 tons of intensely radioactive spent nuclear fuel, 
some of which is corroding. EM is also responsible for storage, 
treatment, and disposal of radioactive and hazardous waste, including 
over 340,000 cubic meters of high-level waste stored at the Hanford, 
Idaho, New York, and Savannah River sites; and for deactivation and 
decommissioning of about 4,000 facilities that will no longer be needed 
to support the Department's mission. The EM program also is responsible 
for critical nuclear non-proliferation programs to accept and safely 
manage spent nuclear fuel from foreign research reactors that contain 
weapons-usable highly enriched uranium.
    Completing the cleanup of the legacy from nuclear weapons 
production will meet our obligations to those communities and states 
that supported our national defense effort and helped win both the 
Second World War and the Cold War. Completing this cleanup will allow 
us to turn lands and facilities to other public uses and allow the 
Department to focus on its science, security, and energy missions.
B. Accomplishments and Progress in Fiscal Year 2001
    I am pleased to report that EM is making significant progress 
around the country. Our accomplishments reflect the program's continued 
commitment to performance-based management, establishing goals and 
performance measures that demonstrate our progress in on-the-ground 
environmental cleanup and meeting our goals. For example:

        <bullet> In fiscal year 2000, EM completed its cleanup work at 
        two more sites: the Battelle Columbus-King Avenue site in Ohio 
        and the Monticello site in Utah. We plan to complete cleanup of 
        the Grand Junction site in Colorado, General Atomics in 
        California, and Argonne-West in Idaho by the end of fiscal year 
        2001. This will bring the number of completed sites to 74, with 
        40 sites (including the Moab site in Utah) remaining that 
        require active cleanup.
        <bullet> The rate of shipments of transuranic waste for 
        disposal at the Waste Isolation Pilot Plant (WIPP), the world's 
        first deep geologic waste repository, continues to increase. 
        WIPP received 58 shipments in fiscal year 2000 and plans to 
        receive an additional 381 shipments by the end of fiscal year 
        2001, which will bring the total number of shipments to 471 
        containing over 3,000 cubic meters of waste since WIPP began 
        operations in March 1999. We are receiving waste from Rocky 
        Flats, Los Alamos National Laboratory in New Mexico, Hanford, 
        and the Idaho National Engineering and Environmental Laboratory 
        (INEEL), and made the first shipment from the Savannah River 
        Site last week.
        <bullet> We continue progress toward the ambitious goal of 
        closing Rocky Flats by 2006. In February 2000, we put in place 
        a new ``closure'' contract that provides incentives to the 
        contractor to meet the December 2006 target date for site 
        closure. We completed the demolition of Building 779 in January 
        2000, 8 months ahead of schedule. This is the first plutonium 
        facility of its size and complexity in the Nation to be 
        decommissioned and demolished. Shipments of waste continue, 
        including 249 cubic meters of transuranic waste to WIPP in 
        fiscal year 2000 with another 1,000 cubic meters scheduled for 
        fiscal year 2001. We are removing nuclear materials from the 
        site, we completed shipments of plutonium scrub alloy to the 
        Savannah River Site in fiscal year 2000, and will complete 
        shipments of classified metals to Los Alamos and the Savannah 
        River Site in fiscal year 2001.
        <bullet> In December 2000, we awarded a ``closure'' contract 
        for the Fernald site in Ohio, which includes incentives to the 
        contractor to accelerate closure ahead of the 2010 closure date 
        in the site's current baseline. We continue to stay on track 
        for closure by deactivating and decommissioning facilities, 
        disposing of contaminated soils and waste, and shipping nuclear 
        materials off-site.
        <bullet> We produced a total of 231 canisters of vitrified 
        high-level waste in fiscal year 2000 at the Savannah River Site 
        in South Carolina and expect to produce 220 more canisters in 
        fiscal year 2001.
        <bullet> At INEEL, we recently finished moving Three Mile 
        Island spent nuclear fuel debris to a newly constructed dry 
        storage facility, almost 2 months ahead of the milestone in the 
        Idaho Settlement Agreement. Construction of the Advanced Mixed 
        Waste Treatment Project started in fiscal year 2000 under a 
        privatization contract. This facility will treat up to 65,000 
        cubic meters of stored waste. Transuranic waste shipments to 
        WIPP continue in support of the Settlement Agreement with the 
        State.
        <bullet> At the Oak Ridge Reservation in Tennessee, we 
        completed the cleanup of all eight ``Gunite'' tanks containing 
        highly radioactive sludge in fiscal year 2000, 8 months ahead 
        of schedule and 10 years ahead of the original baseline. We 
        began shipments of low-level waste to the Nevada Test Site for 
        disposal, which allowed the resumption of off-site shipments of 
        waste to the Toxic Substances Control Act (TSCA) Incinerator 
        under an agreement with the State. In fiscal year 2001, we will 
        begin construction of a new on-site disposal facility for 
        remediation wastes, as well as the construction of a 
        transuranic/alpha waste treatment facility, which will prepare 
        Oak Ridge waste for shipment to WIPP.
        <bullet> At the Hanford site in Washington State, we continue 
        to make significant progress in reducing the urgent risks 
        associated with the 177 underground high-level waste tanks, 
        some of which have leaked to the surrounding soils threatening 
        groundwater and the nearby Columbia River. We are successfully 
        resolving tank safety issues in fiscal year 2001; we will 
        resolve an issue related to flammable gas safety, the last of 
        high priority safety issues, and remove all remaining tanks 
        from the ``Watch List.'' We continue interim stabilization of 
        single-shell tanks, transferring free liquids in the tanks to 
        more secure double-shelled tanks. We began pumping free liquids 
        from four single-shelled tanks in fiscal year 2000 and will 
        begin pumping another six tanks in fiscal year 2001, meeting 
        all milestones in the Consent Decree with the State of 
        Washington. In December 2000, a new performance-based contract 
        was awarded ahead of schedule for construction of the treatment 
        facility that will immobilize a significant portion of the 
        high-level tank waste.
        <bullet> Also at Hanford, in December 2000, we began moving 
        spent nuclear fuel from the K-West basins to safer, dry storage 
        away from the Columbia River. We plan to remove, dry, and 
        transport 116 metric tons of heavy metal spent nuclear fuel in 
        fiscal year 2001. We are also continuing the stabilization of 
        plutonium-bearing liquids and materials in the Plutonium 
        Finishing Plant, completing about 50 percent of solutions and 9 
        percent of the containers by the end of fiscal year 2001. In 
        fiscal year 2001, we will dispose of more than 490,000 tons of 
        contaminated soil and debris in the on-site disposal facility.
        <bullet> In fiscal year 2001, we will complete construction of 
        the Decontamination Waste Treatment Facility at the Lawrence 
        Livermore National Laboratory in California. This facility will 
        provide new, state-of-the-art technology for treatment of 
        Livermore waste.
        <bullet> At the Los Alamos National Laboratory, we began full 
        operation of our sealed source program in fiscal year 2001 to 
        recover radioactive sources that exceed the U.S. Nuclear 
        Regulatory Commission's upper limit for commercial disposal and 
        therefore currently have no approved disposal pathway. This 
        program removes unwanted radioactive sources from the private 
        and public sector and places them in safe storage at Los 
        Alamos. We have brought 1,100 private sector sealed sources to 
        Los Alamos for storage and expect to recover over 2,000 sources 
        by the end of fiscal year 2001.
        <bullet> In support of non-proliferation goals, we have 
        completed a total of 19 shipments to date of spent nuclear fuel 
        from foreign research reactors in 25 countries since the start 
        of the acceptance program, including three shipments in fiscal 
        year 2001 from Argentina, Chile, Germany, Italy, and Japan. All 
        told, these 19 shipments effectively removed from commerce an 
        amount of uranium equivalent to over 20 crude nuclear weapons. 
        This program is crucial in supporting U.S. policy to reduce and 
        eventually eliminate the use of highly enriched (nuclear 
        weapons-useable) uranium in civil commerce world-wide.
        <bullet> All EM sites achieved full implementation of 
        Integrated Safety Management (ISM) by the end of fiscal year 
        2000. ISM is a ``common sense'' approach to safety management 
        that defines the necessary safety structure for any work 
        activity that could affect the safety of the public, the 
        workers, or the environment.
        <bullet> Our on-the-ground use of new innovative technologies 
        continues to increase, many of which contributed to or resulted 
        in the accomplishments described above. During fiscal year 
        2000, DOE sites used EM-sponsored innovative technologies 210 
        times in cleanup activities. For example, a breakthrough 
        technology (LASAGNATM) that uses buried electrodes to produce a 
        flow of groundwater and dissolved contaminants toward ``in 
        situ'' treatment zones was deployed at the Paducah Gaseous 
        Diffusion Plant to treat trichloroethylene and technetium 
        contamination in the ground. During the next 2 years, this 
        technology is expected to reduce the level of contamination in 
        the soil to a level that presents no threat to groundwater.
        <bullet> Also in fiscal year 2000, 30 innovative technologies 
        were made available for use for the first time. One such 
        technology is the Vadose Zone Characterization System which 
        measures contaminants that have leaked from high-level waste 
        tanks into the groundwater. We also initiated 37 full-scale 
        demonstrations of innovative technologies, including the Fiber 
        Optic Tritium Detector and Quantifier, which enables tritium 
        measurements to be made safer, faster (real time), better, and 
        cheaper than traditional liquid scintillation-based techniques.
        <bullet> During fiscal year 2001, the sites expect to deploy 
        new technology at least 60 times in cleanup activities. For 
        example, we plan to deploy a new technology recommended by the 
        fiscal year 2001 ``blue ribbon panel'' on alternatives to 
        incineration at Hanford to treat organic hazardous and 
        radioactive mixed waste.

                  THE FISCAL YEAR 2002 BUDGET REQUEST

    The fiscal year 2002 budget request of $5.913 billion will enable 
EM to continue making progress in cleaning up its sites. The request 
supports the Department's key priorities needed to meet the 
environmental management mission. Our request:

        <bullet> protects the health and safety of the workers and the 
        public at all our sites as our first priority;
        <bullet> ensures the safety and security of high risk wastes 
        and nuclear materials and continues the progress in addressing 
        our high-risk cleanup problems and addresses critical needs 
        across the DOE complex;
        <bullet> keeps the major sites on track for meeting accelerated 
        closure goals;
        <bullet> continues investments in science and technology to 
        find safer, less expensive and more efficient solutions for 
        cleanup problems;
        <bullet> provides for long-term stewardship responsibilities 
        after cleanup is done.

    In addition, the budget request for fiscal year 2002 reflects an 
increased scope of responsibility from previous requests, funded 
primarily in non-defense accounts. These include:

          Turnover of the Portsmouth Plant: In June 2000, the U.S. 
        Enrichment Corporation (USEC) announced its intention to cease 
        uranium enrichment operations at the Portsmouth Gaseous 
        Diffusion Plant in Ohio. The Department must take steps to keep 
        the facilities in a safe and operable standby condition to 
        ensure, if necessary, that U.S. energy security and nuclear 
        fuel commitments can be met; mitigate the impact of the 
        cessation of enrichment activities on workers; and transition 
        the facility from USEC operation to DOE stewardship.
          Uranium Programs: The Energy and Water Development 
        Appropriation for fiscal year 2001 consolidated funding for 
        Uranium Programs and cleanup activities and authorized the 
        transfer of Federal personnel from the Office of Nuclear 
        Energy, Science, and Technology to EM to carry out the 
        associated responsibilities. With this transfer, EM is now the 
        landlord at the gaseous diffusion plant sites, responsible for 
        the management and disposition of 680,000 metric tons of 
        depleted uranium hexafluoride, among other activities 
        associated with the gaseous diffusion plants now leased to 
        USEC.
          Remediation of the Moab Site: The National Defense 
        Authorization Act for Fiscal Year 2001 directed the Department 
        to undertake the remediation of the uranium mill tailings site 
        in Moab, Utah, a site previously owned and operated by a now-
        bankrupt private company.
          Transfer of Excess Facilities: Beginning in fiscal year 2002, 
        EM will resume for the first time since 1996 accepting excess 
        contaminated facilities, on a limited basis, from other DOE 
        program offices for eventual deactivation and decommissioning.

    I would like to highlight some of the critical activities supported 
in the fiscal year 2002 request and our plans for the Environmental 
Management program.
A. Safety First
    The safety of our workers is paramount in all we do. We expect 
outstanding safety performance as a matter of course, demand this from 
ourselves and our contractors, and accept nothing less. Full and 
continued implementation of Integrated Safety Management is our way of 
achieving and sustaining a safe and healthful cleanup. The fundamental 
principle of Integrated Safety Management is that all accidents are 
preventable and that safety requirements must be consistent and defined 
at all steps of planning and conducting work. We recognize that safety 
culture flows down from actions by the senior management of an 
organization. These actions enforce the belief at every level that 
constant attention to safety has an incremental beneficial effect. The 
Office of Safety, Health, and Security was created to track safety and 
to assist our managers, programs, and sites in meeting their safety 
responsibilities.
    We influence workers' approach to doing a job by instilling a 
safety culture; ensuring that workers have the proper knowledge, 
qualifications, training, and equipment; identifying areas for 
improvement and verifying that safety deficiencies are corrected; and 
measuring progress and disseminating lessons learned.
    We also have a new initiative to more formally assure that new 
technologies are developed with the safety of the worker using them as 
a primary consideration. New technologies, however cost effective, will 
not be developed and deployed unless they can be used safely. Our goal 
is develop technologies that are safer to use, and make cleanup safer.
    Our enhanced focus on safety has begun to pay off. Currently, the 
total recordable case rate (a measure of occupational injuries and 
illnesses, more serious than those requiring first aid) for EM 
contractors and Federal employees was 1.7 compared to the overall DOE 
rate of 2.0 and the private industry average of 6.7, despite the fact 
that the construction type work employed in EM activities is considered 
to be among the most hazardous. We have, in fact, reduced the EM total 
recordable case rate by 25 percent since 1999. There has also been 
considerable progress in closing out corrective actions in response to 
independently-observed safety deficiencies. There is every indication 
that workers are committed to the principles of Integrated Safety 
Management and are taking an active role in making it a part of 
workplace culture. We are driving safety performance to new levels of 
excellence, and are developing new ways to safely manage the risks 
associated with cleanup. Our fiscal year 2002 request fully funds the 
safety systems and processes that ensure our workers are protected.
B. Giving Priority to the Highest Risk Materials and Wastes
    Moving spent nuclear fuel to safe storage at Hanford--In December 
2000, we began removing spent nuclear fuel from K-West Basins at the 
Hanford Site in Washington as part of our ongoing effort to protect the 
Columbia River. This project is a first-of-a-kind technical solution to 
move 2,100 metric tons of corroding spent nuclear fuel from at-risk wet 
storage conditions in the K-East and K-West basins into safe, dry 
storage in a new facility away from the river. Our fiscal year 2002 
request of $163 million for the Spent Nuclear Fuel Project at Hanford 
allows this critical project to continue on schedule, supporting the 
transport of 662 metric tons of spent nuclear fuel from K-West Basin 
and the completion of modifications to K-East Basins.
    Stabilize Plutonium at Hanford and the Savannah River Site--We are 
reducing risks by stabilizing plutonium-bearing materials at Hanford 
and the Savannah River Site, consistent with our commitments to the 
Defense Nuclear Facilities Safety Board. At Hanford, our request 
provides $73.8 million to continue stabilization activities at the 
Plutonium Finishing Plant, where we will complete stabilization of the 
remaining 4,300 liters of plutonium-bearing solutions and polycubes and 
continue stabilization and packaging of plutonium oxides and residues. 
These stabilization activities are a critical step in the deactivation 
of Plutonium Finishing Plant, which will significantly reduce 
``mortgage'' costs at Hanford.
    At the Savannah River Site, our request of $357.6 million will 
continue operations in the two chemical processing canyons to stabilize 
nuclear materials, including plutonium residues and plutonium metals 
and oxides, as well as plutonium alloys from Rocky Flats. Stabilization 
of these ``at risk'' materials is critical in resolving health and 
safety concerns surrounding these liquid or unstable radioactive 
materials; in supporting closure goals at Rocky Flats; and in 
responding to Defense Nuclear Facilities Safety Board recommendations. 
By the end of fiscal year 2002, with stabilization of sand, slag, and 
crucible plutonium residues, we will complete processing of all nuclear 
materials currently planned to be stabilized using the PUREX process in 
F-Canyon.
    Safely Manage and Treat High-Level Waste in Underground Storage 
Tanks at Hanford--The River Protection Project at Hanford includes the 
safe storage, retrieval, and treatment of 53 million gallons of high-
level waste now stored in 177 underground tanks near the Columbia 
River. In fiscal year 2002, we will continue interim stabilization of 
the tanks, i.e., pumping liquid waste from single-shelled tanks, which 
are at or beyond their design life or do not conform to current design 
codes, into more reliable double-shelled tanks. We will initiate 
pumping of four additional single shell tanks, staying on track to meet 
our commitment to complete interim stabilization of all single-shell 
tanks in 2004.
    Fiscal year 2002 is a critical year in developing the waste 
treatment plant to vitrify the high-level tank waste, one of the most 
critical, complex, and costly projects in the DOE complex. The fiscal 
year 2002 request provides $500 million to develop treatment facilities 
to vitrify at least 10 percent by volume and 25 percent of the 
radioactivity of the 53 million gallons of high-level tank waste. 
Initially being developed under a privatization approach, the 
privatized contract was terminated in May 2000 because of price and 
management concerns, and a new contract using a cost-reimbursement 
approach was awarded in December 2000. The new contract contains 
incentives tied to performance, encouraging the contractor to meet or 
exceed cost and schedule goals. The request provides funds to initiate 
construction of high-level waste pre-treatment and low-activity 
vitrification facilities and continues the design and installation of 
waste retrieval systems that will provide waste feed to the treatment 
facilities.
    Treat High-Level Waste and Begin Construction of Salt Processing 
Pilot Plant at Savannah River Site: The fiscal year 2002 request 
includes $110.6 million to support continued vitrification of high-
level waste at the Defense Waste Processing Facility that has produced 
more than 1,080 canisters of vitrified waste. By the end of fiscal year 
2002, we will complete about 22 percent of the expected lifetime total 
of 6,025 canisters. The request also supports development of a 
technology to separate the high-activity and low-activity fractions of 
the salt waste, in order to minimize the amount of waste that must be 
vitrified and disposed of in a deep geologic repository. The Department 
is scheduled to identify a preferred alternative technology or 
technologies in June 2001 to replace the In-Tank Precipitation 
technology, which was terminated in 1998 because of excessive benzene 
generation. Two of three technology options currently being considered 
are a result of the EM science program; without this work, Savannah 
River Site would have had to begin development of new alternatives, 
creating a further delay of at least 6 years. In fiscal year 2002, we 
will begin construction of a pilot plant that will provide design and 
operational information for a full-scale salt processing plant.
    Complete Construction of the Advanced Mixed Waste Treatment Project 
at INEEL--The request includes $40 million in budget authority for the 
Advanced Mixed Waste Treatment Project (AMWTP) at INEEL, a 
privatization project that will greatly increase the INEEL's capability 
to prepare 65,000 cubic meters of waste for disposal at WIPP. In fiscal 
year 2002, we will complete construction of the facility, and we will 
be on track to begin operations in 2003 in accordance with the 
agreement with the State.
    In response to a lawsuit and community concerns, the Department put 
the incineration component of the AMWTP on hold pending an expert 
review of alternative technologies to incineration that can meet legal 
standards. The ``blue ribbon panel'' of experts, in a December 2000 
report, identified several promising technologies. The request provides 
$5 million to explore several of these technologies, which may 
eliminate the need for the incinerator that had been planned for AMWTP.
    Increase Shipments to WIPP: The request of $164.6 million plus $2.6 
million for safeguards and security for the Waste Isolation Pilot Plant 
will allow us to increase shipments of contact-handled transuranic 
waste to WIPP in fiscal year 2002. We will continue critical shipments 
from Rocky Flats to support the closure schedule and from INEEL to meet 
its agreement with the State, as well as limited shipments from other 
sites. The WIPP facility remains critical to meeting our closure and 
completion goals at other sites.
    Begin Construction of a Pilot for ``Melt and Dilute'' Technology: 
The Savannah River Site has been developing a cost-effective path 
forward for spent nuclear fuel that does not require stabilization for 
health and safety reasons. This research and development effort is 
helping us identify technologies to manage spent nuclear fuel and other 
nuclear materials without chemical separation. Our efforts to develop 
the ``melt-and-dilute'' process have been so successful that we 
selected it as the preferred technology to prepare aluminum-based spent 
nuclear fuel for geologic disposal. Construction of a pilot plant that 
will test real spent fuel to demonstrate the viability of the melt and 
dilute process will be completed this fiscal year, and the $4 million 
requested in fiscal year 2002 will support operations of the pilot 
plant. This will provide a firm basis for the design and construction 
of the full-scale facility to prepare and store this spent nuclear fuel 
prior to final disposition in a geologic repository.
C. Supporting the Closure of Major Sites
    Staying On Track to Close Rocky Flats: The fiscal year 2002 budget 
request of $628.6 million plus $35.4 for safeguards and security, or a 
total of $664 million, supports the closure of Rocky Flats by December 
15, 2006, the closure date targeted in the contract. The Rocky Flats 
site is the largest site challenged to accelerate site cleanup and 
achieve closure in 2006. To date, significant progress has been made 
toward making this goal a reality. A key ingredient for closing Rocky 
Flats is being able to ship nuclear materials and waste off-site, which 
requires that other sites, often DOE sites, are available and prepared 
to accept the materials. Our request also provides the necessary funds 
to other sites, such as Savannah River Site, Oak Ridge, Nevada Test 
Site, and WIPP, to support their part of the Rocky Flats closure 
effort. The coordination and support of these planned shipping 
campaigns to the receiver sites demonstrates the Department-wide 
commitment to the goal of achieving accelerated closure of Rocky Flats.
    Accelerating the Closure of the Fernald Site: Our request of $285.3 
plus $4.7 million for safeguards and security also funds efforts to 
complete cleanup and close the Fernald site in Ohio. The site is 
currently scheduled to close in 2010, but the new closure contract for 
Fernald awarded last November includes incentives to the contractor to 
accelerate the completion date to 2006. Fiscal year 2002 efforts build 
on past cleanup progress, including stabilization of liquid uranium 
solutions, off-site shipment of low level radioactive wastes, 
disposition of excess nuclear materials, and decontamination and 
demolition of several large industrial buildings at Fernald. We will 
continue these activities in fiscal year 2002, including completing 
shipments of uranium materials to the Portsmouth site in Ohio for 
disposition, and beginning the full-scale remediation project for Silos 
1 and 2 that contain radium-bearing residues generated from the 
processing of high-grade uranium ore.
D. Meeting New Responsibilities
    The budget request for fiscal year 2002 reflects an increased scope 
of responsibilities assigned to EM as a consequence of congressional 
action in last year's legislation on internal initiatives. We have 
incorporated these new requirements into our request and prioritized 
the necessary activities in consideration of existing requirements of 
the Environmental Management program.
    Turnover of the Portsmouth Plant: In June 2000, the United States 
Enrichment Corporation (USEC) announced its intention to cease uranium 
enrichment operations at the Portsmouth Gaseous Diffusion Plant in Ohio 
and to return the plant to DOE. The EM program is responsible for 
placing and maintaining the plant in cold standby condition and for 
other critical transition-related activities, as well as eventual 
decontamination and decommissioning of the plant.
    A total of $125 million requested in fiscal year 2002 in the 
Uranium Facilities Maintenance and Remediation account supports 
activities to winterize the facilities, place the facilities in cold 
standby, and mitigate the impacts on the workforce. Some of these funds 
will be used to replace some of the funding sources for a fiscal year 
2001 reprogramming for transition activities now pending before 
Congress. In fiscal year 2002, this will allow us to complete the 
winterization of the plant, an activity we must begin this year. It 
will fund actions needed to place those portions of the plant needed 
for production of enriched uranium in a condition that would allow for 
restart of the operations within 18 to 24 months, should that become 
necessary in the future. It allows us to selectively begin deactivating 
other parts of the plant and structures at the site that are no longer 
needed in order to reduce the surveillance and maintenance costs.
    Uranium Programs: The Energy and Water Development Appropriation 
for Fiscal Year 2001 consolidated funding for Uranium Programs and 
cleanup activities, and authorized the transfer of Federal personnel 
from the Office of Nuclear Energy, Science and Technology (NE) to the 
Environmental Management program. With this transfer, EM became 
responsible for a number of additional activities, including safely 
managing 680,000 metric tons of depleted uranium hexafloride (DUF6) now 
stored at three gaseous diffusion plant sites and the design, 
construction, and operation of DUF6 conversion facilities at Portsmouth 
and Paducah. We also are responsible for maintenance and cleanup of 
facilities not leased to USEC, management of DOE Material Storage Areas 
in and around USEC buildings, and for pre-existing liabilities arising 
from law or agreement after the transfer of the uranium enrichment 
operations to USEC.
    The fiscal year 2002 request in the Uranium Facilities Maintenance 
and Remediation account places priority on actions needed to ensure 
safety, including maintenance of the DUF6 cylinders. We also will 
continue to work with the Commonwealth of Kentucky regulators to 
undertake actions needed to resolve the notice of violation issued by 
Kentucky concerning hazardous waste identified in the DOE Material 
Storage Areas at Paducah. The request also keeps the development of the 
DUF6 conversion facilities on track to begin construction in January 
2004, consistent with the schedule provided in Public Law 105-204.
    Transfer of Excess Facilities: The Department has a number of aging 
facilities that are no longer needed to support mission work. The costs 
to maintain these facilities so that they do not become a safety or 
contamination hazard can be significant, costs which can increase as 
facilities degrade over time. EM currently manages the majority of the 
Department's excess contaminated facilities. Since 1996, due to 
concerns about funding and increasing the scope of EM responsibilities, 
facilities that became excess to the needs of other programs have been 
managed by those programs. However, consistent with a new DOE order, 
beginning in fiscal year 2002, EM will, on a limited basis, begin 
accepting excess contaminated facilities from other DOE program offices 
for eventual deactivation and decommissioning.
    In fiscal year 2002, ten facilities or facility complexes, located 
at Brookhaven, Oak Ridge, Pantex Plant in Texas, and the Savannah River 
Site, will transfer to EM from the National Nuclear Security 
Administration, the Office of Science, and the Office of Nuclear 
Energy. We are requesting funds for surveillance and maintenance to 
enable EM to manage these newly transferred facilities safely, based on 
a budget transfer from the DOE program that currently ``owns'' the 
facility. Since these excess facilities constitute new work scope for 
the EM program, we are requesting the funding in a separate program 
account to enable DOE and Congress to track the cost and progress 
associated with the excess facilities transferring in fiscal year 2002. 
We also plan to include facility transfers in future years in this 
account.
E. Continuing the Investment in Science and Technology
    Developing and using more effective technologies in our cleanup 
continues to be a critical element of our strategy to reduce the cost 
and the pace of cleanup. Since its inception, EM's Science and 
Technology program has made approximately 280 innovative technologies 
available for use. Yet we have seen an increase in the needs for 
technological solutions reported by the sites. This is due to a large 
degree to better problem definition and a better understanding of 
project requirements, uncertainties, and costs. More than two-thirds of 
the EM life-cycle cost estimate occur after 2006, so the need for 
Science and Technology investments continues.
    The fiscal year 2002 request of $196 million for the Science and 
Technology program activities will support the Department's near-term 
needs for technical solutions while allowing us to work toward 
solutions for the more intractable environmental problems.
    Over the past several years, Environmental Management's Science and 
Technology program has concentrated not only on technical achievements, 
but also on ensuring its activities are directly linked to solving 
specific problems identified by project managers in the field and 
enhancing the program's management practices. I am pleased to report 
today that both technical advances and management processes for the 
Science and Technology program are solidly on track:
    On-the-ground Successes: In fiscal year 2000 alone, there were more 
than 200 innovative technologies used for the first time in a project 
or site across the complex, demonstrating that EM's Science and 
Technology program is successfully meeting real cleanup needs. For 
example, an innovative phytoremediation process was activated at the 
Mixed Waste Management Facility at the Savannah River Site. Tritium-
contaminated water is pumped above ground and sprayed onto the roots of 
selected trees where it is evapo-transpired into the atmosphere at safe 
concentrations. This process, which is already making improvements in 
downstream water quality, will prevent contaminants from flowing into 
Fourmile Creek and the Savannah River.
    At Hanford, the In Situ Redox Manipulation process, a 1998 R&D 
Magazine R&D 100 Award recipient, is being used on the highest-
concentrated portion of a chromium VI groundwater plume. This process 
replaces expensive pump-and-treat with a permeable treatment zone that 
immobilizes chromium traveling through it.
    Over 30 technologies were used as an integrated system to remediate 
the Oak Ridge Gunite and Associated Tanks, some of DOE's oldest tanks. 
Retrieval operations were completed in fiscal year 2000, 10 years ahead 
of schedule and at a savings of $350 million.
    Technical and Deployment Assistance: While furnishing innovative 
technologies is the cornerstone of our activities, the program also 
provides scientific and technical support to EM cleanup decisionmaking. 
In response to public concern about incinerator emissions, last year a 
Secretarial ``blue ribbon panel'' studied emerging alternatives to 
incineration, which resulted in recommendations on emerging 
technologies that hold greatest promise for further development. EM's 
Science and Technology program led the effort to provide technical data 
for this effort.
    The Science and Technology program is also supporting the 
development of an alternative technology to in-tank processing for 
cesium removal from high level waste. The Tanks Focus Area, one of the 
five teams that address DOE's major environmental problem areas, is 
performing much of the testing and will continue to work with the site 
to develop and pilot the selected technology. It will also continue 
development of an alternative until the primary technology has 
successfully completed pilot-scale tests on actual waste.
    Deployment assistance teams were sent to the Paducah Gaseous 
Diffusion Plant and the Pantex Plant last year to perform technical 
reviews of their groundwater, soils, and surface water contamination. 
Based on the teams' recommendations, innovative technologies are being 
deployed at both sites.
    Also, a first-ever textbook of reference material related to 
contamination of the vadose zone, a major problem for DOE sites, was 
compiled and published. This is an exhaustive compendium of information 
from multiple agencies and the private sector.
    Basic Research: Research sponsored by the Environmental Management 
Science Program (EMSP) is yielding beneficial results. To date, this 
work has been documented in 576 publications and has resulted in 28 
patent disclosures and applications. Promising EMSP work is using 
tobacco and rice plants by a University of Georgia team to detoxify 
ionic mercury. This method could be applicable to mercury-contaminated 
soils at shallow depths, such as at Oak Ridge. Also a new technology 
being pursued at Sandia National Laboratory in New Mexico acts as a 
molecular ``sponge'' by capturing and storing radioactive strontium 
from liquid hazardous waste. Heat turns the sponge into a stable 
material that shows promise of being suitable for disposal.
    With the requested $32 million, EMSP will complete research begun 
in fiscal year 1999 on scientific problems associated with the vadose 
zone, subsurface contamination, and groundwater issues to support 
initiatives at sites such as Hanford. Also, the first full year of 
research will be completed on projects awarded in fiscal year 2001 to 
improve the effectiveness of tank cleanup and decontamination and 
decommissioning processes.
F. Meeting Long-Term Stewardship Responsibilities
    As the Department completes stabilization, cleanup, and disposal of 
waste, we must consider the next and final stage in the cleanup 
process: meeting our enduring environmental protection obligations 
through long-term stewardship at sites that are unable to be cleaned up 
sufficiently to allow for unrestricted use. DOE's cleanup efforts have 
resulted in substantial risk and maintenance cost reductions across the 
complex. However, at most sites, cleanup will make the land available 
for other industrial uses, but not necessarily unrestricted use. Like 
private sites or other Federal facilities, cleanup to levels allowing 
for unrestricted use often cannot be achieved for economic or technical 
reasons, including the presence of residual contaminants or deliberate 
entombment of waste or facilities.
    The Department has a legal and moral responsibility to ensure the 
protection of human health and the environment after cleanup is 
complete. The goal of long-term stewardship is the sustainable 
protection of human health and the environment after cleanup, disposal, 
or stabilization is complete. The long-term stewardship program allows 
the Department to provide safe and effective long-term stewardship 
while optimizing future land and resource use. Good project management, 
applying the best science and technology to manage residual hazards, 
and increasing public confidence through effective involvement of state 
and local governments, Tribal Nations, and stakeholders are essential 
to a successful long-term stewardship program. A reliable long-term 
stewardship program can also provide confidence to regulators and the 
public that non-removal remedies are acceptable because the Department 
can be trusted to care for the sites after the waste is contained in 
place. These needs are not unique to the Department of Energy. While 
EM's Office of Long-term Stewardship may be the first office addressing 
these issues in the Federal Government, I would suggest to you that it 
will not be the last.
    In January 2001, DOE reported to Congress on the Department's long-
term stewardship responsibilities, in response to the fiscal year 2000 
National Defense Authorization Act (NDAA). The report provides the best 
available information on the cost, scope, and schedule of DOE's current 
and future long-term stewardship. It concludes that DOE currently 
carries out such activities at about 30 sites and may eventually be 
responsible for stewardship at 129 sites.
    Recently, we designated the Idaho Operations Office as the lead 
field office for our long-term stewardship program. The Grand Junction 
Office, which is currently conducting stewardship at sites that have 
completed cleanup, has been transferred from the Albuquerque Operations 
Office to the Idaho Operations Office to provide for continuity of 
critical operations and to coordinate policy and guidance development.
    The fiscal year 2002 request maintains funding for long-term 
stewardship activities at $8 million. In addition, $5.4 million in 
funding for Grand Junction also supports its stewardship activities. 
The number of sites moving from active cleanup to stewardship is 
expected to grow from 30 sites in fiscal year 2001 to 35 sites in 
fiscal year 2002, with an additional 33 sites transitioning into long-
term stewardship in the next 5 years.
    The request also supports INEEL and Headquarters activities to 
address complex-wide long-term stewardship challenges. Our emphasis in 
fiscal year 2002 will be on resolving issues that interfere with, or 
potentially delay, the transition of sites through closure and into 
long-term stewardship. We also continue investments in science and 
technology to help ensure that the protections provided by our remedies 
can be maintained as cost-effectively as possible for the necessary 
duration.

                 ENSURING WE USE RESOURCES EFFECTIVELY

    The cleanup facing DOE is perhaps the most complex and challenging 
environmental challenge in the world. It is one of the most costly, 
currently estimated to cost about $200 billion to complete. It is 
critical that we manage the program well and employ strategies that 
will help us continue progress and meet our commitments more 
efficiently and at a lower cost. The comprehensive, top-to-bottom 
assessment of the Environmental Management mission that the Secretary 
has directed be conducted will help identify opportunities to optimize 
the use of cleanup funds. Strategies to achieve this include:

        <bullet> implementing sound project management practices;
        <bullet> achieving efficiencies through innovative performance-
        based contracting approaches that provide financial incentives 
        for performance;
        <bullet> working closely with state and Federal regulators, 
        tribal nations, and other stakeholders at our sites; and
        <bullet> linking sites through integration.
A. Improving Project Management
    Sound project management is fundamental to cost effective and 
timely completion of EM's massive clean-up effort. EM has accomplished 
significant improvements in the past several years in planning and 
execution of project baselines, but certainly more work remains. In 
particular, we need to improve our up-front planning and our project 
risk management practices. The latter is particularly important given 
the high degree of uncertainty associated with many of our first-of-a-
kind projects.
    EM's Office of Project Management, created in August 1999, is 
charged with bringing state-of-the-art project management tools and 
training into the EM program to enable us to better manage our 
projects. We work closely with the Office of Engineering and 
Construction Management (OECM) in the Office of the Chief Financial 
Officer, the unifying organization for project management for DOE. We 
learn from and compare our performance with the standards and practices 
of external organizations such as the Construction Industry Institute, 
the Project Management Institute, and the National Aeronautics and 
Space Administration.
    Over the past year, EM has significantly improved project 
management practices by taking an aggressive approach to implementing 
the new DOE project management order, Program and Project Management 
for the Acquisition of Capital Assets, which mandates that industry 
standard processes and reporting be incorporated into DOE project 
management. We have recently identified over 70 discrete, well-defined 
projects (referred to as Capital Asset Projects) that will be subject 
to the comprehensive project management requirements laid out in the 
new DOE order.
    A sample of the other changes made to promote better project 
planning and reduce overall program costs include:

        <bullet> We are increasingly using a comprehensive project 
        planning tool similar to that used by the Construction Industry 
        Institute across the complex. We expect its use to result in 
        near-term project cost and schedule improvements.
        <bullet> We have instituted quarterly performance reviews for 
        key projects and formalized a ``critical decision'' approval 
        process using the expertise of DOE's Energy Systems Acquisition 
        Advisory Board (ESAAB). These internal and external independent 
        project reviews are the independent ``eyes and ears'' and 
        assist us in making sound decisions.
        <bullet> We have begun to make use of ``state-of-the-art'' cost 
        estimating models for environmental remediation and 
        decontamination and decommissioning projects. We plan to extend 
        these models to all types of EM projects.
        <bullet> We are putting together Integrated Project Teams to 
        provide more effective intra-site communication. These teams 
        are charged with expanding technology transfer and reducing 
        project risk associated with cross site waste transfers.
        <bullet> We are developing the project management career ladder 
        to ensure that future project managers have the right training 
        and experience to manage the large complex environmental 
        management projects to come.

    EM is taking project management ``off the drawing board'' and 
putting it into practice. Both headquarters and field offices are 
making changes needed to promote effective project management. While we 
will certainly face challenges ahead, we also anticipate substantial 
project management improvement, and more success stories in the coming 
years.
B. Improving Contract Management
    The EM program accomplishes its work largely through facility 
management contracts that provide for management and operations at each 
site. EM site managers have oversight responsibility for 11 facility 
management contracts. Managing performance under these contracts is key 
to successfully carrying out the EM mission and to reducing costs.
    To ensure we get what we pay for and that we get what we need, we 
have moved away from traditional cost-plus-award-fee contracts and are 
applying performance-based contracting and management principles to all 
our facility management contracts, as well as to our support service 
contracts. This contracting approach uses objective performance metrics 
to define and measure contract performance, tying the contractor's fee 
to achievement of these specific performance measures. Innovative 
performance metrics developed and used by EM sites include multiyear 
performance incentives, ``gateway'' provisions requiring the contractor 
to complete previous performance requirements before earning fee in a 
performance area, and ``stretch'' and ``super-stretch'' goals in which 
the contractor uses cost savings to fund unfunded work.
    In the past few years, we awarded new cost-plus-incentive-fee 
``closure'' contracts for the Rocky Flats and Fernald sites tied to 
completing the closure of the site. The contracts identify a target 
closure and include incentives for accelerated completions and 
reductions in fee for any delay beyond this targeted date. The 
contracts also include cost and schedule incentives focused on ensuring 
the cleanup is conducted safely and compliantly. We also negotiated new 
or extended contracts for operation of the Waste Isolation Pilot Plant, 
the Richland Operations Office and the Office of River Protection at 
Hanford, and the Savannah River Site that tie fees to performance.
    To further enhance contract reform objectives, EM is taking an 
increasingly active role in defining performance expectations, ensuring 
that these expectations are consistent with the Department's strategic 
plan, reviewing results, and holding both site managers and contractors 
accountable for producing results. In fact, site managers now have very 
specific elements in their annual performance plans concerning contract 
management.
C. Working with Our Regulators and Other Stakeholders
    We have found that performing good technical work is not enough. 
Getting the job done requires coordination with regulators and others 
outside of DOE that have a stake in our actions. By working 
cooperatively with regulators, stakeholders, local communities, and the 
Tribal Nations, we have improved the efficiency of the EM program and 
have made progress in meeting our regulatory commitments in a more 
efficient and cost-effective way.
    Critical to the success of our efforts to improve the efficiency of 
this program and the cleanup results is the involvement and support of 
our state and Federal partners. We believe this is an opportune time to 
examine the compliance framework that guides cleanup at all our major 
sites to ensure it reflects the experience gained over the past decade 
when many agreements were put in place. Accordingly, the Secretary has 
invited the governors of the States that host our sites and EPA 
Administrator Christine Todd Whitman to work with us to review our 
cleanup work to make sure it promotes on-the-ground results, and 
reflects the lessons and technical understanding that have developed. I 
am confident that, working cooperatively, we can find ways to achieve 
our shared environmental goals more efficiently.
    Our request supports public participation through continued 
relationships with states, site-specific and national advisory boards, 
and Indian tribes potentially affected by our activities. We will 
encourage an open and frank dialogue with our regulators to ensure that 
we are pursuing the most efficient and most cost-effective solutions to 
cleanup and compliance needs, as well as the most appropriate 
sequencing of work.
D. Linking Sites Through Integration
    While each DOE site has its own objectives and milestones for 
cleanup and closure, no site can complete its mission without help from 
other parts of the EM program. Making use of the unique capabilities 
for managing and treating nuclear wastes and materials at our sites and 
sharing information and expertise is critical to our success. Through 
integration, we seek to use available capacity rather than construct 
new facilities; apply innovative technologies at multiple sites; and 
apply lessons learned and site successes complex-wide. We work to 
address common problems and challenges across the DOE complex through a 
corporate approach.
    The contribution of other sites to the closure of Rocky Flats 
continues to illustrate the importance of integration. Our ability to 
close Rocky Flats depends on the acceptance of waste and materials by 
other DOE sites, including the Savannah River Site, Los Alamos, Pantex 
Plant, Lawrence Livermore National Laboratory, and the Nevada Test 
Site. Rocky Flats is in the process of formulating an Integrated 
Closure Project Baseline that integrates the Department's contractual 
commitments to provide items and services with activities to be carried 
out by the site contractor. The Integrated Closure Project Baseline 
highlights that the closure of Rocky Flats is truly a complex-wide 
project, requiring the support and careful coordination of a number of 
Departmental sites and programs. It has improved our ability to 
integrate complex-wide activities, schedules, and resources.
    We are working to develop disposition pathways for surplus nuclear 
materials throughout the DOE complex, including orphan materials (i.e., 
those with unclear programmatic ownership), and wastes that cannot be 
disposed of in their current forms. This requires that the Department 
has a full understanding of the surplus materials inventories and 
corresponding disposition plans prior to termination of facility 
capabilities. For example, EM recently completed the ``Savannah River 
Site Canyons Nuclear Material Identification Study'' (February 2001) to 
determine which materials would potentially require the use of the 
Savannah River canyons. Such disposition studies often identify the 
need to transfer materials and wastes between DOE sites in preparation 
for ultimate disposition. To support one particular transfer, EM 
recently revised DOE's 3013 Storage Standard for surplus plutonium, 
accelerating Rocky Flats closure by allowing metals and oxides stored 
there to be packaged for shipment off-site. We are also working to 
develop a cost-effective disposal approach for the classified waste 
currently stored at Rocky Flats.
    Finally, the transport of radioactive waste and material between 
sites is critical to the success of our integration priorities. Our 
national transportation program, which has successfully moved spent 
nuclear fuel containing U.S. enriched uranium from research reactors 
around the world to the U.S. for safe storage, is applying its success 
to other DOE shipments. For example, EM is working with other DOE 
program offices and with the sites to develop a national packaging 
strategy that will improve the availability of certified casks for 
unique types of DOE shipments, is working with NNSA to ensure the 
availability of Transportation Safeguards System for shipping special 
nuclear materials from Rocky Flats, and is developing the option of 
shipping waste to WIPP via rail. Our efforts will enable us to identify 
future packaging and transportation needs, to support aggressive 
shipping schedules, and to utilize our transportation assets more 
efficiently.

                 PROVIDING EFFECTIVE FEDERAL OVERSIGHT

    Critical to successfully managing the cleanup program and to 
identifying and implementing more efficient ways of doing business is 
having the Federal workforce in place to provide effective oversight of 
the contractors that compete for and carry out the actual cleanup work. 
Federal employees establish the program and project goals; they provide 
the direction to the contractors; and they monitor contractor 
performance to ensure we are getting the results we need, at the 
quality and cost promised, and that work is done in a safe and 
compliant manner. Our initiatives to reduce the costs and schedules of 
the cleanup depends on having an effective Federal workforce to keep 
the pressure on the contractor to find more innovative and efficient 
ways of doing business.
    The Federal workforce performs essential tasks that it would be 
inappropriate to have contractors perform. These include formulating 
the annual budget and outyear projections; managing contractors, 
including contract negotiations, oversight, and accountability; 
representing the Department in its dealing with regulators; analyzing 
and formulating program policy and planning; and integrating activities 
and information across sites.
    Our request for Program Direction, which funds Federal salaries as 
well as travel and administrative and technical support services, is 
$355 million. However, our request reduces support services and travel 
funds by almost half, while essentially maintaining the funds for 
Federal salaries. The request supports 2,708 Full-time Equivalents 
(FTEs) about 84 percent of which are in the 12 DOE field and operations 
offices and includes increases in the Carlsbad Field Office and the 
Office of River Protection to reflect increased requirements. Overall, 
the Program Direction account has been significantly reduced from 
earlier years. The number of Headquarters FTEs, for example, is 45 
percent less than when at its highest point in 1995. The request for 
Program Direction in fiscal year 2002 is about 15 percent less than in 
fiscal year 1997, the year these activities were consolidated into a 
single account.
    The Department continues to place a high priority on workforce 
management to provide a stable workforce with the right skill mix and 
technical capabilities to accomplish our mission, now and into the 
future.

                               CONCLUSION

    In conclusion, the Department is making progress in cleaning up the 
legacy of contamination left from the nuclear weapons production 
process. We are giving priority to reducing our most serious risks, 
accelerating cleanup at our major sites across the country, safely 
storing and safeguarding weapons-usable nuclear materials, and reducing 
the long-term costs of the program. We will continue to use science and 
technology to reduce costs and schedules, improve our project 
management, make the most effective use of our unique resources across 
the DOE complex, and maintain our focus on worker safety. We pledge to 
continue to work closely and cooperatively with Congress to ensure that 
this progress continues and that we can meet the challenges ahead in 
the most effective way.

                 SUMMARY OF THE FISCAL YEAR 2002 BUDGET

    The total fiscal year 2002 budget request for the Department of 
Energy's Environmental Management Program is $5.913 billion. This 
includes $4,128.7 million in Defense Environmental Restoration and 
Waste Management (excluding $420 million for the Federal contribution 
to the Uranium Enrichment Decontamination and Decommissioning Fund); 
$1,050.5 million in the Defense Facilities Closure Projects; and $141.5 
million in Defense Environmental Management Privatization. This totals 
$5,179.2 million in traditional budget authority and $141.5 million for 
privatization funding in the Defense accounts. The fiscal year 2002 
appropriation will fund cleanup at sites across the Nation. Five sites 
receive almost three-fourths of Environmental Management funding the 
Hanford site in Washington (including Richland Operations Office and 
Office of River Protection), the Savannah River Site in South Carolina, 
the Rocky Flats site in Colorado, the Idaho National Engineering and 
Environmental Laboratory in Idaho, and the Oak Ridge Reservation in 
Tennessee.
    Our fiscal year 2002 budget proposal provides details on each 
project, including performance measures, which we use to hold managers 
accountable, and expect to be held accountable by Congress. Summaries 
of budget accounts and the fiscal year 2002 request by State and 
Operations Office are attached. In addition, information on each of the 
following sites can be found immediately after the budget summaries.

         1. Hanford Site, Washington

                Office of River Protection
                Richland Operations Office

         2. Savannah River Site, South Carolina
         3. Rocky Flats Environmental Technology Site, Colorado
         4. Idaho National Engineering and Environmental Laboratory, 
        Idaho
         5. Oak Ridge Reservation, Tennessee
         6. Fernald Environmental Management Project, Ohio
         7. Waste Isolation Pilot Plant, New Mexico
         8. Nevada Test Site and Operations Office, Nevada
         9. Los Alamos National Laboratory, New Mexico
        10. Miamisburg Environmental Management Project (Mound), Ohio
        11. Lawrence Livermore National Laboratory, California 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    1. Hanford Site, Washington

Fiscal Year 2002 Request

Office of River Protection:
                                                           [In thousands
                                                             of dollars]

    Defense ER&WM, Post 2006-ORP..............................   812,468
    Defense ER&WM, Site/Project Completion....................     2,000
    Defense ER&WM, Program Direction..........................    23,386
                    --------------------------------------------------------------
                    ____________________________________________________

          Total...............................................   837,854
                    ==============================================================
                    ____________________________________________________
Richland Operations Office:
    Defense ER&WM, Site/Project Completion....................   419,586
    Defense ER&WM, Post 2006 Completion.......................   164,642
    Defense ER&WM, Program Direction..........................    53,342
    Non-defense EM, Site/Project Completion...................     1,485
                    --------------------------------------------------------------
                    ____________________________________________________

          Total...............................................   639,055
                    ==============================================================
                    ____________________________________________________
    Defense ER&WM, Science & Technology.......................    36,844
    Defense ER&WM, Safeguards & Security......................    51,544

                    --------------------------------------------------------------
                    ____________________________________________________

          Total (Hanford Site)................................ 1,565,297
                    ==============================================================
                    ____________________________________________________

    The Hanford Site in Washington State remains the Department's 
greatest cleanup challenge. The 560-square mile site was carved out of 
a broad curve of the Columbia River during World War II. It is now the 
Nation's largest former nuclear weapons production site, and the 
cleanup of the Hanford Site is the largest, most technically complex, 
environmental cleanup project yet undertaken. The site contains large 
amounts of spent nuclear fuel, unstable weapons grade plutonium, 177 
underground tanks containing 53 million gallons of high-level 
radioactive waste, and more than 100 square miles of contaminated 
ground water. The Hanford Site remediation activities are regulated by 
the Tri-Party Agreement which was signed by the U.S. Department of 
Energy, the U.S. Environmental Protection Agency, and the Washington 
State Department of Ecology. In addition to cleanup of the site, the EM 
program provides critical infrastructure activities and service at the 
site, referred to as ``landlord'' activities.
    The Hanford site mission is carried out by two independent 
organizations, the Richland Operations Office and the Office of River 
Protection (ORP). ORP was established in December 1998 following 
Congressional direction in the Strom Thurmond National Defense 
Authorization Act for Fiscal Year 1999 and is responsible for all 
aspects of the River Protection Project (formerly the Tank Waste 
Remediation System), which includes safe storage, retrieval, treatment, 
and disposal of the high-level radioactive tank waste. Richland 
Operations Office responsibilities include all aspects of treatment, 
storage, and disposal of legacy radioactive and hazardous wastes; safe 
and secure storage of nuclear materials and spent nuclear fuel; and the 
decontamination and decommissioning of facilities associated with the 
production of nuclear materials during the Cold War. The Richland and 
ORP managers report directly to the Assistant Secretary for 
Environmental Management, and their budgets (with the exception of 
integrated safeguards and securities and science and technology 
budgets) are separate. The ORP Manager has been delegated authority for 
contracting; financial management; safety; and general program 
management equivalent to other DOE Operations Offices.
Office of River Protection
    ORP works closely with the Richland Operations Office to protect 
the health and safety of the public, workers, and the environment and 
to control hazardous materials to protect the Columbia River. ORP 
manages the River Protection Project located on the central plateau 
(200 Area) of the Hanford Site. The River Protection Project uses two 
major contracts for the storage, retrieval, treatment, and disposal of 
the high-level tank waste. A 10-year contract to design, construct, and 
commission a new Waste Treatment and Immobilization Plant (WTP) was 
awarded to Bechtel National, Inc. on December 11, 2000. The goal is to 
treat and immobilize approximately 10 percent of the waste by mass and 
25 percent by radioactivity by 2018. The award of this contract follows 
a privatization effort to design, build, and operate a WTP that 
resulted in an unacceptable proposal submitted by the privatization 
contractor and termination of the privatization contract. However, as a 
result of the privatization effort, DOE acquired a robust technical 
design for the WTP that has been independently verified. In addition, 
the contract for maintenance and operations of the tank farms, which 
will provide waste feed to the WTP, is with CH2M Hill and was recently 
extended through 2006.
    Management of the underground high-level waste tanks remains one of 
the biggest challenges at Hanford. In fiscal year 2001, we made 
significant progress in reducing the urgent risks associated with these 
tanks. The issue of the rising level of tank SY-101 was resolved by 
dissolving the crust on the surface of the waste through a series of 
waste transfers and back dilutions. Elimination of the crust reduced 
the retention of flammable concentrations of gas in SY-101 and 
permitted us to resolve the flammable gas safety issue for this tank 
and to remove the tank from the ``Watch List'' established by the 
National Defense Authorization Act for Fiscal Year 1991. During fiscal 
year 2001, we expect to resolve the flammable gas safety issue for the 
remaining 24 tanks that are affected and to remove those from the Watch 
List. Once this action is complete, there will be no tanks remaining on 
the Watch List. The Department signed a Consent Decree with the State 
of Washington that established a schedule for interim stabilization of 
the single-shell tanks. To date, we have met all Consent Decree 
milestones, which includes declaring seven of 29 single shell tanks to 
be interim stable. The two unstabilized single shell tanks that are 
suspected of having leaked in the past will be pumped during fiscal 
year 2001.
    For fiscal year 2002, we will continue improving tank safety by 
transferring free liquids from single shell tanks to double shell tanks 
in accordance with the Consent Decree schedule. In addition, design and 
construction will continue on tank farm retrieval systems and other 
infrastructure improvements necessary to support future waste feed 
delivery to the treatment facility and eventual removal of all waste 
from the single shell tanks. Several of these upgrades are adapted from 
technologies developed under the EM Science and Technology Program. For 
example, we have procured a variant of the Houdini robotic platform for 
confined slucing of sludge waste and are planning to test an adaption 
of the fluidic sampler technology in solid waste retrieval.
    In fiscal year 2001, we completed termination activities associated 
with the privatization contractor, including purchase of the pilot-
scale melter, and acquisition of the appropriate intellectual property 
rights associated with the pilot-scale melter and with the WTP design 
completed under privatization. In addition, we will continue the design 
and engineering of the WTP, and begin site preparation activities to 
support WTP construction, including site clearing and grading, 
installation of site utilities, and construction of equipment laydown 
areas. In fiscal year 2002, the requested $500 million in funding will 
be used to maintain momentum on WTP design, proceed with long lead 
project procurement, begin facility construction, and manage the 
project.

    1. Richland Operations Office
    Over the past year, Richland has formulated an outcome-oriented 
version of the Hanford Site's future that embraces priorities of 
regulators, stakeholders, and area Tribal Nations, while recognizing 
the absolute need to make visible progress in the near-term. The three 
elements of that vision are: (1) to restore the Columbia River 
corridor; (2) complete the transition of the Central Plateau to long-
term waste management; and (3) prepare the remainder of the site to 
contribute to the future welfare and well-being of its neighboring 
communities. This focus on outcomes has resulted in a new contract 
strategy and a revised project baseline. In December 2000, DOE 
negotiated an extension to the current site operations contract through 
2006 for transitional work in the Central Plateau and the Spent Nuclear 
Fuel Project. We are currently exploring awarding a closure-type 
contract for the River Corridor.
    In December 2000, we began moving spent nuclear fuel from K Basins, 
which are leak-prone underground wet storage pools located 400 yards 
from the Columbia River that hold roughly 2,100 metric tons of fuel, 
some of which is corroding. This first-of-a-kind, technically complex 
project entails loading the fuel elements while still underwater into a 
multi-canister overpack using robotic arms, drying it in the nearby 
Cold Vacuum Drying Facility, and transporting the fuel for dry storage 
to the newly-built Canister Storage Building, 12 miles from the river. 
Moving the fuel to safer storage safeguards the health of workers and 
the surrounding communities, and reduces the risks to the health and 
vitality of the Columbia River. By the end of fiscal year 2001, we 
expect to remove 116 metric tons of spent fuel from the K-West Basin. 
We will also begin design work for the K-Basin sludge and debris 
removal system and the sludge pre-treatment system. Our fiscal year 
2002 request supports continued transport of spent nuclear fuel in K-
West Basin to dry storage.
    The Department is continuing to remediate waste sites and dispose 
of the contaminated soil and debris in the Environmental Restoration 
Disposal Facility (ERDF). In fiscal year 2000, ERDF received 
approximately 639,000 tons of contaminated soil and debris from cleanup 
sites along the Columbia River Corridor, and completed construction of 
cells 3 and 4. In fiscal year 2001 ERDF will receive over 490,000 tons 
of contaminated soil and debris. We plan to complete remediation of 
nine waste sites in the Hanford 100 and 300 Areas, and send up to 
461,000 tons of contaminated soil and debris to ERDF in fiscal year 
2002.
    In fiscal year 2000, we began operating three additional furnaces 
at the Plutonium Finishing Plant (PFP) for thermally stabilizing 
plutonium-bearing materials. We completed stabilization of 574 
containers of plutonium metals and oxides, and began stabilizing 
plutonium solutions via magnesium hydroxide precipitation. We also 
began packaging stabilized plutonium materials using the Bagless 
Transfer System and the Pipe-n-Go system for packaging residues. In 
fiscal year 2001, we plan to stabilize 2,190 liters of plutonium 
bearing solutions and 527 containers of plutonium metals and oxides at 
the PFP. We have initiated startup of the outer container packaging 
system at PFP and will also complete brushing and packaging of 
plutonium metals. Stabilization activities will eliminate the risk 
posed by the plutonium-bearing materials and is a critical step in the 
deactivation of PFP, which will significantly reduce mortgage costs at 
Hanford. In addition, we will continue stabilization of plutonium 
oxides and residues, and complete stabilization of plutonium-bearing 
solutions and polycubes at PFP in fiscal year 2002.
    We continue to decommission the reactor facilities in the 100 Area 
through the Interim Safe Storage Project. In fiscal year 2000 and 2001, 
decommissioning activities continue at the DR and F reactors as well as 
at the 233-S Plutonium Concentration Facility.
    In fiscal year 2000, we made our first shipment of Hanford 
transuranic waste to the Waste Isolation Pilot Plant (WIPP) for final 
disposal, completing three shipments totaling 18 cubic meters, and we 
plan to complete at least five shipments of 42 cubic meters of 
transuranic waste to WIPP in fiscal year 2001. In fiscal year 2002, we 
will treat more than 500 cubic meters of mixed low-level waste in 
accordance with Tri-Party Agreement milestones, dispose of more than 
6,700 cubic meters of low-level waste, process over 200 million gallons 
of radioactive and hazardous effluents, and complete treatment of 265 
cubic meters of mixed low-level waste at a contract facility.
    In fiscal year 2002, the Hanford Site Groundwater/Vadose Zone 
Integration Project will implement the highest priority science and 
technology activities identified in fiscal year 2000.

    2. Savannah River Site, South Carolina

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense ER&WM, Site/Project Completion........................   391,401
Defense ER&WM, Post 2006 Completion...........................   585,989
Defense ER&WM ,Science & Technology...........................    17,526
Defense ER&WM, Excess Facilities..............................       700
Defense ER&WM, Safeguards and Security........................    94,225
Defense ER&WM, Program Direction..............................    52,731
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 1,142,572
                    ==============================================================
                    ____________________________________________________
    The Savannah River Site is a 310 square mile site near Aiken, South 
Carolina with an on-going defense mission. In addition to cleanup of 
the site, the EM program provides critical infrastructure activities 
and services at the site, referred to as ``landlord'' activities.
    One of the critical EM responsibilities at the site is the 
stabilization of nuclear materials resulting from its mission to 
produce strategic isotopes for national security purposes during the 
Cold War. In fiscal year 2001 and fiscal year 2002, we will continue to 
operate the two canyons as well as FB-Line, and HB-Line, to stabilize 
``at risk'' plutonium-bearing materials and spent nuclear fuel covered 
by Defense Nuclear Facilities Safety Board Recommendations 94-1 and 
2000-1. The Savannah River Site also continues it critical role in 
supporting the accelerated closure of Rocky Flats, receiving and 
stabilizing surplus plutonium-bearing materials from Rocky Flats. By 
the end of fiscal year 2002, more than 25 percent of plutonium residues 
at Savannah River will have been stabilized. In addition, surplus 
plutonium metal and oxides from Rocky Flats packaged in DOE-STD-3013 
containers will be received and stored in the K-Area Material Storage 
area until they can be permanently dispositioned. The fiscal year 2002 
budget request also supports continued construction of a process to 
vitrify americium/curium solutions, which have very intense radiation 
fields and require heavy shielding to protect workers and the public.
    The fiscal year 2002 budget request continues support for receipt 
and storage at the Savannah River Site of spent nuclear fuel from 
domestic and foreign research reactors in support of national and 
international non-proliferation goals. In fiscal year 2002, we expect 
to receive 22 casks of spent nuclear fuel from foreign sources and 
another 31 casks from domestic sources which will be safely stored at 
the Savannah River Site's basins. By the end of fiscal year 2001, we 
expect to have received almost one-third of the spent fuel assemblies 
that we know other countries plan to return.
    The Savannah River Site has been developing a cost-effective 
technology for preparing spent nuclear fuel that does not require 
stabilization for health and safety reasons for disposal. This work is 
helping us identify an approach to stabilize spent nuclear fuel and 
other nuclear materials without chemical separations. Last August, we 
selected the ``melt-and-dilute'' process as the preferred technology to 
prepare aluminum-based spent nuclear fuel for geologic disposal. The 
fiscal year 2002 budget provides $4 million for operation of the L-Area 
Experimental Facility to demonstrate the viability of the melt-and-
dilute process. This will provide a firm basis for the design and 
construction of the full-scale facility to prepare and store this spent 
nuclear fuel prior to final disposition in a geologic repository.
    Much of the EM work at the Savannah River Site that will be 
completed after fiscal year 2006 involves management of approximately 
38 million gallons of high-level waste in 49 tanks, including 
vitrifying waste for final disposal and removing waste from storage 
tanks so the tanks can be closed. Two tanks have already been closed 
and, in fiscal year 2000, we produced 231 canisters of vitrified waste 
in the Defense Waste Processing Facility (DWPF). As of the end of May 
2001, we had vitrified a total of 1,118 canisters of high level waste. 
We expect the DWPF to produce at least 150 canisters in fiscal year 
2002, which will bring the total DWPF canister production level to 
about 22 percent of its expected lifetime total of 6,025 canisters.
    Due to the long-term nature of this project, there are significant 
potential payoffs if we are able to develop and apply innovative 
technologies. We are currently moving forward with technologies that 
will make it easier to retrieve waste, to improve the way we 
decontaminate our canisters once they are filled, to reduce worker 
exposure through use of high efficiency filters that can be regenerated 
and reused, and to increase the amount of waste in each canister. These 
advances will allow DWPF to operate more efficiently and ensure that 
our goals for increasing canister production and reducing life cycle 
costs are realized.
    In-Tank Precipitation operations were terminated in January 1998 
because we were unable to successfully pre-treat the waste and limit 
the levels of benzene generation in the tanks to safe and manageable 
levels while maintaining production levels for DWPF. Pre-treatment of 
the waste is necessary to separate the high-activity and low-activity 
wastes, in order to minimize the amount of waste that must be vitrified 
and disposed in a deep geologic repository. We undertook a systems 
engineering analysis, which was reviewed by a panel of independent 
experts, to evaluate all possible alternatives and have narrowed them 
down to three. We will select a preferred alternative technology for 
treatment of the salt component of the high level waste this June, and 
the fiscal year 2002 budget request supports continued construction of 
a pilot plant for that technology. The design and operational data 
gathered from this pilot project will support the design and 
engineering of the full scale Salt Processing Project facility by 
providing a research and development test bed.
    The first shipment of Savannah River Site transuranic waste to the 
Waste Isolation Pilot Plant occurred in May 2001, followed by three 
more shipments in fiscal year 2001, with shipping rates increasing to 
about one a month during fiscal year 2002. Storage, treatment, and 
disposal operations of low-level, mixed low-level, and hazardous wastes 
will continue, including on- and off-site recycling activities.
    We will also continue to aggressively pursue the use of new 
technologies to characterize and clean up contaminated release sites 
and groundwater plumes. We are using the Vadose Zone Monitoring System 
to determine how fast and in what concentration contaminants are 
traveling to the groundwater. This approach provides sensitive early 
warning of aquifer contamination from the E-Area shallow disposal 
trenches. At the mixed waste management facility, we have begun using a 
phyto-remediation system to remove tritium from groundwater by the 
process of ``evapo-transpiration'' using trees and other indigenous 
vegetation. In fiscal year 2002, we expect to complete key closures at 
the K Area Burning Rubble Pits and in the L and P Area Bingham Pump 
Outage Pits. We will complete remediation of five release sites, 
bringing the total count of sites remediated to 300, nearly 60 percent 
of the 515 release sites needing remediation. We will also operate 8 
groundwater treatment systems in 6 of 11 groundwater plumes at the site 
to remove and control contamination.

    3. Rocky Flats Environmental Technology Site, Colorado

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense Closure, Site Closure.................................   628,577
Defense Closure, Safeguards & Security........................    35,423
Defense ER&WM, Science & Technology...........................     3,000
Defense ER&WM, Program Direction..............................    23,199
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   690,199
                    ==============================================================
                    ____________________________________________________

    The accelerated closure of the Rocky Flats Environmental Technology 
Site is one of the Department's key initiatives. As the first major 
weapons-related facility to be cleaned up and closed, this project will 
offer a wealth of lessons-learned that will be applied to other sites 
in the complex. Similarly, the closure of Rocky Flats requires the 
implementation of innovative approaches and resolution of new project 
and policy issues.
    One of the innovative approaches we have applied is the use of a 
cost-plus-incentive-fee closure contract. In January 2000 we awarded 
Kaiser-Hill, L.L.C. a closure contract valued at approximately $4 
billion (excluding incentive fee payments) to complete the closure of 
the site. The contract identifies a target closure date of December 15, 
2006, and includes incentives for accelerated completions and 
reductions in fee for any delay beyond this targeted date. In addition, 
the contract includes cost and schedule incentives focused on ensuring 
the cleanup is conducted safely and compliantly.
    We are continuously working to ensure that safety is not 
compromised in our efforts to complete the cleanup scope as quickly and 
cost effectively as possible. The Department's Integrated Safety 
Management System (ISMS), an integral part of the closure contract, was 
implemented at Rocky Flats in January 2000. Since January 2001, both 
the Rocky Flats Field Office and Kaiser-Hill have been working to 
strengthen the site's safety posture. The site manager requested 
assistance reviews by the Office of Environment, Safety and Health, 
which were recently completed. The contractor has also recently 
completed a site-wide, ISMS-based safety improvement plan.
    The contract also formalized DOE's commitment to site closure in 
that it identified specific activities contractually required by the 
Department to support closure. These activities are referred to as 
government-furnished services and items and largely include activities 
necessary to ship special nuclear materials and wastes off-site. For 
this reason, we are approaching the execution and management of this 
contract as a complex-wide project, and this has required us to develop 
some new management tools. During this first year of the contract 
execution, we have been working to ``projectize'' the activities 
required by the Department through the formulation of the Integrated 
Closure Project Baseline. This integrated baseline will provide the 
formality and structure necessary to ensure the Department meets its 
contractual commitments, as well as improve our means of managing the 
contract. The Integrated Closure Project Baseline highlights that the 
closure of Rocky Flats is truly a complex-wide project, requiring the 
support and coordination of a number of Departmental sites and 
programs. The effort has been fully supported by the contractor and the 
other programs and sites, and has received significant attention from 
external stakeholders, including the General Accounting Office (GAO).
    In February 2001, GAO published their follow-on report assessing 
DOE's ability to complete the closure of Rocky Flats in 2006. Overall, 
the report provides a thorough assessment of the challenges facing us, 
and also demonstrates the progress we have made toward closure. Whereas 
the initial assessment indicated a 1 percent chance of achieving site 
closure in 2010 (1999 report), this follow-on report concluded there is 
a 15 percent chance of reaching site closure in 2006 and a 98 percent 
chance of closure in 2008. As such, the GAO assessment is a powerful 
validation of the progress realized to date. The report also recognizes 
the value of the Integrated Closure Project Baseline, and provides 
useful recommendations for formalizing the responsibilities and 
authorities necessary to resolve any inter-organizational resource 
issues.
    A key ingredient for closing Rocky Flats is being able to ship 
nuclear materials and waste off-site. This requires not only the 
preparation of the materials and waste for shipment, but ensuring the 
receiver sites and the necessary transportation services are available. 
We have made some very significant progress to date. We recently 
completed the shipment of classified plutonium metals to the Savannah 
River Site and Los Alamos National Laboratory. We also completed the 
Operational Readiness Review of the Plutonium Stabilization and 
Packaging System, which will package plutonium metals and oxides into 
approximately 2,000 containers, and expect to begin packaging 
operations later this month. These containers will be shipped to the 
Savannah River Site for storage beginning in August 2001. The 
disposition paths for the remaining nuclear material streams are being 
finalized through the integrated baseline development. We plan to ship 
certain weapons components to the Lawrence Livermore National 
Laboratory and highly enriched uranium, either contaminated or 
associated with plutonium to the Savannah River Site. With the proper 
coordination of receiver site preparation and transportation services 
(provided by Defense Programs), we hope to complete all nuclear 
material shipments by the end of calendar year 2002.
    We have also made significant progress in the disposition of waste. 
In March 2001, we made our 100th transuranic waste shipment to WIPP. 
Rocky Flats to date has disposed of over 650 cubic meters of 
transuranic waste, more than any other site in the DOE complex. 
Currently, the site is completing an average of four shipments per 
week, and by year end will be nearing an average of nine shipments per 
week. In total, nearly 15,000 cubic meters of transuranic waste and 
about 100,000 kilograms of plutonium residues will be packaged and sent 
to WIPP. In fiscal year 2000, we also nearly doubled our planned 
shipments of low-level waste for disposal.
    The site's progress toward the reconfiguration of the site's 
Protected Area marks another significant accomplishment because it 
provides considerable productivity improvements. All special nuclear 
material on-site has been consolidated within Building 371, enabling us 
to close material access areas in the other major plutonium facilities. 
This has reduced the security requirements in those facilities, 
improving access for the workers performing the decontamination and 
decommissioning (D&D) in those buildings. We will fully implement the 
reconfiguration once all issues associated with the new alarm and 
detection systems are resolved. The reconfiguration of the Protected 
Area reduces safeguards and security requirements, increasing the total 
funding available to support actual cleanup activities.
    DOE has also clearly made enormous progress in reducing risks at 
the site. About 80 metric tons of plutonium residues have been 
stabilized and/or repackaged to date. This represents 79 percent of the 
total. We have also completed the draining of 32 and removal of 30 
liquid piping systems.
    We continue to make progress in deactivating and decommissioning 
buildings. Early in fiscal year 2000 we completed the demolition of 
Building 779, one of the five major plutonium facilities. Given that 
this facility once contained 133 contaminated gloveboxes, this 
achievement marked a significant milestone for the complex. We continue 
to apply the lessons learned from that demolition to the ongoing 
activities in the four remaining plutonium facilities. We have deployed 
an innovative technology called plasma-arc cutting for glovebox size 
reduction. This technology provides a significant reduction in worker 
risk and improved efficiency.
    In the area of environmental remediation, we are using another 
innovative technology, a horizontal drilling technology, to 
characterize the contamination located under the buildings. This 
characterization information helps us coordinate remediation plans with 
the facility cleanup schedules to support the 2006 closure date. We 
continue to work closely with the regulators and stakeholders to refine 
the details of site cleanup. We expect the regulators will reach a 
decision on the final soil action levels late this calendar year. 
Through our integrated stakeholder focus group, we are working to 
address all the cleanup issues in an integrated fashion to ensure the 
aggregate impact to the project schedule and costs is considered.
    The fiscal year 2002 budget request supports the closure contract 
and the closure activities we have identified as necessary for 
accelerated closure, including many of the complex-wide activities 
required to provide the government-furnished services and items. It is 
important to note that activities included in other sites' and 
programs' budgets are also needed to support Rocky Flats closure 
including the nuclear materials transportation services provided by 
Defense Programs, the storage operations at the Savannah River Site, 
waste treatment operations at the incinerator at Oak Ridge, waste 
disposal operations at the Nevada Test Site, and the availability of 
transuranic waste containers and trailers from WIPP.
    Our fiscal year 2002 request for Rocky Flats enables us to:

        <bullet> Complete the stabilization and packaging of the 
        plutonium residues;
        <bullet> Continue the packaging and shipment of plutonium 
        metals and oxides to Savannah River Site (620 containers);
        <bullet> Ship over 25,000 cubic meters of radioactive waste for 
        off-site disposal; and
        <bullet> Complete the decontamination and decommissioning of 18 
        work sets.

    4. Idaho National Engineering and Environmental Laboratory, Idaho

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense ER&WM, Site/Project Completion........................    52,105
Defense ER&WM, Post 2006 Completion...........................   276,551
Defense ER&WM, Science & Technology...........................    18,407
Defense ER&WM, Safeguards & Security..........................    34,346
Non-Defense EM, Site/Project Completion.......................     5,080
Defense, Privatization........................................    89,332
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................   475,821
Use of Prior Year Balances (Defense)..........................  (36,770)
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   439,051
                    ==============================================================
                    ____________________________________________________

    The Idaho National Engineering and Environmental Laboratory 
(INEEL), a multi-program national laboratory with a significant cleanup 
mission, occupies 890 square miles of the eastern Snake River Plain in 
southeastern Idaho. INEEL combines a significant environmental and 
nuclear operations component with basic and applied research and 
development supporting the Department's four mission areas: 
Environmental Management, Energy Resources, National Security, and 
Science. INEEL operates under the sponsorship of EM, and has been 
designated a lead laboratory as well as a lead field site on long-term 
stewardship. The EM program provides critical infrastructure efforts at 
the site, referred to as ``landlord'' activities. In addition, the 
INEEL continues to serve important national security functions by 
receiving spent nuclear fuel from the Navy, and spent fuel from foreign 
research reactors that may contain weapons grade nuclear materials.
    In total, most EM activities at the INEEL are regulated by 
enforceable agreements like the Idaho Settlement Agreement, the Federal 
Facility Agreement and Consent Order, the Site Treatment Plan, and a 
1999 Voluntary Consent Order. The Idaho Settlement Agreement guaranteed 
the government access to the INEEL for national security missions such 
as spent nuclear fuel examination and storage, in return for meeting 
specific waste treatment and disposal milestones. To date, the INEEL 
has met every milestone in the Idaho Settlement Agreement.
    INEEL has approximately 65,000 cubic meters of waste contaminated 
with transuranic radionuclides that must be removed from the State of 
Idaho under the terms of the 1995 Settlement Agreement. This waste 
originated from weapons production at the former Rocky Flats Plant in 
Colorado. We continue to make progress in characterizing, certifying, 
and shipping the transuranic waste to the WIPP for disposal. A 
significant effort is underway to meet the Settlement Agreement 
milestone to ship the initial 3,100 cubic meters of transuranic waste 
out of the State of Idaho by the end of 2002. In fiscal year 2000, we 
shipped 103 cubic meters of transuranic waste to the WIPP, exceeding 
our goal, and plan to ship 1,160 cubic meters in fiscal year 2001 and 
1,483 cubic meters in fiscal year 2002. Progress also continues on the 
Advanced Mixed Waste Treatment Project, a privatization project that 
will greatly increase the INEEL's processing capability for this waste. 
Construction began in fiscal year 2000 and will continue in fiscal year 
2001 and fiscal year 2002. The facility is expected to begin operations 
in fiscal year 2003. We are requesting $40 million in the fiscal year 
2002 privatization budget for this project.
    INEEL plays a key role in meeting non-proliferation goals by 
providing safe storage and management of spent nuclear fuel from 
foreign research reactor and domestic sources, and currently manages 
more than 50 percent by volume of the spent nuclear fuel in the entire 
DOE complex, constituting about 250 specific fuel types. We are 
actively improving storage conditions at the site, transferring fuel 
from wet to dry storage, or from aging facilities to modern, state-of-
the-art facilities. For example, we have transferred all spent nuclear 
fuel in wet storage in the CPP-603 South Basin to improved storage 
facilities well in advance of the Idaho Settlement Agreement milestone 
date of December 31, 2000. We completed movement of Three Mile Island 
spent nuclear fuel and core debris from wet storage at Test Area North 
to dry storage at the Idaho Nuclear Technology and Engineering Center 
(INTEC) six weeks ahead of the June 1, 2001, Settlement Agreement 
milestone. DOE also awarded a privatization contract last year for the 
design, licensing, construction, and operation of a facility for the 
packaging and safe dry storage of other spent nuclear fuel at the 
INEEL. The contractor is now proceeding with the facility design and is 
scheduled to submit its license application to the Nuclear Regulatory 
Commission in fiscal year 2002.
    The fiscal year 2002 budget request supports the management of 
high-level waste at INEEL including about 1.2 million gallons of liquid 
sodium-bearing waste stored in 11 underground tanks, and about 4,300 
cubic meters of calcined mixed high-level waste in separate robust 
temporary storage bin sets. As of June 2001, the volume of liquid 
sodium-bearing waste will be reduced by 250,000 gallons through 
evaporation and consolidation of tank contents. A draft environmental 
impact statement (EIS) for high-level waste treatment alternatives has 
been issued, and a final EIS and Record of Decision are planned for the 
end of 2001. We have deployed the Light Duty Utility Arm in two high-
level waste tanks, one of a suite of innovative technologies that can 
inspect, sample, and retrieve waste remotely through openings in the 
tank dome. In this case, we visually inspected the tank interior and 
obtained samples of the tank waste. We are moving forward in fiscal 
year 2002 to inspect and obtain samples from two additional tanks. In 
addition, we continue to treat and dispose of low level and mixed low 
level wastes in compliance with regulatory commitments with the State 
of Idaho. One of the most complex challenges at INEEL is the 
remediation of buried wastes, contaminated release sites, contaminated 
soils, and ground water, which is governed by the Federal Facilities 
Agreement/Consent Order. A key goal is to eliminate the threat these 
contaminants pose to the Snake River Plain Aquifer, a sole-source 
aquifer underlying the site that provides drinking water to a quarter 
of a million people and serves as a critical source of irrigation water 
for Idaho's agricultural industry. Our environmental restoration 
program continues to make progress in assessing and remediating these 
areas of contamination. The INEEL made progress on the Pit 9 buried 
waste project, with the insertion of 43 probes into the pit. These and 
other probes will provide data for the comprehensive study that will 
support selection of a final cleanup remedy for all the buried waste in 
the Subsurface Disposal Area.
    We are applying bioremediation techniques at Test Area North to 
clean up the ground water plume at the injection well and continuing 
pump-and-treat operations for the extended plume. At the Test Reactor 
Area, we will complete remediation of all identified release sites in 
fiscal year 2001, 2 years ahead of schedule. At INTEC, with the signing 
of the Record of Decision in fiscal year 1999, we are undertaking the 
complex process of remediating soil and groundwater release sites while 
continuing to operate INTEC for spent fuel storage and waste management 
missions. In addition, we will continue design and construction of the 
Idaho CERCLA Disposal Facilities for the storage/treatment and disposal 
of contaminated soils generated in the cleanup of INTEC and other 
contaminated sites at the INEEL.
    The INEEL will continue to perform world-class scientific research 
and development, technology demonstration and deployment, and systems 
analysis and integration in fiscal year 2002. The goal of this effort 
is to ensure a sound scientific basis for decision-making and full 
integration of science and technology into INEEL and EM operations. To 
date, INEEL has deployed nearly 100 technologies in its cleanup 
operations, leading to reduced cost, improved worker safety, schedule 
acceleration, and lower risks. In fiscal year 2002, deployments are 
planned to support each major cleanup program at INEEL.

    5. Oak Ridge Reservation, Tennessee

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense EM, Privatization.....................................    36,876
Defense ER&WM, Post 2006 Completion...........................   244,102
Defense ER&WM, Science & Technology...........................    10,695
Defense ER&WM, Safeguards & Security..........................    11,476
Defense ER&WM, Excess Facilities..............................       500
Defense ER&WM, Program Direction..............................    18,740
Non-Defense EM, Excess Facilities.............................       141
Uranium Facil Maint & Rem, Other Uranium Activ................    12,809
Uranium Facil Maint & Rem, UE D&D Fund........................    65,538
Uranium Facil Maint & Rem, UE D&D-DUF6........................    10,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   410,877
                    ==============================================================
                    ____________________________________________________

    The Oak Ridge Reservation (ORR) is comprised of three facilities--
the Y-12 Plant, the East Tennessee Technology Park (ETTP) (formerly the 
Oak Ridge K-25 uranium enrichment facility), and the Oak Ridge National 
Laboratory (ORNL). Funding for EM activities at Y-12 and ORNL is 
primarily funded in Defense accounts. Funding for the cleanup of ETTP 
comes from both the Defense and the Uranium Facilities Maintenance and 
Remediation accounts.
    At ORNL, we continue the decommissioning of the Molten Salt Reactor 
Experiment, an experimental nuclear reactor designed to use a fuel of 
highly-reactive uranium-233 blended with a molten salt coolant. After 
4\1/2\ years of operation, the reactor was shut down in December 1969. 
We have made substantial progress, with input from the National Academy 
of Sciences, in stabilizing and deactivating this reactor. For example, 
we have installed and continue to operate a system to remove reactive 
gases from the reactor tanks and keep the reactor systems below 
atmospheric pressure until the fuel salt can be removed. In fiscal year 
2001, we completed fabrication and testing of uranium conversion 
equipment; completed the planning, major equipment design and 
documentation for fuel salt removal, and removed about 14 inches of 
Uranium-233 bearing material from the charcoal filter bed. In fiscal 
year 2002, we will continue conversion of uranium captured in the 
sodium fluoride traps to a stable oxide for repackaging and storage, 
and will begin flushing and fuel salt removal.
    In fiscal year 2001, we completed transferring waste from eight 
highly radioactive waste storage tanks, called the ``Gunite Tanks,'' at 
ORNL. The tanks were built in 1943 and were used for waste from 
chemical separations operations until the late 1970s. The tanks vary in 
size, with most having a capacity of 170,000 gallons (approximately the 
size of a 4-bedroom house). The cost of the project was $80 million, 
less than half the original estimate of $200 million. A key factor in 
the accelerated schedule has been the development of a variety of 
remote remediation technologies, such as the ``Houdini'' vehicle and a 
robotic arm that provides access to the tank interior. This remotely 
operated equipment eliminated the need for workers to be placed at risk 
while performing cleanup, while allowing the work to proceed more 
efficiently. The robotic equipment will be reused to enhance the 
cleanup of similar tanks at other sites. In fiscal year 2002, we plan 
to continue stabilization of the Gunite tank shells.
    The request supports continued operation of the incinerator at Oak 
Ridge, which is permitted by the State to treat mixed radioactive and 
hazardous wastes regulated by the Resource Conservation and Recovery 
Act and by the EPA to treat PCB-contaminated wastes regulated under 
Toxic Substances Control Act (TSCA). This facility offers unique 
existing treatment capability for the DOE complex and is a vital DOE 
treatment asset. In addition to treating wastes generated by Oak Ridge 
facilities, it has also been used to treat wastes from other DOE sites. 
It provides a cost-effective and integrated approach to reducing the 
risk and managing these wastes. The fiscal year 2002 request supports 
two privatization projects at Oak Ridge. Construction of a facility to 
prepare transuranic waste for disposal at WIPP and for low-level waste 
at the Nevada Test Site began in fiscal year 2001 and is scheduled to 
be completed in November 2002, allowing operations to begin in fiscal 
year 2003. The Environmental Management Waste Management Facility is an 
on-site disposal cell with a capacity up to 2 million cubic yards of 
contaminated soils and debris resulting from cleanup and D&D actions at 
the site. Construction is currently scheduled to be completed late in 
2001.
    In fiscal year 2002, the Department will continue its effort to 
reindustrialize facilities in Oak Ridge, particularly at ETTP. The goal 
is to clean up ETTP as quickly and as safely as possible so that the 
site can be reused as an industrial park. As of December 2000, about 
6,300,000 square feet of space have been leased to 35 private companies 
in a total of 71 separate leases. In some cases, the Department has 
conducted cleanup of the building and, in other cases, the private 
company is undertaking the cleanup. Overall, we estimate that this 
strategy will save $182 million in life-cycle costs.
    We are making good progress on the Department's largest ever 
decommissioning project at ETTP. Cleanup of K-33, the first DOE uranium 
enrichment facility to be decommissioned, is already 60 percent 
complete as of March 2001. This first building will be finished in 
fiscal year 2002 and will then be readied for private sector reuse. The 
K-33 building and two other buildings are being decommissioned under a 
fixed price contract with BNFL, Inc. The project has turned the corner, 
and is currently making up for previous schedule delays. The largest 
supercompactor in the United States is now operating and is helping to 
minimize waste disposal volumes.
    The Department's moratorium on releasing into commerce recycled 
metals from radiological areas remains in effect, continuing to impact 
the BNFL project cost. These restrictions are expected to remain 
pending decisions made after completion of an Environmental Impact 
Statement. DOE has minimized impacts by purchasing metals destined for 
recycling and storing them for possible future release.
    Our fiscal year 2002 request for Uranium Programs at ETTP supports 
surveillance and maintenance of the inventory of 4,700 cylinders of 
depleted uranium hexafluoride (DUF6) and 2,500 other surplus uranium 
cylinders at ETTP. We are managing the cylinders at ETTP and the other 
gaseous diffusion plants in Ohio and Tennessee consistent with the 
consent agreements with the affected states and with Defense Nuclear 
Facilities Safety Board's Recommendation 95-1, which was closed in 
December 1999 when the Board determined the Department had met all of 
the relevant commitments.
    The fiscal year 2002 request includes $10 million in the Oak Ridge 
Account to proceed with the project to chemically convert the 
Department's inventory of DUF6 into a more stable form that would make 
it acceptable for reuse, if applications for the material are found, or 
for disposal. Early in fiscal year 2001, the Department issued the 
final Request for Proposals to design, construct and, for the first 5 
years, operate conversion facilities at Paducah and Portsmouth. 
Initially scheduled to be awarded at the end of fiscal year 2001, we 
now expect to award the contract early in fiscal year 2002 due to the 
number of proposals received and the complexity of the technical and 
business evaluations. In fiscal year 2002, DOE is requesting $10 
million for the conversion project and plans to allocate an additional 
$12 million to this amount from funds obtained under Memoranda of 
Agreement (MOA) with USEC. The Department is committed to keeping this 
project on track to begin construction by January 2004, consistent with 
the schedule provided in Public Law 105-204.

    6. Fernald Environmental Management Project, Ohio

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense Closure, Site Closure.................................   285,299
Defense Closure, Safeguards & Security........................     4,701
Defense ER&WM, Science & Technology...........................       255
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   290,255
                    ==============================================================
                    ____________________________________________________

    The Fernald site, encompassing approximately 1,050 acres near 
Cincinnati, produced uranium for nuclear weapons from 1951 to the end 
of the Cold War in 1989. Nearly 40 years of uranium production at 
Fernald resulted in soil and groundwater contamination, a large backlog 
of wastes, including some unstable liquids, as well as stored nuclear 
materials such as depleted and enriched uranium. Several years of 
cleanup progress have included stabilization of liquid uranium 
solutions, off-site shipment of low level radioactive wastes, on-site 
disposal of contaminated soils and debris, and deactivation, 
decontamination, and demolition of several large industrial buildings 
at Fernald.
    Achieving the closure of its two major sites, the Fernald and Rocky 
Flats sites, is a high priority for the Department. At Fernald, the 
Department entered into a closure contract with Fluor Fernald on 
November 20, 2000, whereby the contractor is given incentives to 
complete site cleanup before the contractual completion date of 
December 31, 2010. The contractor can earn maximum incentive fees by 
achieving closure by December 2006. Long-term stewardship, including 
continued groundwater remediation and long-term institutional controls, 
will be necessary after active cleanup is completed.
    Our record at Fernald demonstrates that we will not compromise 
safety in our efforts to complete the cleanup quickly and cost 
effectively. In January 2001, DOE's Office of Environment, Safety and 
Health awarded the Fernald Environmental Management Project STAR 
recognition status in the Voluntary Protection Program. This DOE 
program promotes safety and health excellence through cooperative 
efforts among labor, management, and government at DOE sites. 
Contractors that meet the requirements for outstanding performance 
receive STAR recognition. STAR status is the highest safety performance 
and program honor that can be achieved.
    New technology deployments at Fernald are resulting in significant 
project cost and schedule savings. For example, a variety of 
technologies are being used to provide real-time identification of 
radioactive contaminants in the soil. This rapid characterization 
reduces the amount of soil excavated and improves worker productivity. 
These technologies are estimated to reduce remediation costs by over 
$30 million. A groundwater re-injection demonstration project has 
accelerated cleanup of the Great Miami Aquifer. Current analysis 
indicates that the re-injection technology will reduce treatment time 
from 27 to 10 years, resulting in a cost savings of an estimated $14 
million.
    The On-site Disposal Facility allows for accelerated disposal of 
contaminated soil and debris resulting from cleanup and building 
demolition at a significant cost savings. In fiscal year 2000, we 
disposed of more than 255,000 cubic meters of waste, contaminated soil, 
and debris in the facility, including the completion of waste placement 
in Cell 1 and start of waste placement in Cell 3. In fiscal year 2001, 
the placement of a permanent cap on Cell 1 will be completed, and 
approximately 45,000 cubic meters will be placed in Cells 2 and 3. In 
fiscal year 2002, the disposal facility will continue to be monitored 
and maintained.
    The Silo 3 pre-operations/treatment activities continued in fiscal 
year 2000, and the design and construction of the Tank Transfer Area/
Waste Retrieval System, and Radon Control Systems was initiated. In 
fiscal year 2001, pre-operational activities for Silo 3 remediation are 
continuing, construction of the Radon Control System continues, and 
plans for the Silo 4 mock-up testing of the Waste Retrieval System are 
being developed. In fiscal year 2002, Silo 3 operations will begin, 
construction of the Silos 1 and 2 Tank Transfer Area/Waste Retrieval 
System and Radon Control System will proceed, and the Silos 1 and 2 
full-scale remediation project will continue.
    Removal of wastes and materials from the site is critical to 
closure. We are shipping uranium to the Portsmouth Gaseous Diffusion 
Plant in Ohio, with over 100 metric tons of uranium transferred to 
date. We are currently on schedule to complete the disposition of all 
nuclear product material by June 2002. We are also shipping waste off-
site for disposal. As of May 2001, thirty-eight unit trains of rail 
cars loaded with treated waste have left the Fernald site for 
disposition at a permitted commercial disposal facility.
    We continue to make great progress in the demolition of deactivated 
and decontaminated industrial buildings. Approximately 90 of the over 
250 structures that require decontamination and demolition have been 
completed. We will complete cleanup of the Plant 6 Complex in fiscal 
year 2002, and begin work on the Multi-complex and Lab/Pilot Plant 
Complex. In addition, the facility shutdown of the non-nuclear 
facilities onsite will continue in fiscal year 2001 and fiscal year 
2002. Facility shutdown includes disconnecting utilities on process 
equipment and structures; and removing and dispositioning of residues, 
process material, and equipment as required.
    As remediation proceeds at Fernald, we are carrying out natural 
resource restoration projects and demonstrations using plantings 
similar to what historically and naturally occurs in the area, and 
incorporating a diverse variety of vegetation to promote wildlife 
colonization. Through fiscal year 2000, 31 acres were restored, and an 
additional 40 acres are planned for fiscal year 2001. In fiscal year 
2002, the Area 1 Phase III Northern Woodlot/Wetland Mitigation project 
will be completed, restoring 103 acres, the largest land restoration 
project to be completed to date.

    7. Waste Isolation Pilot Plant, New Mexico

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense ER&WM, Post 2006 Completion...........................   164,570
Defense ER&WM, Safeguards & Security..........................     2,550
Defense ER&WM, Program Direction..............................     8,510
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   175,630
                    ==============================================================
                    ____________________________________________________

    Operating WIPP is a key element of the Department's strategy to 
provide for the permanent disposal of the Department's inventory of 
radioactive waste. WIPP is critical to achieving site closure at the 
Rocky Flats Environmental Technology Site by December 2006 and to the 
closure or cleanup of 26 other sites in the DOE complex that store or 
generate transuranic waste. The total volume of transuranic waste 
currently managed by DOE (stored and projected) is estimated to be 
171,439 cubic meters, of which 167,412 cubic meters is contact-handled 
(CH-TRU) transuranic waste and 4,027 cubic meters is remote-handled 
(RH-TRU) transuranic waste. By shipping this waste to WIPP for 
disposal, the Department will be able to reduce the number of sites 
where this type of waste is stored, reduce the management costs of this 
waste, and reduce the long-term risks to the public and the 
environment.
    On March 26, 1999, WIPP began operations, receiving its first 
shipment of transuranic waste from Los Alamos National Laboratory, 
subsequently followed by shipments from the Idaho National Engineering 
and Environmental Laboratory (INEEL) and Rocky Flats. The State of New 
Mexico issued the final Hazardous Waste Facility Permit, with an 
effective date of November 26, 1999, enabling WIPP to receive mixed 
hazardous and transuranic waste, and all five of the major shipping 
sites (Rocky Flats, INEEL, Hanford, Savannah River Sites, and Los 
Alamos) are certified under the permit to ship transuranic waste to 
WIPP. The Hanford Site began shipments in fiscal year 2000, and the 
Savannah River Site began shipments in fiscal year 2001. As of the end 
of May 2001, there have been 235 shipments to WIPP totaling about 1628 
cubic meters of waste.
    The Department currently transports CH-TRU waste in Nuclear 
Regulatory Commission certified packages called TRUPACT-IIs. To support 
increased shipping requirements, DOE is procuring additional TRUPACT-
IIs. The Department ordered the fabrication of a newly developed 
container called the HalfPACT to transport heavier-than-average drums 
of CH-TRU waste under the current TRUPACT-II fabrication contracts. RH-
TRU waste requires a shielded cask for safe transportation. The 
Department will transport the RH-TRU waste in a certified cask called 
the RH-72B. Contracts were awarded in August 2000 to two vendors to 
fabricate a total of 12 RH-72B casks. The Department will use fiscal 
year 1999 privatization funds to procure the casks. The fiscal year 
2002 budget request includes no funds for this project.
    In fiscal year 2001, the Department awarded a new performance-based 
Site Management and Operating Contract for WIPP. The Carlsbad Field 
Office's management and operating contractor assists the Department in 
managing the activities of the WIPP facility and the National 
Transuranic Waste Management Program; therefore, the selection of a 
qualified management and operating contractor for WIPP is not only 
crucial to WIPP but also to DOE's mission and goals.
    In fiscal year 2001, DOE revised the Record of Decision on 
treatment and storage of transuranic waste. The Department has decided 
to establish a centralized characterization capability at WIPP to 
prepare CH-TRU waste for disposal (up to 1,250 of the 7,000 cubic 
meters planned to be received for disposal annually). The New Mexico 
Environment Department must approve a modification of WIPP's Hazardous 
Waste Facility Permit before the Department could perform disposal 
characterization at WIPP. By conducting centralized characterization 
the Department will avoid the necessity of constructing 
characterization facilities at the small quantity sites.
    During fiscal year 2002, WIPP expects to receive CH-TRU waste 
shipments from Rocky Flats, INEEL, the Los Alamos National Laboratory, 
the Savannah River Site, Argonne National Laboratory-East, and limited 
shipments from other sites. We plan to increase shipments from the 
Savannah River Site to WIPP by using mobile facilities to prepare the 
waste for shipment. This will allow receipt of Mound transuranic waste 
at the Savannah River Site, as agreed with the State of South Carolina, 
to support early closure of the Mound Site.
    WIPP will continue activities in fiscal year 2002 to support the 
first receipt of RH-TRU waste. The Department must receive New Mexico 
Environment Department and the U.S. Environmental Protection Agency 
approvals before RH-TRU waste can be disposed of.
    The funding request for fiscal year 2002 includes $21.5 million to 
provide economic assistance to the State of New Mexico, as authorized 
by the WIPP Land Withdrawal Act. The WIPP program also funds a variety 
of institutional programs that provide for operational oversight and 
other assistance for affected governments and stakeholder groups.
    The Carlsbad Field Office, working with the Office of Science and 
Technology, will continue to apply innovative science and technology 
solutions that facilitate receipt of transuranic waste and promote cost 
savings in the National Transuranic Waste Management Program.

    8. Nevada Test Site, Nevada

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense ER&WM, Post 2006 Completion...........................    74,843
Defense ER&WM, Science & Technology...........................     2,429
Defense ER&WM, Program Direction..............................     5,656
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    82,928
                    ==============================================================
                    ____________________________________________________

    The Nevada Test Site (NTS) is located 65 miles North of Las Vegas 
and encompasses 1,375 square miles (an area roughly the size of Rhode 
Island). The EM program undertakes waste management activities and 
environmental restoration actions resulting from past DOE nuclear 
testing activities at NTS.
    NTS plays a crucial role for other DOE sites as one of the major 
low-level radioactive waste disposal facilities in the DOE complex. In 
fiscal year 2000, the NTS disposed of 18,267 cubic meters of low-level 
waste and 29 cubic meters of mixed low-level waste. This year's 
projections are 28,500 cubic meters of low-level waste. NTS disposal 
operations are critical to closing other DOE sites. For example, Rocky 
Flats and Fernald will dispose of more than 38,000 cubic meters of low-
level waste at NTS to support their closure.
    We are working with the State of Nevada to acquire the required 
permits and to increase capacity for mixed low-level waste disposal at 
NTS as a result of the February 2000 Record of Decision designating NTS 
as a regional disposal facility for DOE low-level and mixed wastes. 
Work is also proceeding on the characterization of transuranic waste 
drums, in preparation for shipment to the Waste Isolation Pilot Plant, 
to begin in fiscal year 2002.
    Progress continues in the Underground Test Area to address 
groundwater contamination through installation of groundwater wells, 
monitoring activities, and modeling efforts. We installed and sampled 
three deep wells in fiscal year 2000. The corrective action strategy 
for NTS groundwater contamination was also renegotiated in fiscal year 
2000 with the State of Nevada, and have implemented actions to address 
regulator and stakeholder concerns.
    The cleanup of NTS Industrial Sites area that supported the 
historic nuclear testing continues on schedule. To date, corrective 
actions have been completed at over half of the 1,068 release sites. 
Negotiations are continuing with the State of Nevada on corrective 
action levels for cleanup of soils, which were contaminated primarily 
by above-ground testing. The start of corrective actions for soils 
cleanup has been deferred, pending negotiations.
    Project baselines have been reviewed with the regulators and 
stakeholders and fully identify the planned implementation of 
corrective measures for the various Nevada projects. These baselines 
include long-term stewardship obligations and emphasize the use of 
innovative technologies, such as the deployment of laser cutting for 
oversized TRU boxes, and an alternative arid landfill cover and 
monitoring system.

    9. Los Alamos National Laboratory, New Mexico

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense ER&WM, Post 2006 Completion...........................    73,182
Defense ER&WM, Science & Technology...........................     2,538
Non-Defense EM, Post 2006 Completion..........................     2,500
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    78,220
                    ==============================================================
                    ____________________________________________________

    The Los Alamos National Laboratory (LANL) is a 43 square mile 
research and development site located 60 miles northeast of 
Albuquerque, New Mexico. Through fiscal year 2001, the Department 
expects to complete remediation of 1,302 of 1,942 ``release sites,'' or 
specific areas where releases of contaminants had occurred, and 
decommission 36 out of 101 surplus facilities. We plan to complete 
cleanup of one additional release site in fiscal year 2002.
    Approximately half of the fiscal year 2002 funding request for Los 
Alamos is devoted to environmental restoration work, such as drilling 
new regional ground water wells to characterize the hydrogeology and 
cleanup work in multiple watersheds. Although no EM funds in fiscal 
year 2002 directly support the project to transfer land to the 
community, a joint project with the Office of Defense Programs, other 
Los Alamos cleanup work, such as the source removal actions at high 
risk sites at the TA-21 parcel and some of the characterization work in 
the canyons, will support the transfer of parcels in future years. At 
this point, cleanup work has been completed at four of the 10 parcels 
proposed to be transferred.
    The EM program provides for the treatment, storage, and disposal of 
all legacy waste that is presently stored at the Los Alamos National 
Laboratory. The legacy waste consists of mixed low-level waste, 
transuranic waste, and mixed transuranic waste generated at 33 
Technical Areas and is treated, stored. Los Alamos has accelerated the 
treatment and disposal of legacy mixed low-level waste and retrieval of 
legacy transuranic waste (both transuranic and mixed transuranic) 
stored on asphalt pads under earthen cover, and now expects to complete 
these activities a year earlier than previously planned. Treatment and 
disposal of legacy mixed low-level waste with an identified path for 
disposal is now planned to be completed in fiscal year 2003. Retrieval 
of legacy transuranic and mixed transuranic waste stored on Asphalt 
Pads 1 and 4 has been completed. Retrieval of waste drums on Pad 2 
began in fiscal year 2000 with completion scheduled for fiscal year 
2002.
    In March 1999, Los Alamos National Laboratory became the first DOE 
site to ship transuranic waste to WIPP. Los Alamos plans to make 19 
shipments to WIPP in fiscal year 2001, bringing the total number of 
shipments or quantities of waste shipped to 41 which includes 
transuranic waste from the Office of Environmental Management and DOE's 
Office of Defense Programs.
    The Department designated Los Alamos as the lead laboratory for 
research and development efforts to support DOE's nuclear materials 
management. In this capacity, Los Alamos provides solutions to complex-
wide technical and operational issues associated with stabilization and 
storage of plutonium and other nuclear materials. LANL also manages the 
Off-Site Source Recovery Program for the recovery and storage of more 
than 5,500 commercial sealed radioactive sources, as well as Department 
of Defense sources and radioisotopoic thermoelectric generators. The 
program began full operations in fiscal year 2001 and to date has 
recovered more than 1,100 private sector sealed sources and brought 
them to LANL for storage. We expect to recover over 2,000 sources by 
the end of fiscal year 2001, and an additional 1,000 sources in fiscal 
year 2002.

    10. Miamisburg Environmental Management Project (Mound), Ohio

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense Closure, Site Closure.................................    70,939
Defense Closure, Safeguards & Security........................     5,778
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    76,717
                    ==============================================================
                    ____________________________________________________

    The Miamisburg Environmental Management Project, a 306-acre 
facility near Dayton, Ohio used for tritium and plutonium operations, 
consists of 152 buildings and approximately 230 potentially 
contaminated soil areas. By the end of fiscal year 2001, over one-half 
of the 107 buildings scheduled for removal will have been demolished or 
auctioned for off-site use, a quarter of the 42 buildings scheduled to 
be transferred to the Miamisburg Mound Community Improvement 
Corporation will have been decommissioned and decontaminated, and two-
thirds of the soil release sites will have been remediated. We still 
have a goal of completing cleanup of the site by 2006; however, 
changing conditions and increased scope are making a closure date of 
several years later more likely. Expanded project scope, especially in 
the excavation of greater quantities of contaminated soils, has 
significantly impacted cost and schedule. Worker health and safety 
issues at various times have seriously curtailed work in the ``critical 
path'' areas while additional personal radiation protection equipment 
to address these concerns has contributed to increased project cost.
    We continue to make progress toward closure. In fiscal year 2000, 
Mound completed the disposition of its excess nuclear materials, most 
of which were sealed sources used to calibrate and test equipment. The 
site also completed the decontamination or demolition of four buildings 
and the remediation of five contaminated soil areas in fiscal year 
2000, and will complete three buildings and the assessments of six 
contaminated soil areas in fiscal year 2001. We are shipping low-level 
radioactive waste off-site for disposal, approximately 18,000 and 
13,000 cubic meters in fiscal year 2000 and 2001 respectively. In 
fiscal year 2001, Mound will begin off-site disposition of its 
transuranic waste to the Savannah River Site for interim storage and 
eventual repackaging and shipment to WIPP.
    In fiscal year 2002, Mound will complete shipments of its 
transuranic waste as well as disposition of all remediation-generated 
waste. Groundwater remediation will continue, and up to nine 
contaminated soil areas will be assessed for remedial action. In 
addition, cleanup will continue on the site's most contaminated 
buildings, including the tritium operations facilities that comprises 
three highly contaminated and complex buildings.
    In 1998, the Department signed an agreement to transfer ownership 
of the site to the Miamisburg Mound Community Improvement Corporation 
as remediation of discrete parcels are completed. To date, the 
Department has transferred two buildings and 122 acres, and another 
five acres and two buildings will be deeded over in the next few 
months, bringing the total acreage transferred to 40 percent of the 
site. Currently, 31 private businesses employing 342 workers are co-
located at Mound in leased or transferred property. The Department's 
radioisotope heat source program, managed by the Office of Nuclear 
Energy, Science and Technology, will remain at Mound after the rest of 
the site is transferred. The program will retain use of three of the 
site's buildings.

    11. Lawrence Livermore National Laboratory, California

Fiscal Year 2002 Request

                                                           [In thousands
                                                             of dollars]

Defense ER&WM, Post 2006 Completion...........................    32,317
Defense ER&WM, Science & Technology...........................       910
Defense ER&WM, Site/Project Completion........................       762
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    33,989
                    ==============================================================
                    ____________________________________________________

    The Lawrence Livermore National Laboratory consists of the 
Livermore Main Site, an operating weapons research and development 
laboratory; and Site 300, located about 15 miles east of the Livermore 
Main Site, which is used to test high explosives and other technologies 
for defense programs. The EM program is responsible for management of 
both legacy waste and waste generated from on-going operations. It also 
is responsible for site remediation, which includes cleanup of 
hazardous contaminant releases to the soil and ground water 
contamination at the Livermore Site, and releases of hazardous and 
radioactive materials to soil and ground water from landfills, drum 
storage areas, and dry wells at Site 300. Both sites are listed on the 
Superfund National Priorities List and have cleanup agreements with 
U.S. Environmental Protection Agency and the State of California.
    At the Livermore Main Site, we have used an aggressive cleanup 
strategy to contain and extract groundwater contaminants that uses 
enhancements to pump-and-treat technology, supplements the existing 
permanent treatment system network with portable treatment units, and 
emphasizes specific source area removal. In fiscal year 2000 we 
continued to install portable treatment units to treat specific areas 
of the site. In fiscal year 2001, we applied an electro-osmosis 
technology to our treatment system strategy to attempt to remove 
groundwater contaminants from fine grained sediments more effectively. 
In fiscal year 2002, groundwater treatment systems will continue to 
operate to maintain control of off-site migration of the Western 
boundary plume.
    In fiscal year 2000, we completed testing of the Molten Salt 
Oxidation unit for treating mixed low-level and hazardous waste and 
have awarded a contract to a commercial vendor who will own and operate 
the treatment unit to treat waste. In fiscal year 2001, we will 
complete construction of the Decontamination and Waste Treatment 
Facility, a treatment system for mixed low-level waste, and begin 
operational testing. In fiscal year 2002, we will continue to operate 
waste treatment, storage and disposal facilities and prepare 
documentation for closure of old waste storage facilities.
    At Site 300, the Department has focused on removal actions such as 
capping the Pit 6 Landfill to control release, getting groundwater 
treatment systems in place to contain off-site plume migration, and 
characterizing the contamination at the site. In fiscal year 2000, we 
finalized plans and schedules for site-wide cleanup of the site and 
will begin design work in fiscal year 2001. We will also begin 
operation of an innovative groundwater treatment system in a canyon in 
the southeast part of the site using the Iron Filing/Geosyphon 
technology to remediate high concentrations of contaminants in 
groundwater. In fiscal year 2002, we will continue operation and 
maintenance of existing treatment facilities and soil vapor extraction 
units and will complete remedial design for several of the operable 
units.

    Senator Reed. Thank you very much, Madam Secretary. There 
have recently been press reports questioning the ability of the 
DOE to comply with the various compliance agreements under the 
budget as requested. If the Environmental Management program 
received the funding that has been requested, would the DOE be 
able to comply with all of its agreements, other than the 
agreement with the State of Washington for the tanks at 
Hanford?
    Dr. Huntoon. Senator, compliance, as I mentioned and as you 
have said, is our commitment with the regulators that regulate 
our sites--both the state regulators and the EPA to get work 
done on schedule. To put it in context, let me tell you that 
today, EM currently oversees 77 cleanup and compliance 
agreements at 25 sites, and we have committed to about 1,100 
enforceable milestones within these agreements through 2070, so 
you see it is quite a drawn-out process. There are 187 
enforceable milestones that occur in 2002.
    Now, I put this all in context because we are potentially 
at risk of missing some of the milestones in these agreements. 
But without the budget being firm and without the work to 
identify efficiencies coming in from the sites, our contractors 
and DOE employees, I don't have a good idea if we are going to 
have a problem with the compliance agreements. I think it is a 
little bit premature right now.
    The assessment that the Secretary has put in place will 
have work with our regulators at the sites to make sure that we 
are doing things as efficiently as possible. I think that after 
that assessment gets done and we get our final budget numbers, 
we will be in a better position to determine if we are going to 
miss any compliance.
    Senator Reed. But even the request that you have made, 
Madam Secretary, with that request, assuming you get it fully 
funded, which probably is at least not a certainty, could you 
fulfill all the milestones?
    Dr. Huntoon. It is going to be a challenge. I think it is 
premature right now to say we are going to miss any particular 
milestone. I know we are not going to miss any major ones. But 
as I mentioned, we have 187 enforceable milestones that occur 
this year, so there is a potential in some areas, but until we 
get the final budget numbers, and until we have these 
discussions with our regulators, I just can't say.
    Senator Reed. If you are not able to make some of these 
milestones, would that force you to renegotiate these 
agreements with the EPA and the states?
    Dr. Huntoon. If we were not able to, we would have to sit 
down and discuss it with them. So far, as I said, I have not 
been told that we are going to miss any milestones, except the 
one this summer that you mentioned already. We have known for 
some time we weren't going to begin construction this summer on 
the tanks at Hanford, but except for that one, I know of no 
others that are out there looming. But there are many 
agreements, as I mentioned, that we are going to have to look 
at, and we may have to sit down and talk with our regulators on 
it.
    Senator Reed. You have also indicated in your testimony 
some of the new contracting initiatives, and over the course of 
the past year, the DOE has renegotiated or entered into new 
contracts at almost all EM sites. These contracts were designed 
to provide incentives to the contractors to do more work with 
less money, but were all predicated on a predetermined funding 
profile. Is the fiscal year 2002 budget request adequate to 
meet this funding profile at all sites?
    Dr. Huntoon. You mentioned renegotiating the contracts, and 
we have awarded or renegotiated new contracts at most of our 
sites. Back to the Rocky Flats model, after we got that new 
contract in place, incentivizing the contractor for--we called 
it a closure contract--what the total job is and how can we 
work to give the contractor incentives to reduce that schedule 
and complete work. The contracts also give the contractor a 
little bit more room to sequence their work more effectively 
and efficiently, and so far--I should knock on wood--it is 
working. We are moving ahead. We are making a lot of progress 
at Rocky Flats.
    So we have gone into our other sites and even when we could 
not, when it was not appropriate to rebid contracts, we have 
restructured the contracts as we have extended them, and we put 
these incentives in place for specific projects at some of our 
larger sites to get them done. The 2002 budget as it now exists 
is going to be a challenge in some of those areas, but the way 
the contracts are, we can go in and renegotiate specific 
sections or items in the contract without renegotiating the 
whole contract if the budget does not allow the projects to 
continue.
    Senator Reed. We are at risk in this budget to lose this 
incentive approach to more rapid, in effect, cheaper cleanup.
    Dr. Huntoon. We would hope we would still keep 
incentivizing the contractor to accomplish the jobs.
    Senator Reed. But there is a risk that that would not be 
able to be sustained?
    Dr. Huntoon. That could be a risk.
    Senator Reed. We also understand you have begun a review of 
the Environmental Management program. Have there been any 
interim or final reports coming out of this review, and if 
there are, could you please provide us with both the 
information and the reports, but let me just say, are there any 
interim reports?
    Dr. Huntoon. We have not have an interim report yet. We 
have had some verbal discussions. We had asked the group that 
represents the contractors around the EM complex to look at the 
ideas of their membership and some of the issues. They may have 
ideas they can give us to gain efficiencies in the way we do 
business. We have had a verbal discussion, interim verbal 
discussion, no report. They are due to give us a report, I 
believe, soon, and we will provide you with that when we get 
it.
    Senator Reed. Thank you very much, Madam Secretary.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I ask unanimous 
consent that a statement by Senator Strom Thurmond be made part 
of the record.
    Senator Reed. Without objection.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman, I want to thank you for scheduling this 
important hearing on the Department of Energy's fiscal year 2002 budget 
request for the Office of Environmental Management. Although I have an 
interest in maintaining the Savannah River Site as a production 
facility, my greater concern is that we mitigate the waste products of 
50-plus years of nuclear production to permit future development at the 
site, and to protect the health of the thousands of workers and the 
surrounding communities.
    Dr. Huntoon, I join the members of the subcommittee in welcoming 
you to today's hearing. I specifically want to thank you for your 
service to the Nation in President Clinton's administration and now as 
a hold-over pending the confirmation of Ms. Roberson. Last year, when 
you testified before this subcommittee, you reported that the fiscal 
year 2001 budget request represented a significant increase over the 
fiscal year 2000 appropriation. Unfortunately, the fiscal year 2002 
budget request represents a significant reduction to last year's, and 
is more reminiscent of the fiscal year 2000 budget.
    As for the Savannah River Site, the fiscal year 2002 request is 
more than $150 million below last year and $30 million less than fiscal 
year 2000. Naturally, I find this unacceptable. The current budget 
request will seriously reduce the Savannah River Site's ability to 
stabilize legacy nuclear material and transfer these materials for 
final disposal. I hope you will focus on these issues during your 
testimony and provide the subcommittee the rationale and consequences 
of this level of funding.
    Mr. Chairman, I intend to work with you to restore the necessary 
level of funding for the environmental program at the Savannah River 
Site. It is important not only to my constituents, but also to the 
country that we maintain credibility in our environmental restoration 
program.
    Thank you, Mr. Chairman.

    Senator Allard. Again, thank you, Dr. Huntoon. Can the 
Environmental Management program effectively meet its proposed 
cleanup and closure goals without a viable Environmental 
Management technology development program?
    Dr. Huntoon. I don't think it can. My personal opinion is 
it cannot, and the reason I would say that, Senator Allard, is 
we still have some challenges doing some things with some of 
the materials across the complex. Not a lot, but some 
significant challenges. There is also the technical risk that 
comes with a lot of the disposition paths we have already 
chosen, and we have been resolving those concerns this past 
year.
    The technology to deal with the salt portion of high level 
waste down at Savannah River--if we had not been funding under 
our R&D or Science and Technology program, some studies to find 
better technology for dealing with that, we would not be in the 
position we are this summer to choose a preferred technology. 
So we have to, in my mind, keep funding these basic studies to 
do the R&D, as well as some of technology demonstrations to 
show that the technology works. We saved money through the use 
of new technologies this past couple of years, we have saved 
money using R&D, and I think that will happen in the future.
    But we have also learned how to do things to make the DOE 
complex safer for our workers as they are doing this work 
through some of our R&D programs and some of our robotic 
programs also. I believe it is essential.
    Senator Allard. Regarding the Environmental Management 
technology development program, have you made progress in 
getting the best new technologies into the field across the EM 
complex? My understanding is that because it may mean less 
labor and efficiencies that sometimes the contractor may not be 
too willing to bring in those new technologies because it is 
sending negative incentives it has on the contract. Hopefully, 
you might give us two answers to that. The contractor aspect of 
it, and also how successful you think we are in getting these 
technologies into the field.
    Dr. Huntoon. I think we are increasing our success rate at 
getting the new technologies out into practice around the 
complex, and we have achieved that, I think, several ways. Just 
to name a couple: We have these focus areas where our technical 
people and our scientific folks look at specific issues that we 
need to apply technology solutions to. That has helped guide 
where we spend the technology money that we do spend, but it 
also gets our people out in the field across the complex to 
identify the areas where they need help or new ways of doing 
business. That has brought the user together with the person 
supplying the technology, working on a schedule that is good 
for both of them. That has been very effective, I believe.
    The other thing that I have taken advantage of a couple of 
times this year is to deploy some special teams to sites where 
we had unique problems that needed some outside technical 
expertise quickly. One of these teams we sent down to Pantex, 
when we had some groundwater issues down there that we didn't 
know we had. This team met and reviewed all the data and came 
forward with a good plan to address the groundwater problem.
    We deployed another team at Paducah when we had some issues 
there. They went and met with site people, reviewed all the 
data and came up with the new technologies. These are useful 
ways to get technology deployed quickly and helpfully to the 
workers and the project managers out in the complex.
    I heard when I came into this job that we did have trouble 
getting technology deployed because it was not invented here or 
it would take too much time to transfer the technology in, and 
we are doing it all by hand any way, or whatever the excuses 
were. I have not seen that to be the case when I have gone out 
around the complex or when I have talked to people. I think 
having a more integrated DOE EM complex-wide look at a lot of 
our technologies has helped a great deal.
    One of the offices that I put into the organization when I 
organized Environmental Management a couple of years ago was 
the Office of Integration because we were doing too many 
``stove-pipe'' sorts of cleanup programs around the complex. I 
think this has helped a great deal.
    Senator Allard. So you think just more oversight on your 
aspect, visiting with the contractor has been adequate without 
us trying to provide some special incentives for them to adopt 
these new technologies?
    Dr. Huntoon. I think that they are trying to adopt them, 
and I think the need is what's causing them to do it. I think 
the need to reduce those schedules, and the need to reduce the 
cost, and then in some cases, there was just no known way to 
deal with the issue until something did happen in the 
technology area. So I think that is working.
    Senator Allard. I view the multi-site integration plan as a 
major undertaking with the potential for enormous returns if it 
runs well. How would you gauge the current status of the multi-
site integration plan and is it running as well as you had 
hoped and intended?
    Dr. Huntoon. I think integration among sites is better, I 
think we have more work to do. But one of the big issues I 
believe has to do with not just the movement of materials and 
the handling of materials at different sites, but, of course, 
the scheduling of the transportation and the various 
commitments we have made at some of our sites to meet certain 
schedules. When you add all those things together, it is pretty 
complex. It is working: having WIPP open and increasing its 
shipments almost on a weekly schedule, we are shipping more and 
more TRUPACTs to WIPP. This has given us some relief in states 
that we need to ship into, and so that is helping, but to get 
the entire plan down, to get the whole complex put into an 
integrated plan is still a challenge. It is a work in progress.
    Senator Allard. Is there anything that you could recommend 
to your successor that would make the entire EM complex run 
more smoothly and improve the chances that the three major 
Environmental Management sites, that is Fernald, Mound, and 
Rocky Flats, will close on time in 2006?
    Dr. Huntoon. I think the one thing we were just talking 
about, of course, is the integrated schedule. While the 
schedule itself is important, the work itself is what's 
important. To keep making progress on the work I think is a 
number one issue. Handling all of the materials that we do in a 
fashion that is not only safe for the environment, but for our 
workers and people that live around our sites to me is the 
number one issue. I said from the day I took this job that we 
had to do it safely, not only to get our work done, but also to 
prevent stopping the work, which happens when we have mishaps 
of some sort. I think keeping an emphasis on our safety 
management that we have been doing to keep the work going is 
very important.
    On the work side, maintaining good schedules, monitoring 
the contractor, making sure that they are meeting the schedule 
and the milestones that they have committed to in their 
contracts, and keeping them incentivized to do so, I believe, 
is very important. On the other hand, Environmental Management 
has to live up to its commitments to provide the avenue for the 
movement of these materials for safe storage, so I think my 
successor is going to have to keep her eye on all three of 
those situations.
    Senator Allard. What do you think are the biggest obstacles 
in keeping all the sites working together as provided by the 
integration plan?
    Dr. Huntoon. Obstacles? Of course, funding is one of them. 
I think that is an issue. The other, I think, would be making 
sure that we keep a communication line open. We have been, I 
think, very good about having our site managers, our major 
contractors discussing not just what's going on at their site, 
but listening to what's going on across the complex, as well as 
listening to each other. I think that is an essential 
component.
    Senator Allard. Mr. Chairman, I do have a few more areas I 
wanted to cover here. Is there going to be another round?
    Senator Reed. There is going to be another round, Senator.
    Senator Allard. OK. I'll hold those for the second round.
    Senator Reed. Senator Nelson, welcome.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Thank you, Mr. Chairman. Mr. Chairman, 
with this subcommittee's interest in space assets, our witness 
could well speak to that because she is a former head of the 
Johnson Space Center, so she is multitalented, and it is a 
pleasure. Dr. Huntoon, would you share with me if the politics 
prevent the storage site from being utilized in eastern Nevada, 
what is the way that we approach a lot of this waste and would 
you reflect upon, are there changing technologies and 
developments through R&D that might have a bearing on how we 
can store this waste and where?
    Dr. Huntoon. Senator Nelson, I don't think my experience in 
the space program got me ready for handling storage of high-
level waste, but I do have some thoughts about it. Fortunately 
the Environmental Management program doesn't create a lot of 
high-level waste and is certainly concerned about storing it, 
but the issues of long-term storage is something that I think 
is a very complex issue, as you and I have discussed. I think 
it is a technically challenging issue and I think a lot of 
scientific work is ongoing to make sure we know how to do that 
safely.
    I believe the work that we did, that we have done and are 
now doing down in New Mexico at the Carlsbad facility, which is 
referred to as WIPP, but we have stored transuranic waste in 
there beginning about a year and a half ago. It took almost 20 
years to get the place open to do the proper studies, to do the 
proper permitting and all, but we got it open and we started 
shipping. It also took time because we had to work out with the 
State of New Mexico all of the rules and regulations and all, 
but we have done that, and it is successful, and we are really 
progressing and shipping transuranic waste safely. We have made 
every shipment safely to Carlsbad, New Mexico, and is being 
stored in the underground salt caves there.
    So we had some experience with handling transuranic waste. 
The high-level waste you are referring to we are now processing 
at Savannah River. We are successfully processing high-level 
waste out of the tanks down there, and we are getting ready to 
get a contractor to construct the facility to vitrify the waste 
that is out at Hanford in those underground tanks there. So we 
are in the business of processing high-level waste and 
preparing it for storage. In the meantime, it will be put in 
temporary storage at our facilities where it will be maintained 
until the Federal Government has a facility to disposition it 
for long term.
    Senator Bill Nelson. There is no magic bullet that you see 
in R&D that is going to solve this problem?
    Dr. Huntoon. I know of none. I know there is a lot of talk 
about transmutation. I think as a scientist, I have my 
skepticism about transmutation. As an individual, as an 
optimist, I would hope it works out, because that would be a 
wonderful thing if it does. I know there are researchers that 
have put some emphasis on transmutation, and I think that would 
just be super to have that possibility, but that is a stretch 
right now. I'll be, like you, interested in seeing what 
happens.
    Senator Bill Nelson. I went down to Oak Ridge to the Y-12 
plant, and I was struck with the fact that they are operating 
in many World War II vintage buildings. Is that a concern for 
the Department, and what would you suggest that we do about it?
    Dr. Huntoon. Senator, the infrastructure or facilities 
around our complex both in the NNSA and Science and 
Environmental Management are all aging, maybe like all of us 
are aging, but they are all aging at a pretty fast clip because 
we have not put money back into infrastructure. I know that the 
NNSA has an initiative where they are looking to do some work 
to improve the infrastructure. We are trying very hard in 
Environmental Management to only do infrastructure work on 
those facilities that are absolutely essential to maintain our 
sites, because we are in the business of decommissioning 
facilities not in building new ones or fixing up facilities. 
But we have to maintain the ones we are working in safe for our 
workers.
    So that has been a challenge, because when funds are tight, 
the facilities are the last things that usually get fixed. You 
visited Y-12, you should visit some of the other sites around 
the complex, because they, like Y-12, are in need of some 
facility work.
    Senator Bill Nelson. Thank you. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Nelson. Madam Secretary, I 
just tried to do a little back of the envelope profile of 
funding over the years, and in 1993, EM is about $3 billion, 
but in fiscal year 2000, $5.7 billion last year appropriated in 
2001, $6 billion. This year the request is $5.7 billion. We are 
moving backwards.
    The goal calculated based upon the demands and the course 
as we know them was to get within 3 to 5 years from now to 
about $7 billion on an annual steady state basis. It seems that 
we are going the wrong way in terms of funding, and that the 
plans that we have been considering now for several years 
invariably will suffer. Is that a fair conclusion from the 
budget profile?
    Dr. Huntoon. Senator, I would hope that our plans will not 
suffer, and I think the choices this year with the budget were 
a challenge for us. We did not necessarily have all of the 
capability that we needed to analyze what this budget would 
mean for us, and, as I answered a while ago, we are trying to 
work that out. But the efficiencies that Secretary Abraham has 
asked us to go look for, we are going to do that. The top-to-
bottom assessment will certainly, hopefully, find ways to do 
things more efficiently and at less cost. I think there is a 
challenge that we have been given. I think we have given all of 
our managers the charge to find better ways to do things.
    When Secretary Abraham was first briefed on the size of the 
EM program, and he said that 2070 and over $200 billion are 
just too much, and I don't disagree with him. That is the 
current lifecycle cost of the complex, and so any way we can 
find to reduce those costs and to reduce that time would 
certainly be beneficial. It is going to be a challenge.
    Senator Reed. Let me raise an issue in the context of this 
budget that Senator Nelson touched upon. That is, we all 
recognize that basic research is important to lower the costs 
and increase the effectiveness of cleanup. Looking at this 
budget, there does not appear to be any new basic research 
efforts that will be initiated. Is that accurate?
    Dr. Huntoon. With the challenges that we had with this 
budget, and choices that we had to make, we put most of our 
emphasis on our high-risk areas, as I mentioned, and tried to 
keep closure on schedule for our major closure sites. Science 
and technology, therefore, did not receive funding for any new 
starts this year.
    Senator Reed. Now, that would presume or at least one could 
conclude that there are some unfunded research requirements. I 
presume that is correct, and if that is, could you give us 
either now or later a list of those unfunded requirements that 
you consider worthy, but are not going to be funded?
    Dr. Huntoon. Yes. I can give them to you.
    [The information referred to follows:]

                     Unfunded Research Requirements

    Areas requiring long-term research have been identified through 
recent major reviews, such as the National Academy of Sciences (NAS) 
review of the Department's Environmental Quality Research and 
Development Portfolio (a compendium of DOE's research activities); NAS/
National Research Council's (NRC) review of Research Needs for High-
Level Waste Stored in Tanks and Bins at U.S. Department of Energy 
Sites; NAS/NRC review of Research Opportunities for Deactivating and 
Decommissioning Department of Energy Facilities; NAS/NRC review of 
Research Needs in Subsurface Science; and a Complex-Wide Vadose Zone 
Roadmap and Vadose Zone Roadmap at Richland. Some of the yet-to-be-
addressed needs that have been identified are:

        <bullet> Devices for ultra-sensitive, remote-mapping, and real-
        time characterization of contaminated materials;
        <bullet> Biotechnological decontamination of equipment and 
        facilities and understanding of the chemical and physical 
        interaction of contaminants with the primary materials;
        <bullet> Remote intelligent systems to enhance worker safety 
        with special emphasis on actuators, universal operational 
        software, and ``virtual'' presence;
        <bullet> Remote sensing instruments for real-time, in situ 
        characterization of high-level waste and process streams;
        <bullet> Improved solids-liquids separations methods for high-
        efficiency, high-throughput separations methods that could 
        reduce waste volumes and program costs;
        <bullet> Highly innovative and effective retrieval methods for 
        removal of high-level waste materials from connecting 
        pipelines;
        <bullet> Alternative immobilization media to overcome 
        limitations of borosilicate glasses;
        <bullet> Methods for designing monitoring systems to detect 
        both current conditions and changes in system behaviors;
        <bullet> Methods to monitor fluid and gaseous fluxes through 
        the unsaturated zone in soil, and differentiate seasonal 
        changes; and
        <bullet> Subsurface research at the basic and applied level to 
        develop the scientific basis for a subsurface geosciences 
        facility.

    Senator Reed. Thank you very much. As I understand it, the 
administration is requesting $180 million in the supplemental. 
Could you let us know what that $180 million is going to be 
used for, the pending supplemental that is before the Senate 
Appropriations Committee today?
    Dr. Huntoon. This is the supplemental for 2001?
    Senator Reed. Yes.
    Dr. Huntoon. Yes. What we did with the 2001 budget was--as 
you would imagine when we got into 2001, there were several 
areas that we were not going to be able to complete and do the 
work we needed to. So when we had the opportunity to request a 
supplemental, we put in for those areas.
    I think the biggest issue that we had was--again apply 
priority to our high risk areas--we put some additional funds 
in Savannah River, for some high-level waste evaporator work 
that presented problems this past year causing trouble in 
managing our water down there because we have to use these 
evaporators that seem to not work as much as they should 
because they are complex apparatus.
    We installed some furnaces, did some other necessary 
maintenance, for safety work at Savannah River, and we got more 
involved in some of our pumping of our tanks down there to 
manage that high-level waste. We have had some leaky tanks, and 
we were having to move fluid from tank to tank down there to 
manage the safety aspects of it. These were all new occurrences 
for 2001.
    Out at Richland, we put in some money to recover some of 
the delays that we had in moving spent nuclear fuel out of the 
K Basins. As I mentioned in my opening remarks, we're very 
pleased that we're moving that material out of there now, but 
it's very complex and it's been a very costly situation. So to 
recover some of that we had to--it needed more funding. The 
Plutonium Finishing Plant out at Richland needed more money for 
some of the cost growth they had experienced in transferring 
and stabilizing some of the plutonium oxides that they were 
doing.
    Moving on, I think we also put extra money into the Office 
of River Protection for tank waste management out there. In 
addition, one of our big issues was not having enough TRUPACTs. 
These are the shipping containers that go to WIPP in Carlsbad. 
We've been trying to find ways to help Carlsbad find some 
resources, and so this was a way to get the TRUPACTs--it takes 
3 months after you order them before they're delivered, and 
based on our schedule, it looks looks like we're going to need 
them very soon, the extra TRUPACTs.
    In Idaho, we went back and added some money for conceptual 
design for the construction of a high-level vitrification 
facility. While not a top priority at Idaho, it has been a 
priority, and so we're trying to get that done.
    At Pantex in Texas we funded the development of some 
groundwater technologies. I mentioned earlier that this past 
year we had some groundwater issues at Pantex that had not been 
addressed, and we added money for that. So the supplemental 
funds are scattered around the complex, but they will all find 
high priority needs that have come up this past year.
    Senator Reed. Thank you very much, Madam Secretary. This 
is, I think, an obvious follow-up comment that at $6 billion 
roughly last year, you still encountered a shortfall of roughly 
$180 million which couldn't be avoided. Now with a $5.7 billion 
base, one has to ask the question, do you begin with even 
barely adequate resources?
    The other question is that there is presumption, obviously, 
that you can save a lot of money by efficiencies. That presumes 
that you haven't been conscious of efficiency and conscious of 
the programmatic demands, and I don't think that's the case. I 
think you and your colleagues for years have been trying to be 
more efficient, more productive.
    Can you outline any of the areas you think that will free 
up on the order of $150, $180, $300 million?
    Dr. Huntoon. Senator, at this time, I can't. We will come 
in for the record if that's all right, and list those 
efficiencies. We're working on it. I would just mention to you 
a few ideas that we have had, in talking with our contractors 
and all, on trying to get some efficiencies. Some of those have 
to do with examining our own DOE orders, identifying areas that 
our contractors and our site managers across our complex 
believe are costing us resources as they try to meet all of 
these orders at all of our sites.
    It's a ``one size fits all'' and yet our sites aren't all 
alike. We have some closure sites and we have some sites that 
are still in operations. We have some sites that have very 
high-level radioactive materials and we have some sites that do 
not. So one of the ideas is for us to look at those and not do 
anything that's unsafe or not do anything that's really dumb, 
but to try to get some efficiencies. I will provide to you for 
the record some of the other efficiencies we're looking at.
    [The information referred to follows:]

             Environmental Management Program Efficiencies

    EM has been successful in achieving efficiencies in the past and we 
believe additional efficiencies are possible. For example, in the past, 
EM has reduced annual support costs by $400 million per year and 
reduced the uncosted balances by more than $1 billion. More recently, 
EM has negotiated contracts that provide incentives to accelerate work 
and achieve savings. These contracts have the potential for significant 
new savings.
    Other initiatives that are expected to produce significant 
efficiencies include:

        <bullet> Increased focus on project management principles that 
        hold Federal and contractor line management accountable for 
        program and project performance.
        <bullet> Use and deployment of innovative technologies to 
        achieve cleanup more efficiently. EM has developed about 280 
        innovative technologies that reduce risk, cleanup costs and 
        schedules, or perform tasks that were not previously possible. 
        For example, robotic techniques for sludge removal of the 
        Gunite Tanks at Oak Ridge allowed the project to be completed 
        more than 10 years ahead of schedule and at a savings of $120 
        million.
        <bullet> Establishing a partnership with the Department's 
        regulators to work toward better and more efficient ways to 
        achieve compliance. The accelerated closure of Rocky Flats, 
        governed by the compliance agreement with the State and the 
        U.S. Environmental Protection Agency, reflects a goal for 
        closing the site by 2006--from an earlier schedule of 2065--and 
        a savings of $30 billion, and serves as a model for other 
        sites.
        <bullet> Examining alternative approaches to identify the most 
        cost effective ways to achieve cleanup and building on 
        successes such as the one at Fernald which used on-site, rather 
        than off-site, disposal of waste, resulting in a $100 million 
        savings.
        <bullet> Continuation of efforts to reduce support costs.

    We believe the top-to-bottom review will identify better ways of 
doing business and related cost savings.

    Senator Reed. Thank you very much.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. The closing of the 
Fernald and Mound sites in Ohio and the Rocky Flats site in 
Colorado are still an important key to addressing complexwide 
challenges to the EM program.
    Dr. Huntoon, you've been a strong supporter of the closure 
effort. What is your current prognosis for reaching closure of 
any of these site by 2006? I look back on your testimony, I 
note that you stated on Rocky Flats that you're continuing 
toward that progress, toward the goal. You think it's 
ambitious, and in your more informal statement, you said that 
it's a vision that's becoming closer to reality.
    I noticed in your statement here with the Fernald site, 
that your request of $285.3 million plus $4.7 million for 
safeguards and security also funds efforts to complete cleanup 
and close the Fernald site in Ohio. This site is currently 
scheduled to close in 2010 but the new closure contract for 
Fernald awarded last November includes incentives to the 
contractor to accelerate the completion program of 2006. I 
commend you on getting that contract completed last fall.
    On the other site, the Miamisburg Environmental Management 
Project, you stated the goal was still to complete closure and 
cleanup of the site by 2006, however changing conditions and 
increased scopes make a closure of several years later more 
likely. I worry about having to renegotiate contracts, because 
if it's anything from what I've experienced in the past, any 
time you open up a contract things get out of control. You give 
the contractor all sorts of excuses to start upping the price 
of cleanup. So I just would like to know how you're moving 
along with your closure of 2006?
    Dr. Huntoon. Senator, as I mentioned, the Rocky Flats 
vision is now a more realistic goal, I believe, for 2006. I 
think we're a little bit behind schedule right now, but our 
contractor and our site manager have both assured me they think 
they can make that up. They had a little bit of trouble getting 
the plutonium processing up and going, but it is operating now, 
and we are turning out cans of the plutonium, getting it ready 
to ship, so we hope that that is going to get back on schedule. 
They anticipate it will, so I anticipate that we are going to 
stay on schedule for 2006.
    Now, having said that, you and I both know that every time 
we start some new process out at Rocky, or at any of the other 
sites, we go in and we find or need something we did not know 
we were going to find or need a special way to handle 
something, and it gives us problems. So I am not going to say 
that it is going to be a done deal and that we can all relax 
now. I think it is going to take constant vigilance by our DOE 
team and our contractor to keep that schedule on track and to 
try to keep those costs contained. It is going to be a 
challenge, but it is a realistic challenge right now.
    Senator Allard. That is a realistic comment from what I 
know, and I appreciate your efforts in that regard.
    Dr. Huntoon. At the Fernald site, we renegotiated a 
contract to close the site at 2008 with incentives to pull 
closure back to 2006. So we have incentivized the contractor. 
We are trying to do that. We have a terrific site manager there 
who is keeping the trains rolling, if you will, and I think 
things were working well. We have had some challenges at 
Fernald also.
    Senator Allard. I assume that is pretty much along the same 
model as we have on Rocky Flats?
    Dr. Huntoon. That's right. It is the same model. It is 
specific issues being incentivized to get done by specific 
times, giving the contractors some flexibility on schedule, 
letting them decide the sequencing of the work, working well 
with the regulators to do this. Everyone has their eye on the 
ball and hopefully we can pull the date back on the Fernald 
contract. We are trying hard to do that. That will be a 
challenge.
    Mound is a different story. We have run into technical 
issues at Mound, particularly with Special Tritium Compound 
that we have never dealt with before, and neither had anyone 
else. We are working through that and I think we have some 
fixes. But it is a challenge. So closure of Mound, it will slip 
out some. I don't know exactly until when. We still have to get 
an assessment of that.
    Senator Allard. I mentioned in my opening statement many of 
the benefits to the EM program by closing Fernald, Mound, and 
Rocky Flats, safety to workers in the community, a safer 
environment, cost savings which can be used at the other sites, 
a needed success story for the Department of Energy, just to 
mention a few key ones.
    However, I understand this is a very difficult mission to 
accomplish. Again, are there any major obstacles that you see 
the DOE or Congress needs to address to make sure we are 
successful in closing down the designated sites by 2006?
    Dr. Huntoon. I think there are a lot of challenges, as I 
mentioned, out there to do this. I think in the past you and I 
have discussed some of them. Just to be specific about Rocky: 
making sure we get the shipments of materials out of Rocky, 
making sure that the sites that are receiving the materials are 
ready for them, and we have met all the obligations, not just 
with construction and facilities, but also with the regulators 
for this shipment of the materials, so I think those are going 
to be challenges. Some of the materials at Rocky depend on 
being received at Savannah River to be processed, and I think 
we have to make sure that that is on track.
    I think the movement of waste out of Rocky, particularly 
the mixed low-level waste, is going to be a challenge. We are 
going to have to make sure we can stay on schedule. So there 
are some issues.
    Senator Allard. Do they require some legislative solutions?
    Dr. Huntoon. I don't think, right now I don't know of any 
legislative solutions that are needed. I think most of them are 
going to be technical and managerial solutions coming out of 
Environmental Management, DOE, as well as the contractors.
    Senator Allard. Mr. Chairman, I have just one more 
question.
    Senator Reed. Take whatever time you need, Senator.
    Senator Allard. The Rocky Flats site has been successful in 
making big strides toward cleanup while making sure their 
safety and security requirements are met. They really had a 
culture change in the way they did business. In fact, before 
making a plan of cleanup to close Rocky Flats by 2006, the 
earlier estimate in 1995-1996 predicted closure in 2065 at a 
cost of $30 billion, and the 2006 closure will cost about $7 
billion during the same period of time. Do you believe Rocky 
Flats is unique in finding these efficiencies or can this type 
of turnaround be introduced at other EM sites?
    Dr. Huntoon. I think you hit the point of why Secretary 
Abraham has directed us to do this assessment around the 
complex. If we were able to do this at Rocky Flats, then he 
wants us to look for these efficiencies of doing business at 
other sites. I want to say a couple of things, as I did to him.
    Rocky Flats, I think, did have a turnaround or has had a 
turnaround. One notion is that Rocky Flats is a closure site, 
and everyone out there has known that and knows it and is 
focused toward closing and getting the job done. The contractor 
has contracted with us to close that site. I think that will 
give us not only a direction for work, but it gives the mindset 
to all the workers, as well as certainly the contractor and 
Department of Energy workers there.
    Not all of our sites are closure sites. A lot of our sites 
have ongoing activities that will take them into 2035 or 2040 
to meet some of their commitments. So it is not going to be a 
one size fits all, but I think a lot of the efficiencies that 
we gained at Rocky, we can gain at other sites, and we have 
already initiated some of that work with some these contracts 
we have put in place this past year.
    Senator Allard. Mr. Chairman, I have a couple questions on 
waste disposal. I thought I would let you ask a few questions 
and I'll wrap it up with those.
    Senator Reed. That is fine, Senator. If you want to 
continue, it is quite all right, too.
    Senator Allard. I'll let you ask a couple.
    Senator Reed. Just let me ask two questions, Madam 
Secretary. It seems that the efficiencies you are talking about 
that are in place now are at predetermined funding levels which 
allow the contractors to really know how much money they will 
receive over several years, and they are able to manage their 
work to be more efficient and more timely. Is that a fair 
description of the structure?
    Dr. Huntoon. That, but also, Senator, it has to do with 
pricing out specific tasks within the contract. What's it going 
to take to do this particular job, regardless of how many years 
or the funding over the years. By doing that, particularly on 
larger sites where some of our bigger contracts are, we have 
been able to sequence the work as our budget will allow it to 
be done. That is also what we will have to be doing in the 
future as we get the budgets that we get in the Federal 
Government. We will have to sequence the work with a contractor 
that we can afford at the time.
    Senator Reed. But as you sit at this point, you have 
already priced out certain tasks. You have already incentivized 
a contract by providing what is a defined profile of funds. My 
sense is that this budget that has been requested does not meet 
those costs that you know of right now, so as a result, you 
will have to delay certain tasks, sequence certain tasks, is 
that correct?
    Dr. Huntoon. Because of the budget that has been proposed, 
we will have the opportunity to renegotiate certain tasks 
within some of the contracts. I suspect that will happen.
    Senator Reed. But that means delay in the performance of 
those tasks or with less money, how do you get more work?
    Dr. Huntoon. We will have to delay some of them or as I 
said, resequence the work in them.
    Senator Reed. Another final question, if I may. There are 
some unavoidable costs in all of this, and one particularly 
important one is worker safety, and so as you look at these 
efficiencies, I assume and I know that you will be very 
sensitive to maintaining the very high standards of worker 
safety. I presume that, and can you confirm that?
    Dr. Huntoon. Yes. I will confirm it. I think that if I 
leave any legacy with Environmental Management, it will be that 
we talk about safety first. I think that has to be in 
everyone's mind. I know all of our site managers understand 
that. They have really emphasized safety and our safety record 
has really improved in the last couple of years, just by 
keeping a constant vigilance on safety issues, and not asking 
do we need to do it. We must do it for the environment and the 
people working and living in the environment. But also, if you 
have safety problems, that shuts everything down and then the 
schedule falls apart, so for both of those reasons, safety has 
to be a top priority. I suspect it will continue to be.
    Senator Reed. Thank you.
    Senator Allard, your final questions.
    Senator Allard. Yes. On the low-level waste disposal issue, 
if I refer to the General Accounting Office report on nuclear 
cleanup, you understand which report I would be referring to?
    Dr. Huntoon. I think so.
    Senator Allard. It was titled ``Nuclear Closure, DOE Should 
Re-evaluate Waste Disposal Options Before Building New 
Facilities.''
    Dr. Huntoon. Yes.
    Senator Allard. My question is directed toward that GAO 
report. In light of what that report says, it raised the issue 
of whether low-level waste should be disposed at our onsite 
facilities or offsite commercial facilities, and what criteria 
do you believe the Department of Energy should use in deciding 
this issue?
    Dr. Huntoon. The biggest criteria that we try to use has to 
do with being cost effective, what is the most cost effective 
way to deal with this. I think the policy that we have been 
following is to use the DOE facilities for disposal of low-
level waste that could be done there, and then evaluate, as I 
said, the other available facilities when we could not use them 
on DOE facilities.
    Senator Allard. Your costs short term on those could show 
as a savings, but long term, could be more expensive. Is that 
right?
    Dr. Huntoon. Yes, sir.
    Senator Allard. Did you try to evaluate that?
    Dr. Huntoon. That's true. This is what we try to evaluate. 
I'll give you an example. There is a waste criteria that has to 
be considered because not all the waste is the same, and it 
can't all go to the same place. Transportation is a big issue. 
It is costly, and we have to negotiate the transportation 
routes and what we are shipping where. So that has to be taken 
into account.
    Of course, the level of contamination in the waste is an 
issue. We can ship some waste to commercial facilities, but 
they cannot accept waste at certain levels. So it is, I think 
it is a complex issue involving many that have to be examined, 
and we have been trying to do that in the complex. It is 
cheaper transportation-wise, as you might imagine, to put them 
in local facilities or in cells that we build at the sites 
where the disposal is occurring, but those tradeoffs have to be 
done.
    Senator Allard. Do you plan on changing the way you have 
been doing business as a result of that GAO report, and if so, 
what kind of adjustments in your low-level waste disposal 
contracting practices might that lead to?
    Dr. Huntoon. We are going to, I think, assess each time and 
do the calculations and do the studies necessary to determine 
what is most cost effective, the way that we can do it in the 
safest way. I think establishing criteria and trying to meet 
them is the best thing that we can do. The issue of 
transportation, I think, should not be left out of the 
equation, and sometimes is, and the variance in the waste 
should not be left out of the equation, and sometimes that is 
left out. So talking about it in general terms is one thing. 
Being specific for the specific waste stream and doing the 
calculations is another one.
    Senator Allard. I just want to recognize, the staff helps 
me in doing this, that you were a big help in resolving the 
container delays and I appreciate that. Also, Madelyn Creedon, 
while she was at the Defense Programs, assisted the Rocky Flats 
office at the DOE headquarters, has been very helpful as well, 
and I want to pay my thank yous to them.
    I'd like to get back to the budget questions Mr. Chairman 
was asking. Now, you have $180 million in the supplemental. 
Some of the programs that you listed like the leaking tanks, 
when did those start leaking?
    Dr. Huntoon. Senator, I'll have to get you the dates on 
that specifically. I am going to say in the last few months.
    [The information referred to follows:]

                Leaking Tanks at the Savannah River Site

    On January 12, 2001, a leak was identified in Tank 6. Later, on 
June 15, 2001, a small leak was detected in Tank 5. Waste was safely 
transferred from these tanks to reduce the level of waste below the 
lowest leak sites. There have been no reports of leakage into the soil 
or groundwater and none is anticipated. The Department will continue 
its surveillance and maintenance activities to minimize risks to the 
environment and ensure worker safety.

    Senator Allard. That is not anything that you had 
anticipated, for example, when you were putting together this 
budget?
    Dr. Huntoon. No. The 2001 budget.
    Senator Allard. In the early budget of where you had the $6 
billion, that was the last budget, we had the $6 billion total 
appropriation.
    Dr. Huntoon. It was not anticipated. We do watch these 
tanks very carefully because they are old.
    Senator Allard. Yes.
    Dr. Huntoon. These tanks had not leaked before, and we 
thought we were pretty safe with them, and then we ended up 
having leaks in two different tanks, which caused us some 
management of fluid problems.
    Senator Allard. Now, the shipping of containers, are there 
things that you knew there might be a need for and did not 
include in this budget, or is this kind of a last-minute 
emergency thing?
    Dr. Huntoon. The site was telling us they were hoping, they 
were scheduled to need this many. I guess in our judgment in 
forming the budget, we did not think they were going to get 
there with the number of TRUPACTs they are needing.
    Senator Allard. So there might have been something that was 
built into the previous budget, but when you made this request 
here, you didn't think that there was a real need there at the 
point, but then that is changed in the process, is that 
correct?
    Dr. Huntoon. That's right. Like the WIPP containers is a 
perfect example. Because of some of the delays around the 
complex at the various sites and getting the permits to ship 
and all, we have not shipped at the rate that had been 
projected or anticipated for the last year. Now all of a 
sudden, these permits have come through and we are shipping and 
hopefully in another month, maybe another week--I don't 
remember the date exactly--we will be shipping up to 17 
shipments a week into WIPP. Just a few months ago, we were 
shipping three and four shipments a week. So they had finally 
reached this projected rate, and now we see that in order to 
keep up with this rate, we would need to get these orders in 
for these TRUPACs.
    Senator Allard. I think maybe the Chairman and I are 
thinking along the same lines here. We add the $5.7 billion 
plus the request on the $180 billion, that leaves $150 
million--I am sorry, $180 million, it leaves $150 million 
shortfall as to what was budgeted in the last budget. So the 
point of my question is that how many items did we have that 
was built in in the $6 billion budget that in effect we 
legitimately make up a difference with $185 million to bring us 
up there, and then you have the $150 million shortfall as a 
total, as it was when you had your $6 billion budget.
    So what I was trying to get out of my question was how many 
of these truly happened within the last 9 months or so, and 
which one of those is makeup figures that bring up closer to 
the $6 billion, because I think that helps us in understanding 
what kind of funding needs you may have.
    Dr. Huntoon. The 2001 supplemental is for issues that have 
come up since we submitted our 2001 and received our 2001 
budget. We put in the supplemental to handle 2001 issues.
    Senator Allard. None of those was a duplicate of a request 
that was on the $6 billion budget?
    Dr. Huntoon. No. That's right.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard. I guess I can't 
resist but if you had an extra $200 million in the last 2001 
budget, might you apply it to some of these costs, or was it 
totally unexpected?
    Dr. Huntoon. Some of them might have--I can't say that some 
of them would not have been, Senator. But some of them have 
been unexpected. Perhaps we should have expected them, but they 
have been issues--and they will keep coming up because as I 
mentioned, this material we are dealing with, the complexity 
and the age of some of the equipment and all, we keep having 
these problems.
    Senator Reed. Thank you very much, Madam Secretary. Again, 
thank you for your testimony in response to our questions and 
for your service to the Nation. I would make note that the 
record will remain open until Wednesday, June 27th at 6 p.m. to 
receive any questions for the Secretary from members and also 
to receive any additional testimony from DOE main, major prime 
contractors. With that, I will adjourn the hearing.
    Dr. Huntoon. Thank you.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                         WORKFORCE REQUIREMENTS

    1. Senator Reed. As DOE gets closer to the point in time when it 
will actually close sites, how would you propose to keep the workforce 
needed to close on schedule?
    Dr. Huntoon. The Department is doing a variety of things to ensure 
essential Federal and contractor employees are in place to close 
designated Environmental Management sites as scheduled. The Secretary 
of Energy has received authority under Section 3136 of the Fiscal Year 
2001 National Defense Authorization Act (NDAA) to provide transition 
incentives to eligible Federal employees at designated closure 
facilities. The incentives include accumulation of up to 720 hours of 
annual leave, retention allowances of up to 30 percent of basic pay, 
and continuation of health insurance coverage for up to 18 months after 
termination of employment. This authority will be used to encourage 
needed employees to stay in their positions until completion of work. 
The Department also intends to develop procedures for priority 
selection of employees from closure sites for vacancies in 
environmental management positions at other sites.
    DOE contracts at the closure sites contain incentives to meet 
scheduled completions of the projects. The contractors, in turn, must 
retain employees with appropriate skills to meet the contract 
schedules. Contractors have wide latitude to develop retention 
incentives for their workforces. At Rocky Flats, for instance, the 
Department has supported the contractor in having its workers develop 
personal closure plans, providing reimbursement for tuition for classes 
that would lead to future employment in other fields, providing pay 
enhancement incentives to retain employees in select positions, and 
allowing early retirement. Such incentives can be expected to be used 
with greater frequency as the sites near their scheduled completion 
dates. In addition, the Department has developed workforce 
restructuring plans for the closing sites pursuant to Section 3161 of 
the NDAA for Fiscal Year 1993. These plans may provide enhanced 
benefits for voluntary separation of employees, allowing retention of 
those needed for ongoing work. The DOE Office of Worker and Community 
Transition manages this program.

                          WORKFORCE INCENTIVES

    2. Senator Reed. Do you believe some type of incentive system is 
appropriate and if so do you have any proposals for such incentives?
    Dr. Huntoon. The Department believes that a system of incentives is 
appropriate. It has established a Federal Employees Incentives Board to 
oversee implementation of the Fiscal Year 2001 National Defense 
Authorization Act (NDAA) Section 3136 incentives. Each of the 
Environmental Management (EM) closure sites will be developing an 
annual plan within the next few months which identifies which positions 
will be surplus and which are required over the closure project's 
schedule. Appropriate incentives will be provided accordingly, and 
reviewed on an annual basis. The EM closure sites will also continue to 
update their contractor workforce restructuring plans and use available 
appropriations to avoid losing employees needed to successfully meet 
closure schedules. The Department will support contractor efforts to 
provide retention incentives, as appropriate.
    As the closure work proceeds, the Department will assess the 
adequacy of current legislative authorities to help retain the 
necessary workforce and request changes should the current provisions 
prove insufficient.

               REVIEW OF ENVIRONMENTAL MANAGEMENT PROGRAM

    3. Senator Reed. Have there been any interim and final reports 
coming out of this review? If there are, could you please provide a 
copy? What is the purpose of this review and when will it be completed?
    Dr. Huntoon. Secretary Abraham requested that a top-to-bottom 
review of the Environmental Management program be conducted, in 
response to his concerns about the projected cost and time (over $200 
billion and 70 years) to complete the Department of Energy's cleanup 
mission. By looking at management strategies, opportunities for 
complex-wide integration, unnecessary internal DOE requirements, and 
other aspects of our program, the goal of the review is to identify 
efficiencies and opportunities to get the Department's cleanup work 
done more quickly and more cost-effectively.
    I initiated this review as Acting Assistant Secretary of 
Environmental Management, and it will be managed by Ms. Jessie Hill 
Roberson, the new Assistant Secretary of Environmental Management, once 
she is confirmed.

            INTERNATIONAL TECHNOLOGY DEVELOPMENT COOPERATION

    4. Senator Reed. In the past the Environmental Management Program 
carried out some environmental research in Russia. This effort has 
apparently lapsed. Have you looked at the possibility of reviving that 
program and partnering with Russia and other research institutes of the 
Former Soviet Union to look at areas of mutual need?
    Dr. Huntoon. We have a long and continuing history of interaction 
with the Former Soviet Union that has produced first-rate science on 
research activities that are mutually beneficial. The fiscal year 2002 
request continues support for these activities. For the past 11 years, 
the Office of Environmental Management has conducted a cooperative 
research and development program with the Ministry of Atomic Energy 
(MINATOM) of the Russian Federation to address common environmental 
management issues. This program, administered by the Joint Coordinating 
Committee for Environmental Restoration and Waste Management (JCCEM), 
addresses problems of mutual interest and importance, such as 
environmental stewardship of the former nuclear weapons complex in each 
country. The joint work focuses on five areas of cooperation (high-
level waste tanks, transuranic stabilization, deactivation and 
decommissioning, efficient separations, and contaminant transport 
modeling) and has resulted in demonstrations and deployments of 
Russian-developed environmental management technologies at both DOE and 
MINATOM sites. The 11th JCCEM Meeting will be conducted in September 
2001 in St. Petersburg, Russia. Approximately $1 million annually is 
directed to fund Russian scientists.
    In addition to the joint work carried out with the Ministry of 
Atomic Energy, we are also involved in a joint program with the Russian 
Academy of Sciences. Two implementing arrangements, ``Geologic 
Analogues, Migration and Accumulation of Radionuclides in Geologic 
Media'' and ``Risk Assessment and Advanced Modeling Regarding Geologic 
Disposal,'' were recently signed at the first meeting of the newly 
created Joint Coordinating Committee on Science and Technology 
Cooperation (JCC). JCC serves as the managing body for a Memorandum of 
Understanding on Cooperation in Science and Technology between DOE and 
the Russian Academy of Sciences. Scientific collaborations under this 
program include the study of the conditions of uranium migration and 
accumulation in rock similar to those found in the U.S. at possible 
repository sites; the study of the chemical and thermochemical 
properties of radionuclides and the characteristic migration processes 
important to repository performance; the behavior and transport 
properties of radioactive waste at contaminated sites in Russia; and 
the preparation of a plan for the development of a geologic repository 
in Russia. The fiscal year 2002 request includes $333,000 for this 
program.

            INTERNATIONAL TECHNOLOGY DEVELOPMENT COOPERATION

    5. Senator Reed. The European Union has started to fund 
environmental research in Russia at some of the nuclear facilities. Do 
you know if there are any opportunities to collaborate in this 
research?
    Dr. Huntoon. It is possible that opportunities for mutually 
beneficial collaboration do exist, and we plan to research this during 
the 11th Joint Coordinating Committee for Environmental Management 
(JCCEM) in September 2001 in St. Petersburg, Russia.

                ENVIRONMENTAL MANAGEMENT SCIENCE PROGRAM

    6. Senator Reed. In reviewing your testimony and the fiscal year 
2002 budget request it does not appear that there is any money in the 
science and technology account to start any new basic research efforts. 
Is this accurate? Why is there no money for this?
    Dr. Huntoon. Our request for the Environmental Management Science 
Program (EMSP) places priority on addressing high priority requirements 
identified by the sites, continuation of research initiated in prior 
years, and on moving promising EMSP research results through the next 
development phase. The fiscal year 2002 request also includes funding 
for approximately 15 new awards in fiscal year 2002 related to 
subsurface contamination, including subsurface contamination as it 
relates to long-term stewardship.

    7. Senator Reed. In reviewing your testimony and the fiscal year 
2002 budget request it does not appear that there is any money in the 
science and technology account to start any new basic research efforts. 
Are there unfunded research requirements?
    Dr. Huntoon. The budget request includes funds to continue research 
initiated in prior years. The fiscal year 2002 budget request also 
includes funds to address high-priority research in the area of 
subsurface contamination, including subsurface contamination associated 
with long-term stewardship that was recommended by the National Academy 
of Sciences. We will continue to assess long-term research needs for 
Environmental Management as the cleanup progresses and needs evolve.

    8. Senator Reed. In reviewing your testimony and the fiscal year 
2002 budget request it does not appear that there is any money in the 
science and technology account to start any new basic research efforts. 
Could you please provide a list of these requirements?
    Dr. Huntoon. Areas requiring long-term research have been 
identified through recent major reviews, such as: the National Academy 
of Sciences (NAS) review of the Department's Environmental Quality 
Research and Development Portfolio (a compendium of DOE's research 
activities); NAS/National Research Council's (NRC) review of Research 
Needs for High-Level Waste Stored in Tanks and Bins at U.S. Department 
of Energy Sites; NAS/NRC review of Research Opportunities for 
Deactivating and Decommissioning Department of Energy Facilities; NAS/
NRC review of Research Needs in Subsurface Science; and a Complex-Wide 
Vadose Zone Roadmap and Vadose Zone Roadmap at Richland. Some of the 
yet-to-be-addressed needs that have been identified are:

        <bullet> Devices for ultra-sensitive, remote-mapping, and real-
        time characterization of contaminated materials;
        <bullet> Biotechnological decontamination of equipment and 
        facilities and understanding of the chemical and physical 
        interaction of contaminants with the primary materials;
        <bullet> Remote intelligent systems to enhance worker safety 
        with special emphasis on actuators, universal operational 
        software, and virtual presence;
        <bullet> Understanding the fate and behavior of treated and 
        untreated contaminated material by determining the fundamental 
        chemical species;
        <bullet> Remote sensing instruments for real-time, ``in situ'' 
        characterization of high level waste and process streams;
        <bullet> Improved solids-liquids separations methods for high-
        efficiency, high-throughput separations methods that could 
        reduce waste volumes and program costs;
        <bullet> Highly innovative and effective retrieval methods for 
        removal of high level waste materials from connecting 
        pipelines;
        <bullet> Alternative immobilization media to overcome 
        limitations of borosilicate glasses;
        <bullet> Methods for designing monitoring systems to detect 
        both current conditions and changes in system behaviors;
        <bullet> Methods to monitor fluid and gaseous fluxes through 
        the unsaturated zone of soil, and differentiate seasonal 
        changes from longer-term changes in order to better predict the 
        migration of contaminants;
        <bullet> Planning and research activities related to tank waste 
        retrieval, storage and disposal for the Office of River 
        Protection; and
        <bullet> Subsurface research at the basic and applied level to 
        develop the scientific basis for a subsurface geosciences 
        facility.

    9. Senator Reed. In reviewing your testimony and the fiscal year 
2002 budget request it does not appear that there is any money in the 
science and technology account to start any new basic research efforts. 
Where are the greatest remaining research challenges to improve the 
rate and reduce the cost of cleanup and waste treatment activities?
    Dr. Huntoon. We recently commissioned several reviews by the 
National Academy of Sciences (NAS) to help identify the Department's 
long term research needs in the areas of subsurface soil and 
groundwater contamination, high-level waste and deactivation and 
decommissioning. NAS also reviewed for gaps in research in our 
Environmental Quality (EQ) Research and Development (R&D) Portfolio, a 
Department-wide compendium of current R&D activities. A concurrent 
adequacy analysis was also performed on the EQ R&D Portfolio by a team 
of experts that included representatives from other Federal agencies 
and the national laboratories. The results of these reviews help form 
the basis for developing long-range science plans in these areas.
    The common theme emerging from these reviews is that the most 
significant technical challenges in the EM program are associated with 
the high-level waste stored in tanks and bins at DOE sites, as well as 
characterization of areas surrounding the tanks. At an estimated life-
cycle cost of over $50 billion, this also represents the most expensive 
problem facing the Department.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                      PRIORITIZATION OF EM CLEANUP

    10. Senator Thurmond. I believe that it is safe to say that there 
is broad bipartisan concern about the administration's proposed budget 
for fiscal year 2002. Members of Congress, governors, state 
legislators, interest groups, and private citizens have all been quite 
vocal in their dissatisfaction. I have personally addressed this matter 
with the Secretary on a number of occasions. Recently, the Governor of 
my State hinted that he would close the highways to future shipments of 
materials from closure sites if funding was not restored. Given the 
fact that the House Appropriations Committee recently added an 
additional $699 million for fiscal year 2002 and that the Senate will 
likely exceed this total, how would you prioritize and spend additional 
funds for EM cleanup?
    Dr. Huntoon. The administration is concerned about the increase in 
funding appropriated by Congress for the Environmental Management (EM) 
program. DOE has initiated a performance review of this program, and we 
believe it is prudent to review the findings of this study before 
restoring funding that the budget proposed to reduce.
    However, with additional funds provided in fiscal year 2002, we 
will fund work that would help meet environmental commitments or 
complete work at specific sites. For example, additional funds will 
provide added insurance that we will be able to meet upcoming 
environmental commitments, such as starting hot operation of the waste 
treatment plant at the Hanford site; improving the storage, treatment 
and disposal of mixed waste at Savannah River Site, INEEL, and the 
Hanford Site; and remediating environmental contamination at Savannah 
River Site, Oak Ridge Reservation, INEEL and several smaller sites. We 
will fund work that would support accelerated closure of sites, or 
portions of sites, such as the Hanford Site Columbia River Corridor 
Cleanup program, and the closure sites in Ohio. We will also fund 
additional research and development priorities.

                          MEETING COMMITMENTS

    11. Senator Thurmond. I fully support the Secretary's review and 
hope that it quickly identifies a quicker, better, cheaper way of 
addressing the Nation's nuclear weapons legacy. Unfortunately, as it 
stands today, the best scientists and contractors in the world say it 
will cost substantially more money to accomplish the EM mission than 
this budget has allocated. At the Savannah River Site alone the 
contractor states that in order to meet existing regulatory and 
critical mission commitments, he must have over $200 million in 
additional funding. How do you propose to meet the Department's legally 
enforceable regulatory commitments if you do not fund at a level that 
science states will allow you to accomplish projects on schedule?
    Dr. Huntoon. Maintaining compliance at the Savannah River Site and 
other sites across the DOE complex is a priority for the Department. We 
recognize that we face challenges in meeting some lower-risk 
commitments in fiscal year 2002.
    As you point out, the Secretary is concerned about the cost and 
schedules for cleanup and has directed a top-to-bottom assessment of 
the EM program that will focus on ways to more efficiently and cost 
effectively complete cleanup. The Secretary has also asked the 
governors of each state in which a major DOE site is located to work 
with us in this assessment. Given the pressing needs of the Nation in 
many other areas that affect citizens' well-being, health, and safety, 
it is DOE's responsibility to ensure that funds are spent wisely and 
results are maximized.

                          LEAKING TANKS AT SRS

    12. Senator Thurmond. We recently learned of leaking tanks at the 
high level liquid waste tank farm at SRS. Specifically, tanks 5 and 6 
recently experienced leaks which resulted in transferring large 
quantities of waste from those tanks to others in the tank farm. While 
such a policy appears to be a safe short-term solution it further 
constrains additional tank space and could soon interfere with the 
operation of the Defense Waste Processing Facility (DWPF). I am aware 
that there is an initiative to improve space management flexibility at 
the high level waste tank farm by modifying certain tanks. It is my 
understanding that this initiative would require an additional $10 
million in the Waste Removal Line Item. Are you aware of this proposal? 
Do you agree that this is a high priority initiative? Do you intend to 
support this initiative?
    Dr. Huntoon. Yes, I am aware of and fully support these high 
priority efforts. The tank modifications are necessary to resolve 
recently identified problems associated with the 3H evaporator system 
by providing additional tank capacity to receive concentrate waste; and 
to provide additional storage capacity for high-level waste by 
modifying a tank, which has full secondary containment, that currently 
stores low-activity waste to allow it to receive high-level waste. Some 
activities in support of these modifications are already underway.
    These modifications are being made to respond to problems that 
arose during fiscal year 2001, and were therefore not initially 
addressed in the fiscal year 2001 appropriation. Because of their 
importance, we have re-prioritized waste removal activities in fiscal 
year 2001 to support these tank modifications. The fiscal year 2002 
request also includes funding for these activities.

                     SALT WASTE PROCESSING FACILITY

    13. Senator Thurmond. As you are well aware, the Salt Processing 
Facility has been a particularly troublesome project. SRS has 
approximately 60 percent of the DOE's inventory of high level waste and 
much of the tank farm is located near the underground water table. 
Furthermore, the Salt Waste Facility is the lynch pin of several 
processes; including future operation of DWPF and the immobilization 
process. According to DOE experts, full funding for this project in 
fiscal year 2002 requires $59.5 million. The President's budget calls 
for only $31.13 million in fiscal year 2002. Would you agree that this 
is a high priority project? If the Department receives additional EM 
dollars would you support full funding for the Salt Processing 
Facility?
    Dr. Huntoon. Yes, the Salt Processing Facility is a high priority 
project. The fiscal year 2002 budget request for $31.12 million 
supports design and construction of a salt processing pilot facility, 
continued research and development on a primary and backup technology, 
and start of conceptual design for a full scale facility. Additional 
funding for the salt processing project would enable the pace for 
conceptual design and related project activities to be increased.

    [Whereupon, at 11:15 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        WEDNESDAY, JULY 11, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

 NATIONAL SECURITY SPACE PROGRAMS, POLICIES, OPERATIONS, AND STRATEGIC 
                                SYSTEMS

    The subcommittee met, pursuant to notice, at 2:03 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Akaka, E. 
Benjamin Nelson, Allard, Smith, and Sessions.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: L. David Cherington, 
minority counsel; Brian R. Green and Thomas L. MacKenzie, 
professional staff members.
    Staff assistants present: Thomas C. Moore and Jennifer L. 
Naccari.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; Eric Pierce, assistant to Senator Ben Nelson; Margaret 
Hemenway, assistant to Senator Smith; J. Mark Powers and John 
A. Bonsell, assistants to Senator Inhofe; Douglas Flanders, 
assistant to Senator Allard; and Arch Galloway II, assistant to 
Senator Sessions.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order. My 
colleague and ranking member, Senator Allard, is on his way, 
but he suggested that we go ahead. Good afternoon. I would like 
to welcome our witnesses this afternoon: General Eberhart, 
Admiral Mies, Major General Blaisdell, and Rear Admiral Dwyer.
    Today, the subcommittee will discuss space and strategic 
programs, operations, and policy. General Eberhart will be the 
witness on the first panel. Admiral Mies, accompanied by Major 
General Blaisdell and Rear Admiral Dwyer, will be the second 
panel. We look forward to hearing from each of you. Indeed, we 
have a lot of material to cover today.
    The subcommittee has the privilege of having both the 
commanders in chief whose activities fall within the 
jurisdiction of the Strategic Subcommittee. We would like to 
discuss with each of you your primary concerns about current 
programs, as well as your views on the future of your 
respective areas.
    The budget for the strategic programs remains relatively 
flat in fiscal year 2002. Appropriately, so as there are no new 
programs or strategic systems in fiscal year 2002. Rather, the 
focus is to maintain the current force structure or to begin to 
draw down. The Minuteman III modernization program remains 
funded in the President's budget. At $155 million there is a 
concern that certain communications upgrades for the B-2 bomber 
may not be fully funded. The Trident D5 missile program remains 
on track to buy 12 missiles, but many Department of Energy 
(DOE) programs to extend the life of the warheads for these 
systems are not meeting schedules.
    There are substantial concerns about future strategic 
modernization and retirement programs. Additional D5s needed to 
support the extended life of the Trident submarines are not 
included in the out years, nor is there money to retire the 
Peacekeeper. The Peacekeeper budget for fiscal year 2002 
contains $5 million to begin to purchase equipment needed to 
retire the Peacekeeper.
    Similarly, it is not clear that there is sufficient funding 
in the out years to modernize strategic communications on the 
E-6 aircraft.
    The space program's budget is growing, but many concerns 
remain about satellite systems that appear to be behind 
schedule and over budget, such as the Advanced Extremely High 
Frequency (AEHF) satellites. Tracking space programs is 
difficult, a fact recognized by the Space Commission when it 
recommended that space become a major force program.
    General Eberhart, in addition to the programmatic issues, I 
would like you to discuss the recommendations of the Space 
Commission and how those recommendations can be implemented by 
the Department in a way that brings increased coordination to 
space planning and acquisition, but at the same time ensures 
that each of the services' individual interests are addressed.
    One of the key elements of the Space Commission's 
recommendations was creation of an Under Secretary of Defense 
for Space. General Eberhart, I would like your views on the 
role this position would play, not only in space programs and 
policy, but also in the related areas of information and 
intelligence.
    We have a lot of material to cover this afternoon. When 
Senator Allard arrives, at the conclusion of General Eberhart's 
statement, I will ask for his opening statement. But at this 
point let me call upon General Eberhart. You have submitted a 
prepared statement. That statement will be made a part of the 
record, so you may summarize as you wish, General. Again, we 
are eager to hear your testimony. Thank you.

STATEMENT OF GEN. RALPH E. EBERHART, USAF, COMMANDER IN CHIEF, 
                  UNITED STATES SPACE COMMAND

    General Eberhart. Thank you, Mr. Chairman. It is indeed an 
honor to be back in front of this subcommittee discussing 
issues of concern and of interest. It is an honor to represent 
three commands, commands that are populated by simply wonderful 
people: NORAD, North American Aerospace Defense Command, a 
bilateral command with Canada, a bilateral joint command with 
men and women of all services of the Canadian Armed Forces and 
our armed forces and dedicated civilians; United States Space 
Command, a unified, obviously joint command; and then finally 
Air Force Space Command, which is an Air Force major command.
    We are going to talk in detail this afternoon about 
systems, about needs and requirements. But, I think first and 
foremost, I know you share my concern and my interest and 
realize that what really makes these commands so special, what 
makes our armed forces special, are the men and women who 
serve. They are soldiers, sailors, airmen, marines, Coast 
Guardsmen, they are civilians. It is a total force, guardsmen 
and reservists.
    I do not care what we do in terms of equipment, in terms of 
facilities. If we do not recruit and retain the right people, 
it will all be for naught. I know this subcommittee has worked 
hard to ensure that we take good care of our people and their 
families.
    As you suggested, I will submit my statement for the 
record. I will summarize here and then address the two specific 
questions that you asked me to talk about, Mr. Chairman.
    Let us talk about some of the missions we have. Most all of 
those you referred to in your opening remarks. With the Air 
Force Space Command hat on, we do in fact organize, train, 
equip, and provide Admiral Mies with the ICBM force to make 
sure he has the right equipment, that we have the right numbers 
on alert, that we have highly trained men and women to operate 
those missiles, to sustain them, to maintain them, etc.
    I think that Minuteman III is on track, on track with 
upgrades replacement programs for guidance and propulsion, a 
safety enhanced reentry vehicle and new batteries. The list 
goes on and on, but all very important upgrades that we have on 
track and we must keep on track to make sure that these 
missiles are reliable, that they are safe, that they are 
secure, that they will serve this Nation in terms of strategic 
deterrence until 2020.
    Once the decision is made to take down the Peacekeeper 
force, then obviously we will all be concerned about doing this 
in a smart, safe, secure manner.
    The next mission area I would like to talk about is space 
launch. We do our space launches from Cape Canaveral and from 
Vandenberg Air Force Base. I think the challenge as we move 
ahead in terms of space launch is to safely fly out the legacy 
systems, the Titan systems, the older Atlas systems, the older 
Delta systems, make a smooth transition to the expendable 
launch vehicles, and make sure that those systems stay on 
track.
    Then finally, I am convinced that we need to invest more 
and we need to push it up in terms of reusable launch vehicles. 
I believe that through reusable launch vehicles one day we will 
get the cost of launch down to something closer to what we 
would like to see. We will also be much more responsive in 
terms of our launches, which will be important from the 
military perspective.
    Also, as we think about space launch we must make sure that 
we keep the recapitalization program of our launch ranges on 
track, continue to invest in these ranges--we do not want them 
to return to the conditions they were 5 and 10 years ago--and 
make smart investments like Global Positioning System tracking, 
for which there is money proposed in the 2002 budget to do just 
that.
    The next mission area I would like to turn to is force 
enhancement. This has really been the focus of our efforts, and 
I think rightfully so, since Operation Desert Storm. There was 
a lot of criticism after Operation Desert Storm. I will not 
debate whether that was warranted or not. I would say that it 
was not completely warranted because we were trying to take 
systems that we had designed for strategic and national 
purposes and use them for the warfighter in the field. They 
were not really designed for that and we did not have the 
processes or the organizations set to do that.
    We have worked hard the last decade to make sure that, in 
terms of force enhancement--and I am talking about missile 
warning, navigation timing, communications, weather, 
intelligence, surveillance, reconnaissance, those types of 
things--we have come a long way in a decade. We have invested a 
lot of intellectual capital and a lot of dollars to make sure 
that we do that more correctly, if you will.
    As a result, you did not hear much criticism after Kosovo, 
because we worked that issue hard. This is a good news story, 
but there is a little defense twist on that story. That is it 
has become so integral to everything we do, these force 
enhancement mechanisms, capabilities from space, that I would 
offer to you, Mr. Chairman, they have become targets. People 
realize exactly how we leverage those capabilities and there 
are people out there today thinking about how they might deny 
us use of those capabilities in terms of our situational 
awareness.
    So we have to in the future ensure that we can protect the 
capabilities we have in space so that our men and women who are 
engaged, whether it is a humanitarian operation or full-fledged 
combat, can count on those space assets to provide them the 
information and the situational awareness they need.
    These same people who are out there right now deciding on 
how they might deny us use of space are trying to figure out 
how they can better use space. So under the space control 
mission that we have in U.S. Space Command, we have to be able 
to protect our assets in space, our use of space, and if 
necessary to save the lives of our men and women who are 
engaged, we have to deny the enemy the use of space.
    The other mission area that I think is very important, that 
is a fairly new mission area, and not just important to the 
Department of Defense--I would offer to you it is important 
across this great Nation--is what we call computer network 
operations. That is a combination of computer network defense 
and computer network attack.
    We have had the computer network defense mission a year 
longer than we have had the computer network attack mission. In 
my view it is by far job one in this area because we in fact 
once again rely on our network, our information out there. So 
if an enemy denies us use of those networks, denies us that 
information, or, worse yet, tries to portray information that 
is not valid, I think it will cost us time and in turn 
casualties in the battle space of the future. So we are working 
very hard on computer network defense with the help of the 
committee.
    Computer network attack, also a very important mission, but 
I view this still as a force multiplier. It is another option 
for the joint force commander and the National Command 
Authorities, another arrow in the quiver, if you will. So we 
are concentrating on computer network defense and we are trying 
to develop viable computer network attack options.
    You asked me to talk about implementation of the Space 
Commission. I view this from really two different levels. At 
more of a macro level, a strategic level, as the Space 
Commission talked about, the cooperation between the DCI and 
the Department of Defense, I think that is very important. I 
think you have seen that the National Security Council with the 
committee established and also with regular meetings between 
the DCI and the Secretary of Defense, are working this issue at 
the strategic level.
    The second area that you alluded to is more of an 
operational level, if you will, and that is in the Department 
of the Air Force. It is much broader than that as you assign 
the executive agency role to the Under Secretary of the Air 
Force and also dual-hat that individual as the Director of the 
NRO. I think this is very healthy. This is a step in the right 
direction, a giant step in the right direction, in terms of 
integrating black and white space, integrating what the NRO 
does and what Air Force Space Command does and what U.S. Space 
Command does.
    But in terms of being good stewards of that role of being 
executive agent, I personally believe the Air Force will step 
up and do exactly that. But of course, the proof will be in the 
pudding, if you will, over time. We will be much smarter about 
this in a couple years as we look back and talk to the other 
services and hear from them that their interests have been 
represented properly.
    The other question you asked about was an Under Secretary 
of Defense for Space Intelligence and Information. That is what 
the Space Commission recommended. The Secretary of Defense has 
decided at this point he does not believe that is necessary. He 
believes that he can get the right focus on space, given the 
personalities he has involved and with the reorganization 
inside of the Command, Control, Communications and Intelligence 
(C\3\I) secretariat in the Department of Defense.
    I personally believe that, with Mr. Aldridge there and 
depending on who becomes the Assistant Secretary of Defense for 
C\3\I and with the executive agency in the Air Force, I think 
we can get the right focus. So I do not think it is about an 
organizational chart here. It is more a focus on process and 
effects which will tell the tale in terms of the effectiveness 
of that organization.
    So again, in closing, it is an honor to be with you. We 
will talk at length, I am sure, during the question and answer 
period about some of the systems. But I would remind you and of 
course the other distinguished members of the subcommittee who 
have just joined us that what this is all about really is 
people, recruiting and retaining the right people, making sure 
they have the right training, the right education, and the 
right tools to do the job that this Nation expects them to do.
    Thank you, sir.
    [The prepared statement of General Eberhart follows:]

           Prepared Statement by Gen. Ralph E. Eberhart, USAF

    Mr. Chairman and members of the subcommittee: It is an honor to 
appear before you again representing the outstanding men and women of 
North American Aerospace Defense Command (NORAD) and United States 
Space Command (USSPACECOM). Over the last year, I have observed first 
hand the pride, dedication and excellence of the professionals who work 
in our commands. Their efforts have contributed to the freedom and 
security North America enjoys today, and the United States continues to 
lead the world in space. We are proud to be part of the National 
security team.
    For 43 years NORAD has met the changing threat--transitioning from 
an initial ``air defense'' orientation to a broader aerospace 
dimension--one that provides surveillance and warning of ballistic 
missile attacks and space events and ensures our air sovereignty 
against an expanding range of potential threats. NORAD missions remain 
as vital as ever and constitute a critical component of the defense of 
North America.
    USSPACECOM, established in 1985, is charged with the missions of 
space support, force enhancement, space control, planning for force 
application and, most recently, computer network defense (CND) and 
computer network attack (CNA). Ten years after the Gulf War, we see the 
huge advantage space brings to our warfighting capabilities. Our 
efforts to ``operationalize'' space have enabled us to move time-
critical information to front-line commanders and to troops in the 
field. These efforts were crucial to our success during U.S. and allied 
air operations over Serbia. Space-based capabilities have become an 
integral part of our American military operations.
    As our reliance on space increases, we believe more attention 
should be devoted to protecting our access to, and use of, space. In a 
similar way, we must protect our critical information infrastructure to 
assure information superiority and develop appropriate strategies to 
exploit the vulnerabilities of our adversaries' space and computer 
network capabilities. To meet the unique challenges of our evolving 
national security environment, we must remain the world leader in space 
and computer network operations.
    For fiscal year 2002, the President's budget includes funding to 
cover our most pressing priorities. However, the programs discussed in 
this statement and their associated funding levels and schedules may 
change as a result of the Secretary of Defense's strategy review, which 
will guide future decisions on military spending.

               OUR PEOPLE ARE FUNDAMENTAL TO OUR SUCCESS

    Execution of our National Military Strategy hinges on our ability 
to attract and retain high quality, motivated servicemen and women and 
civilian employees. Our tremendous warfighting capability depends on 
our people. If we take care of them, they will take care of our 
mission. Without them, even our most effective weapon systems are of 
little value. Congress' initiatives to improve military and civilian 
pay, health care and housing for our professionals in uniform are a 
step in the right direction. We are very grateful for your continued 
support in these areas. However, we still have work to do.
    Our biggest challenges continue to be retention and recruiting. 
Both NORAD and USSPACECOM are struggling to keep the quality people we 
need to perform our critical missions. Our commands are feeling the 
pressure that stems from the combination of a strong economy and 
industry's demand for the unique technical skill and work ethic found 
in our people. High-paying civilian jobs that offer stability and 
exceptional benefits continue to lure our people away from the 
military.
    Last fall, Congress made significant progress in helping us turn 
the tide by authorizing targeted pay raises for our mid-career enlisted 
members and extending the Thrift Savings Plan to members of the Armed 
Services. We are most grateful for this support. As noted in the 
reports of the Commission to Assess United States National Security 
Space Management and Organization, the Nation as a whole must place a 
high priority on the development of a cadre of highly competent and 
motivated military and civilian space professionals. Specifically, we 
must cultivate the talents of our people, pique their interest, develop 
their core space expertise and expand their knowledge base through 
Joint and Service-specific professional development programs.
    For USSPACECOM, recruiting is also important as we seek a balanced 
mix of military and civilian talent to meet our space mission 
requirements and new obligations with CND and CNA. Finding this talent 
continues to be a difficult job as we compete with industry for people 
with high-demand space and information technology skills.
    Finally, last year, we asked Congress to repeal the fiscal year 
2000 congressionally-mandated 15 percent reduction in staff personnel 
at our unified headquarters. In USSPACECOM, we remain concerned about 
the possibility of losing 79 billets after we have just assumed our new 
CND and CNA missions. The Fiscal Year 2001 National Defense 
Authorization Act offered some relief to this mandate by reducing the 
personnel cuts to 7.5 percent. Given our current plans, as we establish 
the infrastructure to support our new assignments, any manpower 
reduction will adversely affect our ability to fulfill our unified 
command duties.

                               READINESS

    It is encouraging to see how our Nation's warfighting capabilities 
have improved over the last decade. As mentioned earlier, space systems 
are now integrated into virtually every aspect of our military 
operations and are essential to our success, whether in peace, crisis, 
or armed conflict. Our increasing dependence on space dictates the need 
to continue modernizing our space systems, which, in turn, will have a 
direct effect on our overall military readiness. In addition, we must 
leverage the benefits associated with partnerships--both within the 
government and with industry. Finally, we must improve the way military 
space is organized and managed in order to realize the full potential 
of our Nation's space power.
    Missile Warning. For NORAD and USSPACECOM, missile warning 
continues to be ``Job 1.'' With the development and proliferation of 
theater ballistic missiles, it is clear we need the improved detection 
capabilities of the Space-Based Infrared System (SBIRS) soonest. This 
system-of-systems will enhance our early warning and space surveillance 
capabilities, support future ballistic missile defense systems and 
provide commanders with better battlefield situational awareness.
    SBIRS will serve as a combat multiplier for our Nation's military 
and our allies. The SBIRS High satellites will improve theater missile 
launch point and impact point predictions and will provide data that 
assists in performing missions such as real-time battle damage 
assessment. As for SBIRS Low, we believe the system should be designed 
to support missile defense. However, we also believe we need to 
implement ``smart upgrades''--supported by cost-benefit analysis--that 
will maximize both the SBIRS High and SBIRS Low inherent capabilities 
to support technical intelligence, battlespace characterization and 
space surveillance.
    Because our theater forces are already at risk and because we 
expect proliferation of more accurate theater ballistic missiles, we 
strongly advocate SBIRS as our top priority new system. We appreciate 
the congressional support we have received for this very important 
program. We remain committed to a launch of the first SBIRS High 
geosynchronous orbiting satellite in fiscal year 2005, followed by the 
first SBIRS Low launch in 2006.
    Fusion. SBIRS is the foundation of our future missile warning 
capabilities. However, we must not overlook the value of fusion 
technology. The Theater Airborne Warning System and the Enhanced Early 
Warning System will work in conjunction with the space-based Defense 
Support Program and SBIRS to provide our theater warfighters enhanced 
protection from theater ballistic missile attacks. These systems will 
fuse information from space, airborne and ground-based assets to 
improve warning times dramatically and increase launch and impact point 
accuracy. We appreciate your continued support for these important 
programs.
    Air Sovereignty. The traditional NORAD mission of aerospace 
control, or more specifically airspace sovereignty, remains a 
fundamental priority. The United States must maintain the radar 
systems, aircraft and command and control capabilities, which serve as 
pillars for homeland defense. In addition, we must continue to pursue 
improved space-based surveillance, intelligence and communications 
capabilities as essential contributions for NORAD mission success.
    Force Enhancement. Our force enhancement efforts over the last 
decade have helped us ``operationalize'' space. Global Positioning 
System (GPS) navigation satellites and our Satellite Communications 
(SATCOM) systems are fully integrated into the warfighting capabilities 
of all our Services and Unified Commands. The readiness of our military 
forces depends on the modernization of these systems.
    GPS has become a way of life for both our military and commercial 
industry around the world. From precision farming to financial 
transactions to surveying remote parts of the earth's surface, every 
sector of our society relies on the timing and navigation services 
provided by this system. As a result, we have initiated a modernization 
program that will provide a more robust anti-jam capability for our 
warfighters and additional civil signals for aviation, safety-of-life 
services and other commercial enterprises. We appreciate Congress' 
continued support in sustaining and modernizing this national resource.
    Reliable and secure SATCOM systems are also key to our military's 
readiness. We continue to exploit our current SATCOM fleet while 
developing new, technologically advanced systems. Over the past year, 
we worked with the other Commanders in Chief to revalidate SATCOM 
requirements. We reaffirmed the need to modernize our capabilities with 
a blend of military, civil and commercial systems. As we update our 
satellites, we cannot forget the user terminals. All aspects of SATCOM 
must be synchronized for maximum utility. We need your continued 
support to make this critical modernization effort a reality.
    Over the past decade, a significant amount of radio frequency 
spectrum has been reallocated from the DOD to the Federal 
Communications Commission for auction to the private sector. Our space 
and air systems depend upon the spectrum to perform our missions. In 
order to maintain our state of readiness, we need to carefully consider 
the national security implications of spectrum reallocations. The 
Fiscal Year 1999 Defense Authorization Act restored some of the 
spectrum previously reallocated. We appreciate Congress' help; however, 
we face continued requests for expanded non-Federal civil and 
commercial use of this limited spectrum. For instance, there is a 
proposal being considered to accelerate the reallocation of the Space 
Ground Link Subsystem frequency, which supports our on-orbit satellite 
systems. If this proposal is implemented without adequate alternative 
spectrum for critical military functions, it will limit our ability to 
effectively command and control our space assets.
    Space Support. Our space support missions focus on launching 
satellites and then operating and maintaining them once on orbit. The 
Evolved Expendable Launch Vehicle (EELV) is our next generation launch 
vehicle that will provide assured access to space with quicker response 
and greater flexibility at a significantly reduced cost. We are pleased 
to report this program is on track with the first launch scheduled for 
2002.
    In addition to modernizing our launch vehicles, we are upgrading 
the ranges that support our Nation's military, civil and commercial 
space launches. Our Range Standardization and Automation program will 
standardize launch interfaces, replace obsolescent technology and help 
reduce operations and maintenance costs while increasing operational 
flexibility.
    Force Protection. Members of our commands serve in virtually every 
location where U.S. forces operate; therefore, force protection is 
critical. To the best of our ability, we must proactively safeguard our 
people and facilities by continuing to conduct regular anti-terrorism 
training, assessing and correcting our own vulnerabilities, and 
finally, educating our people to be constantly on guard. We do not view 
force protection as a mission unto itself but inherent in all that we 
do.
    Partnerships. With the ever-increasing demand for space support, we 
recognize the need to expand relationships with our ``space partners'' 
to leverage existing systems and national level expertise. USSPACECOM 
and the National Reconnaissance Office continue to explore the 
possibility of common space systems and seek new avenues to better 
support both the warfighter and national decision makers. In addition, 
we are working with the National Imagery and Mapping Agency to develop 
imagery requirements and with the National Aeronautics and Space 
Administration to better predict the location of space objects and 
improve human spaceflight safety. Finally, through our partnerships 
with other agencies, we are investigating ways to collectively support 
our CND and CNA missions.
    Similarly, we recognize the need to partner with industry. To 
sustain our readiness, we need to balance the advantages of commercial 
partnerships with the inherent risks associated with expanding our use 
of commercial systems. We do this by continually assessing our 
vulnerabilities and ensuring protected military systems are available 
for our most critical military missions.
    Space Commission. The Commission to Assess United States National 
Security Space Management and Organization submitted its report in 
January 2001. We are pleased with the findings and believe the 
Commission made solid recommendations to improve the way military space 
is organized and managed. We are working on an implementation plan for 
these recommendations.

                      OUR ACCOMPLISHMENTS IN 2000

    Our people remain focused and continue to accomplish the mission 
despite our high operations tempo. In calendar year 2000, our space 
wings successfully executed 27 launches and deployed all payloads to 
their respective orbits for a 100 percent success rate. In addition, we 
recently activated two new squadrons with space control missions. We 
have made significant strides in establishing the framework for our CND 
and CNA missions and have conducted several space and information 
operations-based exercises to demonstrate our adversaries' capabilities 
and to identify our own vulnerabilities. Finally, our NORAD forces have 
been actively involved in homeland defense. The following provides a 
more detailed description of our activities during the past year:
    Space Control. Our people need to train as they fight. To ensure 
our forces are fully prepared to defend against attacks on our space-
based infrastructure, we have recently activated two new squadrons--the 
527th Space Aggressor Squadron and the 76th Space Control Squadron. The 
527th Space Aggressor Squadron's mission is to replicate the known 
capabilities of potential adversaries and play the role of the ``red 
team'' in exercises like Schriever 2001. The 76th Space Control 
Squadron's charter is to explore future space control technologies by 
testing models and prototypes of counterspace systems with the goal of 
rapidly achieving space superiority.
    Computer Network Defense and Computer Network Attack. The threat to 
DOD computer networks and systems continues to grow. If used properly, 
a cyber attack offers less militarily capable nations an asymmetric 
means to degrade the effectiveness of our military forces. As a result, 
protecting the DOD's critical information infrastructure continues to 
be USSPACECOM's main focus in the cyber arena.
    We are working hard to normalize our CND mission. We established a 
command and control structure, initiated efforts to improve the 
dissemination of critical CND information and established reporting and 
tracking procedures for protecting and defending critical national 
security information systems. Our challenge is to stay ahead of 
evolving threats to our computer networks, keep abreast of rapidly 
changing technology and continue coordinating closely with other 
government agencies.
    On 1 October 2000, the Unified Command Plan designated USSPACECOM 
the ``military lead'' for DOD's CNA activities. Our initial focus has 
been on the development of a CNA concept of operations that addresses 
the process needed to integrate CNA capabilities into existing 
operation and contingency plans. Our challenge is two-fold. First, we 
must understand the CNA needs of the other CINCs and determine the best 
way to address them. Second, we need to continue developing CNA 
strategies through simulations and wargaming to improve our 
understanding of the potential collateral effects associated with such 
actions.
    On 2 April 2001, we transitioned our CND and CNA missions to an 
organizational construct we call the Joint Task Force for Computer 
Network Operations (JTF-CNO). Combining our newest missions under a 
single operational commander enables unity of command and effort. In 
addition, the JTF-CNO makes more efficient use of available resources, 
eases coordination with the intelligence community and other partners 
and establishes a clear cross-agency coordination process. We see the 
JTF-CNO as a ``pathfinder'' organization that will adapt to changing 
threats and mission parameters.
    Space and Information Operations Exercises. Over the past year, we 
have continued to focus on integrating space and information-based 
capabilities into Service and Chairman of the Joint Chiefs of Staff-
sponsored exercises and experiments. Last year's Joint Warrior 
Interoperability Demonstration showed how space has become an integral 
part of all we do. Space-based capabilities are not a luxury anymore; 
they are now fundamental to military operations.
    In January 2001, the Air Force sponsored its first-ever Air Force 
wargame dedicated to space. The Schriever 2001 Wargame explored space 
warfare issues and investigated the military utility of our future 
space systems. The preliminary analysis of the results reinforced 
several key points we have known for some time: a robust ``blue'' space 
capability serves as an effective deterrent; the ``blue'' team is very 
dependent on space and, as a result, is potentially vulnerable to 
``red'' counterspace actions; and finally, commercial space serves as a 
powerful force multiplier.
    NORAD Deployments. In 2000, we once again demonstrated we are 
prepared to protect our airspace sovereignty. Our aircraft and 
personnel deployed to forward operating locations, and, in one 
instance, our forces stood alert at bases in Alaska and Northern Canada 
for several weeks to ensure an appropriate response.

                             OUR WAY AHEAD

    As we prepare for an uncertain future, we must focus our attention 
on protecting and advancing our interests in space and information-
based operations or run the very real risk of a ``Space Pearl Harbor'' 
or another ``Sputnik'' that catches us off-guard and unprepared. In 
addition, we must remain vigilant in protecting and defending our 
homeland.
    Space Control. Since the activation of U.S. Space Command in 1985, 
we have focussed on integrating space with warfighting: bringing space 
to the warfighter. Setting our ``integration throttle'' high has served 
us well. Today, nearly every endeavor across the spectrum of military 
operations utilizes space to succeed.
    However, our reliance upon space has become a vulnerability. 
Potential adversaries are watching and responding. They see space as an 
asymmetric method for leveling the playing field. Not only are threats 
emerging on a daily basis, but cheap access to advanced commercial 
space services continues to chip away at our information superiority 
edge.
    Therefore it is time to push up the ``space superiority throttle.'' 
We have left this throttle at a low power setting for too long. We must 
ensure our continued access to space, to deny space to others when 
directed and to carefully address our reliance on the Nation's $60 
billion commercial investment in space.
    Space is important enough to warrant a significant investment--it 
is not just a higher hill. This is a medium crucial to our American 
military operations and one we'll have to fight for in the future.
    Space-Based Laser. The Space Based Laser (SBL) could provide 
worldwide, continuous, boost-phase intercept across a wide range of 
ballistic missile defense scenarios. Warfighting CINCs recognize SBL's 
inherent capability to support other DOD missions such as air defense, 
global surveillance, space control and target detection. We must 
continue to pursue the technologies associated with systems like the 
SBL. The mere fact that the United States is developing means to employ 
force in space may serve as a significant deterrent.
    Space-Based Radar. Space-Based Radar (SBR) is a force enhancement 
system we must explore. The requirement for SBR capability remains 
high. Our national and military strategies are based on global 
engagement. As such, our military operations require the day, night, 
and all weather broad-area surveillance capabilities this system could 
offer. We were moving forward with an SBR demonstration system, 
Discoverer II, until it was terminated last fall. In response to the 
Fiscal Year 2001 DOD Authorization Conference Report, the National 
Security Space Architect is leading a multi-service, multi-agency 
effort to develop an SBR Roadmap, which brings together requirements 
for both the DOD and national users. As part of the Roadmap 
development, we are heavily involved in an analysis of alternatives 
that will allow the DOD leadership to make SBR decisions considering 
other intelligence, surveillance and reconnaissance needs.
    Computer Network Defense and Computer Network Attack. We will 
continue to facilitate and lead the DOD-wide effort for CND and CNA. We 
intend to fully integrate these options into all military plans and 
operations, focusing on positive command and control, integrated 
planning and deconfliction, fully coordinated intelligence support and 
execution of assigned missions.
    Ballistic Missile Defense. With the proliferation of missile 
technology, one of our primary concerns is the threat of strategic 
ballistic missiles. A defensive capability is required to protect North 
America. As part of our unified command responsibilities for ballistic 
missile defense, we continue our work to establish clear system 
requirements and develop the necessary procedures and command and 
control options for an operational capability.
    Cruise Missile Defense. In addition to ballistic missile defense, 
we must also be prepared to defend North America against cruise missile 
attack. NORAD advocates a three-pronged approach to counter this 
evolving threat. First, we must develop effective wide-area 
surveillance around the perimeter of North America. Second, we support 
an Advanced Concept Technology Demonstration to look at alternative 
surveillance technologies. Finally, we should leverage others research 
and development efforts to help counter the cruise missile threat--
whenever and wherever we experience it.

                               CONCLUSION

    I assure you, NORAD and USSPACECOM are prepared to provide 
aerospace defense to the people of North America and space support to 
U.S. and allied armed forces. We continue to find new ways to improve 
our warfighting capabilities by integrating space capabilities into all 
aspects of our military missions; we are working to do the same for 
computer network operations. As we develop our next generation systems, 
we must invest the necessary resources and intellectual capital to 
protect our vital interests and sustain our lead in space. We 
appreciate Congress' continued support to maintain our high state of 
readiness. With your help, we will ensure space forces play a key role 
in our Nation's future defense.
    Again, I am honored to appear before you and look forward to your 
questions.

    Senator Reed. Thank you very much, General Eberhart, for 
your testimony.
    Senator Allard, would you like to make an opening statement 
now prior to the General's questions?

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I would just briefly thank you for going 
ahead and holding this hearing.
    I look forward to hearing what General Eberhart has to say 
during our question and response period, and then also look 
forward to your second panel. I think that it is a very timely 
hearing and I think it is very important.
    Mr. Chairman, I do have an opening statement. I would just 
like to ask permission to make it a part of the record.
    Senator Reed. Without objection.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Thank you, Senator Reed. I want to add my welcome to the witnesses 
today. General Eberhart, welcome. It's always good to see you.
    I also want to thank Senator Reed for holding this hearing today. 
In many respects, this is a challenging year for Congress as a whole 
and for our committee in particular. The fact that the Defense 
Department has sent us its budget and legislative proposals so late in 
the year makes our schedule a very difficult one and puts extraordinary 
demands on our time. Senator Reed, in holding this hearing, upholds a 
long tradition of interest in and oversight of these critical defense 
efforts.
    These are also challenging times for our soldiers, sailors, and 
airmen involved wilth our space and strategic forces. Space is more 
important than ever to our military effectiveness and that importance 
will continue to grow. In that light, I think we all read with 
particular interest the criticisms and recommendations of the 
Commission to Assess United States National Security Space Management 
and Organization--the Rumsfeld Space Commission. This commission 
concluded that the Defense Department and the Air Force have not been 
well organized with respect to space and consequently have not done an 
effective job of managing space programs and activities. It made a 
number of recommendations to correct these deficiencies--and in some 
cases, Secretary Rumsfeld has opted not to take the advice of 
Commission Chairman Rumsfeld. Space Command will be profoundly affected 
by the implementation of these recommendations and our committee will 
need to have a clear understanding of SPACECOM's view of how this is 
evolving. I will also be interested to hear General Eberhart's views on 
the adequacy of the budget proposal to meet his operational 
requirements now and in the future, and whether space is getting the 
attention it deserves.
    In some ways, matters are equally unsettled with respect to our 
strategic forces. There is an ongoing nuclear posture review, still in 
its early stages, that will provide a top to bottom look at our 
strategic requirements in the future. The results of this review won't 
be available for several months. The President has also announced his 
intention to create a new strategic framework to deal with evolving 
strategic threats and our relationship with Russia. One element of this 
framework will be unilateral reductions to U.S. strategic nuclear 
forces to the lowest level consistent with U.S. national security. The 
President has made clear that this new framework will strengthen 
deterrence, not replace it. But who we deter, how we deter, how we 
think about our strategic offensive forces, and appropriate strategic 
force levels will all be under serious scrutiny.
    I look forward to hearing from Admiral Meis on our second panel 
today to get his views on the requirements of deterrence in the 21st 
century, and from Rear Admiral Dwyer and Major General Blaisdell on the 
adequacy of this year's budget proposals to support the programmatic 
requirements of our deterrent forces.
    Thanks again to Senator Reed and to our witnesses for appearing 
today, and I look forward to their testimony.

    Senator Reed. Thank you very much, Senator Allard.
    Senator Akaka, would you like to make an opening statement?

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing. I would like to welcome our distinguished 
witnesses, particularly General Eberhart. I believe this is an 
exciting time for our space programs and policies and look 
forward to working with you to address our national security 
interests in space, and I look forward to the questioning 
period.
    Senator Reed. Thank you very much.
    Senator Smith, would you like to make some opening remarks?
    Senator Smith. No, thank you, Mr. Chairman. I will wait 
until the questions.
    Senator Reed. Thank you very much.
    What I would propose to do is two rounds of questioning. We 
will limit ourselves to 7 minutes per round. Let me begin.
    General Eberhart, the ability to maintain undiminished 
secure communications, which was put in jeopardy with the loss 
of the Milstar 3 satellite, appears to continue to be in 
jeopardy with the delays and cost overruns in the Advanced 
Extremely High Frequency (AEHF) Satellite program. Is there a 
plan to get this program back on track and will additional 
funding be required in fiscal year 2002?
    General Eberhart. Sir, as you stated, the unfortunate loss 
of the Milstar certainly changed the complexion in terms of 
satellite communications. We were all and still remain excited 
by the national team proposal and the AEHF as we understand it.
    This is not an easy task. The fact of the matter is it is 
probably the only option available right now to provide in a 
timely manner the communications we need. In terms of program 
delays and cost overruns, I do not have the specifics right 
now. I believe that as we push technology here, as we work to 
secure what we need in terms of communications, for the 
information of the subcommittee, we are talking about 12 times 
the type of capacity, the type of capability, that the Milstar 
was going to give us. So we are talking about a significant 
increase in capability.
    I would like to tell you that there will not be any delays 
and there will not be any cost overruns. My intuition tells me 
otherwise. However, I do believe that we will in fact be 
successful in this endeavor. We have our best and brightest in 
terms of industry, in terms of the Department of Defense, 
working this issue. Although I am not directly involved, as we 
work through the acquisition process I watch it very closely, 
as I am sure you know.
    So I remain optimistic about the future of the AEHF, but I 
believe that there will in fact be increased costs and some 
delays. But I hope that we stay very close to that December 
2005 launch, because we need that capability. I believe this 
increased capability is worth taking some risks to make sure 
that we achieve that type of capability increase.
    Senator Reed. Thank you, General.
    Let me ask a series of questions about the Space-Based 
Infrared System (SBIRS). From the budget documents that we have 
received so far, it appears that SBIRS Low has been transferred 
to BMDO, but the Air Force has retained SBIRS High. Does this 
separation of the two pieces of the system give you any 
concern?
    General Eberhart. Sir, at this time it does not. SBIRS High 
will replace the Defense Support Program, the DSP. So what is 
really important to me in the near term is to keep SBIRS High 
on track. We need that for missile warning. You may know from 
my written statement for the record, day in and day out job one 
for us is missile warning, and therefore SBIRS is key to job 
one. So we have to keep that on track.
    Now, as you put SBIRS Low with SBIRS High to work the 
ballistic missile defense mission, then I think it is very 
important, not that it necessarily be in the same area as we 
start working through the acquisition process, but there sure 
has to be a lot of cross-talk, because as you work the 
intercept geometry with SBIRS Low it is going to be critical 
that those two fit together, missile warning, handoff, cueing, 
as we work toward the intercept.
    Senator Reed. That is being done now through--who is the 
agency that is charged with that lashup, that linkage?
    General Eberhart. Sir, there is a group that is represented 
by the Secretary of the Air Force, the acquisition community, 
the Ballistic Missile Defense Office, and the OSD C\3\I. All of 
those stakeholders meet on a regular basis to make sure that we 
have the SBIRS and the BMDO elements all synchronized, to 
include representatives from the U.S. Space Command.
    Senator Reed. The budget request for SBIRS High research 
and development in the fiscal year 2002 budget is about $405 
million. In the fiscal year 2001 budget the request projects 
for 2002 was about $389 million. What is the cause of this $15 
million increase in funding for SBIRS High research?
    General Eberhart. Sir, I will have to provide that for the 
record.
    Senator Reed. That is fine.
    General Eberhart. I would only be guessing. I would rather 
provide it for the record.
    Senator Reed. General, if it is much more accurate and 
convenient to reply in writing in the record, that is fine.
    [The information referred to follows:]

    The request was increased by $15.3 million to reduce software 
design risk and incorporate lessons learned from SBIRS Increment 1 
development and testing. Software risks will be minimized through two 
efforts. The first effort will reduce the impact of concurrent 
development and training. The second effort will increase software 
reliability by providing additional resources to test and evaluate 
Increment 2.

    Senator Reed. The current launch schedule for SBIRS High is 
delivery of the High Earth Orbit (HEO) payload in the second 
quarter of fiscal year 2002 and the full SBIRS High will be 
operational around December 2006. The last DSP launch is slated 
for 2003. The question is what is the life of the DSP 
constellation, I guess the fallback really?
    General Eberhart. Sir, there is risk associated here that 
we have been concerned with for several years. Right now we 
think it is an acceptable risk. We look at fallbacks in terms 
of, depending on what we are going to use as a launch vehicle. 
It will be a question of which mission area that you are as 
green in as you would like to be green in.
    In terms of the strategic mission, I think that we have 
acceptable risk here. If we get any kind of slip, delay, any 
type of failure in terms of the theater or tactical mission 
area, there will be increased risk.
    Senator Reed. Now, there will be presumptively a 
concurrency between SBIRS High and Defense Support Program 
(DSP) satellites. There will be a time when you have both 
operating; that is correct?
    General Eberhart. Yes, sir, and that is one of the things 
we are working in operational test and evaluation, right now. 
As we make this marriage between legacy satellites and new 
ground equipment, between new satellites and old ground 
equipment, to make sure it all works together and all talks 
together, those are the types of things we bring out through 
test and evaluation.
    But it will be a mixed constellation, you are exactly 
right.
    Senator Reed. Just one final question. The time of SBIRS, 
how is it connected to at least discussions or plans about 
national missile defense? I mean in terms of its timing, 
whether it is a precondition or just peripheral to the other 
decisions?
    General Eberhart. Sir, there is a debate out there right 
now in terms of how essential SBIRS Low is to ballistic missile 
defense, ballistic missile defense of what I call North 
America, what we before called national missile defense. There 
is a recent report, I think an IDA report, that said that maybe 
it is not quite as necessary as we once thought.
    I think it is just a question of how sophisticated that 
incoming vehicle is in terms of decoys, what you really need in 
terms of cueing to effect this intercept. I personally remain 
convinced that SBIRS Low is a very important aspect of 
ballistic missile defense. I also believe that it will be an 
important vehicle to do other missions from when we do the 
cost-benefit analysis.
    Senator Reed. My time has expired. I would like to 
recognize that Senator Nelson of Nebraska has arrived. Senator, 
do you have an opening statement before I turn it over to 
Senator Allard?
    Senator Ben Nelson. I think I need to learn something 
before I say anything. Thank you.
    Senator Reed. Senator Allard, please.
    Senator Allard. Thank you, Mr. Chairman.
    I am going to pursue this military use of commercial space 
assets and talk about some of the space launch ranges, General 
Eberhart. So I will get right to the question. Do you believe 
the Air Force has done a good job of managing and modernizing 
and operating the space launch ranges and is there a business 
case to be made for privatizing some of these functions?
    General Eberhart. Sir, maybe I am parochial here, but I 
truly believe that the Air Force has done a good job. You can 
debate in terms of the amount of investment and the timeliness 
of the investment to recapitalize the range. I would remind 
you, who does not need to be reminded, of course, of how tight 
money has been and the tough tradeoffs involved in making that 
investment.
    But we have come a long way in terms of our range 
modernization programs. That is not to say that we do not have 
a long way to go, and we need to do that together.
    I believe that in many cases, as you well know, we have 
privatized, contracted out, many of those areas that once were 
done by blue suiters, that are done by government contractors. 
So I think that record is in fact fairly good. As you look out 
at our remote tracking sites, if you look out at the radars, 
you go to Antigua, for example, you will see one or two 
military members there and everyone else is a contractor.
    So I believe that we will continue to look for those 
opportunities where, one, they make sense financially, and, 
two, we still have the flexibility in terms of our national 
defense to do that and have the service have the capability we 
need.
    So there is no doubt that we could have done it smarter, 
quicker, but at the same time it is not easy. Very recently 
Congressman Weldon from Florida was in Cheyenne Mountain and we 
showed him the concurrency involved in the Range 
Standardization and Automation program. That makes most 
acquisition folks' heads really hurt when you look at what we 
are trying to do as quickly as we are trying to do it.
    Senator Allard. Are the commercial users of these ranges 
and what-not, do you think they are doing their fair share of 
range modernization operational costs?
    General Eberhart. Sir, part of the onus is on us in the 
United States Air Force to clearly understand the costs 
associated with a space launch, also to have built-in 
procedures and other things that make this more businesslike, 
if you will.
    At the same time, we cannot have artificial costs that 
drive up the cost of launch, because in my view, as we look at 
space launch, we want to remain a space-faring nation. We do 
not want to drive any more space launch offshore. If we do not 
have a good accounting system, if we do not have a reasonable 
cost of launch, that is exactly what we are going to do. Then 
that becomes a Catch-22 or a death spiral, if you will, because 
if you have fewer commercial launches, launches are more 
expensive for the Federal Government.
    So I believe that we need to work together. We are working 
together. We just recently had another commercial space 
industry day in Colorado Springs to discuss these very issues--
costing, billing, etc.--with the CEOs of the major industries.
    Senator Allard. What is your view of the value of 
commercial imagery?
    General Eberhart. I believe commercial imagery holds great 
promise. Obviously, it has to be timely, it has to be of the 
accuracy and the quality that we need. The fact of the matter 
is right now our appetite is a little bit bigger than what can 
be provided by commercial industry. The National Imagery and 
Mapping Agency (NIMA) is working this very hard. They have a 
commercial imagery plan that we have endorsed at U.S. Space 
Command.
    But there is no doubt in my mind in the years to come we 
will use more and more commercial imagery. The challenge, of 
course, is to in some ways curb the appetite so in many cases 
you do not need X-foot resolution to work this problem. You 
need the very definitive resolution to work PGMs, precision 
guided munitions, and target attack. You do not need it for 
other things.
    So part of the problem is to decide exactly what will 
satisfy your requirement and can the commercial industry 
provide that.
    Senator Allard. The commercial imagery business--let me 
understand your comment. You say you have so much commercial 
imagery that they cannot handle your volume, or are you saying 
that you have so much volume that you have to use the 
commercial imagery? I was not entirely clear how you posed 
that.
    General Eberhart. It is the latter, but there is a little 
bit of a twist on the latter in terms of the timeliness, the 
quality. In many cases commercial industry is not able to 
satisfy that requirement in the near term. I think over a 
longer term these are the kinds of things that NIMA is working 
very hard with our industrial partners to do.
    Senator Allard. I notice today in an article where NIMA has 
contracted with an Israeli imaging company, and the question 
that comes to mind is why are they not using one of the three 
image companies that we have here in the United States? Do you 
have any insight on that?
    General Eberhart. No, sir, I do not.
    Senator Allard. We will have to pose that to NIMA. But I 
thought since we had you here I would ask you about that.
    General Eberhart. I would not have gotten that right on 
multiple choice. I did not know about that. My belief would be 
maybe it is some other sort of a quid, but I do not know.
    Senator Allard. That is what we want to find out.
    How is my time? Is there room for another question or two?
    Senator Reed. You have perfect timing.
    Senator Allard. I did not mean to give up quite that 
easily.
    Senator Reed. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Eberhart, you have identified recruiting and 
retention as your biggest challenge. You state that both NORAD 
and U.S. SPACECOM are struggling to keep quality people you 
need to perform your critical mission. My question to you, 
which is basic, is does the fiscal year 2002 budget request 
address this challenge?
    General Eberhart. Sir, what I worry about is retaining the 
right people, because obviously that complicates the recruiting 
problem and equation. Once you train them, you want to keep 
them. The trends are in the right direction.
    I really attribute that to the types of things Congress and 
the administration have done, the last 2 years in particular, 
and what the expectations are of our force that you will do 
this year and into the future. So if the question is--and I 
know I am taking this to an extreme--will the 2002 budget fix 
all our retention problems, it will not. But I think it will 
send another strong signal that will reinforce how important 
our men and women are who serve and in turn how important their 
families are.
    So I think if we take the actions proposed in the 2002 
budget, once again we are continuing down a path that will help 
us solve this retention problem.
    It is many different things. You have been around military 
installations for years and years and you know it is not just 
pay and allowances. It is health care, it is housing, it is 
schools. It goes on and on. It is spare parts. It is how we 
treat people. So I think that in the 2002 budget, again, people 
are certainly emphasized. Our people are hoping, I would say 
expecting, that those things are enacted which will certainly 
make their lives a lot easier.
    They are never going to get rich serving this Nation in the 
military. But in many cases they have suffered, and they ought 
not suffer.
    Senator Akaka. Under the new organization, the Navy will no 
longer have final authority over some of the space acquisition 
programs, including activities which are considered to be 
unique to the Navy. It is my understanding that the Under 
Secretary of the Air Force will be the deciding authority on 
whether a project can move forward. My question is how will 
this oversight be managed? Will it be a formal process, with 
other services required to submit a proposal? What factors are 
going to be considered to determine situations where the Army 
or Navy research laboratory director's authority and discretion 
will be turned over to the Air Force Under Secretary?
    General Eberhart. Sir, at the risk of sounding like an 
alibi, I will not be directly involved in that. I will have a 
vote, but I will not be directly involved in that. That will be 
in the Pentagon. I live in Colorado Springs, and they will be 
working that with our civilian leadership.
    But I believe that in fact this will not be one person 
making this decision. He or she may have the final say, but 
this will be more of a council type arrangement, like a 
committee, where you sit around, you look at the pros and cons, 
you look at the value added, you make sure that it is 
interoperable, that it is not redundant, that it is the best 
leverage of the money available, and then you make a smart 
decision.
    So I do not see this as a stovepipe, where the Navy will 
not have a chance to make their case. I would also offer to you 
there is always a court of higher appeal, and that court of 
higher appeal will be the Deputy Secretary of Defense and the 
Secretary of Defense. So I truly believe that this is going to 
work, but the Air Force must be good stewards here. They must 
be objective, they must be fair across the board. If they are 
not, people will cry foul, will go to the Secretary of Defense, 
and then in fact the system will not work.
    But I am optimistic. I think that good people will make 
this system work.
    Senator Akaka. I was particularly interested in this 
because from what I know it is bringing about a new trend in 
the military in the space-based programs in making decisions, 
and probably--it might be something or a model that can be used 
in the military in other things.
    How am I on time? May I ask another question?
    Senator Reed. Go ahead, Senator, please.
    Senator Akaka. The Space Commission Report states, General, 
that hostile action against space systems can be confused with 
natural phenomena. Much research is being done to understand 
solar and geomagnetic activity, the signatures, and how they 
affect spacecraft. This research not only advances our 
knowledge and ability to use space, but also trains many space 
scientists.
    The other service laboratories execute space research and 
development for both military and basic applications. Secretary 
Rumsfeld's comments regarding the Army and Navy research 
laboratories mention research and development for dedicated 
military missions only.
    My question is will basic research programs which do not 
have immediate military applications be scaled back in response 
to this new policy and direction?
    General Eberhart. Sir, I must admit I am not familiar with 
the statement from the Secretary. So I will have to provide 
that for the record. But I will go on the record now and say 
that, regardless of when I was in the Air Force as a programmer 
or a warfighter in the Air Force or today as Commander in Chief 
of U.S. Space Command, when you look at your first example, 
space weather, space weather is so very important to us in 
terms of our mission, all of the missions, from missile warning 
to communications to the effect it is going to have eventually 
on the atmosphere and PGMs and on and on.
    So we are a strong proponent for investment in science and 
technology and research in terms of space weather and anything 
else that might have a spinoff that would in fact affect 
military operations. But in terms of what the Secretary said, I 
will have to go back and research that, sir, and provide it for 
the record.
    [The information referred to follows:]

    To the best of our knowledge and understanding, no basic research 
intended to meet the needs of our space missions will be diminished. We 
believe the space research base will continue to be maintained and 
expanded as needed to meet USSPACECOM requirements.

    Senator Akaka. Thank you very much, General Eberhart.
    General Eberhart. One other comment I would like to make. 
You started with an anecdote about people thinking that 
something that was wrong with the satellite was in fact caused 
by someone taking action against that satellite when it was 
actually weather or some other phenomenon. What we find in many 
exercises is just the opposite--that we will go out and do 
something and take a space capability away from them and we 
will do that sometimes in just a simulated way, but they will 
assume it was the weather or they will assume it was a failure 
of the satellite, and really we took the satellite out 
virtually speaking.
    So we have to work that both ways.
    Senator Akaka. Thank you, General.
    Thank you.
    Senator Reed. Thank you, Senator. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Good afternoon, General. General, just to pick up on 
Senator Reed's question regarding SBIRS Low, do you know the 
history or the reason why the Air Force recommended SBIRS Low 
be transferred out of Air Force and into BMDO?
    General Eberhart. Sir, I believe one of the reasons--and 
the frustration that I know that they experienced when I was 
still on the Air Staff years ago was the fact that BMDO was 
driving the requirements for SBIRS Low, and if they are driving 
the requirement but not paying the bill oftentimes people's 
requirements become a little bit greater.
    So I think that the Air Force believed that if in fact BMDO 
had responsibility for the program in terms of funding, that 
they might be a little more reasonable and pragmatic in terms 
of requirements.
    I think that is a couple years old, Senator.
    Senator Smith. It was in the authorization, the DOD 
authorization that we passed here. It was based on the 
recommendation of the Air Force, and I just wondered if you had 
any more history on that.
    On the funding of space programs, the administration has 
been pretty forward on stating that space is critical to the 
future national security needs of our country. A year or so 
ago, I think you were up here and I asked you a question about 
whether or not space programs were underfunded and I think you 
responded: ``Well, most all military programs are 
underfunded,'' or words to that effect.
    How do you feel about that now? Given the stated priorities 
of space in this administration, do you feel, without getting 
into the underfunded issue because that is pretty subjective--
but how about in relation to everything else? Is space keeping 
pace with other areas of the military budget on a priority 
level as articulated by the administration?
    General Eberhart. I believe that if we look over the last 
decade, space has not received the priority that it should have 
received. Now, maybe I have become more parochial here but, I 
think that we probably should have diverted more funds to space 
over the last decade.
    As you and I have talked, I am very optimistic, as a result 
of the Space Commission, as a result of what I have heard from 
the President and the Secretary of Defense, what I know of the 
ongoing strategic review and the QDR, that in fact space and 
information will compete very well, and we will see a boost in 
funding in those areas as we roll out the 2003 and subsequent 
budgets.
    Senator Smith. So I think it is coming, but at a pretty--
well, let us say, a methodical or a slower rate. In other 
words, as the fiscal budgets come forth in the next 3 or 4 
years you are going to see a greater emphasis coming on space?
    General Eberhart. I believe that you will see more money 
and it will not be money for studies. It will be money for 
things we know need to be done.
    Senator Smith. A short time ago NASA cancelled the X-33 
space plane program. Is there any talk in Air Force circles or 
Pentagon circles that we might want to take a look at that for 
its potential military utility, as opposed to going through 
another program, another prototype, on the so-called space 
plane? Is there any way we could take over the X-33? Would that 
work militarily?
    General Eberhart. Sir, I am on record in a letter to Dan 
Goldin asking him to work with the Air Force to keep the team 
together as we take a look at the technologies and the value 
added of continuing this program. This is complicated by a 
decision in 1994 that took the reusable launch vehicle program 
and gave that to NASA and the expendable launch vehicle program 
and made that a Department of Defense, and for all practical 
purposes, Air Force program.
    I believe that it is time now to revisit that decision 
because I truly believe in the future, as I alluded to earlier 
in my opening remarks, that if we are ever going to get to 
where we need to be in terms of affordability of space launch, 
or if we are ever going to get to where we need to be in terms 
of responsiveness of space launch, it has to be through 
reusables.
    Senator Smith. One final question. There were reports in 
the media that General Ryan and other Air Force leadership were 
``livid'' at Secretary Rumsfeld's focus on space as opposed to 
fixed wing, and the accusations were in the media that General 
Ryan and others cancelled or postponed the Schriever space war 
games out at Colorado Springs. I would like your insight on 
that as to whether or not that is accurate or whether that is 
misrepresented.
    It is a pretty dramatic comment and I know he is your 
superior officer, so I do not mean to get you into the middle 
of that. But if that is the attitude among Air Force 
leadership, it is a statement that kind of goes strongly 
against the grain of what you have been saying here today and 
what other Air Force leaders have said about the importance of 
space.
    I do not want to get you into having to comment on what 
General Ryan said or didn't say. But in terms of the whole 
attitude out at Colorado Springs and elsewhere, does this 
attitude still prevail, persist, that it is fixed wing versus 
space? Or can we reasonably expect that we could have fixed 
wing and space? I will give you an easy way out.
    General Eberhart. First of all, he is my superior officer 
with my Air Force Space Command hat on, but with my CINC hat on 
he is not. So I will answer as the CINC.
    But the answer would be the same anyway. The Chief was 
misrepresented in that article. In fact, there has been a 
retraction or a modification and a public release that says 
this is what the Chief really said or how the Chief really 
feels. The fact of the matter is, we are seeing the light at 
the end of the tunnel. It is not perceived as space versus 
fixed wing.
    I think that fixed wing operators, day in and day out, are 
understanding the importance of space in what they do and that, 
in fact, space is the future. So I see an embracing of the 
space mission and space investment much different than I did a 
year, 2 years, 5 years ago. The Chief clearly understands that.
    He didn't cancel Schriever 2002. There was again 
miscommunication. We were going to do it every 2 years. We did 
it in the first part of 2001. We are going to do it again in 
2003. There was not going to be a Schriever 2002. So it takes 2 
years to reset the deck to do it again.
    So there was a lot of inaccuracies in that article.
    Senator Smith. I know my time has expired. Just one brief 
follow-up?
    Senator Reed. Go ahead.
    Senator Smith. It is just the way the sources--they did not 
identify sources; they never do--leaks from Colorado Springs 
from the Air Force seem to be the main source of those things. 
It would just seem to me that apparently there are a few people 
in the command out there, if there is any validity to it at 
all, that felt that way or were not really focused on space. 
There might have been a little internal jealousy. I will take 
your word for it that General Ryan did not say it, but it is 
unfortunate that that kind of information comes out of the 
command.
    General Eberhart. Sir, if I could have one rebuttal there, 
I guess what I would bet personally is that it was not people 
in the command, but possibly a contractor who wanted there to 
be a Schriever 2002 so that they would get that business.
    Senator Reed. Thank you, Senator.
    General, you made reference, in response to Senator Smith, 
to a letter that you sent to NASA. Could you provide us a copy 
of that letter?
    General Eberhart. Yes, sir.
    Senator Reed. Thank you very much.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Reed. Senator Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, General. I appreciate very much your willingness 
to be here and what you are doing to organize to meet the 
challenges of growth in space as important to our national 
interests would require, and so I thank you.
    As part of a missile defense program, President Bush and 
Secretary Rumsfeld have said that they favor a multi-layered 
system including a space-based laser, which some believe could 
enable us to hit an incoming missile in the boost phase. I have 
really two questions here. One, what efforts have been made to 
assist in this development? Two, can you tell us how much money 
will be dedicated to that in fiscal year 2002?
    General Eberhart. Sir, I have it at my fingertips here 
and----
    Senator Ben Nelson. Well, just generally. It does not have 
to be specific.
    General Eberhart. In terms of space-based laser, I truly 
believe that a ballistic missile defense system should be a 
system of systems and over time, depending on what the threat 
is, the sophistication of the threat, the origins of the 
threat, and obviously our capability to counter the threat, we 
need to tie any and all capabilities to defeating that threat.
    For example, what I would love to do is bomb the missile on 
the launch pad, before they even launch it. When I say bomb it, 
I am talking about using a cruise missile or something 
conventional where I do not have to send someone in harm's way.
    Then I would like to get the missile in the ascent phase, 
because if I get it in the ascent phase, it is an easier 
problem. The missile has not yet deployed decoys. If it is a 
weapon of mass destruction, there are not several different 
targets. If there is any fallout, it is back on the enemy, the 
launch site, as opposed to anywhere else. So I would like to 
get the missile in the ascent phase.
    I believe that space-based laser, airborne laser, and Aegis 
off an enemy's coast could get a missile in the boost phase. 
All of those are things that we need to pursue, and we need to 
look at this as a system of systems. Obviously, this has to 
take into consideration any treaties or anything else that the 
Nation decides to adhere to.
    But I believe that we need to continue with concept 
development of a space-borne, space-based laser. We need to 
look for this integrated flight experiment, this IFX, and see 
what this thing really will do. I am hopeful.
    Senator Ben Nelson. Before you answer on the money side, I 
asked Secretary Rumsfeld what percentage of success, what ratio 
of success, would you expect the research and development to 
give you before you would feel comfortable in deploying the 
actual system or systems? I mean, if we are talking about 
munitions, of course, there are duds and certainly not 
everything is going to work according to the best-laid plans 
that might be put out there. But how effective does it have to 
be before you say it is worthy of spending billions, maybe 
hundreds of billions of dollars?
    General Eberhart. As we look at the operational 
requirements documents and we look at what we want to achieve, 
what we are looking for is either a 95 percent chance of a 99 
percent kill or vice versa.
    The question is whether or not you achieve that before you 
go with some initial capability or not. That is what the 
Secretary and in turn, of course, the President and Congress 
will struggle with. Obviously, those are pretty demanding 
requirements.
    Senator Ben Nelson. They are pretty big numbers to spend.
    General Eberhart. Exactly. Those are pretty demanding 
requirements. At the same time, you do not want any leakers. So 
that is one of the things we have to struggle with.
    I will provide you the exact numbers.
    Senator Ben Nelson. If you would, thank you.
    [The information referred to follows:]

    Funding requested in the fiscal year 2002 President's budget for 
the space-based laser (SBL) is $165 million. When deployed, an 
operational SBL would serve as a component of a broader Ballistic 
Missile Defense (BMD) architecture. The goal of the BMD system is a 
layered defense that will provide multiple engagement opportunities 
along the entire flight path of a ballistic missile. Individual 
elements of this Ballistic Missile Defense system would be allocated a 
portion of the overall required performance, which is yet to be 
determined.
    The development and deployment of an operational SBL require 
upfront risk reduction efforts. The key risk reduction effort is the 
SBL Integrated Flight Experiment. It will demonstrate a mega-watt class 
laser against boost phase targets and is projected for the 2012 
timeframe.

    Senator Reed. Thank you, Senator Nelson.
    Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you very much.
    General Eberhart, there was reference I believe in the 
Space Commission report that we could be heading toward a space 
Pearl Harbor. Let me just ask a real simple question. Are our 
capabilities in space that we need to assist us in military 
operations safe from attack today, and are we able to 
neutralize any enemy surveillance or space technologies that 
could advance their military objectives?
    General Eberhart. I would not say that our capabilities in 
space are safe. But I would tell you that it is a little more 
difficult to deny us those capabilities than some would lead 
you to believe, because of redundant systems. The number of 
GPSs that we have up may not give us the exact coverage we 
would like. But, to take out our entire GPS of some 24 
satellites. We have 28 up there. We cannot quite as easy as 
some would lead you to believe.
    At the same time, am I comfortable that we have things 
protected like we should? No. That is why you will see us 
propose programs to move ahead in space control. I talked about 
this in my opening statement. We have focused on force 
enhancement, but those things have become so important to us 
that now we have to think much harder about detecting those 
capabilities that you asked about.
    In terms of our capability to deny the enemy use of space, 
there are many different ways to do that, many of which are 
classified and we cannot discuss here. But I believe that we 
are headed in the right direction. I would certainly like to 
have more capabilities to deny the enemy use of space.
    Senator Sessions. As a practical matter, if we had a Gulf 
War circumstance and a Saddam Hussein had something like the 
surveillance capabilities that we have, that would complicate 
our ability to be effective and cost American lives, would it 
not?
    General Eberhart. One of the speeches that I give very 
often talks about the great victories of the latter half of the 
last century. If you move from D-Day to Inchon to 
Schwartzkopf's left hook, none of those would be possible 
today.
    Senator Sessions. They could be identified from space.
    General Eberhart. Yes, sir.
    Senator Sessions. Secretary Rumsfeld I know in his 
testimony there was some question about the tragic tragedy of 
having to take war to space, and he did not hesitate when asked 
about that. He said: We have had war on land, we have had it on 
water, we have had it in the air, and we are going to have it 
in space; we need to be able the prevail in space.
    I hope that you will be a strong voice for that capability. 
I think most American citizens believe that we are dominant in 
space, that we can maintain our capabilities and defeat enemy 
capabilities, and if we are not there yet I think, Mr. 
Chairman, we need to be sure.
    These are not technologically unachievable goals, are they? 
Is it a question of money or time or technology or what?
    General Eberhart. Philosophically speaking as a world 
citizen, an American citizen and an optimist, I would like to 
hope that we are not going to have to resort to a war in 
space--we are not going to have weapons in space. However, my 
intuition tells me that this probably will not be the case for 
the reasons the Secretary outlined.
    One of my views is that if we plan properly and are not 
surprised with a space Pearl Harbor or maybe a Sputnik 
situation again, that will go a long way towards precluding or 
at least delaying that as long as possible.
    I am charged under the unified command plan by the National 
command authorities for planning for space control and planning 
for force application. That is exactly what we are doing, 
hoping in the latter case that we will not have to resort to 
force application.
    Senator Sessions. Are there any policies within the Defense 
Department that inhibit in any way your ability to be prepared 
to defend our assets in space and to neutralize enemy assets in 
space?
    General Eberhart. Right now there are no policies in terms 
of space control that cause me a problem conducting the 
mission. There are some issues in terms of computer network 
defense, but they are more law enforcement issues that the 
Department of Defense will work with the Department of Justice 
and others to propose some legislation in terms of how we track 
back to find the origin. But there are some issues in terms of 
computer network operations that the staffs are working.
    Senator Sessions. With regard to the ballistic missile 
defense, space-based laser, the Aegis system that could 
neutralize or destroy a missile at or near launch, we need more 
research done to be able to do that. We are not capable of 
doing that readily at this time; is that correct?
    General Eberhart. Sir, back to the end of your previous 
question in another mission area, it is a question of 
technology. It is a question of dollars, and it is a question 
of test and development.
    Senator Sessions. As presently in existence, if it is in 
existence, the ABM Treaty would complicate, if not prohibit, 
the kind of testing necessary for some of these programs?
    General Eberhart. Again, I think as long as you are 
testing, in most cases you are OK. It would certainly preclude 
deployment, but I would have to let the lawyers look at that.
    Senator Sessions. You think you could do some testing, but 
not deploy?
    General Eberhart. I think so.
    Senator Sessions. There have been some suggestions to the 
contrary.
    General Eberhart. Let me provide that for the record.
    [The information referred to follows:]

    As a warfighting command, our primary focus is on the deployment 
and employment of weapons systems that have been fielded by the 
services. The services rely upon the OSD-level ABM Treaty Compliance 
Review Group (CRG) to analyze and provide guidance on each step in the 
development, testing and fielding of a particular weapon. For instance, 
the CRG annually reviews the Space-Based Laser Integrated Flight 
Experiment (IFX), which is the program's key risk reduction effort. The 
most recent review took place in January 2001. To date, the CRG has 
determined that the IFX is not mature enough to raise issues warranting 
a detailed treaty compliance review. We anticipate the detailed review 
will take place during the IFX preliminary design review currently 
scheduled in 2005.

    Senator Sessions. But in your view a serious missile 
defense system would include the capability of something like 
the space-based laser or the forward deployed ships to have an 
opportunity to destroy a missile at launch?
    General Eberhart. I say that based on a sophisticated 
larger threat than we see right now. But I see that in the 
future we would want to develop a system of systems and we 
would want to continue the technology to fully understand how 
you put that together and how you command and control and how 
that is all interoperable.
    Senator Sessions. So that would be less critical against a 
rogue state type attack than a more mature attack?
    General Eberhart. The rogue state that we see today, in my 
view will continue to develop over time and we have to have the 
ability to counter them over time. That is why you see the 
different increments in the program today and that is why you 
see people talking about having systems that would be 
interoperable.
    Senator Sessions. Thank you.
    Senator Reed. Thank you, Senator Sessions.
    It was my original intention to have a second round, but 
given the time, I would just ask if any member has a desire to 
ask one or two very pertinent questions, with the understanding 
of course that the General will respond in writing to 
questions. Senator Allard?
    Senator Allard. Yes, Mr. Chairman, I do have a number of 
questions I would like to ask. I do not know about other 
members on this side.
    Senator Reed. Go ahead.
    Senator Allard. We appreciate that.
    I am going to bring up this issue of education and training 
for network operations. What training and education shortfalls 
have you encountered due to the highly technical nature of the 
U.S. SPACECOM mission and in your view what would help or 
assist U.S. SPACECOM to develop the expertise needed for 
growing space and computer network operations missions?
    General Eberhart. I believe right now that we do a good job 
of training the individuals once they come on board. Unlike 
when I left college or left high school, they are computer 
literate. They have some understanding of computers and 
computer systems. So the problem is not so much the training in 
the technical areas, but it is more retaining them, because 
there is just such a pull out there in society for these types 
of people in industry, dot-coms, on and on.
    But we also have this need to think a little more 
sophisticated in this arena: advanced degrees, areas where we 
can pursue more of the strategic aspects of computer network 
operations, defense, information assurance, etc. So, centers of 
excellence established by industry and by academia would not 
only be valuable for the military, but would also be very 
valuable for the Nation at large.
    Senator Allard. Let me see. In Colorado Springs you have 
space Reserves component. Are they helpful?
    General Eberhart. Sir, I do not think ``helpful'' does them 
justice. We cannot do without them. It is not unique to Air 
Force Space Command--it is across the board. Whether Guard or 
Reserve, civilian or contractor partners, we just cannot do 
what we do day in and day out without them. You cannot say too 
much about them.
    Senator Allard. It does help you with the high technology? 
It helps you with the retention at least?
    General Eberhart. Yes, sir, and I am convinced it will 
increase in the future. We are seeing it at our space launch 
bases, too. At our space launch facilities we are using more 
and more Guard and Reserve to help and augment.
    Senator Allard. Mr. Chairman, I do have a couple of other 
questions.
    Senator Reed. Please.
    Senator Allard. What would be the impact of separate 
management of the NRO and your Air Force launches?
    General Eberhart. We truly believe that if we do that in 
fact it is not going to save money, it is not going to drive 
down costs, but it will do just the opposite. As you are 
probably aware, Senator Allard, the Air Force and the NRO just 
established a Memorandum of Understanding in June of this year, 
just about a month ago, which hopefully will address some of 
those issues that the Intelligence Committees and others have 
been concerned about--concerns that maybe the Air Force has 
been charging the NRO too much and it is back to the costing 
question that you referred to earlier.
    But I think we are beyond that. I think that we need to 
stay joined at the hip as we work these launch issues and work 
them together.
    Senator Allard. I would like to follow up on Senator 
Nelson's questioning about space-based radar. Have the Air 
Force and OSD decided to deploy the space-based radar?
    General Eberhart. Sir, I think there is a problem with the 
budget in terms of where some of the money is. I think it was 
in the engineering, manufacturing, and development (EMD) line 
as opposed to the research and development line. So my belief, 
my understanding and what I advocate is that we have not made a 
decision to deploy. What we have done is made a decision to 
truly realize what the value added is of such a system. Once we 
understand the cost and what the advantages are then we will 
make a decision whether or not we are going to propose a 
deployment of that system.
    But I think there is a little confusion with some of the 
budget exhibits right now.
    Senator Allard. We can clear that up, you think, in this 
budget cycle?
    General Eberhart. I think that the staffs are working to 
clear that up now, sir.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    I do not want to discourage further questioning, but 
Admiral Mies awaits his turn.
    Senator Sessions. One question.
    Senator Reed. Senator Sessions.
    Senator Sessions. I know that the Space and Missile Defense 
Command has been consolidated and everybody is good soldiers on 
that. But we really are proud of the work that they do. I guess 
my question is do you expect them to continue to play a major 
role in space activities and are there any plans to alter its 
role?
    General Eberhart. No, sir. In fact, I think that 
relationship must grow stronger every day. Part of that is 
engendered by the fact that Lt. Gen. Ed Anderson was the 
Commander of Army Space and Missile Command and is now the 
Deputy Commander in Chief out in Colorado Springs. So the 
personalities are right. With the new space complex out there, 
the part of Army Space Command that is in Colorado Springs will 
move on the base. No one is coming from Alabama, but people 
will be relocating from downtown Colorado Springs. I think that 
will be good for the relationship.
    As we move down the road in terms of ballistic missile 
defense, that relationship will grow stronger--I think all the 
signs are the right signs, and I do not anticipate any change 
other than the relationship getting stronger in the future.
    Senator Sessions. Thank you.
    Senator Reed. Thank you very much, Senator Sessions.
    Thank you, General Eberhart, for your testimony. I am sure 
our members will have additional questions, which we will 
forward to you in writing. Thank you very much, not only for 
your testimony, but also for your service to the Nation. Thank 
you, sir.
    I will now ask the second panel to join us, Admiral Mies 
and his colleagues. They should be here momentarily. [Pause.]
    Let me once again call the committee to order and welcome 
Admiral Mies, General Blaisdell, and Admiral Dwyer. Thank you 
for joining us this afternoon and thank you for your service to 
the country. We look forward to hearing from you. As you know, 
we have just listened to your colleague, General Eberhart.
    We also understand that nuclear deterrence is a critical 
aspect of our national security policy and it is an issue that 
will remain very critical to us. We also have to ensure that 
you have the support in terms of budget and authority to 
maintain adequate deterrence.
    Recently there has been a great deal of discussion on the 
number of strategic platforms and warheads that will be needed 
over time. While these discussions will be ongoing until 
completion of the nuclear posture review in December, Admiral 
Mies, we would very much like your views on the subject from 
your perspective as Commander in Chief of the Strategic 
Command. You are the individual responsible for targeting and 
planning and wartime command of these forces, so your views are 
absolutely critical to us.
    Admiral, I know you have submitted a prepared statement. 
That statement will be made part of the record. So if you would 
go ahead in either summary form or we would be honored to have 
your testimony.

  STATEMENT OF ADM. RICHARD W. MIES, USN, COMMANDER IN CHIEF, 
 U.S. STRATEGIC COMMAND; ACCOMPANIED BY MAJ. GEN. FRANKLIN J. 
 BLAISDELL, USAF, DIRECTOR, NUCLEAR AND COUNTERPROLIFERATION, 
     OFFICE OF THE DEPUTY CHIEF OF STAFF FOR AIR AND SPACE 
OPERATIONS, U.S. AIR FORCE; AND REAR ADM. DENNIS M. DWYER, USN, 
     DIRECTOR, STRATEGIC SYSTEMS PROGRAM OFFICE, U.S. NAVY

    Admiral Mies. Thank you, Senator. Mr. Chairman, Senator 
Allard, distinguished Senators: I appreciate the opportunity to 
appear before your subcommittee to testify on strategic nuclear 
force policy, force structure, and force posture.
    Before I begin, I would like to thank you and your 
subcommittee for your sustained support of our strategic 
deterrent forces and your commitment to a safe, reliable, and 
secure nuclear weapons stockpile.
    As you are well aware, President Bush reaffirmed the 
importance of our strategic deterrent forces in his recent 
remarks at the National Defense University. The proliferation 
of weapons of mass destruction and their means of delivery pose 
the greatest challenge to global stability and security and the 
greatest challenge to our strategic deterrent forces.
    With regard to that proliferation, in essence the issue may 
not be whether the weapons of mass destruction will be used 
against the West by a rogue nation or a transnational actor, 
but where and when. The post-Cold War world is a much more 
chaotic place. Strategic deterrence, which has worked well in 
the bipolar framework of the Cold War, may not work as well in 
a multi-polar world of unpredictable asymmetric threats, and in 
some cases it may fail.
    In recognition of this reality and as part of a 
comprehensive strategy to adapt our policies and forces to 
these emerging threats, the President and the Secretary of 
Defense have articulated a need to move beyond classical, 
bipolar Cold War deterrence to a more comprehensive framework 
that integrates other complementary elements of military 
strategy--elements including dissuasion, denial, and defense.
    We need an updated approach to deterrence that includes 
both offenses and defenses. Missile defense would not be a 
replacement for our assured response with our offensive forces, 
but rather an added dimension to complement our existing 
deterrent capabilities and an insurance policy against small 
scale ballistic missile attacks.
    I think you are aware that with the end of the Cold War we 
have dramatically transformed our strategic force posture. Our 
strategic forces no longer target other countries during 
peacetime operations. Our strategic bombers and their 
supporting tankers are no longer on alert. Our strategic 
submarine force, while positioned at sea for survivability, 
patrols under comparatively relaxed conditions of alert. Our 
strategic command and control aircraft no longer maintain 
continuous 24 hour a day airborne operations.
    We must be cautious, however, as we consider further 
changes in our force posture. Reducing the alert status of our 
forces, in isolation, can diminish their credibility and 
survivability. Many ``de-alerting'' proposals jeopardize the 
existing stability we have against a preemptive first strike 
because they increase our vulnerability and create a premium 
for attacking first.
    I would also like to challenge the perception that our 
forces are on ``hair trigger'' alert--a characterization that 
is routinely used to justify de-alerting proposals. Multiple, 
stringent procedural and technical safeguards have been in 
place, and will remain in place, to guard against accidental or 
inadvertent launch. Rigorous safeguards exist to ensure the 
highest levels of nuclear weapons safety, security, 
reliability, and command and control.
    Additionally, the policy of the United States is not to 
rely on ``launch on warning.'' Our trigger is built so we can 
always wait--the ``hair trigger'' characterization is 
inaccurate.
    We are presently maintaining our strategic force at the 
following START I levels: 50 Peacekeeper and 500 Minuteman III 
ICBMs; 18 Trident strategic submarines; and 76 B-52 and 21 B-2 
bombers. Today we have no new strategic forces under 
development. Therefore, as our Nation comes to rely on smaller 
strategic forces the imperative for modernizing and sustaining 
that force, becomes even more critical to ensure a continued 
viable deterrent.
    Our strategic forces today are in a period of dramatic 
transition. We have just commenced a decade-long effort to 
extend the Minuteman ICBM service life for another 20 years and 
strong congressional support of both the guidance and 
propulsion replacement programs is essential to maintain an 
effective and reliable ICBM force for the next two decades. 
Minuteman sustainment is especially important given the 
potential drawdown of the Peacekeeper ICBM force. As Secretary 
Rumsfeld recently indicated, we are in the process of preparing 
to seek congressional approval to begin Peacekeeper 
deactivation.
    Similarly, with congressional approval, we have commenced 
conversion of our strategic submarine force from an 18-boat 
force with two different missiles to a 14-boat force with a 
common Trident II missile. Again, Congress' support for the 
Trident II missile backfit program remains essential.
    Sustainment and modernization of the strategic bomber force 
is also critical to provide a force which can support our 
strategic deterrent requirements. The B-52 bomber force is 
scheduled to remain in service until 2044. As such, 
modernization and sustainment of our aging bomber force is 
critical. Upgrades to avionics, situational awareness, 
electronic countermeasure capabilities, and survivable, secure 
two-way communications are essential.
    We are also facing very similar sustainment challenges with 
our near-40-year-old KC-135 tanker force which supports our 
bombers, similar to those we face with the B-52 bomber force.
    Since the fall of the Berlin Wall, we have made great 
progress in reducing our nuclear arsenal and our associated 
infrastructure. We have reduced our strategic nuclear systems 
by over 50 percent and our non-strategic or tactical nuclear 
warheads by over 80 percent. We have reduced the number of 
people involved in our strategic forces by over one-half and 
the number of military bases supporting them by approximately 
60 percent.
    While overall defense spending in the last decade has 
declined roughly 20 percent since the end of the Cold War, 
strategic force spending has declined approximately 70 percent. 
Strategic force costs have dropped from greater than 6 percent 
of the Department of Defense spending in 1990 at the end of the 
Cold War to less than 3 percent today. That, in my mind, is a 
fairly significant Cold War ``peace dividend.'' I would 
encourage you to think of our investment in strategic force as 
a cost-effective ``premium'' on what really is our Nation's 
``ultimate insurance policy.''
    As you are aware, the President has committed to 
``achieving a credible deterrent with the lowest possible 
numbers of nuclear weapons consistent with our national 
security needs.'' I believe that the defense strategy reviews 
and the Nuclear Posture Review that the Secretary of Defense 
has undertaken, provide an opportunity to develop a coherent 
approach to achieve the President's objective: a deterrence 
strategy with lower nuclear salience, reduced warhead levels, 
and of a less adversarial character.
    These reviews and the emerging debate about further 
reductions in our nuclear forces are timely and should be 
informed by several guiding, fundamental principles:
    First, strategic force reductions must be viewed as a means 
to an end--national security--and not as an end in itself. 
Stability is the most important criterion as we assess further 
initiatives to reduce our strategic forces to the lowest levels 
consistent with our security. Deterrence ultimately depends not 
on our capability to strike first, but on the assurance that we 
always have the capability to strike second.
    Second, we need to focus more on capabilities rather than 
numbers. I think there is a naive and mistaken belief that the 
``nuclear danger'' is directly proportional to the number of 
nuclear weapons and, accordingly, lower is inevitably better. 
As we reduce our strategic forces to lower levels, numerical 
parity or numbers alone really become less and less important. 
We must preserve sufficient deterrent capability to respond to 
future challenges, to provide a cushion against imperfect 
intelligence and technological surprises, and to preserve a 
reconstitution capability as a hedge against unwelcome 
political or strategic developments.
    Finally, the third principle: Preservation of our 
capability to adapt our deterrent forces to a rapidly changing 
and unpredictable strategic future is critical. As the 
Secretary of Defense has already testified, our ability to 
predict the future is questionable, therefore, I believe that 
our ability to adapt to an uncertain future and changing 
environments will be far more important than our ability to 
prepare for a future we cannot predict.
    As we think about potential emerging threats, I believe an 
early strategist's metaphor that nuclear planners are like 
home-builders remains true today. A wise architect does not 
design only for benign environments, but for the worst weather 
conditions one can reasonably anticipate. We have to 
consistently maintain a ``building code'' for our nuclear 
forces to ensure they can ``weather'' the worst threats we can 
reasonably postulate.
    The strategy reviews we have in progress create an 
opportunity for unilateral initiatives to formulate a more 
comprehensive, coherent strategy. Such an approach would 
recognize strategic force policy as a journey rather than a 
destination, and enable us to adapt our nuclear force postures 
and our levels compatible with emerging threats and our 
national security requirements. Our Nation must always maintain 
the ability to convince potential aggressors to choose peace 
rather than war, restraint rather than escalation, and 
termination rather than conflict continuation.
    The safety, the surety, and the reliability of our 
strategic nuclear arsenal depend heavily on the Department of 
Energy's Stockpile Stewardship Program. We are pleased with the 
standup of the National Nuclear Security Administration under 
John Gordon. The organization is fostering improved morale and 
a greater sense of mission.
    Nonetheless, there is a widening gap between stockpile 
program requirements and available resources. I fully agree 
with the concerns and recommendations identified by the Chiles 
Commission, the Foster Panel, and my own Strategic Advisory 
Group. The delays in many high priority stockpile stewardship 
programs because of aging infrastructure and inadequate funding 
must be addressed with greater urgency. To this end, the need 
for an unequivocal national commitment to support the Stockpile 
Stewardship Program has never been greater.
    In closing, our strategic forces stand as America's 
``ultimate insurance policy.'' Since the end of World War II, 
the presence of nuclear weapons has had a great restraining 
effect. Nuclear weapons helped keep the Cold War cold and their 
existence is still extremely valuable in deterring crisis and 
conflict.
    U.S. Strategic Command is committed to ensuring a viable 
deterrent for the Nation, and to maintaining and strengthening 
the stability of our strategic relationships as we further 
reduce our forces. Our motto, ``Peace Is Our Profession,'' 
underscores our conviction that the costliest peace is a 
bargain compared to the least costly war.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Admiral Mies follows:]

            Prepared Statement by Adm. Richard W. Mies, USN

    Mr. Chairman, Senator Allard, distinguished senators. I appreciate 
the opportunity to appear before your subcommittee to testify on 
strategic nuclear force policy, force structure, and force posture.
    Before I begin, I would like to thank you for your sustained 
support of our strategic deterrent forces and your commitment to a 
safe, reliable, and secure nuclear weapons stockpile through the 
National Nuclear Security Administration's (NNSA) Stockpile Stewardship 
Program.

                      STRATEGIC DETERRENCE POLICY

    Deterrence of aggression and coercion remains a cornerstone of our 
national security strategy and our strategic nuclear forces serve as 
the most visible and important element of our commitment to this 
principle. President Bush reaffirmed the importance of our strategic 
deterrent forces to the security of the United States and its allies in 
his recent remarks at the National Defense University.
    Our nuclear deterrent forces are structured and postured to:

          <bullet> Deter the use of weapons of mass destruction and 
        major conventional aggression against the United States and its 
        allies
          <bullet> Reassure our allies of our extended security 
        commitments
          <bullet> Dissuade regional powers from acquiring weapons of 
        mass destruction and their means of delivery (e.g., ballistic 
        missiles)
          <bullet> Deter or control conflict escalation
          <bullet> Terminate conflict

    As outlined in our National Military Strategy, although our Nation 
is at peace and the Cold War has ended, a number of potentially serious 
threats to national security remain including regional instabilities, 
asymmetric challenges, transnational threats, and ``wild cards.'' The 
proliferation of weapons of mass destruction and their means of 
delivery pose the greatest threat to global stability and security and 
the greatest challenge to strategic deterrence. Numerous commission 
reports, including the Report of the Commission to Assess the Ballistic 
Missile Threat to the United States (Rumsfeld Report) and Combating 
Proliferation of Weapons of Mass Destruction (Deutch Commission 
Report), have highlighted the pervasive dangers of proliferation of 
weapons of mass destruction and the means of their delivery. The first 
report of the Commission on National Security (Hart-Rudman Commission) 
focused on this threat as one of its most prominent themes:

        ``America will become increasingly vulnerable to hostile 
        attack.and our military superiority will not entirely protect 
        us.'' Although, ``the United States will be both absolutely and 
        relatively stronger than any other state or combination of 
        states, we will be vulnerable to an increasing range of threats 
        against American forces and citizens overseas as well as at 
        home. States, terrorists, and other disaffected groups will 
        acquire weapons of mass destruction and mass disruption, and 
        some will use them. Americans will likely die on American soil, 
        possibly in large numbers.''

    In essence, the issue may not be whether weapons of mass 
destruction will be used against the West by a rogue nation or 
transnational actor, but where and when.
    The post-Cold War world is a more chaotic place. Strategic 
deterrence, which worked well in the bipolar framework of the Cold War, 
may not work as well in a multi-polar world of unpredictable, 
asymmetric threats, and in some cases, it may fail. How do you deter a 
threat that has no return address? How do you dissuade a threat that is 
faceless? In recognition of this reality and as part of a comprehensive 
strategy to adapt our policies and forces to these emerging threats, 
the President and Secretary of Defense have articulated a need to move 
beyond classical, bipolar Cold War deterrence--the almost exclusive 
reliance on mutual vulnerability and assured response--to a more 
comprehensive framework that integrates other complementary elements of 
military strategy--elements including dissuasion, defense, and denial.
    We need an updated approach to deterrence that includes both 
offenses and defenses. Missile defense would not be a replacement for 
an assured response but rather an added dimension to complement our 
existing deterrent capabilities and an insurance policy against a 
small-scale ballistic missile attack. It would also serve as a 
strategic element to dissuade countries from acquiring weapons of mass 
destruction and ballistic missiles.

                       STRATEGIC FORCE STRUCTURE

    To deter a broad range of threats, our national security strategy 
rests on several factors, particularly on our demonstrated will and 
capability to uphold our security commitments when they are challenged. 
Our declaratory policy communicates costs to potential adversaries and 
our warfighting capability, including a robust triad of strategic 
forces, conveys credibility across the full spectrum of conflict--
conventional to nuclear. The previous Nuclear Posture Review and 
Quadrennial Defense Review reaffirmed the wisdom of preserving the 
complementary strategic triad of land-based intercontinental ballistic 
missiles, submarine-launched ballistic missiles, and strategic bombers. 
I am confident our ongoing strategic reviews will come to similar 
conclusions.
    Each leg of the Nation's strategic triad possesses unique 
attributes that enhance deterrence and reduce risk. Intercontinental 
ballistic missiles (ICBM) provide prompt response; strategic submarines 
(SSBN) provide survivability; and bombers provide flexibility. The 
diversity of our strategic forces and the synergy created by these 
attributes are designed to complicate any adversary's offensive and 
defensive planning calculations while simultaneously providing 
protection against the failure of a single leg of the triad.
    Intercontinental ballistic missiles continue to provide a reliable, 
low cost, prompt response capability with a high readiness rate. They 
also promote stability by ensuring that a potential adversary takes 
their geographically dispersed capabilities into account if 
contemplating a disarming first strike. Without a capable ICBM force, 
the prospect of destroying a significant percentage of America's 
strategic infrastructure with a handful of weapons might be tempting to 
a potential adversary in a crisis.
    Ballistic missile submarines continue to carry the largest portion 
of our strategic nuclear deterrent force. With approximately two-thirds 
of the force at sea at any one time, the strategic submarine force is 
the most survivable leg of the triad, providing the United States with 
a powerful, assured response capability against any adversary. 
Submarines at sea are inherently survivable and hence stabilizing. 
Submarines in port, however, are more vulnerable and could offer an 
extremely lucrative target in crisis. Thus, in any foreseeable force 
structure, the United States must preserve a sufficiently large 
strategic nuclear submarine force to enable two-ocean operations with 
sufficient assets to ensure an at-sea response force capable of 
deterring any adversary in a crisis.
    Strategic bombers are the most flexible leg of our strategic 
nuclear triad. The ``man in the loop'' allows force dispersal to 
improve survivability and aircraft recall during mission execution. The 
low-observable technology of the B-2 bomber enables it to penetrate 
heavily defended areas and hold high-value targets at risk deep inside 
an adversary's territory. In contrast, the B-52 bomber can be employed 
in a standoff role using long-range cruise missiles to attack from 
outside enemy air defenses. This mixed bomber force can generate to 
alert status when necessary to deter escalation or provide assured 
response should deterrence fail.
    We are presently maintaining our strategic forces at the following 
START I levels:

          <bullet> 50 PEACEKEEPER and 500 MINUTEMAN III ICBMs
          <bullet> 18 TRIDENT SSBNs each equipped with either 24 
        TRIDENT I (C\4\) or TRIDENT II (D5) missiles
          <bullet> 76 B-52 and 21 B-2 bombers

    With no new forces in development, this triad of forces will remain 
the backbone of our Nation's strategic deterrent capability for the 
foreseeable future. As such, we must ensure these forces remain robust, 
reliable, and secure.

                        STRATEGIC FORCE POSTURE

    Our strategic forces are postured to provide an assured response 
capability to inflict unacceptable damage to a potential enemy. Our 
strategic plans provide a wide range of deliberative, preplanned 
options and adaptive planning capabilities to ensure our Nation can 
respond appropriately to any provocation rather than an ``all or 
nothing'' response. Additionally, our forces are postured such that we 
have the capability to respond promptly to any attack, while at the 
same time, not relying upon ``launch on warning'' or ``launch under 
attack.''
    With the end of the Cold War, we have dramatically transformed our 
strategic force posture. Our strategic forces no longer target other 
countries during peacetime operations. Our strategic bombers and their 
supporting tankers have not been on alert since 1991. Our strategic 
submarine force, while positioned at sea for survivability, patrols 
under comparatively relaxed alert conditions. Our strategic command and 
control aircraft no longer maintain continuous 24-hour airborne alert 
operations.
    We must be cautious, however, as we consider further changes in our 
force posture. Reducing the alert status of our forces, in isolation, 
can diminish their credibility and survivability. Many ``de-alerting'' 
proposals jeopardize the existing stability against a preemptive first 
strike because they increase our vulnerability and create a premium for 
attacking first. As Albert Wohlstetter wrote many years ago:

        ``Relaxation of tension, which everyone thinks is good, is not 
        easily distinguished from relaxing one's guard, which almost 
        everyone thinks is bad.''

    Most de-alerting proposals create an incentive to be the first to 
rearm. Like the railroad mobilization dilemma of World War I, any 
unilateral act to restore de-alerted assets, or any act which might be 
perceived as restoring de-alerted forces, creates a potential for 
instability. If a de-alerting initiative can relax tension and not 
create a perception that a strategic advantage could be gained by a 
preemptive strike, I believe our National Command Authorities would 
support it. But, in general, de-alerting initiatives should not be 
adopted unless they are stabilizing.
    I would also like to challenge the perception that our forces are 
on ``hair-trigger'' alert--a characterization routinely used to justify 
de-alerting proposals. Multiple, stringent procedural and technical 
safeguards have been in place, and will remain in place, to guard 
against accidental or inadvertent launch. Rigorous safeguards exist to 
ensure the highest levels of nuclear weapon safety, security, 
reliability, and command and control. Additionally, the policy of the 
United States is not to rely on ``launch on warning.'' As I stated 
earlier, our forces are postured such that while we have the capability 
to respond promptly to any attack, we will never need to rely upon 
``launch on warning.'' The diversity, flexibility, and survivability of 
our strategic forces and our command and control networks are designed 
to ensure we are never faced with a ``use them or lose them'' dilemma 
and we are always capable of an assured response. As Thomas Schelling 
has written:

        ``If both sides have weapons that need not go first to avoid 
        their own destruction so that neither side can gain great 
        advantage in jumping the gun and each is aware the other 
        cannot, it will be a good deal harder to get a war started. 
        Both sides can afford the rule: when in doubt, wait.''

    Our trigger is built so we can always wait--the ``hair-trigger'' 
characterization is inaccurate.

             STRATEGIC FORCE MODERNIZATION AND SUSTAINMENT

    Today we have no new strategic systems under development. With the 
exception of the TRIDENT II (D5) missile, which is still in low-rate 
production, the United States has in-hand all of its major strategic 
systems. Therefore, as our Nation comes to rely on a smaller strategic 
force, the imperative for modernizing and sustaining that force becomes 
even more critical to ensure a continued viable deterrent. Since we 
must maintain these existing systems for the foreseeable future, it is 
also crucial to sustain the industrial base that provides key 
components and systems unique to our strategic forces.
    Our strategic forces are in a period of dramatic transition. We 
have commenced a decade-long effort to extend the MINUTEMAN III ICBM 
force's service life for another 20 years. Replacement of aging 
guidance units and the aging propellant for the MINUTEMAN III boosters 
is in progress. Strong congressional support of the guidance and 
propulsion replacement programs for the MINUTEMAN III ICBM is essential 
to ensure an effective and reliable ICBM force for the next two 
decades. MINUTEMAN sustainment is especially important given the 
potential drawdown of the PEACEKEEPER ICBM. As Secretary Rumsfeld 
recently indicated, we will likely seek congressional approval to begin 
PEACEKEEPER deactivation.
    Similarly, with congressional approval, we have commenced the 
conversion of our strategic submarine force from an 18 SSBN force with 
two different missiles to a 14 boat common missile force. At present 
two Pacific SSBNs are in a shipyard for missile conversion. We 
anticipate having a TRIDENT II (D5) missile capability in the Pacific 
beginning in fiscal year 2003. Congress' continued support for the 
TRIDENT II (D5) missile backfit program remains essential. The TRIDENT 
I (C\4\) missile is already beyond its design service life and will be 
sustainable only at substantial cost. Backfit of four submarines to 
carry the TRIDENT II (D5) missile is the most cost-effective means to 
ensure a reliable sea-based deterrent well into the 21st century. In my 
estimation, a modernized 14 SSBN, all TRIDENT II (D5) missile force is 
in many ways a more robust, credible, and reliable deterrent than the 
present 18-boat force. I anticipate we will remove four submarines from 
strategic service beginning in fiscal year 2003.
    Sustainment and modernization of the strategic bomber force is also 
critical to provide a force which can support our strategic deterrent 
requirements as well as the conventional needs of our theater 
commanders. The Air Force is planning to retain the B-52 bomber force 
in service until 2044; consequently, no replacement strategic bombers 
are on the drawing board. As such, modernization and sustainment of our 
aging bomber force is critical. Upgrades to avionics, situational 
awareness, electronic countermeasure capabilities, and survivable, 
secure two-way communications are essential. Not only is it important 
to continue to sustain our bomber forces, but life extension programs 
for our cruise missiles are equally vital. We have worked closely with 
the Air Force to develop a long-range bomber roadmap to meet these 
objectives.
    Vital to all of our flying operations are the tanker aircraft that 
support strategic operations--nearly 75 percent of which are flown by 
Air National Guard and Reserve. As CINCTRANSCOM, General Robertson 
recently testified the Air Force is facing sustainment challenges with 
the near 40-year-old KC-135 fleet similar to those it faces with the 
aging B-52 bomber force. We greatly appreciate the Air Force's many 
ongoing and planned initiatives to sustain our aging tanker force.
    Finally, I would like to address what I call the unheralded 
``fourth leg'' of the Nation's strategic ``quadrad.'' This fourth leg 
is comprised of two key components--intelligence, surveillance and 
reconnaissance (ISR) assets and strategic command, control, 
communications, and computer systems (C\4\).
    Deterrence starts with our intelligence capabilities and USSTRATCOM 
relies heavily on the national intelligence architecture to support our 
deliberative and adaptive planning missions. Emerging threats such as 
strategic relocatable missiles and hard and deeply buried facilities 
demand robust intelligence support. Ongoing and future programs and 
technology developments are critical to delivering time-sensitive 
information to decision-makers and warfighters. Examples include:

          <bullet> A modernized tasking, processing, exploitation, and 
        dissemination (TPED) infrastructure to accommodate the 
        increased volume and types of data from the intelligence 
        community's Future Imagery Architecture (FIA) and Integrated 
        Overhead SIGINT Architecture (IOSA)
          <bullet> An enduring ground infrastructure for our space-
        based intelligence collection systems to protect against 
        information outages due to single points of failure
          <bullet> A revitalized intelligence workforce supported by 
        technologically innovative tools, such as automated target 
        recognition and the Joint Intelligence Virtual Architecture 
        suite of tools
          <bullet> The Space-Based Infrared System (SBIRS) to ensure 
        tactical warning and attack characterization
          <bullet> The Nuclear Detonation Detection System to assess 
        battle damage and effectiveness of our strikes and support 
        treaty monitoring

    Our deterrent strategy is premised not only upon the National 
Command Authorities maintaining an appropriate level of global 
awareness but also an assured and survivable command and control system 
capable of directing our strategic forces during all phases of 
conflict--nuclear and conventional. These capabilities can only be 
provided by a C\4\ISR architecture that is both flexible and robust. 
Certain programs are indispensable toward providing this capability:

          <bullet> Advanced Extremely High Frequency (AEHF) satellites 
        and terminals to provide survivable communications from the NCA 
        to both tactical and strategic forces
          <bullet> E-4 National Airborne Operations Center upgrades and 
        modernization--necessary to provide a reliable alternate to the 
        National Military Command Center
          <bullet> E-6 Airborne Command Post sustainment program to 
        ensure a survivable link to our nuclear forces

    This ``fourth leg'' provides the enablers that make the other three 
legs an effective deterrent and warfighting force. It is critical that 
these systems, as well as their associated infrastructure, are 
adequately funded to ensure our capabilities are maintained.

                       STRATEGIC FORCE REDUCTIONS

    From an historical perspective, the end of the Cold War has brought 
dramatic change to our strategic forces. Since the fall of the Berlin 
Wall, we have made great progress in reducing our nuclear arsenal and 
associated infrastructure. We have:

          <bullet> Curtailed production of our most modern bomber (B-2) 
        and ICBM (PEACEKEEPER)
          <bullet> Stopped development of land-based mobile missiles--
        PEACEKEEPER rail-garrison and small ICBM road-mobile programs
          <bullet> Capped production of sea-launched ballistic missile 
        warheads (W-88)
          <bullet> Removed all sea-launched nuclear cruise missiles 
        from ships and submarines
          <bullet> Removed all bombers from day-to-day alert
          <bullet> Reduced the number of command and control aircraft 
        from 59 to 20
          <bullet> Terminated the Ground Wave Emergency Network
          <bullet> Converted the B-1 bomber to conventional-only use
          <bullet> Eliminated the MINUTEMAN II ICBM force
          <bullet> Eliminated all nuclear short range attack missiles 
        from the bomber force
          <bullet> Eliminated all ground-launched intermediate- and 
        short-range nuclear weapons
          <bullet> Halted underground nuclear testing
          <bullet> Closed major portions of our nuclear weapons 
        production complex (Mound, Pinella, Rocky Flats)

    All these changes reflect a consistent trend toward reduced 
reliance on strategic systems. Since the end of the Cold War, we have 
reduced our strategic nuclear systems by over 50 percent and non-
strategic nuclear warheads by over 80 percent. We have reduced the 
number of people involved in our strategic forces by over one-half and 
the number of military bases supporting them by approximately 60 
percent. While overall defense spending has declined roughly 20 percent 
since the end of the Cold War, strategic force spending has declined 
approximately 70 percent; as a consequence, strategic force costs have 
dropped from 6.3 percent of Department of Defense total obligation 
authority in 1990 to less than 2.2 percent for fiscal year 2000. That, 
in my mind, is a fairly significant Cold War ``peace dividend'' and a 
cost-effective ``premium'' on our Nation's ``ultimate insurance 
policy.''
    Cooperative threat reduction, arms control, Presidential 
initiatives, and numerous confidence-building measures have also 
brought about many positive developments in the strategic postures of 
the U.S. and Russia. These changes reflect a new, constructive 
relationship between our nations--a relationship in which stability is 
a central consideration. As the President and Secretary of Defense have 
indicated, Russia is not our strategic adversary and we seek an 
improved relationship based on common responsibilities and common 
interests.

             STRATEGIC DEFENSE AND NUCLEAR POSTURE REVIEWS

    The President has committed to ``achieving a credible deterrent 
with the lowest possible numbers of nuclear weapons consistent with our 
national security needs including our obligations to our allies.'' I 
believe the defense strategy reviews and the Nuclear Posture Review the 
Secretary of Defense has undertaken provide an opportunity to develop a 
coherent strategy-based approach to future force structure, 
capabilities, and posture which will achieve the President's 
objective--a deterrent strategy with lower nuclear salience, reduced 
warhead numbers, and less adversarial character. These reviews and the 
emerging debate about further reductions in our nuclear forces are 
timely and should be informed by several guiding, fundamental 
principles: First, strategic force reductions must be viewed as means 
to an end--national security--not as an end in itself. As articulated 
by both a former National Security Advisor and a former Special 
Assistant to the President on Arms Control:

          ``We should focus on measures which directly and demonstrably 
        enhance stability and reduce the risks of war. Given present 
        circumstances in Russia, for example, this principle suggests 
        that rather than spending our energies on radical cuts in our 
        respective nuclear arsenals, we should be concentrating our 
        efforts on strengthening the security and safety of Russian 
        weapons and enhancing the integrity of the Russian command and 
        control system.''

    Stability is the most important criterion as we assess further 
initiatives to reduce our strategic forces to the lowest levels 
consistent with national security. As Thomas Schelling has written:

          ``The dimension of `strength' is an important one, but so is 
        the dimension of `stability'--the assurance against being 
        caught by surprise, the safety in waiting, the absence of a 
        premium on jumping the gun.'' Deterrence ultimately depends not 
        on our capability to strike first but on the assurance that we 
        always have a capability to strike second.

    Second, we need to focus more on capabilities rather than numbers. 
There is a naive and mistaken belief that the ``nuclear danger'' is 
directly proportional to the number of nuclear weapons and, 
accordingly, lower is inevitably better. As we reduce our strategic 
forces to lower levels, numerical parity or numbers alone become less 
and less important--issues such as transparency, irreversibility, 
production capacity, aggregate warhead inventories, and verifiability 
become more and more significant. It is ultimately the character and 
the posture of our strategic forces--characteristics like assured 
command and control, survivability, and reliability--more than their 
numbers alone that make the strategic environment stable or unstable. 
Additionally, there is a tyranny in very deep numerical reductions that 
inhibits flexibility and induces instability in certain situations. We 
must preserve sufficient deterrent capability to respond to future 
challenges, to provide a cushion against imperfect intelligence and 
surprises, and to preserve a reconstitution capability as a hedge 
against unwelcome political or strategic developments. As articulated 
by the two former Presidential advisors,

          ``Given the clear risks and the elusive benefits inherent in 
        additional deep cuts, the burden of proof should be on those 
        who advocate such reductions to demonstrate exactly how and why 
        such cuts would serve to enhance U.S. security.''

    Third, preservation of our capability to adapt our deterrent forces 
to a rapidly changing and unpredictable strategic future is critical. 
As the Secretary of Defense has testified, our ability to predict the 
future is questionable; therefore, I believe our ability to adapt to an 
uncertain future and changing environments will be far more important 
than our ability to prepare for what we can't predict. As a noted 
historian has stated, ``It is less important for armies to predict the 
future than it is to adapt quickly when it arrives.'' Because our 
weapons were designed primarily to counter a large-scale attack from 
the former Soviet Union, we need to think about how we should adapt our 
existing capabilities to keep them credible against emerging threats. 
Because of the diversity and uncertainty of the threat, we need forces 
which are capabilities-based and effects-based rather than purely 
threat-based. Otherwise we run the risk of being self-deterred--of 
sustaining weapons irrelevant to the threats at hand. As we think about 
the potential emerging threats we might need to deter, I believe an 
early strategist's metaphor that nuclear planners are like homebuilders 
remains true today. A wise architect doesn't design only for benign 
environments but for the worst weather conditions that one can 
reasonably anticipate: hurricanes, earthquakes, floods and the like. We 
have to consistently maintain a ``building code'' for our nuclear 
forces to ensure they can ``weather'' the most stressed environments. 
As we look to further reductions, we need to maintain our strategic 
deterrent force structure with the wise architect's prudent design 
criterion in mind--our force structure needs to be robust, flexible, 
and credible enough to meet the worst threats we can reasonably 
postulate.
    These principles weigh heavily against continuing the traditional, 
bilateral, Cold War approach to arms control. The strategy reviews in 
progress create an opportunity for unilateral initiatives to formulate 
a more comprehensive, coherent strategy which focuses not just on 
numerical reductions but on broader issues, such as:

          <bullet> Confidence building and threat reduction measures 
        which enhance stability and predictability
          <bullet> The implications of deploying strategic defensive 
        systems
          <bullet> The impact of reductions on our extended deterrence 
        security commitments to our allies
          <bullet> Multi-polar stability and the relationship of third 
        party nuclear weapon stockpiles
          <bullet> Increased stockpile transparency including greater 
        accountability for asymmetries in non-strategic nuclear 
        warheads and nuclear weapon production capacities.

    I believe the approach outlined in the National Institute for 
Public Policy study, Rationale and Requirements for U.S. Nuclear Forces 
and Arms Control, is a good blueprint to adopt. Such an approach would 
recognize strategic force policy as a journey rather than a destination 
and enable us to adapt our nuclear force postures and levels compatible 
with emerging threats and national security requirements. Our Nation 
must always maintain the ability to convince potential aggressors to 
choose peace rather than war, restraint rather than escalation, and 
termination rather than conflict continuation.

      NUCLEAR COMMAND AND CONTROL SYSTEM (NCCS) END-TO-END REVIEW

    With Secretary of Defense approval, we have convened an independent 
end-to-end review of the NCCS under a Federal advisory committee headed 
by General Brent Scowcroft. The review will focus on safety, security, 
and surety issues that transcend strategic force size, structure, and 
strategy. Our goal is to assess the effectiveness of the present and 
projected NCCS capabilities to provide the President with an assured, 
responsive, survivable, and flexible capability to exercise command and 
control of strategic forces through the spectrum of conflict while 
simultaneously ensuring against unauthorized or inadvertent use.

                     STOCKPILE STEWARDSHIP PROGRAM

    The safety, surety, and reliability of our strategic nuclear 
arsenal depend heavily on the strength of the Department of Energy's 
(DOE) Stockpile Stewardship Program. We are pleased with the standup of 
the National Nuclear Security Administration under John Gordon. The 
organization is fostering improved morale and a greater sense of 
mission. Work within NNSA has begun on a multiyear planning, 
programming, and budgeting process. The ongoing refurbishment of the 
W87 warhead has marked an important technical milestone for 
stewardship, as it is the first major refurbishment of a nuclear 
warhead in over a decade. Approval has also been given for several 
critical warhead life extension programs--the B61, the W76, and the 
W80. Together these four systems will comprise a significant portion of 
our country's enduring nuclear stockpile.
    Nonetheless, there is a widening gap between stockpile program 
requirements and available resources. I fully agree with the concerns 
and recommendations identified by the Commission on Maintaining U.S. 
Nuclear Weapons Expertise (Admiral Chiles Commission), the Panel to 
assess the Reliability, Safety and Security of the U.S. Nuclear 
Stockpile (Foster Panel), and my own Strategic Advisory Group, which 
plays an instrumental role in the annual assessment of our nuclear 
weapon stockpile. The delays in many high-priority stockpile 
stewardship programs because of aging infrastructure and inadequate 
funding must be addressed with greater urgency. Increased design work 
must be undertaken to recruit, train, and retain the next generation of 
nuclear weapon design experts. We must realize that a robust, agile, 
and flexible nuclear weapons complex--infrastructure and people to 
research, design, develop and manufacture or refurbish nuclear weapons 
as necessary--provides us with the ability to respond to a changing 
national security environment and is itself a deterrent which 
complements our military forces. To this end, the need for an 
unequivocal national commitment to support both NNSA's Stockpile 
Stewardship Program and DOD's Nuclear Mission Management Plan has never 
been greater.

                                SUMMARY

    In closing, our strategic forces stand as America's ``ultimate 
insurance policy''--a cost effective force which is the underpinning of 
our National Security Strategy. Since the end of World War II, the 
presence of nuclear weapons has had a great restraining effect. Nuclear 
weapons helped keep the Cold War cold and their existence is still 
extremely valuable in deterring crisis and conflict. As Sir Michael 
Quinlan has stated:

          ``The absence of war between advanced states is a key 
        success. We must seek to perpetuate it. Weapons are 
        instrumental and secondary; the basic aim is to avoid war. 
        Better a world with nuclear weapons but no major war than one 
        with major war but no nuclear weapons.''

    Strategic deterrence will be a fundamental pillar of our national 
security for the foreseeable future. Short of universal brain surgery, 
the design of nuclear weapons cannot be disinvented or erased from 
memory. U.S. Strategic Command is committed to ensuring a viable 
deterrent for the Nation, and to maintaining and strengthening the 
stability of our strategic relationships as we further reduce our 
forces. Our motto, ``Peace is our profession,'' underscores our 
conviction that the costliest peace is a bargain compared to the least 
costly war. Thank you very much. I look forward to your questions.

    Senator Reed. Thank you very much, Admiral, for your 
comprehensive statement.
    General Blaisdell or Admiral Dwyer, do you have statements 
that you would like to make at this time?
    General Blaisdell. No, sir. It is a pleasure to be here to 
support Admiral Mies and answer questions for this panel.
    Senator Reed. Thank you, sir.
    Admiral Dwyer. No, sir. It is also a pleasure to be here.
    Senator Reed. Thank you very much.
    Let me start off with a round of 7 minutes and then, since 
there are just 3 of us here, in the end we will do as we did 
before, simply solicit questions if you have questions.
    Admiral Mies, you have clearly indicated the importance of 
the ongoing Nuclear Posture Review. Essentially, the review 
will try to determine a relationship between policy and force 
structure, and part of the policy determination must include 
who are we deterring, how do we make selections of targets to 
deter nation states, and also grasping the overall policy of 
deterrence that has been effective so far.
    Could you give us some insights into how you see the 
Nuclear Posture Review going forward to determine appropriate 
nuclear force structure?
    Admiral Mies. Yes, sir. I think you have captured the heart 
of the issue in the sense that to some degree as we think about 
our deterrent strategy and our ultimate force structure it 
starts really with strategy and any approach we take to force 
structure decisions to a certain degree needs to be driven by 
an overall strategy-based approach.
    The strategy involves not only what countries you want to 
deter, but then a determination to some degree, of what your 
potential adversaries value, and that certainly can vary from 
potential adversary to potential adversary. That, to a certain 
degree, then drives a targeting policy of what kind of targets 
should you hold at risk for a given adversary. Then the 
capabilities required to hold that target at risk ultimately 
drive you to what kind of forces you need and in what kind of 
numbers you need them.
    Inevitably, as you go through that chain from strategy to 
targeting policy to force structure, you are doing risk 
assessment as well, with due regard to what is acceptable risk 
versus unacceptable risk as you make those considerations.
    The Nuclear Posture Review and the terms of reference, 
while we have yet to approve a phased approach, we are already 
beginning the initial phase, which is the near-term phase of 
looking at a number of potential force reductions we can take 
within the existing strategy--reductions that don't require a 
dramatic strategy change.
    Those near-term potential force reductions are also 
important because they have some near-term budget implications 
and, therefore, it is important we address them as rapidly as 
possible. That analysis is presently underway and we are hoping 
to complete it by the end of July, the end of this month, or 
August at the latest. We will make a presentation to the Joint 
Chiefs and the Secretary of Defense and his staff.
    The second phase involves a more comprehensive look at 
strategy and strategy changes as we continue to evolve our 
deterrent planning, and that is intended to really begin after 
the first phase and really culminate some time around the 
November-December time frame.
    Then there is a longer phase which is a more futuristic 
look at where we possibly think we need to be as we think about 
adapting our forces and about the aging of our forces well into 
the future. That is a project that will probably go on into the 
spring.
    But that is the general approach we are taking and we are 
certainly desirous of completing the initial report to Congress 
to support your request.
    Senator Reed. Thank you, Admiral. In listening to your 
response, it does not appear that in the short- or even the 
intermediate-run your analysis is conditioned upon deployment 
of a national missile defense. Rather, it seems that your 
analysis is based upon potential threats and sufficient nuclear 
forces to destroy those. Is that fair?
    Admiral Mies. That is a very fair characterization and I 
think an important point to make, because, as I indicated in my 
oral statement and also in my written submitted testimony, 
missile defenses are not really a replacement for our strategic 
offensive forces. They are a complement to those forces. 
Defenses are designed only to protect us against a relatively 
small-scale attack. They will never be able, as presently 
envisioned, to handle the large-scale kinds of attack which our 
offensive forces are intended to deter.
    So, it is important from our standpoint that we not 
necessarily look at the defenses as being a replacement, but we 
look at them as a complement. I would also say that as we think 
about making reductions, therefore, we are not looking at the 
effectiveness of the defenses as much as we are trying to make 
reductions because we have excess force capacity that we do not 
require to meet the objectives of our deterrent strategy.
    Senator Reed. Thank you.
    One other area you have emphasized consistently in your 
testimony is the notion of strategic stability. You talked 
about those advocates for de-alerting our systems and cautioned 
that you have to be careful to look carefully to see what, not 
the immediate effect, but the ripple effect, in terms of 
strategic stability.
    This aspect has also been brought up by people who have 
questioned the deployment of the national missile defense, 
saying that such a deployment might be destabilizing, not 
perhaps giving an incentive to strike first, but giving a real 
incentive to increase the number of warheads that an adversary 
might have and, perhaps ironically, reverse what you are doing 
right now in terms of being able to scale down our forces.
    But just as a general principle, I presume you would adhere 
to the notion that strategic stability has to be considered as 
part of any decision with respect to both the nuclear forces 
and a missile defense system?
    Admiral Mies. Certainly. I mean, in the end stability and 
national security are the objectives we are striving to achieve 
and that is the principal goal. So just like our strategic 
forces, stability and its impact on our national security is 
important in any consideration of defenses as well.
    Senator Reed. Thank you very much.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you.
    I had an opportunity to visit F. E. Warren Air Force Base 
and visited both the Minuteman and the Peacekeeper silos and 
talked with the individuals out there that are operating those 
systems. There is a good deal of frustration as far as the 
Peacekeeper is concerned because you have it in a system of 
limbo between the START II Treaty and what we passed in 
Congress as far as prohibiting retirement of strategic nuclear 
delivery vehicles. Basically, we have been in a hold-steady 
mode with no sustainment plan out in the future.
    Do you support the repeal of the limit on retirement of 
strategic nuclear delivery vehicles?
    Admiral Mies. I am going to give you a qualified answer on 
that, in the sense that I think we could live with the language 
as it is and we certainly could comply with the existing 
language. We could conduct our business without any significant 
problems and conduct the force reductions we are contemplating 
or envision with congressional approval.
    In principle, I would support the repeal of the language 
because I think the language in a certain way creates or 
fosters an atmosphere of distrust, which I think does not 
necessarily contribute to a healthy dialogue and relationship 
between the administration and Congress. To that degree, I 
would support repeal of the language. But I do not think the 
language will preclude us from doing the force reductions we 
feel are necessary as we complete the Nuclear Posture Review.
    Senator Allard. In talking out in the field with the 
individuals who are operating the systems, they all agree 
pretty much that the Peacekeeper is the more modern of the 
systems. So the question that comes to mind is would the 
retirement of the Peacekeeper have a significant impact on the 
ability of the United States to deter its adversaries?
    Admiral Mies. Senator, Peacekeeper was one of the systems 
that was intended to be inactivated if START II ever entered 
into force as part of the agreement with the Russians that we 
would de-MIRV or bring our ICBM force down to single warhead 
ICBMs because multiple warhead ICBMs were perceived as the most 
destabilizing of the existing weapons. Therefore, the 
elimination of that class of weapons, MIRV'ed ICBMs, would 
contribute to stability on both sides.
    In anticipation of START II entering into force, we have 
always had plans to prepare to inactivate Peacekeeper should 
that ever happen. We have been in a situation where we have 
only had single-year funding for the Peacekeeper ICBM, I 
believe, since 1996, and we have never had either multi-year 
funding to sustain or retain Peacekeeper or funding to 
inactivate Peacekeeper. In essence, we had less funding than if 
we had made a decision to go either way.
    So it has not been a good situation. I believe, 
particularly with the new administration and their desire to 
move in unilateral directions, that we really have an 
opportunity to make the fundamental decision with regard to 
Peacekeeper. I think as long as we do a phased inactivation, 
our preliminary analysis, which still requires the Secretary of 
Defense's approval, seems to indicate that we do not require 
Peacekeeper and that a phased inactivation would be acceptable, 
as long as we do it in a deliberate and phased manner to 
support the Air Force's needs.
    Senator Allard. One of the comments I have, they just need 
a decision out there.
    Admiral Mies. Yes, sir. Part of that is we have to come 
back to you and seek your approval to inactivate Peacekeeper, 
and I think we are fully preparing to do that as part of the 
Nuclear Posture Review process.
    Senator Allard. Going on to that Nuclear Posture Review 
process, it is not completed and I realize that, but can you 
share any general views on the appropriate level for U.S. 
nuclear forces and the lowest level that would be consistent 
with U.S. security?
    Admiral Mies. I think it is premature to speculate on that, 
Senator. It also harkens back to the second principle I 
mentioned in my opening statement. I really do not think we 
should be focusing or fixated on numbers as much as we ought to 
focus on capabilities. The numbers that are frequently thrown 
around are numbers that really exclude a whole category of 
nuclear weapons. They ignore non-strategic nuclear weapons and 
they focus only on those strategic nuclear weapons that fall 
under the START accountability rules.
    They really do not focus on warheads, in essence. They 
focus on launchers attributed to carry a certain number of 
warheads. So, I think it is much more important to not focus on 
numbers and really focus on capabilities and how those 
capabilities affect stability and security, because I think the 
numbers can be very misleading and it is naive to just approach 
it from a numerical standpoint.
    Senator Allard. I want to change to a different subject 
here now and talk a little bit about the Trident II D5 missile 
program.
    Admiral Mies. Yes, sir.
    Senator Allard. Now, the fiscal year 2002 budget requests 
to begin the service life extension program, SLEP, for the 
Trident II D5 missile program. The SLEP will include upgrades 
for D5 guidance systems, missile electronics, and replacement 
of rocket motors.
    Apparently the new production of rocket motors is scheduled 
to end in 2002, this year, but there is no production of rocket 
motors for the SLEP that is scheduled out in the future years. 
So we must be going into a gap here of several years, a path 
that could increase costs and technical risks. How high a 
priority is the D5 SLEP?
    Senator Reed. Also it raises an industrial base issue as to 
whether you will have the contractors out there in a few years.
    Admiral Mies. Yes, sir, very much. This is a very high 
priority issue with us. The transition from an 18-boat force 
with 2-missiles--the first 8 Trident submarines with the older 
Trident I missiles in the Pacific right now, and the 10 newer 
boats with the Trident II missile in the Atlantic--to a 
modernized 14 boat force with a common Trident II missile is a 
very important issue for us. I feel very strongly that it makes 
great cost-effective, economic sense to complete the transition 
to a 14-boat force with a common missile, the Trident II 
missile rather than extending the life of the C\4\ missile, 
which is really near the end of its design life and cannot be 
extended without substantial cost.
    The other factor that really plays in this is we have 
extended the life of the Trident submarine from 30 years to 44 
years. That 14-year life extension in the Trident submarine 
will save the American taxpayer about $25 billion. But the 
problem we have as a result of that life extension is the 
missile. The Trident II missile does not have an equivalent 44-
year life and, therefore, it is important ultimately to buy 
additional missiles as the older Trident II missiles will begin 
to age-out as we look to the future.
    So the production of rocket motors is a very important 
issue. The Navy has made a tentative decision which will be 
reviewed during the next budget cycle for the fiscal year 2003 
and out-year budgets, to break the production line and then 
resume the production line at some future time.
    I have expressed my concern about this tentative decision 
to the Navy because I am concerned about the technological 
risks and the restart risks associated with that production 
line breakage. That is an above-core issue that the Navy, I 
think, is committed to addressing with us.
    I would ask Admiral Dwyer if he wants to amplify or clarify 
anything I have said.
    Admiral Dwyer. Senator, what you see in the fiscal year 
2002 budget is the first year of continuation of critical 
components for the D5 missile. So that would continue the 
production line for components that have key processes or 
technologies or facilities that we could not recover from if 
they broke. So we have that funded in 2002.
    The future for 2003 and beyond is under review in the Navy 
right now to see what that program entails.
    Senator Reed. Thank you very much.
    Senator Allard. My time is expired, Mr. Chairman.
    Senator Reed. Senator Sessions.
    Senator Sessions. Thank you.
    Admiral Mies, do you consider the nuclear deterrent the 
ultimate insurance policy?
    Admiral Mies. Yes, sir.
    Senator Sessions. So apparently you believe that we can 
still draw down some and still have all the insurance we need. 
Would you just give some general comment on what kind of 
drawdown is still possible without undermining our basic 
deterrence? I know you shared the view that if you are not on 
alert you are more vulnerable to attack and other things. But 
where are we there?
    Admiral Mies. Clearly in the ICBM force we are committed to 
modernizing our Minuteman ICBMs which will be the centerpiece 
of our ICBM force for the next 2 decades.
    Senator Sessions. Is that on track?
    Admiral Mies. Yes, sir, it currently is on track. The key 
elements are the guidance replacement program, which is really 
the centerpiece, and then the propulsion replacement program, 
essentially putting new propellant in all of the Minuteman III 
boosters, and that program is also on track.
    Our current plans are to take the modernized warhead, the 
W87 warhead, that exists on the Peacekeeper system and 
ultimately transition that warhead over to the Minuteman system 
to replace the aging W62 warheads which exist on the Minuteman 
system today. The Minuteman system currently has two warheads, 
the W62, one of our oldest warheads in the stockpile, and the 
W78.
    The W62 reaches the end of its life in about the 2009 time 
frame. So we are committed, whether we retain Peacekeeper or 
whether we inactivate Peacekeeper, to ultimately move a number 
of W87 warheads over to the Minuteman force to ultimately 
replace the existing W62 warheads on that force and avoid a 
very expensive life extension program on the W62.
    We feel comfortable proceeding in that direction. So again, 
I think the elements we are looking at in the near term are 
standing down the Peacekeeper force and transitioning those 
warheads over to the Minuteman force. That cannot occur until 
about 2006 because of the programmatic constraints in designing 
a new bulkhead that will support that warhead. Again, that is 
all funded and planned.
    Then part of that transition as we look to the Minuteman 
force of the future is warhead loading: How comfortable do we 
feel maintaining existing warhead loading or gradually bringing 
the warhead loading down, conceivably to a single warhead? That 
is part of the Nuclear Posture Review.
    Senator Sessions. Warhead loading?
    Admiral Mies. The Minuteman III has multiple warheads and 
it conceivably can be reduced to a single warhead ICBM. So one 
of the considerations we are looking at is to what level would 
we want to do that and how would we phase that drawdown. That 
is the picture for the ICBM force.
    Senator Sessions. Are there cost savings in that?
    Admiral Mies. No, sir, there are no significant cost 
savings in that. It would purely be a drawdown that would give 
us capabilities at the lowest level possible consistent with 
our national security means, as the President has expressed. In 
general, there are no significant savings in the near term 
nuclear force reductions. If anything, like Peacekeeper, there 
are only additional costs to be paid to inactivate the systems. 
In this case, in de-MIRV'ing the ICBM force, the costs would 
not be as significant as inactivating an entire system.
    With respect to the submarine force, we have already begun 
to transition to go from an 18-boat mixed missile force to the 
14-boat common missile force. As we look at the 14-boat force, 
the missiles have multiple warheads and so part of the Nuclear 
Posture Review is to look at warhead loading and whether we 
should reduce warhead loading.
    Senator Sessions. Why would you do that? It seems you would 
have less missiles with a multiple warhead.
    Admiral Mies. You would have the same number of missiles 
with fewer warheads. To some degree, it depends on the kind of 
threats you are trying to deter. In certain scenarios, a 
multiple warhead missile is not a very attractive capability 
because you have warheads that you literally do not need in 
certain situation.
    Senator Sessions. It could not be as narrowly targeted?
    Admiral Mies. Exactly, targeting and operational 
considerations might come into play.
    So again, we will take a look as part of the Nuclear 
Posture Review of how should our warhead loading change as a 
function of our strategy and our targeting requirements. Again, 
that defines the path for the submarine force, at least for the 
near future.
    Then as we look to our bomber force, one of the issues we 
are looking at is warhead loading and whether we should move to 
lower warhead loading numbers. I would make two generalizations 
and they are truly generalizations. First, as we think about 
force reductions--at least in the range of force structures 
that we have talked about in conjunction with past START II or 
START III considerations--as a very general rule, the strategic 
triad force structures play better in war-gaming and in dynamic 
analysis than more narrow force structures. They tend to be 
preferred over forces that only have a dyad or a monad.
    Second, I would also say that, in general, in most of our 
force structure analysis, reducing warhead loading and 
preserving platforms is preferable, again as a general rule, 
compared to reducing platforms and keeping warhead loading at 
relatively high levels. It equates to the age-old problem of 
``too many eggs in one basket.'' It results in an operational 
loss of flexibility and other considerations.
    So for a number of reasons, I think that is how we are 
looking at some of the force reductions we are talking about.
    Senator Reed. Thank you, Senator Sessions.
    I have just been advised that we have a vote scheduled at 
4:10. So, what I would propose to do now is to, presuming there 
are additional questions, I will ask a question and then 
Senator Allard, etc. But I would like, if you would agree, to 
plan to end the hearing at 4:10 and then proceed to the vote.
    Senator Sessions. I do not know that I have any more.
    Senator Allard. I have one question.
    Senator Reed. Then let me just proceed with a question and 
then we will go back and forth.
    Admiral Dwyer, yesterday I had the opportunity to ask the 
CNO about the plans for the SSGN and he indicated that they are 
planning for converting at least two SSGNs today. In the budget 
there is $100 million as a down payment for the conversion. The 
question I have is that we are retiring four and the two 
convertees, if that is the appropriate term, could be the first 
two with the option for the two others or they could be the 
last two.
    I am wondering if you can clarify whether or not the two 
will be the first to be retired or the last two to retire? If 
they are the last two, how do we preserve the option to have 
all four? Presumably we would have to put more money in. 
Admiral Mies or Admiral Dwyer?
    Admiral Mies. I will let you go first.
    Admiral Dwyer. That is a very good question, Senator. We do 
not have the answer for that right now. We got funded for two. 
We have some dates coming up on us right now. Two of them will 
run out of fuel in 2003 and two in 2004. The dollar figures we 
have now, the $100 million, looks like it is targeted to the 
2004 boats. What do we actually do with the 2003 boats to 
protect the option for conversion to SSGNs?
    That is currently a question that we have under review in 
the Navy to see how we provide that protection.
    Senator Reed. Just a follow-on point. In our discussions, 
Admiral Mies, you made the point that simply having two boats 
would not really be operationally effective, since we have two 
rather big oceans, and four would allow one boat on station 
practically at all times, one in the Pacific, one in the 
Atlantic. So it seems that I think I would like to have it and 
I think the recommendation of the CINCs would be four boats, 
not just two. Is that fair?
    Admiral Mies. Since those assets, those SSGNs, would not be 
strategic platforms, certainly they would not fall under my 
province. But I think as the Navy has looked at them that 
certainly was one of the concepts that was under consideration. 
I think that same issue will be a serious part of the review 
the Navy is undertaking with regard to the decision of whether 
it will convert two submarines or whether it will convert four 
to SSGNs. Obviously, there are competing resources that play 
into this. But certainly I believe that will be a serious 
consideration as that issue gets addressed within the Navy.
    Senator Reed. Let me yield to Senator Allard for a question 
and then I have one additional question.
    Senator Allard. This has to do with the stockpile 
stewardship. Do you believe that we have the science-based 
stockpile stewardship in a position where you can assure 
safety, reliability, and effectiveness of the nuclear stockpile 
in the indefinite future?
    Admiral Mies. I do not think anybody can promise you that 
we can ensure the safety, security, and reliability of the 
stockpile into the indefinite future. I think we can do our 
annual assessments and tell you what we know. But I certainly 
do not believe we are in a position where we could provide a 
guarantee that lasts to an indefinite future.
    I think as we develop the new tools, models, and the 
capabilities to better understand how our weapons are aging and 
have a more complete scientific understanding of how those 
weapons function, then to a certain degree we will be able to 
give you a more accurate assessment. I would not be surprised 
that as we go down that path we will actually find some 
operational problems that we previously did not know existed, 
because we will have new, more powerful capabilities to examine 
our stockpile.
    But at the same time, we are committed to doing a very 
thorough annual, independent assessment. Each of the 
laboratories and U.S. Strategic Command are committed to that 
annual process and providing the Secretary of Defense and the 
Secretary of Energy an independent assessment of the safety, 
security, and reliability of the stockpile. I have no doubt 
that if we find a problem it will be reported.
    Senator Allard. On the stockpile stewardship program, as we 
speak today do you think its operational effectiveness is any 
cause for concern as far as our strategic forces are concerned?
    Admiral Mies. I think in the near-term it has been 
effective, and I have been optimistic at the progress we have 
made since its inception. You have to realize that stockpile 
stewardship is only about 5 or 6 years old. But at the same 
time, I think it is important we not be complacent and we not 
assume that, because it is effective today, it will be 
effective tomorrow. We have to continue to work at it.
    There are a number of campaigns that have been outlined in 
the Stockpile Stewardship Program that need to be addressed. 
There is a tremendous aging infrastructure problem that John 
Gordon, I believe, has brought to your attention, which needs 
to be addressed. There is a workforce challenge in terms of not 
just morale, but the training and the retaining of the next 
generation of our stockpile stewards, that needs to be 
addressed.
    Those are daunting challenges and that is why in my oral 
statement I emphasized the importance of a national commitment 
to this program, because I honestly believe it is the 
foundation of our strategic deterrent capabilities. At the end 
of the day, that program has to be effective if we are going to 
have a credible effective deterrent.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard.
    One final question. General Blaisdell, we do not want you 
to feel neglected or shunned.
    General Blaisdell. I think you are doing a great job of 
questioning, Senator. [Laughter.]
    Senator Reed. Let me return to the Peacekeeper. As I 
understand it, there is $5 million in the budget for equipment 
to begin retirement. Is that sufficient money to just buy the 
equipment?
    General Blaisdell. No, sir, it is not. As a matter of fact, 
in the near-term we need a total of $17 million. We are $12 
million short. We have warhead containers and end-rings that we 
need to buy initially, and it is going to take us at least 12 
to 18 months to make that happen. We do have a residual, if you 
will, that helps us in our life extension program. But we are 
short about $12 million.
    In addition, to complete retirement of Peacekeeper, that 
whole program is a little over $500 million over the 5 years. 
We are not funded beyond 2002. So we need some help.
    Senator Reed. So the scenario is that if the Nuclear 
Posture Review concludes that Peacekeeper is not needed for 
deterrence, it will be retired. Can we expect next year a 
request from the Department of Defense for $100 million in the 
2003 budget to retire the Peacekeeper?
    General Blaisdell. Yes, sir.
    Senator Reed. That begs the question, where is the money, 
because I do not think that is in any projection going forward. 
Am I right or wrong?
    Admiral Mies. Certainly I think at the service level the 
Air Force is well aware of the inactivation funding 
requirements and that will have to be addressed in the fiscal 
year 2003 and out-year budget process.
    General Blaisdell. General Ryan is well aware of that, sir.
    Admiral Mies. Again, the services had to, because of the 
START II implications, have a plan to inactivate Peacekeeper, 
that we have kept on the drawing boards for a long period of 
time. So there is a strong, clear recognition of the funding 
requirements involved in inactivating that weapon system.
    Senator Reed. Thank you very much again, gentlemen. Thank 
you for your testimony today and also for your extraordinary 
service.
    Do you have a final comment?
    Admiral Mies. I would just like to make one amplification 
with regard to your question on the SSGN. It frequently comes 
up whether the four SSGNs or the two SSGNs will have any impact 
on our START accountability. I would just emphasize that we can 
live with four SSGNs under the terms of the START I 
accountability rules.
    Senator Reed. Thank you very much, Admiral. Again, thank 
you for your testimony, gentlemen, and for your service.
    We will keep the record open for 48 hours for additional 
questions from our members. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

    1. Senator Akaka. General Eberhart, on May 8, 2001, Secretary 
Rumsfeld announced plans to implement the Space Commission 
recommendations to Congress. At the time, he denied that these changes 
were designed to lay the groundwork for the eventual orbiting of space 
weapons. On May 20, 2001, General Anderson, Deputy Commander of the 
U.S. Space Command, told the House Armed Services Military Procurement 
and Military Research Subcommittees ``that they are tasked to plan for 
force application from space.'' He stated that even though we are 
precluded at this time from deploying weapons in space, we must prepare 
now to push up ``the space superiority throttle.'' General Anderson 
went on to state that, ``the mere fact that the United States is 
developing means to employ force in space may serve as a significant 
deterrent.'' I appreciate the need to protect our space assets. 
However, I am concerned that some may interpret such planning as a call 
for other nations to develop their own space weapon capabilities. Such 
perceptions could lead to a new arms race. What are your thoughts about 
this perception and what steps will be taken to prevent this from 
turning into another arms race in space?
    General Eberhart. We in USSPACECOM advocate for space capabilities 
and the need to protect them because they play a vital role in the 
defense and economic well-being of our Nation. Space control will 
ensure U.S. access to space, as well as unimpeded use of it. When 
appropriate, it will also allow the U.S. to deny space capabilities to 
our adversaries. We currently do not have a compelling need for near-
term deployment of defensive space-based weapons. However, we see the 
need to think about the events that would justify such weapons. Such 
thinking allows us the opportunity to anticipate and prepare for 
changes and shifts in offensive capabilities worldwide so that we are 
not caught by surprise. Understandably, anticipation and planning for 
such activities can generate speculation that may foster varying 
perceptions. That is why it is very important that we are clear our 
intent is defensive in nature. We see research into space weapons 
technologies as the best hedge against another arms race in space.

    2. Senator Akaka. General Eberhart, many comments from Space 
Command and DOD center on ensuring our use of space when we want it and 
denying it to others when we feel it necessary. One of the provisions 
of the ABM Treaty states that parties will undertake not to interfere 
with the national technical means of verification. Comments about 
denying the use of space to others, specifically denying their use of 
surveillance satellites, would constitute interfering with the national 
technical means of another country.
    Is the administration's desire to find a ``new framework'' with 
respect to the ABM Treaty influenced at all by the ABM Treaty's 
restrictions on anti-satellite weapons?
    General Eberhart. The concept of denying the use of space to others 
is derived from the space mission known as space control. Space control 
refers to operations to ensure freedom of action in space for the 
United States and its allies and, when directed, deny an adversary 
freedom of action in space. Specifically, the space control mission 
area consists of not only the surveillance of space, but also the 
protection of U.S. and friendly space systems, the prevention of an 
adversary's ability to use space systems and services for purposes 
hostile to U.S. national security interests, and the negation of space 
systems and services used for purposes hostile to U.S. national 
security interests. Each of these parts of the space control mission 
area can be conducted within the current international legal framework. 
Regarding your question on a ``new framework'', I defer to the 
administration as to whether they have been influenced by particular 
provisions of the ABM Treaty.

    3. Senator Akaka. General Eberhart, yesterday you discussed the 
possible use and advantages of the airborne or space laser as a boost 
phase missile defense system. You said the laser is an attractive 
alternative because it would destroy the missile soon after its launch, 
and that any fall-out would fall back on the country of origin. It is 
my understanding that the laser in question would be used to disrupt a 
missile's booster, not to destroy or disable the warhead because the 
warhead is built to survive re-entry and could not be affected by a 
laser. With the booster disabled, the missile will continue, albeit 
along a different path, but it would not just fall straight from the 
sky on top of the county of origin.
    Are you concerned about knocking out a booster to prevent the 
warhead from hitting U.S. territory only to then send that warhead 
falling on some other territory, such as Canada, Japan, or Europe where 
we have American troops and allies present?
    General Eberhart. In the case of a boost-phase engagement, it is 
possible the missiles payload may survive destruction of the rocket. As 
a result, we are certainly concerned about having capabilities to 
predict the collateral consequences of any missile defense engagement 
and to have active measures (both technical and procedural) at our 
disposal to mitigate the potential risks of the engagement as much as 
possible. Nonetheless, the purpose of an active missile defense 
capability is to blunt and if possible negate the enemy's objective for 
the attack. If we can destroy a missile in its boost phase, the primary 
purpose is achieved because the missile will not fly to its intended 
target. In addition, the capability of boost-phase missile defense will 
create uncertainty in the enemy's mind because he will have to consider 
the possibility of our defense prevailing over his territory, instead 
of over friendly territory such as Canada, Japan, or Europe. Thus, 
boost-phase missile defense would be a powerful addition to U.S. 
deterrent capabilities.

    4. Senator Akaka. General Eberhart, some may argue that a warhead 
is traditionally not armed until re-entry, so that it would not present 
a great danger to another territory upon impact. This argument may hold 
true for U.S. missiles, which are not armed until re-entry, but what 
would prevent an adversary from arming the warhead immediately after 
launch?
    General Eberhart. There is nothing from a technology standpoint 
that would prevent an adversary from changing the fusing and arming to 
one of its warheads immediately upon launch. As you pointed out, it is 
more an issue of practicality, military doctrine, and national policy. 
The question becomes how much risk, to his own territory or a 
neighbor's territory, is an adversary willing to accept from a 
catastrophic launch failure, errant missile, accidental or unauthorized 
launch, or lack of positive control.

    [Whereupon, at 4:09 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        WEDNESDAY, JULY 25, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

                        GLOBAL POWER PROJECTION

    The subcommittee met, pursuant to notice, at 9:05 a.m. in 
room SD-124, Dirksen Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Cleland, Reed, Ben 
Nelson, Carnahan, Inhofe, Roberts, and Allard.
    Committee staff members present: David S. Lyles, staff 
director; and Anita R. Raiford, deputy chief clerk.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Thomas L. MacKenzie, 
professional staff member; and Scott W. Stucky, minority 
counsel.
    Staff assistants present: Gabriella Eisen, Thomas C. Moore, 
and Jennifer L. Naccari.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Elizabeth King, 
assistant to Senator Reed; Eric Pierce, assistant to Senator 
Ben Nelson; Neal Orringer, assistant to Senator Carnahan; J. 
Mark Powers, assistant to Senator Inhofe; Robert Alan McCurry 
and James Beauchamp, assistants to Senator Roberts; and Douglas 
Flanders, assistant to Senator Allard.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order. Good 
morning, thank you very much, and I would like to welcome our 
distinguished panel of witnesses this morning.
    This subcommittee meets today to discuss the role of long-
range bombers. Given the importance of this topic, Senator 
Allard and I have invited all the members of the Armed Services 
Committee.
    The witnesses this morning are the Honorable James Roche, 
Secretary of the Air Force; Gen. John Jumper, Commander of the 
Air Combat Command; Maj. Gen. John R. Baker, Office of the 
Chief of Staff for Air and Space Operations; Lt. Gen. Joseph 
Wehrle, Deputy Chief of Staff for Plans and Programs; Maj. Gen. 
Paul Weaver, Director of the Air National Guard; and Brig. Gen. 
John Corley, Mission Area Director of Global Power Programs, 
Office of the Assistant Secretary of the Air Force for 
Acquisition.
    As we have repeatedly seen since the end of the Cold War, 
long-range bombers are a critical element of U.S. assets. In 
both Desert Storm and Allied Force, the ability and flexibility 
of our bomber force to meet these requirements was well-
demonstrated. The recent Air Force decision to retire 30 B-1s, 
remove the bomber mission from the Air Guard, and to 
consolidate the remaining B-1s at two bases generated this 
hearing, but it also generated a focus on long-range bombers.
    Solid and reliable, the bomber fleet has probably not 
received the attention or support it deserves either from the 
Defense Department or the Air Force. The importance of long-
range bombers with standoff precision strike capability will 
continue to grow, but to remain effective these reliable 
platforms must keep pace with the development of the advanced 
position of the Air Force.
    Over the past several years, the upgrade programs needed to 
maintain the bomber force have been consistently underfunded. 
Just this year the Air Force shows $731 million in unfunded 
bomber upgrades on its unfunded priority lists. We are planning 
to rely on these bombers for a long time, and we must make sure 
that we can rely on these bombers.
    The last time the Air Force did a comprehensive study of 
long-range bombers was at the direction of Congress in 1998. 
This report, titled ``U.S. Air Force White Paper on Long-Range 
Bombers'' was completed in March 1999. The report concluded 
that long-range bombers are integral components of the Air 
Force's role and engagement vision. To achieve this vision, a 
total of 93 B-1s, 21 B-2s, and 76 B-52s will be needed for many 
years to come. B-1s would retire in 2037, B-2s in 2040, and B-
52s would retire in 2047, 90 years after they entered service.
    To achieve this goal, the report concluded that we must 
sustain bombers by improving capabilities, upgrading systems, 
and survivability and connectivity, and deployability. When I 
look at the budget request for bombers, it is not at all clear 
to me that we are sustaining them in this fashion.
    Gentlemen, right now you have the responsibility to 
maintain, sustain, and improve the bomber force. How you plan 
to accomplish this mission is the primary subject of today's 
hearing and we very much want to hear from you.
    We would also like to understand the process by which the 
decision to retire the 33 B-1s was made, the analysis that went 
into this decision, and how and when you plan to implement the 
decision.
    Part of this decision to retire the airplanes is the 
related decision to remove the combat mission from the Air 
Guard. We would also like to understand the process by which 
this decision was made, and the analysis that went into this 
decision to remove the mission from the Guard.
    Again, we appreciate all the witnesses being here this 
morning, particularly given the relatively short notice that 
you received. I thank you all very much for accommodating this 
hearing.
    Now I would like to turn to the ranking member, Senator 
Allard, for his opening statement.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman. I would like to 
thank you, Senator Reed, for calling this hearing today to 
consider the budget request for our Air Force global power 
projection platforms. That is our long-range bomber forces.
    There is no doubt that many were surprised by one aspect of 
the budget request, which was the proposed consolidation of the 
B-1 bomber from five operating to two operating locations, in 
parallel with the force structure reduction in B-1 bombers from 
93 to 60 aircraft. I am sure this issue will be clearly 
explored at today's hearing.
    Since the end of the Cold War, there have been significant 
changes in both the missions and capabilities of our long-range 
bombers. Yet, they have proven their versatility time and again 
across the spectrum from deterrence to precision, all-weather 
attack. The B-2 and B-52 remain key elements of the strategic 
triad. While all of our bombers are integrating systems and 
weapons which enhance their lethality and survivability, in 
March 1999 the committee received the U.S. Air Force Report on 
Long-Term Bomber Force Restructure.
    One of the starting points of this report was the 
assumption of a bomber force structure based on the results of 
the 1997 Quadrennial Defense Review. A total fleet of 187 
bombers, consisting of 95 B-1s, 21 B-2s, and 71 B-52s. The road 
map presented in the report identified near-, mid- and long-
term upgrades for each of these three bombers that would make 
them viable for decades to come.
    We are interested in hearing the latest iterations of these 
road maps and what analysis led the Air Force to change the 
conclusions it arrived at just 2 years ago, especially since 
the results of the updated Quadrennial Defense Review are not 
yet known. Review of the Department of Defense guidance in the 
Terms of Reference for the 2001 Quadrennial Defense Review 
would indicate, however, that the long-range precision strike 
capability being developed in the bomber fleet is without the 
forward basing and large logistics footprints required by other 
response options that should be a key area of Department 
investment.
    I want to welcome our witnesses today. I want to thank you, 
Secretary Roche, for taking time out of your busy schedule to 
be with us today. General Jumper, congratulations on your 
nomination to be the next Air Force Chief of Staff. General 
Weaver, we look forward to hearing your vision of the role the 
Air National Guard will play in the Air Force, as the Air Force 
embarks on the path it plans to make.
    Senator Reed. Thank you very much, Senator Allard. Now I 
would like to recognize Senator Roberts for his opening 
statement.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Yes, thank you, Mr. Chairman. I truly 
appreciate your leadership in holding this hearing on this 
extremely important topic. I am not a member of this 
subcommittee, but as a member of the Airland Subcommittee, the 
Readiness and Management Support Subcommittee, and the Emerging 
Threats and Capabilities Subcommittee, I think obviously we 
have a very strong interest in this. I especially want to thank 
the Secretary for taking time out of his very valuable 
schedule; he is up to his ears in alligators in regard to 
making decisions that are extremely important. I want to also 
thank Maj. Gen. Paul Weaver, who does such a great job with the 
Air National Guard. I am picking and choosing here.
    I have accolades for all of you gentlemen, but I especially 
want to thank General Joe Wehrle, who came to Wichita and 
McConnell Air Force Base, and also made some trips to Georgia 
in regards to this issue. I understand that this is the first 
time that General Wehrle, despite many years in trying to bring 
cost efficiency to the Air Force, has had the opportunity to 
testify before Congress. General Wehrle is known in some 
circles as the prince of darkness, but he tries to shine the 
light of truth into cost effectiveness and has done an 
outstanding job. I want to thank you for taking the time to 
come to Wichita, and I want to congratulate you, sir, on the 
job which you have done and that you are trying to do.
    Now, with that opening, Mr. Chairman, thank you for holding 
this hearing. Some of the discussion, it seems to me, regarding 
the decision by the United States Air Force in regard to the B-
1 bomber force has focused on the suggestion that members of 
Congress are somehow blindly objecting to the cuts or change in 
policy only because of the loss of jobs in their states, and I 
want to make this very clear. I am going to look out for the 
interest of my state of Kansas just as Senator Cleland will for 
Georgia and all senators will, and all congressmen will. That's 
true for every member of Congress in regard to their states, 
but to suggest that I will take action that will harm our 
national defense in deference to jobs is offensive.
    I make this point because there has been some editorial 
comment to that effect. I noticed in the Washington Times that 
the former Speaker of the House Newt Gingrich had an article 
indicating that that is the case. Newt, you are wrong. I have 
worked with the Speaker in the past. I wish he had called me. I 
take issue with that and I take personal umbrage, and I know 
that Senator Cleland certainly does as well.
    The suggestion is that the Air Force and the Department of 
Defense decision to reverse the current long-range strike 
policy in the role of the Guard is based, or should be based on 
a well-thought out strategy. I simply want proof that that 
assertion is correct. What I also question is the notion that 
just simply because the DOD or the Air Force, or the Navy asks 
for a cut in force structure, Congress is obliged to simply 
accept that without the proper oversight. I do not think that 
is correct. We authorize, we appropriate, and we are elected to 
do that job.
    Now this administration has stated that changes to the 
military should be based on strategy rather than budget lines 
or numbers, and I was heartened by that statement. I strongly 
opposed the last QDR because it was budget-driven in my 
personal opinion, rather than strategy driven. My fear is that 
this decision to cut the B-1B force and to change the role of 
the Guard may well be or could be a green eyeshade cut rather 
than the strategy call for such a cut.
    I applaud good business practices and cost savings, but I 
do not support arbitrary cuts that fly in the face of well-
documented capability. The Air National Guard has demonstrated 
superb capability with the B-1 bomber and the B-1 bomber 
performs superbly when properly funded. So in the words of the 
famous ad, where's the beef, or to be more accurate, where's 
the Guard?
    As chairman and now ranking member of the Emerging Threats 
and Capabilities Subcommittee, I have been strongly committed 
to aligning our military force structure to the threats of this 
new century, but we must move forward on a well-thought out 
strategy and plan. What we must not do is blindly simply cut 
force structure to save resources.
    This is a timely hearing, Mr. Chairman, not only in regards 
to long-range strategic capability. The Washington Post, the 
fountain of all knowledge in this town, indicates that military 
cuts are implied in a new strategy, and we're going to be going 
after force structure in regard to strategy across the board, 
not only with the B-1B but in regard to the overall 
transformation that we must face.
    So it seems to me that we must make smart military cuts and 
adjustments that fit squarely into the overall defense-wide 
strategy based on our national strategy. [Child crying.]
    There is a youngster of a B-1 pilot right back there. 
[Laughter.]
    Senator Reed. Maybe a B-1 pilot.
    Senator Roberts. So to make that strictly for fiscal 
reasons I think is irresponsible, and I am just as much as a 
budget cutter as anybody else around this place.
    Second, I am concerned that the justification for taking 
combat capability from the Guard sends a signal that is not 
desired, that is the nicest way I can put it, to those proud 
Americans that willingly defend our Nation as a member of the 
Air National Guard and Air Reserve. The signal is that despite 
evidence to the contrary, the Guard and Reserves are not worthy 
of a combat mission. I know the Secretary is going to indicate 
that is not the case and I am going to back him in that regard, 
but the Air Force leadership has indicated--I want to repeat 
that that is not the case. As we all know, actions speak louder 
than words, and this action takes combat capability away from 
the Guard and gives it to the Active-Duty Force.
    The Secretary has said that those in support roles are just 
as important as those at the weapons release point and I agree 
with that. That is true. I agree that all those proud service 
members that play a supporting role in regard to, also those at 
the release point are critical, but to suggest that supporting 
roles are viewed the same as those that are at the release 
point is a little disingenuous.
    If there is doubt, look at the promotion rates, look at who 
fills the senior leadership roles between the combatant and 
support personnel, and look at the list of medals for heroism 
and count the number of combatants versus support personnel. 
Being at the release point matters, and it also matters in 
regards to experience.
    What I hope we can achieve today is a better understanding 
of where the Air Force is heading with their long-range 
precision strike capabilities, their justification based on our 
defense strategy for the cuts in the B-1B force structure, and 
why the National Guard has their combat capability pulled away 
from them when every indication is that they do this mission 
just as well, in my view better, and they do it cheaper than 
the active force.
    I will have quite a few questions. I apologize for the 
length of my statement--well, no, I really do not. I hope we 
have enough time, Mr. Chairman, with your indulgence and the 
indulgence of the witnesses, to get into these questions as we 
should, and I thank you, sir, for the hearing.
    Senator Reed. Thank you, Senator Roberts. Now I would like 
to turn to Senator Cleland for his opening statement.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. It is a 
pleasure to be here with members of the committee, especially 
my good colleague the Senator from Kansas.
    I might say that he and I have been working on a number of 
issues over the last 2 or 3 years. First of all, last year, we 
took the floor of the Senate about five or six different times 
trying to articulate America's global strategy in the wake of 
the Cold War being over and exactly what was the mission of the 
United States, what was expected of us, what was in our 
interests, what was not in our interests, especially in terms 
of deployment of people and weapons systems. Interestingly 
enough, we spoke to pretty much an empty Senate and a lot of 
deaf ears.
    Maybe that was the level of our eloquence, but the truth of 
the matter is that any time we've looked at cutting forces or 
redeploying forces or managing our equipment for those forces, 
I think first of all we have to look at our global strategy to 
find out exactly how strategically this decision that fits in. 
So in many ways, Mr. Chairman, we thank you for this special 
access to your subcommittee.
    Along with Senator Roberts, I am on the Airland 
Subcommittee and the Subcommittee on Readiness and Management 
Support. He and I have been in this venue for a long time 
looking at the impact on our global strategy of what we do. 
When we were confronted with the B-1 decision, immediately both 
of us asked the question, how does this fit into our strategic 
plan? We also asked the question, how does this affect our 
state, but one of the questions we both asked at the same time 
was, how does this fit into our global strategy?
    One of the things that we are here today to talk about is 
how does this impact our manned bomber forces, how does this 
affect our B-52s, how does this impact our B-2s, where are we 
going in that regard?
    Second, if you are seeking to do a cut based on cost 
effectiveness, why do you fly in the face of a GAO report that 
just 2 years ago indicated that the Secretary of Defense ought 
to order or direct the Secretary of the Air Force to turn more 
of the B-1 bomber program over to the Guard, because 
``millions'' could be saved in that regard.
    So, there were several things that kind of set us off. One, 
the impact on our states, which is not negligible. Two, the 
impact on our global strategy and where we go from here. Three, 
the impact on the men and women who are part and parcel of a 
decision that was made about a decade ago to walk down a path 
that we have just now reversed.
    Let us look at the time line. Within the last 10 years, 
President George H.W. Bush, Secretary of Defense Dick Cheney, 
and Chairman of the Joint Chiefs of Staff General Colin Powell, 
decided the Cold War is over and that there was a new role for 
the B-1 bomber, more in a conventional role than a strategic 
bomber role, and the forces were dispersed.
    One of the points of dispersion was Warner Robins Air Force 
Base. B-1s were also dispersed to Kansas and Idaho, along with 
Texas and South Dakota. So $70 million was invested in 
infrastructure and some 800 to 1,000 people were invested in 
maintaining that B-1 bomber wing at Warner Robins.
    One of my first questions, Mr. Secretary, is what are your 
plans for that, this decision if it continues, what are your 
plans regarding the 800 to 1,000 personnel, particularly at 
Warner Robins? What are those people going to do? What missions 
do you contemplate for them? What is going to happen to them, 
Mr. Secretary?
    Senator Reed. Senator, could we conclude your opening 
statement, and then we will open the floor to all the senators 
for questions.
    Senator Cleland. That was a question, and basically that is 
my opening statement.
    Senator Reed. Thank you very much. Senator Nelson, do you 
have an opening statement?
    Senator Ben Nelson. I will pass on opening statement to get 
to the questions.
    Senator Reed. Senator Carnahan.
    Senator Carnahan. I will have to leave shortly, and am not 
a member of this subcommittee officially.
    Senator Reed. Thank you very much. Before we proceed with 
your testimony, Mr. Secretary, and without objection, I would 
like to place into the record at this point a statement from 
Senator Crapo, whose state will also be affected by any changes 
to the B-1 program.
    [The information referred to follows:]

             Prepared Statement by Senator Michael D. Crapo

    Mr. Chairman, as you are aware, the Air Force included a decision 
in their fiscal year 2002 budget that would reduce and consolidate the 
B-1 bomber fleet. This program decision would leave B-1s at bases in 
Texas and South Dakota while removing them from locations in Idaho, 
Georgia, and Kansas. While the Air Force points to consolidation and 
reduction as necessary to best use their limited resources to maintain 
the B-1 fleet that would remain, its decision was made without 
appropriate input and is not made based on sound future military 
strategy.
    The Department of Defense is now in the early stages of releasing 
its strategic plan for our Armed Forces. Most of the discussions have 
focused on future technologies that have gained attention before the 
full Armed Services Committee in recent weeks. While I do not question 
the importance of technological advancements, I want to stress the 
importance of ensuring our military's readiness today. The B-1 is a 
vital and essential component of that readiness.
    Today's strategic environment includes limited access to overseas 
bases and requires that our military possess a long-range precision 
strike capability. That is the mission of the B-1. It is our Nation's 
fastest long-range strategic bomber, capable of flying intercontinental 
missions without refueling. The B-1 also has a large diverse weapons 
carrying capability.
    The decision by the Air Force to reduce the B-1 force by one-third 
at this time is questionable. Until there is strategic backing for this 
decision, it seems premature and problematic to reduce the rapid 
reaction long-range capabilities that the B-1B fleet provides. For the 
active duty component such as found at Mountain Home Air Force Base in 
my home state, removal of the B-1 is contrary to the concept of a 
composite wing as it removes a vital component to the wing's air power 
projection that is needed in today's strategic environment.
    Mr. Chairman, I realize you and your colleagues have difficult 
choices to make as you work with the Department of Defense. However, 
the B-1 decision needs a great deal of scrutiny. When reviewed in 
further detail, reducing and consolidating our B-1 bomber resources is 
not in line with military strategic planning or effective and efficient 
uses of our military resources. I appreciate your consideration of 
these factors and the work of my colleagues from Kansas and Georgia on 
this issue. I look forward to reviewing the committee's findings. Thank 
you, Mr. Chairman.

    Senator Reed. Mr. Secretary, you have already submitted a 
written statement which we made part of the record. You may 
make your oral comments at this time.

   STATEMENT OF JAMES G. ROCHE, SECRETARY OF THE AIR FORCE; 
   ACCOMPANIED BY GEN. JOHN P. JUMPER, COMMANDER, AIR COMBAT 
COMMAND, USAF; LT. GEN. JOSEPH H. WEHRLE, JR., DEPUTY CHIEF OF 
 STAFF FOR PLANS AND PROGRAMS, USAF; MAJ. GEN. JOHN R. BAKER, 
ASSISTANT DEPUTY CHIEF OF STAFF, AIR AND SPACE OPERATIONS, AIR 
   FORCE STAFF; MAJ. GEN. PAUL A. WEAVER, JR., DIRECTOR, AIR 
NATIONAL GUARD, ANG; AND BRIG. GEN. JOHN D. W. CORLEY, MISSION 
AREA DIRECTOR OF GLOBAL POWER PROGRAMS, OFFICE OF THE ASSISTANT 
        SECRETARY OF THE AIR FORCE FOR ACQUISITION, USAF

    Secretary Roche. Thank you, Mr. Chairman. Chairman Reed, 
Senator Allard, members of the subcommittee, I am very pleased 
to be here this morning to provide you with our thoughts on the 
long-range strike requirements and capabilities of the United 
States Air Force in support of potential joint operations of 
our Nation's Armed Forces.
    Coleridge once wrote, that language is the armory of the 
human mind that once contains the trophies of its past and the 
weapons of future conquests. Thus, I do appreciate the 
opportunity we have today to exercise our minds and exchange 
thoughts and views on the real strategic trophies of the past, 
and how we can apply them to insure a new century of peace and 
freedom.
    I am here with my colleagues today to discuss the strategic 
context of long-range strike operations and our perspectives on 
how we may move forward with you to arrive at a fruitful 
understanding of our current systems as well as the future role 
and systems we envision.
    In the early days of the bomber, the strategic implications 
of long-range strike were well-understood in language related 
to Warsaw, London, Berlin and Tokyo. Recently, those 
implications are understood in the languages of Baghdad and 
Belgrade. In the 50-year period between World War II and 
Operation Allied Force, tremendous advances in range, speed, 
survivability, intelligence, communications, precision weapons 
have contributed to the aerospace advantages of our United 
States Air Force and our national strategy.
    Mr. Chairman, seated with me at this table are some of the 
aerospace leaders of today who can personally attest to the 
meaning of those technological leaps. General John Jumper, 
currently the Commander of our Air Combat Command, was the 
highly respected commander of United States Air Force Europe 
(USAFE) during Operation Allied Force. He brings to this table 
more than three decades of experience as an air warrior. He is 
intimately familiar with the stark differences between the 
planning and execution of air power missions as experienced in 
the Vietnam War, and the joint coalition and network strategic 
operation conducted in the Balkans just over 2 years ago.
    As an aside, Mr. Chairman, I would like to take just a 
moment to give him my heartiest congratulations on his 
nomination to be the next Chief of Staff of the United States 
Air Force. Should he be confirmed, I am confident that he will 
be a marvelous successor to General Mike Ryan, who you know I 
believe is a class act, and should I have the opportunity, I 
look forward to working alongside such an exemplary officer.
    Also with me today is Lt. Gen. Joe Wehrle, a West Point 
graduate and weapons systems officer by trade, who has had 
extensive stateside and overseas operational experience in 
command. Currently he is in charge of planning and programming 
the future of the Air Force, no small endeavor even for a West 
Point man, but he does like to refer to himself as the prince 
of darkness.
    Senator Reed. Not a particularly small West Point man.
    Secretary Roche. Not a particularly small West Point man.
    Next to Joe is Maj. Gen. John Baker, who is our assistant 
Deputy Chief of Staff for Air and Space Operations and as such 
helps to determine our operational requirements. John is a 
command pilot whose aviation career includes more than 2,800 
flying hours in a variety of weapons systems. He has a keen 
awareness of the capabilities and training necessary to support 
a global reconnaissance and strike mission.
    Mr. Chairman, we are a fully integrated total force in the 
Air Force. In order to carry out our operations, including our 
global reconnaissance and strike mission, we are pleased to 
rely upon our Air National Guard and Reserve units, as well as 
our Active-Duty Forces. Maj. Gen. Paul Weaver, Director of the 
Air National Guard, a commander well-equipped to discuss the 
long-range needs of our strategic operations, is also here with 
me today.
    Finally, let me introduce, if I may, Brigadier General John 
Corley, who served as a member of General Jumper's USAFE staff 
during the operations over Serbia and was the author of the Air 
Force's analysis of that operation. He is a remarkable warrior 
scholar and he has both chronicled the success of that conflict 
considering its wider lessons regarding long-range precision 
strike concepts and capabilities for the future.
    Mr. Chairman, I have a written statement that you are 
putting into the record and I thank you for that, sir. In that 
statement I describe an Air Force that has traditionally worked 
in a progressive and indeed transformative fashion, put into 
place the best technologies and capabilities, the most forward-
looking concepts of operations, with the most talented and 
well-equipped warriors. I can report with a high degree of 
confidence that today's Air Force is an incredibly robust and 
motivated organization.
    The leaders who sit with me today and their colleagues, 
building upon the hard work of their predecessors, have seen to 
that, but it is the long-range health and vitality of the Air 
Force that is of primary concern to us today. In my brief 
period as Secretary, I have already been immensely impressed by 
the enthusiasm of my colleagues and the capabilities of our 
airmen. To a person, they have their sights set on both the 
immediacy of today's mission as well as the immense potential 
to illustrate power in the decades to come.
    Long-range strike is an essential part of that future, and 
I am privileged to work with them in the field as we shape it. 
Now, sir, my colleagues and I would be delighted to answer any 
questions you may have in any order you may choose.
    [The prepared statement of Secretary Roche follows:]

               Prepared Statement by Hon. James G. Roche

    Mr. Chairman, members of the subcommittee, we thank you for the 
opportunity to come before you on behalf of the dedicated men and women 
of the finest aerospace force in the world. From the beginning of the 
last century, air power pioneers have debated and anticipated the 
strategic potential of long-range [global] strike operations. That 
potential is summarized in the ability to overfly two-dimensional land 
or sea forces to strike an enemy at the heart of his political, 
economic, and/or military power. Properly realized, such operations 
confer an asymmetric advantage in warfare, and the United States Air 
Force believes that aerospace power is America's asymmetric advantage. 
The application of this capability began influencing operations during 
the strategic bombing campaign in the European theater of World War II, 
and continued with the delivery of atomic bombs on Japan in 1945. 
However, the Army Air Corps and the early Air Force lacked the accurate 
intelligence, range, speed, and precision to truly create decisive 
strategic effects. As technology progressed and intelligence systems 
improved, strategically-applied air power revolutionized modern 
warfare. A glimpse of its potential was seen during Operation Desert 
Storm and was demonstrated during Operation Allied Force and the 
capitulation of Slobodan Milosevic's regime to NATO.
    Much of yesterday's airpower theory has evolved into today's 
aerospace reality, based upon comparable concepts and competencies 
originally envisioned by early air-pioneers, but with improved concepts 
of operation, organizations, and technologies. In the future, we will 
build on our enduring competencies by modernizing and integrating the 
proper mix of our existing air, space, and information systems. Our 
goal is to provide intelligence, reconnaissance, and surveillance 
capabilities in real-time, 24-hours a day, 7-days a week, and reap the 
deterrent effect of being able to strike any target with requisite 
speed, range, and near-perfect accuracy. Our current goal is to find, 
fix, assess, track, target, and engage any target, anywhere in the 
world, within hours or minutes, as appropriate. Tomorrow, our vision is 
to provide global reconnaissance and strike capabilities near-
instantaneously.
    Our ability to reach out and influence potential adversaries in 
support of our national objectives provides this country a method to 
prosecute the full-spectrum of contingencies from humanitarian 
assistance to major theater war, and from dissuading an adversary from 
considering an option to deterring an enemy from an attack. The ability 
to create these strategic effects ultimately helps us and our allies 
shape a strategic environment that is consonant with our values and 
interests. Our hope is that through maintaining our global 
reconnaissance and strike preeminence, potential enemies will think 
twice while our friends and allies will sleep easier.
    The DOD is now engaged in a number of strategy development 
exercises, including the Quadrennial Defense Review. The results of 
these studies will undoubtedly influence our future military and 
aerospace power strategies. When these efforts are concluded, we will 
be able to elaborate on specific recommendations for forces, doctrines, 
and resources. However, the Air Force's enduring competencies have been 
and remain the ability to provide global reconnaissance and strike 
capability which we believe will remain relevant well into the future. 
Inherent in this vision is the understanding that ``strike'' means 
creating the right effect at the right place at the right time, 
regardless of an adversary's attempts to deny access to our forces. 
Using all of our capabilities from computer network attack, to 
humanitarian pallets, to directed-energy, to manned and unmanned 
aerospace platforms we now strive to achieve strategic effects versus 
quantitative target list assessments. As technology improves into the 
future, the Air Force will rely less upon conventional platforms and 
more on transformational capabilities, manned and unmanned. However, 
for the foreseeable future, until many of these technologies mature, 
the most effective method to deliver precision strike weapons over 
great distances with mass is with our bomber fleet.
    Today's reality, however, is that we remain limited by budgetary 
constraints. The Air Force realizes it must enable its existing long-
range strike fleet to migrate successfully from a force developed 
during the Cold War for nuclear employment to a force relevant in 
global expeditionary operations within a much broader spectrum of 
operations. Our current bomber force must be able to target and 
retarget in real-time through airborne data links with standoff weapons 
and large payloads of precision and near-precision munitions in order 
to meet the requirements of the uncertain future.
    In the coming years, several factors will affect our force planning 
considerations and budgetary decisions. President Bush clearly 
articulated three overriding objectives that have and will guide our 
decisions in the DOD. In essence, they are to: (1) improve the quality 
of life and quality of service of military personnel, giving them a 
renewed sense of purpose; (2) modernize our aging force after a decade 
of neglect while concurrently addressing new strategic realities and 
technologies; and, (3) manage the dollars of our taxpayers in the most 
efficient manner possible, introducing more business-like practices and 
processes into the Pentagon. I wholeheartedly believe that our recent 
fiscal year 2002 budget deliberations and proposals reflect a solid 
down payment for our people and the readiness of our forces.
    Second, the global security environment has changed dramatically 
from the Cold War garrison force of the last century. The Air Force has 
transformed its organizational structure and operating principles in 
two crucial ways to address this world, as well as the budgetary and 
personnel declines of the last 10 years. Our first major change was to 
take our historic garrison and forward-deployed force and create an 
Expeditionary Aerospace Force (AEF). This organizational structure 
gives the regional Commanders in Chief (CINCs) expeditionary aerospace 
packages that are tailored and trained-to-task to meet their full 
mission requirements. The AEF has given us a more sustainable, 
flexible, and responsive force while enhancing the stability of our 
people's lives and families. In addition to the AEF reorganization, we 
have developed a ``Total'' Force culture, building upon the high 
standards and strong cooperation between our active, Reserve, Guard, 
civilian, and contractor personnel. Simply stated, we could not perform 
our mission without the combined contributions of all these components.
    The changing global security environment will also require us to 
deploy in various threat scenarios. These scenarios represent the full 
spectrum of conflict, from a high threat and limited access scenario, 
to a medium threat or aggressive offensive action, to a lower threat 
scenario where we have established air superiority with accompanying 
low threat conditions. Our long-range precision strike platforms play 
unique and complementary roles in potential threat scenarios because of 
their flexibility to adapt to evolving threat situations.
    In the future, we expect adversaries with advanced technologies to 
try to deny the U.S. military access to a region. The Air Force is 
carefully evaluating this possibility and proposing a concept of 
operations called the Global Strike Task Force to counter threats to 
access and to prepare the region for deployment and employment of joint 
forces. This scenario requires forces that capitalize on recent 
advances in speed, range, stealth, super-cruise, and precision. We 
believe that, used in appropriate combination, our B-2 and F-22 forces 
can quickly and decisively destroy the most threatening anti-access 
air, ballistic and cruise missile, and sea defense systems. For 
example, during Operation Allied Force, each B-2 destroyed multiple 
targets with an 83 percent hit rate, all while flying combat missions 
from Whiteman AFB, MO. However, the 20-plus-year old B-2 design 
requires continued modernization to remain effective, including the 
latest secure UHF/VHF communications, in-flight data-link, in-flight 
replanning, and advanced integration of follow-on hard target and other 
munitions. This transformational capability can enable joint forces to 
enter into the region, quickly limit the adversary's initiative, and 
perhaps plant doubts or cause reevaluation of his objectives. The Air 
Force believes the full complement of F-22s, our current force of B-2s, 
a reconstituted force of B-1s, standoff B-52s, and a full complement of 
precision and standoff weapons (e.g., enhanced CALCMs, JDAMs, JASSMs, 
and small smart munitions) will work in concert with submarine launched 
missiles, unmanned aerial vehicles, and special operations forces to 
ensure our allied and U.S. forces timely access to future high-threat 
theaters.
    As an adversary takes an offensive action toward or on friendly 
territory, our Nation must rapidly apply its combined instruments of 
power to halt him, allowing friendly forces to regain the initiative. 
This scenario requires a ``rapid-halt'' capability that is best 
accomplished with long-range precision strike systems. Our force of B-
2s, B-52s and transformed B-1s will be employed to halt forces rapidly.
    However, to utilize either the B-1 or B-52, they must have the 
weapons, be mission capable, and be able to adequately protect the 
airmen risking their lives in our Nation's service. The Air Force has 
found that as our systems age, parts are becoming obsolete and 
maintenance costs are skyrocketing. The B-1 aircraft's mission capable 
rates have remained between 51 and 62 percent during fiscal year 2000 
and fiscal year 2001 below the goal of 75 percent. The B-1 aircraft 
missed Operation Desert Storm because of its poor reliability and its 
limited survivability in high-threat environments. Furthermore, only 5 
Block-D modified aircraft were available for deployment to Operation 
Allied Force. Although the five aircraft dropped approximately 20 
percent of all bombs over Kosovo, they could only be deployed during 
the second week of the war following suppression of enemy air defenses.
    We believe that cutting the B-1B force from 93 less-effective 
aircraft down to 60 mission-ready aircraft will reap over $1.5 billion 
in savings over the future years defense plan (FYDP). Similarly, by 
reducing the B-1 support infrastructure from 5 bases to 2, we will gain 
additional economies of scale and harness real property maintenance and 
military construction dollars. The choice of how to consolidate the 
bases was selected using two criteria. The first criterion was to find 
the maximum gain of potential savings available by consolidating 
multiple, small squadrons. The second criterion was to minimize the 
impact of this reduction on the base, looking for other missions and 
operations as possible transitions for these units. We plan to apply 
savings from consolidation to upgrade the remaining B-1 aircraft and 
improve both its mission capable rates and modernize its precision 
weaponry, self-protection systems, and combat reliability. The Air 
Force believes strongly that this plan will make the B-1 bomber into 
the survivable, effective, long-range precision strike platform in this 
century that had been envisioned when it was built in the last century.
    In yet another scenario, as we obtain greater air-dominance or in 
the face of limited air defense capabilities, the B-52 can effectively 
overfly adversary airspace and dramatically increase the amount of 
ordnance placed on target. For the last seven years, the Air Force has 
attempted to cut 18 B-52 aircraft from Minot AFB, ND, and use the 
savings to help us modernize the rest of the B-52 fleet. The Air Force 
believes maintaining 76 B-52 aircraft meets the current force structure 
requirement called for in today's national security strategy, 
especially as we see it principally as a standoff, conventional cruise 
missile carrier. To keep the B-52 relevant in the near future, we need 
to modernize this aircraft with an avionics mid-life improvement, the 
situational awareness defensive improvement, and some electronic 
countermeasures improvement. Other important upgrades include the Link-
16 datalink, advanced weapons integration into the internal bomb bay, 
Global Air Traffic Management compliance, and advanced munitions 
capability. When completed, these combined upgrades will meet our 
vision to provide real-time targeting and retargeting and long-range 
precision strike with mass capability. The B-52 is the only aircraft we 
envision capable of launching the conventional air-launched cruise 
missile from standoff distances. This capability allows it to 
participate in high-threat missions from a standoff position. We want 
to develop conventional cruise missiles with even greater range to add 
to the plane's effectiveness. The B-52 also continues to play a role in 
the Nation's nuclear triad. In summary, continued aggressive 
modernization and investment will allow the B-52 to remain an effective 
long-range strike platform through 2040.
    The scenarios described above show that each of our three bombers 
play complementary roles in our long-range global strike capability. 
The B-2 will provide high-altitude stealth with uncanny precision, the 
B-1 will provide precision standoff strike capability, and finally the 
B-52 can swing from an extended standoff conventional cruise missile 
launcher to a low threat enabled conventional precision workhorse. 
Further, they can often best operate and are complemented by an 
environment of air supremacy established by the F-22 and, eventually, 
the Joint Strike Fighter (JSF).
    Finally, the Air Force has been faced with maintaining and 
modernizing these platforms in an environment of numerous competing 
budgetary priorities. The current B-1 force alone has some $2 billion 
in unfunded requirements. As our recent next-generation bomber study 
showed, aggressive modernization of the current bomber force will fill 
the gap before a future strategic bomber capability can be funded and 
developed. However, the Air Force simply does not have sufficient 
funding to modernize our current bomber inventory at a pace 
commensurate with the need to transform or adapt to a new era. That 
said, we have made significant advances in bomber modernization the 
last few years fielding Joint Direct Attack Munition (JDAM) and Global 
Positioning System (GPS) navigation on the bombers. In the next few 
years we expect to further enhance our long-range bombers' lethality, 
survivability, and sustainability. By fiscal year 2004, we expect each 
bomber to be capable of employing Wind Corrected Munitions Dispensers, 
the Joint Stand Off Weapon, and the Joint Air-to-Surface Standoff 
Munition. These weapons greatly improve the long-range strike 
portfolio's lethality and contribute to survivability by allowing 
platforms to strike from longer distances. However, we face serious 
challenges ahead in modernizing the onboard computers for each of our 
bombers, as well as the necessity for funding data links, and beyond-
line-of-sight communication for en-route mission updates.
    All three current long-range strike platforms face serious 
sustainability issues. Modernizing the B-2's stealth technology will 
improve its maintainability by 8 percent. The B-2 requires significant 
upgrades to cockpit displays and in-flight replanning tools before we 
can fully capitalize on the tremendous advances inherent in our new 
precision guided weapons. The B-1 is confronted with serious 
sustainment problems such as depot tooling, avionics test equipment 
replacement, reliability & maintainability upgrades to aircraft 
subsystems, and depot engineering. Plus, the B-1 must be equipped with 
standoff weapons like the JASSM. Additionally, the B-52 requires 
modernization to its avionics for it to remain effective. With the 
realization that we simply cannot fund all the bomber modernization 
efforts and meet other obligations, we believe we must develop better 
solutions. With the required upgrades unfunded, the B-1 would be unable 
to fill its role even in the medium threat environment, and the Air 
Force has been funded to maintain more outmoded B-52s than we believe 
are required to meet our current national security strategy. Therefore, 
I ask you to evaluate these decisions in the context outlined by the 
President. How can we modernize our systems to restore their relevancy 
and combat capability for the next war without demanding more funds? 
How can we be better stewards of our Nation's tax dollars and take 
advantage of potential economies of scale, efficiencies, and force 
consolidation? Finally, how can we provide our people higher quality 
and more survivable weapon systems worthy of the service they have 
dedicated to our Nation? We appreciate the opportunity to testify 
before you regarding the future of our global strike capabilities.

    Senator Reed. Thank you, Mr. Secretary. I wonder if any of 
your colleagues also have opening remarks.
    Secretary Roche. In the interest of being able to save time 
for questions and answers, we all pooled our comments into one 
which I read, and we're all prepared collectively and 
individually to address the issues.
    Senator Reed. Thank you very much, Mr. Secretary. Let me 
thank all of you for joining us this morning. I join with my 
colleagues and the Secretary in commending you, General Jumper, 
for your nomination as Chief of Staff of the Air Force. Thank 
you for joining us this morning.
    We have a number of senators here today, but let us take 
about a 7-minute round of questions, and we can be flexible 
about that. I will begin.
    In 1999, General Jumper, the Air Force long-range bomber 
white paper identified the size of the bomber fleet and 
projected retirement dates and under this white paper, the 
structure of the bomber fleet was established. Also, there was 
an explicit assumption that no new bomber production would 
begin until 2034, that you would have a peacetime loss rate and 
two other factors; one is that to maintain capability, you 
would have a continuous upgrade to existing airframes, and 
second, that the administrations going forward until 2034 or 
2037, had to support and fund these aircraft or have a very 
good reason for retiring them, because there are no more 
bombers coming into the force structure for a very long time.
    These are the assumptions in 1999. Are they still valid, 
and if they are not valid, what has changed with them?
    General Jumper. Mr. Chairman, the world around us has 
indeed changed. As we look toward the development and the 
evolution of strategies, the development of other technologies 
such as different smaller and more capable weapons, and the 
fact that we have just not been able through the decade of the 
1990s to support the upgrades and the modernization on any of 
our bombers the way we had anticipated, all lead us now to 
different sets of conclusions about the way ahead from this 
point.
    Those, sir, are the things that have led to the decisions 
we've made with regard to the long-range strike force.
    Senator Reed. Thank you, General. Secretary Roche, the same 
question really, but the bottom line decision to move the 
bomber force down to about 157 bombers from the current totals, 
again, from your perspective, how can you justify that?
    Secretary Roche. Yes, sir. Here's what we face, Senator. We 
face a situation where the B-2, which performed magnificently, 
had only upgrades showing through the 2002 budget when we put 
some in. Beyond that, they weren't there, even though you have 
to do this to long-range aircraft if you're going to keep them 
what I will call competitive.
    The B-52, similarly but it's not quite as important.
    The B-1 faced a situation, as I talked over with my 
colleagues, was $2 billion behind in maintenance and upgrades, 
and this bow wave that was building was becoming very very 
scary.
    I think the logic of the study, the 1999 study, is 
impeccable. It is the execution of it. General Ryan, and I've 
gone back and checked the citations with him, has said that the 
Air Force was $5 billion shy each year. Secretary Rumsfeld has 
pointed out that even in the amended 02, it is not enough to 
catch up. So we faced a situation where our long-range strike 
force was facing an obsolescence that was gaining year by year, 
and the most dramatic part of it was the B-1.
    So we sat back and said what do we want, what are these 
forces especially good for. Long-range strike from Hap Arnold 
to this day is terrific at fixed point targets. So we said, how 
can we maximize our force to strike fixed point targets, and to 
do it in a portfolio way so that if any one part had a problem, 
the other parts could make up the difference, or at least hold 
its own.
    We found in the case of the B-52, even though it's old, if 
we don't try and fly low, if we don't try and put it over heavy 
defenses, it's a very very good truck and it has a long life. 
It's been refurbished and modernized the airplane. We can hang 
12 long-range conventional air launch cruise missiles.
    If, by the way, there was a redo of the arms control 
constraints, we could make use of the three rotary launchers 
inside and put 24 more on. We said, well, let's just assume 
that has to stay in this nuclear triad, and let's have the 12 
on there. If we have 74 or 70 planes, let's assume in any given 
conflict we can get 35 going right away, that's 35 times 12 
long-range standoff missiles.
    We then looked at the B-2. The B-2 did a superb job 
dropping JDAMs or JASSMs, which was basically the predecessor 
of JDAM, could carry 80, and highly precise 500-pound weapons.
    When we looked at the B-1, we observed it can't fly high 
enough to avoid being targeted not stealthy, it requires a lot 
of ECM. The ECM was not being funded over a period of time. 
Upgrades were not being funded. We said, this is a plane that 
if we don't do anything, one of these days the entire force is 
going to be retired. I can tell you, there are a lot of 
outsiders who when they looked at the building in general, 
continually recommended, these things are not going to be 
suitable in the long-range future, retire them.
    What we came up with was a way to say wait a minute. If we 
don't put them on top of the most heavily defended things, what 
we call medium threat today, which grows over time, and give 
them a standoff capability, we get to exploit the fact that 
they carry three rotary launchers, not just two like the B-2 
does, and they are not constrained by arms control because they 
were removed from the nuclear mission. Therefore, we could 
carry 24 standoff missiles on the interior.
    If you were to take just half the existing fleet as we see 
it, that means 35 B-52s without the arms control limit, 10 of 
the B-2s, and 24 of the B-1s, it means in one sortie, one 
sortie, we can drop roughly 1,800 either 500-pound or 1,000-
pound weapons in one sortie.
    Now the target set in the Gulf War, and we can ask General 
Jumper, was on the order of 200 some targets. That means in one 
day we can drop nine of these large weapons on these fixed 
points, and if not the first day, the sortie of the second day, 
the sortie of the third day. So what we were trying to do is to 
maximize the long-range strike force, the ability to hit point 
targets.
    Recognizing that the problem of the new era is not just 
point targets, they will always be important to a conflict, the 
new era is bringing up things that move deep behind an enemy's 
line, but that move. We did terribly looking for Scuds in the 
1991 conflict.
    The technology of hunting for these is getting tougher and 
what we needed to do was to start to concentrate the notion of 
long-range strike being aircraft and systems on the ground and 
other intelligence systems that allow us to very very quickly 
hunt and kill, but that the fixed point target problem was 
basically well in hand if we could take the B-1 force and 
transform it into something that was longer range. We didn't 
see--excuse me, longer range standoff.
    We did not see the kinds of money coming that just applied 
to the B-1, nor when we looked at trades could we see taking 
money away from maintenance of F-15s, or to take strike units 
away from other units, F-15s, F-16s, etc. So we said what is 
the least cost way of getting the efficiency from the B-1 so 
that we can generate as much savings, and plow those savings 
back into the plane, and that was to take the two bases that 
had the greatest concentration where we had to spend no MilCon, 
where we had to do no additions.
    In fact, we take more planes away from Dyess than we do 
from anyplace else. We took some aircraft--we actually take 
more aircraft out of active units than we do Guard units. We 
could not take airplanes from Ellsworth because that would shut 
the base down since they have only one mission. We took 
aircraft both from McConnell and from Warner Robins as well as 
from other missions, and we wanted to think of other things 
associated with the Guard which I will answer either to you, 
sir, or to Senator Cleland.
    So the least cost way of doing this to generate the most 
funds to plow back was the plan we came forward with. That 
stops people from saying let's do away with these, because 
we've actually demonstrated inside the building to our military 
colleagues that now the B-1 will have a long-range future, and 
we can get the monies to put back in because we have gone to 
the Secretary of Defense, and he has authorized us that 
anything we can save, we can plow back into the remainder.
    Therefore, we will have a viable force that you can count 
on shortly, 1,800 or if arms control restraints are released, 
something like 2,600 big weapons, highly precise, one pass. 
When we go to small diameter weapons, Mr. Chairman, we're 
talking about 5,000 weapons in one sortie.
    We have basically solved the fixed point problem; we are a 
long way from solving deep movers, which was something not 
present in the last era but is very much going to be present in 
this era.
    Senator Reed. Thank you, Mr. Secretary, my time has 
expired.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I want to ask a 
little bit about how you view the role of the National Guard, 
because we are, it looks like we could be looking at a possible 
change here in mission, at least in part, and I wonder if you 
could comment, a little bit about what the Air Force is 
planning as far as the role of the Air National Guard. Are you 
moving it from support, which is an air refueling and lift 
role, rather than one of combat operations, that's the 
question.
    Secretary Roche. Yes, sir, I'm delighted to answer. One of 
the things that we're looking at and this decision certainly, 
this accelerates our look, and I'm delighted to do that is, 
just as we're looking at our whole Air Force and as any 
business person would do, to say would we want it to be the way 
it is, how would we change it, a new era, how should we adapt 
or transform it, we have the same question of the Air Guard.
    Right now, one-third of our strike force is in the Air 
Guard. You can take out the B-1, and there is still enormous 
strike aircraft in the Guard. The Guard's flying hours are two 
and a half times the flying hours of the Air Force Reserve, so 
the Guard is an integral part. But there were parts of our 
systems where the Guard was not excluded, but weren't part of.
    Increasingly, we are going to be an information technology 
force. Even our F-22, it is highly dependent and exploits air 
combat because each plane can interlink with the other in real 
time, and therefore, if you turn away from a target you don't 
have to worry because you can use the other guy's radar as well 
as your own. Joint Stars, AWACS, systems like this are 
increasingly intellectual in content. It isn't just going to a 
place and then pulling a lanyard, there is a lot to it; yet the 
Guard wasn't part of that.
    The Reserve was part of AWACS, but the Guard was not part 
of Joint Stars, not part of AWACS, not part of River Joint, not 
part of a couple of things. When I asked why, it was because 
well, things were the way they were, and I said why don't we 
just take a fresh look at everything, why don't we look across 
the board.
    Where is the inherent advantage of the Guard? The inherent 
advantage of the Guard, and the Reserve by the way, is that you 
have experienced people who in many cases commit for the second 
time to the Air Force; they were in the Air Force, they come 
out and they get into the Guard, so it's a second commitment. 
They tend to be older, you have consistency.
    One of the points that Senator Roberts and Senator Cleland 
both make is true, when you have a consistent group of people 
maintaining an airplane, they get very good at it, and so 
that's their advantage. Where is their disadvantage? They have 
jobs. It's difficult to think of how to deploy them.
    What we're working on now, and we hope to come back to you 
on, is again a portfolio, a portfolio of a Guard, Reserve, 
active, where the Guard can participate in everything, be part 
of strike complexes, be more a part of our space force, and in 
fact the Reserves are a part of the space force and so is the 
Guard, but more so. But in the complex, to assume that there 
may be certain circumstances where we would prefer to see a 
unit be an active duty unit but with Guard as associate 
members.
    But we want to look for other cases where we would have a 
Guard unit with Active Forces as the associate. It makes no 
difference; we can put two logos on an airplane, one on each 
side of the tail, and say okay, if you're the Guard, photograph 
the plane from the port side, if you're active, photograph it 
from the starboard side. But it's the crews--these planes can 
work, work, work; it's the crews who wear out, the crews who 
tire, and we want to try and put them together.
    So my sense is they are going to be more a part of the 
larger Air Force and really be more a part of the total force 
than they have been in the past.
    Senator Allard. Major General Weaver, do you think the 
National Guard would be willing to become more a part of the 
national force and have that, be able to meet that sort of 
increased volume?
    General Weaver. Yes, sir, those are great words for our 
guardsmen and women. If you look down the Chief of Staff's ops 
summary this morning, you see about 8,000 active duty men and 
women deployed doing our Nation's work and in my ops summary, 
you will see about 3,200 men and women of the Air National 
Guard doing our Nation's work as well. What makes that so great 
is that they are side by side everywhere in the world together, 
and that didn't come about overnight.
    Since Desert Shield-Desert Storm, we've evolved a total 
force better than any other service, and I am very proud to say 
that, because of the leadership of our Air Force, the 
inclusiveness of the Guard and Reserve in everything that we 
have accomplished, especially in the last 10 years.
    When the AEF evolved, it was a welcome opportunity for us 
in the Guard and Reserve to be a part and to be invited to the 
fight, something we had been trained so long to do. I can tell 
you that our OPTEMPO today in the Air National Guard alone is 
equal and exceeds that of our Desert Shield-Desert Storm 
experience daily. That is a tremendous personnel OPTEMPO for 
the Guard. It's also interesting to note that we have the 
highest retention rate of any component, any component in the 
entire DOD, in the Air National Guard of approximately 92 
percent. Our best retention of our Guard units are the ones 
that are the busiest.
    This happened because of the leadership in our Air Force 
included us in our day-to-day activities. We cannot back up. We 
have a success story second to none. General Jumper 
specifically asked for our A-10 capability during Kosovo. As we 
were notified, we flowed three units into that fight. 55 hours 
from the time they left CONUS we had bombs on target and we 
were flying out of Trapani. It is a tremendous success story.
    So when the Secretary talks about the future and what, he's 
looking for us in a new look, we welcome that new look as well, 
and we're ready and prepared to stand up to that.
    Senator Allard. Mr. Secretary, how involved, have you 
brought in the adjutants general, the state adjutants general, 
have they been brought in to a lot of this discussion, and if 
they haven't been brought in, why weren't they? In other words, 
to what degree were they brought into any discussion?
    Secretary Roche. With respect to the adjutants general of 
specific states, I have not had to speak with them yet, 
although I will be going to Indiana early next month, but I 
think General Weaver certainly has.
    We have set up three integrated product teams to take a 
look at this, and this is what we had hoped to say had this not 
come out so badly. One is for each of the bases, actually there 
are four, to look at the different bases from where we are 
making withdrawals. The other is to take a look at the 
relationships with the new era of the Guard, Reserve and the 
active force across the board. It has General Weaver touching 
base with the adjutants general. It has our senior personnel 
general, and it has our operations unit, General Fogelsong and 
General Baker.
    So we have a sense of where is the comparative advantage 
and where can we separate commitment from enthusiasm. So 
General Weaver is wonderfully enthusiastic that his folks can 
make everything. We're saying okay, but what if you can't. We 
have more of a temporal strategy that sets up gates. When you 
start to maybe take a unit, turn it over to the Guard, have the 
active as an associate, and get through Phase A, then Phase B, 
and by gates, get to the point so that we don't create a 
situation of failure.
    So I think General Weaver is our primary contact to the 
adjutants, but I welcome their views. I mean, there is no God-
given truth here, Senator. We are trying to take talented 
people in three categories and apply them to a set of assets 
that in many cases has not been modernized the way it should to 
be able to fight in a joint domain.
    Senator Allard. Mr. Chairman, I see my time has expired.
    Senator Reed. Thank you, Senator Allard.
    Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman. Mr. 
Secretary, and gentlemen, I know that this is an awkward moment 
here, and that both this subcommittee and you wish the timing 
of this had been much better. If we can look at this hearing as 
maybe the beginning of the process and see it as something that 
is a normal part of the process of your decision making, maybe 
this will go much better.
    The point being, we would have these questions anyway. Had 
you had better time to prepare, better time to coordinate and 
consult with us, these questions would have flowed normally in 
the course of events. We are all having to play a little catch-
up ball here, so let me see if I can go directly to a point.
    First of all, again, in terms of the global dialogue 
Senator Roberts and I attempted last year, one of the things we 
realized was that you cannot reduce American forces and 
equipment unless you begin to reduce our commitments abroad. I 
notice today that the President was in Camp Bondsteel in Kosovo 
and reiterated the NATO line ``in together, out together'' and 
it looks like they will be there for years. The point being, we 
see no know way out of the Balkans; we see no way of reducing 
that commitment.
    I do not see anywhere on the globe where commitments are 
being reviewed. Therefore, I have a problem with willy-nilly, 
arbitrarily reducing forces and infrastructure and equipment. 
But I do see your point about modernization. General Jumper, 
and Mr. Secretary, I may be crazy, but I'm not stupid.
    I mean, I understand you have to have some money to 
modernize and to adopt a new strategic plan, leaner, meaner, 
longer strike, more lethality on the target. General Jumper, I 
just finished reading General Clark's book on Waging Modern War 
in which you played a key role. One of these days we want to 
get into specifically some of the lessons you have learned. 
But, I know you have to make some changes.
    If the change that you wanted to make in terms of the B-1 
bomber program was driven by cost effectiveness, one of the 
major questions I have had with the decision is why, in the 
face of the cost effective operation that the Guard provides, 
specifically at Warner Robins Air Force Base in Georgia and 
McConnell Air Force Base in Kansas. That was validated by a GAO 
study 2 years ago that indicated it was the Guard that ran the 
most cost effective efficient B-1 bomber program in the country 
and therefore, the GAO recommendation 2 years ago was that the 
Secretary of Defense ought to direct the Secretary of the Air 
Force to turn more of the program over to the Guard if the goal 
was, and could save millions by this. If this was driven by 
cost effectiveness, there is at least a legitimate question as 
to why you did not consolidate around the Guard.
    Now, I understand your problem about deployment, the 
ability to strike long, strike quick, and in the Guard they 
have jobs and so forth. But with the concept of one Air Force, 
and probably the Air Force does the one service better than 
most, it does seem to me that that's a legitimate question. Did 
you and your staff consider at least the option of 
consolidating around the Guard as opposed to walking off 180 
degrees in the other direction and consolidating the whole 
program around the active force and in effect leaving the Guard 
out?
    Secretary Roche. Senator, when we did this, as I said over 
and over, this was a decision looking at the B-1 weapon system 
and it was not a decision as a Guard, that was a fallout. What 
we found once we decided what kind of monies we needed to be 
able to reach a break point so that you could modernize without 
having to go in and rob other things, which as General Ryan has 
pointed out, are equally behind, but how can we make this an 
effective force, among other things so that we avoid in 5 years 
being told to do away with the whole thing.
    We looked at where, what is the cheapest way to do this. 
Well, it turns out the most planes were at Ellsworth and at 
Dyess. Second, Dyess was the schoolhouse. Therefore, to move 
from there to say McConnell or Mountain Home, or Warner Robins, 
was going to cost us more money.
    I want to make sure that I agree with you and Senator 
Roberts, although we may differ in the distance between how 
effective a Guard unit is and how effective an active unit is, 
the fact that you have experienced people who stay with a 
particular plane over a long period of time pays off. That is 
absolutely correct. But the same talented people could work on 
other planes. So it was a B-1 decision and now we're working to 
say that we have pools of talent.
    With people for instance from Mountain Home, we are 
actually going to redeploy elsewhere. We have open billets 
elsewhere in the Air Force to make our expeditionary forces 
work. Now those are the active folks. Same thing at Dyess; 
we're actually going to move a number of those folks out.
    With regard to the Guard units at McConnell and Warner 
Robins, we have a process to work with those units, with the 
Guard, with the operations part of the staff, with my 
colleagues, and we owe you an answer in 30 days. We have some 
idea ideas that we think are exciting.
    Now someone else may not say they are as exciting, but if 
we think of trying to meet the Nation's requirements in 
general, I know Senator Roberts would agree with this, that 
being at the end of the lanyard to me is part of a strike 
complex. If you're on a Joint Stars and you are the person that 
says that's the appropriate target for people to attack now, I 
think that's a terribly terribly important thing as part of the 
reconnaissance strike complex that we're building.
    So the issue was not a Guard issue, it was a B-1 issue. 
With respect to the bases, it had to do with what was the most 
efficient. It was small numbers at the two Guard units, and 
that is why we consolidated at places where we had to spend no 
more MilCon, had no more expenses, and we could not shut down 
Ellsworth because it would be a pratfall.
    Senator Cleland. Just for the record, it seems that the 
National Guard units in the Air Force seem to have a better 
ability to deal with the B-1 program, have a better mission 
capable rate, 15 percent higher than active duty, and the 
National Guard operates B-1s at 25 percent less cost. I just 
thought I might point that out.
    Another point here in terms of the Guard role, do you 
foresee that, or do you intend to keep combat capability, and 
by that I mean bomber and fighter units, in the Air Guard?
    Secretary Roche. Senator, I want to make sure my semantics 
are right here. I consider a strike complex as a combat 
capability.
    Certainly, and I'll use Senator Roberts' metaphor, pulling 
the lanyard, which I have used before, we will have F-15s, F-
16s, and in time we are going to have Joint Strike Fighters, 
hopefully F-22s, in the force. With regard to the bomber force, 
the most efficient picture we have currently is the B-2s are at 
Whiteman, they're active; the B-52s have a reserve force and an 
active force; the B-1s are now consolidated to these two, or 
would be consolidated to these two bases.
    But there are other aspects of strike, both in terms of F-
15s, F-16s, which remain. One-third of all of our program 
strike aircraft is in the Guard and it's going to be there, 
unless we have to have some wholesale closing of things based 
on future budgets at some point. But we don't envision taking 
them out of that, as much as we envision having the Guard 
looking across the board, and where you have comparative 
advantage, which in many cases, it does.
    Senator Cleland. Let me talk about infrastructure just for 
a second. Over the last 8 to 10 years, the Air Force has 
invested, just in Warner Robins alone, $70 million worth of 
infrastructure. Just 2 months ago we dedicated a $40 million 
brand-new hangar for nine B-1s.
    Secretary Roche. The Joint Stars will go in there great, 
Senator.
    Senator Cleland. That would be nice. But may I say that it 
is a little bit hard to believe that walking away from 
infrastructure, that kind of infrastructure at Warner Robins 
and in Kansas and in Idaho, walking away from that 
infrastructure, and that somehow that saves money and you do 
not have to duplicate that hardware, software and training 
capability somewhere else when those planes come in, I mean, 
you seem to indicate that it would not really cost any more 
money if you deployed them to Dyess and to South Dakota.
    Secretary Roche. These are not being deployed, sir. What we 
are doing is just keeping some there. In fact, we are reducing 
the number at Dyess and keeping the same at Ellsworth, so no 
change occurs there, there are no costs there.
    The test equipment which is currently at three other 
places, we are going to consolidate, and one of the points that 
General Jumper's folks have come up with is that if we can 
predeploy those, one to the Atlantic area and on to the Pacific 
area, we can in fact move B-1s much more rapidly into a region 
and have them there before conflict begins.
    Senator Cleland. My time is up. By default I am now the 
chairman, which gets us all in trouble. Senator Roberts is 
next.
    Senator Roberts. Well, there has been a false change in the 
Senate, that is for sure. [Laughter.]
    I want to go back to the budget and strategy business, and 
General Jumper, by the way, mega-dittos in regards to Chairman 
Reed's comments on your soon-to-be appointment. We look forward 
to working with you. I think--I am paraphrasing here, I used to 
be in the newspaper business, I could write it down but I could 
not read my writing--the world has changed, we have not been 
able to fund the bomber fleet as we would have liked. The 
comments by the Secretary, yourself, and I am sure any other 
witness that will respond to this is that this seems to be, 
again, to be primarily budget-driven, although we are making a 
pretty good stab at what the strategy will be with the budget 
numbers that we have to live with.
    That is still of concern to me and so my first question is 
sort of a larger issue question, you referred to it, Mr. 
Secretary, but feel free to say it again. I am a little 
concerned that this is an example or may set a precedent for 
any other capability that would be underfunded. Now we have the 
F-22, we have the C-17, and we have some funding pressures in 
that regard. Are we going to plan to cut the force structure 
for those programs to match the funds available, and if not, 
why not, and why was this approach taken for the B-1? Get me 
into the larger framework here, and I think I probably ought to 
go to you, General Jumper. Secretary Roche answers the 
questions too well and goes on, and we cannot ask another 
question.
    General Jumper. Yes, sir, I understand. Sir, from my point 
of view as the commander of Air Combat Command, this is a 
capabilities question. We had 93 bombers out there in the B-1 
force, part of the bomber road map, part of our plan a decade 
ago that ended up not being capable of being used in actual 
combat. In Operation Allied Force, we put the B-1 into combat 
but only after we had to rush through final testing of that 
airplane in the last few minutes; as a matter of fact, it was 
test crews that deployed with the airplane.
    I sat and watched the first night as we deployed the B-1s, 
as it came around the peninsula. We watched the radars in 
Montenegro look at the airplanes as they came up through 
Macedonia, and watched them hand them off to the SA-6s, the 
surface to air missiles in Kosovo, we watched the missiles come 
off the rail, and it was the ALE-50 decoy, towed decoy, that 
saved the lives of those pilots that first night.
    That airplane went on to serve with distinction throughout 
the rest of the Kosovo war and dropped a great percentage of 
the tons of bombs that we put in that night. But the question 
that we had to address right up front was that we had to employ 
this airplane in a medium threat environment and in the 
construct of the way we employ our bomber force, the B-2 is the 
one that's able to penetrate. When we're able to join the B-2 
up with the F-22, we will be able to penetrate 24 hours a day. 
Right now, we use our stealth assets only at night.
    The B-52 stands off, as the Secretary said earlier, with a 
standoff force, and we're able to exploit its great carrying 
capability for standoff, and the B-1----
    Senator Roberts. Let me interrupt you, and I apologize for 
doing this, and I really appreciate the experience that you are 
citing to us on the role of the B-1, but that really was not my 
question. My question was, and I want to go back to Secretary 
Roche, and I apologize for doing this, but basically, is this 
an example for a blueprint? As has been noted today, we are 
going to have a lot more funding problems, it is $18 billion 
that I think we are going to come up with in regard to the 
military, some say even $118 billion, but is this a blueprint? 
We are going to have problems with the C-17 and the F-22. Are 
we going to be cutting force structure to meet these budget-
driven decisions, Mr. Secretary?
    Secretary Roche. Sir, that's a decision that the Secretary 
of Defense and the President would have to make. I certainly 
hope not, but I don't think you want us to give you a hollow 
force. I think you want us to be very straight with you and if 
something can't go into combat, and General Jumper is trying to 
make that point, sir, that that plane went in on the ninth 
night, the B-2 was there on the first night, the B-52 was there 
on the first night. If you underfund over time a force like 
that, you don't catch up. So in the future, I'm hoping this is 
not a model.
    Senator Roberts. Do not misunderstand me and the members of 
this committee because every member of this committee, we were 
all there 3 or 4 years ago when the service chiefs were there, 
and the Chairman of the Joint Chiefs and all of them with the 
exception of General Krulak indicated that well, we think we 
can do this. General Krulak said no, we will do the mission but 
we cannot do this with the proper funding. Now that was about a 
spring meeting and we got into September and basically your 
Senate Armed Services Committee and others on the House side 
stepped up and said we cannot continue this business of being 
stressed, drained and hauled, so I would agree with you. I am 
worried that this is going to be a blueprint for what we do 
down the road, you do not want that and I do not want that 
either.
    Now, here is a statement made by your predecessor, F. 
Whitten Peters. Are you familiar with the report? Here is the 
report from 1999 ``Long-Term Bomber Force Structure.'' It 
describes the long-range bomber's significance in protecting 
U.S. national security interests and articulates the Air Force 
vision of long-range bomber employment in support of national 
security and military strategy.
    Pardon me for reading this whole thing. ``From this vision 
emerges an overall concept of operation both current and 
evolving that harnessed potential long-range bomber 
capabilities integrated across the whole spectrum of conflict. 
To insure the continued viability of the long-range bomber 
fleet, this road map identifies near-term, mid-term, long-term 
modernization priorities, with the intent of guiding current 
and future strategies.''
    That is the kind of report that Senator Cleland and I and 
others are referring to as the total picture of where the Air 
Force is going with its bomber fleet, and I support such a 
look. I also say that this plan should be part of a defense 
wide effort to integrate all weapons platforms into the defense 
strategy. Again, I emphasize the word strategy rather than 
service specific. But it is better than a back-of-the-envelope, 
resource-driven budget cut which we have all apologized for and 
we are trying to understand.
    Now, we have several reports that are due. The National 
Security Strategy Reports, pursuant to Section 603, Public Law 
99-433, due date not known yet, but it is fairly quick. The 
QDR, September 30 of this year; National Defense Strategy 
consistent with 901 of Public Law 106-65, due date September 
30; and the Revised Nuclear Posture Review, I am not sure that 
is relevant.
    My question is, in reference to that report cited by F. 
Whitten Peters, our former Air Force Secretary, these strategy 
reports, was this decision made prior, other than it is budget-
driven, prior to these studies? I mean, if we are going to be 
making decisions like this and other decisions that I think 
could be forthcoming, why have the study?
    Secretary Roche. Senator, in all of our looks, long reach 
is important. The B-1 fleet as it was progressing was not going 
to be viable in future threats, that's part one. We wanted to 
stop that and to make it viable.
    Second, when we looked at what we could deliver under those 
circumstances, the 1,800, just take the minimum, the 1,800 
weapons just using one half of the fleet that would be around, 
per sortie, said we will exhaust the fixed point target set 
very very quickly. Increasingly as we have looked at things, it 
is these other problems that are more important to us, missile 
launchers, things that move, command posts, mobile SAMs, and 
that's a problem we have to address.
    If we can fix the problem of the fixed point targets, which 
we believe we have, that is strategy driven. We could turn to 
the Joint Staff, we could turn to the Secretary and say, we 
believe this is robust and can take on with minimal loss of 
aircraft that many attack targets per sortie.
    Senator Roberts. Okay. Now your decision to go from 93 to 
60 really speaks to that in regards to points you are, making 
and I do not think anybody here is really objecting that much 
to 93 to 60. I can go back and refer to statements from General 
Lowe, and I have a great statement that has been in the press 
by a major who flies the B-1, and we can get into all that, but 
I do not think that is the question we have.
    The question we have basically is what Senator Cleland 
indicated, the role of the Guard, the role of Congress in 
really giving this mission to the Guard, the change in that 
policy and where we could do it better at less cost to achieve 
the very things that we both want.
    My time has expired, but I have several other questions 
more particularly for General Jumper and also General Weaver.
    Senator Cleland. Thank you very much, Senator.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Secretary 
Roche, I appreciated the opportunity we had last week to visit 
on a number of issues. I appreciate very much that occasion, 
and I also want to thank you and your colleagues for being here 
today.
    Among the things we spoke about last week included, were 
the discussions about how you develop the total force and how 
you integrate Reserve, Guard, and active service personnel. We 
spoke also briefly about what is happening at Offutt Air Force 
Base with the Flying 55th integrating the Nebraska National 
Guard, the Air Force part of the Nebraska Air National Guard, 
with the future total force initiative where there is an 
integration of the available personnel certainly in the area of 
pilots filling the void left by departing and transitioning 
senior pilots.
    So I know, General Weaver, that Major General Lempke, who 
is the Adjutant General for the Nebraska Air National Guard, 
and the National Guard as a whole unit, is very excited about 
what this portends not only for the Nebraska-based National 
Guard, but that it can serve as a model for other areas and 
certainly for other branches of the military as well.
    Mr. Secretary, and then, of course, General Weaver, can you 
give me some idea of what is happening without regard to the B-
1, for Senator Roberts has not been so upset since Nebraska 
beat Kansas State in football a few years ago, about B-1, so I 
do not want to bring that up again. [Laughter.]
    Senator Roberts. It has been a few years ago since you beat 
us.
    Senator Ben Nelson. I know. I am playing the straight man 
for you, Senator.
    But what is being done in other bases, other branches and 
other parts of the spectrum of getting a total force, what is 
happening elsewhere?
    Secretary Roche. I'll start and then I'll turn it over to 
Paul.
    We would like to look at everything and have everything on 
top of the table. We also would like to look at where does it 
make sense to have the active unit have the unit equipment as 
part of its organization, or where should the Guard or where 
should the Reserve unit. Where we have tried these associate 
squadrons, they work very very well because the equipment can 
be used more, it's the people who are the stressing part.
    We want to look at, as I said, areas which have this high 
intellectual content in terms of the stress. An operator in the 
back of an AWACS, an operator in the back of a Joint Stars, is 
an extraordinarily stressful job, and piloting a high speed 
airplane is also very stressful, but the hours that are 
involved in some of these surveillance reconnaissance strike 
aircraft are very stressful.
    Here we are trying to integrate the Guard into those, 
trying to find areas where it makes more sense for the Guard to 
do things. For instance I looked at one point and said if I 
were governor, this was just me speaking, the notion of lift 
and tankers have advantages, because tankers have a lot of room 
to haul stuff and if there were an emergency in the state, then 
there is something there that can be easily used.
    I think the Secretary of Defense sees the National Guard 
having a major role in homeland defense in terms of potential 
biological weapons or something else, and we are trying to 
think of how can our Air National Guard be a good adjunct to 
that, what can we do for the state or for a local region as 
well.
    So all of this is on the table and what we are trying to do 
is to say what makes sense, what's the right kind of long-range 
planning for this. Paul.
    General Weaver. Senator, your great Adjutant General, Major 
General Lempke, has been really instrumental and helpful in a 
lot of these things that----
    Senator Ben Nelson. Excuse me. He is very enthusiastic, as 
you well understand.
    General Weaver. We looked at a few years ago, and General 
Wehrle, our Air Force expedia also assisted us as we looked at 
the retention challenges within our Air Force, of people 
getting off active duty and staying there in the local area of 
their Air Force base, and then having that experience there, we 
looked at the possibility of stepping into what was new for us, 
an associate program, and Air National Guard associate program.
    We had many wing commanders on the active force come up on 
the net by saying we have many people who are getting off 
active duty here, would you consider an Air National Guard 
associate program. We've been working with ACC and Air Mobility 
Command as well at these different locations. For instance, we 
started an Air National Guard associate program down at Tyndall 
Air Force Base, our F-15 training facility there which will 
eventually get F-22s, so we will be involved in that.
    We're looking at setting up an Air National Guard associate 
program right here at Offutt Air Force Base to employ those men 
and women getting off of active duty. We are not encouraging 
that, we want them to stay on active duty, but if they do make 
that decision, that they can still be wearing the uniform and 
be part of that total force program that we have been so 
effective in creating.
    So we are looking and exploring, and the Secretary has 
promised us that he wants to explore that even more, and that 
has been very encouraging to us as well.
    Senator Ben Nelson. I applaud your efforts in this regard 
and encourage you to continue to look for similar ways of 
dealing with retention issues and certainly many of the 
personnel that you are working with here are retiring from the 
military but continue to be active pilots, generally in the 
commercial area. So it clearly is an advantage to the budget 
but also to beyond the budget considerations, just simply 
hanging on to well-trained personnel and keeping them 
integrated into the total force structure.
    General Weaver. Sir, the best business case that I can make 
on that is all of the training and well over 50 to 60 percent 
of our people are prior active service, and all of the money 
that we as American taxpayers pay for their training were 
retained in the Guard and Reserve to continue to do that work 
that they so love doing. We do create that stability of the 
work force, and thanks to the Congressman Montgomerys of the 
world, the GI Bill has also helped us greatly in our retention 
efforts as well in those areas.
    So again, it's a great total force partnership that we're 
very proud of.
    Senator Ben Nelson. I raised this question with other 
branches, whether or not they are looking at similar types of 
programs, and that's not up to you to explain what your 
colleagues in the other branches are doing, but I hope that 
they will look at what you are doing as well as you may in fact 
look at what they are doing and get a lot of cross pollination 
if you will, certainly a lot of ideas that could be shared back 
and forth among the branches. I think it is one of the critical 
ways to deal with the personnel and the issues they have with 
respect to recruitment and retention.
    So, thank you very much.
    General Weaver. Sir, if I may have one more comment, that's 
not only going for the aviators as well. In September of this 
year, Beale AFB, which is one of our AEF locations, will be 
almost entirely run by Guard and Reserve for the first time in 
history. That shows how seamless we are.
    Senator Ben Nelson. I think the importance of this project, 
this initiative, is that we are not dumping down the structure, 
because you are keeping in place people who are highly trained, 
highly skilled, and as you say, in whom you have invested great 
sums of taxpayer dollars, so this is not weekend warrior games, 
it's a legitimate decision by the military and it has not only 
good military strategies associated with it but good business 
considerations as well.
    General Weaver. Thank you, sir.
    Senator Reed. Thank you, Senator Nelson. This completes our 
first round and I think with the concurrence of my colleagues, 
we will initiate a second round of questioning.
    Senator Roberts. Three.
    Senator Reed. I thought I would get a good response to that 
question.
    Mr. Secretary, in the course of our discussion this 
morning, most of what we have been talking about rests upon the 
capabilities of the airframes, and the B-1 has always been a 
plane in search of a mission in many respects. It was designed 
to be a low-altitude high speed penetrating bomber, but now you 
appear to be configuring it as a high-altitude standoff 
platform. Are we in a situation where for many reasons, 
strategic as well as budgetary, we are trying once again to 
transform the B-1 into something it is not and the resulting 
cost of that transformation affects decisions about how many 
aircraft we will have, where we will station them? Can you 
allude or give us some context of your views on this?
    Secretary Roche. Yes, Senator. In fact you're quite right, 
the B-1 was designed to be a nuclear delivery vehicle, very 
high speed, very low. We can't convert it into a high-altitude 
plane, it just doesn't fly that high, but we can fly it at 
economic levels. If it's a standoff aircraft then it can 
contribute to attacking fixed point targets without having to 
risk the four persons on board going on top and dropping 
precise weapons.
    B-1s have been outfitted, a number of them, with JDAMs, 
that requires they get very close to a target. We recognized 
that over time because it can't fly high and it's not stealthy, 
that that's going to be a problem. So the transformation is to 
take something that exists, and I think the B-52 is in the same 
category, and to take a system that was meant to be a nuclear 
bomber, it no longer can really hold its light if you start 
going in at very low altitudes. You don't have to anymore, it 
can stand off, it can fly high, easier on the plane, easier on 
the crew, and launch its missiles to do the work.
    It is the same thing with the B-1. The B-1 has this 
advantage of the three rotary launchers; even the B-2 only has 
two. Those three rotary launchers means everything is internal, 
you have less drag, and you in fact can drop 24 weapons on one 
pass, and 24 standoff weapons. So the transformation of a 
platform into a new era is not an unreasonable thing; we do it 
with aircraft carriers all the time just be changing the type 
of airplanes on board.
    This was driven by the fact that it was quite clear that 
the bow wave of maintenance and upgrades to this plane was just 
getting worse, it was the worst of the three. We didn't see how 
we were going to get money from someplace else. We did believe 
we had an obligation to not just come here and beg for more, 
but to look at it and say could we get something that was 
better, and without adding additional costs, and that's what we 
did, sir.
    Senator Reed. Will you recapture these costs for the 
improvements in the B-1 you must make?
    Secretary Roche. Secretary Rumsfeld has given his word and 
directed to do that, and the fiscal year 2002 budget was, in 
fact, the beginning of that.
    Senator Reed. Let me ask General Wehrle, not just with 
respect to the B-1 but across the spectrum of the bomber fleet, 
has the Air Force program provided sufficient resources to 
continue to support the vision of the bomber as outlined in the 
white paper?
    General Wehrle. Sir, we wish we had enough money to do it 
exactly the way we had laid it out. We have been under, as you 
well know, an umbrella of a 30 percent decrease in resources 
since 1989 and you have to make trades, you have to set 
priorities and you have to take risks.
    Currently for example in the B-52 fleet, there is $4 
billion devoted to the B-52 right now, with $1.4 billion 
disconnected. Disconnected means where we would like to be 
versus where we are, primarily in avionics upgrades, data 
links, etc.
    Senator Reed. That's over 1 year?
    General Wehrle. Over the FYDP. The B-2, we have $3.7 
billion in the budget over the FYDP. It is $600 million 
disconnected, you will see a portion of that in our 2002 
unfunded priority list. The same with B-52s. The B-1 on the 
other hand, with 93 aircraft, is a $6 billion program over 
FYDP, and $2 billion disconnected.
    As we look capabilities based, as General Jumper just 
talked about a few minutes ago, the issue is not how many 
airplanes can you put in the air, the issue is what's the 
capability you want to be able to do. The capability of the B-
1, as was so eloquently said earlier, is on the fixed target 
capability and precision long-range standoff, because it is not 
survivable in its current setup.
    So our key was all right, if we can at least, as the 
Secretary just said, is there something that we can do to try 
to make the B-1 fleet as whole as we possibly can, because we 
just didn't see somebody laying in $2 billion over the FYDP to 
fix that one particular airplane when they are so broke in 
other areas. The answer was yes.
    Of course, we have to go to the operators and say, what's 
the issue here? Well, the issue is the capabilities, can we do 
the mission as the vision outlined of hitting fixed targets 
with the amount of aircraft that we're talking about, and 
reducing the B-1s from 93 to 60. The answer was yes, just as 
Secretary Roche said.
    With that, we thought that we would propose a solution to 
be able to try to fix within our own means a problem that we 
just didn't have enough money to fund.
    Senator Reed. Across the whole bomber fleet though, you 
still have significant unfunded requirements?
    General Wehrle. Absolutely, sir. If you add that up over 
the FYDP, $2 billion just for B-1, and $2 billion for the B-2 
and the B-52 combined, and that's the whole FYDP, so that's $4 
billion disconnected over the FYDP.
    Senator Reed. To what extent does this represent a 
deterioration rather than not just upgrading, are you at that 
point?
    General Wehrle. Sir, most of my AQ colleagues, acquisition 
colleagues, get more into it, but for most of the upgrades, for 
example in the B-52 data links, avionics upgrades, 1760 bus, 
which is a smart, ability to carry smart weapons, etc. Into the 
B-2, we're talking about communications that we found out 
problems in Kosovo. We're talking also the data links, beyond 
line of sight and the line of sight data links. Stealth 
material in the B-2.
    The B-1, not only is it the conventional munitions upgrade 
and the defensive capability, but it is also the spare parts, 
the shortage of spare parts and shortage of support equipment 
for that particular aircraft, spread among five bases. Again, 
the plan would be to consolidate that and hopefully if the 
operators would like to do that, preposition those into places 
where we think the B-1 would deploy to. It takes a lot of lift 
to get these special test stands and support equipment forward 
deployed. So that was our thinking on that.
    Senator Reed. Thank you, General.
    Senator Allard.
    Senator Allard. Now, maybe General Wehrle, you are the one 
to ask this question, or maybe Secretary Roche, I am not sure 
which one, but anyhow--they are pointing at each other here--
but the figure you used to upgrade the B-1, did you say 9.3 to 
take care of everything?
    General Wehrle. No, sir. $2 billion over the FYDP. The 
total amount that we have in our budget right now for the B-1 
is $6 billion over the FYDP. However----
    Senator Allard. Then you add another 2.
    General Wehrle. Another 2 to do the spare parts, the 
support equipment and the conventional and defensive weaponry 
that you want to do.
    Senator Allard. Okay.
    General Wehrle. Currently right now, sir----
    Senator Allard. Let me interrupt. That would be, just 
assuming that you wanted, instead of taking the 93, you drop 
down to 60 to get the money to upgrade them. That's assuming 
that we just kept it at 93 and brought everything up.
    General Wehrle. Yes, sir. If we reduced it to 60 and if we 
had started in October of this year, which obviously we are 
trying to take all of this to work on, the savings was $1.5 
billion, 165 roughly in fiscal year 2002, which we're not going 
to realize, because we are not going to make that change as 
quickly as we were directed to initially.
    So it's about 1.3 billion out of the 2 billion that we will 
be allowed to directly put into the B-1 fleet; obviously, your 
math will tell you it's still disconnected, but we have to work 
that, and we can work with a number like that. When you end up 
with $2 billion, it's difficult.
    Secretary Roche. Senator, if I may?
    Senator Allard. Yes.
    Senator Roche. The big difference is in the case of the B-
52 and the B-2, the upgrades that we're behind are things that 
will make it even better. There are things about stealth we'll 
worry about with the B-2, we'll take care of those. We're 
talking about enhancing its capability, which means that we 
don't fear putting them into combat, either one. The B-52 will 
stand off, the B-2 will go on top.
    The B-1, the problem is we fear putting it into combat 
without these.
    Senator Allard. Okay. Now, if the Quadrennial Defense 
Review is going to emphasize a requirement to project power at 
a wider range than you have addressed it, and indications are 
it will, aren't bomber forces more responsible to this need for 
forces which require bases within a theater? I would just like 
to hear you discuss a little bit as to theater forces versus 
the long-range bomber, and how you would react to that 
question.
    General Jumper. Sir, we demonstrated in the Kosovo crisis 
taking bombers and fighters out of England over 2,000 miles one 
way to targets, and with the help of our tankers we can use 
both the bombers and fighters in a long-range role. In the case 
of the B-1, the issue was certainly to take advantage of the 
range of the aircraft, but the capability of the aircraft once 
it arrives becomes the major issue with the B-1. So these 
trades in the B-1 were made to make it capable as it arrives.
    Also, I might add that one of the capabilities that we used 
on the B-1 in Kosovo was actually more in the close air support 
mission where they orbited and were able to respond quickly to 
short-term time critical targets. We were able to put the B-1 
to use there too and its ability to carry a great load will 
become more viable there, again, in the immediate threat. So, 
the capability of the airplane is what we emphasize as we make 
these changes.
    Secretary Roche. Senator, your point about the reach is 
relevant. Bombers are long-range strike aircraft. We have long-
range, medium-range and short-range. Long-range strike aircraft 
are very very important, but they have been oriented 
principally, and we don't see a way out of this, to the fixed 
target. What we are doing is taking sets of razors and 
producing families of razor blades which really handle that 
problem.
    Where we are facing difficulty are things that move that 
are deep, which is very different from the past. Things that 
move tend to be close to what's called the forward edge of the 
battle area (FEBA), close to the line of battle. Now we are 
seeing a world where things in the back can get you, and we saw 
that in 1991, and we have to make real progress in that area.
    There the bombers are not as helpful. Something like the F-
22, which if it has a target can be over hostile territory in 
an air defense environment and it can get to the area where it 
can drop a weapon, becomes much more attractive in these 
circumstances.
    Senator Allard. Thank you. General Wehrle, you spoke of 
disconnect over the fiscal, the fiscal defense budget. Would 
you submit for the record the disconnect over the last 5 years 
for the B-1, B-52 and B-2?
    General Wehrle. Absolutely.
    [The information referred to follows:]

    General Wehrle. The tables below show the estimated additional 
funding each platform could have executed (over and above approved 
budgets) in pursuit of bomber roadmap modifications in an unconstrained 
fiscal environment.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal Year
                                                     -----------------------------------------------------------
                                                         1998        1999        2000        2001        2002
----------------------------------------------------------------------------------------------------------------
B-1.................................................        47.6        10.8        10.2        49.5       131.1
B-2.................................................       348.0       436.0       512.0       603.0       735.0
B-52................................................         0.0        23.0         6.0         7.0        42.0
----------------------------------------------------------------------------------------------------------------


    Senator Allard. Thank you. Mr. Chairman, I still have some 
time remaining, and I would like to recognize Senator Roberts 
to use the rest of my time.
    Senator Reed. Then Senator Cleland.
    Senator Roberts.
    Senator Allard. I still have some time left, which I am 
yielding.
    Senator Roberts. Or you can use a bank, an ATM kind of 
thing.
    If I could sum up the testimony today, I think it has been 
good testimony and it has been an excellent hearing. The first 
question seems to me to be, is the B-1 a viable aircraft to 
perform long-range strike capability in view of the access 
denial challenges we face in today's world? I think the answer 
is yes, but obviously we have budget problems to upgrade the 
airplane as we want to, and the decision has been made to go 
from 93 to 60. But if it is yes, then the question is, is that 
figure right, from 93 to 60. Of course, the obvious next 
question is who performs the mission.
    But let me just say that in regards to the B-52, B-2, B-1, 
all of them were designed because of the threat of the former 
Soviet Union, and to sort of pick on the B-1 doesn't seem to be 
entirely fair. But if, in fact, the 60 is viable, why can we 
not go to 93? Well, the answer to that is the budget, and I 
want to get back to strategy and when we get back to strategy, 
I want to get back to process in regard to who had input in 
regard to this decision.
    So I am going to ask the question of General Jumper and 
General Weaver. As has been indicated, this decision has a lot 
of implications for both the Guard and the active duty, and my 
question is, did you play a role in the decision to remove the 
B-1B fleet from the Air National Guard and then did you play a 
role in the decision of determining the number of aircraft to 
cut, and is the decision to take the B-1B away from the Guard 
supported by each of you. I will start with General Weaver.
    General Weaver. Sir, this was a tough decision for us in 
the Guard: I have been in the building now almost 8 years and I 
can say that this was the toughest, especially from where we 
were in the Air National Guard in both of the facilities, both 
at Robins, at Dobbins and at McConnell. We had 72 F-16s, a 
great training unit at McConnell, we had an outstanding F-15 
unit in Georgia. We asked all of our guardsmen and women in 
both places because of the needs of the Air Force at that time 
to give us both those missions, of which we were extremely 
happy with and we were very proficient in, in Georgia's case 
not only to pick up and move our families but then to go into a 
new weapon system, and in Kansas's case, taking a great 
training unit and going into the B-1s, turning in 72 F-16s into 
8 B-1s.
    That was difficult, and it's even more difficult right now 
with our 2,400 men and women at both places, with this 
decision.
    Senator Roberts. General, pardon me again for interrupting, 
but the question was, what role did you play in the decision 
making process, not only in regards to the Guard decision but 
also the number. I mean, was this----
    General Weaver. This started out as a ``what if drill,'' 
sir, but I had also seen this ``what if drill'' 7, almost 8 
years ago when I first came into the building.
    Senator Roberts. I understand that, but I mean in the 
process of it, did you have input, or was this a fait accompli 
and then you were asked to comment?
    General Weaver. As we were going through many what if 
drills, I was asked to comment, what would the Guard feel about 
leaving, getting out of the B-1.
    Senator Allard. Thank you. General Jumper, where are you on 
this in terms of the process, the role you played?
    General Jumper. Sir, I had input certainly on the number 
coming from 93 to 60, on the capabilities, and from our point 
of view, having the 60 airplanes that were capable, more 
capable to do the mission, was very important in my mind.
    Senator Roberts. So the bottom line, we had the advice and 
counsel of both you in the process from the strategy standpoint 
as well as the budget numbers; is that correct?
    General Jumper. Yes, sir.
    General Weaver. I can't say that I was on the strategy part 
of it, say. It was more or less asking my personal comment on 
it.
    Senator Roberts. I have a follow-up question.
    Senator Reed. Senator Allard's time has expired, and 
Senator Cleland has yielded to Senator Inhofe, who is chairing 
a hearing simultaneously. Senator.
    Senator Inhofe. Thank you, Senator Reed, and thank you, 
Senator Cleland, for accommodating me. We have an Environment 
and Public Works Committee hearing that I am involved in right 
now. My staff, my very efficient staff back here, has told me 
that all but one question I was going to ask has already been 
asked, so I will get your answers.
    Dr. Roche, first of all, thank you for showing and 
expressing a personal hands-on concern over some of our bases, 
and what you have done in this very brief period of time that 
you have served in this capacity. I personally do appreciate 
it.
    I never let the opportunity to go by, General Jumper, 
without complimenting you for being the first one in my opinion 
to stand up and admit that we really need to have a 
modernization program, back when it was not very popular to do 
so, because that was a courageous statement and got America 
thinking again about this.
    Dr. Roche, the concern I have, and which you and I have 
talked about before, is on the B-2 upgrades. You had stated in 
a written statement that, ``Our current bomber force must be 
able to target and retarget in real time through airborne data 
links and with standoff weapons and large payloads of precision 
and near precision munitions in order to meet the requirements 
of an uncertain future.'' Well, I agree with that. However, in 
the President's budget we didn't have the Link 16 and some of 
the other things in there that would be necessary.
    My concern is this. I think we are going to get to this in 
the future. But if we have to restart, I am sure it would be an 
additional cost. Have you given some thought to where that 
upgrade is going to be, if not this year, when and how much 
more it would cost at that time?
    Secretary Roche. Yes, Senator. I very much agree with your 
philosophy on this and as we chatted about it. There was no 
money in fiscal year 2003 and beyond; there will be. We cannot 
allow the B-2 to go the route of the B-1, where we don't put in 
the upgrades, and then all of a sudden find ourselves in a 
position because we don't have the flexibility of 93 to 60 in 
the case of the B-2. We are very committed to doing that and I 
can assure you that when you see the fiscal year 2003 budget 
you will see a plan over time.
    The things we want to get in there are Link 16, their 
communications systems, as well as some materials upgrade, 
etc., but that's a force that it is now the only one we feel 
comfortable putting on top of a high threat area, and we have 
to keep it that way. So I think you will see us with a richer 
strategy for upgrades on the B-2.
    Senator Inhofe. I think that is very significant, 
particularly with the success we have had in this past 
operation, we know what its needs are going to be for the 
future.
    The only other thing I had, I understand the question was 
already asked about the switching of the combat vehicles out of 
the National Guard, and your answer I believe was, you said 
one-third of the strike force will remain there if future 
budgets will allow. Is that essentially what your response was?
    Secretary Roche. What I said is that if you take our F-15 
and F-16 fleet, roughly one-third of our medium-range strike is 
already in the Guard and we don't see any change to that. The 
Guard as a proportion to total force is very large, that's what 
led us to say we have to relook at its role, because we use 
these folks in things they have not been used in before. We may 
want to take whole units and assign them as U/E equipment to 
the Guard and let the active people be associates. We are 
trying to start with a clean sheet of paper. It is a new 
millennium, a new force, a new era.
    Senator Inhofe. I appreciate that, because you know how 
hysteria sets in. It is kind of like when the 507 turned into a 
lift operation out of Tinker and the F-16s went someplace else. 
At least I would like to be warned as to what the future plans 
are, because I am going to hear from those guys.
    Thank you very much, and thank you, Mr. Chairman and 
Senator Cleland, for being kind enough to allow me to be heard.
    Senator Reed. Thank you, Senator.
    Senator Cleland.
    Senator Cleland. Thank you very much.
    Mr. Secretary and General Jumper, I want to explore this 
issue of targeting targets in real time, and General Jumper, 
again in reference to General Clark's book Waging Modern War 
you were kind of his eyes and ears, keeping him posted as the 
NATO commander on what was going on, so you probably had as 
good a view of the air war as anybody there.
    You mentioned J-Stars. How important to you was the J-Stars 
capability? General Clark testified before our committee about 
a year ago about the lessons of the Balkan War, that one of the 
things he felt we needed was a greater surveillance and 
reconnaissance capability, particularly underscoring J-Stars. 
You were right there where the water met the wheel, and tell us 
about that capability.
    General Jumper. Senator, you don't want to get me started 
on this because I have an all-day lecture on that very subject, 
but suffice it to say that we absolutely have to do better with 
a horizontal integration of manned, unmanned and space. The 
Joint Stars is key to that capability. This is essentially the 
functional equivalent of an airborne surveillance projected to 
the ground and our ability to find these targets in all 
weather, and then to combine with the assets of unmanned 
aircraft in space to identify and precisely locate, 
identification being the key criteria which General Clark 
pointed out in his book, being able to identify that, get 
decision quality information in front of commanders so they can 
confidently assign weapons to that target is a capability we 
absolutely have to produce in this decade that we're in today.
    The Joint Stars and the intelligence, surveillance and 
reconnaissance assets that go along with that have to be 
integrated at the machine level, and that's what we plan to 
press on.
    Senator Cleland. In terms of locating a Joint Stars unit at 
Warner Robins, and the Secretary may have alluded to it, that 
we have $70 million of infrastructure standing in effect empty 
there, do you see the possibility of maybe increased J-Stars 
activity there filling that vacancy and using that 
infrastructure?
    General Jumper. Well, with the Secretary and General 
Weaver, we would certainly plan to explore those possibilities. 
We're going to grow to 19 Joint Stars in the current plan, and 
the assets that we have available there today would from my 
personal point of view be well spent to flesh out that 
capability.
    Senator Cleland. Mr. Secretary, I am looking forward to you 
coming to Warner Robins August 8, and we look forward to 
exploring those possibilities.
    General Weaver, take me back a few years. Obviously there 
was some rationale, I wasn't in the Senate, but there was some 
rationale for the fighter wing at Dobbins being, in effect, 
converted and becoming a bomber wing at Warner Robins. There 
was obviously some rationale, because people back in those 
days, members of the Air Force, members of the administration, 
obviously thought that there was some merit in all of that, and 
thought that sinking $70 million worth of infrastructure, and 
just 2 months ago building brand new hangars, there was some 
merit to all of that. Did it fit in with some kind of war plan 
or some kind of capability that the country needed? I think 
part of the thing that has caught us flat footed is that we 
were walking down a road and we were all relatively confident 
that it seemed cost effective and it was a win, win, win for 
everybody, and all of a sudden, boom, in the dark of night, we 
change course and march 180 degrees in the other direction. I 
am sure for the Guard members, that is traumatic.
    Give me a little bit of history, if you can, about some of 
the rationale for the plan we were in up to about 6 or 8 weeks 
ago.
    General Weaver. As we speak, sir, we have an Air Force 
operational readiness inspection there at the 116th today. I 
mean, to show what these guardsmen and women are made of, with 
this announcement, they pressed ahead and they could have 
easily said we don't desire the operational readiness 
inspection. They wanted it, they wanted to prove how great they 
are, and they are in the middle of it right now, so it talks a 
great deal about our men and women in uniform, especially at 
the 116th.
    Sir, I wasn't privy to all the decisions that were made, 
how we got from the F-15 to the B-1. I knew that there were a 
lot of decisions at that time made by individuals that have 
long gone and retired. I only know that once we got into it, 
and the deputy director during that time and a member of the 
last BRAC or the BCAG, which is the Air Force's advisory group 
to the BRAC, we even questioned at that time would we still, 
are we still going to do this? The answer from the leadership 
at that time, yes, we will.
    We questioned it even during the BCAG process that if 
you're spending this amount of money, and I had a chance 3 
weeks ago to spend some time with our guardsmen down there 
Congressman Chambliss in that new hangar, and decision at that 
time was still to go ahead with the conversion, and we did a 
great job at both places, as evident.
    You can argue numbers and who's better or who's not, but 
what it was was a total force operation that they did extremely 
well, they continue to do extremely well, and with the great 
support of leadership at this table, whatever they are given, 
they are going to do extremely well in that future mission as 
well.
    Senator Cleland. Now the Guardsmen and women in Georgia and 
Kansas are asked to change missions and adapt. Do you have any 
idea what they would be ready for, trained to do?
    General Weaver. Sir, as we go in, as we're discussing the 
IPTs within, as looked upon by the Secretary and the Chief, and 
the Chief to be, we are looking at all possibilities, and to 
leverage the strength of the Air National Guard at both places 
given the stability and the capability of that work force and 
what they're able to do and what we can provide, and be a part 
of the total Air Force meaningfully for the long distance 
future.
    We are totally involved in that process and I'm happy to be 
able to report to you and say that. We are getting things back 
in balance here again and feel very confident that we are going 
to have a mission that--I converted an Air National Guard unit 
from an 02 Skymaster to a C-5. We in the Air National Guard can 
do anything, and as I told the Secretary, give us the most 
complicated, give it to us and we can do it.
    Senator Cleland. Thank you for your service. My time is up. 
Thank you, Mr. Chairman.
    Senator Reed. Senator Roberts.
    Senator Roberts. It is cold in here, Mr. Chairman, like a 
meat locker. This might be a pretraining exercise by the Air 
Force to make us used to South Dakota, I don't know. 
[Laughter.]
    Secretary Roche. It's warm down here, Senator. [Laughter.]
    Senator Roberts. General Weaver, I have here the so-called 
official position of the National Guard in reference to the 
PBD-824. PBD stands for program budget decision. It says here 
basically, although the Air Force has been examining numerous 
force structure options, the decision was unexpected by the Air 
National Guard. The B-1 mission is a good fit for the ANG, the 
Air Guard has a better personnel retention rate, statistics 
reflect their higher maintenance capability, we have proven our 
ability to provide AEF support. Notwithstanding the difficult 
conversions, these units have excelled, with four bullets down 
here in regards to their progress. It may be necessary to delay 
the implementation of this decision until fiscal year 2003 or 
2004. Ceasing operation in less than 10 weeks is extremely 
aggressive. The PBD left no O&M funds to operate either unit 
after 30 September 2001; they are going to be zapped. Secretary 
Roche did not go zap. We had meaningful dialog.
    But I guess my question is, when the official position is 
of the Guard as I understand it 2 weeks ago, the implementation 
of this decision raises a number of critical issues, again 
moving back to strategy, not budget numbers, we all agree in 
regards to the budget situation, does this reflect your 
position?
    General Weaver. Yes, sir, it reflects the Guard Bureau's 
position.
    Senator Roberts. I want to get to process too in regard to 
the proper kind of strategy decision. Mr. Secretary, was the 
decision to cut the B-1B force structure coordinated through 
the Department of Defense, and specifically, was the Assistant 
Secretary of Defense for Reserve Affairs consulted on the 
decision? I have asked both generals here whether they were in 
on the ground floor so to speak, and it is the time line here 
that bothers me to get all the benefit of the strategy 
decisions that I think we need to make the proper decisions.
    So with that little speech, did we ask whether the 
Assistant Secretary of Defense for Reserve Affairs was 
consulted? Let's explore the general question of how well-
coordinated the decision was through the Department of Defense.
    Secretary Roche. Senator, this was done as part of the 
development of the amended fiscal year 2002 budget and 
therefore, a number of people in OSD were certainly privy to 
it. I don't know, I honestly don't know, you might have to go 
back to one of my colleagues, General Wehrle or someone else, 
whether the Assistant Secretary or the Acting Assistant 
Secretary of Defense for Reserve Affairs was consulted. I don't 
know the answer. General, do you?
    General Wehrle. No, sir, I don't know. We took it down into 
the comptroller room and who they coordinated with, I'm not 
exactly sure.
    Secretary Roche. We could have done a better job of that, 
Senator, and we blame----
    Senator Roberts. You correct me if I am wrong but as I 
understand this, since we are faced with the very severe budget 
challenge, and we all agree on that, that our new Comptroller 
General at the Department of Defense, Dov Zakheim, who 
testified before the full committee, indicated that they have 
something called a new efficiency initiative. I can't remember 
the acronym for it. I applauded this at that time and I thought 
that the design of this, and Mr. Secretary, you correct me if I 
am wrong, is that in the past, what happened is that the 
Pentagon tells all the service chiefs, here is the budget, here 
is the decision, no, you cannot have this, and that we think 
this is appropriate.
    Then, of course, what happens is that each service comes up 
to Capitol Hill and whispers sweet nothings in the ears of 
their defenders and the people who believe in that particular 
capability or project, and it ends up on the underfunded list, 
and bingo, the legacy weapons continue. I know General Wehrle 
has had personal experience with that.
    Well, we were going to change that, and the change was 
rather than go through that exercise, went through an 
efficiency initiative, and the new Comptroller General and 
Secretary of Defense, we asked you, we meaning the Pentagon, 
asked you, you come up, you tell us what you can live with, 
what are your efficiency suggestions.
    I think that is a pretty good idea, I applaud it if in fact 
it isn't just driven by budget numbers and coming down with a 
PBD-824, which is now sort of an acronym in infamy or something 
in terms of procedure, but we do it in a regular strategy 
based, where everybody is informed and everybody has input, not 
to mention consulting with Congress.
    Am I sort of on track here in regards to how that impacts?
    Secretary Roche. There are two parts to it, Senator. One is 
the work on force structure, the other is the business 
initiatives council. The business initiatives council, which 
you addressed a number of comments to earlier, was our way of 
turning to the services to say look, there's probably things 
you could do better. It's not force structure as much as 
process, procedures, there's probably some things we could ask 
Congress for help on, let's catalog those, and oh by the way, 
you are not doing this just to replenish the money to the 
national treasury, but the Secretary has said that the monies 
that you develop from doing things smarter, faster, cheaper in 
your service can be redirected into the your service, including 
being put into accounts which will become advanced 
authorization and appropriations for more of something, more 
planes. So that's the business initiatives counsel. That's a 
continuous process improvement that will hopefully go on for a 
long period of time.
    General Wehrle and I were members of that, along with the 
other services, and the Vice Chair of the Joint Chiefs, the 
Deputy Secretary of Defense.
    The force structure issues tend to come in the QDR, etc. We 
could sense early enough that strike, long-range strike was 
important. We then had to go take a look at ourselves and look 
at the situation with the B-1s, and that's what led to this 
decision on the B-1. It was not part of the efficiency 
operation as much as it was trying to make this an effective 
force.
    Senator Roberts. Didn't I understand that, here we go 
again, didn't I understand--I gather I didn't understand----
    Senator Reed. If I may, with your question, we will finish 
the second round. Senator Allard and I have no more questions 
so we are prepared to be here as long as you and Senator 
Cleland have questions.
    Senator Roberts. I appreciate your indulgence, Mr. 
Chairman. Can I continue with this?
    Senator Reed. Please continue.
    Senator Roberts. It was my understanding that these would 
go from the various floors to the third floor in the Pentagon, 
which I finally got straightened out, and that under this 
efficiency initiative, the effort was made, I'm assuming to all 
services but more particularly the Air Force, please come up 
with something prior to the PBD-824.
    That you made a number of suggestions, and the one that 
finally made it to the table was this one. I guess my question 
is, I hope the other five or six or seven or whatever, we 
discussed some of those, and I think they are darned good 
suggestions, in regards to the budget and force structure and 
strategy, that that would be ongoing. The thing that really 
puzzles me, though, is how that got to the third floor and the 
other five did not, and it does involve strategy and involves 
the National Guard, involves the intent of Congress, and 
involves 2,400 people. I still do not understand from a 
strategy standpoint, we did not include everybody.
    Now I do not want to go over past history and say it was 
badly handled and all of that, and we do not do a real good job 
of facing up to budget realities here so that you can do a good 
job. Now, is my take on that still accurate or am I off base?
    Secretary Roche. You are right on. There were seven things 
we proposed, two of the seven made it, the B-1 and the 
Peacekeeper. The issue was, we pressed the B-1 because we 
wanted to be able to get that part of the total force taken 
care of and we felt this was a good thing to do. We recognized 
there would be secondary effects of that. We wanted to deal 
with those.
    The others, and yours and my favorite one, Iceland, we have 
to do some work and----
    Senator Roberts. I think that is a great deal.
    Secretary Roche. There are some others, and of the other 
five or ten, they are coming back.
    Senator Roberts. I would yield to the Senator from Iceland, 
but I do not see him here. [Laughter.]
    Secretary Roche. We have NATO obligations, we have other 
obligations, so we have to do some advance work. We have to 
make sure that the State Department is properly on board before 
we can do any of these. The sorts of things that you quite 
rightly point out we did not do as good a job and in this case, 
we had hoped to have a decision and then have the opportunity 
to work with the others, and we didn't. But those others are 
coming back.
    Senator Roberts. I thank you.
    Senator Reed. Senator Cleland, do you have additional 
questions?
    Senator Cleland. Mr. Secretary, I would like for you to 
elucidate just a little bit on this concept of associate 
squadrons, either in the fighter wing or J-Stars. I'm still 
looking at the backfield, and I am still sensing the fact that 
over 2,000 people have been disaffected here, and a lot of 
equipment and a lot of infrastructure left in effect twisting 
slowly in the wind. It does seem to me that that carries a cost 
with it. Also, is there not a cost associated with retraining 
people, so I just have some questions on costs.
    Do you have any idea what the projected annual cost is of 
operating and maintaining the 60 remaining B-1s split between 
Dyess Air Force Base in Texas, and Ellsworth Air Force Base in 
South Dakota? Do you have any idea what that is going to cost, 
General Wehrle?
    General Wehrle. Sir, to get you the exact numbers, I will 
come back for the record.
    Senator Cleland. Just generally.
    General Wehrle. As I mentioned to you, the program right 
now is $6 billion over the FYDP, with the disconnect as I 
mentioned of about $2 billion. We plan on keeping the current 
funding in the B-1 program, we need that additional money to 
fix that disconnect. So my assumption, and I will get you exact 
numbers, is that we are going to need that amount of money to 
keep those 60 aircraft flying. The most important thing is to 
fix the spare parts, the support equipment, and this 
conventional munitions upgrade, and the defensive system 
upgrade, so that we can actually use it if a conflict arises.
    [The information referred to follows:]

    General Wehrle. The table below shows the anticipated annual B-1 
Operation and Maintenance (O&M) costs for a 60-jet B-1 fleet.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal Year
                                                     -----------------------------------------------------------
                                                         2003        2004        2005        2006        2007
----------------------------------------------------------------------------------------------------------------
B-1 O&M.............................................       514.9       608.4       544.9       536.6       584.0
----------------------------------------------------------------------------------------------------------------


    Secretary Roche. There are people costs in there, Senator. 
Of that roughly $2 billion, about $1.3 billion is O&M, spare 
parts upgrades; the other 700 million over the FYDP is people, 
and we're not taking that out of the budget. Those are the 
Guardsfolks. My colleague, General Jumper, is fond to point out 
on this issue, we're not cutting anybody from the team, we are 
just asking them to take a new position on the team, so yes, 
there will be some training costs for that.
    Senator Cleland. Are you saying that the 800 to 1,000 
people at Warner Robins will keep their jobs and still be in 
the Guard, they will just be focused on another mission?
    Secretary Roche. That's our intent. We have to work out the 
details of it, and the associate squadron work is one that has 
been tried. I will let, certainly General Baker can tell you 
more about it, where it's been used, since he is our ops 
person. Also, he hasn't had a chance to speak.
    General Baker. There is a key point I think we haven't 
addressed here about associate units. We have a lot of trouble 
in all active commands in keeping some of our highly trained 
ISR and CT specialists, and once they leave the active duty, 
there's very few places for them to go in the Guard or 
Reserves. So, we see this as an opportunity to leverage the 
people that are exiting active duty that bring that expertise 
in CT and ISR into a unit where they can work as an associate 
of an active unit, whether it's in Georgia or Kansas. Right now 
we really need to fix that problem, and it was a disappointment 
to me in my last command to lose a lot of really talented 
people and not have the Guard or Reserve for them to go to 
because that mission was not in the Guard or Reserve and it 
wasn't robust enough to appeal to these people.
    Secretary Roche. Communications, intelligence, 
surveillance, reconnaissance, a lot of these young people are 
very very computer literate, and we need tap them as well as 
others.
    Senator Cleland. The very assets General Jumper was talking 
about that he could give us a speech on all day long and that 
we need when we wage modern war, and that if we are going to 
have a seamless force, that we need throughout the force; is 
that your concept?
    General Baker. Yes, sir.
    Senator Cleland. Let me just say that we want to thank you 
from my perspective for being here, and we look forward to 
working with you. Again, Mr. Secretary, I look forward to going 
down to Georgia August 8 and going over this issue on the B-1 
and dealing with the Guardspeople, and dealing with the depot 
issues there, to tell which community is totally engaged in all 
these issues, and we appreciate being able to finally visit 
with you all and get your views.
    Mr. Chairman, I have no further questions.
    Senator Reed. Thank you, Senator Cleland. Senator Roberts, 
do you have additional questions?
    Senator Roberts. Yes, just a couple, Mr. Chairman.
    In your testimony, Mr. Secretary, you stated the B-1 
aircraft mission capable rates have remained between 51 and 62 
percent during fiscal years 2000 and 2001, certainly below the 
goal of 75 percent. I have a chart here in regards to the 
mission capable rate, and my question is how long the mission 
capable rate goal has been at 75 percent. This chart shows that 
the 75 percent goal is not the number until 2002, and the chart 
also shows that the mission capable rate for the B-1 is very 
close to the fleet standard. In fact, it shows that the Air 
National Guard has been greater than the mission capable goal, 
and I suspect certainly greater than the rate for the B-2 
during this same period and for the B-52.
    As you look here, I have to stop and think a minute, I know 
you cannot see that, but at any rate----
    Secretary Roche. I am familiar with the chart, Senator.
    Senator Roberts. There is the B-1 and I think it fits right 
in the category there. I just did not want the impression to be 
left that we are not doing as well as the other aircraft and I 
guess my question--well, just comment on that, if you would.
    Secretary Roche. Mission capability rates bounce around. 
Historically, the B-1 has been below what we wanted to see. It 
is also true that those B-1s in the hands of the Guard have on 
average done better than the active force, and there is good 
reasons for that. The standard, and here General Jumper is the 
expert, ACC set a lower standard in the past because they 
wanted to have something that the planes could get to, to be 
honest, but we want a higher standard.
    Senator Roberts. Thank you for your candor and we will talk 
about a higher standard.
    General Wehrle, you were going to scrub the numbers for us?
    General Wehrle. Yes, sir.
    Senator Roberts. If the numbers help us, announce them; if 
not, keep scrubbing. [Laughter.]
    Where are you with that?
    General Wehrle. We will keep scrubbing, sir.
    Secretary Roche. If I may add, we both agree, we have 
looked at these, we may not have the deltas that the folks from 
McConnell have, but it is very clear that on average, that both 
the cost per flying hour, maintenance, etc., the group at 
McConnell has done a superb job and they are above standard.
    Senator Roberts. The only other comment I would make, Mr. 
Chairman, and it echoes that of my colleague from Georgia. We 
want to do the right thing. Mr. Secretary, when you came to 
first visit with me on a courtesy call and we looked at your 
past record, your experience and your commitment, the effort 
that all three Secretaries have worked in concert to bring 
about the cost effectiveness that General Wehrle has worked so 
hard to achieve, we were extremely supportive, and I think we 
remain supportive.
    The bottom line I think, I'm not really telling tales out 
of school, when I asked the Secretary what his goal was, he 
said to leave the Air Force in better shape than when I came on 
board in terms of its mission, more especially with our 
national security. I have every confidence you will do that. 
That is why all of us on this committee serve on this committee 
in terms of our dedication and our commitment. I must say that 
with regard to what we are about and having the budget drive 
these figures, that what the Senator has indicated in the past 
is exactly right.
    When we maintained our dialogue on the senate floor, we 
kept saying what are our vital national interests, how does the 
threat, what are the threats that really pose these serious 
threats? What kind of strategy can we come up with and let that 
strategy drive the numbers, not just the budget. That is 
needless to say, tough to do, so I applaud your effort.
    Our responsibility here on the authorizing committee, and I 
am an honorary appropriator from time to time, and on the 
Appropriations Committee, is to make sure that that strategy is 
appropriate. I know that you want to do the best you could on 
PBD-824. I think we got the cart before the horse. I am more 
comfortable after this hearing, and knowing that you are going 
to factor in all the strategy decisions, but guys, please 
consult with us.
    We are on the same team here; we want the same goals. I 
know over that long-term business council that you referred to, 
BIC, do not let the ink run dry on BIC? You can just keep 
consulting. Senator Cleland and I, the distinguished chairman, 
would be happy to come down and have lunch so we can talk about 
it.
    We have held hearing after hearing after hearing after 
hearing on emerging threats and where we are and then to be 
promised by the Secretary that we will be consulted and then 
having the need to hold this hearing. I think we have had some 
lessons learned here.
    I want to thank you, Mr. Chairman, for your leadership and 
I think you held a very fine hearing.
    Senator Reed. Thank you, Senator, and thank you, Senator 
Cleland.
    For the record, let me announce that we will maintain an 
open record for 48 hours for additional questions. I already 
presume, given the questions today, that there will be specific 
written requests for budget data. We would hope that you would 
respond promptly.
    Secretary Roche. Yes, sir.
    Senator Reed. Let me thank all of you not only for your 
testimony today but for your service to the Nation and to the 
Air Force. Thank you very much.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Max Cleland

    1. Senator Cleland. The Army has a lot of combat capability in its 
Army National Guard. We've seen Army Guard combat units, including 
Georgia's 48th Brigade, deploy on operational missions to the Balkans 
and to Southwest Asia in recent years.
    Do you intend to keep combat capability, and by that I mean bomber 
and fighter units, in the Air Guard?
    Secretary Roche. As you are aware the Air Force intends to 
consolidate the B-1 from 93 to 60 aircraft in fiscal year 2002. 
However, it plans to retain the remaining fighter capability in the Air 
National Guard during fiscal year 2002. It is still an important Air 
Force priority to capture the superb experience, capability and service 
the Air National Guard men and women bring to the Air Force combat 
mission.

    2. Senator Cleland. What are the Air Force plans for the Air Guard 
units affected by your decision to cut and re-base the B-1 fleet?
    Secretary Roche. For Georgia: Although final planning is not 
complete, the 116th Bomb Wing at Robins AFB will transition to the 
116th Air Control Wing. The Air Force has identified a requirement for 
19 Joint Surveillance Target Attack Radar System (JSTARS) aircraft, and 
this is a tremendous opportunity to introduce America's Air National 
Guard to the Information Technology mission.
    For Kansas: Although final planning is not complete--At McConnell 
AFB the 184th Bomb Wing will transition to the 184th Refueling Wing. It 
will be independently unit-equipped with 10 KC-135Rs. Additionally, a 
Phoenix Raven Security Force Team and an Information Operations unit 
will be activated. The 184th will retain its B-1 engine repair shop and 
an avionics repair capability. The 184th manning will continue at 
current levels. The Air Force will seriously consider McConnell as a 
candidate for the Airborne Laser. At Forbes Field the 190th Air 
Refueling Wing will increase its authorizations by 52. This will 
provide full-time manning for the 190th's validated manpower 
requirements.
    In the long-term, we envision that the Air Force will evolve to a 
new organizational concept--the Future Total Force--which would be a 
blending of traditional Air National Guard men and women side-by-side 
with their active counterparts in a single unit--a true total force. We 
are hopeful that the Georgia and Kansas Guard Units will lead this 
cutting-edge transformation concept, but we still face many challenges.

    3. Senator Cleland. What are the Air Force's plans for our 
strategic power projection?
    Secretary Roche. Our current plans include upgrading the lethality, 
survivability, and sustainability of the B-1, B-2, and B-52. In the 
future we anticipate beginning Mission Area Assessments and possible 
risk-reduction studies to further define the next generation strike 
aircraft.

    4. Senator Cleland. As you mentioned recently, the Air Force is 
consolidating B-1s, but what will be the platform of choice when it 
comes to our bomber capabilities?
    Secretary Roche. The platform of choice is always situation 
dependent, based on threat environment and desired effects. While all 
of our bombers share the common characteristics of large payload, long 
range, and precision strike, each also has a unique niche in the 
warfighting scheme. B-52s operate in the low-threat environment and 
provide long-range standoff using Conventional Air Launched Cruise 
Missiles (CALCM)--a key enabler in any conflict. B-1s are our medium-
threat platform, using the largest payload of any U.S. aircraft and 
high performance to seamlessly integrate with composite strike 
packages. The B-2 uses stealth technology to penetrate sophisticated 
high-threat air defenses and deny enemy sanctuary.

    5. Senator Cleland. Will we be investing in more B-2s--which are 
very expensive?
    Secretary Roche. The Department of Defense and the Air Force are 
currently analyzing our National Military Strategy. Force structure 
priorities, including an alternative to restart B-2 production, are 
being considered as part of that analysis. Recommendations resulting 
from this review will be made available to you upon completion.

    6. Senator Cleland. B-52s are decades old, much older than B-1s; 
where do they fit in?
    Secretary Roche. The B-52 has both conventional and SIOP tasking--
our long-range standoff shooter. It is the only bomber that carries the 
Advanced Cruise Missile (ACM), Air Launched Cruise Missile (ALCM), and 
Conventional Air Launched Cruise Missile (CALCM). The B-52/CALCM 
combination degrades enemy air defense systems and destroys time-
critical targets during initial phases of conventional conflict. 
Simultaneously, the F-22 and B-2, serving as a ``kick-down-the-door'' 
force, will penetrate defenses and strike targets to enable employment 
of our non-stealthy fighters and bombers. After the defenses are 
suppressed, the B-52, along with the other non-stealth aircraft, will 
add mass to the air campaign, attacking targets to support CINC 
objectives.

    7. Senator Cleland. How is the basing decision on the B-1 bomber 
going to save money?
    Secretary Roche. Savings will occur primarily via reductions in 
both the active and Air National Guard operations and maintenance 
through reductions in their flying hour programs. There will also be a 
manpower savings that will be spread across the Air Force for other 
high priority missions. Finally, an additional cost avoidance will be 
achieved through reductions in procurement required to modify a smaller 
B-1 fleet.

    8. Senator Cleland. What is the projected annual cost of operating 
and maintaining the 60 remaining B1s split between Dyess AFB, Texas, 
and Ellsworth AFB, South Dakota?
    Secretary Roche. The operations and maintenance request for the B-1 
in the FY02PB was approximately $640 million. Due to changes in the 
consolidation plan however, this will increase over the original 
request due to the continued flying of the Mountain Home, Robins and 
McConnell B-1 units. We do not have a further estimate as consolidation 
planning is still on-going.

    9. Senator Cleland. What is the projected annual cost of operating 
and maintaining these B-1s split between Warner Robins AFB, Georgia and 
McConnell AFB, Kansas?
    Secretary Roche. The projected costs for just these units would 
require a detailed study. This particular option was not looked at in 
depth since it did not meet two of the original criteria for the 
consolidation: to create the minimum disruption at an affected base and 
generate no MILCON bills as a result of the action. To place over 12 B-
1s at either location would necessitate additional construction or 
would require relocation of other aircraft or units. Since neither of 
these cases would generate sufficient consolidation savings to fund the 
required modernization, no data for up to 30 aircraft at each base was 
calculated.

    10. Senator Cleland. What is the projected cost of retraining the 
116th Bomb Wing as an F-15E fighter unit?
    General Jumper. The Integrated Process Team (IPT) has looked at 
various alternatives to effectively utilize the men and women of the 
116th Bomb Wing. While options are still under consideration, it is our 
intent to minimize the impact on the men and women in the 116th and 
184th Bomb Wings. At this point the IPT is focused on addressing vital 
Air Force needs in a manner that is operationally sound. The IPT 
concept results will carry forward to the Major Commands (MAJCOMs) for 
further development. The MAJCOMs will build timelines that accomplish 
the necessary actions ranging from re-training of personnel to the 
relocation of equipment. Until those details have been worked, any cost 
estimates would be premature.

    11. Senator Cleland. What is the projected cost of retraining the 
116th Bomb Wing as a J-STARS associate squadron?
    General Jumper. The Integrated Process Team (IPT) has looked at 
various alternatives to effectively utilize the men and women of the 
116th Bomb Wing. While options are still under consideration, it is our 
intent to minimize the impact on the men and women in the 116th and 
184th Bomb Wings. At this point the IPT is focused on addressing vital 
Air Force needs in a manner that is operationally sound. The IPT 
concept results will carry forward to the Major Commands (MAJCOMs) for 
further development. The MAJCOMs will build timelines that accomplish 
the necessary actions ranging from re-training of personnel to the 
relocation of equipment. Until those details have been worked, any cost 
estimates would be premature.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

    12. Senator Bill Nelson. Were you asked to participate in the Air 
Force decision to organize 10 Aerospace Expeditionary Forces (AEF)?
    General Weaver. Yes, the Air National Guard (ANG) was an active 
participant in the development and implementation of the Aerospace 
Expeditionary Forces (AEF) concept from the very beginning. At the 
upcoming conclusion of second complete AEF cycle, nearly half of the 
ANG, about 50,000 of our troops, will have deployed as part of an AEF.

    13. Senator Bill Nelson. Has the new structure been positive for 
the Guard?
    General Weaver. Yes, the Aerospace Expeditionary Forces (AEF) 
concept has proven to be positive for the Air National Guard (ANG). It 
has allowed ANG men and women to apply their training to real world 
missions and contingencies. The AEF concept has also increased the 
interaction, integration and training with our active duty 
counterparts. With scheduled AEF deployments and our shorter rotational 
policies (typically 15 days in theater plus travel time), our people, 
their families and employers are afforded better predictability. 
Dedicated rotators ensure our people depart and return on time. The AEF 
initiative allows the ANG to be more accessible than ever before for 
Unified Command and Service requirements while reducing the TEMPO 
burdens on our active duty partners and their families. It does this 
without shifting associated negative OPTEMPO impacts to our people.

    14. Senator Bill Nelson. How is it affecting your people?
    General Weaver. Air National Guard (ANG) recruiting and retention 
figures are very high--in fact, the Air Guard has the highest retention 
figures of any Service or any component. Morale appears to be higher 
among those units who get to exercise a lifetime's worth of training 
and experience in real world contingencies--as long as we maintain the 
agreed upon rotational policies; provide modernized and capable weapon 
systems that ensure their safety and effectiveness; and take care of 
their families while they are deployed.
    The ANG has taken many steps to ensure these deployments remain 
``doable.'' We established short duration rotation rules; ensured 
dedicated rotators; increased some modernization of our weapon 
systems--specifically those with precision guided munitions and 
battlefield awareness capabilities; and created the first-ever ANG 
contract support program dedicated to family readiness at all our 
flying wings.
    Aerospace Expeditionary Forces (AEF) predictability and short 
rotations work well for our employers. In a recent survey, over 84 
percent of employers report ``no problems'' with their employees' 
military obligation over the past 3 years, while 72 percent felt that 
Guard or Reserve training made the employee more valuable to the 
company.

    15. Senator Bill Nelson. Is your equipment and training comparable 
with the active force?
    General Weaver. The Air National Guard (ANG) provides highly 
trained and experienced people to the full spectrum of aerospace forces 
and missions. In fact, over half of our personnel are expensively 
trained, prior-service members who had previously made the decision to 
leave active duty service. Nearly 95 percent of our pilots have much 
more than 500 hours flying experience compared to 40 percent of their 
active component peers. The greater portion of our aircrews and 
maintenance personnel is in the highly experienced, 8 to 15-year group. 
This is the very same group the active component is challenged to 
retain, the very same group that provides leadership and experience, as 
well as the ``combat sense'' required in dangerous combat situations.
    ANG units have won coveted Air Force flying competitions like 
William Tell and Gunsmoke, and have been recognized for outstanding 
flying safety statistics over the last 4 years with the lowest flight 
mishap rate in Air Force history in fiscal year 1998. ANG full-time and 
traditional guard aircrews fly comparable numbers of sorties and the 
flying hours per individual each month is to the same standards of 
evaluation and safety. In fact, nearly all our functional areas train 
to and are evaluated by the same standards as their active component 
counterparts. 
    Aging weapon systems are a Total Force challenge for this Nation's 
aerospace force. In comparison to our active counterparts, the ANG 
lacks comparable modernized equipment. Of the seven major weapon 
systems the Air Force operates, the ANG has the oldest systems in every 
one except the C-130. We sustain the oldest fleet in the Air Force 
often on the sheer ingenuity of our exceptional maintenance and 
logistics personnel. Asked to fight alongside our active component 
partners, we should be modernized accordingly. The C-17 unit in 
Jackson, MS, is a good example of putting new frontline equipment early 
into the ANG.

    16. Senator Bill Nelson. What is your experience with the Guard and 
Reserve?
    General Jumper. The ANG and AFRES are significant partners and 
contributors to our Nation's fighting force. They annually participate 
in all major contingencies, exercises, and competitions. Additionally, 
they are the linchpins of our humanitarian and North American Aerospace 
Defense efforts. The ANG and AFRES also play an integral part in 
reducing active duty tempo and we will continue to look for additional 
ways to use them in support of AF requirements.

    17. Senator Bill Nelson. What is your view of their capabilities?
    General Jumper. I am a firm believer in the total force concept. 
The ARC conducts a majority of our nation's combat search and rescue 
operations, a critical high-demand/low-density mission. Additionally, 
they perform almost all of our nation's air defense mission. Simply 
put, we cannot complete our mission successfully without them. The Air 
Force is a recognized leader in the integration of its Guard and 
Reserve Forces. The ARC is a full partner in the AF's corporate 
programming and budget process. Additionally, Guard and Reserve units 
participate in combat and combat support operations on a daily basis.

    18. Senator Bill Nelson. Assuming you are confirmed as Chief of 
Staff, how will you modernize and integrate the Guard and Reserve into 
the Total Force?
    General Jumper. The ARC is already fully integrated into our AEF 
concept where they fully participate hand in hand with their active 
duty counterparts during each AEF rotation. AEF rotation cycles provide 
predictability and stability to our ARC service members and employers. 
This schedule will enhance their ability to support the AEF over the 
long term. The ARC is currently supporting over 10 percent of our 
steady state AEF commitments. On a larger scale, to be relevant in the 
present and future AF, which is key to funding and survival, the ARC 
must at all times mirror their active duty (AD) counterparts. If the 
missions ever separate into an ARC vs AD mission, then funding, 
organization, training, equipping, etc. becomes threatened. As we field 
new weapons systems, we will gradually replace all aging aircraft/
equipment across the AF to include the ARC.

    19. Senator Bill Nelson. What steps will you take to preclude a 
recurrence of the ``not well handled'' decision/announcement on the B-
1?
    Secretary Roche. I believe the close-working relationships I am 
establishing with members of both Congress and the Office of the 
Secretary of Defense will preclude a recurrence. As you recall, this 
occurred soon after I assumed my duties. Since then we have made, and 
will continue to make, a concerted effort to ensure such information is 
provided in a timely manner through the proper channels to the 
appropriate parties.

    20. Senator Bill Nelson. What do you see as the emerging role for 
the Guard and Reserve?
    Secretary Roche. If the QDR approves the Bush administration's new 
National Security and Military Strategy, the Air Reserve components 
will have a growing and expanded role in the U.S. Homeland Defense 
Mission in support of the other military services, particularly the 
Army and other Federal agencies, as affirmed in the AF policy submitted 
to the 1998 Reserve Component Employment-2005 DOD Report. AF policy was 
and continues to be that Homeland Defense is primarily the task of the 
Reserve components. In the new Joint Reserve Information Operations 
unit assigned to the Deputy Secretary of Defense, AFRC will provide a 
majority of personnel. The ARC role in medical, technical, as well as 
training and operational commands will continue to grow as we leverage 
access to the ARC technical and professional expertise, and civil and 
military experience.
                                 ______
                                 
              Questions Submitted by Senator Jean Carnahan

    21. Senator Carnahan. Secretary Roche, I know that you have 
extensive experience with the B-2 program. At the full committee 
hearing 2 weeks ago, you explained that you have spent 18 years of your 
life at level 4 clearance for the B-2 program. As you may recall, I 
asked you to comment on the administration's commitment to B-2 
upgrades. In your response, you reiterated the Defense Department's 
support for these enhancement programs.
    Would you once again comment on the importance of maintaining a 
modernized B-2 fleet?
    Secretary Roche. Along with the F-22, the Air Force will use the B-
2 to ``kick-down-the-door'' during Global Strike Task Force operations. 
This force will overcome the anti-access environment during initial 
phases of the conflict and allow sustained combat operations with the 
JSF and our legacy systems. The B-2 is an essential enabler in current 
and future conflict scenarios. Continued modernization will keep the B-
2 viable and effective for decades to come.

    22. Senator Carnahan. General Jumper, in his last appearance before 
this committee, Secretary Roche indicated that in our future force, F-
22s may be required to escort B-2s in battle. General Jumper, I 
understand that you have been developing a concept for such deployments 
in your Global Strike Task Force plan.
    Would you describe the circumstances which would require such 
deployments?
    General Jumper. Global Strike Task Force (GSTF) empowers us to 
overcome access barriers while providing the means to rapidly roll back 
adversary threats. Barriers to access include the new double-digit 
surface to air missiles, the SA-10s, SA-12s and SA-20s, as well as 
weapons of mass destruction. Proliferation of these weapons continue at 
an alarming rate. GSTF provides the capability to rapidly establish air 
dominance, allowing freedom from attack and freedom to attack. It 
creates the conditions for access so that we can safely deploy our 
follow-on joint forces and provide the war-winning persistence we need. 
The F-22's contribution to GSTF enables for the first time 24-hour-a-
day stealth operations. It's supercruise and stealth allow it to 
penetrate and can take out the most difficult defenses while at the 
same time protecting and enabling the stealth capabilities of the B-2s 
and F-117s. GSTF is a rapid-reaction, leading edge, power-projection 
concept that delivers massive around-the-clock firepower. It will mass 
effects early with more precision, and fewer platforms, than our 
current capabilities and most importantly, it will give adversaries 
pause to quit. This new capability will ultimately save lives by 
reducing the time it takes to resolve a conflict.

    23. Senator Carnahan. If the B-2 will be escorted by F-22s, it seem 
to me, that the B-2 will be required to enhance its communications 
abilities to make it more inter-operable with other aircraft. I 
understand that some of the upgrades that were cut in the 2002 budget 
would hone these capabilities of the B-2.
    Would you please explain the importance of upgrading the B-2's 
communications abilities for transmissions with other aircraft, as well 
as with command and control headquarters on the ground?
    General Corley. The Air Force is upgrading the B-2's connectivity 
with two projects, UHF SATCOM and EHF SATCOM, which emphasize the 
importance of communication with other aircraft and command and control 
units on the ground. UHF SATCOM integrates the Airborne Integrated 
Terminal (AIT) radio to provide secure, long-range UHF voice and data 
capability and interoperability with other Have Quick II users, and EHF 
SATCOM provides global, survivable nuclear connectivity to National 
Command Authority (NCA).

    24. Senator Carnahan. Again, the upgrades that I mentioned in my 
opening statement SATCOM, Link-16, and the Enhanced Guided Bomb Units 
are critical for enhancing the B-2's flexibility and lethality.
    General Corley, would you please indicate to this committee the 
significance of continuing these programs?
    General Corley. SATCOM, Link-16 and EGBU-28 programs are an 
important part of modernizing the B-2 fleet and support the lessons 
learned from the Air War over Serbia. B-2 communications upgrades are 
critical to meeting Air Combat Command and STRATCOM connectivity 
requirements. The UHF and EHF SATCOM upgrades will improve the ability 
of the B-2 to communicate with other aircraft and command and control 
units on the ground. The UHF SATCOM effort will correct the inability 
of the B-2 to communicate with other HAVE QUICK II users while the EHF 
program provides survivable connectivity to the National Command 
Authority (NCA). The integration of the Link-16 system on the B-2 
provides the capability to receive threat updates necessary for in-
flight re-planning. The Enhanced Guided Bomb Units effort will enable 
the B-2 to attack deeply buried and hardened targets. These programs 
were funded in the fiscal year 2002 PB to the extent possible within 
the constraints of available funding and Air Force priorities. The 
future of the B-2 modernization program, and commensurate funding 
requirements, will be re-evaluated when the DOD Strategic Review and 
the QDR are complete. Pending the outcome of these efforts, we will 
adjust the B-2 modernization program and funding as required.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman

                    B-1B BOMBER PROGRAM INFORMATION

    25. Senator Bingaman. Please provide the committee with some 
historical information about the acquisition history of the B-1B 
bomber.
    When did the Air Force purchase the B-1B, how many aircraft were 
purchased, and under what type of contract?
    Secretary Roche. The AF purchased 100 B-1Bs in 1981-1982 on a fixed 
price incentive (FPI) multi-year contract.

    26. Senator Bingaman. When were deliveries made?
    Secretary Roche. The first B-1B was delivered to the flight test 
program in October 1984. The first operational aircraft was delivered 
to Dyess AFB, TX in June 1985. Delivery of the final aircraft was in 
April 1988.

    27. Senator Bingaman. On what dates did delivered aircraft become 
operational?
    Secretary Roche. B-1B achieved Initial Operational Capability (IOC) 
on October 1, 1986.

    28. Senator Bingaman. How many hours of operational testing had the 
B-1B as a fully integrated system or its major components completed at 
the time of purchase?
    Secretary Roche. No B-1B specific Operational Testing was conducted 
prior to the purchase decision, although the purchase was based on the 
original B-1A program. Initial Operational Test and Evaluation (IOT&E) 
was conducted by the Air Force Operational Test and Evaluation Center 
(AFOTEC) on the original B-1A program from December 1974 to October 
1976. This IOT&E consisted of 69 sorties and 365 flight hours and 
provided an assessment of operational effectiveness and suitability 
which was largely applicable to the B-1B. AFOTEC published its B-1A 
IOT&E Final Report in March 1977. This report was available at the time 
the B-1B full-scale development and Lot 1 production contracts were 
concurrently awarded in January 1982.
    Nevertheless, AFOTEC and the Air Force Flight Test Center conducted 
a combined operational/developmental test program from July 1984 to 
June 1989. The B-1B full scale development program accumulated 529 
sorties and 2,765 flight hours. Additionally, AFOTEC conducted a 
Follow-on Operational Test & Evaluation (FOT&E) from October 1986 to 
June 1989 using operational B-1Bs. This FOT&E included another 174 
sorties and 1,067 flight hours. Both operational test programs were 
documented in an AFOTEC IOT&E/FOT&E Final Report published in September 
1989.
    AFOTEC also conducted an Integrated Operational Test (IOT) between 
September 1989 and January 1990 at the request of the Director, 
Operational Test and Evaluation. This test consisted of 18 sorties and 
147.6 flight hours. A final report was published in May 1990.

    29. Senator Bingaman. What were the initial program, unit cost, and 
life cycle cost estimates of the B-1B at the time of purchase expressed 
in today's dollars?
    Secretary Roche. The initial cost estimates for the B-1B are shown 
below:

------------------------------------------------------------------------
      Initial Program Estimate ($M) \1\           FY81$         FYO1$
------------------------------------------------------------------------
EMD.........................................       2,538.9       4,582.9
Prod........................................      17,961.1      35,217.8
                                             ---------------------------
    Total...................................      20,500.0      39,800.7
                                             ===========================
Program Unit Cost (100 a/c $M) \1\..........         205.0         398.0
20 year--O&S Cost ($B) \2\..................          9.2          18.0
------------------------------------------------------------------------
\1\B-1B Dec 81 SAR.
\2\ Sep 81 ICA (ACC 505.850).


    30. Senator Bingaman. What are current estimates of program, unit, 
and life cycle costs of the B-1B?
    Secretary Roche. A current life cycle cost estimate is not 
available. However, the development and production estimates for the 
current programs, Average Procurement Unit Cost (APUC), and the 
incremental changes in estimated O&S costs, are shown below:


                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
                   Block D                   ---------------------------
                                                  1999          2001
------------------------------------------------------------------------
EMD.........................................         327.7         337.5
Prod........................................         213.1         219.5
                                             ---------------------------
    Total...................................         540.8         557.0
                                             ===========================
APUC........................................         2.291        2.360
------------------------------------------------------------------------
(93 a/c).



                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
                   Block E                   ---------------------------
                                                  1995          2001
------------------------------------------------------------------------
EMD.........................................         234.6         255.5
Prod........................................         119.3         129.9
                                             ---------------------------
  Total.....................................         353.9         385.4
                                             ===========================
APUC........................................         1.181        1.286
------------------------------------------------------------------------
(93 a/c & 8 simulators).



                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
                   Block F                   ---------------------------
                                                  1996          2001
------------------------------------------------------------------------
EMD.........................................         376.5         402.1
Prod........................................         427.9         457.0
                                             ---------------------------
  Total.....................................         804.4         859.1
                                             ===========================
APUC........................................         4.601         4.914
------------------------------------------------------------------------
(93 a/c--excluding simulators, decoys, and technique generators).


                                O&S COSTS
------------------------------------------------------------------------
                                                  Average Annual Cost
                                                      Fiscal Year
                   Block D                   ---------------------------
                                                  1997$         2001$
------------------------------------------------------------------------
Mission Pay & Allowances....................          52.1          58.5
Unit Level Consumption......................          31.8          35.1
Interrnediate Maintenance...................           N/A           N/A
Depot Maintenance...........................           N/A           N/A
Contractor Support..........................           N/A           N/A
Sustaining Support..........................          32.7          36.1
Indirect Support............................           5.9           6.6
                                             ---------------------------
  Total.....................................         122.5         136.3
------------------------------------------------------------------------


                                O&S COSTS
------------------------------------------------------------------------
                                                  Average Annual Cost
                                                      Fiscal Year
                   Block E                   ---------------------------
                                                  1995$         2001$
------------------------------------------------------------------------
Mission Pay & Allowances....................           N/A           N/A
UnitLevel Consumption.......................           0.5           0.6
Intermediate Maintenance....................           N/A           N/A
Depot Maintenance...........................           N/A           N/A
Contractor Support..........................           N/A           N/A
Sustaining Support..........................           6.7           7.5
Indirect Support............................           N/A           N/A
                                             ---------------------------
  Total.....................................           7.2           8.1
------------------------------------------------------------------------


                                O&S COSTS
------------------------------------------------------------------------
                                                  Average Annual Cost
                                                      Fiscal Year
                   Block F                   ---------------------------
                                                  1996$         2001$
------------------------------------------------------------------------
Mission Pay & Allowances....................           1.6           1.8
Unit Level Consumption......................           6.0           6.8
Intermediate Maintenance....................           N/A           N/A
Depot Maintenance...........................           N/A           N/A
Contractor Support..........................           N/A           N/A
Sustaining Support..........................           1.7           1.9
Indirect Support............................           0.1           0.1
                                             ---------------------------
  Total.....................................           9.4          10.6
                                             ===========================
  Grand Total...............................  ............         155.0
------------------------------------------------------------------------


    31. Senator Bingaman. Were major modifications of the B-1B or its 
major components made subsequent to the initial purchase? If so, please 
describe those modifications, indicate when and why they were made and 
an estimate of their total cost.
    Secretary Roche. HQ Air Combat Command specified the need for an 
improved conventional mission capability on the B-1B in 1992. This is 
in the process of being accomplished via the Conventional Mission 
Upgrade Program (CMUP). For greater economy and efficiency, the B-1 
program pursues CMUP upgrades in integrated blocks.
    A description of the currently defined upgrade blocks follows:
    Block C: Provided the B-1 with the capability to carry 10 Cluster 
Bomb Units (CBUs) per bay--for a total of 30 per aircraft. In addition, 
the B-1's Conventional Bomb Modules (CBM) were modified from their 
original 28-carry configuration to the 10-carry configuration required 
for the new CBUs. Three variants of the CBU were certified--the CBU 87, 
CBU 89, and CBU 97.
    Status: Block C is complete. Full Operational Capability was 
achieved in September 1997.
Contract Cost:
    EMD: $7.9 million
    Produetion:  18.6 million
    Total: $26.5 million
    Block D: Provides the B-1 with the capability to perform near 
precision attacks against targets deep in enemy airspace by employing 
up to 24 Joint Direct Attack Munitions (JDAMs)--8 per bay. The 
modification includes installation of a MIL-STD-1760 electrical 
interconnect system, Global Positioning System (GPS) capability, and 
aircraft communications upgrades. In addition, the program includes 
modification of the B-1's rotary launchers to provide the capability to 
carry and employ the JDAM.
    Status: Block D is in production. To date, 84 aircraft have been 
modified to the Block D configuration.
Total Cost:
    EMD: $337.5 million
    Production: $219.5 million
    Total: $557.0 million
    ALE-50 Towed Decoy System: Installs the Navy's ALE-50 Towed Decoy 
System on the B-1 to enhance aircraft survivability in the near-term 
prior to the production and installation of the Defensive System 
Upgrade Program (Block F).
    Status: Modifications to incorporate the ALE-50 Towed Decoy System 
are now being done in conjunction with the Block D modifications. As of 
15 August, 35 aircraft have been modified with the ALE-50.
Total Cost:
    EMD: $45.0 million
    Production: $144.5 million
    Total: $189.5 million
    O&S Costs: Included in Block F
    Block E: Six existing computers will be replaced with four new 
computers and the avionics flight software will be converted/rehosted 
from JOVIAL to Ada. The objective is to increase memory capacity, 
throughput, input/output bandwidth, and growth potential; to improve 
reliability and maintainability; and to provide a flexible weapons 
capability. The current Data Transfer System (DTS) will be replaced 
with a new DTS. In addition to these modifications, Block E provides 
for the integration of three new weapons on the B-1: Wind Corrected 
Munitions Dispenser (WCMD), Joint Standoff Weapon (JSOW), and Joint 
Air-to-Surface Stand off Missile (JASSM).
    Status: Block E is currently in development. Flight testing began 
in December 2000. A production decision will be made in 2QFY03.
Total Cost:
    EMD: $255.5 million
    Production: $129.9 million
    Total: $385.4 million
    Block F: The existing ALQ-161 defensive system, designed and 
optimized for the strategic nuclear mission, has limited effectiveness 
in the B-1's conventional mission. The last of the currently approved 
CMUP blocks, the Defensive System Upgrade Program (DSUP), will remove 
most of the ALQ-161 system and replace it with an upgraded AN/ALR-56M 
radar warning receiver and the RF Countermeasures (RFCM) portion of the 
Navy's IDECM program. The RFCM portion includes a techniques generator 
and a fiber optic towed decoy (FOTD). A non-developmental item (NDI) 
low band transmitter for on-board jamming will be installed to provide 
the requisite threat coverage. These new systems will significantly 
improve aircrew situational awareness and the survivability of the B-1 
against the emerging threat. In addition, the new systems will 
substantially reduce defensive system operating costs while improving 
reliability and maintainability.

    32. Senator Bingaman. Identify time and place and number of 
aircraft used in operational missions since the initial purchase of the 
B-1B.
    Secretary Roche. Operation DESERT FOX (Iraq), December 1998. Six B-
1s deployed, four strike missions flown.
    Operation Allied Force (Serbia), April-May 1999. Five B-1s 
deployed, 74 strike missions flown.

    33. Senator Bingaman. Identify the annual average readiness rate of 
the B-1B since deployment.
    Secretary Roche. The current average annual aircraft mission 
capable (MC) rate for the B-1B fleet is 59.4 percent which includes 
active duty and ANG forces. This is an increase of 2.8 percent from the 
fiscal year 1991 MC rate of 56.6 percent. During this period the 
highest annual MC rate was in fiscal year 1996 at 68.6 percent and the 
lowest was in fiscal year 1998 at 52.3 percent.

----------------------------------------------------------------------------------------------------------------
                                      1991   1992   1993   1994   1995   1996   1997   1998   1999   2000   2001
----------------------------------------------------------------------------------------------------------------
B-1 Overall MC.....................   56.6   58.3     59   67.1   65.3   68.6   62.5   52.3   55.2   53.7  59.4
----------------------------------------------------------------------------------------------------------------
Source: MERLIN as of 1 Jun 01.


    34. Senator Bingaman. Identify dates and time periods when the B-1B 
fleet in whole or part was grounded and indicate the reason.
    Secretary Roche. The following table provides B-1 grounding 
information: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
               Questions Submitted by Senator Pat Roberts
    35. Senator Roberts. You stated you participated in a ``what if 
drill'' with respect to possible reductions of the B-1. The official 
National Guard Bureau position paper on this matter, however, indicates 
you were surprised by the OSD decision, which leads one to believe you 
were not included in the process when the final decision was made.
    Were you, or were you not, included in the final decision process?
    General Weaver. I was involved in a number of internal Air Force 
``what if'' drills on several force structure issues, including the B-
1. However, I was not involved in the final decision process on the B-1 
as the concept went from a ``what if'' to an OSD budget decision.

    36. Senator Roberts. Were any Adjutants General included in the B-1 
reduction/consolidation decision?
    General Weaver. No, neither the Kansas or Georgia Adjutant General 
was included in the B-1 reduction/consolidation decision process.

    37. Senator Roberts. If they were not, do you believe they should 
be included in these kinds of decisions, and how would you suggest that 
be done?
    General Weaver. There is a point in any decision process affecting 
ANG force structure and manpower where ANG senior leadership must 
include the appropriate senior leaders in the States. Depending on the 
extent and impact of the issue, early involvement is best. The State 
leadership's insights and inputs are invaluable tools, particularly as 
significant ``what-if'' drills are developed.
    The State leadership, especially the Adjutant General, is a 
valuable link between the National Guard Bureau and the field units, 
which also include the family and employer segments. The Adjutants 
General can provide in-depth and seasoned guidance on potential 
decisions and the associated impacts, and expertise on their unit's 
ability to recruit and retain qualified people for force structure, 
mission or basing changes. They can also assist in the strategies to 
best implement and communicate sensitive issues and decisions to their 
personnel and communities.
    When and how the Adjutants General are involved is the 
responsibility of the National Guard Bureau. If informed well in 
advance of a decision, the Guard Bureau can effectively engage the 
State leadership within the decision process loop as opposed to at the 
end of a completed decision.

    38. Senator Roberts. As the USAF took the B-1 out of the nuclear 
role and considered putting B-1s in the National Guard in 1992, I 
believe the USAF position was ``placing bombers in the Reserve 
component is considered fiscally prudent with no loss in warfighting 
capability'' and that ``Reserve component maintenance programs and 
performance records are exceptional and they will perform the bomber 
mission credibly.''
    Has this position now changed?
    General Jumper. No. The decision is not based on credibility or 
lack thereof of the Reserve component. The decision is based on a 
requirement to maintain the B-1 as viable, survivable and lethal 
throughout the next decade. Our studies have indicated that 60 fully 
capable B-1s, in synergy with the remaining bomber fleet, will meet the 
Nation's global security requirements we foresee today. Within today's 
constraints, increased savings were available by consolidating the 
remaining B-1 force structure at Dyess and Ellsworth. This generated no 
construction requirements and released both active and ANG personnel 
for other high priority Air Force missions.

    39. Senator Roberts. I understand that to pay for the B-1 Block D 
upgrade the USAF employed an internal funding strategy of temporarily 
reducing the primary combat aircraft (those that were fully funded with 
aircrew and maintenance), adding the B-1 to the Guard, and leaving the 
remainder in Attrition Reserve status with a plan to buy them back 
after the upgrade was complete. I understand that was done successfully 
and today we have all 93 B-1s upgraded and capable of employing the 
JDAM. Instead of using that internal USAF funding strategy again, 
however, this time USAF leadership proposes to eliminate 33 of our 
largest weapons delivery platforms, accept a higher level of risk, and 
end up with a much smaller bomber force.
    Why not use the same upgrade funding strategy now the USAF used for 
the Block D upgrade?
    General Jumper. The internal funding strategy you describe placed 
mission aircraft in attrition Reserve and captured the operations and 
maintenance savings to support modernization. This strategy was 
successful in supplying additional funding for the JDAM capability, 
DSUP development and addition of the ALE-50 towed decoy.
    The reason an additional internal savings strategy would not work 
lies in the goals of the consolidation--reducing duplicative small 
scale operations, cost avoidance associated with larger units and not 
to aggravate potential base closure issues. Reduction of the ANG units 
with a plan to resurrect them in a few years detracts from the key 
elements of experience and stability the ANG brings to the Air Force 
and complete retraining to a new mission with an intention to revert to 
the B-1 at a later date would not be practical. Reductions at Ellsworth 
and Dyess would result in four B-1 bases rather than the current five, 
which would work counter to the increased savings and efficiencies we 
seek to achieve with B-1 consolidation.

    40. Senator Roberts. With the B-1 getting the Joint Air to Surface 
Standoff Missile (JASSM) in 2003, why would the USAF choose to reduce 
the B-1 fleet when each B-1 carries twice as many JASSMs as a B-52 and 
B-52 (planned) upgrades are more expensive per aircraft than the B-1?
    General Jumper. As of 6 August 2001, there were 82 JDAM-capable 
(Block D upgrade) B-1s. Block D modifications will be complete by 
Spring 2002.
    The B-1 does carry more JASSMs per aircraft than either the B-52 or 
the B-2. The B-1 consolidation decision was based on current fiscal 
constraints and total bomber concept of operations, not bomber versus 
bomber. The AF will use savings incurred from B-1 consolidation to 
upgrade the remaining B-1 force and enhance overall mission 
effectiveness.

    41. Senator Roberts. I understand the B-2 and B-52 cost more to 
upgrade (per aircraft) over the FYDP than the B-1. Is it possible we 
may have to cut force structure in those two programs to pay for 
upgrades?
    General Jumper. There is no current plan to cut B-2 or B-52 force 
structure as a method to fund modernization. Although the B-52 
currently has 17 aircraft that are excess to need, these aircraft are 
unfunded within the Air Force program and would result in no savings 
with their retirement.

    42. Senator Roberts. Please inform me as to the estimated cost of 
funding an additional 12 combat coded B-1s, bringing the reduction/
consolidation plan for a 60 B-1 force with 36 combat coded aircraft to 
a force of 72 with 48 combat coded B-1s.
    General Jumper. The costs to modify, operate, and sustain an 
additional 12 combat coded B-1s is presented below. The requirements 
assume the B-1 consolidation proposal, as described in the fiscal year 
2002 PB, is implemented. Any deviation from the proposed consolidation 
would result in a revised funding profile for an additional 12 
aircraft.

----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal Year
                                                       ------------------------------------------------   Total
                                                         2002    2003    2004    2005    2006    2007
----------------------------------------------------------------------------------------------------------------
APAF..................................................    98.5    60.3    50.3    44.7    53.6    59.6     367.0
O&M...................................................    16.5    15.7    14.7    15.4    14.4    14.1      90.8
Guard O&M/MILPERS.....................................   126.7   123.0   124.5   122.2   115.2   107.6     719.2
                                                       ---------------------------------------------------------
  Total...............................................   241.7   199.0   189.5   182.3   183.2   181.3   1,777.0
----------------------------------------------------------------------------------------------------------------

    In addition to the 12 additional combat coded jets, the funding 
requirements include 2 backup aircraft, 2 attrition Reserve aircraft, 
and 3 training coded jets necessary to support an additional 12 combat 
coded jets. The resulting force structure would be 79 B-1 aircraft with 
48 combat coded. Finally, the estimate includes the cost to increase 
independent and dependent Mobility Readiness Spares Packages (2 each) 
for the additional 12 combat coded jets and the necessary modifications 
to improve their lethality, survivability, and supportability.

    43. Senator Roberts. Please assess and report on the additional 
combat capability (i.e., JDAM deliveries) you get by employing this 
larger force and the measure of risk you reduce by doing so.
    General Jumper. Twelve additional combat coded B-1s would be able 
to employ 288 JDAMs per mission (24 JDAMs per B-1). However, combat 
capability and risk are situation dependent and difficult to quantify. 
The aircraft/weapon combination selected for any combat mission is 
dictated by threat environment and desired effects.
    For example, a B-1 loaded with JDAM can theoretically destroy more 
targets on a single mission than a B-2 can. However, a B-1 cannot 
penetrate into a high threat environment like a B-2 can. In a 
permissive environment, the B-1/JDAM combination might be the weapon 
system of choice. But a higher threat environment would require either 
a more survivable platform or the use of standoff weapons, e.g., JASSM, 
JSOW, and/or CALCM.

    44. Senator Roberts. After a recent Congressional Air Force Caucus 
Breakfast, a number of Air Force supporters were left with the 
impression that you do not believe any fighter aircraft (F-16, F-15) 
should be operated by the National Guard.
    Is it your intention to attempt to remove fighter aircraft from the 
National Guard and make that organization primarily a support element?
    Secretary Roche. Fighter aircraft units in the National Guard are 
integral aspects of our Total Aerospace Force. The Guard today performs 
about 34 percent of the Air Force mission, with only about 7.2 percent 
of the budget.
    The real issue is, do we have the right combinations of things for 
the century we are in today and tomorrow, not the century from which we 
have just come. As part of the current military review process we are 
taking a hard look at our organizations and our total capabilities, 
together with the Guard and Reserve.
    The Air Force is in the business of global reconnaissance and 
strike, and we will employ all the assets that we have--active force, 
Guard, and Reserve. For each of those components, we're determining the 
appropriate division of labor and responsibility. The things that are 
information-based on the reconnaissance part and the strike part are so 
stressing that we need people with experience, with good judgment, and 
brains--those are surely Guard characteristics. To date, we've excluded 
the Guard from some very applicable missions and we need to rectify 
that. However, we can not at this time promise any specific roles and 
missions. But I can pledge that the views of the Guard and the Reserves 
will be fully considered and represented as we prepare the Air Force of 
tomorrow.
    ``Strike'' really means ``strike system''--F-15s, F-16s, for 
example, are a part of strike--but so are the Joint Stars, AWACS, and 
the space and information systems that participate in significant ways 
in the strike operations. There is much, much more involved in strike 
than just flying an airplane. In the future we're going to need the 
Guard to be an integral part of our strike mission across the spectrum 
of conflict.

    45. Senator Roberts. I believe Congress and the Secretary of 
Defense agree with you that the future will call for changing the way 
USAF does business. Accordingly, would you consider an Air Force 
Associate concept where the National Guard owns and operates the 
aircraft that are also flown by active crews (similar to today's 
Reserve Associate units who have reservists that fly active aircraft)?
    Secretary Roche. Yes. The AF already has an active associate unit 
in Florida where the aircraft are primarily managed by the AFRC with a 
complement of active duty personnel, including pilots, assigned to the 
Reserve unit at Duke Field. AF Future Total Force Project planning and 
concept development has advocated, for several years, increased use of 
``active associate'' personnel assignment to ARC operated bases. 
Current planning is underway, led by the Air Mobility Command, to 
increase the use of active duty personnel assigned to Reserve units 
across the Nation. The new C-17 unit for the Mississippi Air National 
Guard will include a significant assignment of active duty aircrews 
while utilizing increased numbers of ANG full time technician 
maintenance personnel. AMC is also currently analyzing possible 
assignment of AD aircrews and some other personnel to the ARC managed 
C-5 units in Massachusetts, Texas, and New York. Future Total Force has 
several recent studies that validate the cost effectiveness of such 
``active associate'' organizational structures in the air refueling and 
transport missions, and the Reserve Component 2005 study, completed by 
AF on fighters, also indicated potential for such increased integration 
if certain policy parameters were expanded. Current structures, 
organization, and personnel policy do not adequately provide needed 
flexibility to meet the new situation. A blending of the personnel 
characteristics of the current components, some restructured 
organizational design, particularly at the intermediate Headquarters 
levels, and changes in attitude will be required to most effectively 
utilize all three current AF components. Some of this change is already 
underway, and expansion of active associate type units will permit 
lowered infrastructure costs, increased capability and responsiveness 
of ARC units, and ``seamless'' readiness training in time of 
mobilization and full wartime operations.

    [Whereupon, at 11:05 a.m. the subcommittee adjourned.]

                                 <all>

</pre></body></html>
